<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-901]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-901
 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2003
=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 5431/S. 2784

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2003, AND FOR OTHER PURPOSES

                               __________

                        Department of Defense
                          Department of Energy
                       Department of the Interior
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate









                       U. S. GOVERNMENT PRINTING OFFICE
78-471                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                                 ______


                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                      HARRY REID, Nevada, Chairman
ROBERT C. BYRD, West Virginia        PETE V. DOMENICI, New Mexico
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        ROBERT F. BENNETT, Utah
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
TOM HARKIN, Iowa                     LARRY CRAIG, Idaho
                                     TED STEVENS, Alaska (ex officio)

                           Professional Staff

                             Drew Willison
                          Clay Sell (Minority)
                        Tammy Perrin (Minority)

                         Administrative Support

                             Nancy Olkewicz
                       LaShawnda Smith (Minority)
                            C O N T E N T S

                              ----------                              

                         Friday, March 8, 2002

                                                                   Page
Department of the Interior.......................................     1

                         Friday, March 15, 2002

Department of Energy.............................................    49

                         Monday, March 18, 2002

Department of Energy.............................................   103

                        Thursday, April 18, 2002

Department of Energy.............................................   153

                       Nondepartmental Witnesses

Energy programs..................................................   211
Water programs...................................................   237


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                         FRIDAY, MARCH 8, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:12 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Harry Reid (chairman) presiding.
    Present: Senators Reid, Domenici, Bennett, and Burns.

                       DEPARTMENT OF THE INTERIOR

STATEMENT OF BENNETT W. RALEY, ASSISTANT SECRETARY FOR 
            WATER AND SCIENCE
ACCOMPANIED BY:
        JOHN W. KEYS, III, COMMISSIONER, BUREAU OF RECLAMATION
        J. RONALD JOHNSTON, PROGRAM DIRECTOR, CENTRAL UTAH PROJECT 
            COMPLETION ACT
        ROBERT WOLF, DIRECTOR, PROGRAM AND BUDGET, BUREAU OF 
            RECLAMATION
        PAM HAZE, DEPUTY DIRECTOR OF BUDGET, DEPARTMENT OF THE INTERIOR


             opening statement of senator pete v. domenici


    Senator Domenici. The hearing will please come to order.
    Senator Reid is tied up for a while. He will probably be by 
shortly, but he indicated to me just now that he would like to 
get started, so I think I am going to do that.
    First, let me thank the witnesses for appearing today and, 
in advance, thank you for your testimony.


                           prepared statement


    I want to also commend Chairman Reid for the outstanding 
job he has done in chairing the subcommittee since June of last 
year. I have a statement that goes into more detail, talks a 
little bit about the Bureau of Reclamation and their budget. 
Obviously, things are going fairly well for the Bureau of 
Reclamation and we want to hear their testimony here today. 
With that, I will put my statement in the record and we will go 
to work.
    [The statement follows:]

             Prepared Statement of Senator Pete V. Domenici

                              introduction
    First, let me join Senator Reid in welcoming this distinguished 
panel of witnesses.
    I would also like to commend Chairman Reid on the outstanding job 
he has done in chairing this subcommittee since June of last year. He 
has continued the fair and non-partisan tradition in which this 
committee has always conducted its affairs, resulting in an outstanding 
appropriations bill in the last cycle.
    I believe this is your first hearing as Chairman, and I once again 
look forward to working with you during the course of the year.
    The purpose of today's hearing is to review the fiscal year 2003 
budget request of the Bureau of Reclamation and the Civil Works program 
of the Army Corps of Engineers. I would like to make a few comments 
about their budget requests.
                         bureau of reclamation
    The fiscal year 2003 budget for the Bureau is $886 million, a 
reduction of $57 million from the current year level.
  --The largest reduction in the Bureau's budget is in the Water and 
        Related resources account, where the bulk of the Bureau's 
        activities are funded. This account funds the Bureau's efforts 
        to sustain ecosystems while assisting States, tribes, and local 
        entities in solving their water resource issues. The 
        President's budget provides $726 million for this account, a 
        $36 million reduction over the fiscal year 2002 enacted level.
  --The funding level recommended is of concern to me because we in the 
        West always have a great need for water and greater 
        efficiencies of its use.
    In addition, we are increasingly seeing endangered species 
competing with people for water.
  --I have this problem in my home State of New Mexico, with the 
        silvery minnow, a recognized endangered species along the Rio 
        Grande.
  --I have worked hard to get the parties to come to agreement on the 
        minnow and I've fought to provide funding for silvery minnow 
        conservation efforts.
  --My hope is that if we can come to an agreement and we can find some 
        kind of equitable solution, then perhaps what we're doing in 
        New Mexico could be used as a model by other States.
    The Bureau is also balancing the needs of many while exercising the 
rights of the few, particularly in its role in fulfilling the Federal 
obligation in water rights settlements to Native American tribes, 
something I also have experienced within my State.
    Increasingly, tribes are seeking Federal water rights settlements 
which ultimately result in the construction of water systems by the 
Bureau.
    I am anxious to hear from the witnesses as to how they intend to 
manage the many challenges before the Bureau with a budget that is 
substantially below current year.
              army corps of engineers--civil works program
    In light of the recent changes in leadership at the Army Corps of 
Engineers, the Corps will only be submitting written testimony today. 
However, I would like to take a few minutes to talk about the Corps' 
budget.
  --The fiscal year 2003 budget request for the Corps of Engineers' is 
        $4.026 billion, a $599 million reduction over last year's 
        level. In total a 13 percent reduction.
  --The construction program is down $276 million from last year, as 
        well as the general investigations program, down $108 million 
        from last year.
    Adequate funding for the Corps of Engineers is critical to our 
economy in many regions of the country. Let me repeat some well known 
facts--
  --The ports and waterways the Corps maintains, is where over 90 
        percent of our foreign trade occurs.
  --Each $1 invested in flood protection project reduces flood damages 
        and relief costs by $1.50.
  --Every $1 invested in navigation improvements raises America's 
        productivity by $3.
  --Flood control infrastructure, as of 1997, has prevented $706 
        billion of damage.
                                closing
    Overall, I support the President's budget plan for fiscal year 
2003, and I support the President's budget priorities to shore up 
homeland defense, national security and the health of our economy.
    I do believe, however, that this budget is setting some challenges, 
particularly in the area of water infrastructure. Some of the 
administration's proposed budget cuts are difficult to accept. Budgets 
mean setting priorities, and that will be a big challenge this year.
    In years past, as Chairman of the Energy and Water Development 
Subcommittee on Appropriations, I took on the task of ensuring 
sufficient funding for both the Corps of Engineers' and the Bureau of 
Reclamations' programs. As the Ranking Member of the Appropriations' 
subcommittee, I plan to continue this role.

    Senator Domenici. Let us start with the first set of 
witnesses. I understand that we lead off with Bureau of 
Reclamation Assistant Secretary for Water and Science, Bennett, 
Raley. Are you prepared to lead off today?

              ASSISTANT SECRETARY RALEY'S OPENING REMARKS

    Mr. Raley. Yes, sir. Thank you, Mr. Chairman
    On behalf of the Secretary of the Interior, it is a 
pleasure to be here today with you to talk about the 
Department's 2003 budget proposal. I am accompanied today by 
John Keys, the Commissioner for the Bureau of Reclamation; by 
Robert Wolf, the Budget Director for the Bureau of Reclamation; 
by Pam Haze with the Interior's budget office; and by Robert 
Johnston, who is the Program Director for the Central Utah 
Project, and who also reports directly to me.
    In light of the schedule that the Senate has today, I would 
first ask that my written remarks be included within the 
record.
    Senator Domenici. So ordered. Written statements that any 
of you have will be made a part of the record as if you gave 
them, and proceed to do it as you would like, as briefly as you 
can.
    Mr. Raley. I will further truncate my opening remarks so 
that the scarce time that the senator and his colleagues may 
have is preserved for your questions rather than for our 
opening statements.
    I just want to thank again the committee for its support, 
for the close working relationship that we have with all of the 
Members of the Committee, and with the staff. We at Interior 
feel well served by this subcommittee and welcome the 
opportunity to work together as we deal with the important 
issues that we jointly share.
    As you know, the Department of the Interior has a major 
role in the Nation's energy and water. The lands that are 
administered by the Department make up one out of every five 
acres of land in the Nation. Those lands include some of the 
most beautiful and pristine places on earth, and they include 
some of the most valuable resources for use for a variety of 
purposes ranging from energy production to recreation.
    In the most recently completed fiscal year, the Department 
collected $11 billion in revenue from the lands and waters that 
we manage and shared $1 billion of this with the States, our 
partners in the onshore leasing program. In 2001, we collected 
$1 billion more than was appropriated to us.
    As the budget process for 2003 began last June, the 
Department was guided by the President's commitment to improve 
the management of public lands and waters, advance the 
development of domestic energy, and improve both the classroom 
and the classroom performance of Indian students. We want to 
manage for excellence through citizen-centered Government, and 
we have worked very hard jointly with Congress to step up to 
meet the President's challenge to address the needs of the 
Nation after the tragic events of September 11. We, as a 
Department, are committing substantial time and resources to 
ensure that the resources that we are charged with are 
protected against all threats. We can only do that by 
cooperating and working with you.
    The Commissioner, if you would like, can go into some of 
the details of those security matters, or we can come back at a 
later time if any Members of the Committee would like to have a 
further briefing on that or other aspects of the Department's 
business.

                      COBELL V. NORTON LITIGATION

    One other aspect of the Department's mission that I wish to 
mention briefly this morning is the Cobell v. Norton 
litigation. As most of you know, the court ordered the 
Department to disconnect most of the computer systems from the 
Internet on December 5, 2001. We are working with the court's 
special master to obtain approval to reconnect them. The Bureau 
of Reclamation came back online last week.
    In the longer term, we have concluded that there is a need 
for a dedicated network to secure trust data. The Department 
will be providing to the Appropriations Committee a re-
programming proposal to address this important need in the 
future. We will be working with you to come back with a revised 
budget and a crosswalk between the current and revised 
proposals as we further understand what is going to be required 
to fulfill the Department's trust responsibility.

                    FISCAL YEAR 2003 BUDGET REQUEST

    From an overall budget perspective, the Department's 2003 
budget request is $881 million in current appropriations, plus 
an additional $25 million for Government-wide accounting 
adjustments for retirement and employee health benefits. For 
the Bureau of Reclamation, the Bureau's request for 2003 is 
$845 million. An additional $25 million is requested for the 
Government-wide legislative proposal to shift pension system 
and health benefit costs to the bureaus. The Bureau's budget 
request also includes $81 million for the Safety of Dams 
program, $26.6 million for enhanced security, and $33 million 
for the Animas-LaPlata Project, which the Chairman and Members 
of this Committee have worked on tirelessly for decades.
    With respect to the Central Utah Project, which is under 
the direct responsibility of the Assistant Secretary for Water 
and Science, the budget is $36.2 million, and an additional 
$24,000 is requested to address the pension system and health 
benefit costs associated with that project. This request 
includes $12 million for use by the district that we are 
cooperating with on that project to continue the modified 
construction of the Diamond Fork system.
    I wish to bring to the subcommittee's attention the fact 
that we will be closing off a section of the original tunnel 
because we experienced an unforeseen cave-in, causing the 
tunnel to fill with water, debris, and dangerous gas. Mr. 
Johnston can discuss, either today or at the leisure of the 
subcommittee, the details of this.

                           PREPARED STATEMENT

    With that, Mr. Chairman, I will conclude, not to avoid any 
issues but so that I can turn this over to Mr. Keys and Mr. 
Johnston and maximize the time for the senators to address 
issues of direct concern.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Bennett W. Raley

    On behalf of the Secretary of the Interior, I am pleased to be here 
today before the Subcommittee on Energy and Water Development to 
present the fiscal year 2003 budget for the Department of the Interior. 
I appreciate the opportunity to highlight a number of important 
initiatives and discuss the requests before this Subcommittee.
    Before I move to the details of the budget request, I'd like to 
make some observations about the role of the Department of the Interior 
in serving our Nation.
  --We provide approximately one-third of the Nation's domestic energy 
        supply. We supply the water that is so vital to the arid West, 
        serving over 31 million people. We manage more than one of 
        every five acres of land in this Nation, including some of the 
        most beautiful and pristine places on earth.
  --We serve people from across the Nation and around the world who 
        come to see us and enjoy nearly half-a-billion visits to our 
        lands each year.
  --Over 200,000 volunteers assist us, a volunteer workforce that 
        outnumbers our own employees by nearly three to one.
  --In the most recently completed fiscal year, we collected $11 
        billion in revenue from the lands and waters we manage. We 
        shared $1 billion of that with the States, our partners in the 
        onshore petroleum-leasing program. In 2001, we collected $1 
        billion more in receipts than was appropriated to us.
    The Department's approach to citizen-centered government is 
organized around the Four C's: conservation through consultation, 
cooperation, and communication. This approach empowers citizens to play 
a larger role in the decision-making process and this is reflected in 
the budget we present to you today.
    As we began the process last June to build this budget, we were 
guided by President Bush's vision of a shared approach to conservation, 
and his commitments to restore our national parks, improve both the 
classrooms and the classroom performance of Indian students; and meet 
our environmental responsibilities in a manner that best reflects the 
innovative nature of our Nation.
    Our budget priorities were reshaped by the events of September 11. 
Interior's employees have responded to the call to increase our 
vigilance and our preparedness for the changed world we face.
    Our 2003 budget request balances these responsibilities and commits 
to:
  --Improve our management of public lands and waters;
  --Advance the President's National energy policy;
  --Improve the lives of Native Americans; and
  --Manage for excellence through citizen-centered governance.
    Our commitment to management excellence means managing well the 
resources entrusted to us. We are working diligently to improve the 
quality, effectiveness, and efficiency of the services we deliver and 
to enhance the accountability and transparency of the work we do with 
the resources of the American people.
                            budget overview
    The Department of the Interior's 2003 budget request is $10.6 
billion in current appropriations, including $270.5 million for a 
government-wide legislative proposal to shift to agencies the full cost 
of the CSRS pension system and the Federal employee health benefits 
program for current employees. Permanent funding that becomes available 
as a result of existing legislation without further action by the 
Congress will provide an additional $2.6 billion, for a total 2003 
Department budget of $13.2 billion.
    Excluding the pension and health benefits legislative proposal, the 
2003 current appropriations request is $10.3 billion, a net decrease of 
$12.7 million from the amounts provided in the 2002 Interior and 
Related Agencies and Energy and Water Development Appropriations Acts. 
The 2003 budget proposal maintains a robust funding level compared to 
historic levels for the Department. The proposal is over 21 percent 
higher than the 2000 appropriation level of $8.6 billion.
    The budget request proposes funding increases for priority programs 
and initiatives, while discontinuing or reducing funding for lower 
priority projects funded in 2002. In addition, the 2003 budget reflects 
the Department's commitment to operate programs more effectively and 
efficiently, by proposing to absorb $57.4 million in uncontrollable 
fixed cost increases and a $20.6 million reduction in travel and 
transportation costs.
    For 2003, the budget request for the Bureau of Reclamation and 
Central Utah Project Completion Act programs funded in the Energy and 
Water Development Appropriations Act is $881.1 million, a decrease of 
$33.1 million below the 2002 Act. This comparison excludes $30.3 
million appropriated in 2002 for emergency response/counter-terrorism.
    Before we discuss the details of the Bureau of Reclamation budget 
and the Central Utah Project, I would like to highlight a few areas of 
concern to all of us.
                           homeland security
    In the wake of the events of September 11, we responded with 
assistance to the rescue and recovery efforts. We also put in place 
security measures to protect our most important national assets, our 
visitors and our employees. We increased park police patrols in 
Washington, D.C., and New York; upgraded park policy security 
equipment; increased guard service and protection for important 
national icons such as the Liberty Bell and St. Louis Arch; and 
instituted around-the-clock security at key Reclamation facilities such 
as Hoover, Glen Canyon, Shasta, and Grand Coulee Dams. The 2003 budget 
request includes $88.8 million to continue enhanced security measures 
at approximately the same level funded in 2002, including $26.7 million 
for the Bureau of Reclamation.
                             trust programs
    Managing Indian trust funds and trust resources is a solemn 
obligation of the Federal Government, and one of the Department's 
greatest challenges. Since taking office in January 2001, the Secretary 
has moved on several fronts to help improve Indian trust management. In 
July 2001, she established the Office of Historical Trust Accounting to 
provide focused efforts to produce a historical accounting for 
individual Indian allottees. The Office has developed a blueprint for 
development of its comprehensive plan for a historical accounting and 
will convey its comprehensive plan to Congress in June 2002.
    During the formulation of the 2003 budget, various issues were 
identified concerning the trust asset management roles of the Bureau of 
Indian Affairs, Office of the Special Trustee for American Indians, and 
other Departmental entities carrying out trust functions. At this same 
time Electronic Data Systems, Inc., was undertaking an independent, 
expert evaluation, indicating that one of the fundamental barriers to 
trust reform is the disorganized scattering of trust functions 
throughout the Department. In November 2001, the Secretary announced 
the outline of a proposal to reorganize and consolidate Indian trust 
management functions into a separate organization. The goal of the 
proposal is to improve management of trust assets by creating clear 
lines of authority for trust reform and trust operations. The 
Department is currently consulting with Tribes to involve them in the 
process of reorganizing the Department's trust asset management 
responsibilities. Discussions will continue with Congress concerning 
the results of the ongoing consultation and the proposed 
reorganization.
    As part of the ongoing Cobell v. Norton proceedings, on December 5, 
2001 the Court ordered the Department to disconnect all of the computer 
systems that house or provide access to Indian trust data from the 
Internet. We are working diligently with the Court's Special Master to 
obtain concurrence to complete reconnection. As of February 11, we are 
providing estimated payments to individual Indian money account holders 
until such time as automated payment systems are resumed. For the 
longer-term, we have concluded that there is a need for a dedicated 
network to secure trust data. The Department will be submitting a 
proposal to reprogram 2002 funding for this network in the near future.
    The 2003 budget request for trust reform and operations is based 
upon the current organizational structure and does not reflect our 
conclusions about the need for a dedicated trust network. As we 
complete the consultation process and move forward with our plans for 
the network we will submit a revised budget that includes a crosswalk 
between the current and revised budget proposals.
    Our budget request contains a major boost in spending for Indian 
trust reform and trust related programs, a nearly $84 million increase, 
the largest increase in the history of trust reform. These additional 
funds are necessary to address the long overdue changes that the 
Secretary is committed to making in the Indian trust program.
                    harnessing our natural resources
    The Department's programs are key to addressing important energy 
supply issues and fostering a dynamic economy, while preserving and 
enhancing environmental quality. Energy projects on federally managed 
lands and offshore areas supply approximately one-third of the Nation's 
energy production. In support of the President's National Energy 
Policy, the budget includes increases of $28.6 million for energy 
related activities, which will allow us to increase our responsiveness 
to increasing demands for energy while increasing environmental 
oversight.
    Secretary Norton is committed to increasing domestic energy 
supplies, including oil and gas on Federal lands from a variety of 
sources in an environmentally acceptable manner. The energy resources 
of the northeast corner and the rest of Alaska's North Slope are 
national assets that can contribute to the Nation's energy security. 
The 2003 budget includes an increase of $3.0 million for activities on 
the North Slope. The increase will support planning for 2004 sales in 
the National Petroleum Reserve-Alaska and the Arctic National Wildlife 
Refuge. Congressional authorization will be required for a lease sale 
to be conducted in the Arctic Refuge. The budget assumes a lease sale 
in 2004 that will generate $2.4 billion in anticipated bonus bids. Of 
this amount, the Federal Government's $1.2 billion share will be 
dedicated to research and development projects on solar power, wind 
energy, biomass power and fuels, geothermal energy, and other 
alternative energy technologies.
                         bureau of reclamation
    The Bureau of Reclamation's request for current appropriations is 
$869.8 million, which includes $24.9 million for the government-wide 
legislative proposal to shift to agencies the full cost of the CSRS 
pension system and the health benefits program for current employees. 
Without the legislative proposal, the 2003 request for the Bureau of 
Reclamation totals $844.9 million, a decrease of $33.1 million from the 
level funded in the 2002 Energy and Water Appropriations Act. An 
additional $30.3 million was appropriated in 2002 for emergency 
response/counter-terrorism.
    The 2003 request for current appropriations is offset by 
discretionary receipts in the Central Valley Project Restoration Fund, 
resulting in a net request for discretionary budget authority of $830.3 
million. The request for permanent appropriations totals $82.3 million.
    The request for the Water and Related Resources account is $739.7 
million, including $13.6 million for the government-wide legislative 
proposal to shift to agencies the pension system and health benefits. 
Without the legislative proposal, the 2003 request is $726.1 million. 
The account total includes an undistributed reduction of $37.9 million 
in anticipation of delays in construction schedules and other 
activities.
    The budget provides a total of $345.0 million for facility 
operations, maintenance, and rehabilitation, an increase of $8.9 
million over 2002 enacted levels. Providing adequate funding for these 
activities continues to be one of Reclamation's highest priorities.
    For 100 years Reclamation has contributed to sustained economic 
growth and an enhanced quality of life in the western States. 
Reclamation water projects have been developed to meet agricultural, 
tribal, urban, and industrial needs. In recent years, the public has 
requested environmental enhancements and more recreational 
opportunities while municipal and industrial users have demanded more 
high quality water. Population growth in the west is leading to greater 
competition for very limited water resources.
    Reclamation's challenge today is to work with its customers, 
States, Tribes, and other stakeholders to find ways to balance and 
provide for this new mix of water resource needs. As a result, 
Reclamation is continuing to develop authorized facilities to store and 
convey new water supplies while placing greater emphasis on: managing 
its existing facilities efficiently and effectively; promoting the 
conservation, reclamation, and reuse of existing water supplies; 
protecting and restoring fish and wildlife resources; and implementing 
business practices that will provide effective and efficient service to 
customers, partners, and employees.
    The 2003 dam safety request of $81.0 million includes an additional 
$8.3 million for the dam safety program to protect the downstream 
public by ensuring the safety and reliability of Reclamation dams. The 
request also includes an increase of $26.6 million for site security in 
response to the events of September 11, 2001.
    For the purposes of environmental compliance and protection, $15.0 
million is requested for the Columbia and Snake River Salmon Recovery 
program. Other funds requested will assist the Bureau in meeting 
objectives for improved water management and environmental compliance. 
Examples include $12.4 million for the Lower Colorado River Operations 
program and $14.3 million for the Klamath project in Oregon and 
California. This project is operated to meet multiple obligations of 
the Department, including providing water for irrigation and wildlife, 
meeting tribal trust obligations, and protecting endangered and 
threatened species.
    The budget includes $15.0 million in the Reclamation account 
established exclusively for implementation of the CALFED Bay-Delta 
Program. Funds provided will be used for ongoing activities within 
existing authorities, including continued work on studies addressing 
water storage needs.
                  central utah project completion act
    The Central Utah Project Completion Act provided for completion of 
the Central Utah Project by the Central Utah Water Conservancy 
District; authorized funding for fish, wildlife, and recreation 
mitigation and conservation; established the Utah Reclamation 
Mitigation and Conservation Commission; and provided for the Ute Indian 
Rights Settlement. As the responsibilities of the Secretary under that 
Act may not be delegated to Reclamation, a Program Office was 
established in Provo, Utah, which provides oversight, review, and 
liaison with the District, the Mitigation Commission, and the Ute 
Indian Tribe.
    The 2003 request provides $36.3 million, including $24,000 for a 
government-wide legislative proposal to shift to agencies the full cost 
of the CSRS pension system and the Federal employee health benefits 
program for current employees. Without the legislative proposal, total 
budget authority for the project in 2003 is $36.2 million, the same as 
the 2002 level. The 2003 request includes: $23.0 million for planning 
and construction activities administered by the district; $11.3 million 
for mitigation and conservation activities funded through the 
Mitigation Commission; and $1.9 million for activities administered by 
the program office, which includes $579,000 for mitigation and 
conservation activities funded through the program office.
    The request includes $12.0 million for use by the District to 
continue the modified construction of the Diamond Fork System. This 
funding will be used to close off a section of the original tunnel that 
experienced an unforeseen cave-in resulting in dangerous levels of 
hydrogen sulfide gas. A plan is being developed for the construction of 
alternative facilities. We are preparing cost estimates for this work 
and will communicate this information to you as soon as a firm estimate 
is available.
                               conclusion
    In conclusion, the 2003 budget provides strong support for 
Interior's programs and for the approximately 70,000 employees that 
carry out our mission. I will be happy to answer any questions that you 
may have.

    Senator Domenici. Thank you very much. Mr. Keys?

                       STATEMENT OF JOHN W. KEYS

    Mr. Keys. Mr. Chairman, it is a pleasure to appear before 
you today and present the President's fiscal year 2003 budget 
request for the Bureau of Reclamation.
    We appreciate the continued support that your committee 
provides to reclamation and the excellent working relationship 
that we have developed between our offices and our staffs.
    I would first ask that my full written statement be 
included in the record.
    Mr. Chairman, we are proud of the Bureau of Reclamation and 
what we do for the Western United States. This year we 
celebrate the centennial for the Bureau of Reclamation and that 
water service to the Western United States.

                 RECLAMATION'S FISCAL YEAR 2003 REQUEST

    As Assistant Secretary Raley has explained, Reclamation's 
request totals almost $870 million in current authority. The 
request includes $726 million for Reclamation's traditional 
Water and Related Resources Programs, $54 million for policy 
and administration, and $25 million for the Government-wide 
legislative proposal to shift to agencies the full cost of 
retirement benefits and health benefits.
    From my perspective, this budget is good news for the West. 
Reclamation is focused on customer value and on the 
Administration's principle of results rather than procedures. 
The fiscal year 2003 request is fiscally responsible and will 
provide funding to keep our dams and facilities safe, deliver 
water, provide a stable source of power for our growing 
population, and support environmental efforts. It demonstrates 
Reclamation's commitment to meeting the West's needs for water 
and power in an efficient and responsive manner.
    The request for the Water and Related Resources account is 
$726 million. This request continues to emphasize the operation 
and maintenance of reclamation facilities in a safe, efficient, 
economic and reliable manner, sustaining the health and 
integrity of ecosystems while addressing the water and power 
needs of a growing population. It also includes assistance for 
States, tribes, and local entities in solving contemporary 
water resources problems.
    Highlights of this budget include $81 million for the 
Safety of Dams Program which funds dam safety corrective 
activities, including modifications that are underway at 
Horsetooth Dam in Colorado and Wickiup Dam in Oregon. It 
includes $28.4 million for site security and counterterrorism 
activities, which funds guards, surveillance, and equipment to 
provide increased security for the public, reclamation 
employees and facilities, our project customers, and our 
information technology systems.
    It includes $33 million for construction of the Animas-
LaPlata Project in Colorado and New Mexico. The fiscal year 
2003 activities include the award of construction contracts for 
Ridges Basin Dam and the Durango Pumping Plant, completion of 
natural gas pipeline relocations, design of the Navajo Nation 
Municipal Pipeline, and continued activities in the cultural 
resource, wetlands, and fish and wildlife mitigation 
activities.
    Our budget also includes $14.3 million for work in the 
Klamath Project in Oregon and California. This will continue 
the operation of the project and provide for studies relating 
to improving water supply and water quality to meet the 
agricultural, tribal, wildlife and environmental needs in the 
basin. Just last week we released the biological assessment for 
the next 10 years of operation for the Klamath Project.
    The budget also includes $128.8 million for the Central 
Valley Project in California. That provides funding to 15 areas 
including operation and maintenance of systems in the Central 
Valley and the Trinity River Valley.
    Our budget also includes $9.5 million for the Colorado 
River Storage Project. Section 5 of the Colorado River Storage 
Project Act works in Arizona, New Mexico, Colorado, Utah, and 
Wyoming. It includes $35 million for the Central Arizona 
Project, $25 million for the Garrison Project in North Dakota, 
$15 million for Columbia-Snake River Salmon Recovery in the 
Northwest, $43.5 million for rural water projects in South 
Dakota, and about $18 million for the Title XVI projects in 
Arizona and California.
    Certainly, I would be happy to provide any details on any 
of these projects that you would like for the record.
    Our budget also requests $49 million for the Central Valley 
Project Restoration Fund. This is offset by discretionary 
receipts totaling almost $40 million collected from project 
beneficiaries.
    The request also includes about $15 million for the 
California Bay-Delta activities that can be undertaken within 
existing statutory authorities.
    Mr. Chairman, as I mentioned before, this year marks the 
centennial celebration for the Bureau of Reclamation. We plan 
to celebrate that all over the West. There are several large 
celebrations. I think we have one scheduled in Montana at 
Canyon Ferry.
    Senator Burns. We just want water.
    Mr. Keys. We look forward to letting you folks know about 
those and hopefully you and your staffs and the Members of your 
Committee can participate in some of those.

                           PREPARED STATEMENT

    That completes my remarks and I would certainly be happy to 
answer any questions that you might have.
    [The statement follows:]

                Prepared Statement of John W. Keys, III

    Thank you, Mr. Chairman, and members of the subcommittee. I welcome 
the opportunity to appear before you today to support the President's 
fiscal year 2003 budget request for the Bureau of Reclamation, which 
totals $869.8 million in current authority, or $830.3 million after 
accounting for the Central Valley Project Restoration Fund offset. The 
request includes $24.9 million for the government-wide legislative 
proposal to shift to agencies the full cost of the Civil Service 
Retirement System pension and the Federal Employees Health Benefits 
Program for current employees, and $726.1 million for Reclamation's 
traditional programs.
    This budget is good news for the West. Reclamation is focused on 
customer value as well as increased accountability and modernization. 
This request is citizen-centered and founded on the Administration's 
principle of results rather than procedures. It is also a fiscally 
responsible request, which will provide funding to keep our dams and 
facilities safe, deliver water, provide a stable source of power for 
our growing population, and support environmental efforts.
                                mission
    As it celebrates its 100th anniversary, Reclamation delivers 10 
trillion gallons of water to over 31 million people in the 17 western 
States for municipal, rural, and industrial uses. Reclamation 
facilities store over 245 million acre-feet of water, serving one of 
every five western farmers to irrigate about 10 million acres of land. 
These irrigated lands produce 60 percent of the nation's vegetables and 
25 percent of its fruits and nuts.
    As the largest water resources management agency in the West, 
Reclamation administers or operates 348 reservoirs, 58 hydroelectric 
facilities with an installed capacity of 14,741 megawatts, and 56,000 
miles of water conveyance systems. Reclamation manages approximately 
8.6 million acres of Federal land, plus another 600,000 acres of land 
under easements. In addition, our facilities provide substantial flood 
control, recreation, and fish and wildlife benefits.
    The economic viability--and in some cases the very survivability--
of the citizens, ranchers, and farmers in the 17 western States depends 
on the effectiveness of Reclamation's stewardship of these valuable 
public resources. Reclamation and its employees take very seriously the 
responsibility and the mission of managing, developing and protecting 
water and related resources in an environmentally and economically 
sound manner in the interest of the American public.
    The impact of Reclamation on the lives and livelihoods of our 
western citizens is highlighted by the following facts: Reclamation is 
the second largest producer of hydroelectric power and the 10th largest 
power producer in the United States, with an average generation of more 
than 42 billion kilowatt hours of energy each year. Reclamation 
produces enough electricity to serve 19 million people, generating over 
$600 million in annual power revenues. In California, Reclamation's 
Central Valley Project generated more than 4.1 billion kilowatt hours 
of energy in 2001, enough power to serve approximately 1 million 
Californians.
                    fiscal year 2003 budget request
    The fiscal year 2003 budget request demonstrates Reclamation's 
commitment to meeting the West's needs for water and power in a 
fiscally responsible manner. This budget continues Reclamation's 
emphasis on delivering and managing these valuable public resources. In 
cooperation and consultation with State, tribal, and local governments, 
along with other stakeholders and the public at large, Reclamation 
offers workable solutions regarding water and power resource issues 
that are consistent with the demands for power and water, and with the 
need to pursue cost effective, environmentally sound approaches to 
meeting those demands.
    Reclamation's budget request reflects the need to address an aging 
infrastructure, operation and maintenance of Indian rural water 
projects, and rising costs and management challenges associated with 
scarce water resources. As its infrastructure ages, Reclamation must 
direct increasing resources toward technological upgrades, new science 
and technologies, and preventative maintenance to ensure reliability, 
increase output, and improve safety. Reclamation's legal responsibility 
for managing the ongoing operations and maintenance of certain Indian 
rural water projects, as portions of them are completed, also places 
substantial pressure on our overall budget.
    One of Reclamation's strategies for meeting these new challenges is 
using the Secretary's four ``C's:'' ``. . . Consultation, Cooperation 
and Communication all in the service of conservation . . . .'' These 
principles provide Reclamation an opportunity, in consultation with 
stakeholders, to use decision support tools, including risk analyses, 
and to develop the most efficient and cost-effective solutions to the 
complex challenges that we face.
    The demand for skills in such areas as negotiating agreements with 
Tribal Governments, negotiating title transfer agreements, mediating 
disputes among stakeholders, and renewing existing contracts represent 
a formidable challenge in the human resource arena. Balancing the 
demand for service delivery is always a challenge. Complementing 
supply-oriented solutions, with innovative approaches to water and 
power conservation and programs for wastewater recycling, are being 
explored.
    Every day we see water resource needs important to our State, local 
and tribal partners. Many States are developing state-wide water plans 
or drought contingency plans, for instance, to address resource 
utilization and stewardship against the backdrop of large population 
increases and the growing notion of sustainable development. 
Reclamation, in partnership with other Federal, State, local, tribal, 
and private entities, has consistently proven its ability to help 
assess the potential for optimum water use. This technical capability 
is one of our most valuable resources.
    Some of Reclamation's budget priorities as we celebrate our 100th 
anniversary of service are to:
  --Operate and maintain projects in a safe and reliable manner, 
        protecting the health and safety of the public and Reclamation 
        employees
  --Ensure continued water deliveries and power benefits consistent 
        with environmental and other requirements
  --Honor States rights and interstate compacts to Reclamation users
  --Continue our important role in meeting increasing demands for 
        finite water resources
  --Enhance effectiveness in addressing complex water management issues 
        in the West.
                      water and related resources
    The fiscal year 2003 request for the Water and Related Resources 
account is $739.7 million, including $13.6 million for the Civil 
Service Retirement System and Federal Employees Health Benefits Program 
Administrations Proposal. The request provides funding for five major 
program activities: Water and Energy Management and Development ($289.5 
million), Land Management and Development ($40.2 million), Fish and 
Wildlife Management and Development ($89.4 million), Facility 
Operations ($182.7 million), and Facility Maintenance and 
Rehabilitation ($162.3 million). The request is partially offset by an 
undistributed reduction of $37.9 million, in anticipation of delays in 
construction schedules and other planned activities.
    The request continues to emphasize the operation and maintenance of 
Reclamation facilities in a safe, efficient, economic, and reliable 
manner; sustaining the health and integrity of ecosystems while 
addressing the water needs of a growing population; and assisting 
States, tribes, and local entities in solving contemporary water 
resources issues.
    Highlights of the fiscal year 2003 request include:
    Safety of Dams ($81.0 million).--The safety and reliability of 
Reclamation dams is one of Reclamation's highest priorities. 
Approximately 50 percent of Reclamation's dams were built between 1900 
and 1950, and 90 percent of the dams were built before current State-
of-the-art foundation treatment and filter techniques were incorporated 
in embankment dams to control seepage. Continued safe performance 
becomes a greater concern with aging dams and requires a greater 
emphasis on the risk management activities provided by the program.
    Dam safety corrective actions are among the activities funded by 
facility operation, maintenance, and rehabilitation. The fiscal year 
2003 request of $81.0 million for the Safety of Dams Evaluation and 
Modification Program, including Horsetooth Dam in Colorado and Wickiup 
Dam in Oregon, provides for risk management activities throughout 
Reclamation's inventory of 432 dams and dikes, plus preconstruction and 
construction activities for up to 17 dams identified for funding 
through the Safety of Dams Program. The fiscal year 2003 request 
includes $1.3 million for the Department of the Interior Dam Safety 
Program.
    Site Security/Counter Terrorism ($28.4 million).--Funds are being 
requested for continued heightened public safety and security efforts 
at Reclamation facilities. This includes $26.6 million specifically for 
counter terrorism measures including guards and surveillance, and 
equipment to provide increased security for the general public, 
Reclamation employees and facilities, and Information Technology 
security. During fiscal year 2002, $30.2 million was provided to 
Reclamation through the Department of Defense Appropriations Bill.
    Animas-La Plata in Colorado and New Mexico ($33.0 million).--In 
December 2000, Congress enacted legislation to resolve the Colorado Ute 
Indian Tribes' water rights claims and allow construction of a smaller 
Animas``)La Plata Project to proceed. Work planned for fiscal year 2003 
includes the continuation of cultural resource mitigation activities; 
completion of natural gas pipeline relocations; wetlands and fish and 
wildlife mitigation land acquisition and development; design on the 
Navajo Nation Municipal Pipeline; and the award of construction 
contracts for Ridges Basin Dam and the Durango Pumping Plant.
    Central Arizona Project ($34.7 million).--The request continues 
construction of the Gila River Indian Community Distribution System and 
other Indian distribution systems; work on recreation development; and 
fulfillment of endangered species mitigation commitments for Roosevelt 
Dam and for the CAP Aqueduct on the Gila, Santa Cruz, and San Pedro 
Rivers. Funding is also requested to continue working with Tucson area 
municipal entities on CAP reliability features.
    Central Valley Project (CVP) ($128.8 million).--This provides 
funding for 15 units, for operation and maintenance of the Central 
Valley project. Among the activities proposed for funding is $5.4 
million for the Placer County Water Agency Permanent Pumping facility 
and closure of the diversion tunnel and river restoration, management 
of contracts for land, grounds and buildings for Auburn-Folsom South 
Unit. The President's budget provides for the Replacements, Additions, 
and Extraordinary Maintenance Program ($16.0 million), funds work on 31 
replacement, addition, and extraordinary maintenance (RAX) items 
including overhaul of unit 3 at the Shasta Powerplant.
    Colorado River Storage Project, Section 5 in Arizona, Colorado, New 
Mexico, Utah, and Wyoming ($9.5 million).--Funds will begin water right 
activities as well as fund protection from activities of others that 
may adversely impact project operations. The request also funds 
construction activities associated with the Upper Stillwater Dam 
construction deficiency. Coordination with local, State, and Federal 
agencies on water quality management activities will continue as will 
land resource management activities associated with administering 
project lands. The funding will also continue recreation management 
oversight for project facilities, administration and compliance of 
repayment contracts, and management of the integrated pest management 
program for the project facilities and monitoring of Jordanelle 
wetlands.
    Columbia-Snake River Salmon Recovery in Idaho, Oregon, Montana, 
Washington and Wyoming ($15.0 million).--This program addresses 
Reclamation's legal requirements contained in the biological opinions 
issued in December 2000 by the National Marine Fisheries Service and 
the Fish and Wildlife Service.
    Garrison Diversion Unit in North Dakota ($25.2 million).--Funds are 
requested for cooperative agreements with the State of North Dakota and 
Tribes for municipal, rural, and industrial water projects, for 
development of Indian irrigation facilities, for work at several 
wildlife refuges, and for operation and maintenance of completed 
project facilities.
    Klamath Project in California and Oregon ($14.3 million).--The 
request continues funding for studies and initiatives related to 
improving water supply and quality to meet agriculture, tribal, 
wildlife refuge, and environmental needs in the Klamath River Basin and 
for improvements in fish passage and habitat.
    Lower Colorado River Operations Program in California, Arizona, and 
Nevada ($12.4 million).--This program funds work necessary to carry out 
the Secretary's responsibilities as water master of the lower Colorado 
River. It also funds measures required by the interim biological 
opinion on Reclamation's lower Colorado River operations, and 
development of a multi-species conservation program to provide a basis 
for Endangered Species Act compliance on the lower Colorado River over 
the long term.
    South Dakota Rural Water Projects ($43.5 million).--The fiscal year 
2003 request includes funding for three South Dakota Rural Water 
Projects: the Mid-Dakota Project ($10.0 million), Mni Wiconi Project 
($31.5 million), and Lewis And Clark Rural Water System, which also 
includes facilities in Iowa and Minnesota ($2.0 million). These 
programs provide assistance for construction of water supply 
transmission lines and storage reservoirs. The Mni Wiconi Project 
provides water supplies to the Oglala Sioux, Rosebud Sioux, and Lower 
Brule Sioux tribes, in addition to the West River/Lyman-Jones Rural 
Water Systems.
    Water Reclamation and Reuse Projects Title XVI ($17.8 million).--
This request continues funding nine studies and projects to recycle and 
reuse water in the arid West. These projects will provide over 500,000 
acre-feet of water annually to help the western States cope with 
drought and to meet the water needs of their rapidly growing 
population.
    Yakima River Basin Water Enhancement Project ($11.9 million).--This 
request continues the implementation of water conservation, fish and 
wildlife improvements, and other measures authorized by the Yakima 
River Basin Water Enhancement Act.
                central valley project restoration fund
    The fiscal year 2003 Reclamation budget includes a request for 
$48.9 million for the Central Valley Project Restoration Fund 
established by the Central Valley Project Improvement Act of 1992. The 
proposal is expected to be offset by discretionary receipts totaling 
$39.6 million, which is the amount that can be collected from project 
beneficiaries under Sec. 3407(d) of the Act. These funds will be used 
to protect, restore, and enhance fish, wildlife, and associated 
habitats in the Central Valley and Trinity River basins of California. 
In addition, the funds will be used to achieve a reasonable balance 
among competing demands for the use of Central Valley Project water, 
including the requirements of fish and wildlife, agricultural, 
municipal and industrial and power contractors. Reclamation is seeking 
appropriations for the full amount of funds of the estimated 
collections for fiscal year 2003.
                    california bay-delta restoration
    Consistent with the commitment to find long-term solutions to 
improving water quality, habitat and ecological functions, and water 
supply reliability, while reducing the risk of catastrophic breaching 
of Delta levees, the fiscal year 2003 budget contains funds for Bay-
Delta activities that can be undertaken within existing statutory 
authorities. The $15.0 million requested in this account will be used 
for the Environmental Water Account and for costs associated with 
administrative support of the CALFED Program, which includes planning 
and management activities provided by Reclamation and through CALFED 
Program staff. Funds provided will also be used to continue work on 
ongoing studies addressing water storage needs.
                             other accounts
    The request for Policy and Administration (P&A) is $66.2 million, 
including $11.3 million for the Civil Service Retirement System and 
Federal Employees Health Benefits Program Administration's Proposal. 
P&A funds will be used to develop and implement Reclamation-wide 
policy, rules, and regulations (including actions under the Government 
Performance and Results Act), and to perform functions which cannot be 
charged to specific project or program activities covered by separate 
funding authority. These funds support general administrative and 
management functions.
    No funding has been requested for fiscal year 2003 for the Loan 
Program. The three projects currently underway will be completed in 
2002. In addition, no funding is requested for loan program 
administration.
            fiscal year 2001-2002 accomplishments highlights
    While we have set our priorities for the future, we are very proud 
of the part Reclamation has played in the past, and I would like to 
mention some recent accomplishments.
    In fiscal year 2001, Reclamation implemented interim surplus 
guidelines to help California with its water use reduction efforts. The 
guidelines provide specific criteria for determining the availability 
of surplus Colorado River water for Nevada, Arizona, and California as 
part of the Annual Operating Plan for the river. From water year 2002 
through 2016, the guidelines ensure California receives much-needed 
Colorado River supplies for urban populations in its southern coastal 
areas, while California concurrently implements programs to reduce its 
overuse of the river. The guidelines also provide additional water for 
other urban areas in Nevada and Arizona. Implementing these guidelines 
will improve overall management of the Colorado River for the benefit 
of all river users.
    Working with the Arizona Water Banking Authority, Central Arizona 
Water Conservation District, Southern Nevada Water Authority, and 
Colorado River Commission of Nevada, Reclamation developed a ``Storage 
and Interstate Release Agreement'' that will improve water management 
in the Lower Colorado River Basin. The agreement was made possible by a 
1999 rule that established procedures for interstate transfer and use 
of Colorado River water. The agreement will allow Nevada to store 
portions of its unused Colorado River water in Arizona groundwater 
aquifers and specifies the exchange process for storing this water in 
Arizona for later retrieval by Nevada.
    Reclamation continued to participate in efforts to settle complex 
water issues in Arizona. Working with Congressional representative; and 
State, local, and Federal entities; Reclamation helped negotiate issues 
related to water contracts with non-Indians and water rights claims of 
area Indian tribes. The issues included settling the Central Arizona 
Project repayment contract and related operation and maintenance issues 
through an agreed-upon ``Stipulation Regarding a Stay of Litigation'' 
between the United States and the Central Arizona Water Conservation 
District, a water rights settlement for the Gila River Indian 
Community, a final amendment to the Southern Arizona Water Rights 
Settlement Act of 1982, and a final allocation of Central Arizona 
Project water to Arizona cities and Indian tribes. Agreements developed 
from these negotiations would require legislation to be fully 
implemented.
    After a long and complex planning and development process, 
Reclamation completed an environmental report on the Northwest Area 
Water Supply Project and released it to interested parties, including 
the Canadian Government, during fiscal year 2001. The Northwest Area 
Water Supply Project is a municipal, rural, and industrial water supply 
system designed to serve a 10-county area in northwestern North Dakota. 
It was authorized by the Garrison Diversion Unit Reformulation Act of 
1986 (Public Law 99-294). Under the project, raw water would be drawn 
from either Lake Sakakawea or Lake Audubon, disinfected, and pumped to 
the Minot water treatment plant through buried pipeline. The Minot 
water treatment plant would then treat the water to meet drinking water 
standards before distributing it in the project service area. Before 
the project could move forward, this compliance report was necessary to 
ensure water treatment meets the requirements of the Boundary Waters 
Treaty of 1909.
    Safety of Dams.--In fiscal year 2001, Reclamation completed Safety 
of Dams modifications at two dams, Salmon Lake (Washington) and Casitas 
(California). Studies on Horsetooth were completed in fiscal year 2000. 
The first major contract at the Horsetooth Reservoir Dams, which 
provide municipal and industrial water to some of the fastest growing 
communities in the West, was awarded in fiscal year 2001. The 
Modification (MOD) Report for Horsetooth was approved in the first 
quarter of fiscal year 2001.
    Drought.--Reclamation's Drought Emergency Assistance Program 
assists States and local entities throughout the West in coping with 
emergency water shortages. Reclamation provided emergency assistance 
through the acquisition of water to mitigate impacts to fish and 
wildlife resulting from prolonged drought conditions in New Mexico on 
the Rio Grande. Reclamation provided emergency assistance to the tribes 
by procuring portable pumps and generators to pump water from existing 
wells when the water table dropped due to drought. Reclamation also 
provided emergency drought assistance to several states and tribes 
through actions such as well repair and drilling.
    Water Conservation and Recycling.--Reclamation's Water Conservation 
Field Services Program has provided assistance to hundreds of local 
water districts in four key areas: planning, education, demonstration, 
and implementation. In specific instances, Reclamation assisted 209 
water districts with water conservation planning. Reclamation formed a 
cooperative cost-sharing partnership with 11 southern California water 
and wastewater agencies under the Southern California Water Recycling 
Projects Initiative.
    In response to Biological Opinions, Reclamation worked to improve 
habitat and flows for endangered fish at its facilities throughout the 
West. It also continued its program to control the salinity of the 
Colorado River. The salinity program, including those projects 
constructed before 1995, is estimated to prevent about 550,000 tons of 
salt per year from entering the Colorado River. Reclamation helped the 
Navajo Department of Water Resources develop and complete a resource 
management plan addressing the Navajo Nation's projected water 
requirements and water resource infrastructure deficiencies. It 
provided several Native American Pueblos with technical or financial 
water management-related assistance through various programs including 
water needs assessments, new pumps and other infrastructure, water 
measurement structures, and automation of flow structures.
                               conclusion
    This completes my statement. Please allow me to express my sincere 
appreciation for the continued support that this Committee has provided 
Reclamation. I would be happy to answer any questions you may have at 
this time.

    Senator Domenici. Thank you very much, Mr. Keys. Are you 
enjoying the job?
    Mr. Keys. Sir, so far so good.
    Senator Domenici. I am not sure you would tell me here 
publicly if you did not.
    Mr. Keys. That is right.
    Senator Domenici. After I asked the question, I wondered if 
I should. But you do look kind of happy, so things are going 
all right?
    Mr. Keys. Yes, sir. I will tell you, we face a hard year in 
the West because a lot of our areas, including yours and Mr. 
Burns, are starting out the year short of water. So it could be 
a hard one coming, but the budget that we have presented is a 
good one. We think it gives us what we need to get the job done 
this year.

                          CENTRAL UTAH PROJECT

    Senator Domenici. Thank you very much.
    Mr. Raley. Mr. Chairman, if I could ask Mr. Johnston to 
address the Central Utah Project, and before I do that I want 
to make sure that when I was listing some of the numbers, 
including monies for dam safety, I was focusing on increases. I 
did not want there to be an appearance of inconsistency between 
the numbers that Mr. Keys and I gave.
    Senator Domenici. Fine.

                      STATEMENT OF RONALD JOHNSTON

    Mr. Johnston. Thank you, Mr. Chairman. I am pleased to be 
here today to testify in support of the President's 2003 budget 
for the implementation of the Central Utah Project. This budget 
provides $36.2 million for the implementation and continued 
construction of this project.
    I would like to ask that my statement be entered for the 
record.
    Senator Domenici. It will be admitted in the record.
    Mr. Johnston. Thank you. I have just one item that I would 
like to point out. This request includes $12 million for use by 
the Central Utah Water Conservancy District to continue the 
modified construction of the Diamond Fork system. The funding 
will be used to close off a portion of the tunnel where we have 
had an unforeseen cave-in and have experienced some hydrogen 
sulfide gas.

                           PREPARED STATEMENT

    We are developing a plan for the construction of 
alternative facilities and are preparing cost estimates for 
this work. We will communicate this information to you when we 
have a firm estimate.
    Thank you.
    [The statement follows:]

                 Prepared statement of Ronald Johnston

    My name is Ronald Johnston. I serve as the Program Director for 
implementation of the Central Utah Project Completion Act under the 
direction of the Assistant Secretary--Water and Science in the 
Department of the Interior. I am pleased to provide the following 
information about the President's fiscal year 2003 budget for 
implementation of the Central Utah Project Completion Act.
    The Central Utah Project Completion Act, Titles II-VI of Public Law 
102-575, provides for completion of the Central Utah Project (CUP) by 
the Central Utah Water Conservancy District. The Act also authorizes 
funding for fish, wildlife, and recreation mitigation and conservation; 
establishes an account in the Treasury for deposit of these funds and 
other contributions; establishes the Utah Reclamation Mitigation and 
Conservation Commission to coordinate mitigation and conservation 
activities; and provides for the Ute Indian Water Rights Settlement.
    The Act provides that the Secretary may not delegate his 
responsibilities under the Act to the Bureau of Reclamation. As a 
result, the Department has established an office in Provo, Utah, with a 
Program Director to provide oversight, review, and liaison with the 
District, the Commission, and the Ute Indian Tribe, and to assist in 
administering the responsibilities of the Secretary under the Act.
    The fiscal year 2003 request for the Central Utah Project 
Completion Account provides $36.2 million for use by the District, the 
Commission, and the Department to implement Titles II-IV of the Act, 
which is the same as the fiscal year 2002 enacted level. The request 
includes $11.0 million for the District to implement approved water 
conservation and water management improvement projects, and develop 
planning and NEPA documents on facilities to deliver water in the Utah 
Lake drainage basin.
    The request includes $12.0 million for use by the District to 
continue the modified construction of the Diamond Fork System. This 
funding will be used to close off a section of the original tunnel that 
experienced an unforeseen cave-in resulting in dangerous levels of 
hydrogen sulfide gas. A plan is being developed for the construction 
alternative facilities. We are preparing cost estimates for this work 
and will communicate this information to you as soon as a firm estimate 
is available.
    The funds requested for the Mitigation Commission ($11.3 million) 
will be used in implementing the fish, wildlife, and recreation 
mitigation and conservation projects authorized in Title III ($9.7 
million); and in completing mitigation measures committed to in pre-
1992 Bureau of Reclamation planning documents ($1.6 million). Title III 
activities funded in fiscal year 2003 include the Provo River 
Restoration Project; acquisition of habitat, access, and water rights; 
and fish hatchery improvements. Finally, the request includes $1.9 
million for the Program Office for mitigation and conservation projects 
outside the State of Utah ($0.3 million); operation and maintenance 
costs associated with instream flows and fish hatchery facilities ($0.3 
million); and for program administration ($1.3 million).
    In addition to the request described above, the Bureau of Indian 
Affairs' budget includes $24.7 million for the Ute Indian Water Rights 
Settlement.

    Senator Domenici. Thank you very much, your statement is in 
the record.
    Mr. Raley. Thank you, Mr. Chairman. We are available to 
answer any questions that you or Members of the Committee may 
have.
    Senator Domenici. Thank you very much. Senator Burns, would 
you like to lead off and ask your questions? I have to stay 
here for a little while and see if Senator Reid comes, so why 
don't you go ahead and proceed.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you, Mr. Chairman. I appreciate that.
    When I said a while ago, we can handle our whiskey, it is 
the water. We are not getting water.
    I want to put in the record, Mr. Chairman, a U.S. Drought 
Monitor as of March the 5th of this year.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                        national drought summary
    The East.--A storm brought 1 to 2 inches of rain to drought areas 
along the Eastern Seaboard on March 2-3, offering some respite from the 
persistent dry weather that has dominated the region since autumn. 
Although the rain was beneficial, it was not sufficient to 
significantly alter the overall drought picture, allowing extreme (D3) 
drought to continue over Maine, the mid-Atlantic from New Jersey to 
northern Virginia, and the Southeast from South Carolina to eastern 
Georgia. The biggest improvement took place in southern Georgia and 
northern Florida, where amounts of 4 inches or more eliminated dryness 
in most of northern Florida and caused D1 and D2 drought to recede in 
southern Georgia. The heavy rains in southern Georgia and southern 
Alabama resulted in these areas being placed in the W category, 
indicating that the dominant impact at this time is to water supplies, 
the recent moisture having eased agriculture and fire concerns for the 
time being. The drought in the mid-Atlantic and Northeast remains 
mostly a hydrological drought, with impacts on ponds, lakes, rivers, 
wells, and reservoirs. However, there are a variety of other effects 
from the drought, including long-term impacts on vegetation and trees. 
According to preliminary data, the Northeast experienced the second 
driest September-February in 107 years of record. The 12 months ending 
in February were the driest on record in Maine. New Jersey, Delaware, 
and Maryland reported the driest February on record.
    The Plains and Midwest.--The early-March storm had little impact on 
dryness in this region, as the heaviest snow and rain mostly fell in 
areas not experiencing abnormal dryness. D0 dryness continued in the 
northern Plains, with severe to extreme drought persisting in southwest 
Texas. D1 drought intensified to D2 drought in extreme southern Texas. 
Drought also intensified to D2 levels in western Oklahoma and southwest 
Kansas.
    The West.--Little rain or snow fell this week across most of the 
region, resulting in little change to the drought depiction. Heavy snow 
in parts of Colorado failed to alter the D0 to D1 conditions there. 
Updated snowpack measurements prompted an improvement to D1 drought in 
southwestern Idaho. Severe to extreme drought continued from Montana 
into Wyoming.
    Hawaii and Puerto Rico.--D1 drought continued in western Molokai 
and D0 dryness remained in southern Puerto Rico.
    Looking Ahead.--Weather features to watch in the next 2 weeks that 
may affect areas experiencing dryness include: (1) another powerful 
storm crossing the nation on Friday-Sunday March 8-10 bringing 0.5 to 
over 1 inch of additional rain to the Eastern Seaboard and up to around 
0.5 inches of equivalent liquid precipitation to the northern Plains, 
with variable snowfall amounts in Colorado; (2) above-normal rain and 
snow over the Northwest; and (3) generally below-normal precipitation 
over the southern Plains and Southwest.

                           OFFSTREAM STORAGE

    Senator Burns. This is really giving us a lot of pause, 
especially where now it looks like we may have a somewhat 
larger runoff in the western mountains now, John. I think what 
we have been through in the last 3 years, we had better refocus 
now on offstream storage and start building some ways to hold 
some of that spring runoff for use later on.
    I would tell you that the offstream storage off the 
Muskshell River is dry. The Muskshell River is dry. You can 
walk across it. You can walk across the Yellowstone River 
anywhere above the mouth of the Big Horn River and never get 
your knees wet. So we are going into our fourth year of severe 
drought in that part of the country.
    Last year this committee directed $350,000 for a study to 
help the North Central Water Project in Montana to complete its 
work needed to prepare for the authorization and construction 
of that project. Right now BOR has said they will not release 
that money until they have authorization.
    I would hold up as an example of Dry Prairie where we had 
to re-engineer, reengineer, reengineer to get the specs within 
the BOR and the authority goal that is going to be overseeing 
that project. And we spent a lot of dollars needlessly.
    I just want some kind of a commitment from the BOR that we 
can release that $350,000 for a study up there on the North 
Central Project so that we do not make the same mistakes and 
waste a lot of dollars and time before that project is ready to 
go. I would like some assurance from your office that you would 
work with us on that.
    Mr. Keys. Mr. Chairman, Mr. Burns, certainly we will do 
that. We are working closely with those folks. It appears that 
we can have that work done and release that money this year.
    Senator Burns. That is good news because we need to get 
that done so that we do not make mistakes later on. Now, when I 
first come to this body and we were also in a drought year up 
there, on the books was several studies that had not been done 
and I do not think they would apply today. But nonetheless, I 
think we ought to start looking at offstream storage along the 
Yellowstone River.
    There were a couple of sites that was studied. It was very 
positive at that time. We are going to come to you and ask for 
some technical help and also to refocus on what we can do with 
offstream storage. Because not only are we in a position out 
there of protecting instream flows and for irrigation and a 
host of other things and municipal use along the Yellowstone 
River.
    We know how to conserve now a little bit better, as far as 
agriculture is concerned. We have been working on that a lot. 
But I still think that we are going to have to figure out some 
way to hold some of that water in my State in order to ensure 
that we have instream flows, because I know the stress last 
year on the Yellowstone was terrific. I mean, it was just 
beyond acceptable to either the sports fishermen or to the 
riparian and the damage that was done by low stream flow on the 
Yellowstone.
    So I am sure that we have areas up there where we can store 
water, and even maybe under gravity conditions. I hear all of 
that money going to California and I remember that California 
water fight from the early 1990s. We did it wrong then, so let 
us not do it wrong again if we can possibly help it.
    So I would just like some assurances from your office that 
we would take a look at the Yellowstone. Let us take a look and 
revive some of these plans that we know that would be 
beneficial, not only to the water users, but also to what we 
can do to improve the environment along the Yellowstone River.
    Mr. Raley. Mr. Chairman, Mr. Burns, we will come to your 
office and sit down and see where we get started. And then I 
can direct my folks in the field to work with those local folks 
there, looking at getting the authority we need on the North 
Central Montana Water Supply. We will do that this year.

                            STATE OF MONTANA

    Senator Burns. We also have a situation up on Fort Pack, 
with cabin owners up there. I would like to bring that to a 
close, if I could. And even on Canyon Ferry, because we know 
that we have to find out how to manage the Canyon Ferry thing, 
being as the Bureau of Land Management has now walked away from 
that contract. I think it is in your lap now. We need to talk 
about those things, too.
    But these are projects and ideas of BOR that I think is 
going to take us a little sit down, I will either come to your 
office or you can come to mine, it does not make any 
difference. That is a two-way street. And we can take care of 
some of these key situations that have been pushed back and 
pushed back for too long. We need to move forward on some of 
these projects.
    And we want to do it in a way that is in concert with what 
your planning is and your plans, but also we just have--I love 
your statements that you are going to get results rather than 
process. But I will tell you, there have been times the BOR has 
not been as responsive as they could have been to some of the 
things that is going on in the State of Montana.
    Mr. Chairman, that is all I have. Other than that, I am 
going to support them.
    Senator Domenici. Thank you very much. Are you going to be 
here this weekend? Are you going home?
    Senator Burns. I was supposed to take one of my great trips 
this weekend, and guess what?
    Senator Domenici. Cancelled.
    Senator Burns. Yes, my wife. We know what endangered 
species is, we know what a threatened species is. In the Ag 
bill now we have got a sensitive species. I found out what that 
was.
    Senator Domenici. Sensitive species?
    Senator Burns. Yes, my wife.
    Senator Domenici. Well, we hope you do not have a negative 
on her in the Ag bill. She is a mighty fine lady.
    We are going to proceed now, assuming that Senator Reid 
will be along shortly. Some of these are very parochial, some 
are not.

             WATER RIGHTS SETTLEMENTS FOR NATIVE AMERICANS

    Mr. Keys, there seems to be an increasing trend for the 
Bureau of Reclamation being the Federal agency charged with 
carrying out the Federal obligation to water rights settlements 
of Native Americans. Can you tell me how this changes the 
mission of the Bureau, or does it?
    Mr. Raley. Mr. Chairman, we work very closely with the 
Secretary in those water right settlements and, in a number of 
cases, they have called upon us to work with them on water 
projects to help with those settlements. And we stand ready to 
do that.
    Senator Domenici. So what has been the impact of the 
Bureau's recent water rights settlements?
    Mr. Keys. Mr. Chairman, at times they have called upon us 
for large projects. Of course, they take money. So far we have 
been able to work them into our budget and meet the 
requirements and it has not had a damaging effect on our 
budget.
    Senator Domenici. Obviously, the question is raised for a 
number of reasons, but clearly these come about in a manner 
that frequently do not permit you to put them into a budget. I 
think it is very important that you start looking ahead with 
people who are planning these events. They do not come out of a 
rock either. They have been around a long time. It is just that 
you cannot say in your budget it will settle September 15 and 
we need the money 4 months later. It does not happen that way.
    But my recommendation is that you do everything you can to 
be informed so that you are asking us for something for 
settlements if, in fact, it seems imperative that you are going 
to need it, so you do not have to bleed other programs when 
that occurs. There will be a lot more coming along. You 
probably are aware of that. There are some in the pipeline. 
They are going to happen soon.
    Mr. Raley. Senator, from the Secretary's perspective, we 
very much want to work with you and the rest of the Executive 
Branch to do that sort of planning. From the very beginning, 
Secretary Norton has asked us all to be sensitive to that issue 
and to look down the road so that we can address the fiscal 
impacts which are typically associated with Indian water rights 
settlements at the earliest time that a settlement appears to 
be ripe.
    As we all know, many of them take decades to get to a place 
where they are ready to be done. We have identified several 
that are potential and are watching them closely and are going 
to provide whatever support is appropriate, including the 
financial planning so that we can fulfill this important aspect 
of the Department's responsibility.

                               TITLE XVI

    Senator Domenici. Let me move along. Title XVI programs, 
your budget request for Title XVI projects is $17.75 million. 
That is down from last year where it was about $36 million, 
almost half. Commissioner Keys, will you tell the committee 
briefly what impact this level of funding is going to have on 
the Title XVI programs? And let me just close by asking you if 
you will provide us with the current status of the program? We 
would like that to supplement your answer.
    Mr. Keys. Mr. Chairman, we will certainly provide that. The 
request that we have put in this year is actually very close to 
the request that we put in last year. Certainly, the amount 
funded was more, but it accomplishes what we are trying to do.
    There are a number of those programs that were funded in 
year's past that are not part of our fiscal year 2003, and 
there are good reasons for a lot of those. A lot of them are 
finishing up, and some of them have carryover monies to cover. 
In the summary that we will provide to you, we will cover why 
some of those were not funded.
    [The information follows:]
        Amount Needed to Complete Funding for Title XVI Program
    According to the latest information and estimates, and taking into 
account the funds available this year, approximately $329.9 million 
would be required to complete the Federal funding for the following 
projects that will be still ongoing after fiscal year 2002.

----------------------------------------------------------------------------------------------------------------
                                                                                       Funds
                                                   Total project   Total Federal  available thru  Balance needed
                     Project                           cost            cost         fiscal year     to complete
                                                                                       2002           project
----------------------------------------------------------------------------------------------------------------
Los Angeles Area, CA............................        $316,412         $69,970         $69,970              $0
San Gabriel Basin, CA...........................         152,360          38,090          28,122           9,968
San Diego Area, CA..............................         690,360         172,590          64,246         108,344
Port Hueneme Demo, CA...........................          15,310           4,000           4,000               0
North San Diego Area, CA........................          84,857          20,000           8,482          11,518
Calleguas MWD, CA...............................         100,205          20,000           3,578          16,422
Orange County, CA...............................         355,910          20,000           6,038          13,962
Mission Basin, CA...............................           9,070           2,268           2,268               0
Long Beach Area, CA.............................          61,656          15,414           5,083          10,331
Long Beach Demo, CA \1\.........................          40,000          20,000             937          19,063
Albuquerque Metro, NM...........................          44,700          11,175          11,175               0
El Paso, TX.....................................          33,311           8,328           7,133           1,195
Watsonville, CA.................................          80,000          20,000             200          19,800
San Jose, CA....................................         480,000         109,900          20,000          89,900
Southern Nevada.................................         130,800          20,000           6,737          13,263
Las Vegas Desal, NV.............................           1,200             300             300               0
Phoenix Metro, AZ...............................          80,000          20,000             525          19,475
Tooele, UT......................................          15,486           3,828           3,828               0
Salem, OR.......................................          30,000           7,500             200           7,300
                                                 ---------------------------------------------------------------
      Totals....................................       2,721,637         583,363         242,822         340,541
----------------------------------------------------------------------------------------------------------------
\1\ Assumes 50 percent Federal share.

Note: Federal participation in LA, Port Hueneme, Tooele, and Mission Basin is essentially complete. Although
  there is no balance to complete for the Las Vegas Desalination and the Albuquerque Metro, they can still be
  counted as on-going.


                       MIDDLE RIO GRANDE PROJECT

    Senator Domenici. Let me jump over to the Middle Rio Grande 
Project. $15.4 million is requested for this project this 
fiscal year. I commend the Bureau for its efforts to help with 
reference to the recovery of the silvery minnow and the willow 
flag patch in cooperation with the environmental study group 
that is working out there.
    Can you provide us, for the record, an update of the 
Bureau's effort with regard to the minnows?
    Mr. Keys. Mr. Chairman, we can certainly do that.
    [The information follows:]
                             Silvery Minnow
    Ongoing population monitoring showed an increase in relative 
abundance and distribution of minnows in 2001 compared to similar data 
from 2000. Fall 2001 sampling indicates stable minnow populations 
despite occasional river drying.
    The State of New Mexico and the United States signed a Conservation 
Water Agreement on June 29, 2001, to provide up to 30,000 acre-feet of 
water for each of the 2001-2003 water years for the benefit of the 
silvery minnow. Conservation water has been released to augment river 
flow since March. The supplemental flows consider drying as early as 
June, but will try to maintain continuous flow through May.
    A hearing on the merits of the Minnow v. Keys case was held in 
November 2001. Parties are currently awaiting the final ruling of the 
Federal Court.
    The ESA Work Group is developing a Cooperative Agreement, a long-
term strategy document, and draft authorizing legislation that will 
fully describe the Collaborative Program and address the authorities 
and appropriations necessary to accomplish the Program. The Work Group 
is currently preparing an Interim MOU as part of the implementation of 
an Interim Strategy to meet Work Group and congressional needs to 
formalize the Collaborative Program, secure Program funding, comply 
with environmental regulations, and fulfill Federal trust 
responsibilities.

    Mr. Keys. I would add that the collaborative program is 
being developed. It worked very well in 2001. The early 
forecasts for that basin are still very poor on runoff, and we 
are working early to try to be sure that that collaborative 
process gives us the result in 2002 that we had in 2001.
    The report on the collaborative program that the committee 
requested last year is in the process and should be available 
within this month.
    Mr. Raley. Senator, I can also assure you that the Middle 
Rio Grande has been identified at the departmental level as an 
area that requires and deserves special attention. We have many 
priorities, but that is among the top.
    Senator Domenici. There is no question that this drought 
monitor does not permit you all to leave here with any less 
concern about the Middle Rio Grande Basin and the Pecos, with 
New Mexico having the most drought area, severe drought, that 
is on this map. It shows us having it worse than anyone. So we 
are back in. This last year was not so bad, but before that, 
you were not in your positions, but it was pretty bad.

                               RIO GRANDE

    Is the Bureau of Reclamation's ability to comply with the 
requirements of a biological opinion regarding the Rio Grande 
and the commitments that were made in the litigation? Can that 
be done with the money that you put in the Rio Grande?
    Mr. Keys. Mr. Chairman, we feel it can be done. We feel the 
fiscal year 2002 and 2003 budgets give us that money.
    Senator Domenici. In a State like ours, when we look out 
there, our two major river basins, the Rio Grande and the 
Pecos, there are very big problems on each one. Obviously, 
there is going to be far more claimants to the water than there 
is water for the claimants. That is what makes the endangered 
species such a difficult issue. In a sense, the species comes 
along and with a river that is almost all allocated, you put it 
down in the river and say here is something as big as maybe a 
city like Albuquerque needs. It is brand new but it is going to 
take first priority.
    That is where we run into some very difficult situations. I 
appreciate working together on the issues and you staying on 
top of it and know a lot about the court suits that are 
involved.

                             DESALINIZATION

    But we also think that maybe we should proceed with 
desalinization since there is such an abundance of saline water 
in New Mexico, a huge basin. So I have introduced a bill, 
Senate Bill 1309, which authorizes water desalinization and the 
construction of a research facility in the Tularosa Basin of 
New Mexico. In the 2002 energy and water appropriations bill, 
$1 million was given to the Bureau to complete a study to 
determine the most effective and efficient manner to develop a 
technology progress plan to be used in the development of a 
desalinization research facility. What is the status of the 
project which I have just indicated was funded? And will you 
continue to do what you can to support this effort?
    Mr. Keys. Mr. Chairman, the project that was funded last 
year is well underway, and we are on schedule with all of the 
activities on the Desalinization Act. The Administration is 
currently working with you and your folks for that 
reauthorization that is due this year.
    The report is due to Congress in October, but we actually 
have a draft scheduled to be here in June. So we are even a 
little ahead of schedule on that report on desalinization.
    Senator Domenici. Are you looking everywhere in the 
technology, applied technology, on desalinization wherever it 
is occurring in the world? Are we taking advantage of that so 
that in that report we are using the best and highest 
technology that might be available if we were to proceed?
    Mr. Keys. Mr. Chairman, absolutely. We are working closely 
with the Sandia Lab on new technology. Just this past late 
fall, early winter, we had people in Israel working with them 
on their stuff. We are currently working with a new technology 
in California where they may actually use it in Long Beach.
    So yes, we are doing that. And we hope that the report, 
when it comes to you in October, will give us a wide range of 
desal technologies that we can use.
    Senator Domenici. Thank you very much. We look forward to 
that with great optimism.

                             ANIMAS-LAPLATA

    The Animas-LaPlata, we have already heard testimony from 
the Administration on that. Can you provide us with an update 
on the Animas-LaPlata Project? And I want to ask again now, is 
the $33 million enough to keep the project on schedule and in 
compliance with the Ute Water Rights Settlement Act?
    Mr. Keys. Mr. Chairman, yes, we will provide you an update. 
Our current analysis shows that the $33 million is what is 
necessary to keep us going and meet those obligations to the 
tribe there.
    Senator Domenici. The cultural resource activities, can you 
tell me what cultural resource activities the Bureau will be 
carrying out and how much you are providing for this effort? 
And are these funds requested for tribal development? Are there 
funds for tribal development? If you could tell me how much is 
being requested by the Bureau with reference to that purpose, 
also.
    Mr. Keys. Mr. Chairman, in the year 2002 we have $16 
million total and in 2003, we have $33 million. We are working 
closely with the tribe there, for them to actually do the 
cultural resource work. There is about $8 million in the BIA's 
2003 budget for a trust fund that is requested by that 
authority, or by the Act.
    Senator Domenici. Is this your budget man?
    Mr. Keys. Yes, sir, it is.
    Senator Domenici. On Animas-LaPlata, could you tell us--and 
let the record show that Robert Wolf is answering this 
question. Could you tell us, on Animas-LaPlata, how do you have 
this scheduled in terms of the out years? Or maybe you want to 
do that yourself, Mr. Keys?
    Mr. Keys. Mr. Chairman, I think we can both do it. The 
original act asks that all of the appropriations be made in 5 
years, with a 7 year construction period. 2002 was the first of 
the funding years with $16 million, and with $33 million in 
2003. That leaves about $200 million to be funded in the out 
years.
    If you would like more detail, I could certainly have Mr. 
Wolf address that.
    Senator Domenici. Maybe you can supply us with a supplement 
to that answer which shows the actual flow over 5 years, and 
the construction as it will proceed.
    Mr. Keys. We will be glad to do that.
    [The information follows:]

            ANIMAS LA-PLATA UPPER COLORADO REGION--7 YEAR SPENDING AND 5 YEAR APPROPRIATIONS SCHEDULE
                                            [In Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
                                                                               FSEIS Estimate        5 Year
                                                                                  Inflation       Appropriation
                            Fiscal year                                Year    Indexed 7 Year       Inflation
                                                                                  Spending           Indexed
----------------------------------------------------------------------------------------------------------------
Sunk...............................................................                       79.4              79.4
2002...............................................................        1              16                16
2003...............................................................        2              33                33
2004...............................................................        3              63.3              82.1
2005...............................................................        4              65.9              68.4
2006...............................................................        5              67.2              63.4
2007...............................................................        6              16.4               0
2008...............................................................        7               1.1               0
                                                                    --------------------------------------------
      Total........................................................        7             342.3             342.3
----------------------------------------------------------------------------------------------------------------


    The table shows the inflation-indexed estimated spending for the 7 
year schedule presented in the Final Supplement to the Environmental 
Impact Statement (FSEIS). It also shows the funds required according to 
the 5 year appropriations schedule set in the authorizing legislation.
    The construction contracts for the major features of the project 
are scheduled as follows:
    Ridges Basin Dam and Reservoir would begin in fiscal year 2003 and 
end in fiscal year 2007
    Durango Pumping Plant would begin in fiscal year 2004 and end in 
fiscal year 2007
    Ridges Basin Inlet Conduit would begin in fiscal year 2005 and end 
in fiscal year 2006
    Navajo Nation Municipal Pipeline would begin in fiscal year 2005 
and end in fiscal year 2007.

                           PECOS RIVER BASIN

    Senator Domenici. Pecos River Basin, this is another one in 
the State of New Mexico. We have a water salvage project. This 
is the other river in New Mexico that is in a very, very 
precarious position. The thing that makes it most difficult is 
that you follow literally the Supreme Court's decision with 
reference to that river and what we owe to Texas, the problem 
that is going to come along is Texas is beefing up its legal 
counsel and lawyer activities with reference to this. They may 
be in a position to force us to release some more water and do 
some real damage in the basin.
    So last year's budget request had money in for this. The 
fiscal year 2002 appropriation provided additional funding to 
maintain what I think is a good project, the eradication of 
water-using salt cedar. In 2003 the budget request again 
reduces the amount. Can you give us the rationale which led to 
reducing the project level on this collaborative project? 
Whoever wants to do that.
    Mr. Keys. Mr. Chairman, the work there, of course, is to 
try to get a handle on salt cedar and some ways to control it, 
because it is using a lot of water there.
    In the fiscal year 2002 budget we had $175,000, and that 
was matched by the State. This year our funding is down some, 
because of the emphasis that we have with our folks there. That 
is as much as we could do, but we are certainly working very 
closely with them.
    Senator Domenici. So this is not one where you would be 
saying in the record that you have the money that you can use. 
You can use more than that, you just did not have it. Is that a 
fair assessment?
    Mr. Keys. Mr. Chairman, we would be willing to work with 
the folks there in the Pecos River to work on the salt cedar 
program.
    Senator Domenici. Do you agree that, considering the 
precarious nature, that that is a pretty good program?
    Mr. Keys. Mr. Chairman, we absolutely agree with that.

                            CARLSBAD PROJECT

    Senator Domenici. Is the Bureau working with us in New 
Mexico and the beneficiaries of the Carlsbad Project to prevent 
under-delivery of water to the State of Texas? Are you all 
involved in that professionally and as experts?
    Mr. Keys. Mr. Chairman, we are working very closely with 
the State engineers of both of those States. To be very candid, 
we are trying to stay away from being in between them right 
now.
    Senator Domenici. I am going to ask one more and then yield 
to the Chairman. I have about seven or eight more, Mr. 
Chairman, but I will surely go after you.
    Senator Reid. Please, go ahead.

                MIDDLE RIO GRANDE CONSERVATION DISTRICT

    Senator Domenici. Middle Rio Grande Conservancy District, 
again in the basin in Albuquerque, the Rio Grande. Last year we 
put language in the emergency supplemental allowing the Bureau 
to accept payment from the Middle Rio Grande Conservancy 
District on their repayment contract. With what is the status 
of this transaction? And has the Bureau taken advantage of 
this?
    Mr. Keys. Mr. Chairman, I am not sure where it stands right 
now, and we would certainly provide that for the record.
    Senator Domenici. Will you? We really believe that the 
Federal Government, operating through you, it looks kind of 
silly when they will not accept money to prepay a loan. To me 
that is rather suspicious. It is sort of like the Bureau does 
not want to put itself in a position where they have to comply 
with whatever the rights or obligations are if the loan is 
fully paid. I do not want to be part of that, and I hope you do 
not. But in any event, Congress has told you not to by saying 
to accept the money.
    So would you tell us how that is being carried out in an 
answer to the record?
    Mr. Keys. Mr. Chairman, we will do that. We have every 
intention of completing it. I just do not know where it stands 
right now.
    Senator Domenici. Mr. Chairman, perhaps you should proceed. 
I may have some additional questions, I may not.
    [The information follows:]
                       Middle Rio Grande Payment
    Public Law 107-20, dated July 24, 2001, authorized acceptance of 
final payment by the Middle Rio Grande Conservancy District for the San 
Juan Chama Project. On August 9, 2001 final payment of $2,417,500 was 
received by Reclamation.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Senator Domenici, let me first of all say how 
much I appreciate your handing this situation today, taking 
over the committee. We always hear so much from Washington 
about all the partisanship, and there is a lot of it and too 
much of it, I am sure. But the things we do not hear much about 
are the friendships that develop.
    It is not often that you would think that someone who is a 
member of Republican party would notify his counterpart on the 
committee the night before and say, ``I am going to be tied up 
on the Senate floor, will you go ahead and start the hearing?'' 
And of course, this is the relationship that Senator Domenici 
and I have developed over all these many years.
    In addition to our trying to do the very best we can with 
$22 billion a year for some of the most important programs this 
country has, we do our best there. But we also try to be civil 
in the process to each other. The staffs get along well. And so 
I say to you, I appreciate very much you stepping in here this 
morning, Senator Domenici.
    Senator Domenici. Thank you very much.
    Senator Reid. I think it indicates the absolute trust that 
we have for one another.
    I also appreciate your being here. One of the things that 
we try to avoid as much as we can is having you folks, who have 
so many important things to do working for our Government, 
waste your time sitting around here for us to come. So that is 
why Senator Domenici filling in here took away a little of the 
guilt that I had having had this meeting set at 10 o'clock, 
right in the midst of things we were trying to do on the Senate 
floor. So thank you for your patience.

                          PREPARED STATEMENTS

    The OMB approved testimony for the Office of Assistant 
Secretary of the Army for Civil Works, in testimony for the 
Chief of Engineers, will be placed in the record as if given.
    [The statements follow:]

            Prepared Statement of the Department of the Army

             army civil works program for fiscal year 2003
    The President's fiscal year 2003 budget confronts a two-front war 
against terrorism while taking steps to restore economic growth. In 
order to finance the war against terrorism it moderates spending in the 
rest of government. This year's budget also takes the significant step 
of assessing performance in government, and begins to tie what works 
and doesn't work to spending decisions. This will help ensure that 
government programs that fail to achieve their purpose can be held 
accountable and, perhaps, be reformed or ended as a consequence.
    The fiscal year 2003 budget for Army Civil Works provides funding 
to continue the development and restoration of the Nation's water and 
related resources, the operation and maintenance of existing 
navigation, flood damage reduction, and multiple-purpose projects, the 
protection of the Nation's regulated waters and wetlands, and the 
cleanup of sites contaminated as a result of the Nation's early efforts 
to develop atomic weapons. The budget includes new appropriations of 
$4.29 billion. The new appropriations are expected to result in fiscal 
year 2003 outlays of approximately $4.47 billion.
    Three legislative initiatives support the fiscal year 2003 Army 
Civil Works budget. First, the Administration is proposing government-
wide legislation under which the full costs for Federal retirees will 
be allocated to agency programs instead of the Office of Personnel 
Management. Under this proposal, $115 million of the $4.29 billion 
represents retiree costs not previously borne by the Army Civil Works 
program.
    Second, the Administration is proposing legislation under which 
three Federal power marketing administrations will finance hydropower 
operation and maintenance costs directly, in a manner similar to the 
mechanism currently used by the Bonneville Power Administration in the 
Pacific Northwest. This proposal is described below in greater detail.
    Third, the Administration is proposing legislation to increase fees 
at Corps of Engineers lakes and recreation areas and to extend the 
existing recreation fee demonstration program. This proposal also is 
described below in greater detail.
    The new appropriations, including new funding for retiree costs, 
will derive an estimated $3.258 billion from the general fund, $764 
million from the Harbor Maintenance Trust Fund, $85 million from the 
Inland Waterways Trust Fund, $34 million from Special Recreation User 
Fees, and $149 million from three Federal power marketing 
administrations for hydropower operation and maintenance costs.
    Other program funding is estimated at $464 million. This total 
includes $118 million transferred from the Bonneville Power 
Administration for operation and maintenance of hydropower facilities 
in the Pacific Northwest and $272 million contributed by non-Federal 
interests.
    The budget represents an increase from the fiscal year 2002 budget 
of 7 percent and a decrease from fiscal year 2002 appropriations of 7 
percent, including adjustments for the new retiree costs and excluding 
emergency supplemental appropriations and inflation adjustments.
                           program highlights
Priority Missions
    The budget gives priority to ongoing studies, projects and programs 
that provide substantial benefits under the principal missions of the 
Civil Works program, which are commercial navigation, flood damage 
reduction (including coastal storm and hurricane damage reduction), and 
environmental restoration. No funds are provided for studies and 
projects that carry out non-traditional missions that in the view of 
the Administration should remain the responsibility of non-Federal 
interests or other Federal agencies, such as wastewater treatment, and 
municipal and industrial water supply treatment and distribution. In 
addition, the budget does not fund individual studies and projects that 
are inconsistent with established policies governing the applicable 
missions.
Emphasis on Ongoing, Budgeted Construction Projects
    The Corps estimates that the balance of funding needed to complete 
all active construction projects and authorized and unauthorized 
projects in preconstruction engineering and design is about $44 
billion. Of this, about $21 billion is necessary to complete the flood 
control, navigation and environmental restoration projects funded in 
the budget in the Corps' Construction, General program. This represents 
12 years of funding at the level enacted in fiscal year 2002 just to 
finish funding ongoing Construction, General projects supported in the 
budget.
    More projects have been started than can be prosecuted efficiently, 
given the limitations on available funding. The budget directs funding 
to ongoing projects that have been determined to be consistent with 
policy, in order to quickly realize the benefits that those projects 
are designed to provide.
Shore Protection
    The budget treats projects to protect coastal structures from 
hurricane and storm damage on a par with other types of flood damage 
reduction projects. The Administration continues to be concerned about 
the appropriate level of non-Federal cost sharing for shore protection 
projects, and is considering proposing legislation to adjust Federal 
and non-Federal cost shares.
Direct Financing of Hydropower Operation and Maintenance Costs
    Historically, each year the Army Civil Works program has financed 
the operation and maintenance costs of Corps of Engineers hydroelectric 
facilities, and in the next year Federal power marketing agencies have 
repaid the Treasury for these costs from the revenues provided by 
ratepayers. The exception has been in the Pacific Northwest, where 
under section 2406 of the National Energy Policy Act of 1992, Public 
Law 102-486, the Bonneville Power Administration has directly financed 
the costs of operating and maintaining the Corps hydroelectric 
facilities from which it receives power.
    In 1999, the General Accounting Office found that the Corps' 
hydropower facilities are twice as likely to experience ``unplanned 
outages'' as private sector facilities, because the Corps does not 
always have funds for maintenance and repairs when needed. Corps 
facilities experience unplanned outages approximately 3.7 percent of 
the time, compared to the industry average of 2.3 percent.
    To address this problem, the budget proposes that the Southeastern 
Power Administration, the Southwestern Power Administration, and the 
Western Area Power Administration finance hydropower directly, in a 
manner similar to the mechanism used by Bonneville. The budget 
contemplates that these power marketing administrations will make those 
hydropower operation and maintenance investments that they believe are 
justified in order to provide economical, reliable hydropower to their 
customers and that, as a consequence, unplanned outages will decline 
over time to levels comparable to the industry average.
Protection of Critical Facilities
    The Administration sought $139 million in emergency supplemental 
appropriations to the Operation and Maintenance, General account for 
the protection of critical Civil Works facilities from terrorist 
attack. Congress provided these funds in Division B of the fiscal year 
2002 Department of Defense appropriations act. The funds will be used 
to pay recurring facility protection costs and one-time costs to assess 
the vulnerability of each facility and to initiate ``hard'' protection 
of critical facilities. The Corps expects to complete its facility 
assessments by the end of April 2002.
    The Administration is continuing its commitment to facility 
protection in fiscal year 2003. The budget includes $65 million for 
recurring security costs ($64 million in Operation and Maintenance, 
General and $1 million in Flood Control, Mississippi River and 
Tributaries), not including new retiree costs). The Administration will 
evaluate the need for additional security measures based on the 
conclusions of the facility assessments.
Fee Increases at Recreation Areas and Lakes
    The Army is undertaking efforts to increase day use fees, camping 
fees, annual pass fees, and special use permit fees under existing 
authority. These efforts are expected to help increase annual 
recreation user fee receipts to $38 million in fiscal year 2002 from 
less than $34 million in fiscal year 2001. In addition, under proposed 
legislation, recreation user fees and shoreline permit fees increases 
would be phased in through fiscal year 2006. The legislation also will 
extend the existing demonstration program under which recreation user 
fee receipts over $34 million per year are automatically available to 
the Corps to spend on operation, maintenance, and improvement of its 
recreation facilities. We project that annual recreation and shoreline 
permit fee receipts will grow by $6 million in fiscal year 2003 to $44 
million, and an additional $5 million per year in fiscal year 2004 
through fiscal year 2006, to a total of $59 million in 2006.
                  discussion of appropriation accounts
General Investigations
    The budget for the Civil Works study program is $108 million, 
including $5 million for new retiree costs. This is a significant 
reduction from funding levels in the budgets and appropriations for 
previous years. The reduced funding level for General Investigations is 
intended to slow the rate at which studies and preconstruction 
engineering and design efforts are carried out and completed and the 
rate at which projects with completed studies are added to the existing 
construction backlog. Cost-sharing sponsors, who are being asked to 
invest in studies and design, expect timely construction once studies 
and design are completed and the projects are authorized. This reduced 
funding level reflects the Administration's priority of completing 
policy-consistent projects that are under construction before 
initiating new work.
    No new study starts are included in the budget. However, to the 
extent allowed within available funding, policy-consistent studies that 
are under way will continue to move seamlessly from the reconnaissance 
phase to the feasibility phase and from the feasibility phase to 
preconstruction engineering and design as they receive the necessary 
levels of review and approval within the Corps and the Army. 
Coordination, technical assistance, and research activities also will 
be continued, including continued Army participation in the National 
Estuaries Council.
                         construction, general
    The fiscal year 2003 budget for the Civil Works Construction, 
General program is $1.44 billion, including $22 million for new retiree 
costs. Of that total, $85 million will be derived from the Inland 
Waterways Trust Fund to fund the construction and major rehabilitation 
of inland waterway projects and $15 million will be derived from the 
Harbor Maintenance Trust Fund to fund the Federal share of construction 
costs for dredged material disposal facilities at operating harbor 
projects.
    Funding is included in this account for continuing projects for 
which the Administration has completed its review and made a 
determination that the project supports priority missions and is 
consistent with established policies. No funds are included to initiate 
construction of discretionary new projects. Furthermore, no funds are 
included to continue planning, engineering, design, or construction of 
projects added by Congress in fiscal year 2002 for which the 
Administration has not completed its review and established a favorable 
position.
    The budget for the Construction, General account gives priority to 
projects that can be completed in fiscal year 2003. Thirty projects, or 
15 percent of the 194 budgeted projects, will be completed. The budget 
also includes substantial CG funding, net of new retiree costs, for 
three priority projects: $120 million for the New York and New Jersey 
Harbor deepening project; $77 million for the Olmsted Locks and Dam 
project in Illinois and Kentucky; and $148.5 million for restoration of 
the Florida Everglades, including $37 million for the Comprehensive 
Everglades Restoration Plan.
    The budget also ensures that environmental requirements for the 
Columbia River Basin and for the acquisition and development of shallow 
water habitat on the Missouri River will be met. For the Missouri 
River, $17.5 million is allocated to the Missouri River Fish and 
Wildlife Mitigation Project to expedite restoration of aquatic habitat. 
For the Columbia River Basin, the budget includes $98 million for the 
Columbia River Fish Mitigation project and $2 million for a new 
construction start, the estuary habitat restoration program for the 
lower Columbia River, which must be started to meet legal requirements. 
(These figures do not include new retiree costs.) Both the ongoing 
project and the new project on the Columbia River are required in 
fiscal year 2003 to comply with Biological Opinions issued under the 
Endangered Species Act by the National Marine Fisheries Service and the 
U.S. Fish and Wildlife Service for the recovery of threatened and 
endangered fish species.
    The budget provides, net of new retiree costs, $78 million for 
continuing planning, design, and construction of projects under the 
Continuing Authorities Program. These are small projects for flood 
damage reduction, navigation, shoreline protection, streambank 
protection, navigation project impact mitigation, clearing and 
snagging, aquatic ecosystem restoration, beneficial uses of dredged 
material, and project modifications for improvement of the environment. 
The budget includes no funding to initiate new construction under the 
Continuing Authorities Program.
    The Administration is proposing legislation to require agencies to 
pay the full cost of the Federal Employees' Compensation Act (FECA). 
The Department of Labor will add a small surcharge to the amount 
charged to each agency for FECA benefits to ensure full coverage. The 
CG account includes an additional $1 million in the Workmen's 
Compensation line item to cover the surcharge.
Flood Control, Mississippi River and Tributaries
    The budget includes $288 million for the Mississippi River and 
Tributaries program, including $7 million for new retiree costs. The 
budget directs funding to the priority flood damage reduction projects 
on the mainstem of the Mississippi River and in the Atchafalaya River 
Basin, Louisiana, including the completion of the Louisiana State 
Penitentiary Levee, Louisiana, project. No funding is provided for 
studies or projects that represent non-traditional missions or are 
inconsistent with established policies. No funding is provided for new 
studies or projects. $1 million is included for the recurring costs of 
protecting critical Mississippi River and Tributaries facilities from 
attack.
Operation and Maintenance, General
    The budget provides funding for the Army Corps of Engineers to 
carry out its operation and maintenance responsibilities at Corps-
operated projects for the purposes of commercial navigation, flood 
damage reduction, recreation, natural resources management, and 
multiple purposes including hydroelectric power generation.
    The overall budget for the Operation and Maintenance, General, 
account is $1.979 billion, including $65 million for new retiree costs. 
Of this amount, $749 million will be derived from the Harbor 
Maintenance Trust Fund, $34 million will be derived from Special 
Recreation User Fees, and, under proposed legislation described above, 
$149 million will be derived from the direct funding of hydropower 
operation and maintenance costs by three Federal power marketing 
administrations.
    In addition to these funds, operation and maintenance of hydropower 
facilities in the Pacific Northwest will be directly financed by a 
transfer of approximately $118 million from Bonneville Power 
Administration revenues.
    The budget directs funding for navigation projects to those that 
support commercial or subsistence usage. The budget provides: $536 
million for deep draft harbors (harbors with authorized depths of 
greater than 14 feet); $47 million for shallow draft harbors, with 
priority given to those harbors that serve commercial activities or 
provide a means of subsistence; $384 million for inland waterways with 
commercial traffic of more than one billion ton-miles per year; and $57 
million for waterways with less commercial traffic, with priority given 
to those operation and maintenance activities that provide the highest 
return, generally on the waterways and waterway segments with the 
lowest average cost per ton-mile (these figures do not include new 
retiree costs).
    The budget includes $64 million, not including new retiree costs, 
for the recurring costs of protecting critical Civil Works facilities 
from attack.
                           regulatory program
    The budget for the Regulatory Program is $151 million, including $7 
million for new retiree costs. These funds will be used for permit 
evaluation, enforcement, oversight of mitigation efforts, 
administrative appeals, watershed studies, special area management 
plans, and environmental impact statements, in order to provide 
effective regulation of the Nation's waters and wetlands and expedite 
permit decisions.
    The $151 million represents a much-needed increase for the 
Regulatory Program and supports responsive service to the public. This 
funding will enable a reduction in average permit processing times from 
an estimated 160 days in fiscal year 2002 to an estimated 120 days by 
the end of fiscal year 2004. The budget also provides additional 
resources for monitoring of compliance with issued permits and for 
partnerships with states and local communities through watershed 
planning efforts.
Formerly Utilized Sites Remedial Action Program (FUSRAP)
    The Formerly Utilized Sites Remedial Action Program (FUSRAP) is an 
environmental cleanup program for sites contaminated as a result of the 
Nation's early efforts to develop atomic weapons. Congress transferred 
the program from the Department of Energy in fiscal year 1998. We are 
continuing to implement needed cleanups at contaminated sites. This 
year's budget is for $141 million, including $1 million for new retiree 
costs.
Flood Control and Coastal Emergencies
    This program finances preparedness, response, and recovery 
activities for flood, storm, and hurricane events, and preparedness 
activities in support of the Federal Emergency Management Agency 
through the Federal Response Plan. The budget proposes $22 million for 
this program, including $2 million for new retiree costs. This amount 
will be used, together with any funding that may remain available from 
prior year appropriations, to finance programmed and emergency 
activities during fiscal year 2003.
General Expenses
    Funding budgeted for the General Expenses program is $161 million, 
including $6 million for new retiree costs. These funds will be used 
for executive direction and management activities of the Corps of 
Engineers headquarters, the Corps division offices, and related support 
organizations.
                 government performance and results act
    A performance plan is in preparation for the Army Civil Works 
program, based on the fiscal year 2003 budget. After completion of 
Administration review, the plan will be submitted to the Congress.
              army civil works planning and review process
    Both the Army Corps of Engineers Headquarters and the Office of the 
Assistant Secretary of the Army for Civil Works are taking steps to 
strengthen the project planning and review process. We have undertaken 
these efforts to ensure that the Corps provides this Nation with 
technically sound, environmentally acceptable, and justified projects.
    Improved Planning Capabilities.--The Corps is improving the 
competency of its planning cadre through the development of a long-term 
training and development plan. The Corps is developing a web-based 
information system to enable planners to find the information they need 
to do their jobs more efficiently and effectively.
    Process Improvements.--To ensure more accountability, the planning 
organization within each district will manage the planning process from 
problem identification to the development of a proposed project. The 
Corps has clarified technical and policy review responsibilities. The 
Corps Headquarters has consolidated the policy and planning functions 
and initiated a new business process under which one individual at 
Corps Headquarters is responsible for solving study and project issues.
    Environmental Advisory Board.--The Chief of Engineers has 
reactivated the Environmental Advisory Board (EAB) and redefined its 
role to include advising him on policy and specific projects. This 
participation by the EAB can contribute to improved project formulation 
and thereby reduce the need for mitigation and the potential for 
conflict or litigation.
    Independent Peer Review.--The Chief of Engineers has endorsed, in 
concept, the establishment of an independent panel of experts to review 
Corps projects. The proposal is to establish a panel of six members, to 
include three members from outside the Corps, who would review large, 
complex, or controversial projects. Additionally, in response to 
Section 216 of the Water Resources Development Act of 2000, the Corps 
contracted with the National Academy of Sciences (NAS) to study and 
make recommendations on the independent peer review of Corps projects. 
The Administration will formulate its position on this issue in the 
coming months.
    Plan Formulation and Evaluation.--The NAS also will evaluate the 
various techniques, models, and processes used to formulate Corps 
projects and will consider modernizing the Federal Principles and 
Guidelines. Consideration will also be given to how the Corps conducts 
multi-purpose formulation and evaluation and trade-off analysis, and 
how it integrates environmental, economic and social considerations. 
Finally, the NAS will review various approaches to ecosystem 
restoration and application of adaptive management to the planning and 
operation of projects. These reports will be completed in the summer of 
2003.
    Army Civil Works Planning and Project Review.--Recently, I formed a 
new, four-person group within my office to perform oversight of the 
Corps planning program and to advise the Corps and me on the 
application of laws, regulations, and Army policies to project 
proposals. In particular, this new group will conduct reviews of Corps 
projects and will help me develop my recommendations to the 
Administration and Congress on the authorization or modification of 
projects. To facilitate coordination with the Corps, this group will be 
co-located with the Corps of Engineers Headquarters. My planning group 
will engage with the Corps on planning issues as they arise, rather 
than after reports are completed. My new Deputy for Project Planning 
and Review and administrative staff already are on board, two positions 
have been advertised, and the last position will be advertised shortly.
                               conclusion
    We believe that the President's fiscal year 2003 budget for the 
Army Civil Works program is a solid one. The budget continues support 
to ongoing work, emphasizes primary missions, and applies resources to 
areas likely to have the greatest national economic benefit. Providing 
the requested funds for the Army Civil Works program is a wise 
investment in the Nation's future.
    Thank you.
                                 ______
                                 

       Prepared Statement of Lieutenant General Robert B. Flowers

    I am honored to be testifying to your subcommittee today, along 
with the Assistant Secretary of the Army (Civil Works), the Honorable 
Mike Parker, on the President's fiscal year 2003 (fiscal year 2003) 
Budget for the United States Army Corps of Engineers' Civil Works 
Program.
    I am especially honored to have the opportunity to lead the Corps 
through its current challenges to serve this great nation in meeting 
its many water and related land resources management needs.
    Thanks to this subcommittee's support, the Civil Works Program 
remains strong, balanced, responsive, and highly productive. I look 
forward to working with you in furtherance of our partnership in 
prosecuting this fine program, so broadly beneficial to our nation.
    In this statement, I will focus on significant challenges for the 
nation in light of the September 11th terrorist attacks, and will say 
just a few words about the Corps role in assessment of national water 
and related land resources management needs. Accordingly, my statement 
covers just these three topics:
  --Summary of Corps of Engineers actions after the terrorist attacks, 
        especially support to the Federal Emergency Management Agency;
  --Highlights of the Civil Works program budget;
  --Summary of how the Civil Works Program provides support to the 
        Nation's economic security.
                  summary of corps post-attack actions
    Mr. Chairman, and Members of the Subcommittee, last September 11, 
the nation and the world watched in horror and disbelief as the World 
Trade Center and the Pentagon were attacked by terrorists and the 
passengers and crews of four air liners lost their lives.
    I am proud to say that the Corps of Engineers provided critical 
support to the Federal Emergency Management Agency in the aftermath of 
those terrorist attacks. Corps members provided technical assistance 
for debris removal, electrical power assessment and structural 
assessments during operations in New York City. Corps members also 
provided technical assistance for debris removal at the Pentagon. 
Today, the Corps continues to support FEMA, the Department of Defense, 
and the nation in the disaster recovery mission in New York City and at 
the Pentagon through its execution of the Public Works and Engineering 
mission. These emergency response and recovery actions take place under 
Emergency Support Function Number 3 in the National Emergency Response 
Plan, for which FEMA has assigned the lead to the Corps of Engineers.
    I would like to highlight some of the accomplishments the Corps 
achieved in our support:
    In the aftermath of the collapse of the World Trade Center towers, 
it was virtually impossible to exit Manhattan by car or other ground 
transportation. A virtual armada of boats came together, in an 
impromptu fashion, crossing the water to reach Manhattan to ferry 
trapped people out of the area of devastation.
    Among those boats were seven vessels owned by the United States 
Army Corps of Engineers. These craft carried approximately 2,000 
stranded citizens from south Manhattan to Brooklyn, Jersey City, and 
Staten Island. On the return trip, the crews ferried firefighters and 
relief workers into Manhattan, provided fuel, antifreeze, and oil for 
the New York City fire trucks, and transported 1,000 gallons of potable 
water to the firefighters. Personnel on board the vessels also included 
structural analysts deployed to New York City to assist in the urban 
search and rescue mission. The collapse of the World Trade Center's 
twin towers caused so much destruction and devastation to the buildings 
surrounding them that those buildings were unsafe to enter to conduct a 
safe search and rescue effort. The Corps deployed surveyors to assist 
the city's engineers in evaluating some of the more complicated 
building situations.
    An assessment team from the 249th Engineer Battalion (Prime Power) 
was deployed to the financial district of New York City shortly after 
the attack. The soldiers provided technical assistance to Con Edison, 
the power company that provides electric service to New York City and 
most of Westchester County, in the installation of 56 city-supplied 
1,500-kilowatt generators to support emergency electrical power 
requirements. As a result of their efforts, the New York Stock Exchange 
was up, running, and fully operational on Monday September 17th, only 
four business days after the attack.
    On September 13, New York City requested a permit to dredge 120,000 
cubic yards of material from around Pier 25 to allow large boats to 
support rescue and recovery operations. Brigadier General Stephen 
Rhoades, North Atlantic Division commander, gave permission in record 
time to dredge and place material in the Newark Bay Confined Disposal 
Facility. The Corps also dredged Pier 6 in Manhattan, which permitted 
greater access for barge transportation of debris from the pier to the 
facility. Prior to this dredging, it was necessary to truck the debris 
uptown through Manhattan, to a pier that could accommodate the large 
barges, and then transport the debris to the facility.
    At one point, more than 160 Corps of Engineers personnel had 
deployed from across the nation to New York City to join the 750 North 
Atlantic Division employees who work in the city. Those deployed 
included structural engineers skilled in urban search and rescue, 
debris management specialists, logistics and contracting personnel, and 
the soldiers of the 249th Engineer Battalion (Prime Power).
    Since the attack, the Corps of Engineers has continued to support 
and work closely with the Federal Emergency Management Agency in the 
recovery operations, and we will continue to do so until the operation 
is complete.
    We also are working closely with the Office of Homeland Security in 
protecting the Civil Works infrastructure from terrorist attacks. We 
have developed a Civil Works Infrastructure Assessment Program, which 
to date has consisted of training 250 Corps Engineers and Security 
personnel; conducting infrastructure assessments of critical projects 
in each Division; and offering a specialized security training course 
to Corps personnel through our training facility in Huntsville, 
Alabama. The Civil Works program received $139 million in emergency 
supplemental appropriations to fund recurring protection costs at 
critical facilities and some physical security measures identified in 
the critical facility assessments.
    The immediate response of the United States Army Corps of Engineers 
is yet another reason I am so proud to be the 50th Chief of Engineers. 
Corps employees from every division and district called to volunteer to 
do whatever is needed to support the Emergency response and recovery.
    I would like to conclude my comments on the Corps' support after 
these tragic events by quoting the Honorable Thomas White, Secretary of 
the Army, in a speech he gave shortly after visiting ground zero in New 
York City. He said, ``To the Corps of Engineers I would say . . . while 
your history is impressive, given the current situation, your finest 
hour is a chapter yet to be written. The nation will look to your 
extraordinary capability to protect and sustain our infrastructure 
against a wide variety of threats.'' Mr. Chairman, and Members of the 
Committee, the U.S. Army Corps of Engineers is ready, able, and proud 
to serve the nation in its time of need.
              highlights of the civil works program budget
    The fiscal year 2003 U.S. Army Corps of Engineers budget provides 
the following:

General Investigations..................................    $108,000,000
Construction, General...................................   1,440,000,000
Operation and Maintenance, General......................   1,979,000,000
Regulatory Program......................................     151,000,000
Flood Control, Mississippi River & Tributaries..........     288,000,000
General Expenses........................................     161,000,000
Flood Control and Coastal Emergencies...................      22,000,000
FUSRAP..................................................     141,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................   4,290,000,000

                     construction, general backlog
    The Corps estimates that there is a construction backlog of about 
$44 billion, including about $21 billion to complete ongoing flood 
damage reduction, navigation, and environmental restoration projects 
consistent with Administration policy, about $8 billion to complete 
other ongoing construction projects, about $6 billion to complete 
already started Mississippi River and Tributaries construction 
projects, and about $8 billion for authorized and unauthorized projects 
in Preconstruction Engineering and Design. Available funding is 
directed toward construction of the ongoing projects that are 
consistent with Administration policy. One new project construction 
start is proposed for funding to meet the legal requirements of a 
Biological Opinion under the Endangered Species Act. No discretionary 
new project construction starts are budgeted and no new study starts 
are budgeted.
               operation and maintenance, general backlog
    The fiscal year 2003 budget of $1.979 billion is $40 million more 
than the amount enacted in fiscal year 2002, excluding emergency 
supplemental appropriations and including imputed employee pension and 
annuitant health benefit costs. We can sustain customer services in 
fiscal year 2003 with this level of funding. While we join the other 
Federal agencies in coping with severe demands on the nation's fiscal 
resources, sustaining all of our current customer services becomes 
increasingly difficult in the long term, given the vast and aging 
infrastructure needing care and attention. As stewards of a diverse and 
widespread complex of water resources projects, the Corps of Engineers 
is challenged to ensure the continued flow of benefits that are so 
critical to our nation's security and economic well being.
    As I reported to this Committee in the fiscal year 2002 
appropriation hearings, we still face a growing maintenance backlog. 
Routine maintenance, major repairs, replacement of outdated or worn 
facilities, management improvement studies, and correction of 
environmental deficiencies could use much more than the budget amount. 
However, to be realistic in our assessment, we normally focus on 
critical maintenance. Critical maintenance is maintenance that should 
be performed in the budget year in order to continue operation at a 
justified level of service and to attain project performance goals.
    The funds provided for fiscal year 2002 left us with a critical 
maintenance backlog estimated at $702 million, and we estimate that our 
critical maintenance backlog in fiscal year 2003 will be about $884 
million. The critical maintenance backlog for navigation is $587 
million and consists largely of dredging and repairs to structures such 
as locks, dams, breakwaters, and jetties. The critical maintenance 
backlogs for other business functions are $127 million for flood damage 
reduction, $110 million for recreation, and $60 million for 
environmental management, and consist of work such as spillway repairs, 
seepage control, embankment toe protection, access road and recreation 
facility repairs, and environmental compliance actions. The critical 
maintenance backlog for hydropower will be eliminated in fiscal year 
2003 in conjunction with the Administration's proposal that Federal 
power marketing administrations directly finance hydropower operation 
and maintenance.
    The critical maintenance backlog includes $93 million for 
maintenance of shallow draft harbor projects and $108 million for 
maintenance of low commercial-tonnage inland waterway projects. Most of 
this work is for purely recreational harbors and higher-cost inland 
waterway segments and therefore is low priority work.
    To improve our program execution, my Division Commanders are 
continuing a concerted effort to identify and concentrate available 
resources on the most critical of this work and to do this work at 
least cost. We are analyzing the work in this backlog to ensure that it 
qualifies as critical maintenance. In addition, we will continue to 
assess the justification for the level of service that we are 
providing. These analyses may result in a slight reduction in our 
estimate of the critical maintenance backlog for fiscal year 2003.
 how the civil works program provides support to the nation's economic 
                                security
    The Civil Works program employs nearly 25,000 full time equivalent 
Federal employees and many thousands more private sector contract 
employees. These individuals are employed in a wide array of fields 
including all aspects of engineering; architecture; project management; 
construction management; planning; program management; operation and 
maintenance; economics; and environmental sciences.
    The Civil Works program provides the infrastructure to support 
important economic activity. The components of the program include 
navigation features, which facilitate domestic and foreign commerce, 
flood control features, which reduce flood hazards and damages, water 
supply to millions of citizens as well as industrial firms, businesses, 
and farms, hydroelectric power generation features at 75 Corps operated 
facilities, and recreational features at Corps-constructed lakes and 
shore protection projects.
    I would like to discuss in greater detail the economic impacts 
associated with two of these areas of activity: navigation features; 
and recreational opportunities at Corps-constructed lakes.
    the significance of navigation to the nation's economic activity
    Commercial navigation is one of the Civil Works program's high 
priority missions and a focal point for a substantial amount of the 
Civil Works budget. In the year 2000, over 2.4 billion tons of foreign 
and domestic cargo were transported via our Nation's ports and 
waterways. This figure is composed of 1.4 billion tons of foreign trade 
cargo and 1 billion tons of domestic cargo.
    Of the 1.4 billion tons of foreign cargo, almost 1 billion tons 
were foreign imports to the United States, including over 500 million 
tons of crude petroleum and 130 million tons of chemicals and related 
products. Over 400 million tons of cargo were U.S. exports to other 
nations, including over 150 million tons of food and farm products, 60 
million tons of coal, 58 million tons of chemicals, and 56 million tons 
of petroleum products.
    Of the 1 billion tons of domestic cargo, almost 630 million tons, 
or 15 percent of the Nation's freight tonnage, moved on the Nation's 
inland and intracoastal waterway system. Of the nearly 630 million 
tons, coal comprised about one quarter of the total with 160 million 
tons moved, petroleum products totaled 121 million tons, food and farm 
products totaled 90 million tons, and sand, gravel and stone made up 
about 80 million tons.
    Over 225 million tons of domestic cargo moves via coastwise 
shipments, including 115 million tons of petroleum products and 48 
million tons of crude petroleum such as Alaskan crude petroleum moving 
to refineries on the West coast of the United States.
    Over 114 million tons of domestic cargo moved via shipments on the 
Great Lakes, including 57 million tons of iron ore and scrap metal, key 
components in the manufacturing of steel, 30 millions tons of sand, 
gravel and stone, and 20 million tons of coal.
    In its 1999 report to Congress, ``An Assessment of The U.S. 
Maritime Transportation System'', the U.S. Department of Transportation 
reported that waterborne cargo movements created employment 
opportunities for more than 13 million individuals. While many jobs 
created are directly in water transportation and ports, most of the 13 
million jobs created as a result of waterborne transportation are in 
other sectors of the economy.
    Although there are a number of actors, public and private, that 
contribute to waterborne transportation, the Corps of Engineers plays a 
key role. We create and maintain economically justified navigable 
capacity. We enable the ports and waterways to handle the vessels. 
Without this capacity, the Nation cannot compete for trade, cannot move 
goods efficiently, and cannot sustain those 13 million jobs.
         recreational opportunities at corps constructed lakes
    I will now turn my remarks to the subject of the economic impacts 
associated with the provision of recreational opportunities at Corps 
constructed lakes. The Operation and Maintenance, General budget 
includes $277 million for recreational activities, slightly above the 
fiscal year 2002 enacted level.
    I quote from our recently completed report, ``A National Dialogue 
About America's Water Resources Challenges For the 21st Century: 
National Report on Identified Water Resources Challenges and Water 
Challenge Areas.''
    When it is time for outdoor recreation Americans head for the 
water. The Nation's many lakes, rivers, and beaches offer everyone fun, 
fitness, rest and relaxation. Water is the number one recreation 
attraction in America today, making Federal lakes an irreplaceable 
public resource.
    America's first choice for water-based recreation is the Corps of 
Engineers. One out of every ten Americans will visit a Corps lake this 
year.
    I would now like to provide you with some figures describing the 
Corps' recreational features at our lakes. The Corps operates 456 lakes 
in 43 states with a total land area of 12 million acres. At these 
facilities there are 56,000 miles of shoreline, 4,000 recreational 
areas with 101,000 campsites, 3,800 boat launch ramps, and 5,000 miles 
of trails.
    Not only is recreation important to the individuals who visit our 
lakes and other recreational facilities, but also it is important for 
the economic impacts and employment opportunities created within those 
communities located near to these recreational facilities.
    For example, a 1996 study prepared by the Corps' Engineering and 
Research Development Center, entitled ``Estimating the Local Economic 
Impacts of Recreation at Corps of Engineers Projects--1996'' concluded 
that visitors to Corps facilities spent approximately $6 billion on 
trip related expenses, which in turn generated over 160,000 jobs in the 
surrounding communities. Significant economic and employment impacts 
associated with our recreational facilities were identified in a number 
of geographic locations, including our Little Rock, Nashville, Mobile, 
Tulsa, Huntington, Louisville, and Fort Worth District offices.
                               conclusion
    We must continue to find ways to reduce our costs and shift some 
costs to direct beneficiaries of our services. Meanwhile, we will do 
our very best to execute the Civil Works Program for maximum benefit to 
the nation. I have testified today on the positive effects of the 
Corps' mission on the nation's economy. In closing, I would like to 
restate that the Corps of Engineers' Civil Works program supports 
economic activity, prosperity, and well being in its high priority 
mission areas by facilitating waterborne transportation and reducing 
the threat of flooding and the extent of flood damages incurred, as 
well as other Civil Works activities.
    Thank you Mr. Chairman and Members of the Committee. This concludes 
my statement.

    Senator Reid. Also, staffs to notify all other subcommittee 
members that anyone who would like to ask questions of the Army 
Corps for the record, I would encourage them to submit these 
questions to us by the 15th of this month. We will ask the 
Corps to get answers back to us in 2 weeks.

                           WATER IN THE WEST

    Secretary Raley, I think I know the answer to this 
question, but maybe I do not. With what kind of a year are we 
having in the West, with water?
    Mr. Raley. Mr. Chairman, unfortunately, I believe the 
drought index was entered in the record shortly before you 
arrived. There are portions to the West, notably the southern 
portions, that are likely to be in a dry to very dry or severe 
drought condition, which obviously requires that we work as 
closely as possible with our State and local partners and with 
those of you on the committee to manage through the difficult 
issues that arise when we are in a drought.
    So we are watching individual basins and trying to make 
sure that we have the resources within the Department, both the 
people as well as the use of whatever budgetary flexibility we 
have to address the specific basins where droughts were a 
problem.
    Senator Reid. As we know, there are increasing demands on 
the limited sources of water that we have in the West. I am 
always amazed at places that I see where there is lots of 
water. I will never forget, we went on a Senate retreat. The 
Democratic senators went to a retreat in Southern Virginia 
here, down past Williamsburg a little bit. One of the beer 
people have an amusement park there.
    Anyway, I walked out my door and I saw this huge body of 
water. I thought it had to be the ocean. It was a river. It was 
a river. Coming from the west, we do not have rivers like that. 
The river was at least a mile-and-a-half across.
    Even the mighty Colorado is not much of a river in the true 
sense of the word. My father, as a boy, used to swim across the 
Colorado River. The Truckee River in Northern Nevada, you can 
walk across it in most places. Yet it is the lifeline for that 
part of the country.
    That river, my staff just reminded me, is the James River, 
which I guess by most standards is not much of a river, but 
what I saw is very--so we in the West are very jealous of all 
the water other places. We are depending on the bureau to help 
us with the many problems that we have dealing with water. We 
want to make sure that you have enough resources. You have to 
be candid with us and tell us where you are lacking in that 
regard.
    It is my understanding that Senator Domenici asked some of 
those questions. I will review some of your answers.

                    CALIFORNIA BAY-DELTA RESTORATION

    Secretary Raley, the Administration has again proposed $15 
million in funding for the California Bay-Delta restoration. 
Again this year, there is no specific authorization for this 
project. How does Reclamation intend to expend these funds 
absent a specific authorization?
    Mr. Raley. Mr. Chairman----
    Senator Reid. Carefully, I guess would be the answer?
    Mr. Raley. Yes, in accordance with existing authorities. We 
are also very focused on the CALFED authorization issue and 
working with both houses of Congress to find a way to proceed 
with the CALFED effort. I wish to assure the Chairman that we 
believe that the principles of CALFED are good ones. We wish to 
stay the course and have a CALFED that is authorized so that 
Congress, exercises its constitutional prerogatives in terms of 
the interface with that program. We need to find a way that we 
can have a CALFED that we can afford, that can be implemented, 
and that has balance. In fact, on Monday I will be co-chairing 
the CALFED Policy Committee with the Secretary of Resources for 
California as we look to find a way to get us through what is a 
relatively difficult period so that we can stay true to the 
concepts under existing authorities as we wait for the 
authorization issue to be addressed here and in the House.
    Senator Reid. How do you think CALFED is moving forward?
    Mr. Raley. If I may be candid, sir, having been involved in 
other large, basin-wide water and environmental issues, they 
have a rhythm. There are times when it is lurching and times 
when it is moving forward smoothly, and times when people are 
sitting there watching. I would say that right now there is a 
lot of sitting and watching.
    There remains a broad commitment to the concepts of CALFED 
and I think there is a great desire out in California for 
Congress to work its will in terms of the long-term 
authorization. And we support that.
    Senator Reid. With what you are saying is there is a lot of 
people waiting around to see what someone else is going to be 
doing?
    Mr. Raley. There are a lot of people wanting to make sure 
that what is done is consistent with the will of Congress.

                             DESALINIZATION

    Senator Reid. We had a wonderful senator here who I 
served--we were lieutenant governors of our respective states. 
He served in the House when I was there. We served in the 
Senate together. His name was Paul Simon from Illinois.
    He had a number of passions but one of them is water. Even 
though he came from a state with relatively lots of water in 
it, Illinois, he has written a book called Tapped Out, that 
talks about lack of water around the world and has certainly 
illustrated why wars will be fought over water and not oil in 
years to come.
    His passion is and was doing something about getting the 
water from our oceans and our seas. He believes, and there are 
others who agree with him, that that is our only hope. We are 
not doing anything to speak of as a country to develop our 
resources for desalinization. Don't you think the Bureau has 
the prime responsibility to do that?
    Mr. Raley. Senator, there is work within the Government in 
a number of agencies. As you well know, the Bureau of 
Reclamation has ongoing work on desalinization projects. As the 
Commissioner testified a moment ago, and I can turn it back 
over to him for more detailed questions, the Bureau of 
Reclamation continues to work on literally cutting-edge 
technology being developed throughout the world so that we can 
implement this alternative as we search for a means to address 
the growing needs of the west.
    Senator Reid. I guess that is my whole point, and I would 
be happy to hear from Mr. Keys. That is, I do not think we are 
doing any high level research, or research period--I should not 
say high level--dealing with desalinization. From what I know, 
and maybe I can be told differently here today, the process by 
which we take the salt out of water is the same as it was 20 
years ago, 30 years ago.
    Mr. Keys, do you have anything to respond to that?
    Mr. Keys. Mr. Chairman, we are still working under 
directions of the 1996 Act, and there is a report that is 
scheduled to come to you in October that lays out that 
technical work that you are talking about.
    We are working closely with Sandia Lab and looking at new 
technologies. We are participating with other agencies. We are 
working right now with Long Beach, California which has a new 
technology that we are going to get into our process and fund 
with them. There are a number of activities going on in 
Reclamation.
    I would say that we are not the leader of the 
desalinization research and so forth in the United States, but 
we are a strong participant.
    Senator Reid. Do you think Sandia is the leading research 
organization for desalinization in America today?
    Mr. Keys. Mr. Chairman, I do not know the answer to that. 
We are working very closely with them. We know that they are 
very good. We have just worked very closely with them.
    Senator Reid. Do you know of anyone else? And when I say 
else, I mean any other institutions or organizations doing 
research on desalinization?
    Mr. Keys. Mr. Chairman, we are working with several 
different labs around the United States that are doing that.
    Senator Reid. With what I am saying here is I think the 
reason we are not doing more is we are not spending money. I 
really, honestly believe that there has to be a way that we can 
do better than the old bladders and stuff that we have used to 
take the salt out of water. That was something that was used 
many, many, many decades ago.
    I am concerned because Sandia has been the only entity 
mentioned here. I think maybe we should give them some money 
this year that will allow them to do that. I usually let 
Senator Domenici do his work in New Mexico, but I think I will 
weigh in on this and make sure they get adequate resources this 
year to do something significant dealing with desalinization.
    Senator Bennett, I know you have some questions about, at 
least I am told and I hope you do, about what we do to have the 
Federal Government help the cost reimbursement for security 
problems we have at dams. For example, Hoover Dam is a real 
burden for us. I hope you will pursue that a little bit.
    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate the hearing and appreciate the opportunity to 
participate.
    I want to welcome Assistant Secretary Bennett Raley and 
especially Commissioner John Keys, who began his career with 
the Bureau in Utah, and recently a resident of Moab. And I want 
to welcome Ron Johnston from the CUP Project Completion Act 
office in Provo. We appreciate the work that you do, Mr. 
Johnston.
    Water is obviously vital to the West. It is vital to Utah. 
And without the Central Utah Project, we probably would not be 
able to survive in the middle of the desert.

                        CRITICAL INFRASTRUCTURE

    As the Chairman indicated, I have a very strong interest in 
critical infrastructure protection. I want to ask you some 
questions which I assure you are not gotcha questions, but they 
may have a little of that appearance. But I am probing to try 
to find out exactly where we are.
    Senator Kyl and I have introduced a bill dealing with 
critical infrastructure and we are very interested in the 
subject growing out of our experience with Y2K, when we saw 
what would happen to the economy and the country if the 
computers failed by accident. We then kind of asked ourselves 
what would happen if they failed on purpose?
    Senator Kyl had a witness at a hearing who talked about an 
incident where a hacker broke into a dam and got to the point 
where he could have opened the floodgates. Before that sounds 
too sinister, I should point out he was hired to do that, to 
see how far he could get in and demonstrated how vulnerable 
dams are to this kind of activity.
    Has the Bureau given any thought to cyber security, as well 
as physical security?
    Mr. Raley. Senator, let me address that from a departmental 
standpoint. Post the events of September 11, a very significant 
part of the Commissioner is and my personal time has been spent 
on security issues, both physical and cyber. In fact, I believe 
it was two days ago that the Commissioner and I had a briefing 
on the current status of the Bureau of Reclamation's efforts 
with regard to security.
    We have worked together cooperatively. My deputy, who is 
known to the committee, former Chief of Staff for the 
department, Mr. Thomas Weimer, meets weekly with the 
Commissioner's team. I think that gives you a sense of how high 
a priority we have placed on the security issues.
    In terms of what we are actually doing, given the sensitive 
nature of that, Senator, we would be happy to come and brief 
you to the extent that we can, given that some of the 
information is classified. But we would prefer, if you need 
specific details, to do it with you and the Chairman or any 
other members after the hearing, because of obvious concerns.
    Senator Bennett. I would look forward to that briefing. I 
have gone through similar briefings in a wide range of 
governmental activities, and I would appreciate the opportunity 
to have that experience with you now.
    Mr. Raley. May I add, Senator, that on the issue of cyber 
security, I can tell you that the detailed briefing that we 
received this week broke down the various computer cyber 
systems of the Department and the Bureau. We had specific 
discussions about the protections that are currently in place 
with regard to what is known as SCADA, the operational control, 
to refer back to the incident that you mentioned, where someone 
was trying to get at the control of the facilities.
    We paid particular attention to that and asked specifically 
if there were substantial modifications that should be made 
immediately and are not in place now. We are satisfied with the 
response that we received from our experts.
    Senator Bennett. I appreciate that and I will look forward 
to the briefing, as I say.
    Now PDD-63, the Presidential Decision Directive on this 
issue that was put forward by President Clinton in 1998 was for 
the express purpose of focusing the Government's efforts to 
protect critical infrastructure. And in PDD-63, each agency was 
instructed to identify their minimum essential infrastructure 
needed to keep critical systems running. And agencies were also 
to do vulnerability assessments and remediation plans.
    Do you know if the Department of Interior participated in 
that exercise? And if there are vulnerability assessments and 
remediation plans that the Chairman and I could look at in 
executive session?
    Mr. Raley. Setting aside the details of the availability of 
particular documents, which I think I would have to look at the 
actual documents, and we would have to discuss that with you. 
Yes, there are obviously a robust series of updates that have 
been commenced since the events of September 11.
    I can tell you that, in looking back, there were, 
particularly for the Bureau of Reclamation, in existence very 
detailed plans to address a wide range of threats. But like the 
rest of the Government, the rest of the Nation, we have gone 
back to relook at those and see if the assumptions they were 
based on remain valid and to take that effort to the next 
level.
    So I am comfortable that the Department is doing what it 
can, what it should, and what is prudent to protect its 
resources.
    Senator Bennett. Mr. Keys, you wanted to respond?
    Mr. Keys. Mr. Chairman, Mr. Bennett, let me just add a 
little bit to that. When the orders came out before that you 
mentioned, we went through every structure, the dams and the 
power plants, in Reclamation, and even some of the other 
structures like the main Interior building and so forth. Those 
all were evaluated for security. In other words, what we needed 
to do to make them safe.
    We implemented, if not all, most all of the recommendations 
that came out of those security reviews.
    The actions that are underway now that Mr. Raley was 
talking about, after September 11 we have gone back and are re-
evaluating every one of those structures. We have a time frame 
set out to do that. The briefing that he is talking about that 
we would come and do for you would lay out some of the details 
of which structures are being done when and the levels of those 
reviews.

                      OPERATION ELIGIBLE RECEIVER

    Senator Bennett. In the Defense Department, they conducted 
an exercise called Operation Eligible Receiver. It was 
classified for a good period of time but now has appeared in 
the press, and so I can talk about it. As indicated in this 
example that Senator Kyl used, they hired--they did not hire, 
they embarked on a conscious effort to break into the Defense 
Department computers. Again, without divulging any classified 
information, they basically succeeded.
    There were very few parts of the Defense Department that 
were sufficiently robust in their firewalls to keep hackers 
out. I have stood in the control room in the Pentagon where the 
continuing computer attacks are monitored, and I have seen them 
come in in real time. This country is under attack virtually 
every hour of every day, in terms of people trying to break 
into the computers, trying to get information, trying to 
disrupt the normal flow of activity in the Defense Department. 
I will not go any further.
    My question: in your review of all of this, have you done 
something similar to Eligible Receiver? Have you had a series 
of attacks, computer attacks, into the structure of dams, other 
facilities, to see just how difficult it would be for somebody 
to get in?
    As I say, Senator Kyl has the example of someone who got in 
to the point where he could have opened the floodgates. Senator 
Reid has mentioned Hoover Dam. Can you imagine the devastation 
that would occur if somebody could get into the computers that 
control Hoover Dam and virtually empty it downstream? With what 
that would do economically, ecologically, a whole series of 
disasters that could occur?
    I do not think, frankly, these attacks on our dams would 
come from the likes of al Qaeda. I think they would come from 
activist groups who do not like dam and who want to see them 
breached. And if they cannot breach them with dynamite, they 
will breach them with digital code.
    I do not want any details, because that is not something we 
want to get out publicly, but just in generally terms, do you 
know of an effort similar to Eligible Receiver that may have 
been run on these facilities?
    Mr. Raley. Senator, what I can say is that we are very 
aware of not only that exercise, but of ongoing attempts in 
today's cyber world to penetrate Federal facilities, computer 
networks in general, Interior and Reclamation's in specific. We 
have taken steps to address that.
    The details I would prefer to leave to a follow-up meeting 
with the senators. But I want to reassure you, the issue of 
cyber vulnerability has been repeatedly addressed. And also I 
would point out that, for better or for worse, the Department's 
experience in another aspect of departmental operations 
regarding security in the Indian Trust litigation has provided 
an opportunity to relook at the security for the entire 
Department and the Bureau of Reclamation in particular.
    So we will be happy to get back to you on that.

                 CYBER AND PHYSICAL SECURITY CHALLENGE

    Senator Bennett. Thank you, I will look forward to that. 
And then the issue that the Chairman raises, of course, is how 
much does this cost? The question would be, have you included 
in your budget request sufficient sums to deal not only with 
the cyber security challenge, but the heightened physical 
security challenge that we have following 9/11?
    Mr. Raley. Mr. Chairman, Senator, we have. We believe that 
the amounts that are in the budget request are appropriate to 
address both the actual protection as well as the analysis of 
additional needs for both physical and cyber. We are going to 
be working through that, and we will obviously have to take the 
results of our ongoing analysis efforts and determine whether 
or not additional resources will need to be built into future 
budgets.
    Senator Reid. Senator Bennett, if I could comment, we have 
here, and I think you have in your file, and if not I will give 
you this one, on what different agencies are spending on 
homeland defense. And Interior is flat. They are spending no 
more money this year than they did last year.
    But I do understand that you need to go along with what 
Mitch Daniels says you should go along with, because if you do 
not, you get in big trouble around here.
    Senator Bennett. I have been where they are, defending 
budgets. Actually, it was before Senator Bible. He sat on the 
Appropriations Committee. So I know the truth of what you are 
saying, that you have to do what OMB tells you.

                          CUP AND DIAMOND FORK

    Mr. Chairman, I have expended all of my time and a little 
more, and I am grateful to you for your indulgence. I do have 
some questions relating to the CUP and Mr. Johnston, if I 
might, I would like to give them to you and receive your 
responses. I am particularly interested in Diamond Fork with 
the additional problems that occurred there, unexpected and 
unforeseen, but nonetheless, expensive and disruptive.
    So if you would have a quick comment about Diamond Fork and 
what additional funding that you think might be necessary for 
that, then I will submit the other questions to you.
    Mr. Johnston. I would be happy to respond to your questions 
in writing. The situation at Diamond Fork is progressing, and 
we have determined alternate ways to complete that system. The 
district is planning to put out for bid that work in about a 
month from now. When they do that, we will have better cost 
estimate figures that we will provide to the Committee.
    Senator Bennett. Thank you very much. Thank you for your 
courtesy, Mr. Chairman.
    Senator Reid. Senator Bennett, I was looking through the 
biographies here. Keys, BYU; and Johnston, BYU. You could have 
thrown them some real softballs, you know.
    Senator Bennett. I went to the University of Utah.
    Senator Reid. I know, but Utah, you had some connection 
there.
    Senator Bennett. My children all went to BYU.

                           PREPARED STATEMENT

    Senator Reid. I would ask unanimous consent that my 
statement be made part of the record. Hearing no objection, 
that is the order.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Good Morning. This is the first of our budget oversight hearings 
this year and, as always, I look forward to working with my good 
friend, Senator Domenici and his staff in preparing our spending 
package.
    This hearing was originally intended to discuss the 
Administration's proposals for the fiscal year 2003 budgets for the 
Army Corps of Engineers as well as the Bureau of Reclamation.
    However, due to the Administration's actions pertaining to Mike 
Parker, former Assistant Secretary of the Army for Civil Works, we have 
deleted the Army Corps' witnesses from this hearing.
    These hearings are intended to help us prepare our annual spending 
package. We depend on the open exchange of information that we receive 
in these hearings.
    If nothing else, I suspect that the circumstances surrounding 
Congressman Parker's dismissal will have a chilling effect on our 
ability to get frank and honest answers and opinions from Corps 
witnesses.
    Therefore, we will prepare our spending package based on the budget 
request and the OMB-approved written testimony, a document that is very 
nearly worthless. Most importantly, we will develop our appropriations 
bill by taking into account the needs of our Members and the American 
people. Further input from OMB will not be required.
    The ``budget'' that OMB submitted for the Army Corps is so totally 
inadequate that it defies logic. If enacted, the proposal does not 
provide sufficient resources to continue all of the on-going work that 
the Administration itself proposed. Accordingly, some $200 million 
would be required to terminate on-going contracts, further reducing the 
amount available for construction projects. This fact alone makes it 
appear that there was little thought given to the consequences of such 
draconian budget cuts for the Army Corps.
    Defending the Administration budget is one thing--standing idly by 
while the Administration proposes a budget that, in effect, costs more 
to do less for next year and for the foreseeable future is another 
matter entirely. For telling the truth about this farce, Mike Parker 
was fired.
    A big theme of the Administration in preparation of their budget 
has been economic security for our nation. Based on the proposal 
submitted for the Army Corps and the Bureau of Reclamation, it appears 
that they have overlooked valuable components of our economic security. 
Let me elaborate:
    Forty-one states are served by Army Corps ports and waterways. 
These ports and waterways provide an integrated, efficient and safe 
system for moving bulk cargos. 2.3 billion tons of cargo are moved 
though these ports and waterways. The value of this cargo to the 
national economy exceeds $670 billion. Navigable waterways generate 
over 13 million jobs to the national economy and nearly $150 billion in 
Federal taxes.
    Average annual damages prevented by Army Corps flood control 
projects exceed $20 billion. In calendar year 2000, $2.8 billion in 
flood damages were prevented. From 1928-2000, cumulative flood damages 
prevented when adjusted for inflation were $709 billion for an 
investment of $122 billion, adjusted for inflation. That is nearly a 6 
to 1 return on this infrastructure investment.
    The Bureau and the Army Corps water storage projects have a total 
capacity of nearly 575 million acre feet of storage and provide 
municipal and industrial water supply to millions of our citizens. The 
water supply infrastructure provided by the Bureau and the Army Corps 
in the west are the life blood of the communities they serve. Without 
these infrastructure investments the tremendous growth.
    The Bureau of Reclamation and the Army Corps of Engineers provide 
about 35 percent of the Nation's hydroelectric power which amounts to 
nearly 5 percent of the U.S. total electric capacity. In the west the 
percent of hydropower to total power supplied is much greater.
    Additionally, both the Army Corps and the Bureau contribute to our 
nation's environmental protection. Over $1 billion or about 25 percent 
of the Army Corps' fiscal year 2001 appropriations was targeted for 
environmental activities. Reclamation expended similar efforts on these 
important activities.
    The Army Corps also plays other National roles in disaster 
assistance and emergency preparedness. As an example, I would like to 
take a moment to note some of the Army Corps' actions after the 
devastating terrorist attacks of September 11. Army Corps motor vessels 
were on the scene almost immediately and were used to evacuate people 
from Lower Manhattan where other exits were blocked. These vessels also 
ferried fuel for the emergency vehicles. The Army Corps provided a 
command headquarters for the search and rescue operations and 
logistical assistance with debris removal. Due to the devastation of 
the power grid, the Army Corps' Prime Power Battalion responded and was 
able to get the electrical service restored that allowed the financial 
markets and Wall Street to reopen on the following Monday. The 
capabilities that the Army Corps provides to our nation in these areas 
are often overlooked and I wanted to make sure that they were noted.
    These are only some of the ways that these two agencies contribute 
to our economy and yet the Administration's budget proposal has given 
them short shrift. Their proposals are woefully inadequate to fund 
ongoing projects.
    The Administration has proposed a fiscal year 2003 request for the 
Army Corps of $4.026 billion when you exclude proposed funding from two 
legislative proposals included in the budget. This is about a $600 
million less or 13 percent cut from the amount enacted in fiscal year 
2002. For the Bureau of Reclamation, the proposal is about $58 million 
less or a 7 percent cut over the Fiscal year 2002 enacted amount.
    This reduced level of funding in Reclamation's Water and Related 
Resources Account is going to hamper progress on several large projects 
and programs providing water and power for the West.
    The Army Corps' General Investigations account is taking a huge 
hit. The fiscal year 2003 request is $108 million versus $154 million 
enacted in fiscal year 2002, a 30 percent cut. There are no new study 
starts proposed.
    The Army Corps' Construction, General account is proposed at $1,440 
billion, $276 million below fiscal year 2002 enacted, a 16 percent cut. 
There are no funds provided for discretionary new construction starts.
    The Army Corps' Operation and Maintenance, General account is 
proposed at $1,830 billion, $184 million below the fiscal year 2002 
enacted, a 9 percent cut.
    The Army Corps' Mississippi River and Tributaries account is 
proposed at $288 million, $58 million below fiscal year 2002 enacted or 
about a 17 percent cut.
    The only major account to see a budget increase for the Army Corps 
is for General Regulatory, a boost of $24 million over fiscal year 2002 
enacted, or an increase of 19 percent. While I am glad to see this 
increase for the Army Corps' permitting activities, I am appalled at 
the cuts to the other major accounts.
    In spite of all of the Administration rhetoric about economic 
security and maintaining our abilities to compete in world trade, the 
Administration has again produced a remarkably short sighted budget.
    If the Administration will not lead in the area of critical 
infrastructure, Congress will. I plan to work aggressively with 
Chairman Byrd, Senator Stevens and Senator Domenici to ensure that this 
Subcommittee gets the resources needed to fund these two vital 
organizations properly.
    On a personal note, I would like to take this opportunity to thank 
you and your employees for the outstanding service that your 
organizations provide not only to Nevada, but to our nation as a whole. 
More often than not, your employees don't get the credit they deserve. 
There is not a single Member in either Chamber whose state is not 
impacted positively by the work your agencies do.
    We will place the OMB approved testimony for the Office of the 
Assistant Secretary of the Army for Civil Works and the testimony for 
the Chief of Engineers in the record as if given. Also, if any of the 
Subcommittee Members would like to ask questions of the Army Corps for 
the record, I would encourage them to submit them to us by March 15, 
2002. We will ask the Army Corps to get answers back to us in 2 weeks.
    I would like to thank Bennett W. Raley, Assistant Secretary for 
Water and Science, Department of the Interior (testifying); John W. 
Keys, III Commissioner, Bureau of Reclamation (testifying); J. Ronald 
Johnston, Program Director, Central Utah Project Completion Act Office; 
Robert Wolf, Director, Program and Budget, Bureau of Reclamation; John 
D. Trezise, Office of Budget, Department of Interior for appearing 
before our Subcommittee today.
    At this time I will turn it over to Mr. Domenici for his opening 
statement.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Reid. And there are a number of questions that will 
be submitted to you by the members that appeared here today and 
others, and we would ask you to get them back to us as quickly 
as possible.
    Mr. Raley. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Harry Reid

    Question. What would be the impact to the cost and schedule of on-
going Bureau projects, if the President's budget were enacted as 
proposed?
    Answer. The costs and schedules of on-going Bureau of Reclamation 
projects would proceed as currently envisioned if the fiscal year 2003 
President's Request is enacted.
    Question. For those projects budgeted in the President's proposal, 
are they funded at their optimal level?
    Answer. Reclamation believes that the projects budgeted in the 
President's Request are funded at the optimal level, given the 
resources available and the varied needs of Reclamation's programs and 
projects.
    Question. It is clear that for the last several years, funds 
budgeted to address the growing water resources needs of this country 
fall substantially short of the known critical needs. What suggestions 
would the Bureau offer that can be done in the future to close this 
gap?
    Answer. The fiscal year 2003 President's Request is $66.7 million 
above the fiscal year 2002 President's proposal and $58.0 million below 
the enacted level. Given the availability of resources, the funding 
contained in the fiscal year 2003 President's Request adequately 
addresses the Bureau's water resources management needs.
    Question. What level of funding would be necessary to continue the 
Bureau's progress on programs and projects initiated in the fiscal year 
2002 for meeting the Nation's water infrastructure needs?
    Answer. The fiscal year 2003 President's Request provides adequate 
funding for those projects initiated in the fiscal year 2002 
President's Request.
    Question. Please provide us with an update on how funds provided in 
fiscal year 2002 for a regional weather modification program are being 
expended.
    Answer. A proposed strategic plan was outlined for a one-year 
weather modification research program. Representatives of Reclamation 
met with the North American Interstate Weather Modification Council to 
review that plan and determine whether the Council could receive and 
manage funds for dispersal to specific research projects. The Council 
informed Reclamation that they did not have the capability to manage 
these funds. The Bureau then developed a draft solicitation for 
cooperative agreements with the States to allow transfer of funds to 
conduct weather modification research.
    Question. Your Budget mentions that the Bureau's infrastructure, in 
general, is aging and many demands are placed on the budget to maintain 
and protect the Federal investment. Does this budget address the 
deteriorating infrastructure?
    Answer. The fiscal year 2003 President's Request has been 
formulated and developed to address Reclamation's aging infrastructure 
by providing emphasis on the need for adequate maintenance to ensure 
the structural integrity of its facilities and the reliability of its 
water and power operations.
    Question. Are the critical needs fully covered by this budget 
proposal?
    Answer. As part of this emphasis, any critical maintenance needs 
have been identified and are fully addressed in the fiscal year 2003 
President's Request.
    Question. In each of the last two fiscal years the Congress has 
provided funding for the Las Vegas Wastewater Reclamation Project. I 
was hoping that the Administration would help out by requesting funding 
under Title XVI for this project as they have for other projects around 
the west. Unfortunately, again this year your budget request contains 
nothing for the Las Vegas Project while asking for $6 million for 
example for the San Diego Project. The Southern Nevada Water Authority 
has already expended over $80 million for its 75 percent share. When is 
the Administration going to step up to the plate and ask for some 
funding for the Las Vegas project?
    Answer. In fiscal year 2003, Title XVI funding was limited to those 
ongoing projects and studies that were supported in the President's 
budget requests in prior years. Southern Nevada Water Recycling Project 
is not one of those projects or studies. The project will receive 
appropriate consideration in future budget requests.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

                        garrison diversion unit
    Question. The Red River Valley studies are critical to the future 
of the State and its economic vision. I understand the studies are on 
hold and have been virtually dead since April of 2001. Can you explain 
why they are on hold?
    Answer. Regarding the Red River Valley Study, as required by Public 
Law 106-554, Appendix D, Title VI--Dakotas Water Resources Act of 2000 
(DWRA), which amends Public Law 89-108 by creating a new Section 8 for 
the Red River Water Supply, per Sec 8(b), we have made progress on the 
identification of study tasks and processes. Reclamation has prepared 
draft plans of study for the Report on Red River Water Needs and 
Options. Specific plans of study for needs assessment, hydrology, 
engineering, environment, and biota transfer have been drafted. We have 
been developing a new Memorandum of Understanding (MOU) with the State, 
which is specific to requirements in the DWRA of 2000 and makes the 
State a joint lead in preparing the EIS. We hope to revise and finalize 
that agreement by the end of May 2002.
    Preliminary work on the Red River Valley studies began in June 
2000, per an MOU signed by Reclamation, the North Dakota State Water 
Commission, and the Garrison Diversion Conservancy District pursuant to 
authority under the 1986 Garrison Diversion Unit Reformulation Act 
(Public Law 89-108). While study tasks were not undertaken, two teams 
of stakeholders (Technical Team and Study Review Team) were organized 
and study planning was initiated. Following passage of DWRA, 
significant concerns about the process and MOU were brought to our 
attention. As a result of internal reviews related to these concerns, 
the MOU was terminated. As mentioned, we now propose to execute a new 
MOU with the State. The MOU will establish North Dakota as a co-lead on 
the EIS pursuant to Section 8(c). Per Section 8 (b)(1), which directs 
the Secretary of the Interior to ``conduct a comprehensive study,'' 
Reclamation has the sole lead on the studies. We anticipate the 
Technical and Study Review teams would resume activity; thus, providing 
the open and public process directed in the DWRA. Review of our 
processes and organization, including discussions with the State and 
other interested parties, has taken some time. However, we view this as 
a critical step in the study process to ensure both objective 
scientific methods and an open and public process. We expect these 
processes and organizational changes will facilitate future activities.
    Question. What is your projected date for completion of the 
studies?
    Answer. We are projecting that the studies and draft EIS will be 
completed in 2005.
    Question. What is the cost?
    Answer. Study costs are currently estimated to be $5 million.
    Question. Have you worked out a cost share on the studies?
    Answer. The State has proposed to cost share up to $300,000 of the 
study costs.
    Question. I understand the District and the State Water Commission 
have proposed a cost share agreement. Why is it not moving forward?
    Answer. The Bureau of Reclamation, the District and the State Water 
Commission are currently reviewing the agreement proposal.
    Question. Is additional funding needed in order to move this 
project off center and toward completion in a reasonable time frame?
    Answer. Funding has not been an issue in implementing the study.
    Question. I am told that if a decision is not made almost 
immediately by the Bureau, then work on this project that needs to 
start by April 1 won't be able to get underway and a whole year will be 
lost on the Red River Valley study. Is this information accurate? If 
so, moving these studies forward right now is critical.
    Answer. We have identified specific study tasks, primarily data 
collection, that needed to be initiated in order to prevent delays. The 
work on these tasks is underway.
    Question. What capability do the Tribes have for construction of 
the MR&I systems on the reservations?
    Answer. In 1994, as the Tribes were nearing completion of 
construction activities funded under the 1986 Act appropriation 
ceiling, Reclamation advised them to proceed with Final Engineering 
Reports (FER) to address each of their respective reservation-wide 
systems. These FERs are to serve as the master plan for constructing 
these systems within the amended appropriation ceiling established by 
DWRA. These FERs establish the sequencing and timeline for construction 
and serve as the basis for estimating the construction capability of 
each Tribe. Reclamation's advice to proceed with the FERs at that time 
was intended to prepare them to immediately continue construction once 
additional appropriations were made possible through an increased 
ceiling.
    Between 1994 and 2000, the Tribes chose not to proceed with FERs. 
After passage of the DWRA, the Tribes began preparing their FERs. They 
are expected to be completed in 2002. The FERs are critical to ensure 
that the overall systems will operate reliably and efficiently, and to 
lay out a reasonable construction schedule and associated funding 
needs. Until the FERs are complete, it is difficult to estimate the 
construction capability of the Tribes. The Tribes will have some 
initial construction capability in fiscal year 2003 as plans and 
specifications are completed, and most Tribes will have full 
construction capability beginning in fiscal year 2004.
    Question. Have you talked to the Tribes and do they agree with your 
assessment?
    Answer. Reclamation has been talking and working closely with the 
Tribes and they have not been in full agreement with how Reclamation 
has characterized their capability. Generally, the Tribes believe they 
have greater immediate capability than what Reclamation has been 
estimating. This will not be resolved until additional information 
becomes available with the completion of the FERs.
    Question. What additional capability do you have for moving the 
DWRA programs forward?
    Answer. Reclamation is moving forward to implement the provisions 
of the DWRA. We have initiated activities to address project cost and 
repayment provisions. We are working with the State to update a master 
plan for the recreation program. Investigations are underway to 
determine the economic and financial feasibility of the Elk Charbon and 
Nesson Valley irrigation areas that would be incorporated into the 
Garrison Diversion Unit (GDU) as part of the 28,000 undesignated acres 
of irrigation. Construction activities on the Standing Rock Irrigation 
Project are expected to begin this summer. Diplomatic consultation with 
Canada on the NAWS project has been completed, and the first 
construction contract has been awarded. Groundbreaking for the NAWS 
project occurred on April 5, 2002, in Minot, North Dakota. Work is 
continuing on other MR&I projects throughout the State. The Tribes will 
complete the FERs for their respective reservation-wide systems this 
year. Reclamation and the State will soon execute an MOU and a 
Cooperative Agreement that will guide the work on the Red River Valley 
Studies and EIS. Annual Federal contributions to the Natural Resources 
Trust have been resumed.
    Question. I understand that the NAWS project is ready to go and I 
think we need to proceed as soon as possible. What can we do to speed 
that project up?
    Answer. On March 28, 2002, Reclamation sent a letter to the North 
Dakota State Water Commission concurring the award of Contract 2-1A for 
the NAWS Project. As is the case with all Reclamation projects under 
construction, the capability of project sponsors to construct the 
project far exceeds Reclamation's ability to provide funds. We will 
continue to work within budget processes and coordinate with the State 
to prioritize expenditure of annual GDU appropriations, so that 
construction of the NAWS Project continues as expeditiously as 
possible.
                                 ______
                                 

            Questions Submitted by Senator Robert F. Bennett

    Question. As indicated in the Department's prepared statement for 
the Central Utah Project, construction of the Diamond Fork System has 
experienced some unforeseen problems associated with groundwater and 
dangerous levels of hydrogen sulfide gas. Is the $12 million requested 
in fiscal year 2003 adequate to keep the work on schedule and is it 
adequate to complete the Diamond Fork System?
    Answer. The $12 million included in the President's fiscal year 
2003 request is adequate to keep the work on schedule, but additional 
funding will be needed to complete the Diamond Fork System on the 
original schedule.
    Question. What level of additional funding does the Department 
estimate would be necessary in fiscal year 2004 to complete the Diamond 
Fork System?
    Answer. The Department and the Central Utah Water Conservancy/
District have developed a plan to complete the Diamond Fork System by 
constructing alternative facilities. The most cost-effective solution 
is being planned and would move the tunnel shaft to approximately where 
the existing tunnel crosses Diamond Fork Creek. The remainder of the 
project would then be completed as described in the 1999 Final 
Supplement to the Final Environmental Impact Statement and Record of 
Decision. A detailed cost estimate for this work is not yet available. 
This information will be communicated to the Subcommittee when it is 
available.
    Question. Will the additional funding be in addition to the roughly 
$36 million that has been historically appropriated on an annual basis?
    Answer. For the past several years, approximately $36 million has 
been appropriated annually for the completion of the Central Utah 
Project. If all the projects that are presently underway were to 
continue on schedule, additional funding above the $36 million level in 
fiscal year 2004 would be needed to complete the Diamond Fork System.
    Question. If your request for $36.2 million for fiscal year 2003 
were increased, could the Department, the District, and the Mitigation 
Commission accelerate some of its other work in fiscal year 2003 such 
that the additional funding required for the Diamond Fork System in 
fiscal year 2004 could be reduced? And if so, how much additional 
funding could be utilized in fiscal year 2003?
    Answer. As noted above, a detail cost estimate for this work is not 
yet available. Any additional funding necessary for the completion of 
the Diamond Fork system will be evaluated in the context of the overall 
fiscal year 2004 budget request.

                          SUBCOMMITTEE RECESS

    Senator Reid. The subcommittee stands in recess.
    [Whereupon, at 11:20 a.m., Friday, March 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                         FRIDAY, MARCH 15, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:38 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Harry Reid (chairman) presiding.
    Present: Senators Reid and Domenici.

                          DEPARTMENT OF ENERGY

STATEMENT OF DR. RAYMOND L. ORBACH, Ph.D., ACTING 
            DIRECTOR, OFFICE OF SCIENCE
ACCOMPANIED BY:
        WILLIAM D. MAYWOOD, IV, DIRECTOR, OFFICE OF NUCLEAR ENERGY, 
            SCIENCE AND TECHNOLOGY
        LAKE BARRETT, ACTING DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE 
            WASTE MANAGEMENT

                OPENING STATEMENT OF SENATOR HARRY REID

    Senator Reid. The subcommittee will come to order.
    Today is the second in a series of four budget oversight 
hearings for the Energy and Water Development Subcommittee. 
Last Friday the subcommittee heard testimony from the Bureau of 
Reclamation and accepted written testimony from the Corps of 
Engineers. The subcommittee will hold two more hearings this 
year that will be scheduled. One will examine the budget of the 
National Nuclear Security Administration, which will be this 
coming Monday at 9:30. We will wrap up our budget hearings on 
Tuesday, April 18, at 10 a.m. On that day we will hear from the 
Office of Environmental Management and the Office of Energy 
Efficiency and Renewable Energy.
    Today we are going to hear from three witnesses: Raymond 
Orbach, the Director of the DOE's Office of Science; Mr. Bill 
Magwood, the Director of the Office of Nuclear Energy; and Lake 
Barrett, the Acting Director of the Office of Civilian 
Radioactive Nuclear Waste.
    We were hoping to be able to hear, Mr. Barrett, from your 
replacement, but she is not able to be here today. I would just 
in passing say that I know that you are going to be leaving 
this position and, even though we have had some differences of 
opinion, I think you have been a good public employee. You have 
done your best to do what you think has been right and no one 
can ever criticize you for that. You have always as far as I 
have been concerned been willing to talk with us and allow us 
to berate you on occasion, for which I am grateful that you did 
not do any berating back.
    But I just want to wish you well in whatever you might do 
and hope that you are as successful in doing whatever you 
decide to do in the future as you have been at this.
    Mr. Barrett. Thank you very much.
    Senator Reid. We are going to talk about Yucca Mountain 
today and we are going to talk about the proposed increase that 
is supposedly for the license application, and we will look 
forward to that testimony.
    Mr. Orbach, congratulations on your being sworn in this 
week. You are taking over one of the finest scientific 
organizations I believe exists in the world and I am confident 
that you will do well. I think you have a great job. I bet 
there are a lot of people envious of the job that you have.
    I have reviewed the budget for the Office of Science and by 
and large I am pleased with it and hopeful that you are also. 
Based upon the former Corps of Engineers leader, you better be 
happy with it.
    While the administration's budget only provides you with a 
$47 million increase over last year, the actual increase seems 
to be somewhat larger than that when you take into account the 
increased construction costs of some of your engineering 
facilities, such as the Spallation Neutron Source in Tennessee. 
Overall, you look to be ahead of last year by as much as $150 
million.
    I hope that we will be able to improve on that before 
Congress completes its work this year. I think the funding for 
research and the hard sciences is one of the best and most 
appropriate investments of taxpayers' dollars. Very few things 
that we do can make a more secure Nation than maintaining a 
scientific and technological edge.
    I have some questions that I want to ask you about your 
vision for the Office of Science. But before I turn to the 
Office of Nuclear Energy, I want to give you one small piece of 
unsolicited advice. I would hope that you would understand that 
we here in Congress also have an opinion, advice, and some 
information that you need to share with us. One of the things 
we need to make sure people understand is how important it is 
that we maintain our constitutional prerogatives. We have three 
separate but equal branches of government and as long as we 
understand that, it is important that you do the best you can 
for the executive branch of government, but recognize that 
there are two other branches of government in our 
constitutional system that their demands must be met.
    Mr. Magwood, we have been very supportive of your programs 
during the years that I have been on this subcommittee. I am 
supportive even though it has sometimes put me in an awkward 
spot due to that visible work that ``Nuclear'' has in your 
title. I support strong budgets for you because long-term 
stable investment in scientific research and development is 
what makes our Nation strong. I have already indicated that.
    With nuclear power, my biggest problem with nuclear power 
comes at the end of the fuel cycle. I think that is basically 
everyone's biggest problem. We need to make sure we understand 
that.
    I think I can speak for Senator Domenici when I say that 
the budget is concerning us in that it eliminates all funding 
for transmutation. I am a little perplexed about why the 
Department only seems to be careful--I am sorry--to care about 
funding the path forward. We have to do something to look back 
at what happens after the generation takes place.
    I am confident Senator Domenici and I are going to help you 
on this. We are going to fund transmutation again this year. 
Not only do I know that Senator Domenici supports a research 
program in this regard, but my colleague from Nevada Senator 
Ensign is also enthused about this.
    Senator Domenici, knowing of your interest and support for 
nuclear power, I hope that you have more to say about Mr. 
Magwood's program, and I turn it over for a statement that you 
might have at this time.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman.
    Welcome to all three of you and particularly you, Dr. 
Orbach. You just came on board and it is good that you, even 
though it is very, very quick, that you did see fit to come on 
up and talk with us today. We understand that you just arrived 
and will treat you accordingly.
    I note that you gave up a rather important job to take this 
one, so I hope personally that you have a successful time and 
that it is as good for you as you might have thought in terms 
of accomplishments and achievements.
    Mr. Magwood and Mr. Lake Barrett, I understand, first about 
you, Mr. Barrett, that your 20 years in service are about to 
end and you are about to leave us. I do say to you that all my 
congratulations go with you. You have done a good job in a very 
controversial area. You have not conducted yourself 
controversially, but rather the subject matter has been very 
tough.
    This is the first hearing that the subcommittee has held to 
review the Department of Energy's budget request. The portion 
of the budget within the jurisdiction of this subcommittee is 
about $20.1 billion, an increase of $700 million or 3.6 percent 
over the current year. Overall, the administration has put 
forth a pretty good budget for the Department of Energy. Those 
areas that are not as good as we would like we hope we are able 
to do better in and find resources through the allocation 
process up here to take care of them.
    The most glaring exception is the request, overall request 
for nuclear energy within the Department. The budget for 
nuclear energy research and development programs was reduced 
from $134 million to $90 million this year, a 33 percent cut. 
In last year's National Energy Policy Report, the President 
provided bold leadership. That is when he sent us his energy 
policy. In fact, it contained specifically significant bold 
initiative in the area of nuclear and nuclear power and related 
research and development. It would have been good had the OMB 
and those who put this budget together read his energy policy. 
If they would have, they would have probably added to a number 
of the nuclear activities within the Department: $54 million 
for general nuclear power research and development and $80 
million for research on spent fuel. Those are items that we are 
going to have to look for and see if we cannot put them in so 
that we can continue the good work that is started within the 
nuclear department there that you head.
    I have some additional remarks in that regard, but I 
believe what I am going to do, since we have Friday, this is 
Friday and we would like to let everybody get out of here 
rather early, I think I am going to put the rest of them in the 
record.
    Thank you very much, Mr. Chairman, and let us proceed.
    [The statement follows:]

             Prepared Statement of Senator Pete V. Domenici

    I am pleased to join Chairman Reid in welcoming our distinguished 
panel of witnesses.
    I especially want to welcome Dr. Raymond Orbach, who was very 
recently confirmed by the Senate as the Director of the Office of 
Science. I am pleased the President was able to coax you away from your 
distinguished post as Chancellor of the University of California--
Riverside. Welcome to the Senate Appropriations Committee. I look 
forward to working with you in the years to come.
    Welcome also to Mr. Bill Magwood and Mr. Lake Barrett. Mr. Barrett, 
I understand you will be retiring in May. I want to thank you for over 
20 years of Federal service and wish you well in your future endeavors.
    This is the first hearing the subcommittee has held to review the 
Department of Energy budget request. The portion of its budget within 
the jurisdiction of this subcommittee is $20.1 billion, an increase of 
$700 million, or 3.6 percent over the current year level. Overall, the 
Administration has put forth a pretty good budget for the Department of 
Energy.
    The most glaring exception, however, is in the request for nuclear 
energy, where the budget for nuclear energy R&D programs was reduced 
from $134 million this year to $90 million for next year--a 33 percent 
cut.
    In last year's National Energy Policy Report, the President 
provided bold leadership with a broad endorsement of the importance of 
nuclear power. The report included a number of policy recommendations 
to expand the use of nuclear power, including the development of 
advanced nuclear fuel cycles and next-generation nuclear power plants. 
Unfortunately, this year's budget request does not match-up with the 
policy.
    For the current year, this subcommittee was responsible for 
ultimately increasing the nuclear power R&D appropriation from $57 
million to $134 million in the final appropriation. That included:
  --$54 million for general nuclear power R&D
  --$80 million for research on spent fuel and transmutation (the 
        ``AAA'' program)
    However, the Department has inexplicably proposed to eliminate 
almost all of the transmutation research for next year. I have long 
believed that the country must rapidly move ahead with a next-
generation fuel cycle that generates far less waste and extracts the 
full energy benefit from each gram of fuel. This is a long-term effort 
that requires a much larger investment by the Department.
    The transmutation of waste program, as well as several other 
nuclear R&D programs, will require substantial increases over the 
request in fiscal year 2003.
    On the positive side, I commend the Department for the $30 million 
increase to the ``Nuclear Power 2010'' initiative to have advanced 
nuclear power systems on-line by 2010.
    Regarding the budget request for the Office of Science, the budget 
is only a little better than flat for the coming year.
    The Department of Energy is the Federal Government's largest 
supporter of physical sciences. As such, I remain concerned about the 
tremendous imbalance in the government's investments in the physical 
sciences verses the life sciences. For example, NIH's budget has 
doubled in 5 years while DOE Science cannot even keep up with 
inflation.
    Past successes in biomedicine have been built upon the strong 
foundation of the physical and computational sciences. However, we will 
not be equipped to take advantage of remarkable new opportunities in 
genomics, nanotechnology, advanced materials, and other areas unless we 
increase funding in DOE Science.
    Finally, the budget request for the Nuclear Waste Disposal program 
is $525 million, an increase of $148 million (or 39 percent).
    Some time later this summer, the Senate will be called upon to vote 
on the President's recommendation on Yucca Mountain. The decision is 
very important to the country, and obviously of tremendous importance 
to my good friend the Chairman of this subcommittee.
    If the country decides to proceed with the construction of the 
nuclear waste repository, it will cost us at least $10 billion in the 
next 7 years.
    No matter what happens later this summer, we must all work together 
to ensure a strong future for nuclear power in the United States and 
the world. Economics and environmental protection will demand a major 
role for nuclear power and an acceptable spent fuel management policy.
    Each of the program areas before us today will present unique 
challenges for this subcommittee. I will look forward to engaging each 
of our witnesses today and working with the Chairman to put together 
the best possible bill.

    Senator Reid. Gentlemen, we each have questions for you. We 
would ask that you keep your statements as limited as you can 
and the full statement will be made part of the record. That 
will be the order at this time. We would ask you to proceed in 
this order: Dr. Orbach, Mr. Magwood, and Mr. Barrett. We will--
I think what we will do, Pete, is let them all finish.
    Senator Domenici. Good.
    Senator Reid. And then we will ask questions when all the 
statements are completed.
    Dr. Orbach.

                      STATEMENT OF RAYMOND ORBACH

    Dr. Orbach. Mr. Chairman, Senator Domenici: First I would 
like to thank you for your very kind remarks. I have been 
honored to have been nominated and confirmed by the Senate and 
yesterday sworn in to this office. Senator Domenici correctly 
said that I hope I do well because this is a very important 
office and I understand the responsibilities that I bear.
    I look forward to working with the committee, with 
yourselves, in order to do the best job I can for the country. 
The Office of Science is a special organization. It is part of 
the complex supporting research in the United States, but it 
has its very special characteristics. It has scope, complexity, 
and breadth of discipline which distinguishes it from other 
organizations supporting scientific research. These are spelled 
out in the President's budget which we are here to defend and 
to say in my case and across the board that I think we can get 
the job done with the funds that have been recommended.
    Our own Office of Science has, as the chairman noted, in 
effect about a 5 percent increase in terms of operational 
funding because of the shifts from construction. For that, we 
believe we can carry out the mission of the Office of Science 
both across the board and in specific areas.
    With that, let me conclude and again thank you both for 
your kind remarks and again to tell you how eager I am to work 
with you in this job.
    [The statement follows:]

              Prepared Statement of Dr. Raymond L. Orbach

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify today about the Office of Science's fiscal year 
2003 budget request. I am deeply appreciative of your support for basic 
research, Mr. Chairman, and the support we have received from the other 
Members of this Subcommittee. I am confident that our fiscal year 2003 
request represents a sound investment in our Nation's future. Through 
this budget we will strengthen our core research programs, increase the 
operating time at our major scientific user facilities, and expand our 
capabilities at those facilities.
    This budget, Mr. Chairman, will enable thousands of researchers 
located across our Nation to work on some of the most pressing 
scientific challenges of our age. These researchers will work on the 
frontiers of nanoscience; pursue an understanding of how the universe 
began; develop the knowledge that may enable us to harness microbes and 
microbial communities to improve energy production and environmental 
remediation; restore U.S. leadership in neutron science; contribute to 
the Administration's National Energy Policy through advances in fusion 
science; and, develop advanced computation and modeling tools to 
resolve complex scientific problems.
    The Administration's keen interest in science and technology is 
emphasized in our fiscal year 2003 budget request, which increases 
funding (by five percent over the fiscal year 2002 estimate when 
Spallation Neutron Source funding and one-time fiscal year 2002 
projects are set aside) for basic research, and construction and 
operation of our unique scientific user facilities. The fiscal year 
2003 budget request for the Science appropriation is $3,285,088,000. 
The Technical Information Management program request in the Energy 
Supply appropriation is $8,353,000 (see table 1).
    This budget request supports the following programs: High Energy 
Physics, Nuclear Physics, Biological and Environmental Research, Basic 
Energy Sciences, Advanced Scientific Computing Research, Fusion Energy 
Sciences, Energy Research Analyses, Science Program Direction, 
Safeguards and Security, and Science Laboratories Infrastructure 
(formerly Multiprogram Energy Laboratories--Facilities Support). The 
Technical Information Management budget request is located in the 
Energy Supply appropriation.

                        TABLE 1.--OFFICE OF SCIENCE FISCAL YEAR 2003 PRESIDENT'S REQUEST
                                           [B/A in tenths of millions]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year
                                                              --------------------------------------------------
                                                               2001 Comparable  2002 Comparable  2003 Comparable
                                                                   Approp.          Approp.          Approp.
----------------------------------------------------------------------------------------------------------------
Basic Energy Sciences........................................          $973.8           $999.6         $1,019.6
Advanced Scientific Computing Research.......................           161.3            157.4            169.6
Biological and Environmental Research........................           514.1            570.3            504.2
High Energy Physics..........................................           695.9            713.2            725.0
Nuclear Physics..............................................           351.8            359.0            382.4
Fusion Energy Sciences.......................................           241.9            247.5            257.3
Energy Research Analysis.....................................             0.9              1.0              1.0
Science Laboratories Infrastructure..........................            26.9             37.1             42.7
Science Program Direction....................................           139.9            152.5            139.5
SBIR/STTR....................................................            93.1
                                                              --------------------------------------------------
      Subtotal...............................................         3,199.6          3,237.6          3,241.3
                                                              ==================================================
Safeguards and Security......................................            39.1             47.6             48.1
S&S Reimbursable Work........................................            (4.7)            (4.5)            (4.4)
                                                              --------------------------------------------------
      Total Safeguards and Security..........................            34.4             43.1             43.7
                                                              ==================================================
      Total Science..........................................         3,234.0          3,280.7          3,285.0
Technical Information Management.............................             9.2              8.1              8.4
                                                              --------------------------------------------------
      Total Office of Science................................         3,243.2          3,288.8          3,293.4
----------------------------------------------------------------------------------------------------------------

    The Office of Science's basic research portfolio emphasizes 
sustained investment in new knowledge and support for long-term 
national priorities. It is a cornerstone of the Administration's 
efforts to maintain our Nation's overall security. We provide over 40 
percent of Federal support to the physical sciences, including more 
than 90 percent of high energy and nuclear physics support. We also are 
the sole support of key subfields, such as nuclear medicine, heavy 
element chemistry, magnetic fusion and the development of unique 
algorithms that are the foundation of advanced software systems for 
scientific applications.
    The Office of Science supports scientists and graduate students at 
over 240 major universities and at DOE's national laboratories. About 
18,000 researchers will be able to conduct leading edge research in 
materials science, biology and other areas at our major scientific user 
facilities in fiscal year 2003.
                  fiscal year 2003 science priorities
    The fiscal year 2003 request supports major research programs that 
respond to DOE priorities and will contribute to the strength and 
vitality of the national research enterprise. Many of these research 
programs are conducted jointly with other Federal research agencies and 
are illustrative of the deep reservoir of scientific talent and 
resources that DOE brings to bear on critical national challenges:
    Nanoscale science.--The Office of Science is part of a Federal 
Government effort to establish U.S. preeminence in nanoscale science, 
the next major frontier in materials sciences, chemistry, biology, 
engineering, and a host of other scientific disciplines. The goal: 
enabling the atom-by-atom design of materials and integrated systems 
that will lead to important contributions to U.S. national security, 
energy production and environmental quality. Advancing basic knowledge 
in nanoscale science, and drawing on the Office of Science's unique 
core competencies and recognized interdisciplinary capabilities will 
enable the Office of Science and its Federal partners (NSF, DOD, etc.) 
to secure international leadership in this emerging area of science.
    In fiscal year 2003, fundamental research to understand the 
properties of materials at the nanoscale will focus in three areas: 
synthesis and processing of materials at the nanoscale, condensed 
matter physics, and catalysis. The challenge with respect to synthesis 
and processing is to develop a fundamental understanding of the 
nanoscale processes involved in deformation and fracture, the synthesis 
of ordered arrays of nanoparticles using patterning techniques, and the 
synthesis of nanoparticles of uniform size and shape. Work in condensed 
matter physics will focus on understanding how properties change or can 
be improved at the nanoscale and how macromolecules reach their 
equilibrium configuration and self assemble into larger structures. In 
catalysis, new work will focus on fundamental research to understand 
the role that nanoscale properties of materials play in altering and 
controlling catalytic transformations.
    The goal of the nanoscale science initiative is to establish a 
fundamental understanding of structures and interactions at the 
nanoscale. Through this understanding DOE anticipates significant 
improvements in many areas: solar energy conversion; more energy-
efficient lighting; stronger, lighter materials for more efficient 
transportation; better improved chemical and biological sensors; new 
methods to break down toxic substances for environmental remediation 
and restoration; and better sensors and controls to increase efficiency 
in manufacturing.
    The fiscal year 2003, budget also increases support for Project 
Engineering and Design of Nanoscale Science Research Centers (NSRCs), 
and initiates construction of the NSRC at Oak Ridge National 
Laboratory. NSRCs are user facilities for the synthesis, processing, 
fabrication, and analysis of materials at the nanoscale. NSRCs were 
conceived in fiscal year 1999 within the context of an interagency 
working group on Nanoscale Science, Engineering, and Technology as part 
of the DOE contribution to the National Nanotechnology Initiative. 
NSRCs will serve the Nation's researchers broadly and, as with the 
existing Office of Science facilities, access to NSRCs will be through 
submission of proposals that will be reviewed by mechanisms established 
by the facilities themselves. Planning for the NSRCs includes 
substantial participation by the research community through a series of 
open, widely advertised workshops.
    The NSRCs will be sited adjacent to or near an existing synchrotron 
or neutron scattering facility and contain chemistry, physics, and 
biology laboratories for nanofabrication, clean rooms, one-of-a-kind 
signature instruments and other instruments (e.g., nanowriters and 
various research-grade probe microscopies, not generally available 
outside of major user facilities).
    This research effort will also benefit from a new partnership, 
proposed in fiscal year 2003, between the Advanced Scientific Computing 
Research (ASCR) program and the Basic Energy Sciences (BES) program. 
The partnership will focus on computational nanoscale science, 
engineering and technology as part of the Nanoscale Science, 
Engineering and Technology Initiative. ASCR's contributions to this 
partnership will consist of developing the specialized computational 
tools for nanoscale science focusing on using high performance 
computers to answer fundamental questions.
    Genomes to Life.--Microbes and plants are responsible for the 
initial production of essentially all carbon-based energy that we use, 
whether from oil, coal or biomass, and for the subsequent removal of 
the energy-related carbon from the atmosphere. Microbes and microbial 
communities also make up about 60 percent of the biomass on Earth. A 
deeper, genetically based understanding of these organisms, culminating 
in computational models of their function that can be used to predict 
and even modify functions or efficiencies, promises a revolution in 
energy and its environmental impact. For example, harnessing metabolic 
pathways in hydrogen-producing microbes or understanding how oxygen 
poisons a key group of enzymes, hydrogenases (capable of producing 
hydrogen only in the absence of air), could help to develop a more 
efficient, hydrogen-based energy economy.
    Deeper understanding of gene function and protein structure offer 
the potential for novel new biology-based solutions to address DOE's 
needs including biotechnology solutions for clean energy, carbon 
sequestration, environmental cleanup, and bioterrorism detection and 
defeat. Key to these is an understanding of the genetic and 
environmental basis of cell function, and the development of tools to 
understand gene function and protein structure.
    Initiated in fiscal year 2002, Genomes to Life research continues 
to more fully characterize the inventory of multiprotein molecular 
machines found in selected DOE-relevant microbes and higher organisms 
and to determine the functional diversity found in populations of 
microbes isolated from DOE-relevant sites. In fiscal year 2003, new 
research will be initiated that focuses on further developing the 
research tools needed to study microbial communities that may have 
applications to clean energy, environmental cleanup, and carbon 
sequestration.
    The overriding goal of the long-term Genomes to Life research 
program is to understand biology well enough to be able to predict the 
behavior and responses of biological systems--from cells to organisms--
so that they can best be used to address DOE mission needs in energy, 
the national security, and environment. This effort is part of an 
interagency program to understand life's basic processes to meet 
National goals in many areas including health, agriculture, and energy. 
More specifically, Genomes to Life research will:
    Identify life's molecular machines, the multiprotein complexes that 
carry out the functions of living systems. Emphasis will focus on 
molecular machines from organisms of potential importance to DOE 
missions (e.g., energy production, environmental remediation, and 
carbon sequestration, and biothreat reduction).
    Characterize the gene regulatory networks and processes that 
control the molecular machines of interest.
    Characterize the functional repertoire of complex microbial 
communities in their natural environments and use the integrated 
genomics, biochemical, structural, and physiological information to 
address DOE missions in energy, waste cleanup, and biothreat reduction.
    Develop computational capabilities needed to model the complexity 
of biological systems.
    Computation and modeling of biological processes and systems is key 
to the success of this effort given the complexity of biological 
systems. Greatly improved computational strategies, tools and resources 
are needed and will be developed through partnership between the 
Biological and Environmental Research (BER) program and the ASCR 
program. In fiscal year 2003, this partnership will be expanded to 
further develop the computational research infrastructure and 
especially underlying mathematical understanding and computational 
tools that are needed for the analysis and simulation of key biological 
processes.
    The Administration's Climate Change Research Initiative.--In fiscal 
year 2003, the Administration will begin a new Climate Change Research 
Initiative (CCRI). The CCRI is intended to focus research on areas 
where substantial progress in understanding and prediction are likely 
over the next five years.
    DOE, working with other U.S. Global Change Research Program 
(USGCRP) agencies, will tackle a specific piece of this problem: 
understanding the North American Carbon Cycle, which was identified as 
a priority need in the interagency Carbon Cycle Science Plan.
    Office of Science research on the carbon cycle will explore the 
movement of carbon on a global scale, starting from natural and manmade 
emissions to carbon sinks in the terrestrial biosphere and the oceans. 
Carbon sequestration research seeks to exploit the biosphere's natural 
processes to enhance the sequestration of atmospheric carbon dioxide in 
terrestrial and marine ecosystems. It also seeks the understanding 
needed to assess the potential environmental implications of purposeful 
enhancement and/or disposal of carbon in the terrestrial biosphere and 
at the surface or deep in the ocean. Experimental and modeling efforts 
primarily address the net exchange of carbon between major types of 
terrestrial ecosystems and the atmosphere.
    Fundamental research into the nature of matter and energy.--The 
Office of Science is exploring two significant elements of the Standard 
Model, the current accepted theory of the fundamental forces in the 
universe, including the complex interactions of energy, matter, time 
and space. The Office of Science's High Energy Physics (HEP) program 
has a unique opportunity during the next few years to make key 
discoveries that will help scientists worldwide understand the origin 
of mass and the preponderance of matter over antimatter in the 
universe, two of the great unsolved questions in physics.
    Until the Large Hadron Collider (LHC) at CERN, the European 
particle physics laboratory, becomes fully operational sometime after 
2006, the HEP program is the only one in the world with facilities 
capable of detecting the elusive Higgs boson (thought key to 
understanding mass). Additionally, one of the persistent mysteries of 
modern physics is the general absence of observed anti-matter in the 
universe--a puzzle that HEP could resolve within the next five years by 
explaining the role of Charge-Parity (CP) violation.
    The Large Electron-Positron Collider (LEP) at CERN left a 
tantalizing hint of a Higgs boson before it ceased operations in late 
2000. The data suggest a Higgs mass of about 115 GeV, well within reach 
of the Tevatron at the Fermi National Accelerator Laboratory 
(Fermilab).
    However, if research at the Tevatron is to find the Higgs boson 
before the LHC gets underway, the Tevatron will need to run 
extensively, increase its luminosity (data rate) substantially, and 
replace some components of its particle detectors. A program of 
luminosity and detector improvements is now underway, interleaved with 
data runs. If the Higgs mass is less than 165 GeV (billion electron 
volts), and all of the improvements are successful, the data to find 
the Higgs boson is expected to be in hand before the LHC is 
operational.
    Tevatron data will also give more information about the 
surprisingly heavy top quark discovered there in 1995, and could reveal 
an entire new class of particles (supersymmetric particles) that have 
been predicted by new theories that seek to complete the unification of 
our explanations of fundamental interactions.
    At the Stanford Linear Accelerator Center (SLAC), the highly 
successful B-factory and its BaBar detector will have the opportunity 
to shed light on the mystery of why there is so much more matter than 
antimatter in the observed universe, rather than equal amounts of each 
as current theories predict. Electrons colliding at several billion 
electron volts (GeV) will allow the study of a phenomenon known as CP 
violation in B mesons. CP violation causes a subtle asymmetry in the 
amounts of matter and antimatter produced in nuclear processes, such as 
those that occurred in the very early universe, and could therefore 
help to explain the predominance of matter today.
    CP violation was originally discovered in 1964 in an experiment at 
Brookhaven National Laboratory, and its accommodation within the 
current theory of the Standard Model has only recently been established 
through extremely difficult and exquisitely precise measurements at 
Fermilab and CERN. The big question for SLAC is whether CP violation in 
the B mesons will follow theoretical predictions or will instead 
indicate some additional, hitherto unknown source of the phenomenon. 
Such a discovery would have profound implications for our understanding 
of the matter-dominated universe in which we live.
    The fiscal year 2002 budget focused on utilization and upgrades of 
the Tevatron at Fermilab and the B-factory at the SLAC to fully exploit 
the discovery potential of these facilities. In fiscal year 2003, this 
focus will continue as will support for the groups of scientists 
(primarily university-based) performing the research.
    Attempts to synthesize an extreme form of matter that only existed 
for a fraction of a second at the Big Bang--the quark-gluon plasma.--
The Nuclear Physics program is working to synthesize, for the first 
time in a laboratory, an extreme state of matter that existed 
microseconds after the Big Bang: a hot dense plasma of unconfined 
quarks and gluons. This scientific achievement will reveal the nature 
and behavior of the most fundamental building blocks of matter.
    The Relativistic Heavy Ion Collider (RHIC) is a unique facility 
where colliding relativistic heavy ion beams will permit exploration of 
the quark-gluon plasma, and recreate the transition, from unbound 
quarks and gluons to their tightly bound combinations as nucleons, that 
characterized the early evolution of the universe. Studies with 
colliding heavy ion beams provide researchers with an opportunity to 
explore new forms of nuclear matter and nuclear interactions that up to 
now have only been characterized theoretically.
    Now that the Office of Science's RHIC facility is fully 
operational, intensive study is underway. First RHIC measurements 
indicate that they have been able to achieve an energy density--a 
measure of the energy deposited in the collision region by the 
colliding nuclei--higher than ever before achieved in a laboratory, and 
at least 70 percent higher than in similar experiments at CERN. This 
should be sufficient to create the quark-gluon plasma. Several papers 
reporting results have already been published and many others are 
expected to follow shortly. Discussion of these results--dominated the 
premier international conference for this field--Quark Matter 2001--and 
have generated much attention in the general press. Following 
preparations at RHIC during the fiscal year 2001-fiscal year 2002 
running periods for its spin-physics program, it is anticipated that 
this program will begin in fiscal year 2003 to study the quark 
structure of nucleons.
    A new era of scientific discovery through advances in 
computation.--The Office Science initiated the Scientific Discovery 
through Advanced Computing (SciDAC) program in fiscal year 2001 to 
exploit advances in computing and information technologies as tools for 
scientific discovery across basic research programs. SciDAC encourages 
and enables a new model of multi-disciplinary collaboration among 
researchers in the physical sciences, computer scientists and 
mathematicians to develop a new generation of scientific simulation 
codes that can fully exploit terascale computing and networking 
resources. SciDAC's goal is to bring simulation to a level of parity 
with experiment and theory in the scientific research enterprise, and 
lead to breakthroughs in a wide range of areas including climate 
prediction, plasma physics, particle physics, astrophysics and 
computational chemistry.
    SciDAC activities build on the historic strength of the Office of 
Science in computational science, computer science, applied 
mathematics, and high-performance computing and in the design, 
development, and management of large scientific and engineering 
projects and scientific user facilities.
    For example, a partnership between the ASCR program, the HEP 
program, and the NP program, identified the most compelling 
opportunities for advancements in physics through the application of 
terascale computing resources. As a result, the Office of Science 
identified challenge areas within theoretical nuclear physics, and 
several major multi-institutional grants in high-priority topical areas 
were awarded for the first time in fiscal year 2001. A similar 
partnership has been formed between ASCR and the BES program to advance 
computational nanoscience.
    Advanced Computing Research Testbeds provide advanced computational 
hardware for testing and evaluating new computing hardware and 
software. These testbeds are providing specialized computational 
resources to support SciDAC applications teams in fiscal year 2002. In 
fiscal year 2003, this effort will be increased to provide specialized 
computing resources to SciDAC application teams that demonstrate 
significant opportunities for new scientific discovery.
    Innovation in fusion, plasma science and related technologies as 
part of the Administration's National Energy Policy.--The Office of 
Science program leads the national research effort to advance plasma 
science, fusion science, and fusion technology--the knowledge base 
needed to create an economically and environmentally attractive fusion 
energy source. The National Energy Policy, published in July of 2001, 
recommended that the President direct the Secretary of Energy to 
develop next-generation technology--including hydrogen and fusion. This 
builds on a recommendation of the National Research Council, which 
states:
    ``The committee believes that a dynamic, outward-looking, science-
driven program in which discoveries are regularly communicated beyond 
the walls of fusion science is essential to alter the outside 
community's perception of the field. A strong case can also be made 
that a program organized around critical science goals will also 
maximize progress toward a practical fusion power source. Scientific 
discoveries that a decade ago would have been unthinkable are the 
fundamental drivers of program direction at all levels . . .''--An 
Assessment of the Department of Energy's Office of Fusion Energy 
Sciences Program--National Research Council--2001
    The fiscal year 2003 budget supports the program balance and 
priorities recommended by the Fusion Energy Sciences Advisory Committee 
and supported by the Secretary of Energy Advisory Board and the 
National Research Council.
    The science and the technology of fusion have progressed to the 
point that the next major research step is the exploration of the 
physics of a self-sustained plasma reaction in a burning plasma physics 
experiment. In fiscal year 2003, the Office of Science will fund 
research that supports such an experiment. In addition, the Office of 
Science will fund the exploration of innovative approaches to 
confining, heating, and fueling plasmas.
    The characteristics of the materials used in the construction of 
fusion power plants will determine the impact that those power plants 
will have on the environment. In fiscal year 2003, the Office of 
Science will support scientific research aimed at developing materials 
for fusion applications in coordination with its basic materials 
science program that will ensure that fusion-generated power will have 
a minimal environmental impact.
    Advanced scientific user facilities to accomplish vital DOE and 
national missions.--The Office of Science designs, builds, and operates 
scientific user facilities for university, laboratory, and industry 
researchers, providing U.S. scientists with the tools needed to pursue 
research for national defense, promote energy security, make advances 
in health, and increase U.S. technological competitiveness. During the 
next five years, the Office of Science will design and/or complete new 
research tools such as the Spallation Neutron Source (SNS) at Oak Ridge 
National Laboratory and Neutrinos at the Main Injector (NuMI) at 
Fermilab. The Office of Science's operation of major scientific 
facilities has ensured that a growing number of U.S. scientists have 
reliable access to those important facilities. The number of users at 
major Office of Science user facilities is projected to grow to over 
17,000 in fiscal year 2002 and over 18,000 in fiscal year 2003. Of 
particular note has been the growth in users at the Office of Science's 
light sources. Biologists and other life scientists have been working 
cooperatively with physicists and other physical scientists in multi-
disciplinary teams to achieve breakthroughs in medicine, biotechnology 
and other fields.
                        science accomplishments
    The Nation's investment in Office of Science basic research 
programs continues to pay dividends to the American taxpayer. These 
scientific accomplishments respond to DOE's missions in national 
security, energy and environment, and contribute to U.S. technological 
competitiveness. In addition, the Office of Science continues to pursue 
answers to many of the most challenging scientific questions of the 
21st century and sponsors researchers who receive many of the most 
prestigious scientific awards given annually. Some of the past year's 
highlights include:
                              environment
    First Draft of Human DNA Sequence Published.--Capping what may be 
one of the greatest scientific achievements of all time, the draft 
human DNA sequence was published in the February 15/16, 2001 issues of 
the journals Nature and Science. The Office of Science initiated this 
monumental research project, sequenced human chromosomes 5, 16, and 19, 
and contributed many of the fundamental technologies and resources. 
Both the human DNA sequence and high throughput DNA sequencing 
capabilities, especially as applied to microbes, contribute to the 
identification of genetic factors that increase individual human 
susceptibility to radiation and other energy-related materials, and to 
the use of microbes and microbial communities to solve challenges in 
carbon sequestration, clean energy, environmental cleanup, and national 
security.
    Radiation Resistant Microbe Could Reduce Common Contaminants at DOE 
Sites.--The radiation resistant ``superbug'' Deinococcus radiodurans, 
was shown by researchers at DOE's Pacific Northwest National Laboratory 
to change chemical species of contaminants common to DOE sites (e.g., 
Uranium, Technetium, and Chromium). Deinococcus radiodurans may provide 
a means for limiting the migration of radionuclides and heavy metals 
from soil to water supplies. Moreover, Deinococcus has now been 
reported to be common in the populations of soil microorganisms beneath 
radioactive waste storage tanks at the Hanford reservation, making this 
microbe especially promising for in situ bioremediation approaches.
    Weather Forecast Accuracy Improved through Measurements and 
Modeling of Atmospheric Radiation.--The Atmospheric Radiation 
Measurement (ARM) program has improved the agreement between measured 
and modeled instantaneous clear sky infrared fluxes from 20 Watts per 
square meter to 5 Watts per square meter. The inclusion of the advanced 
radiation code into climate models has resulted in a 7 percent 
improvement in the usefulness of weather forecasts by extending the 
forecast period and reducing the computation time required to produce 
the forecasts.
    Carbon Sequestration Possible Through ``Artificial Leaves'' Made of 
Semiconductor Nanocrystals.--Recent experiments demonstrated that 
carbon dioxide could be removed from the atmosphere using semiconductor 
nanocrystals. These ``artificial leaves'' could potentially convert 
carbon dioxide into useful organic molecules with major environmental 
benefits. However, to be practical, efficiency must be substantially 
improved. New theoretical studies have unraveled the detailed 
mechanisms involved and identified the key factors limiting efficiency. 
Based on this new understanding, alternative means for improving 
efficiency were suggested that could lead to effective implementation 
of artificial leaves.
                            energy security
    Energy Savings Possible from Micro-size Light Emitters.--Energy 
savings of tens of billions of dollars per year could be achieved by 
replacement of household 100-watt light bulbs by white light emitting 
diodes (LED) made by mixing LEDs emitting primary colors. However, 
improved LED efficiency is necessary before such replacement becomes 
feasible. New research has shown that interconnecting hundreds of 
micro-size LEDs to replace larger conventional LEDs can boost the 
overall emission efficiency by as much as 60 percent.
    Novel Materials for Advanced Fuel Cells.--A major impediment to the 
commercialization of fuel cells is the inability to use hydrogen fuel 
containing traces of carbon monoxide and the need to utilize large 
amounts of expensive platinum catalysts. A novel ruthenium/platinum 
catalyst has been produced through the spontaneous deposition of 
platinum on metallic ruthenium nanoparticles. The resulting catalyst 
has a higher carbon monoxide tolerance than commercial catalysts and 
uses smaller amounts of platinum. In addition, research on new 
catalytic electrodes for fuel cells has shown that synthetic diamond 
thin films are excellent supports for catalysts because of their 
corrosion resistance.
    Advancing Fusion Energy Science.--Research funded by the Fusion 
Energy Sciences (FES) program in fiscal year 2001 produced results over 
a wide range of activities. Examples include: dramatic improvements in 
the feedback modification of plasma instabilities on the DIII-D 
experiment that doubled previous limits on plasma pressure; and the 
development, by researchers at the Alcator C-Mod, of a technique known 
as ``off-axis ion cyclotron radio frequency heating'' that can reduce 
energy transport. Greatly reduced energy transport has also been 
achieved in the Reversed Field Pinch (RFP), an innovative confinement 
concept experiment at the University of Wisconsin. New models for 
microstructural evolution enable nanosystem methods for designing 
fusion materials with significantly improved performance and lifetimes 
and with elemental tailoring that minimizes radioactivity generation by 
neutron-induced transmutation.
                   u.s technological competitiveness
    Twelve Companies Adopt Argonne Lab/University of Southern 
California (USC) Globus Toolkit<SUP>TM</SUP> as Standard Grid 
Technology Platform.--The open source Globus Toolkit<SUP>TM</SUP> 
developed by USC's Information Sciences Institute and Argonne National 
Laboratory has become the international standard in the burgeoning 
field of grid computing. Twelve leading computer vendors and software 
providers in the U.S. and Japan announced in November 2001, that they 
will support the product. Grid computing is a technology that uses the 
Internet as basic wiring to let people share computing, storage, data, 
programs, and other resources, just like the electric power grid allows 
people and energy companies to share generators of all kinds. The goal 
is to allow anyone with a computer to effectively integrate 
instruments, displays, and computational and information resources over 
a variety of computer platforms.
    Nuclear Physics Research Results in New Biomedical Technology for 
Imaging Lung Functions.--A new technique has been developed by 
university researchers that enhances MRI imaging of lungs through the 
use of ``hyperpolarized gas.'' The technique, initially developed to 
provide polarized targets for nuclear physics experiments, uses lasers 
to polarize large volumes of noble gases that can then be inhaled. The 
MRI equipment detects the resonance of the polarized gas to provide an 
image of the air volume of the lungs. The process is presently 
undergoing clinical trials.
                   advances in fundamental knowledge
    Basic Constituencies of Matter Identified.--The tau neutrino was 
discovered by the DONUT collaboration, a team of university and 
laboratory scientists working at Fermilab. This completed the last 
generation of leptons, and capped a major American achievement: the 
discovery of 11 of the 12 basic constituents of matter, the quarks and 
leptons of the Standard Model of elementary particles. (The first of 
the 12, the electron, was discovered in England in 1897.) The discovery 
of the tau neutrino is considered by the American Institute of Physics 
to be one of the top three physics news stories of the year 2000, and 
has been published in peer reviewed scientific journals.
    New Nuclear Physics Research Tool has Potential for Important 
Applications.--A new precision technique for Atom Trap Trace Analysis 
(ATTA) to identify and count extremely rare isotopes has been developed 
at Argonne National Laboratory. The technique allows one to make 
precision measurements of the charge radius of several helium isotopes 
for fundamental tests of nuclear models and to measure the solar 
neutrino flux integrated over several million years as a test of the 
solar model prediction for neutrino production in the sun. The latter 
is an important test for understanding the low solar neutrino flux 
problem. This technique also potentially has broad new practical 
applications, such as dating ground water and polar ice for 
environmental and geologic studies, dating bones for archeological 
purposes, and, in medicine, monitoring bone loss in humans.
    Mystery of Missing Solar Neutrinos is Solved.--A highlight of 
fiscal year 2001 for the NP program was the reported measurements from 
the Sudbury Neutrino Observatory (SNO), providing an answer to a 30-
year-old mystery--the puzzle of why there are fewer solar neutrinos 
detected than are expected. NP researchers, working with scientists 
from Canada and other nations, found that the answer lies not with the 
Sun, but with the neutrinos that change their type (oscillate) as they 
travel from the core of the Sun to the Earth. In fiscal year 2002-2005, 
SNO will make unique and more sensitive measurements of the flux and 
spectra of solar neutrinos. Neutrino oscillations are evidence that 
neutrinos have mass, an observation that forces a re-evaluation of the 
existing Standard Model of particle physics.
                        major scientific awards
    Office of Science Researchers Win Awards and Recognition.--Hundreds 
of principal investigators, funded by the Office of Science, annually 
win dozens of major prizes and awards sponsored by the President, the 
Department, the National Academy of Sciences, private organizations, 
and the major scientific professional societies. In 2001, SC-supported 
researchers won: one of the 2001 Discover Magazine Innovation Awards; 
the 2001 Christopher Columbus Foundation Award, the 2001 Thomas Young 
Medal; the Humboldt Research Award; three 2001 R&D 100 awards; an 2001 
Energy 100 award; and a 2001 Federal Laboratory Consortium Award for 
excellence in Technology Transfer. Of special note was the fact that 
the supercomputing conference series initiated a Network Bandwidth 
Challenge in 2000, in which researchers were invited to demonstrate 
their ability to maximize network performance for their application. In 
both 2000 and 2001, the first prize for optimal use of the network went 
to a DOE laboratory-led application. In 2001, the prize-winning 
application was based on an interactive, scientific simulation running 
at two separate supercomputers. The results of the simulation were sent 
to the conference floor over the network and visualized at a sustained 
network performance level of 3.3 gigabits per second, or approximately 
1,000 times faster than commercially available Digital Subscriber 
Lines.
                            science programs
                          high energy physics
    Fiscal year 2002 Appropriation--$713.2M; fiscal year 2003 Request--
$725.0M
    The High Energy Physics (HEP) program provides over 90 percent of 
the Federal support for the Nation's high energy physics research. This 
research seeks to understand the nature of matter and energy at the 
most fundamental level, as well as the basic forces that govern all 
processes in nature. High energy physics research requires accelerators 
and detectors utilizing state-of-the-art technologies in many areas, 
including: fast electronics, high speed computing, superconducting 
magnets, and high power radio-frequency devices. In these areas, HEP 
research has led to many developments with practical applications in 
the civilian marketplace as well as to widespread applications in other 
scientific disciplines. In addition, this program provides the basis 
for an excellent education for some of the brightest young minds in the 
Nation--a number of whom contribute to other scientific fields and to 
private industry.
    Until 2006, when Europe's Large Hadron Collider is scheduled to 
begin operations, the U.S. is the primary center for HEP research. 
Increased operating time and enhanced capabilities at HEP facilities 
are essential to ensure that the U.S. remains a leader in this 
fundamental area of physics research. Beginning in fiscal year 2002, 
the Department's HEP program focused its resources to take full 
advantage of this window of opportunity, particularly at Fermilab and 
the Stanford Linear Accelerator Center (SLAC). This focus continues in 
fiscal year 2003. At Fermilab, following completion and successful 
commissioning of the Main Injector and major upgrades to the CDF and D-
Zero detectors, the Tevatron Collider Run II began in March 2001. The 
Tevatron will be running fully in fiscal year 2003 toward a goal of 
discovering the long-sought Higgs particle (thought key to 
understanding mass) and other important new physics. Upgrades are 
planned for fiscal year 2003 to increase collider luminosity, maintain 
detector performance, and provide the computing capability to analyze 
the data collected.
    Similarly at SLAC, there is a window of opportunity to take 
advantage of the outstanding performance of the B-factory to break new 
ground in exploring the source and nature of Charge-Parity (CP) 
violation in the B meson system. For this reason, maximum running is 
planned for the B-factory in fiscal year 2003. Upgrades are planned in 
fiscal year 2003 for the accelerator to achieve optimal physics output 
and for the detector and computing capabilities to cope with high data 
volumes. In 2001, the BaBar detector collaboration achieved one of its 
physics milestones, announcing the first definitive measurement of CP 
violation in the B meson system.
    The High Energy Physics request includes $480,453,000 to maintain 
support of the Department's scientific user facilities. This investment 
will provide significant research time for several thousand scientists 
based at universities and other Federal laboratories. The proposed 
funding will support operations at the Department's two high priority 
HEP facilities: the Tevatron at Fermilab, and the B-factory at SLAC. 
Although the Alternating Gradient Synchrotron (AGS) at Brookhaven is a 
Nuclear Physics facility, high priority HEP experimentation continued 
there through fiscal year 2002. Due to a restructuring of priorities 
within the program, use of the AGS for HEP is terminated in fiscal year 
2003.
    Support for university and laboratory based theoretical and 
experimental research related to the high priority experiments at 
Fermilab and SLAC will continue to be emphasized in fiscal year 2003. 
The experimental programs are performed by university (primarily) and 
laboratory based scientists. These scientists construct, operate, and 
maintain the detectors, analyze the resulting data, and train the next 
generation of scientists. High Energy Physics Research and Technology 
funding will increase in fiscal year 2003 by $14,320,000 to a total of 
$258,545,000 with emphasis on the high priority experiments at Fermilab 
and SLAC.
    Successful completion of construction and major capital equipment 
projects continues to be an important part of the program. Continued 
participation in the Large Hadron Collider (LHC) project at CERN is a 
high priority. The U.S. contributions to the LHC accelerator and the 
ATLAS and CMS detectors are making good progress and are on schedule 
and within budget for the current LHC scheduled start-up date of 2006. 
The U.S. LHC work is being performed at various locations including 
four DOE laboratories and 60 U.S. universities. In fiscal year 2003, 
$60,000,000 of LHC funding will be used for the fabrication of 
accelerator magnets and equipment and the R&D, prototype development, 
and fabrication of detector subsystems such as tracking chambers, 
calorimeters, and data acquisition electronics.
    The Neutrinos at the Main Injector (NuMI) project has encountered 
serious problems in several areas. These include difficulties with the 
construction of the beam tunnel at Fermilab and design changes in the 
beam line components and shielding needed to accommodate the high 
radiation levels resulting from the very high intensity of the proton 
beam used to produce the neutrinos. Principal corrective actions for 
the NuMI project were strengthening Fermilab's project management 
organization and improving DOE oversight through additional staff in 
the site office and closer interaction with the NuMI program office. 
The MINOS detector for NuMI is proceeding well, and its completion is 
expected within the projected cost and schedule. Because of these 
developments, the project costs for NuMI have risen. The total project 
cost is increased to $171,442,000 from the previously approved 
$139,390,000, and the total estimated cost is increased to $109,242,000 
from the previously approved $76,149,000. The completion will be 
delayed by about two years to the end of fiscal year 2005. In fiscal 
year 2003, the HEP program requests $20,093,000 for continued 
construction of the NuMI project.
    Progress continues on two particle astrophysics experiments in 
partnership with NASA. The Alpha Magnetic Spectrometer (AMS) is 
expected to fly on Space Station Alpha in 2004, and the Large Area 
Telescope (LAT) mission, that is part of the Gamma-Ray Large Area Space 
Telescope (GLAST), is planned for 2006. Both of these experiments are 
expected to lead to a better understanding of dark matter, high energy 
gamma ray sources, and the origin of the universe.
                            nuclear physics
    Fiscal year 2002 Appropriation--$359.0M; fiscal year 2003 Request--
$382.4M
    The Nuclear Physics (NP) program is the major sponsor of 
fundamental nuclear physics research in the Nation, providing about 90 
percent of Federal support. The mission of this program is to advance 
our knowledge of the properties and interactions of atomic nuclei and 
nuclear matter in terms of the fundamental forces and particles of 
nature; and, to develop the scientific knowledge, technologies and 
trained manpower that is needed to underpin DOE's missions for nuclear-
related national security, energy, and environmental quality.
    In fiscal year 2003, highest priority is given to enhancing the 
operations of the program's user facilities, especially major new 
facilities that have started operations: the Relativistic Heavy Ion 
Collider (RHIC) and the Continuous Electron Beam Accelerator Facility 
(CEBAF). These facilities are poised to make major advances in our 
understanding of matter and energy. The Nuclear Physics request 
includes $260,140,000 to maintain support of the Department's 
scientific user facilities. Funding will double operations for research 
at RHIC and increase overall research hours at the six NP user 
facilities by 21 percent in fiscal year 2003. This investment will 
provide research time for several thousand scientists in universities 
and other Federal laboratories. It will also leverage both Federally 
and privately sponsored research, consistent with the Administration's 
strategy for enhancing the U.S. national science investment. High 
priority is also given to university researchers who use these 
facilities and to nuclear theory activities that continue to 
characterize atomic nuclei, nuclear matter, and related forces.
    The new RHIC facility at BNL will attempt to create and 
characterize the quark-gluon plasma, a phase of matter thought to have 
existed in the very early stage of the universe. Experimental data 
taken between fiscal year 2000-2002 have already revealed unexpected 
behaviors and show aspects of possible plasma formation. RHIC achieved 
its planned full collision rate in fiscal year 2002 and in fiscal year 
2003 the running schedule will be doubled, providing the opportunity to 
explore this exciting new physics in depth.
    At the Thomas Jefferson National Accelerator Facility (TJNAF) the 
intense, polarized electron beams from CEBAF are being used to gain 
knowledge and insights on how quarks and gluons bind together to make 
protons and neutrons. In fiscal year 2003, funding will support an 
aggressive experimental program with the newly completed G0 detector, 
to map out the strange quark contribution to the structure of the 
nucleon.
    The unique research program studying the structure of the nucleon 
at the MIT/Bates facility with the BLAST detector, now being 
commissioned, will be initiated in fiscal year 2003. Nuclear structure 
and astrophysics studies will be pursued at the three low-energy user 
facilities (ATLAS/Argonne, 88-Inch Cyclotron/Lawrence Berkeley and 
HRIBF/Oak Ridge) with increased running schedules compared to fiscal 
year 2002.
                 biological and environmental research
    Fiscal year 2002 Appropriation--$570.3M; fiscal year 2003 Request--
$504.2M
    The Biological and Environmental Research (BER) program, in 
coordination with other Federal agencies and with guidance from the BER 
Advisory Committee, supports basic, peer-reviewed research at national 
laboratories and universities across a remarkable breadth of scientific 
fields ranging from global climate change to genomics. The 21st Century 
has been called the ``biological century'' because advances in biology 
are expected to have an enormous impact on health, environment, and our 
ability to predict changes in climate. In fiscal year 2003, the BER 
program will contribute to these advances through basic research in 
support of DOE missions.
    The fiscal year 2003 request for BER includes $52,088,000 to 
maintain support of the Department's major scientific user facilities. 
BER facilities include structural biology research beam lines at the 
synchrotron light sources and neutron sources including a new station 
for small angle neutron scattering that has been completed at Oak Ridge 
National Laboratory and provides U.S. scientists with a much needed 
world-class facility. The Laboratory for Comparative and Functional 
Genomics at Oak Ridge National Laboratory will begin operations in 
fiscal year 2003. BER also provides for the operation of the William R. 
Wiley Environmental Molecular Sciences Laboratory, where research 
activities underpin long-term environmental remediation and other DOE 
missions in energy and national security, and creation of tools for the 
detection and defeat of bioterrorism. With the fiscal year 2003 
funding, BER will provide for the operation of these facilities, 
assuring access for scientists in universities, Federal laboratories, 
and industry. BER will also leverage both federally and privately 
sponsored research.
    Genomes to Life activities will develop novel research and 
computational tools that, together with capabilities in genomics, 
structural biology, and imaging will lead to an understanding of and 
predictive capabilities for complex biological systems. In fiscal year 
2003, the BER program will further develop the research infrastructure 
needed for Genomes to Life research. In fiscal year 2002, the program 
funded several large teams of scientists at multiple national 
laboratories and universities to work together across institutional 
boundaries as members of virtual, distributed research centers 
addressing core questions for Genomes to Life. These virtual research 
centers will be expanded in fiscal year 2003 to include research 
capabilities needed for analyses of the functions of microbial 
populations comprised of multiple microbial species, enabling the 
development of strategies for using complex microbial communities to 
address DOE needs in clean energy production, carbon sequestration, and 
environmental cleanup. The fiscal year 2003 BER request for this 
program is $36,675,000--an increase of $15,161,000.
    Human Genome research continues to develop advanced sequencing 
technologies needed by research and clinical scientists. It provides 
high throughput DNA sequencing resources to address sequencing needs 
across the Federal Government, including for biothreat reduction. With 
the completion of the high quality DNA sequence of human chromosomes 5, 
16, and 19, DNA sequencing capabilities at the Joint Genome Institute 
will increasingly emphasize the needs of research on microbes for 
energy, the environment, and national security and, through interagency 
partnerships, selected sequencing needs of other agencies including the 
National Science Foundation and the U.S. Department of Agriculture. BER 
requests $90,185,000 for this research in fiscal year 2003--an increase 
of $2,327,000 over the fiscal year 2002 appropriation.
    The goal of the Low Dose Radiation Research program is to support 
research that will help determine health risks from exposures to low 
levels of ionizing radiation, information that is critical to 
adequately and appropriately protect people, and to make the most 
effective use of our national resources. In fiscal year 2003, BER will 
continue to emphasize the use of new tools such as microbeam 
irradiators, the characterization of individual susceptibility to 
radiation, and the forging of closer, more productive linkages between 
experimentalists and risk modelers--a relationship that lies at the 
critical interface between experimental science, risk analysis, and the 
development of better risk management policies.
    BER sponsored environmental research will improve regional and 
global scale climate models, simulations and predictions. Fiscal year 
2003 will see the development of an improved climate model with twice 
the spatial resolution of the previous version. Atmospheric Radiation 
Measurement research will advance our understanding of the role of 
clouds and solar radiation to reduce uncertainty in climate models and 
increases our understanding of the water cycle to better predict 
precipitation patterns. In fiscal year 2003, these U.S. Global Climate 
Research Program (USGCRP) efforts will be increased $6,001,000 over the 
fiscal year 2002 appropriation for a total of $126,169,000. BER climate 
research in carbon and ecosystems also underpins the Administration's 
Climate Change Research Initiative (CCRI). The objective of the BER 
research is to quantify the North American carbon cycle and to 
understand the effects of elevated carbon dioxide on terrestrial 
ecosystems.
    BER bioremediation research will continue its focus on the 
biotransformation of radionuclides and metals at contaminated DOE 
sites, the community of microbes that affect the transformations in 
subsurface environments at the sites, and the development of strategies 
for using bioremediation to clean up or stabilize these contaminants at 
DOE sites. In fiscal year 2003 the Environmental Management Science 
Program (EMSP) and the Savannah River Ecology Laboratory will be 
transferred from the Office of Environmental Management (EM) to the 
Office of Science. BER will manage these research activities according 
to Office of Science principles, but with extensive input from EM.
    In fiscal year 2003, funding for the followup of all patients 
treated in the human clinical trials of boron neutron capture therapy 
(BNCT) at Brookhaven National Laboratory and the Massachusetts 
Institute of Technology will be completed, and the clinical studies 
will be transferred to the National Cancer Institute of the National 
Institutes of Health.
                         basic energy sciences
    Fiscal year 2002 Appropriation--$999.6M; fiscal year 2003 Request--
$1,019.6M
    The Basic Energy Sciences (BES) program is a principal sponsor of 
fundamental research for the Nation in the areas of materials sciences 
and engineering, chemistry, geosciences, and bioscience as it relates 
to energy. This research underpins DOE missions in energy, environment, 
and national security; advances energy related basic science on a broad 
front; and provides unique user facilities for the U.S. scientific 
community.
    In fiscal year 2003, the engineering activity of the formerly 
separate Engineering and Geosciences subprogram becomes part of the new 
Materials Sciences and Engineering subprogram. The Geosciences activity 
and the Energy Biosciences subprogram become part of the new Chemical 
Sciences, Geosciences, and Energy Biosciences subprogram. This directly 
aligns Basic Energy Sciences program management and organizational 
structures.
    The BES program request includes $313,887,000 in fiscal year 2003 
to maintain support of the scientific user facilities. Research 
communities that have benefited from these facilities include materials 
sciences, condensed matter physics, chemical sciences, earth and 
geosciences, environmental sciences, structural biology, superconductor 
technology, medical research, and industrial technology development. 
The level of operations will be equal to that in fiscal year 2002.
    A high priority in fiscal year 2003 is continued construction of 
the Spallation Neutron Source (SNS) to provide the next-generation, 
short-pulse spallation neutron source for neutron scattering. BES 
requests $210,571,000 in fiscal year 2003 to fund construction of the 
SNS. When completed in 2006, the SNS will be significantly more 
powerful (by about a factor of 10) than the best spallation neutron 
source now in existence and will be used by 1,000-2,000 researchers 
from academia, national and Federal labs, and industry for basic and 
applied research and for technology development in fields ranging from 
condensed matter physics to biology. The project, which is to be 
completed in June 2006, is on schedule and within budget with more than 
one-third of the work completed as of the end of October 2001. At the 
end of fiscal year 2003, construction of the SNS will be 61 percent 
complete.
    BES requests $6,000,000 in Project Engineering Design (PED) funding 
for the Linac Coherent Light Source (LCLS) at the Stanford Linear 
Accelerator Center. The LCLS project will provide the world's first 
demonstration of an x-ray free-electron-laser (FEL) in the 1.5-15 
angstrom range (about the scale of individual atoms). The purpose of 
the LCLS project is to provide laser-like radiation in the x-ray region 
vastly exceeding the capabilities of current x-ray sources in three key 
areas: peak brightness, coherence, and ultrashort pulses. For example, 
the advance in brightness is similar to that of a modern synchrotron 
over a 1960's laboratory x-ray tube. These characteristics open new 
realms of scientific applications in the chemical, material, and 
biological sciences including fundamental studies of the interaction of 
intense x-ray pulses with simple atomic systems, structural studies on 
single nanoscale particles and biomolecules, ultrafast dynamics in 
chemistry and solid-state physics, studies of nanoscale structure and 
dynamics in condensed matter, and use of the LCLS to create plasmas. 
Synchrotrons have revolutionized science across disciplines ranging 
from atomic physics to structural biology. Advances from the LCLS are 
expected to be equally dramatic. The preliminary Total Estimated Cost 
(TEC) is in the range of $165,000,000 to $225,000,000.
    In fiscal year 2003, BES will expand research in selected areas of 
nanoscale science, engineering, and technology (NSET) research and will 
continue design of three and begin construction for one Nanoscale 
Science Research Center (NSRC). NSRCs are user facilities for the 
synthesis, processing, fabrication, and analysis of materials at the 
nanoscale, and they will serve the Nation's researchers broadly. Funds 
are requested in fiscal year 2003 to start construction of the NSRC 
located at Oak Ridge National Laboratory (ORNL); and for continued 
Project Engineering Design of the three NSRCs located at ORNL, Lawrence 
Berkeley National Laboratory, Sandia National Laboratories 
(Albuquerque)/Los Alamos National Laboratory. These NSRCs were chosen 
by peer review from among those proposed, and the Basic Energy Sciences 
Advisory Committee has played a strong role in monitoring the 
development of the facilities and shaping their progress.
    Fundamental research to understand the properties of materials at 
the nanoscale will be increased in three areas: synthesis and 
processing of materials at the nanoscale, condensed matter physics, and 
catalysis. In the area of synthesis and processing, new activities will 
develop a fundamental understanding of nanoscale processes involved in 
deformation and fracture, synthesis of ordered arrays of nanoparticles 
using patterning techniques, and synthesis of nanoparticles of uniform 
size and shape. In condensed matter physics, new activities will focus 
on understanding how properties change or can be improved at the 
nanoscale and how macromolecules reach their equilibrium configuration 
and self assemble into larger structures. In catalysis, new work will 
focus on fundamental research to understand the role nanoscale 
properties of materials play in altering and controlling catalytic 
transformations. These research efforts will benefit significantly from 
the NSRCs. They will also benefit from the specialized computational 
tools for nanoscale science under development by the Advanced 
Scientific Computing Research (ASCR) program.
                 advanced scientific computing research
    Fiscal year 2002 Appropriation--$157.4M; fiscal year 2003 Request--
$169.6M
    The mission of the Advanced Scientific Computing Research (ASCR) 
program is to foster and support fundamental research in advanced 
scientific computing (applied mathematics, computer science, and 
networking) and to provide the high performance computational and 
networking tools that enable DOE to succeed in its science, energy, 
environmental quality, and national security missions. A Federally-
chartered advisory committee established in fiscal year 2000 guides 
ASCR by providing advice on: promising future directions for advanced 
scientific computing research; strategies to couple advanced scientific 
computing research to other disciplines; and the relationship of the 
DOE program to other Federal investments in information technology 
research.
    In fiscal year 2003, the ASCR program will continue to build on its 
leadership in high performance computing and networks by supporting the 
``Scientific Discovery through Advanced Computing'' (SciDAC) program, 
and initiating new partnerships with the scientific disciplines in the 
Office of Science. SciDAC is a collaborative program across the Office 
of Science to produce the scientific computing, networking and 
collaboration tools that DOE researchers will require to address the 
scientific challenges of the next decade. This program was described in 
the March 2000 report to Congress entitled, ``Scientific Discovery 
through Advanced Computing.''
    The SciDAC research portfolio will achieve several milestones in 
fiscal year 2003. The Integrated Software Infrastructure Centers 
(ISICs) will complete design work and will deliver initial 
implementation of the software infrastructure on which the applications 
will rely for optimal performance and scalability on terascale 
platforms. The Applied Mathematics ISICs will deploy a suite of robust 
and scalable software solvers. The Computer Science ISICs will deploy 
software for high-throughput access to terascale datasets, and will 
deploy a collection of software tools for managing and monitoring large 
collections of distributed computing resources.
    The ASCR program request includes $28,244,000 in fiscal year 2003 
to support the National Energy Research Scientific Computing (NERSC) 
Center. This investment will provide computer resources for about 2,400 
scientists in universities, Federal agencies, and U.S. companies. It 
will also leverage both federally and privately sponsored research, 
consistent with the Administration's strategy for enhancing the U.S. 
national science investment. The proposed funding will enable NERSC to 
maintain its role as one of the Nation's premier unclassified computing 
centers, serving research communities in structural biology; 
superconductor technology; medical research and technology development; 
materials, chemical, and plasma sciences; high energy and nuclear 
physics; and environmental and atmospheric research.
    The Mathematical, Information, and Computational Sciences (MICS) 
effort is responsible for carrying out the primary mission of the ASCR 
program. In addition, MICS research underpins the success of SciDAC. 
The computing and networking requirements of the Office of Science far 
exceed the current state-of-the-art and the tools that the commercial 
marketplace will deliver. MICS supports both basic research and the 
development of the results from this basic research into software 
usable by scientists in other disciplines. MICS also supports 
partnerships with scientific discipline users to test the usefulness of 
the research--facilitating the transfer of research and helping to 
define promising areas for future research. This integrated approach is 
critical for MICS to succeed in providing the extraordinary 
computational and communications tools that DOE's civilian programs 
need to carry out their missions. It is important to note that these 
tools have applications beyond the Office of Science, including to NNSA 
and the private sector after these tools have been initially discovered 
and developed by the MICS subprogram. In fiscal year 2003, the MICS 
subprogram requests $166,625,000, an increase of $12,225,000, to invest 
in applied mathematics, computer and computational science, and high 
performance networking, middleware and collaboratory research.
    The Laboratory Technology Research (LTR) effort supports high-risk 
research that advances science and technology to enable applications 
that could significantly impact the Nation's energy economy. The 
research portfolio consists of 12 projects and emphasizes the following 
topics: advanced materials processing and utilization, nanotechnology, 
intelligent processes and controls, and energy-related applications of 
biotechnology. LTR fosters the production of research results motivated 
by a practical energy payoff through cost-shared collaborations between 
the Office of Science laboratories and industry. The fiscal year 2003 
request for the Laboratory Technology Research subprogram is 
$3,000,000.
                         fusion energy sciences
    Fiscal year 2002 Appropriation--$247.5M; fiscal year 2003 Request--
$257.3M
    The Fusion Energy Sciences (FES) program leads the national 
research effort to advance plasma science, fusion science, and fusion 
technology--the knowledge base needed for an economically and 
environmentally attractive fusion energy source. The science and 
technology of fusion have progressed to the point that the next major 
research step is the exploration of the physics of a self-sustained 
fusion reaction in a burning plasma physics experiment. FES will fund 
research that supports such an experiment. In addition, FES will fund 
the exploration of innovative approaches to confining, heating, and 
fueling plasmas.
    FES has two major foci in fiscal year 2003. One is to begin the 
engineering design and fabrication of the National Compact Stellarator 
Experiment (NCSX) to provide scientists with a facility for studying 
the physics and comparing alternative configurations to the tokamak. 
Acting on the recommendations of the Fusion Energy Sciences Advisory 
Committee, based on years of study, the FES program will begin 
fabrication of the NCSX at the Princeton Plasma Physics Laboratory in 
fiscal year 2003. A national team is working on the design of a medium-
size NCSX that would be used to study plasma turbulence, energy and 
particle transport, and stability in this novel geometry. This 
experiment is expected to begin operations in 2007 with a preliminary 
Total Estimated Cost of $69,000,000. In fiscal year 2003, $11,026,000 
is requested for NCSX fabrication, engineering and design.
    The second supports significantly expanded operating time at three 
national fusion scientific user facilities to resolve issues in energy 
transport and plasma stability. The FES fiscal year 2003 request 
includes $111,037,000, which will help reverse a recent trend of 
declines in operating time at the FES user facilities. The Department's 
three major fusion energy physics facilities are: the DIII-D tokamak at 
General Atomics in San Diego, California; the Alcator C-Mod Tokamak at 
the Massachusetts Institute of Technology; and the National Spherical 
Torus Experiment at the Princeton Plasma Physics Laboratory. These 
three facilities are each unique in the world, and offer opportunities 
to address specific fusion science issues that will contribute to the 
expanding knowledge base of fusion. Taken together, these facilities 
represent a nearly $1,000,000,000 capital investment by the U.S. 
Government, in current year dollars. The funding requested will provide 
research time for about 560 scientists in universities, federally 
sponsored laboratories, and industry, and will leverage both federally 
and internationally sponsored research, consistent with a strategy for 
enhancing the U.S. National science investment.
    FES will also support innovation in fusion energy, plasma science 
and related technologies as one element of the Administration's 
National Energy Policy. Exploratory research will also continue on more 
than a dozen small-scale, alternative concept devices and basic science 
experiments, focusing on the scientific topics for which each 
experiment is optimized. The theory and modeling program provides the 
conceptual underpinning for the fusion sciences program and the general 
plasma science program supports basic plasma science and engineering 
research. The fiscal year 2003 request supports increases in research 
funding in these areas and at the three FES facilities with increased 
operating time. The fiscal year 2003 request also includes a modest 
increase in the science of materials for fusion energy systems.
                        energy research analyses
    Fiscal year 2002 Appropriation--$1.0M; fiscal year 2003 Request--
$1.0M
    The mission of the Energy Research Analyses (ERA) program is to 
provide the capabilities needed to evaluate the scientific excellence, 
relevance, and international leadership of the Office of Science basic 
science research programs; to advance the understanding of how the 
Office of Science contributes to DOE and national mission goals; and to 
contribute to the effective management of the department's science 
enterprise.
    The fiscal year 2003 program is continuing at the same level as 
fiscal year 2002, but shifting its emphasis to new methods of 
evaluation of the science managed by the Office of Science. This shift 
in emphasis results from research conducted in fiscal year 2001 and 
continuing in fiscal year 2002 that was designed to create new 
evaluation tools (e.g., case studies, quantitative measures, and data 
mining) that will help to validate the excellence, relevance and 
leadership of the Office of Science programs.
                       science program direction
    Fiscal year 2002 Appropriation--$152.5M; fiscal year 2003 Request--
$139.5M
    Science Program Direction (SCPD) enables a skilled, highly 
motivated Federal workforce to manage the Office of Science's basic and 
applied research portfolio, programs, projects, and facilities in 
support of new and improved energy, environmental, and health 
technologies, and educational opportunities. SCPD consists of three 
subprograms: Program Direction, Science Education, and Field 
Operations.
    The Program Direction subprogram supports Federal staff responsible 
for directing, administering, and supporting the broad spectrum of 
scientific disciplines. The Science Education subprogram supports four 
educational human resource development programs that train students to 
enter careers in science, mathematics, engineering, and technology. The 
Field Operations subprogram is the funding source for the Federal 
workforce in the Field responsible for management and administrative 
functions performed within the Chicago and Oak Ridge Operations 
Offices, and site offices supporting Office of Science laboratories and 
facilities.
                        safeguards and security
    Fiscal year 2002 Appropriation--$43.1M; fiscal year 2003 Request--
$43.7M
    The Safeguards and Security (S&S) program ensures appropriate 
levels of protection against unauthorized access, theft, diversion, 
loss of custody, or destruction of DOE assets and hostile acts that may 
cause adverse impacts on fundamental science, national security or the 
health and safety of DOE and contractor employees, the public or the 
environment. The Office of Science's Integrated Safeguards and Security 
Management strategy encompasses a tailored approach to safeguards and 
security. As such, each site has a tailored protection program that is 
analyzed and defined in their individual Security Plan. This approach 
allows each site to design varying degrees of protection commensurate 
with the risks and consequences described in their site-specific threat 
scenarios.
    In fiscal year 2002 increased program emphasis was provided to 
cyber security commensurate with increased threats and technology 
advances. These improvements are in place and continue to be updated 
commensurate with technology advances and program risks. Physical 
security upgrades will be completed to ensure the protection of special 
nuclear materials as well as technical enhancements to electronic 
access controls.
    The fiscal year 2003 request meets minimum, essential security 
requirements. Protection of employees and visitors is of primary 
concern, as well as protection of special nuclear material and research 
facilities, equipment and data. As such, priority attention is given to 
protective forces, physical security systems, and cyber security.
                  science laboratories infrastructure
    Fiscal year 2002 Appropriation--$37.1M; fiscal year 2003 Request--
$42.7M
    The mission of the Science Laboratories Infrastructure (SLI) 
program is to enable the conduct of Departmental research missions at 
Office of Science laboratories by funding line item construction 
projects to maintain the general purpose infrastructure and the clean 
up for reuse or removal of excess facilities. The program also supports 
the Office of Science landlord responsibilities for the 24,000-acre Oak 
Ridge Reservation and provides Payments in Lieu of Taxes (PILT) to 
local communities around Argonne-East, Brookhaven, and Oak Ridge 
National Laboratories.
    In fiscal year 2003, the SLI program has been broadened to include 
all of the Office of Science laboratories and the Oak Ridge Institute 
for Science and Education. A new subprogram, Excess Facilities 
Disposition, has been added to address the disposal of excess 
facilities at the Office of Science laboratories. Funding for fiscal 
year 2003 is $5,055,000 and will eliminate or clean up 176,000 square 
feet of excess space. The Facilities and Infrastructure (F&I) program 
funded by Congress at $10,000,000 in fiscal year 2002, is being used to 
eliminate or clean up about 400,000 square feet of excess space. This 
F&I program was merged with the Multiprogram Energy Laboratories--
Facilities Support (MEL-FS) program to form the SLI program in the 
fiscal year 2003 request.
    Construction funding for fiscal year 2003 will increase by 
$9,785,000 over fiscal year 2002--reflecting the need to modernize the 
Office of Science laboratories. Three new construction starts are 
planned for fiscal year 2003 including two buildings that will replace 
71,000 square feet of space that cannot be economically renovated to 
support modern research.
    Three projects were completed in fiscal year 2001: the Argonne-East 
Central Supply Facility; the Brookhaven Electrical Systems 
Modifications, Phase I; and the Argonne-East Electrical Systems 
Upgrade, Phase III. Two projects are scheduled for completion in fiscal 
year 2002: Lawrence Berkeley Building 77--Rehabilitation of Building 
Structure and Systems, Phase I and the Brookhaven Sanitary Systems 
Modifications, Phase III. In fiscal year 2003, two projects are 
scheduled for completion: Oak Ridge Electrical Systems Upgrades and the 
Argonne-East Fire Safety Improvements, Phase IV.
      energy supply r&d programs technical information management
    Fiscal year 2002 Appropriation--$8.1M; fiscal year 2003 Request--
$8.4M
    The Technical Information Management (TIM) program, managed by the 
Office of Scientific and Technical Information (OSTI), in the Office of 
Science, provides electronic access to worldwide energy scientific and 
technical information to DOE researchers, U.S. industry, academia, and 
U.S. citizens. This is accomplished through a set of Internet-based 
information products for technical reports, scientific journals, and 
preprints--the three main sources in which scientific and technical 
information is recorded. In addition, the TIM program produces an 
inventory of R&D projects in progress across the Department.
    In fiscal year 2003, the TIM program will continue to lead DOE e-
government initiatives for disseminating information, which include 
building the world's most comprehensive collection of physical sciences 
information and providing improved electronic access to full-text gray 
literature (literature not commercially available), journal literature, 
and preprints through partnerships with academia and the commercial 
sector.
    The TIM program accomplishments for fiscal year 2001 include 
expanded and increased access to published and pre-printed scientific 
and technical information via cost-effective information retrieval 
systems, resulting in a 25 percent increase in users served; completion 
of the DOE goal to transition to electronic scientific and technical 
reporting; taking a leadership role in the development of science.gov, 
the Interagency FirstGov for Science web resource; and launching the 
Energy Citations Database, a new web-based information product 
containing over 2,000,000 bibliographic records for energy and energy-
related scientific and technical information from DOE and its 
predecessor agencies.
                               conclusion
    The Office of Science occupies a unique and critical role within 
the U.S. scientific enterprise. We fund research projects in key areas 
of science that our Nation depends upon. We construct and operate major 
scientific user facilities that scientists from virtually every 
discipline are using on a daily basis, and we manage civilian national 
laboratories that are home to some of the best scientific minds in the 
world.
    Our researchers are working on many of the most daunting scientific 
challenges of the 21st Century, including pushing the frontiers of the 
physical sciences through nanotechnology, and exploring the basic 
mechanisms of life through our Genomes to Life program.
    I want to thank you, Mr. Chairman, for providing this opportunity 
to discuss the Office of Science's research programs and our 
contributions to the Nation's scientific enterprise. On behalf of DOE, 
I am pleased to present this fiscal year 2003 budget request for the 
Office of Science.
    This concludes my testimony. I would be pleased to answer any 
questions you might have for me.

    Senator Reid. Mr. Magwood.

                      STATEMENT OF WILLIAM MAGWOOD

    Mr. Magwood. Thank you, Mr. Chairman, and Senator Domenici. 
I am Bill Magwood, Director of the Office of Nuclear Energy 
Science and Technology. We do have a few short slides to show 
you today. I am very pleased to be here to discuss the 
President's fiscal year 2003 budget request. I will submit my 
written statement for the record and I have a few summary 
points I would like to make.
    First, I would like to thank the subcommittee for the 
leadership and vision it has demonstrated over the last 3 
years. Without your efforts, it is fair to say that there would 
be no substantial nuclear energy research program in the United 
States and for that we owe you a great deal of thanks.
    Your leadership has begun to bear fruit. In terms of both 
near-term deployment of nuclear power plants and in exploration 
of the long-term nuclear technologies, we have significant 
progress to report. In the case of the near-term, I believe the 
national discussion regarding the future of nuclear energy has 
changed significantly. The President, the Vice President, and 
the Secretary of Energy have all urged serious consideration of 
the nuclear power option.

                           NUCLEAR POWER 2010

    Just last month, Secretary Abraham announced the Nuclear 
Power 2010 Initiative aimed at building new plants in the 
United States by the end of the decade. Under this initiative, 
we will collaborate with industry to explore sites that could 
host new nuclear power plants, to demonstrate untested 
regulatory processes, and to conduct research needed to bring 
the most advanced technologies to market.
    How practical is this goal? We asked the independent 
experts at the Nuclear Energy Research Advisory Committee to 
work directly with the utility industry to find out. As you can 
see in this first chart, NERAC has concluded there are several 
nuclear plant concepts that can be brought to the market by the 
end of the decade--if DOE and industry work together to 
accomplish the tasks described by Secretary Abraham last month.
    Congress has a very important role in encouraging these 
activities. We applaud the efforts to pass energy legislation 
that articulates the benefits of nuclear energy and seeks to 
remove the barriers to its expanded use. Just last week, the 
Senate passed Price-Anderson reauthorization as part of its 
bill, which is so critical to proceeding with new nuclear power 
plants. We thank Senators Craig and Domenici for sponsoring an 
amendment on Nuclear Power 2010 which also passed earlier this 
week.

                   NUCLEAR ENERGY RESEARCH INITIATIVE

    We are also seeing great success in the exploration of 
long-term technologies. At the core of our long-range R&D 
agenda is the Nuclear Energy Research Initiative, or NERI. As 
you can see from this slide, this investigator-initiated, peer-
reviewed research program has re-energized advanced nuclear 
energy research in this country. Over its 3-year existence, 
NERI projects have been conducted at 53 U.S. research 
organizations in 22 States, including 24 universities, 9 
national laboratories, and other institutions.
    Importantly, U.S. universities have participated in 66 NERI 
projects. One hundred thirty students have worked on NERI 
research and 51 doctoral students and 57 graduate students have 
prepared their thesis based on NERI research. We are very proud 
of this contribution.
    NERI has also made important contributions to science and 
technology. For example, the University of Florida has 
developed a radiation-resistant silicon-carbide material with 
excellent thermodynamic properties that can improve the 
economics of nuclear fuel. Another example: An international 
team led by Westinghouse is developing the IRIS concept, an 
innovative passively-safe and proliferation-resistant water-
cooled reactor that can be made available as early as the turn 
of the century. Leveraging a 1999 NERI award, a significant 
international research effort has been established that 
involves nearly 250 scientists and engineers worldwide.

                        GENERATION IV INITIATIVE

    IRIS is but one of more than a hundred concepts that have 
been evaluated in the Generation IV initiative. As you can see 
in this slide, the Generation IV initiative is designed to 
identify and develop next generation advanced reactor fuel 
cycle technologies that can become available before 2030. These 
technologies will offer significant advantages towards meeting 
the challenging goals for sustainability, safety, reliability, 
and economics established by NERAC and now accepted by the 
international community.
    Working with NERAC in the ten-nation Generation IV 
international forum which DOE helped establish, we are 
developing a Generation IV technology roadmap which will 
identify the most promising concepts. The roadmap, which is 
being written by over 100 technical experts from all over the 
world, will identify the research and development needed to 
bring these concepts to reality. We will provide you with the 
results of this work next spring.

              SPENT FUEL PYROPROCESSING AND TRANSMUTATION

    As shown in this last chart, our fiscal year 2003 budget 
request fully integrates all the Department's advanced nuclear 
fuel cycle research programs into a single program--Spent Fuel 
Pyroprocessing and Transmutation. We are combining the related 
technology activities being conducted at Los Alamos, Argonne, 
and Oak Ridge National Laboratories and also the work ongoing 
at the University of Nevada-Las Vegas into a single integrated 
program to explore both reactor and accelerator technologies 
designed to deal with spent fuel.
    Clearly, our budget request does not represent a major 
commitment to the program at this time. Before such commitment 
can be made, we must agree upon a clear technology plan to 
conduct the work over the long term. We are working closely 
with the subcommittee and NERAC, chaired by Dr. Burton Richter, 
to create such a plan. We expect to submit this plan to 
Congress by the 1st of May.
    Finally, in addition to providing research grants and 
scholarships to support the Nation's nuclear technology 
education programs, we are proceeding with the new Innovations 
in Nuclear Infrastructure and Education Initiative. We have 
issued a solicitation to U.S. universities which will result in 
awards totaling $5 million in new focused support to schools to 
find creative ways of allowing industry, labs, and other 
universities to enhance their programs.
    We hope these efforts are not derailed as universities 
struggle to meet new requirements in the wake of September 11. 
As we have discussed before, university research reactor 
programs are already strapped for funding and the new NRC 
requirements regarding security could serve as a final blow to 
many facilities across the country. I hope we will have an 
opportunity to discuss this in the coming months.
    With that, I will end my oral remarks and I will be very 
pleased to answer any of your questions.
    [The statement follows:]

              Prepared Statement of William D. Magwood, IV

    Mr. Chairman, Senator Domenici, and Members of the Subcommittee, it 
is a pleasure to be here to discuss the fiscal year 2003 budget 
submission for DOE's Office of Nuclear Energy, Science and Technology.
    The Office of Nuclear Energy, Science and Technology (NE) is 
responsible for leading the Federal Government's investment in nuclear 
science and technology. In fiscal year 2003, we are proposing a $250 
million investment in nuclear R&D and in the Nation's nuclear science, 
technology, and education infrastructure. This funding provides the 
stimulus needed to build on the important work begun over the last year 
in response to the National Energy Policy and represents a major shift 
in focus and priority for the government's nuclear energy program as we 
increase our efforts to deploy new nuclear plants in the United States 
as a key element of long-term energy security.
        nuclear energy key to energy security, climate strategy
    The National Energy Policy underscores the important role of 
nuclear energy in today's electricity market. Nuclear energy provides 
20 percent of electricity supplied in the United States without 
producing harmful air emissions. Over the last decade, nuclear power 
has been a success story for the country, providing the most reliable 
and efficient sources of electricity available on the grid today. The 
Nation's 103 operating nuclear power plants had another record 
generating year in 2001, averaging 88.12 percent gross capacity, one 
percentage point higher than the year before, and operating at an 
average cost of less than two cents per kilowatt-hour. The improvement 
in gross capacity is equivalent of adding another twenty-three 1,000 
megawatt power plants to the grid over the last decade. Operation of 
the Nation's existing nuclear power plants avoids carbon emissions on 
the order of 175 million metric tons annually.
    Nuclear energy is important to the President's major new initiative 
on clean air and climate change. With a target of cutting power plant 
emissions, including greenhouse gas emissions, by 18 percent over the 
next ten years, expanded use of nuclear energy and the Nuclear Power 
2010 program will be a key element of our strategy to achieve the 
President's objectives.
    Over the last 5 years there has been a strong market for purchase 
of nuclear power plants by nuclear generation companies. This has 
resulted in a core group of utilities with experience and resources to 
operate nuclear power plants in the most safe, efficient and effective 
manner. Industry has successfully moved forward with plant relicensing, 
with eight units approved, another 15 that have filed application for 
license renewal, and three that have announced plans to file in 2002. 
Today, there is broad agreement that most, if not all, of the currently 
operating nuclear plants will extend their licenses another 20 years.
    Despite these successes, there are still no new plants being built 
in the United States and there remain barriers that make it difficult 
for a utility to invest in a new plant. These barriers are what define 
the role of government and are the focus of our nuclear energy R&D 
efforts. Removing institutional and technical barriers to both near-
term and longer-term expansion of nuclear energy for U.S. energy 
security is the foundation of this Administration's nuclear R&D 
program.
    Important progress is being made. President Bush recently notified 
the Congress that he considers Yucca Mountain suitable as a geologic 
repository for commercial spent fuel and high level waste and qualified 
for a construction permit application. This is a significant step 
forward in addressing waste disposal, an important consideration to 
nuclear energy's future.
    There is also strong and visible leadership within the Federal 
Government in nuclear energy technology and policy. This is essential 
to the expansion of nuclear energy in the U.S. and abroad and has 
assured U.S. participation in key international policy discussions on 
future technologies and nuclear non-proliferation.
                     emphasis on near-term progress
    In fiscal year 2003, we are proposing $71.5 million for research 
and development. Included in the request, are $46.5 million for the 
Nuclear Energy Technologies program and $25 million for the Nuclear 
Energy Research Initiative. The Nuclear Energy Technologies program 
contains two components--Nuclear Power 2010 and Generation IV--focused 
on deploying new nuclear plants by the end of the decade and on 
developing the next generation of advanced reactor and fuel cycle 
technologies.
    DOE proposes to invest $38.5 million in fiscal year 2003 on the 
Nuclear Power 2010 initiative to collaborate with industry to explore 
sites that could host new nuclear plants, to demonstrate the essential 
but untested Nuclear Regulatory Commission (NRC) regulatory processes 
for site permits and combined construction/operating licenses, and to 
conduct research to bring the most advanced technologies, such as gas 
cooled reactors, to the electricity market. We have set an ambitious 
goal but one we believe is achievable.
    In fiscal year 2002, with $8 million allocated to near term 
deployment efforts, we are working with industry to explore a range of 
potential sites. In response to a solicitation by the Department, two 
major nuclear utilities were awarded funds for cost-shared scoping 
studies of the efforts required to complete and submit an Early Site 
Permit (ESP) application to the NRC. These studies will consider 
privately-owned sites as well as several DOE sites. We recently issued 
a solicitation for proposals to share in the cost of selecting sites in 
this country for new nuclear plants and for submitting formal 
applications to the NRC for early site permit approval--this is an 
important first step in demonstrating the NRC's licensing and 
evaluation process. Successful demonstration of the NRC's licensing and 
evaluation process will remove a major risk for utilities' future 
investments in new nuclear power plants.
    At the requested level in fiscal year 2003, we would co-fund with 
industry completion of three ESP applications and initiate cost-shared 
reactor technology development activities for one advanced light water 
reactor and one gas cooled reactor technologies with industry teams led 
by power generation companies. The objective of the reactor technology 
development activities is the preparation and submission of Combined 
Operating License applications to NRC and a decision by industry to 
initiate construction of new nuclear power plants in the U.S. by 2005.
               committed to long-term safety and security
    In fiscal year 2001, the Department launched the Generation IV 
initiative aimed at development of the next generation of advanced 
reactor and fuel cycle technologies that can be made available to the 
market after the end of the decade but before 2030. These are 
technologies that offer significant advances toward challenging 
sustainability, safety and reliability and economics goals such that 
technologies will be competitive in all markets. Generation IV systems 
include water cooled, gas cooled and liquid metal cooled concepts and 
non-classical concepts such as reactors with liquid and gaseous cores 
or concepts featuring novel energy conversion systems. The goals of the 
Generation IV program were developed by the Department's Nuclear Energy 
Research Advisory Committee (NERAC) and endorsed by the international 
community.
    In fiscal year 2001, we led the formation of the Generation IV 
International Forum (GIF), an international collective of ten leading 
nuclear nations to work in joint cooperation on developing Generation 
IV technologies on a multilateral basis and to address the expansion of 
nuclear energy globally. A formal GIF charter was signed in July by the 
representatives of the nations of Argentina, Brazil, Canada, France, 
Japan, Republic of Korea, Republic of South Africa, the United Kingdom 
and the United States. Since then, Switzerland has also joined the GIF.
    The Department is leading the development of the Generation IV 
Technology Roadmap with the GIF, which when complete in early fiscal 
year 2003 will identify the six to eight most promising nuclear reactor 
and fuel cycle concepts. The Technology Roadmap will identify the R&D 
necessary to advance these concepts to the point of maturity for 
potential commercialization by the private sector. The long-term R&D 
will be conducted in cost-shared cooperation with other GIF member 
countries providing a high degree of financial leveraging of R&D 
funding. The Department proposes to double the funding to $8 million in 
fiscal year 2003 to continue the Generation IV initiative.
           international partnerships in nuclear development
    The Department will also continue to fund investigator-initiated, 
peer reviewed R&D under the Nuclear Energy Research Initiative (NERI). 
Started in 1999, this program is the cornerstone on which the Federal 
Government's nuclear R&D initiatives have been built. It has helped 
return the United Senate to a key leadership role in international 
exploration of nuclear energy. While still early in the life of this 
program, NERI has achieved considerable success. It was the birthing 
place for what is now Generation IV, and it has helped re-energize 
nuclear R&D at U.S. universities, laboratories and industry. The 
Department is requesting $25 million in fiscal year 2003 for the NERI 
program.
    Forty-three NERI projects started in previous years will be 
completed this year. Ten projects will continue and twenty-three new 
awards will be made. Hopefully, as part of the fiscal year 2002 awards, 
there will be more research initiated in the application of nuclear 
energy as a clean air alternative for producing hydrogen for the 
transportation sector and other applications. In fiscal year 2003, we 
will continue to fund the ongoing projects.
    Last year, we launched the International-NERI program to promote 
international collaborative research focused on the development of 
advanced technologies and we signed bilateral agreements with France 
and the Republic of Korea. Three collaborative research projects with 
France were initiated and this year, six have been initiated with the 
Republic of Korea. Discussions with Japan, the Republic of South Africa 
and the Nuclear Energy Agency are expected to lead to bilateral 
agreements being established this fiscal year that will result in an 
additional three to five co-funded research projects. In fiscal year 
2003, we will continue the research projects that started over the last 
2 years.
    In fiscal year 2003, the Department has included no funds for the 
Nuclear Energy Plant Optimization (NEPO) program or for the Advanced 
Nuclear Medicine Initiative (ANMI). The NEPO program was established in 
fiscal year 2000 as a cost-shared effort with industry to address plant 
aging and development of technologies that improve the reliability and 
availability of the fleet of existing nuclear power plants in order to 
aid plant recertification. The ANMI program was started with $2.5 
million and funds nine research grants and five educational grants to 
post secondary institutions. The ANMI grants, awarded on a peer review 
basis for a term of 3 years, will be completed in fiscal year 2003 with 
funds remaining from fiscal year 2002. While the Department believes 
some of the objectives of both of these programs may have merit, many 
of their objectives--such as nuclear plant recertification--are being 
achieved, and the request reflects the need to fund higher priorities 
within the Department.
    The fiscal year 2003 request would allocate $17.5 million in 
funding to train and prepare the next generation of nuclear scientists 
and engineers. Among the activities of the University Reactor Fuel 
Assistance and Support program, we provide fresh fuel to university 
research reactors; receive spent fuel; provide industry matching grants 
to 25 participating universities; provide scholarships and fellowships 
to outstanding undergraduates and graduate students; fund peer-reviewed 
nuclear engineering research; and fund radiochemistry student 
fellowships. With the support of Congress, the funding for this program 
has increased significantly over the last several years, and we propose 
to fund it at the same increased level of funding appropriated last 
year.
    With additional funding appropriated by Congress in fiscal year 
2002, we are launching the Innovations in Nuclear Infrastructure and 
Education initiative to establish regional research centers for U.S. 
university nuclear engineering programs. This initiative, structured to 
promote partnerships among universities, national laboratories, and the 
private sector, follows through on a specific recommendation of the 
NERAC and on direction of Congress. Under this initiative, we will 
provide assistance to universities on a merit and peer reviewed basis 
that could be used to improve the reactors, to maintain qualified 
reactor staff, and to better integrate the use of these facilities with 
university nuclear engineering programs.
    The fiscal year 2003 budget request fully integrates all of the 
Department's advanced research related to processing of spent fuel and 
transmutation into a single program--Spent Fuel Processing and 
Transmutation. The program has evolved significantly over the last 
several years and consistent with the direction provided by Congress as 
part of the fiscal year 2002 Appropriations Conference Report, we are 
now in the process of combining the technology activities based at the 
Argonne National Laboratory in Chicago, Illinois, the Los Alamos 
National Laboratory in New Mexico, the Oak Ridge National Laboratory in 
Tennessee, and the University of Nevada-Las Vegas into a single, 
integrated program to explore both reactor and accelerator technologies 
associated with spent fuel processing. We are working very closely with 
a subcommittee of the NERAC under the leadership of Dr. Burton Richter 
to create a plan that will describe how we will meet the policy and 
technology goals envisioned by the National Energy Policy. Once the 
program integration activities are complete and the plan provided to 
Congress, we will be in a position to recommend future funding for this 
program that will meet the aggressive technology goals envisioned by 
the National Energy Policy.
    In the fiscal year 2003 budget request, we will initiate laboratory 
scale demonstration of Argonne-developed pyroprocessing technologies. 
Non-fertile fuel is being fabricated this year for future irradiation 
testing in the Advanced Test Reactor. Also, in fiscal year 2003, 20 
graduate students will complete or pursue their graduate degree 
educations in engineering and scientific disciplines relevant to 
accelerator technology and transmutation. This fiscal year, following 
completion of the primary sodium drain, we are achieving a major 
milestone by completing deactivation of the Experimental Breeder 
Reactor II. In fiscal year 2002, and proposed in fiscal year 2003, we 
will treat 0.5 metric tons of sodium-bonded spent nuclear fuel at 
Argonne National Laboratory-West (ANL-West) in Idaho. The Department is 
requesting $18.2 million in fiscal year 2003.
             nuclear science and technology infrastructure
    In fiscal year 2003, the Department proposes to consolidate NE's 
infrastructure spending under a single program, Radiological Facilities 
Management, to maintain critical facilities in a safe, secure and 
environmentally compliant and cost effective manner to support national 
priorities funded by industry and other Federal agencies. The $83 
million in funds being requested in fiscal year 2003 will assure the 
readiness and the operability of these facilities to respond to the 
range of missions that are funded by DOE, industry, research groups, 
and other Federal agency users. The Office funds missions at Argonne, 
the Idaho National Engineering and Environmental Laboratory (INEEL), 
Oak Ridge, Los Alamos, the Sandia National Laboratory in New Mexico, 
Brookhaven National Laboratory on Long Island, New York, Pacific 
Northwest National Laboratory in Washington, and the Mound Plant in 
Ohio.
    We are requesting $31.6 million to maintain key facilities, to 
safely and securely manage special nuclear material, and to deactivate 
unneeded facilities at ANL-West. We are requesting $11.2 million for 
Test Reactor Area at INEEL. The requested increase in funding for Test 
Reactor Area will enable the Department to address the backlog of 
preventative and corrective maintenance and to proceed more 
aggressively to replace aging electrical equipment under an electrical 
utility upgrade project. This enables us to begin to reverse the 
decline in the infrastructure at the Test Reactor Area that has 
occurred over the last several years.
    The fiscal year 2003 request includes funding to maintain and 
operate facilities at Mound that enable the Department to conduct 
operations associated with DOE's radioisotope power systems. In fiscal 
year 2002 we will conduct new analyses that examine actions that may be 
needed to further protect the community and the materials stored at the 
site from potential security threats, in the context of the September 
11, 2001, terrorist attack. The results of these analyses will 
determine what actions we take at Mound in the future. Until a decision 
is made on the nature of the actions to be taken, the materials will be 
moved to an interim location at another site.
    The Department will continue to maintain the iridium fabrication 
facilities at Oak Ridge to support fabrication of radioisotope power 
systems. These facilities encapsulate and contain the plutonium (Pu)-
238 pellets used in the space power systems. The Department will 
continue to maintain the option to produce Pu-238 domestically to 
satisfy national security missions. Fiscal year 2003 activities will 
focus on conceptual design activities associated with processing 
facilities at Oak Ridge, and on supporting activities to move the 
neptunium-237 from the Savannah River Site in South Carolina to Oak 
Ridge. DOE plans to produce at least eight iridium cladding sets at Oak 
Ridge, at least eight encapsulated Pu-238 pullets at Oak Ridge, and 
process at least two kilograms of Pu-238 through the scrap recovery 
line at Los Alamos.
    Finally, the President's fiscal year 2003 budget request for the 
National Aeronautics and Space Administration (NASA) proposes a 5-year, 
$1 billion new Nuclear Systems Initiative. In partnership with industry 
and academia, DOE will develop for NASA technologies that could power 
missions to the far reaches of the solar system. DOE will develop a new 
generation of radioisotope power systems to generate electrical power 
for spacecraft and scientific instruments for missions in deep space 
and on planetary surfaces. For key NASA science missions, these systems 
offer enormous advantages over other power options. For example, the 
capability of a NASA rover to remain operational on the surface of Mars 
can be increased from a few months to a few years, increasing the 
science return many times over. Also, DOE will participate in the 
development of a nuclear fission reactor with an advanced electric 
propulsion system that would enable spacecraft to make faster trips 
throughout the solar system, to carry out robust scientific missions, 
and to visit multiple destinations on the same mission.
    The Department is also proceeding with permanent shutdown and 
deactivation of the Fast Flux Test Facility (FFTF) at the Hanford Site 
in Washington this fiscal year. Experience gained from the Experimental 
Breeder Reactor II deactivation is being applied to the deactivation of 
FFTF, which should result in cost and schedule efficiencies. The 
Department has proposed $36.1 million in fiscal year 2003 to continue 
making progress on deactivation. In the fiscal year 2003 budget 
request, the Department will validate the fuel handling control 
systems, reestablish the hot cell operating capabilities, upgrade 
sodium drain controls, and restore the Sodium Storage Facility.
             medical isotopes for research and health care
    The remaining funding requested for Radiological Facilities 
Management is to maintain the infrastructure for production and 
distribution of isotopes. Although most of our isotopes are for medical 
research, the Department does provide isotopes for commercial uses that 
otherwise would not be available. In fiscal year 2001, we served 324 
customers located in 20 countries, exceeding 94 percent on-time 
delivery of 589 shipments. Many of those that were delayed were a 
result of actions taken by DOE after September 11, 2001, terrorist 
attack to further assure the safety and security of radiological 
material shipments.
    This year, we are changing the process we apply for producing, 
distributing, and pricing our research isotopes. A new protocol--
Nuclear Energy Protocol for Research Isotopes (NEPRI)--will guide the 
selection of isotopes for future development, production, and 
distribution. A peer review selection process was initiated last month 
to decide what research isotopes DOE will produce in fiscal year 2003. 
This process is intended to assure that DOE produces those isotopes 
that provide the greatest benefit to the research community and the 
public. Isotopes will be priced such that production costs are paid in 
advance by the customer.
    Over the last several years, DOE has been providing actinium (Ac)-
225 for use in cancer research. In fiscal year 2003, DOE will continue 
to supply the Ac-225 at the level available in fiscal year 2002. 
However, any future processing of thorium-229 needed to increase the 
supply of Ac-225 will be financed by the private sector. DOE will issue 
a request for proposals this year soliciting private sector 
participation in the production of Ac-225.
    The Department is requesting $24.3 million in fiscal year 2003 for 
salaries, travel, support services and other administrative expenses 
and field personnel providing direction to NE programs. Although NERAC 
members receive no salary, the program direction account also supports 
the activities of the NERAC.
                               conclusion
    Mr. Chairman, and Members of the Subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions you may 
have.

    Senator Reid. Mr. Barrett.

                       STATEMENT OF LAKE BARRETT

    Mr. Barrett. Thank you very much, Mr. Chairman, Senator 
Domenici. I do appreciate those kind opening remarks from both 
of you.

                             YUCCA MOUNTAIN

    Fiscal year 2002 has been the most significant year for 
this program. The Secretary and the President recommended the 
Yucca Mountain site to be the Nation's high level radioactive 
waste geologic repository to Congress on February 15. In his 
recommendation, the President also urged the Congress to 
undertake any necessary legislative action on his 
recommendation in an expedited and bipartisan fashion. For 
Secretary Abraham to recommend the site to the President, he 
determined that sound science supported that the Yucca Mountain 
site is scientifically and technically suitable for the 
development of a repository. The Secretary and the President 
also considered compelling national interests, such as national 
and energy security, in their decisions.
    A year with such progress still has further challenges 
ahead. As the President emphasized, Congress must act in order 
to complete the site approval process if the State of Nevada 
follows through with its anticipated disapproval. If Congress 
does not pass the repository siting resolution, the site will 
stand disapproved and the program will be promptly terminated. 
The disposition of the Nation's wastes will then still be an 
issue for the Congress to resolve.
    We face other challenges through litigation over the delay 
in meeting our contractual obligation to the nuclear utility 
companies to begin accepting their waste and spent fuel in 
1998. There is also litigation with the State of Nevada over 
the water permits and other issues. For example, effective 
April 9 of this year our water permits with the State of Nevada 
will expire. Although we have requested extensions of these 
permits in a timely manner, we are embroiled in complex 
litigation.
    If the Congress designates the site, we will proceed with 
our plans in 2003. We will work in 2003 to submit a license 
application to the Nuclear Regulatory Commission in 2004 and 
develop a transportation system necessary to move spent fuel 
and high level waste in 2010.
    For Yucca Mountain, $425 million is requested to transition 
from the site characterization activities to the license 
application. In the waste acceptance and transportation 
business area, the budget request is $17 million. We will 
conduct activities that are necessary to support the removal 
and transportation of spent nuclear fuel from reactor sites to 
the Yucca Mountain site. These logistical and institutional 
planning and development activities for a national 
transportation system were deferred due to historical budget 
reductions, allowing available resources to be focused upon the 
site recommendation decision. We must now resume preparations 
necessary for a national transportation system if we are to be 
able to move spent fuel and high level waste in 2010.
    In conclusion, I am proud to say that we have conducted a 
world-class investigative science program to determine whether 
the Yucca Mountain site is suitable for the next stage of 
possible development. We overcame difficult challenges and made 
significant progress. We are developing a repository design and 
operational concept that is fully integrated in the local 
geologic setting, that would also enable future generations to 
make the decisions about the repository, providing them with 
the flexibility to determine if the length of the monitoring 
period, when to close the facility, or if retrieval of the 
emplaced materials would be appropriate. This design would be 
fully flexible and compatible with any possible advanced 
nuclear technologies that may be developed over the coming 
years. This built-in flexibility will allow judgments to be 
made on those issues based on the societal issues and the 
societal needs by the generation at that time.
    We are fully committed to building a safer, more secure 
path to the future and to ensure the continued strength of this 
Nation and its resources for both present and future 
generations.
    I thank you for this opportunity to present our budget.
    [The statement follows:]

                 Prepared Statement of Lake H. Barrett

    Mr. Chairman and members of the Committee, I am Lake Barrett, 
Acting Director of the Department of Energy's Office of Civilian 
Radioactive Waste Management. I appreciate the opportunity to present 
our fiscal year 2003 budget request to you and discuss our plans to 
develop a license application for a geologic repository at the Yucca 
Mountain site in Nevada.
    The year 2002 is a significant year for the program. On February 
15, 2002, after receiving the recommendation of the Secretary of 
Energy, President George W. Bush considered the Yucca Mountain site 
qualified for an application for a construction authorization for a 
repository and recommended the Yucca Mountain site to the U.S. Congress 
for this purpose. The President also urged the Congress to undertake 
any necessary legislative action on his recommendation in an expedited 
and bipartisan fashion. In coming to this decision, the President 
accepted the recommendation of Secretary of Energy Spencer Abraham who 
reviewed the scientific research conducted over 20 years. Secretary 
Abraham considered and is convinced that sound science supports the 
determination that the Yucca Mountain site is scientifically and 
technically suitable for the development of a repository. Following his 
determination that the site was suitable, the Secretary also considered 
compelling national interests. In the end, his recommendation stated 
that ``irrespective of any other considerations, he could not and would 
not recommend the Yucca Mountain site without having first determined 
that a repository at Yucca Mountain will bring together the location, 
natural barriers, and design elements necessary to protect the health 
and safety of the public.''
    A year with such progress still has further challenges ahead. As 
the President emphasized, Congress must act in order to complete the 
site approval process if the State of Nevada follows through with its 
anticipated disapproval. If Congress does not act the site will stand 
disapproved and this will result in the shutting down of the Program 
even though the site has been deemed scientifically suitable. Second, 
we face many other challenges from the State of Nevada. For example, 
our water permits will soon expire, effective on April 9, 2002. 
Although DOE and the Department of Justice have requested timely 
extensions of these permits in accordance with Nevada law, we are 
embroiled in complex litigation on this issue that may take months or 
years to resolve.
    Our fiscal year 2003 budget request of $527 million assumes the 
site approval process was successful and allows us to advance our 
Nation's policy for the long-term management of spent nuclear fuel and 
high-level radioactive waste. In fiscal year 2003, we will advance work 
required to develop a license application for a geologic repository, to 
be submitted to the Nuclear Regulatory Commission (NRC) in 2004, and to 
develop a national transportation program necessary for moving spent 
nuclear fuel and high-level waste by 2010.
                               background
    In transmitting his recommendation, President George W. Bush stated 
in his letter to the Speaker of the House of Representatives and the 
President of the Senate on February 15, 2002 that:
    Proceeding with the repository program is necessary to protect 
public safety, health, and the Nation's security because successful 
completion of this project would isolate in a geologic repository at a 
remote location highly radioactive materials now scattered throughout 
the Nation. In addition, the geologic repository would support our 
national security through disposal of nuclear waste from our defense 
facilities.
    A deep geologic repository, such as Yucca Mountain, is important 
for our national security and our energy future. Nuclear energy is the 
second largest source of U.S. electricity generation and must remain a 
major component of our national energy policy in the years to come. The 
cost of nuclear power compares favorably with the costs of electricity 
generation by other sources, and nuclear power has none of the 
emissions associated with coal and gas power plants.
    This recommendation, if it becomes effective, will permit 
commencement of the next rigorous stage of scientific and technical 
review of the repository program through formal licensing proceedings 
before the Nuclear Regulatory Commission. Successful completion of this 
program also will redeem the clear Federal legal obligation to safely 
to dispose of commercial spent nuclear fuel that the Congress passed in 
1982.
    [The President's] recommendation is the culmination of two decades 
of intense scientific scrutiny involving application of an array of 
scientific and technical disciplines necessary and appropriate for this 
challenging undertaking. It is an undertaking that was mandated twice 
by the Congress when it legislated the obligations that would be 
redeemed by successful pursuit of the repository program. Allowing this 
recommendation to come into effect will enable the beginning of the 
next phase of intense scrutiny of the project necessary to assure the 
public health, safety, and security in the area of Yucca Mountain, and 
also to enhance the safety and security of the Nation as a whole.
    In Secretary Abraham's recommendation, he discussed the growing 
number of power plants not able to find additional storage space and 
being forced to shut down prematurely. Ten facilities have already 
closed, such as Big Rock Point, on the banks of Lake Michigan. They 
house spent fuel and incur significant annual costs without providing 
any ongoing benefit. Over the long-term, without active management and 
monitoring, degrading surface storage facilities may pose a risk to any 
of 20 major U.S. lakes and waterways, including the Mississippi River. 
More than 161 million Americans in 39 States reside within 75 miles of 
a commercial nuclear reactor site. It is essential that the waste is in 
one central remote location.
    Since the enactment of the Nuclear Waste Policy Act in 1982, our 
Nation has made a substantial investment in permanent geologic disposal 
of the Nation's spent nuclear fuel and high-level waste. The 
President's decision to site Yucca Mountain for the repository was a 
significant landmark. The development of a license application in 
fiscal year 2003, to be completed in calendar year 2004, is the next 
step in the process outlined in the Nuclear Waste Policy Act, as 
amended.
         summary of the fiscal year 2003 appropriation request
    The Office of Civilian Radioactive Waste Management fiscal year 
2003 budget request of $527 million is an increase of $152 million 
(approximately 40 percent) above fiscal year 2002 funding. The fiscal 
year 2003 budget supports the scientific and technical analyses 
necessary to prepare a license application for submittal to the NRC in 
calendar year 2004. Some of this work had been deferred in prior years 
so that all resources could be focused on the site recommendation 
activities.
                             yucca mountain
    Of the $527 million request, $424.9 million, over 80 percent, 
supports the work at Yucca Mountain to develop a license application to 
construct a repository. The information in the license application must 
be sufficient for the NRC to conduct an independent review and reach a 
construction authorization decision. It must demonstrate that the 
repository can be constructed and operated with reasonable expectation 
that the health and safety of the public will be protected for at least 
10,000 years. The increase in funds provides for work to develop the 
design, analyses, and specifications for the license application; to 
conduct performance confirmation testing, monitoring, and evaluation 
activities, as required by the NRC's licensing regulations; and for the 
Nevada transportation planning. The Nevada transportation budget 
element is new in fiscal year 2003; it includes $6 million for initial 
conceptual design and technical support.
               waste acceptance, storage & transportation
     In fiscal year 2003, the Program is requesting $17.1 million to 
conduct activities that will support the major actions that will 
precede removal and transportation of spent nuclear fuel from reactor 
sites to the Yucca Mountain facility. The fiscal year 2003 request is 
an increase of $12.9 million over the fiscal year 2002 funding. The 
logistical and institutional planning and development of a national 
transportation system were deferred until the site was recommended to 
the President. If Congress approves the site, it is imperative that we 
resume the preparations necessary for implementing a transportation 
system to support moving spent nuclear fuel and high-level radioactive 
waste in 2010. Prior planning for transportation is being evaluated and 
we will regain momentum to develop the transportation system.
                          program organization
    The Office of Civilian Radioactive Waste Management was established 
by the Nuclear Waste Policy Act of 1982 to implement the Federal policy 
for permanent geologic disposal of commercial spent nuclear fuel and 
high-level radioactive waste. The Office within the Department of 
Energy has approximately 200 full-time equivalent Federal employees and 
a managing and operating (M&O) contractor, Bechtel/SAIC, Inc. with a 
staff of approximately 1600. The position of the Director for the 
Office was also established by the Nuclear Waste Policy Act. The 
Director is located in Washington D.C. Most of the employees are in Las 
Vegas at the Yucca Mountain Project Office or at the Yucca Mountain 
site. The Office of Waste Acceptance, Storage and Transportation is 
located in Washington DC., as well as the Office of Program Management 
and Integration.
          objectives and accomplishments for fiscal year 2002
    The fiscal year 2002 accomplishments are vital for to the next 
steps in the process. This year the Program:
  --Finalized the Department's Repository Siting Guidelines (10 CFR 
        Part 963)
  --Obtained an NRC sufficiency letter for the site recommendation
  --Completed the scientific work necessary to support a Secretarial 
        decision to recommend the Yucca Mountain site for development 
        as a repository
  --Completed the Environmental Impact Statement; and
  --Finalized the Site Recommendation Report for the Secretary to 
        submit to the President, and subsequently for the President to 
        submit to Congress.
  --The Program's primary objective for the remainder of this year is 
        to conduct the scientific and engineering work identified in 
        fiscal year 2001 as necessary to support the preparation of the 
        license application. This work includes:
    --Testing and analyses to further characterize and quantify the 
            uncertainties in the assessments of the long term 
            performance of the repository;
    --Activities to evaluate modifications to the operations and/or 
            design of the potential repository to reduce the maximum 
            temperatures reached after closure of the repository;
    --Studies of waste package materials to improve understanding of 
            corrosion processes; and
    --Work on the development of multiple lines of evidence for a 
            safety case.
               performance measures for fiscal year 2003
    The fiscal year 2003 performance measures for the program are 
outlined in the Department's fiscal year 2003 budget request. They are 
to:
  --Complete additional testing and analyses required to support 
        license application design;
  --Continue development of the design that will be used in the license 
        application;
  --Continue development of a license application for submittal to the 
        NRC for authorization to construct a repository;
  --Issue final ``Policy and Procedures for Implementation of Section 
        180c of the Nuclear Waste Policy Act, as amended;
  --Develop and issue a final request for proposals for waste 
        acceptance and transportation services; and
  --Complete and issue Total System Life Cycle Cost and Fee Adequacy 
        reports.
    The Department will focus its fiscal year 2003 efforts on 
activities necessary for license application design and will conduct 
activities associated with the Federal government's waste acceptance 
obligation, assuming Congress approves the repository site in 2002. It 
is critical that funding levels, starting in fiscal year 2003 through 
fiscal year 2010, are substantially increased from prior years to 
maintain the schedule to begin waste acceptance at Yucca Mountain by 
2010. Congressional approval of the Yucca Mountain site in calendar 
year 2002 commences the movement to submitting a license application in 
calendar year 2004, obtaining NRC authorization as early as thirty-six 
months after submittal, and building the system to begin waste 
acceptance in 2010.
       detailed discussion of the fiscal year 2003 budget request
                             yucca mountain
    The most significant increases requested in the Yucca Mountain 
budget are in the area of Licensing and Performance Assessment. This 
request increase signals the natural transition from the site 
characterization phase to the initiation and development of the license 
application phase of the Program. The request to increase Design and 
Engineering will provide the detailed design work necessary for the 
license application effort.
                  licensing and performance assessment
    The fiscal year 2003 request for Licensing and Performance 
Assessment is $111.9 million, a 70 percent increase from last year.
    To obtain a NRC construction authorization, the Department of 
Energy must submit a license application to include:
  --A description of site characteristics;
  --Waste package designs;
  --Repository surface and subsurface facilities;
  --Operation and maintenance plans for surface and subsurface 
        facilities;
  --Results of an integrated safety analysis for the pre-closure 
        period;
  --Results of the Total System Performance Assessment for the post-
        closure period; and
  --A discussion of how the proposed waste package and repository will 
        comply with applicable regulatory requirements.
    The application will include a discussion of the safeguards, 
certification, and physical security plan, and descriptions of the 
quality assurance program, test and evaluation plan for the development 
and operation of the repository, and required performance confirmation 
program. A licensing support network is required for records included 
in the license application. Processes have been developed and need to 
be maintained for the review of records, verification of data planned 
for inclusion, and traceability of the documents. It is essential to 
have state-of-the-art technical information management capability to 
manage and ensure the integrity of these records.
    The Total System Performance Assessment will analyze how a 
repository, with each waste type encapsulated in specially designed 
waste packages, may perform in the geologic environment of Yucca 
Mountain following repository closure. This safety analysis will 
evaluate a nominal case that considers those processes and events 
deemed likely at Yucca Mountain, and the probabilities and potential 
consequences of disruptive events such as earthquakes and volcanic 
eruptions, and the possible effects of human intrusion into the 
repository after permanent closure.
    Another iteration of the Total System Performance Assessment will 
be completed in fiscal year 2003 to support the license application. 
Each iteration has reflected an increased understanding of how emplaced 
waste would interact with the natural and engineered barriers.
    The anticipated 25 to 35 technical interactions in fiscal year 2003 
with the Nuclear Waste Technical Review Board, the NRC, and other 
oversight agencies will be necessary to develop the license 
application. Comments by these groups on the scientific tests, designs, 
and modeling infuse the process with invaluable insight. Pre-licensing 
interactions with the NRC contributes to a common understanding of the 
issues that are significant to the overall repository performance, and 
agreement on the adequacy of methods and approaches to resolve these 
issues.
                              core science
    The year's budget request of $71.3 million represents a slight 
decrease from last year. Core Science activities include collecting 
data from the surface and subsurface; performing laboratory tests; 
monitoring and collecting environmental data; and modeling natural 
processes. Testing to support the license application continues to 
reduce the uncertainty in the technical databases, the Total System 
Performance Assessment and design features. These tests will continue 
as part of the performance confirmation program required by the NRC. 
Some of these studies are conducted under a cooperative agreement with 
the University and Community College System of Nevada.
                         nevada transportation
    In fiscal year 2003, $6 million is requested to initiate Nevada 
transportation activities. Transportation work within the State of 
Nevada would have been premature prior to a site designation. To have 
the capability to accept waste at Yucca Mountain the selection and 
development of a rail spur from the mainline railroad to the Yucca 
Mountain site will need to be completed. The fiscal year 2003 initial 
funding of $6 million will allow work to begin on the rail corridor 
selection, the preliminary rail design, and the land acquisition 
process.
                         design and engineering
    The fiscal year 2003 request for Design and Engineering is $128.5 
million, an increase of 179 percent over last year. This increase will 
allow us to resume engineering and design work to support a license 
application. This work was deferred until mid-2002 while the Program 
focused on scientific and technical activities required for a decision 
on whether to proceed with repository development.
    The design and engineering products needed to support the license 
application include the development of the pre-closure integrated 
safety analysis; design studies to support the development of the post-
closure safety analyses; design bases; and a description of the waste 
package, waste forms, and surface and underground facilities and 
systems. The design for license application products will be completed 
in calendar year 2004.
    In fiscal year 2003 the Program will incorporate modular surface 
and subsurface design and construction concepts to evaluate how a step-
wise, flexible repository system can integrate new technologies and new 
operation concepts as they become available. The Program is also 
analyzing the potential advantages of cooler repository operating 
temperatures and what effect they might have on reducing uncertainties 
associated with long-term performance.
    Substantial design work in support of procurement and construction 
activities must be completed before construction can begin. The amount 
of design work necessitates that it be started before the license 
application is submitted to the NRC.
    For repository development, the systems engineering process is 
important to the coordination and integration of design functions that 
meet regulatory and safety requirements for protecting workers, the 
public and the environment. It is essential to demonstrate designs ``as 
built'' will operate cost-effectively and efficiently; and it is 
crucial to ensure that changes to designs and specifications are 
documented and controlled in accordance with quality assurance 
requirements.
                      operations and construction
    The fiscal year 2003 request for operations and construction is 
$45.6 million, a 34 percent increase from fiscal year 2002. Operations 
and Construction encompasses the work required to provide the support 
systems, infrastructure, construction, utilities, and safety systems 
needed to support field testing, and to maintain access to the site and 
underground research facilities at Yucca Mountain. The request for an 
increase in fiscal year 2003 is necessary to upgrade or replace some of 
the underground systems in the Exploratory Shaft Facility. Systems, 
such as rail, power supply, and ventilation systems, built as temporary 
construction systems, were adequate during site characterization. 
However, to maintain the site and continue compliance for a safe 
environment, several site infrastructure improvements are required. 
These improvements include: code compliance and safety upgrades; and 
the design and construction of a new shop building and warehouse, a 
fueling facility with a compressed natural gas design and an operations 
center. Also it is necessary to replace the obsolete operating 
equipment now being used and to design the balance of plant area 
between the portals.
              waste acceptance, storage and transportation
    The mission of the Waste Acceptance, Storage and Transportation 
Project is to achieve the safe orderly transfer of spent nuclear fuel 
and high-level radioactive waste to the repository. The Project also 
maintains the waste acceptance agreements between the Department and 
the owners and generators of spent nuclear fuel and high-level 
radioactive waste.
    For fiscal year 2003, we request $17.1 million to begin long lead-
time logistical and planning activities for waste acceptance and 
transportation. If Congress approves the President's recommendation, 
there will be a need in the future for additional funding for 
transportation-related activities.
                             transportation
    For fiscal year 2003, we request $14.2 million to resume the 
activities necessary to begin the acceptance and transportation of 
spent nuclear fuel and high-level radioactive waste beginning in 2010. 
This request is an increase of $12.2 million from last year. The 
request would fund the development of our plans for waste acceptance 
and transportation services and awarding a contract or multiple 
contracts in fiscal year 2003. It provides for the preparation of 
acquisition documents, development of technical specifications, and 
issuance of a Request for Proposal for waste acceptance and 
transportation services after repository site designation. The current 
interactions with stakeholders will be increased to resolve 
institutional issues such as routing, inspection, and emergency 
preparedness in order to ensure our ability to begin the acceptance and 
transportation of spent nuclear fuel and high-level waste in 2010. 
Also, we are planning to issue a Notice of Policy and Procedures to 
provide assistance to States and Indian Tribes for training in the 
procedures required for safe routine transportation and emergency 
response. We intend to increase our support of work being performed at 
the national laboratories that is focused on ensuring that spent 
nuclear fuel can continue to be transported safely and securely.
                            waste acceptance
    For fiscal year 2003, $2.3 million is requested, which is a 44 
percent increase from last year. These activities include the 
collection and maintenance of spent nuclear fuel discharge and 
projection information; maintenance and implementation of the Standard 
Disposal Contract; and interactions with the NRC, contract holders, and 
others concerning nuclear materials management. In addition, we 
anticipate an increased level of interactions with contract holders to 
assist in the planning and development of the waste acceptance and 
transportation system. Numerous issues related to the scheduling of 
waste acceptance activities and the physical and logistical 
requirements of serving the contract holders sites must be resolved in 
order to allow for the implementation of an efficient waste acceptance 
and transportation system.
                   program management and integration
    For fiscal year 2003, we request $85 million for Program Management 
and Integration activities, which is a 9 percent increase from fiscal 
year 2002. The increase supports additional strategic planning 
requirements, program management support, and technical support 
services.
    Program Integration is comprised of Quality Assurance, Program 
Management and Human Resources and Administration. These offices 
provide management support to the Program Director, the Yucca Mountain 
Site Characterization Project, and the Waste Acceptance, Storage and 
Transportation Project. The fiscal year 2003 funding supports 
activities to:
  --Ensure that NRC quality assurance requirements are appropriately 
        incorporated into technical documents, including the 
        maintenance of the Qualified Suppliers List and database;
  --Integrate, through system engineering, the waste management system;
  --Coordinate and participate with external agencies, i.e., NRC, the 
        Environmental Protection Agency, and the Nuclear Waste 
        Technical Review Board;
  --Establish updated safeguards and security policy and procedures;
  --Provide required reports and documents to Congress;
  --Implement our technical information management; and
  --Manage the Nuclear Waste Fund investment portfolio.
    The fiscal year 2003 request also provides for salaries and 
benefits of Federal civilian employees, travel, building maintenance, 
rents, communication, utilities, the Working Capital Fund, and support 
services.
                       future funding challenges
    To maintain the current schedule for waste acceptance at a 
repository by 2010, the fiscal year 2003 budget provides sufficient 
funding for DOE to start the license application preparation. However, 
funding for the capital costs to ramp-up the transportation system, and 
to construct the repository must begin prior to receipt of a license 
from the NRC. To sufficiently fund the increases needed, making the 
Nuclear Waste Fund available to the Program for its intended purpose 
will be a primary issue.
                               litigation
    The Department is in litigation over the delay in meeting our 
contractual obligation to nuclear utility companies to begin accepting 
their spent fuel by January 31, 1998. The Courts have determined that 
the Federal Government is liable to compensate utilities for additional 
costs they may have incurred due to the delay.
    The Government has estimated its liabilities to all contract 
holders to be on the order of $2 to $3 billion. The suits filed in the 
Court of Federal Claims allege damages of $5.94 billion. However, many 
of the plaintiffs in the cases filed to date have not claimed specific 
damages, but have requested the Court to award damages, as appropriate. 
Some of the plaintiffs have claimed current damages on the order of $1 
billion each, noting that additional damages will occur as the 
Governments' delay continues.
                           concluding remarks
    We have conducted a world class investigative science program to 
determine that the Yucca Mountain site is suitable for further 
development. We have developed repository designs and operational 
concepts that would enable future generations to make decisions about a 
repository, providing them with the flexibility to choose closure, 
indefinite monitoring, or retrieval of emplaced materials. During this 
journey we have maintained the essential momentum to implement our 
Nation's policy for the management of spent nuclear fuel and high-level 
radioactive waste. We have transformed problems into opportunities; and 
replaced enormous challenges with formidable progress. We are committed 
to building a safer, more secure path to the future and to ensure the 
continued strength of this Nation and its resources for future 
generations.

          OFFICE OF SCIENCE ROLE IN NATIONAL SECURITY MISSION

    Senator Reid. Dr. Orbach, how does the Office of Science 
fit into the national security mission of the Department of 
Energy?
    Dr. Orbach. We have created the basic research framework to 
address many of the questions dealing with homeland security. 
We have funded research which is now being developed at other 
laboratories. We are implementing research programs ourselves. 
For example, in the Genomes to Life project we are in the 
process of working out, the ability to identify the genome of 
biological agents by using methods on a chip, so that one can 
deploy handheld devices in the field that could detect chemical 
agents or biological agents or radiological agents across the 
spectrum and hopefully develop methods for dealing with them.
    It is an integrated program that involves almost every 
component of the Office of Science, but it is one that I 
believe is active and has already contributed. We already have 
handheld devices in the field developed by Oak Ridge National 
Laboratory for radiation detection.
    We are also developing neutron sources that would be 
immediately available for detection of explosives by neutron 
activation. You will see across the breadth of the office a 
desire to assist homeland security in every aspect of our work.
    Senator Reid. So it is fair to say--well, I should not say 
that. You have outlined some of the things that are being done 
in relation to the homeland security. What major new research 
opportunities in addition to those you have outlined are 
available to you this coming year?

                         GENOME IDENTIFICATION

    Dr. Orbach. In the budget which has been submitted to you, 
there are developments explicitly associated with the genome 
identification. There are about 50 agents which are currently 
being sequenced. We have a role in that sequencing in order for 
immediate identification, so that in the field one will know 
what the agent is as opposed to having to send to a laboratory 
or waiting. That is part of our genome initiative. I believe we 
have $3 million associated with it.
    Senator Reid. What are some of the other things you are 
going to be doing that are new?

                       NANOTECHNOLOGY INITIATIVE

    Dr. Orbach. There will be other activities associated with 
new materials that will be able to withstand large pressures or 
radiation effects. We have a nanotechnology initiative which is 
being fully developed now which will create at the nanoscale 
level materials which can resist radiation and other difficult 
environments. They will also be of use in other areas, for 
example fusion research. But they will enable us to provide 
materials for the effort.
    We also are working with the Office of Homeland Security to 
assist them in the basic science needs that they have.

                                 FUSION

    Senator Reid. We hear, and I just heard you mention the 
word ``fusion.'' We all have heard for years and years that 
fusion research is on the verge of a breakthrough. Recently I 
heard news reports concerning something called coffee cup 
fusion and these reports seem to have generated a great deal of 
controversy in the press. How about in the scientific 
community?
    Dr. Orbach. They have also generated a great deal of 
controversy in the scientific community. It is referred to 
often as bubble fusion because of the thermoluminescence method 
used to create the conditions. If I were to give you a summary 
statement, it would be a quote from a very famous British 
scientist at the turn of the century who said that ``Nothing is 
too wonderful to be true, if it be confirmed by experiment.'' 
Right now we are attempting to confirm independently by 
experiment that those results are right.
    We have at Oak Ridge National Laboratory, where the report 
originated, in conjunction with RPI, Rensalaer Polytechnic 
Institute, we are going to redo that experiment. Unfortunately, 
we have learned that the apparatus itself degraded and so we 
are going to construct a new apparatus with the principal 
investigator working with a team of other scientists from Oak 
Ridge, that will attempt to replicate the experiment under very 
carefully controlled conditions, in particular to measure the 
neutron flux and make sure that it is coincident with the 
collapse of these bubbles in the liquid.
    We are not sure of what the answer will be, but we hope to 
finish that new experiment by about the middle of June. I can 
assure you that elsewhere in this world there are a lot of 
people attempting to reproduce that experiment as we speak.

            PROBLEMS ATTRACTING SCIENTISTS AT NATIONAL LABS

    Senator Reid. Are there any problems that you have found 
attracting research scientists at any of the national labs, 
especially given the fact that some of these labs are getting 
over 50 years old?
    Dr. Orbach. Absolutely. We have a serious manpower problem, 
both of retention but also of hiring. Something like half of 
the scientists within the Department of Energy will be eligible 
for retirement over the next 10 years. It is a daunting 
prospect in terms of where their replacements will come from.
    What makes it even more troubling is that the number of 
Ph.D.'s in the physical sciences is dropping. The test scores 
in K through 12 are dropping in science. We regard this as a 
very serious issue and one that is very difficult to grapple 
with.
    I would like in the future to attempt to address this as 
best I can in conjunction with the National Science Foundation 
and the Department of Education to see if we can use some of 
the unique DOE facilities, for example our laboratories, to 
work on the science education area to try to develop a work 
force in science.
    Senator Reid. It would be great if you could come up with 
some direction for us. Senator Domenici and I just traveled to 
New Mexico. I for the first time went through those two labs 
there. I was stricken by a couple things. Number one is the 
intensity of the feelings of the people that work there in 
those labs. It is like these men and women are part of a team 
that is headed for the Superbowl. They had such great spirit.
    The other thing I was struck with is how little money they 
make. We had there at Sandia a medical doctor who gave up a 
very lucrative medical practice to come there and work for 
about $100,000 a year. He said he is happier than he has ever 
been in his life. But a lot of people correlate happiness with 
money. This man did not and he is I am sure a better person for 
that.
    But if you could help us as we work our way through this 
year, give us some ideas what we can do to make people feel 
better about the work they do, and they already feel pretty 
good about it, but, more importantly, what we can do to recruit 
more scientists and perhaps educate more scientists.
    Dr. Orbach. I would be delighted to work with you.
    Senator Reid. You having come from an academic background, 
I think are uniquely situated and suited to help us with that.
    Dr. Orbach. I would be delighted. I was in northern New 
Mexico myself for 2 days and worked with the elementary 
schools, middle schools, high schools and community colleges to 
encourage children to go on for science degrees for higher 
education.
    Senator Reid. We all encourage them to do that. I have 
about as much knowledge about science as this glass here, but I 
know that it is important that we do that. You know, there are 
some things going on in the world today that is going to help 
us. I think this book, this movie I should say, ``Beautiful 
Mind,'' I think that--I saw the movie and I read the book. I 
was fascinated by the academic communities that he found 
himself in and how interesting it was to read about some of the 
research that he and others were involved in. We have to get 
others to feel how important it is to be involved in things 
scientific. So we need your help there.
    Mr. Magwood, I have a couple questions of you. Do you still 
feel that technology holds the potential for treating waste in 
the future?

                          SPENT FUEL TREATMENT

    Mr. Magwood. I think there are tremendous possibilities. We 
have been working with the national laboratories and the 
international community to examine what might be possible if we 
are able to develop these new technologies. We clearly have a 
long, long way to go. We have taken only the early steps.
    Senator Reid. But if we do not start we never get to the 
end, do we?
    Mr. Magwood. Granted. But we have started, the very early 
steps. If you look at the work that has been accomplished so 
far in showing that we know how to, for example, pull the 
uranium out of spent fuel and reduce the volume without 
separating plutonium and creating a proliferation hazard--
looking at the progress that has been made over the years at 
Argonne National Laboratory in demonstrating the viability of 
electrometallurgical processes--we really have started.
    However we do have to make a commitment to go further. As I 
said in my oral statement, we are developing a plan that will 
be delivered to Congress in May that will focus on how we 
proceed in the future. I think it will show the right way to go 
forward.
    Senator Reid. Senator Domenici.
    Senator Domenici. Well, that is true, but we have to fund 
the program, too.
    Could I just--the Department has reduced the budget request 
from $80 million to $18 million. They chose to combine the AAA 
program with the pyroprocessing. In combining them, that might 
be reasonable. In fact, redefining the whole program emphasizes 
the importance of both reactors and accelerators in improving 
the management of spent fuel. The accelerators clearly are not 
the only one in the future for the AAA program. But a better 
title for this whole area might be ``Advanced Fuel Cycle 
Development'' and you might consider that.
    But clearly we cannot continue with a funding level that is 
so much reduced from last year when that level seems to be 
inconsistent with the President's energy policy. If you read 
what Vice President Cheney put together with reference to 
nuclear, it would appear that areas like this should have been 
funded and kept going at a very significant momentum. Yet they 
were reduced.
    Can you use the money if we bring it up to the level we had 
in for this year or more in your program
    Mr. Magwood. As I mentioned, we are making considerable 
progress in developing the plan and as such I have a fairly 
good idea of where we stand. In looking at what we have been 
able to accomplish with the NERAC Subcommittee led by Dr. 
Richter, we have been able to scope out a potential research 
and development effort that could proceed over the next 5 or 6 
years, an effort that could easily use the kinds of resources 
you are talking about.
    Before we embark on that kind of work we clearly require a 
solid commitment from all the relevant branches of government 
that we really want to go forward with this activity. Otherwise 
I think it is unfair to the scientists at the laboratories, it 
is unfair to the students at the universities and the people in 
industry who support these activities if we simply stop and 
start. I would rather get a firm consensus and then launch 
forward as fast as possible.

                           NUCLEAR POWER 2010

    Senator Domenici. All right. Let me suggest, however, that 
there is one part of your budget that has very good news in it. 
The Department is providing $38 million to support a near-term 
effort. The goal of that is having advanced reactors operating 
in the United States by 2010. Obviously, those are reactors 
that are completely different than what we are talking about. 
They cannot melt down, they are smaller in size, they use a 
different cycle of fuel.
    Can you elaborate on how that program is going to be 
implemented?
    Mr. Magwood. I would be very happy to. We are working very 
closely with the industry. While working closely with the 
industry often can expose a program like ours to allegations 
that we are engaged in corporate welfare, I believe we are 
doing exactly what government should be doing at this point in 
time. We are looking at the institutional barriers to new 
nuclear power plants in this country. While industry must make 
the economic case for new nuclear power that this is the right 
thing to do from a business perspective, there is a role for 
government removing barriers such as regulatory barriers. As 
you know, there are very important but untested licensing 
processes of the Nuclear Regulatory Commission that though 
streamlined have never been demonstrated, have never been 
proven to be effective. It is a very high risk for industry to 
test those processes without government support.
    While I do not believe that we will provide most of the 
dollars involved in testing those processes, I think that 
having the government involved in those processes, working as a 
partner with industry, is absolutely essential to moving 
forward.
    The NERAC has determined that there are a range of 
technologies that are available that can make it to 2010. Some 
of them are variations of the light water reactors that we 
developed with industry back in the early nineties, the late 
nineties, rather, such as the AP-1000 from Westinghouse. There 
are some more exotic technologies, such as the reactor that is 
being worked on in South Africa and that Exelon has been very 
interested in. I think that these technologies are going to 
compete against each other over the next few years and we are 
going to really work closely with industry to make sure that 
there can be a clear business decision on whether those things 
go forward or not.
    Senator Domenici. I have one last question with reference 
to global climate that somebody can answer, perhaps you, Dr. 
Orbach, and then I want to make an observation regarding 
research on alternatives with reference to the fuel cycle.
    Global climate change research, I do not know who answers 
that. Is that yours?
    Dr. Orbach. Yes.

                     GLOBAL CLIMATE CHANGE RESEARCH

    Senator Domenici. The Department of Energy had a 
longstanding role in global climate change research, although a 
lot of people do not know that, just like they do not know that 
the Department has a very big job in the genome program, always 
did, had one-third of the program in terms of dollars for many 
of the years that we were funding the Genome Project.
    But the Department of Energy's role there, longstanding 
role, is there on global climate change. The White House has 
just recently announced a new global climate change strategy. 
Can you describe for me the role that the Department of Energy 
will have in that new White House agenda, the need for enhanced 
research in global climate change that will take advantage of 
the assets of the laboratories?
    Dr. Orbach. Yes, thank you. It is an inter-agency 
initiative and the Office of Science has been charged with the 
carbon cycle for North America. It has been said that the North 
American area is actually a sink for carbon, not a source, even 
given our large economy. In order to understand what the flow 
of carbon is, we are looking at both the sources of carbon, 
carbon dioxide, and also the sinks, which include both land 
masses and ocean. So we hope to improve the accuracy of the 
carbon cycle for North America as part of that initiative.

                          SPACE POWER SYSTEMS

    Senator Domenici. Now, the 2003 NASA budget proposes a 
nuclear systems initiative. Is the DOE involved in that? What 
role might they have in that program?
    Dr. Orbach. I am sorry, Senator. I am unaware of that.
    Senator Domenici. Are you aware of it, Mr. Magwood?
    Mr. Magwood. Yes. As you may recall, Senator, we have in 
our fiscal year 2002 budget a component of our advanced reactor 
power systems program called special purpose fission, in which 
we were provided dollars to look at the possibility of using 
space reactors to power NASA spacecraft for deep space 
exploration. After working with NASA very closely for the last 
several years, NASA has concluded that the time is right to 
begin a major new program to explore the use of these 
technologies for deep space exploration. NASA will spend, as 
you said, about a billion dollars over the next 5 years to look 
at these technologies.
    DOE will be the primary contractor, I guess I would say, to 
NASA to develop these nuclear technologies.
    Senator Domenici. Well, I want to say, in wrapping up any 
questions I might have of you, Mr. Magwood, I remain committed 
to the new programs with reference to waste disposal. I do not 
think just because the President is moving down using the 
statutory powers to establish a repository for nuclear waste at 
Yucca Mountain, I do not believe we have come close to solving 
the problem of nuclear waste disposal.
    I am going to work very hard with my friend the chairman to 
see that we continue to fund the programs for alternative ways 
to do this. It appears to this Senator if we would have started 
10, 15 years ago with anything close to the kind of money we 
were spending for the underground repository on doing research, 
we could have come up with a program with much less toxicity in 
the residue than what we have got now.
    We understand we could be moving toward a 300-year life 
rather than 10,000 year. Half-life, I should have said half-
life. It is very hard to find a repository that you can model 
in terms of safety with a 10,000 year half-life, but it would 
not have been difficult and will not some day when we have a 
much lesser number of years.
    So wherever that has been reduced here, I am going to work 
hard to put it back in. So your job is going to continue. I 
hope you are optimistic about it, and the fact that it is not 
included with sufficient resources to continue at the level we 
had this year in the President's budget, I hope that will not 
hold you down if in fact we give you the money and urge that 
you proceed in that regard, because I think it is very, very 
important.

                     ADDITIONAL COMMITTEE QUESTIONS

    I have a number of questions for you, doctor, but I am 
going to submit them for the record. Unless the chairman cares 
to proceed, I am finished for the day.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted From Senator Harry Reid

                             biotechnology
    Question. We are aware that the Office of Biological and 
Environmental Research (BER) oversees basic research including 
biotechnology research programs. What is the prospect of these programs 
contributing to the DOE mission?
    Answer. We are quite confident that basic biotechnology research 
programs in BER will contribute substantially to the DOE mission. 
Already the genomic DNA sequencing of microbes with relevance for clean 
energy, carbon sequestration, bioremediation, and biothreat detection 
and defeat has stimulated research in each of these areas throughout 
the scientific community. Similarly, the planned genomic sequencing of 
the poplar tree has energized the research communities that study the 
use of the poplar for energy biomass, carbon sequestration, and 
bioremediation. Research in BER's Natural and Accelerated 
Bioremediation Research program is developing biological solutions for 
the cleanup of metals and radionuclides, contaminants unique to DOE 
waste sites. BER research has developed novel biological sensors with 
broad applications ranging from environmental monitoring for cleanup 
activities or biothreat agents to the broader medical and defense needs 
of other agencies. BER research on the carbon cycle and on the 
molecular details of the carbon cycle in ocean and terrestrial 
ecosystems will impact our ability to design strategies to sequester 
carbon and to estimate the North American carbon sinks, important in 
the global politics of carbon emissions and sequestration. Finally, the 
Genomes to Life program, jointly managed by BER and the Office of 
Advanced Scientific Computing Research (ASCR), will support fundamental 
systems biology research that will underpin our ability to use Nature's 
solutions and design strategies to develop our own solutions for clean 
energy, carbon sequestration, bioremediation, and the defeat of 
bioterrorism.
    Question. The BER Advisory Committee has recommended that funding 
of $200 million annually be provided for a new initiative in biology 
and biotechnology--the Genomes to Life program. For the upcoming fiscal 
year, the budget request is only $40 million. In which year would you 
anticipate that the $200 million recommendation will be requested?
    Answer. As part of its out-year planning, the Department will 
consider Genomes to Life program needs and develop the appropriate 
budget profile.
    Question. Could you explain how this new initiative in 
biotechnology--the Genomes to Life program--applies in each of the four 
DOE missions of (1) clean energy; (2) carbon sequestration; (3) 
bioremediation; and (4) defeating bioterrorism.
    Answer. As we look into the future we believe that fundamental 
scientific advances in the Genomes to Life Program will underpin 
remarkable and diverse payoffs in each of these four DOE missions.
    Clean Energy.--Within the near future advances in systems biology, 
computation, and technology will contribute to increased biology-based 
energy sources. In a few decades they will contribute to energy 
security through a major new bioenergy industry.
    Carbon Sequestration.--Within the near future advances in systems 
biology, computation, and technology will help us understand earth's 
carbon cycle and design ways to enhance carbon dioxide (CO<INF>2</INF>) 
capture. In a few decades they will help us stabilize atmospheric 
carbon dioxide to counter global warming.
    Bioremediation.--Within the near future advances in systems 
biology, computation, and technology will lead to cost-effective ways 
for environmental cleanup. New technology will save billions in waste 
cleanup/disposal.
    Defeating Bioterrorism.--Within the near future new technology will 
enable rapid detection of biothreat agents and identification of 
molecular targets for antibacterials and antivirals to underpin 
enhanced detection and response to biothreat agents.
    Question. If the Congress were to provide additional funds this 
year, doubling the budget request of $40 million, to accelerate this 
initiative to meet these important DOE missions and urgent national 
needs, how would these additional funds be used?
    Answer. We believe the President's Request strongly and adequately 
funds this program. A key component of the Genomes to Life program is 
the formation of large, interdisciplinary teams of scientists at 
universities, national laboratories, and industry conducting research 
at the interfaces of the biological, physical, and computational 
sciences. Additional funds would, in part, be used to more quickly fund 
a critical mass of these research teams addressing each of the 
program's research goals. A second long-term goal of the program is to 
develop new scientific capabilities that we could use today but that 
simply do not exist in a generally useable form, such as real time 
molecular imaging and single molecule chemistry. These capabilities 
could be accelerated. Finally, the Genomes to Life program will require 
novel capabilities for new high throughput biology for protein 
production, molecular imaging, small molecule production, and 
proteomics. Development of these novel capabilities is a central 
component of the new high throughput biology that will characterize the 
Genomes to Life program and could be accelerated.
                           energy biosciences
    Question. The Department of Energy fiscal year 2003 budget request 
deletes the separate budget line for Energy Biosciences within the 
Office of Science, Basic Energy Sciences and instead provides funding 
for Energy Biosciences under the broader category of Chemical Sciences, 
Geosciences, and Energy Biosciences. Does this represent a reduced 
emphasis by DOE Basic Energy Sciences on Energy Biosciences research?
    Answer. Energy biosciences research is a very important component 
of the Basic Energy Sciences program and its support will continue. 
Indeed, the purpose of the change is to strengthen biosciences in the 
organization. The change directly aligns the budget and management 
structure within the Office of Basic Energy Sciences. Chemical 
sciences, biosciences, and geosciences have been managed together 
because of the growing convergence of these disciplines, especially 
between chemistry and biology. We expect that strengthening of energy 
biosciences research will occur by growth in the traditional areas 
supported by this program, for example, by developing a systems 
approach to the genetic modification of plants, and by growth in other 
areas that build upon the convergence of the chemical, materials, and 
biological sciences. For example, a workshop held early this year 
highlighted the interactions of the biological and materials sciences 
for biomolecular materials production. A forthcoming workshop later 
this spring will highlight the interactions of the biological and 
chemical sciences in the area of catalysis. In the past few years, we 
have nearly doubled the staff of the Energy Biosciences activity from 2 
to 3\1/2\ scientific program managers in recognition of the importance 
of this area of research within the organization. The energy 
biosciences research is clearly identified in the Basic Energy Sciences 
program budget on page 547.
    Question. Does DOE Basic Energy Sciences plan to use any funds that 
the Congress appropriated for Energy Biosciences research for fiscal 
year 2002 for other purposes?
    Answer. No. All of the funds that the Congress appropriated for 
Energy Biosciences research for fiscal year 2002 will be used for this 
purpose only.
                                 ______
                                 

           Questions Submitted From Senator Pete V. Domenici

                            science funding
    Question. I've been concerned for several years that there is 
inadequate recognition in the scientific community and the 
Administration on the importance of the physical science research 
conducted by the Department's Office of Science.
    Strong increases for NIH budgets have been the norm, and there is 
good recognition of the importance of NSF on the Hill. The Health 
Sciences share of our R&D has moved from about 25 percent of the 
Federal budget in 1980 to almost 55 percent in 2003.
    But, in my view, the important role played by the Office of Science 
in our Nation's high technology infrastructure is not well recognized.
    I suggest that the Department should develop a strong campaign to 
help the public and lawmakers understand the contribution made by the 
Office of Science. The public needs to understand that advances in one 
key area like health sciences depend on research in multiple fields. If 
physical sciences are not advancing at rates close to the medical 
sciences, I fear we are losing opportunities for key breakthroughs.
    Do you share my view that the Office of Science should undertake 
such an educational campaign? And do you share my concern for a growing 
imbalance in the research portfolio of our Nation?
    Answer. The Office of Science plays a critical role in the Nation's 
scientific enterprise. Not only do we build and operate large 
scientific instruments essential to virtually every research area, but 
we are also the primary support for many important areas of science 
ranging from whole fields, such as high energy physics, and nuclear 
physics, to subfields, such as combustion chemistry. I agree with you 
that this is not well recognized, as does Secretary Abraham, who made 
educating both the public and the Congress on the value of the Office 
of Science one of my highest priorities.
    I also understand and share your concern about funding for the 
physical sciences, and the potential loss of opportunities for key 
breakthroughs in many areas. The physical sciences are in a period of 
revolutionary change, based in large part on the insights offered by 
new generations of scientific instruments of the type built and 
operated by the Office of Science, such as synchrotron light sources, 
neutron sources, atomic resolution microscopes, particle physics 
accelerators and computing centers--tools that are also absolutely 
essential to continued progress in the life sciences. I sincerely 
believe that the scientific opportunities facing us in the physical 
sciences have the potential to revolutionize our understanding of the 
universe and create better lives for our Nation's citizens, and that we 
should exploit those opportunities. Our fusion science program is 
making progress toward a new source of energy to reduce our dependence 
on oil and reduce atmospheric emissions; nanoscience research promises 
materials designed atom-by-atom to meet the needs of industry, our 
programs in high energy and nuclear physics are leading the world in 
increasing our knowledge of the fundamental nature of matter, energy 
and time. Nevertheless, I also support the recent increase in funding 
for the life sciences. It has sparked a biotechnology revolution that 
is changing the face of medicine and creating new industries, and the 
Office of Science is part of this biotechnology revolution. We 
initiated the Human Genome Project and developed many of the tools and 
techniques that underly it's success. We plan to apply these tools and 
techniques to our (Genomes to Life) program to develop a sophisticated 
understanding of microbes and plant biology that will allow us to use 
them for energy production, carbon sequestration, countering 
bioterrorism and remediation of hazardous waste.
    The President's budget request that is before the Congress is a 
substantial step toward strengthening the scientific base of the Office 
of Science and allowing us to exploit the opportunities before us. The 
completion of some projects, along with reduced funding requirements 
for the Spallation Neutron Source, effectively provides a 5 percent 
increase in funding for science, allowing us to strengthen our research 
programs while also increasing operating times at our user facilities.
                      low dose radiation research
    Question. I helped you initiate your important program in low dose 
radiation research a few years ago, to try to better determine health 
risks from exposures to low levels of ionizing radiation. This research 
could have far-reaching implications, from improved cleanup standards 
for DOE sites to better appreciation of the risks associated with 
operations involving radioactive materials. With the National Academy's 
seventh study on Biological Effects of Ionizing Radiation (called BEIR 
VII) nearing a conclusion, results from this program are especially 
timely.
    In past years, this budget has been reduced in Budget Requests, 
only to be restored by Congress. I appreciate that this year the 
request of $17.5 million is close to the current year level of $17.8 
million. But it's my understanding that the DOE's own program plan for 
this study calls for budgets of about $25 million.
    Is this work advancing the state of knowledge in this critical area 
at a pace to impact the BEIR VII study?
    Answer. Yes. To date, 153 peer-reviewed papers have been published 
in the scientific literature reporting results of research funded by 
the Low Dose Radiation Research Program. A number of these published 
papers have already been listed on the BEIR VII website as citations 
provided to BEIRVII committee members for consideration (http://
www7.nationalacademies.org/brer/BEIR__VII__refs.html). The entire list 
of current publications has been sent to the BEIR VII staff at the 
National Academy and will be available to the committee well before the 
next meeting of BEIR VII, in July of 2002. The estimated time of 
completion of the BEIR VII report is late 2003 and will allow time for 
additional publications from the Low Dose Program to be considered in 
their final report. BEIR VII staff members have also attended all three 
of the Low Dose Program's investigator workshops that are attended by 
all scientists funded by the program.
    Although the program is only in its fourth year, much has already 
been learned. Because of new technology, arising in part from genomics 
research and the success of the Human Genome Program, we are able to 
measure changes in gene activity at the cellular and molecular level 
that were previously below the limits of measurement. A key finding is 
the observation that low doses of radiation (less than 10 rads, a dose 
that is twice the annual DOE radiation worker exposure limit) activate 
hundreds of genes most of which are different from the genes activated 
by high doses of radiation. While the significance of this observation 
for human health risk remains to be determined, this result clearly 
shows that biological responses to low doses of radiation are not 
simply less than the response to high doses of radiation but are 
qualitatively very different.
    Research in the program is also investigating the biological 
responses of unirradiated cells that are neighbors of a cell that was 
irradiated the situation inherent at low doses of radiation. This 
research has clearly shown that irradiated cells can elicit a response 
in their unirradiated neighbors demonstrating the importance of 
communication between cells in biological systems. Further studies will 
determine whether this communication is ultimately deleterious or 
protective for intact tissues.
    The Low Dose research has reanalyzed the doses received by atomic 
bomb survivors. These calculations will be completed in fiscal year 
2002 and used by the BEIR VII committee in writing their report.
    Question. And is it resource constrained in its progress?
    Answer. The funding is adequate within the context of the overall 
priorities for the Office of Science and the Biological and 
Environmental Research program. To date, the Low Dose Program has 
funded a total of 76 separate projects--30 at national laboratories, 
and 46 at universities and other institutions. Currently 52 projects 
are funded and we are in the process of reviewing more than 50 
proposals and applications for new research received in response to our 
most recent solicitation for new research. The program has attracted 
and is supporting the best science in low dose radiation biology and is 
the leading program internationally. The program has been very 
productive as indicated by the number of publications that have 
appeared in the peer-reviewed literature.
                  science in an underground laboratory
    Question. Last year there was a review by NSF to explore deep 
underground sites for sensitive nuclear experiments.
    As part of their review, there was strong recognition that some 
experiments require the deepest location--like the Homestake mine--and 
others benefit more from the ultra-low background, ultra-clean 
conditions, and superb infrastructure associated with the Waste 
Isolation Pilot Plant at Carlsbad.
    I provided funding within the EM budget this year to start a 
neutrino experiment at WIPP. But logically, these experiments should be 
championed within the Office of Science.
    Will the Office of Science seriously evaluate and champion 
opportunities for key experiments in the environment provided by WIPP?
    Answer. The Office of Science strives to champion the most 
interesting and promising experiments in all fields of basic energy 
research. The Office would, of course, be interested in receiving 
promising proposals for experiments utilizing the Waste Isolation Pilot 
Plant at Carlsbad. As is customary with all proposals received in the 
Office of Science, these proposals would undergo external peer review 
and be funded based on the results of this peer review and the 
availability of resources.
    Some of these experiments (EXO, OMNIS, high pressure helium 
detector) are aimed at WIPP, with this site claimed by scientific 
proponents to be a good match to their needs. For the neutrino/nucleon 
decay experiments, there is an on-going scientific debate involving the 
relative location of accelerator facilities that might provide neutrino 
beams and the energies of these beams.
                     global climate change research
    Question. The Department of Energy has had a long-standing role in 
the Global Climate Change research agenda.
    The White House just recently announced a new Global Climate Change 
strategy.
    Can you describe for me the role that the Department of Energy will 
have in the new White House agenda and the need for enhanced research 
on Global Climate Change that would take advantage of the assets in 
DOE's laboratories?
    Answer. One role the Department will play in the Administration's 
Climate Change program is to advance our understanding of the carbon 
cycle. Specifically, our research will seek to understand where the 
carbon dioxide emitted to the atmosphere is going and what role 
terrestrial ecosystems in North America play in the carbon cycle as 
either a source or sink for carbon dioxide. The Department's other 
programs in climate change research are also expected to play an 
important role in the White House agenda for research beyond the 
Climate Change Research Initiative.
    For example, the national laboratories provide our climate change 
research facilities, such as the Atmospheric Radiation Measurement 
Cloud and Radiation Testbed facilities--the ARM sites--and the high 
performance computing facilities essential for developing and using the 
advanced climate model and the ARM data. Coupled with these facilities, 
the laboratories also provide science teams needed to develop advanced 
high-resolution ocean and sea ice models as components of coupled 
climate models, novel diagnostic tools to evaluate the performance of 
climate models, and new models for simulating climate processes, carbon 
cycling and sequestration in terrestrial and ocean systems, and the 
ecological impacts of climate change.
             university reactor fuel assistance and support
    Question. For the current year, the Congress provided $17.5 million 
for the University Reactor Support Program. This included a $5.5 
million add over the budget request to specifically establish 
geographically distributed university research reactor user facilities 
and geographically distributed training and education research 
reactors?
    This was one of the major recommendations of the April 2001 NERAC 
Report on University Research Reactors.
    Can you assure me that the $5.5 million increase is being used for 
this purpose?
    Answer. Yes, the $5.5 million added by the Congress for 
geographically distributed university research, training and education 
reactors will be used exclusively for that purpose. The Innovations in 
Nuclear Infrastructure and Education (INIE) program was established in 
fiscal year 2002 to accomplish this task.
    Question. Can you give me an update on this effort? Will it be peer 
reviewed? Will it involve substantial financial support from the 
nuclear industry?
    Answer. On December 21, 2001, after the fiscal year 2002 
Appropriation Bill was signed by the President, the Department issued a 
solicitation for proposals under the Innovations in Nuclear 
Infrastructure and Education (INIE) program. By the solicitation 
closing date of March 15, 2002, 13 proposals had been received from the 
university community. A peer review panel of seven independent experts 
from outside the Department has been established to review the 
proposals and make award recommendations to the Department's selection 
official. The peer review panel is scheduled to meet in late April and 
report back to the selection official by May 1, 2002. It is expected 
that the announcement of awards will occur by early June 2002 with 
grants issued in July 2002. Industry support is one of several review 
criteria being used by the peer review panel in evaluating the 
proposals and it appears that many of the proposals include substantial 
financial support from industry.
                              uranium-233
    Question. The Congress has urged the Department to proceed with a 
Request for Proposal on a project to extract medically valuable 
isotopes from the excess uranium 233 stored at Oak Ridge National 
Laboratory.
    This is potentially a very exciting effort.
    When do you expect to present a project plan to the Congress on 
this effort?
    Answer. House Report 107-258 requested a budget-quality project 
plan that presents all costs, including the estimated life-cycle costs 
for storage and disposal of the excess 233U before the Request for 
Proposals (RFP) is issued. The project plan is in final Departmental 
review and should be delivered to Congress by the end of May.
    Question. Can you provide an update on this effort and tell when 
you expect the RFP will be out?
    Answer. A final draft of the Request for Proposals (RFP) has been 
prepared; we expect the Department will be ready to issue the RFP in 
FedBizOps following submission of the project plan to Congress.
                     nuclear power 2010 initiative
    Question. Two years ago, this Subcommittee led the way in creating 
a new R&D program in Nuclear Energy Technologies. The effort has been 
focused on both near-term and longer-term development of next 
generation power reactors.
    There are great opportunities to deploy new reactors that would 
have superior economics, no possibility of a core-meltdown, reduced 
waste, and more proliferation resistant.
    I commend the Department for providing $38 million to support a 
near-term effort with the goal of having new advanced reactors 
operating in the United States by 2010.
    Can you elaborate on this program in greater detail?
    Answer. The Nuclear Power 2010 initiative is a joint government/
industry cost-shared program to develop advanced reactor technologies 
and demonstrate new regulatory processes leading to initiation of 
private sector construction of new nuclear power plants in the United 
States by 2005 and their operation by 2010.
    The Department's Nuclear Energy Research Advisory Committee issued 
on October 31, 2001, A Roadmap to Deploy New Nuclear Power Plants in 
the United States by 2010, which recommends actions to be taken by 
industry and the Government to support deployment of new advanced 
nuclear power plants in the United States by 2010. The recommendations, 
which have broad industry support, provide the basis for the activities 
of the Department's Nuclear Power 2010 program.
    The Nuclear Power 2010 program includes a phased plan of action to 
achieve near-term deployment. This phased approach includes a 
Regulatory Demonstration phase and a Design Completion phase. The 
Regulatory Demonstration phase will demonstrate the previously untested 
Early Site Permit (ESP) and combined Construction and Operating License 
(COL) regulatory processes to reduce licensing uncertainties and the 
attendant financial risks to the licensee. The Design Completion Phase 
will support work to finalize and certify those advanced reactor 
designs which U.S. power generation companies are interested in 
constructing as evidenced by their willingness to share in the costs of 
obtaining a certified design ready for deployment.
    In fiscal year 2002, cost-shared Regulatory Demonstration projects 
will be initiated with industry to demonstrate the Nuclear Regulatory 
Commission (NRC) ESP licensing process. The ESP process was established 
by the NRC to enable completion of the site evaluation component of 
nuclear power plant licensing before a utility makes a decision to 
build a plant. In response to the Department's February 2002 
solicitation for ESP License Demonstration Projects, proposals were 
submitted by Dominion Energy, Inc., Entergy, and Exelon Generation 
Company. These proposals are currently under review with award 
selection planned for May 2002. The Department anticipates NRC approval 
of the ESP applications by late 2004.
    During fiscal year 2002, fuel development and test planning 
activities were initiated at the Idaho National Engineering and 
Environmental Laboratory and the Oak Ridge National Laboratory in 
support of advanced gas-cooled reactors. In addition, the Department is 
continuing to fund NRC for development of a gas reactor regulatory and 
licensing framework.
    In fiscal year 2003, the Regulatory Demonstration activities 
initiated in fiscal year 2002 will continue. In addition, cost-shared 
Design Completion projects will be initiated with industry to support 
NRC design certification and design completion of at least one advanced 
reactor. The Department anticipates that these Design Completion 
activities will include cost-shared first-of-a-kind engineering, fuel 
qualification and prototype component development.
    In fiscal year 2004, cost-shared projects will be initiated with 
industry to demonstrate the NRC combined Construction and Operating 
License (COL) process. The Department anticipates these NRC license 
applications to lead to initiation of private sector construction of 
new nuclear power plants in the United States by 2005 for operation by 
2010. The Department will also conduct a nuclear industry 
infrastructure assessment to identify the current state of fabrication, 
manufacturing, and construction capabilities required to support 
deployment of new nuclear power plants by 2010.
    Question. What is the projected cost of this program over the next 
8 years?
    Answer. The total cost of the program over the next 8 years will 
depend largely on the reactor technologies that are found to be 
attractive by different generation companies in different regions of 
the country and the costs associated with design completion and 
licensing new nuclear power plants. The Department has established 
plans to invest $38.5 million in fiscal year 2003. Once it becomes 
clear which technologies would be involved in new nuclear plant 
deployments in the United States, we will be able to project the total 
cost of the programs.
    Question. Would it be possible to accelerate the program with 
additional resources?
    Answer. The program can be accelerated if additional resources are 
received in fiscal year 2003 and fiscal year 2004. Specifically, the 
activities associated with design completion including first-of-a-kind 
engineering and material testing could be accelerated. Regulatory 
demonstration activities including Early Site Permit applications and 
combined Construction and Operating License activities are proceeding 
at a pace consistent with current NRC and industry plans. Accelerated 
design completion would reduce uncertainty in plant construction cost 
estimates and would likely accelerate a decision by industry to 
construct a new nuclear plant.
    Question. How is the Department using the $3 million provided last 
year to support the longer-term recommendations that will come out of 
the Generation IV Technology Roadmap?
    Answer. The fiscal year 2002 Energy and Water Development 
Appropriation associated provided $3,000,000 for advanced reactor 
development consistent with the longer-term recommendations of the 
Generation IV Technology Roadmap and to continue research begun in the 
current fiscal year in small modular nuclear reactors. The Department's 
Generation IV Technology Roadmap is scheduled for completion in early 
fiscal year 2003. The research and development activities for next 
generation nuclear energy systems will begin in earnest in fiscal year 
2003.
                    nasa's nuclear system initiative
    Question. The Fiscal year 2003 NASA budget proposes a (Nuclear 
Systems Initiative.) This initiative will develop new radioisotope 
power systems for on-board electric power on future space platforms, 
and it will also conduct research and development on nuclear electric 
propulsion systems that would allow future spacecraft to speed 
throughout the outer reaches of the solar system. NASA has proposed 
spending $126 million in fiscal year 2003 and up to $1 billion in the 
next 5 years. What will be DOE's role in this exciting new effort? 
Answer. As you indicated, the NASA nuclear systems initiative has two 
primary parts, radioisotope power systems and nuclear electric 
propulsion. DOE will have major roles in both parts. Historically, DOE 
has developed and delivered radioisotope power systems to NASA for 35 
years. DOE will perform that same function as part of this new 
initiative. NASA will provide funding to DOE to develop new 
radioisotope power systems.
    Currently, the planning focuses on two key systems. One will be a 
new Multi-Mission Radioisotope Thermoelectric Generator that will build 
on the systems used in past missions but will be designed to operate on 
both surface environments such as Mars as well as in the vacuum of 
space. The second will be a new Stirling Radioisotope Generator that 
will take advantage of the higher efficiency offered by this dynamic 
conversion technology in order to reduce the amount of plutonium-238 
that is required to power the generator. This system will also be 
designed to work both on planetary surfaces (Mars) as well as in space. 
In addition to funding DOE for specific system development efforts, 
NASA will also pursue, through its own Centers, advanced technologies 
that may be applicable to future systems.
    DOE's role in the nuclear electric propulsion efforts is still 
evolving. As the nuclear agency for the Federal Government, DOE will 
play a lead role in the research related to developing the space 
reactor portion of a nuclear electric propulsion system. However, 
initial planning has the power conversion and heat rejection subsystems 
remaining the primary responsibility of NASA. Because of the direct 
interrelationship of the reactor and the power conversion and heat 
rejection subsystems, the precise roles and interfaces are still being 
negotiated. In any event, the Department will have a significant and 
key role in supporting NASA in the space reactor portion of the 
initiative. Discussions are presently ongoing between the NASA 
Administrator and senior Department officials on organizational options 
for managing the space fission reactor portion of the initiative.
              advanced nuclear medicine initiative (anmi)
    Question. The Advanced Nuclear Medicine Initiative (ANMI) provides 
basic research and educational grants in the field of nuclear medicine. 
These R&D grants have yielded exciting results for the development of 
new radiopharmaceuticals, insights in radiobiology, and possible new 
methods of treating cancer.
    In recent years the program has been funded at the level of $2.5 
million per year. In fiscal year 2003 funding has been dropped to zero. 
The Department has also proposed changing the manner in which it 
provides radioisotopes to the research community.
    I am concerned that these changes have been made without a senior 
level agreement with NIH as to how the government is going to continue 
to support this important mission.
    Will the Department work to secure such an agreement?
    Answer. We have communicated with senior officials of the 
Department of Health and Human Services and initiated a dialog with the 
National Institutes of Health about the changes anticipated in our 
medical isotope program and our mutual interest in assuring an adequate 
supply of isotopes to support nuclear medicine research. Additionally, 
as a first step, we are jointly sponsoring a special session at the 
annual Society of Nuclear Medicine meeting in June 2002, to explore the 
roles of our respective agencies in assuring research isotope 
availability.
    Question. Will you elaborate as to why, at a time when nuclear 
medicine has an opportunity to contribute tremendously to molecular 
medicine, you have chosen to reduce support of the Advanced Nuclear 
Medicine Initiative (ANMI)?
    Answer. As you indicated, in fiscal year 2003, the Department has 
not included funds for the Advanced Nuclear Medicine Initiative (ANMI). 
The ANMI program was launched in fiscal year 2001 with $2.5 million in 
each of fiscal year 2001 and fiscal year 2002. With this funding, we 
have supported a total of nine research grants and five educational 
grants to post-secondary institutions, including the expansion or 
establishment of nuclear pharmacology graduate programs at U.S. 
universities. These 14 awards, which were provided for up to 3 years, 
will be completed in fiscal year 2003, with funds remaining from fiscal 
year 2002.
    The ANMI concludes with a record of considerable success, including 
the development of new scientific and technical innovations, 
represented by several papers that have been presented at topical 
meetings and submitted to professional periodicals.
    Two papers accepted for publication.
  --Yao, Z., DeNardo, S.J., DeNardo, G. L., et.al. ``Effect of 
        Molecular Size of PEGylated Peptide on the Pharmacokinetics and 
        Tumor Targeting in Lymphoma Bearing Mice'', Cancer Research, 
        2002; accepted.
  --Balogh, L., Bielinska, A., Eichman, J. D.,Valluzzi, R., Lee, I., 
        Baker, J. R., Lawrence, T. S., and Khan, M. K. ``Dendrimer 
        Nanocomposites in Medicine,'' Chemica OGGI, 2002; accepted.
    Five presentations given or to be given at meetings involved in 
nuclear medicine.
  --Balogh, L., Cook, A. C., Baker, J. R.,Khan, M. K., ``Development of 
        Radioactive Dendrimer Nanocomosites.'' To be presented at the 
        Society of Nuclear Medicine, June 15-19, 2002. Los Angeles, CA.
  --Balogh, L., Eichman, J. R., Baker, J. R., Khan, M. K., Lawrence, T. 
        S., Sorenson, D. R., and Edwards, C. A., ``Imaging and Drug 
        Delivery Using Dendrimer Nanocomposites.'' 1st International 
        Meeting On Nanoparticles 2001, Feb. 24-27, 2001 Orlando, FL.
  --Balogh, L., Baker, J. R., Khan, M. K., Lawrence, T. S., Sorenson, 
        D. R., and Edwards C. A., ``Imaging Gold Dendrimer 
        Nanocomposites in Cells,'' Symposium Y5.3 MRS Spring Meeting, 
        April 16-20, 2001. San Francisco, CA.
  --DeNardo, S. J., Yao, Z., DeNardo, G. L., Song, A., Kukis, D. L., 
        Mirick, G. R., Lamborn, K. R., O'Donnel, R. T., and Lam, K. S. 
        ``Effect of Molecular Size of PEGylated Peptide on the 
        Pharmacokinetics and Tumor Targeting in Lymphoma Bearing 
        Mice.''
  --DeNardo, S. J., Yuan, A., Richman C., O'Donnel, R. T., Goldstein, 
        D. S., Shen, S. S., and DeNardo, G. L. ``Therapeutic Index 
        Enhancement by DOTA Peptide Linkage in 111-In/90-Y DOTA-Lym-1 
        and m170 Mabs in Clinical Trials.'' To be presented at the 
        Society of Nuclear Medicine Meeting June 15-19, 2002.
    Subjects of these articles include: development of antibodies for 
cancer therapy; development of nanocomposites to treat tumors; tumor 
targeting for radioisotope therapy; delivery of alpha-emitting isotopes 
and improving the methods for their delivery to cancers such as breast 
and prostate and also leukemia.
    Five Nuclear Medicine and Pharmacy graduate programs have been 
established or enhanced at the following universities through the ANMI:

------------------------------------------------------------------------
                University                             Program
------------------------------------------------------------------------
Purdue University.........................  Nuclear Pharmacy Education
Washington University (St Louis)..........  Graduate Research in Nuclear
                                             Medicine
University of Wisconsin...................  Training for MS-Level PET
                                             Medical Physicists
Washington State University...............  Nuclear Pharmacy Graduate
                                             Certificate Program
University of New Mexico..................  Nuclear Pharmacy Graduate
                                             Education
------------------------------------------------------------------------

    These grants will produce masters and doctoral level graduates to 
fulfill a recognized shortage of trained nuclear medicine personnel. 
Specifically, the grants have expanded the number of institutions 
graduating nuclear pharmacists and have increased the availability of 
medical physicists to meet the rapidly growing demand for these 
specialists in the United States.
    While we continue to support the objectives of this program and 
recognize the value of DOE's infrastructure to medical isotope 
research, we must focus our attention and resources on other issues of 
greater priority.
            advanced accelerator applications program (aaa)
    Question. Within the last year, Congress received a report on 
future plans for the AAA program that painted a picture of major 
contributions involving study of improved nuclear waste strategies.
    The President's National Energy Policy spoke strongly about the 
importance of this work. It specifically recommended development of 
advanced nuclear fuel cycles and next generation technologies for 
nuclear energy as well as reexamination of our policies for reducing 
waste streams and enhancing proliferation resistance through study of 
advanced reprocessing and waste transmutation. That is exactly what AAA 
is doing.
    The Department chose to combine the AAA program with the pyro-
processing program in the budget request. Combining those programs may 
be reasonable, and in fact, redefining the whole program to emphasize 
the importance of both reactors and accelerators in improved management 
of spent fuel would be reasonable. Perhaps a better title for this 
whole area might be something like Advanced Fuel Cycle Development.
    But the Department also reduced the budget from about this year's 
$80 million to a proposed $18 million.
    Would additional resources to support this important effort be 
consistent with the direction the President laid out in his National 
Energy Policy Report?
    Answer. This program activity has evolved significantly over the 
last 3 years. Originally, it was directed to apply high-energy 
accelerators to transmute spent fuel to lower quantity, less toxic 
forms. Consistent with the direction of Congress, we are combining the 
technology activities at the national laboratories and the University 
of Nevada-Las Vegas into a single, integrated program to explore both 
reactor and accelerator technologies associated with spent fuel 
pyroprocessing and transmutation.
    While we are interested in the potential of this research, we also 
recognize that it represents a long-term, potentially expensive 
commitment of the Department's scarce nuclear technology research 
funding.
    An independent expert committee chaired by Dr. Burt Richter 
believes that the next phase of this research could cost about $500 
million per year over the next 5 to 6 years. Before we can commit to 
such an investment, it is important that we be certain that the goals 
and approach of this research be carefully reviewed and a clear plan 
established.
    Such a plan is now being written with considerable input from Dr. 
Richter's committee and should be provided to Congress in May. 
Unfortunately, this plan could not be completed in time to support a 
more robust funding request during the formulation of the Department's 
fiscal year 2003 budget.
    Once it is complete, however, I am confident that the plan will 
detail a technical approach to this research that we will be able to 
discuss with Congress and use to determine an appropriate path-forward, 
including funding, for this research.
    Finally, I agree with your observation that this area of research 
might more appropriately be designated Advanced Fuel Cycle Development.
                nuclear energy plant optimization (nepo)
    Question. Nuclear Energy is making immense contributions to the 
Nation's electricity needs. Plants are operating at record levels of 
efficiency, with a plant capacity factor approaching 91 percent in 
2002.
    The goal of NEPO is to ensure that our plants continue their 
performance, and extend their contributions beyond their initial 40-
year license period. NEPO is a fully cost-shared program, with equal or 
greater funds invested by private industry.
    NEPO was supported in a formal letter from all 33 U.S. members of 
the EPRI Nuclear Power Council, who recommended increased funding. 
Those 33 members represent virtually every nuclear power company in 
America.
    NEPO received $5 million in 2000 and 2001 and $6.5 million in 2002. 
The Department recommends zero in 2003.
    Given the importance of optimum plant operation and the importance 
of re-licensing plants, what is the rationale for the proposal to zero 
budget in 2003?
    Answer. The Department continues to support the goals of the NEPO 
program which are to ensure that current plants can continue to deliver 
reliable and affordable energy supplies through the end of their 
extended licenses. The Department requested no funding for NEPO for 
fiscal year 2003 in order to fund other, higher priority programs.
    Question. Are the goals of the NEPO program consistent with the 
President's National Energy Policy?
    Answer. Yes. The goals of the NEPO program are consistent with the 
Nuclear Energy Policy objective of U.S. energy security.
    The research and development conducted under NEPO seeks to increase 
electrical generating capability from our current fleet of 103 
operating nuclear plants through technical innovation, to improve on 
the recent gains by the industry in operating capacity factors which 
are near 90 percent, and to break through the technical barriers to 
continued operation so that our existing plants can achieve and exceed 
a total of 60 years of operation.
                   nuclear energy research initiative
    Question. I've been a strong champion for re-creating the research 
infrastructure that can underpin a strong future for nuclear energy. 
The NERI program is one of the most important of these programs, with 
its focus on R&D projects essential for regaining and maintaining 
American's nuclear energy leadership.
    With the Nation's requirements to provide nearly 400,000 megawatts 
of new electric generating capacity by 2020, the NERI program takes on 
even more importance.
    In the current year, NERI is funded at $32 million. The President's 
budget suggests $25 million, a significant cut. I can easily understand 
the rationale for a significant increase, I fail to understand how a 
cut could logically be proposed.
    How many ongoing research programs will be terminated, and how will 
these affect new awards?
    Answer. No research projects will be terminated as a result of the 
fiscal year 2003 budget request. The Department's funding request will 
support continuation of the 16 new projects expected to be awarded in 
fiscal year 2002 as well as projects ongoing from prior years. However, 
the fiscal year 2003 budget request will not support the initiation of 
new NERI research projects.
    Question. NERI was just starting an international component, to tap 
the immense opportunities for international collaboration in nuclear 
energy research. How does the President's budget impact the ability to 
progress on international efforts?
    Answer. The Department's fiscal year 2003 budget request fully 
supports International Nuclear Energy Research Initiative (I-NERI) 
activities currently being conducted under bilateral agreements with 
France and South Korea and activities planned with South Africa, Japan 
and Brazil. The Department currently has four I-NERI projects with 
France, six projects with Korea and one project with the OECD Nuclear 
Energy Agency. The Department also anticipates initiating up to five 
new I-NERI projects with South Africa, Japan and Brazil in fiscal year 
2002. The Department's fiscal year 2003 budget will support the 
continuation of these activities.
           science at the proposed yucca mountain repository
    Question. Recent reports and press statements have expressed 
concern that the Department is relying too heavily on engineered 
barriers to limit potential dispersal of radioactive materials from 
spent fuel?
    How do you respond to these reports?
    Could a stronger case be made for the integrity of the natural 
barriers than the Department has done to date?
    And if so, will you encourage that the scientific studies to 
possibly support the natural barriers be conducted?
    Answer. Geologic isolation plays a significant role in repository 
performance at Yucca Mountain. We included both natural and engineered 
systems in evaluating long-term Yucca Mountain performance, in 
accordance with the National Academy of Sciences (NAS) recommendations 
and with Environmental Protection Agency (EPA) and the Nuclear 
Regulatory Commission (NRC) regulations.
    Critics have implied that our total system performance assessment 
relies almost entirely on engineered barriers: that implication is 
incorrect, or misinformation. The Department designed the Total System 
Performance Assessment (TSPA) to forecast the performance of the 
repository within the Yucca Mountain setting, and assess that 
performance against the regulatory standards as specified by NRC in 10 
CFR 63. The NRC's regulatory requirements conform to the EPA standards 
for the protection of the public health and safety as specified in 40 
CFR 197, which, pursuant to the Energy Policy Act of 1992, are 
consistent with the recommendations of the NAS. The risk-informed, 
performance-based approach embodied in the NRC and EPA regulations 
requires DOE to analyze compliance with public health and safety 
standards based on a TSPA that takes into account the features, events, 
and processes associated with the natural geological setting at Yucca 
Mountain working in concert with the man made engineered barriers.
    Yucca Mountain is an isolated site in a closed hydrological basin. 
Tunnels that might isolate spent nuclear fuel and high level waste 
would be nearly 1,000 feet below the surface and the water table is 
nearly 2,000 feet below the surface. Our understanding of the water 
movement within Yucca Mountain suggests that over 90 percent of the 
annual rainfall at this site is evaporated, meaning less than half an 
inch of rain water might travel beneath the surface. Our analysis of 
water samples within the mountain suggests that water in the rocks is 
thousands of years old.
    Natural properties in the rock formation beneath Yucca Mountain 
provide sorption that would further reduce any movement of molecules. 
These are some examples of natural features and process that our TSPA 
took into account along with man made engineered systems to ensure that 
we meet the NRC and EPA's regulations.
    The natural systems of Yucca Mountain do provide substantial 
barriers to the release of radionuclides from a repository and 
thousands of years of protection. Should any of the waste packages fail 
during the regulatory compliance period of 10,000 years, the natural 
barriers of Yucca Mountain would also assure that the public's health 
and safety are protected.
                        transportation security
    Question. In light of the events of September 11, there are a lot 
of concerns from the States regarding security of transportation of 
nuclear wastes.
    What specifically is DOE working on to address this?
    I am especially interested in how DOE is cooperating with NRC. Will 
you elaborate on that relationship?
    Answer. The September 11 attacks have prompted the Department and 
many other Federal agencies, including the NRC, to review the 
safeguards and security regulations and the basis for their threat 
assessments. If these reviews result in changes to the NRC requirements 
for physical protection, the Department will comply.
                                 ______
                                 

              Questions Submitted From Senator Larry Craig

                         environmental science
    Question. As a result of its (Top to Bottom Review) of the 
Environmental Management Program, the Department of Energy concluded 
that the EM Science and Technology program was not focused on EM 
program needs. For this reason, DOE proposes in its fiscal year 2003 
budget request that the EM Science and Technology program be 
transferred to the DOE Office of Science.
    For the record, would you please provide a detailed ``cross walk'' 
which maps the EM Science and Technology program elements which were 
funded in fiscal year 2002 to the proposed budget structure for fiscal 
year 2003?
    Answer. The fiscal year 2003 Presidents Request proposes to move 
two EM Science and Technology program elements to the Office of 
Science. In fiscal year 2002 the EM Defense Environmental Restoration 
and Waste Management, Science and Technology program, included the 
Environmental Management Science Program and the Savannah River Ecology 
Laboratory. In fiscal year 2003 the President's Request proposes to 
move these two activities to the Office of Science's Biological and 
Environmental Research Program, Environmental Remediation subprogram 
under the Clean-Up research activity.
               em science and technology program elements
    Question. Please also provide a list of those EM Science and 
Technology program elements which would no longer be funded in either 
EM or Science under DOE's proposed fiscal year 2003 budget.
    Answer. In response to recommendations from the Top-to-Bottom 
Review, the Science and Technology (S&T) program is being refocused to 
ensure its activities support its core mission of accelerated cleanup 
and closure. As part of this effort, the basic research that had been 
conducted in partnership by the DOE Offices of Environmental Management 
(EM) and Science (SC) will transfer to SC. Remaining S&T activities in 
the EM S&T program are being realigned to support two areas: (1) 
closure site support, to ensure that closure sites, such as Rocky Flats 
and the Ohio sites, have the necessary technology and technical support 
to meet closure scheduled, and (2) alternatives and step improvements 
to current high-risk/high-cost baselines, to ensure all possible 
alternatives have been evaluated and that workable alternatives are 
available and implemented as cleanup activities progress.
    Each field manager is currently developing plans to achieve more 
risk reduction and accelerate cleanup at the sites. The manager is also 
assessing what the S&T requirements are to support these accelerated 
plans and is prioritizing these requirements for the site. Based on 
this input, EM will determine which S&T activities should be supported 
in fiscal year 2003. EM anticipates making determinations about 
specific S&T projects to be supported within the fiscal year 2003 
funding request in summer of 2002.
       allocation criteria for funding for environmental science
    Question. For any EM Science and Technology program elements that 
are to be retained and managed out of the EM Headquarters program 
element, please provide the criteria upon which DOE will allocate these 
program dollars to the field.
    Answer. The technology development activities conducted in EM's 
Office of Science and Technology program in fiscal year 2003 will be 
realigned to address a streamlined program that is focused on (1) 
closure site support, to ensure that closure sites have the necessary 
technology and technical support to meet closure schedules, and (2) 
alternatives and step improvements to current high-risk/high-cost 
baselines, to ensure all possible alternatives have been evaluated and 
that workable alternatives are available and implemented as cleanup 
progresses.
    EM plans on allocating S&T funds requested for fiscal year 2003 to 
projects that align with the new program focus, and that are needed to 
support plans being developed by the sites to accelerate cleanup. We 
are currently working with the EM field offices to determine which S&T 
projects will receive funding in fiscal year 2003.
                     electrometallurgical treatment
    Question. The requested funding level for fiscal year 2003 for 
electrometallurgical work at Argonne National Laboratory will only 
support the treatment of about one half ton per year of EBR II fuel. 
This will not allow the lab to meet its compliance commitment to the 
State of Idaho for treatment of this fuel. The overall funding level 
would also result in a layoff of approximately 160 positions in 
Illinois and Idaho.
    Given the endorsement of the pyroprocessing technology in the 
National Energy Plan, how does DOE justify this requested funding level 
and the adverse impacts created by it?
    Answer. The Department is very interested in the potential of 
pyroprocessing, transmutation, and other advanced fuel cycle 
technologies. The successful demonstration of electrometallurgical 
treatment technology at Argonne National Laboratory has provided 
additional confidence regarding the practicality of this technological 
approach. Additional research may show that this research is applicable 
to the development of a future advanced technology approach to managing 
spent nuclear fuel.
    A subcommittee of the Nuclear Energy Research Advisory Committee, 
chaired by Nobel Laureate Burton Richter, believes that the research 
required to investigate these advanced nuclear fuel technologies could 
require an investment of about $500 million over the next 5 to 6 years. 
Before the Department could consider a commitment to such an activity, 
it is essential that the goals and technical approach of this research 
be carefully reviewed and a clear plan established.
    Pursuant to this, the Department is preparing a plan that details 
the research that would be necessary to carry out an advanced fuel 
cycle program. This report, developed with input from Dr. Richter's 
subcommittee, will soon be provided to Congress. It will provide a 
basis for informed discussions as the Administration and Congress weigh 
the potential benefits and costs of a new research initiative in this 
area--an initiative that will meet the aggressive technology objectives 
anticipated by the National Energy Policy.
    Unfortunately, neither our current research efforts nor the 
deliberations of the Nuclear Energy Research Advisory Committee were 
sufficiently advanced last year to permit this report to be completed 
in time for the fiscal year 2003 budget request. As a result, the 
Department's request for this research represents the funds required to 
continue the treatment of sodium-bonded fuel and meet our commitments 
to the State of Idaho.
    That said, the current EMT rate is approximately one half ton of 
spent nuclear fuel per year and we anticipate that with the funding 
requested in fiscal year 2003, we can continue to operate the Fuel 
Conditioning Facility at this treatment rate. We also intend to 
increase this rate in the future with the intent of fulfilling our 
commitment with the State of Idaho to treat and remove all EBR-II spent 
fuel. Finally, it is our intent to minimize any adverse worker impacts 
at Argonne National Laboratory and we stand committed to working 
closely with the Laboratory, the workers, stakeholders and Congress to 
assure that this objective is met.

                          SUBCOMMITTEE RECESS

    Senator Reid. The subcommittee stands in recess.
    [Whereupon, at 2:21 p.m., Friday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                         MONDAY, MARCH 18, 2002

                                      U. S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Harry Reid (chairman) presiding.
    Present: Senators Reid and Domenici.

                          DEPARTMENT OF ENERGY

STATEMENT OF JOHN A. GORDON, UNDER SECRETARY FOR 
            NUCLEAR SECURITY AND ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION
ACCOMPANIED BY:
        DR. EVERET BECKNER, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS
        LINTON BROOKS, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
            NONPROLIFERATION
        ADMIRAL FRANK L. BOWMAN, U.S. NAVY, DIRECTOR, NAVAL NUCLEAR 
            PROPULSION PROGRAM AND DEPUTY ADMINISTRATOR FOR NAVAL 
            REACTORS

                OPENING STATEMENT OF SENATOR HARRY REID

    Senator Reid. The subcommittee will come to order.
    I really appreciate everyone's patience. This hearing was 
scheduled for 10:00. Senator Domenici asked if I could put it 
off, and I was happy to do that. I saw him a little while ago, 
and he said that he had a meeting with Senator Lott that should 
be ending soon. We are going to go ahead and start the meeting, 
though.
    Today is the third in a series of four budget oversight 
hearings for the Energy and Water Development Subcommittee. We 
have heard, so far, from three offices at the Department of 
Energy: the Office of Science, the Office of Nuclear Energy, 
and the Office of Civilian Radioactive Waste Management. We 
have also heard from the Bureau of Reclamation and accepted 
written testimony from the U.S. Corps of Engineers, for reasons 
that are obvious to everyone.
    For the information of other Members and staff, the 
subcommittee will hold one more budget oversight hearing this 
year. We will wrap up our budget hearings on April 18th. On 
that day, we will hear from the Office of Environmental 
Management and the Office of Energy Efficiency and Renewable 
Energy, two important programs within the Department.
    Today we will hear from four witnesses: General John 
Gordon, Administrator of the National Nuclear Security 
Administration; Dr. Everet Beckner, Deputy Administrator for 
Defense Programs, and Ambassador Linton Brooks, Deputy 
Administrator for Defense Nuclear Nonproliferation; and Admiral 
Frank Bowman, Deputy Administrator for Naval Reactors.
    Senator Domenici and I both appreciate you being here. My 
duties as the Assistant Majority Leader require my presence on 
the Floor when we are in session. As a result, it is extremely 
difficult to find time on Tuesday, Wednesday, or Thursday to do 
these hearings, and we have decided to do them, on this 
committee and another that I run, on Mondays and Fridays. So we 
appreciate your flexibility.
    The good part about having them on Mondays and Fridays is 
that we are not interrupted by votes, so we will be able to 
start this and end it. And it is better for everyone, I 
believe.
    It is my understanding, General Gordon, that you just got 
back from a series of meetings in Europe. I am particularly 
grateful for your attendance so early in a busy week, after 
having just gotten back.
    In the interest of time, I will have my written statement 
be a part of this record, and will extend the same opportunity 
to members of the subcommittee and the full committee who wish 
to be heard on these matters in today's hearings.
    Once we have heard from subcommittee members, and that is 
going to be fairly limited today, I will have a series of 
questions, including some that will be submitted for the 
record.
    General Gordon, I hope you will take a few minutes to 
clarify some of the recent press accounts generated on 
development of new weapons testing capabilities and the 
possibility of resumption of weapons testing. The more I read 
about these subjects, it appears the less I know, so I need 
some direction, as we all do.
    To the extent that the administration is hoping to change 
some of these policies, I expect there will be a full 
consultation and collaboration with Congress, especially that 
most of these rooted in the Federal law.
    General Gordon, I appreciate the good work that you are 
doing, pleased that you have nearly a full team in place now, 
and hope that they will be able to ease the burden on you 
personally.
    I look forward to hearing from each of you. At today's 
hearing, as has been indicated, we will hear from four 
individuals, and we will do that in the order that I have 
announced, with General Gordon, Dr. Beckner, Ambassador Brooks, 
and Admiral Bowman, going in that order.
    If you would proceed General Gordon, after each of you have 
completed your statements, if you wouldn't mind waiting, and we 
will do the questions all at once.
    General Gordon?

                  STATEMENT OF GENERAL JOHN A. GORDON

    General Gordon. Thank you, Mr. Chairman. I will have a 
larger written statement, which we have submitted for the 
record.
    Senator Reid. And I would ask each of you to hold your 
remarks to about 10 minutes, with the exception of you, General 
Gordon, because of the elaboration that I have asked that you 
give.
    General Gordon. I will try to not take much longer than 
that, as well, in the interest of your time, sir.
    And what I would like to do this morning, Mr. Chairman, is 
give you actually more of a report on the National Nuclear 
Security Administration (NNSA) than the gory details of the 
budget, which of course are available, and we can talk to you 
in the detail that you like.
    Last year, I once likened the job at NNSA to changing the 
jet engines of an airplane while we were flying the airplane 
and trying to accomplish the mission at that same time, and to 
do so with a short-handed crew.
    Mr. Chairman, the job and the concept of the job has not 
gotten a lot easier. We are still spending the greatest 
percentage of our time, the priorities of our efforts, on the 
mission; on flying the airplane. And I can report that that 
actually is going quite well. I am broadly satisfied with the 
products and the performance of the Federal workforce, our 
great laboratories, the plants, the Nevada Test Site, our 
critical nonproliferation programs, and the great work done on 
target every day from Naval Reactors.
    The leadership of these sites and these organizations are 
focused on output. They are focused on making strong 
contributions to the mission every day. And they are making 
real progress, improving management, improving business 
practices, working together better than they have in a long 
time as a system, laboratories and plants.
    And, Mr. Chairman, as you noted, I can no longer report 
that we have a short crew, just the opposite. After about a 
year, we now have in place a strong leadership team, so that as 
we actually go to change out our jets that is, some rather 
significant changes in the structure of our organization--we 
finally have in the right place the people to make it happen, 
with Ambassador Brooks, Dr. Beckner, and our old friend, 
Admiral Skip Bowman.
    Now, we have been busy, Mr. Chairman, despite not having in 
place a full management team for much of the last 13 months. 
And NNSA is not without accomplishment.
    More than anything else, and with no small amount of 
support from the Congress, we have really revitalized the 
mission. People feel pretty good about their work. They feel 
pretty good about their future. There is a sense that morale is 
up, recruitment is up, and retention is up.
    We are making progress on diversity. We have solid security 
and counterintelligence programs. Infrastructure is now on a 
long-term planning schedule. It is linked to our planning 
program and budget system. We have a strong manager with a 
discipline process, and, again, with great support from the 
Congress to get started. And we have a specific line in this 
year's budget request from the President.
    We have an improved relationship with DoD, seen through the 
work of the NPR, the Nuclear Posture Review. That report stands 
as an important vision of the way forward to identify long-term 
requirements for NNSA. But I would point out a maybe not so 
obvious result of that was, in fact, a renewed spirit of 
cooperation and coordination between DoD and the NNSA. This 
relationship is working at the Nuclear Weapons Council level, 
at the policy level, and at the technical level. The DoD has 
come out and vocalized its strong support for our needed 
programs, and that is a most welcome development.
    As you know, Mr. Chairman, we have launched a significant 
reorganization effort to streamline NNSA. We will eliminate an 
entire layer of management of the complex. And when complete, 
each of NNSA's eight contractor-operated sites, at least those 
in DP and NN, will report to an area office, which will, in 
turn, report to the administrator. And there should be no more 
questions about two headquarters.
    To be able to do this, we will reengineer the entire 
complex to reduce the number of separate offices, eliminate 
unnecessary layers, focus on needed functions. So what we are 
seeking here is a streamlined Federal structure, where the 
laboratory and plant managers will be given clear, more 
consistent expectations, and can be effectively held 
accountable for achieving expected results.
    We are taking steps to be much more efficient. We have 
significantly streamlined oversight. In place today is improved 
oversight for Environmental, Safety, and Health, and security. 
We have launched an initiative to cut administrative burdens by 
50 percent, even though we get stacks of paper for those who 
ask us to cut these burdens. And we are running a pilot program 
to change the regulatory burden that we place on our labs and 
plants.
    All of this is nothing if we do not, in fact, accomplish 
the missions. It is just process, but our Stockpile Stewardship 
Program confirms that the Nation's nuclear weapons remain safe, 
secure, and reliable. We are continuing to improve our 
surveillance tools. When we find aging problems, we know what 
to do with them, we know how to fix them, and we go off and do 
that.
    No identified problems, by the way, suggest a need to 
return to nuclear testing anytime soon.
    Our science campaigns are moving ahead, and the National 
Ignition Facility seems solid on its new track, with strong 
leaders and strong management.
    The pit manufacturing and certification campaign is coming 
around, again, with strong and committed leadership.
    Nevada programs are pointing the way in many areas. The 
subcritical experiments at U1A are, indeed, critical to our 
work, both on pit certification and the broader questions of 
certification. A total of five more tests are scheduled this 
year. JASPER, one of the world's only gas gun of this nature, 
is moving ahead and, again, will provide very important and 
valuable information to the Stockpile Stewardship Program.
    Our nonproliferation programs continue to make good 
progress. They received a real shot in the arm and, frankly, a 
shot of money after 9-11. Using that supplemental funding, we 
are accelerating our programs and expect to see new success in 
reducing the threats we might face. After a comprehensive 
review by the administration, we are launching a less costly 
and, I think, a more effective plutonium disposition program.
    And Naval Reactors continues to improve and produce every 
day.
    Mr. Chairman, probably what I am most proud of is the 
response of this enterprise to the tragedy of 9-11. From 
enhanced security to people and to equipment on the scene, I 
could not have asked for a more rapid, a more competent, or a 
more generous response.
    The security responses remain in place to this day, Mr. 
Chairman, at some expense and some hardship. But they are 
necessary. And over a period of time, we will need to rethink 
our architecture for security. But we have about the best 
protected sites in the country today, and I intend to keep them 
that way.
    We are also showing the Homeland Security Council the 
unique and special capabilities of our people and our sites. We 
have much, much to offer in the war against terrorism.
    Mr. Chairman, we have made truly remarkable progress with 
our budget process and the support from the administration. We 
are enjoying a new relationship with the Office of Management 
and Budget. We are broadly pleased with the proposed increase 
in the budget submitted by the President, and our 5-year plan 
is finishing its way in the administration, en route to 
Congress.
    I would comment that full implementation of our planning, 
programming, and budgeting system is going a little more slowly 
than I had hoped, but I believe we are on the right course.
    Mr. Chairman, the budget request for all of NNSA is just 
over $8 billion. The increase for Defense Programs to $5.9 
billion demonstrates the support of the administration for the 
weapons programs and puts us on track to restoring the health 
of the enterprise, its infrastructure, and accomplishing the 
required work to maintain the stockpile and to build a long-
term scientific base to support these weapons long into the 
future. The Administration requests $1.1 billion for defense 
nuclear nonproliferation. This is the largest such request 
ever. In many ways, the events of 9-11 have driven home the 
importance of these programs.
    This increase comes after a long and extensive review of 
our nonproliferation programs in what was, frankly, a pretty 
skeptical environment. That skeptical review both strengthened 
the programs and, importantly, strengthened the 
Administration's support for them. We certainly did not get 
rubberstamp approval. We now have their full support.
    This budget would permit us to make real progress on all 
fronts of our programs, from MPC&A through safeguards and 
security, and helps prevent weapons and material from falling 
into the wrong hands. We help at borders here and in Russia. We 
are moving ahead with the plutonium disposition program with 
the decision to proceed with the MOX-only initiative.
    And NNSA is also providing support to homeland security. We 
develop advanced technologies to detect chemical, biological, 
and nuclear contamination. We are deploying these technologies 
to protect us today. We have requested $283 million for nuclear 
nonproliferation R&D to continue this type of research.
    As an aside, Mr. Chairman, we are doing this somewhat ad 
hoc, as we understand fully the dimensions and the requirements 
of the Homeland Security Council and the counterterrorism 
operators. We may want to align ourselves a little differently 
within our organizations, once we understand the full dimension 
of how we will support this ongoing effort.
    Mr. Chairman, we are requesting $708 million for the Naval 
Reactors Program, which supports the submarines and carriers 
now on-stations around the world. This relatively small 
increase above inflation is primarily for our work to bring the 
dry spent-fuel storage facility in Idaho on-line, while 
maintaining the safety, performance, and reliability of 
operating reactors in aircrafts and submarines.
    Nuclear-powered ships have served a vital deterrent role 
for well over half a century. They continue to prove their 
worth, their value, every day in the aftermath of September 11.
    Mr. Chairman, I want to be here today in front of you and 
sound optimistic about the future of NNSA. I am pleased with 
the direction we are going, and I want to lock in our 
successes. But I am not fully content with the pace of what we 
are accomplishing.
    Despite my optimism, certainly not all is perfect as we 
face uncertainties and difficulties as we move ahead. Actually 
making the kind of organizational changes we are trying to do 
is difficult and time-consuming. We still run big programs that 
push the limits of technology. That in itself entails 
considerable risk. And there is near certainty that in one or 
more programs sometime in the future we will have some 
unexpected problems, and we will be up talking about those. We 
struggle with large and complex programs in a large and complex 
organization, but we are pushing the bounds of technology. The 
directions are good. The missions are good. And the resources 
are becoming available.

                           PREPARED STATEMENT

    Mr. Chairman, that concludes my opening statement. I thank 
you and all the members of the Subcommittee for the support 
they give to this enterprise, to this mission, but, most 
importantly, to the people who accomplish it. Thank you.
    [The statement follows:]

                  Prepared Statement of John A. Gordon

    Thank you for the opportunity to appear today to discuss the fiscal 
year 2003 President's budget request for the National Nuclear Security 
Administration (NNSA). The fiscal year 2003 unified NNSA budget request 
totals $8.0 billion, representing an increase of $433 million, or 
nearly 6 percent over the fiscal year 2002 enacted appropriation, which 
includes $357 million in supplemental funding. I would like to begin my 
testimony here today by setting a policy framework and discussing the 
issues faced by NNSA.
              transforming the national security strategy
    President Bush is transforming our national security strategy to 
meet the threats of the 21st century. The NNSA is intimately involved 
in the formulation of the Administration strategy through participation 
in the Strategic Review, Nuclear Posture Review and the review of 
nonproliferation programs. We have accelerated research and development 
into technologies to detect and deter weapons of mass destruction. We 
responded swiftly and comprehensively to the terrorist events of 
September 11th, protecting our valuable national security assets and 
employees, and offering our unique capabilities to the national 
response. We have contributed directly to the Homeland Security needs 
of Governor Ridge with our technology and scientific staff. Work such 
as this will extend into fiscal year 2003 and beyond.
    While the policies and priorities established by the President, the 
Secretary, and the Congress will determine the scope of our work over 
the years to come, nuclear deterrence remains the cornerstone of our 
national defense strategy for the foreseeable future. The NNSA will 
also be deeply involved in arms reduction and nonproliferation 
activities, and will make significant contributions to the 
Administration's new capabilities-based national security strategy that 
requires us to maintain our military advantages in key areas while 
developing new capabilities. The NNSA will continue to be involved in 
the nation's Homeland Security efforts. The Naval Reactors program will 
continue to be responsible for all naval nuclear propulsion work.
    The NNSA faces major challenges during the next 5-year period in 
responding to evolving customer requirements while maintaining and 
improving the health of the nation's national security enterprise. The 
expanded focus on international terrorism following the September 11th 
attacks underscores the importance of maintaining a strong capability 
in the science and technology of national security. NNSA's ability to 
perform its national security functions depends upon renewing our 
internal capabilities. As we conduct our daily technical work of 
maintaining the reliability, safety, and security of the Nation's 
nuclear weapons and developing the scientific tools necessary to 
perform our work, we need to ensure that our national security 
enterprise remains capable. Both the physical and intellectual 
infrastructure of the national security enterprise were built during 
the era of underground nuclear testing, and have eroded to the point 
that we are no longer able to perform some essential tasks. It is 
imperative that we address these issues during the upcoming 5 year 
period. NNSA's program and budget planning emphasizes maintaining an 
adequate workforce of scientific, technical and business skills, and 
building a diverse, multi-talented leadership. We must be able to 
recruit, train, and develop quality employees throughout our 
organizations in a highly competitive employment environment. We must 
implement our plans to renew the physical infrastructure to ensure 
adequate capability and capacity as well as compliance with 
environment, safety, health and security standards.
    Another key element to NNSA's ability to perform its national 
security functions is an organizational plan to achieve greater 
effectiveness and efficiency. Last month, I submitted NNSA's ``Report 
to Congress on the Organization and Operations of the NNSA'' describing 
our accomplishments to date and our strategy for operating an 
integrated national security enterprise. I will further discuss this 
plan later in this testimony.
                             budget summary
    This request for fiscal year 2003 marks the first unified NNSA 
budget request to the Congress. In this request, the NNSA is $8.039 
billion, an increase of nearly 6 percent over fiscal year 2002.
    By way of summary, the NNSA fiscal year 2003 request supports the 
recommendations from the Nuclear Posture Review to maintain weapon 
capability without underground nuclear testing, develop a stockpile 
surveillance engineering base, refurbish and extend the lives of 
selected warheads, and maintain the science and technology base needed 
to support nuclear weapons. The request protects the operational 
readiness of the nuclear weapons stockpile through surveillance, 
experiments, and simulations for individual weapons and weapon systems, 
and investment in advanced scientific and manufacturing for the future.
    The Administration's full commitment to nonproliferation and a 
major effort with Russia is reflected within the fiscal year 2003 
request as we seek to prevent the proliferation of nuclear weapons. 
This request provides a down payment on that commitment which fully 
supports the U.S. policy on bilateral cooperation.
    The funding requested also maintains NNSA's critical role in 
providing for Homeland Security through our expertise in the detection 
of nuclear materials and the capability to respond to emergencies 
involving them, including capabilities in detection of chemical and 
biological threats.
    The Naval Reactors program, a critical part of the national 
security mission supporting the nuclear submarines and carriers 
stationed around the world, is fully supported in the request.

                               FISCAL YEAR 2003 NNSA CONGRESSIONAL BUDGET REQUEST
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                    Fiscal year     Fiscal year
                                       2001            2002         Fiscal year
                                    Comparable      Comparable     2003 request    Dollar change  Percent change
                                   appropriation   appropriation
----------------------------------------------------------------------------------------------------------------
Office of the Administrator:            $326,148        $326,486        $347,705         $21,219             6.5
 Program Direction..............
Weapons Activities:
    Defense Programs............       4,531,533   \1\ 4,811,761       5,116,913         305,152             6.3
    Safeguards and Security.....         411,418     \2\ 554,881         509,954         -44,927            -8.1
    F&I Recapitalization........           8,700         196,800         242,512          45,712            23.2
                                 -------------------------------------------------------------------------------
      Total, Weapons Activities.       4,951,651   \3\ 5,563,442       5,869,379         305,937             5.5
                                 ===============================================================================
Defense Nuclear Nonproliferation         864,131   \4\ 1,026,586       1,113,630          87,044             8.5
Naval Reactors..................         688,761         689,273         708,020          18,747             2.7
                                 -------------------------------------------------------------------------------
Use of Prior Year Balances                -3,244            -269               0            -269          -100.0
 (Other Defense Activities).....
                                 ===============================================================================
      Total, National Nuclear          6,827,447   \5\ 7,605,518       8,038,734         433,216            5.7
       Security Administration..
----------------------------------------------------------------------------------------------------------------
\1\ Includes $25,000 supplemental appropriation for Secure Transportation Asset.
\2\ Includes $106,000 supplemental appropriation.
\3\ Includes $131,000 supplemental for notes 1 and 2 above.
\4\ Includes $226,000 supplemental appropriation.
\5\ Includes $357,000 supplemental for notes above.

    The President's fiscal year 2003 budget request was developed based 
on three primary resource drivers. First, the strategic reviews of 
national security-related activities conducted this past year. The NNSA 
actively participated in the President's Strategic Review of deterrence 
and missile defense policy, and review of U.S. nonproliferation 
programs with Russia. The NNSA was also a key participant in the 
Administration's Nuclear Posture Review (NPR) which lays out the 
direction for this nation's nuclear forces over the next 5 to 10 years. 
These reviews validated the NNSA's activities in weapon systems 
refurbishments and the need for a robust, responsive research and 
development and industrial base. The second driver is the war on 
terrorism as we work to counter weapons of mass destruction and support 
the Homeland Security effort. The NNSA Laboratories are on the cutting 
edge of technology and have a vital national security role to play in 
combating terrorism. The third and final driver is the President's 
Management Initiatives on the human capital management and competitive 
sourcing initiatives which serve to focus our fiscal year 2003 
activities, particularly in the Federal Program Direction budget. 
Recruitment, retention, and skill mix are critical to NNSA's success in 
the future and are key to our plans for re-engineering the workforce.
    These drivers to the fiscal year 2003 budget presented serious 
challenges in balancing our funding request. These challenges included: 
maintaining the safety, security and reliability of the nuclear 
deterrent without underground testing or new warhead production; 
countering the proliferation of weapons of mass destruction; supporting 
the nuclear propulsion needs of the U.S. Navy; dealing with the rapidly 
evolving counter terrorism and security environment; and balancing 
these mission activities with real progress in the standup of the NNSA 
organization and streamlining the Federal management structure. We 
answered the challenges with a unified NNSA budget for the fiscal year 
2003 request that:
  --Balances the near-term needs for stockpile maintenance and 
        refurbishments with longer-term scientific programs to assure 
        stockpile certification in the future.
  --Maintains the safe and secure operation of the Weapons Complex.
  --Expands U.S. nonproliferation programs in Russia and elsewhere, 
        including Plutonium Disposition, Russian Transition 
        Initiatives, Nuclear Safety, and Materials Protection, Control 
        and Accountability.
  --Increases multi-year efforts to refurbish the physical 
        infrastructure of the Weapons Complex.
  --Accelerates research and development of nonproliferation 
        technologies, including those with significant counter 
        terrorism applications.
  --Advances weapons technology development.
  --Implements Presidential Management Initiatives through re-
        engineering and streamlining.
    I will now address the most significant funding changes requested 
in fiscal year 2003. Detailed explanations of all NNSA program 
activities are contained in the formal budget request.
                         stockpile stewardship
    In spite of the many challenges we are facing, the NNSA has 
continued to meet the core Stockpile Stewardship mission that is to 
maintain the safety, reliability, and performance of the nuclear 
stockpile to meet national security requirements.
    As I stated earlier, the NNSA actively participated in the 
strategic reviews of national-security related activities conducted by 
the Administration. Participation by NNSA ensured that the choices, 
plans, and requirements being developed were within the realm of the 
technical and production capabilities of the NNSA. It also increased 
the awareness of our issues and technical capabilities by the 
Administration's national security senior management team.
    While there are many important points and conclusions in the NPR 
including the goals to reduce operationally deployed nuclear weapons to 
between 1,700 and 2,200 by calendar year 2012 and the maintenance of a 
``responsive force'' for use as a hedge against unforeseen problems, 
several points are of particular relevance to the NNSA:
    First, nuclear weapons, for the foreseeable future, remain a key 
element of U.S. national security strategy. The NPR reaffirms that 
NNSA's science-based Stockpile Stewardship Program is necessary to 
assure the safety and reliability of the nuclear stockpile in the 
absence of nuclear testing. This includes basic surveillance of our 
aging weapons, systems refurbishment, chemistry and metallurgy of 
materials aging, detailed understanding of weapons physics, 
reestablishment of warhead advanced concepts teams, and development of 
additional diagnostic and predictive tools for long-term stewardship. 
The NPR revalidated the stockpile refurbishment plan previously 
developed and approved by the NNSA and the Department of Defense. The 
fiscal year 2003 budget request for Directed Stockpile Work is $1.2 
billion, an increase of $190 million, or about 18 percent over last 
year. Principally, this increase allows us to support life extension 
activities for the W80, W76, and B61 warheads, including supporting 
research and development and additional hydrodynamic testing for 
assessment and certification. Also, $2.1 billion is requested for the 
17 scientific and engineering campaigns that provide the knowledge, 
technologies and capabilities to address current and future stockpile 
issues.
    Second, more than any previous review, the NPR's concept of a New 
Triad emphasizes the importance of a robust, responsive research and 
development and industrial base. This calls for a modernized nuclear 
weapons complex, including contingency planning for a Modern Pit 
Facility, which will provide the nation with the means to respond to 
new, unexpected, or emerging threats in a timely manner. The fiscal 
year 2003 budget request supports our industrial base in two key ways: 
a request of $1.7 billion for Readiness in Technical Base and 
Facilities, a 10 percent increase supporting the operations of weapons 
complex facilities; and, a $243 million request for the Facilities and 
Infrastructure Recapitalization program to continue this important 
multi-year initiative into its third year.
    Third, a study examining the aspects of reducing test readiness 
lead time below the 24 to 36 month requirement for a fully diagnosed 
test. The NPR states that the lead time needs to be shortened out of 
prudence, not because there is a current need to test. In fiscal year 
2002, the NNSA and the DOD will study the optimum test readiness time 
that best supports the new triad as directed by the NPR. Pending the 
outcome of the study, the fiscal year 2003 request includes $15 million 
for Enhanced Test Readiness activities at the Nevada Test Site.
    Finally, the NPR calls for a stable, adequately funded Future-Years 
Nuclear Security Program (FYNSP). The NNSA's costs will not be reduced 
in the immediate future as a result of NPR. Near-term costs are driven 
by restoring production capabilities and revitalizing the 
infrastructure, not by the number of warheads in the stockpile or even 
the number to be refurbished. In fact, we expect that cost savings from 
refurbishment of a smaller number of weapons will not be realized until 
about fiscal year 2010. The NNSA enterprise's capacity will be 
stretched, approaching maximum capacity while our systems are on the 
process line for refurbishment, thereby limiting our ability to 
dismantle significant numbers of weapons over the next 10 years. The 
FYNSP document is in final preparation and is expected to be provided 
shortly.
    Also, I would like to point out a less obvious, but significant 
result of the NPR. Conduct of the NPR has improved the cooperation and 
coordination between the NNSA and DOD. The Nuclear Weapons Council is 
working, policy levels between the agencies are effective, and the DOD 
has offered strong support for needed programs in NNSA.
    In addition to the activities discussed above, the fiscal year 2003 
budget request for the Stockpile Stewardship Program will support:
  --Assessment of manufacturing concepts for a Modern Pit Facility.
  --Production of tritium in Tennessee Valley Authority reactors 
        beginning in fiscal year 2003.
  --Manufacture of a certifiable pit, and the capability to certify a 
        pit by 2009 with the goal of achieving an earlier date of 2007.
  --Maintenance of ability to conduct underground testing.
  --Complete National Ignition Facility internal infrastructure 
        required for ``first light'', eight beam, stockpile stewardship 
        experiments in fiscal year 2004.
    I would like to note that, for the first time in a number of years, 
weapons systems cost data is included in the fiscal year 2003 budget 
request as requested in the fiscal year 2002 Energy and Water 
Development Appropriations Act Conference Report, 107-258. The weapons 
systems cost data for fiscal year 2003 are provided in the Directed 
Stockpile Work section of the budget. In addition, we have resumed 
reporting for nuclear weapons acquisition costs for weapons systems in 
Phase 6.3 and beyond (W87, W76, and W80 Life Extension Programs) in a 
separate, classified document.
                      nonproliferation activities
    At $1.114 billion, the fiscal year 2003 budget request for 
nonproliferation related activities is the highest at which these 
programs have ever been funded.
    When Secretary Abraham came into office he began working closely 
with the White House to review our cooperative assistance programs with 
Russia. It was important that nonproliferation programs were responsive 
to the new strategic environment being shaped by Presidents Bush and 
Putin. At the Crawford summit, the two Presidents called for improved 
cooperation with respect to the protection and accounting of nuclear 
materials, and the prevention of illicit nuclear trafficking.
    Shortly after the Bush/Putin summit, the Secretary met with Russian 
Minister of Atomic Energy Rumyanstev to accelerate and expand 
cooperative measures on materials security and accountability. The 
Secretary's meeting with the Russian minister was a major success. 
Agreement was reached on the need for greater cooperation, improved 
steps for protection of dangerous materials, enhanced safeguards of 
fissile materials, and ways to boost safety and security in the 
peaceful use of atomic energy. The Administration is fully committed to 
the success of this deepening cooperation between these former foes.
    This commitment is reflected in the diversity of our programs to 
address non-proliferation concerns in Russia and indeed, throughout the 
world. NNSA uniquely integrates technical and policy expertise to guide 
and implement the full range of U.S. nonproliferation priorities and 
initiatives. Whether ensuring that former Russian weapons experts are 
able to put their skills to use on peaceful and commercial initiatives, 
reducing the footprint of Russia's ``closed'' nuclear cities, or 
leading on-the-ground programs to secure at-risk nuclear materials in 
Russia, North Korea, or elsewhere, NNSA is at the forefront of U.S. 
efforts to halt the proliferation of weapons of mass destruction and 
advance U.S. nuclear security interests. As a scientific organization 
and working closely with our national laboratories, NNSA brings to the 
table unique assets that have allowed us unprecedented access to 
foreign scientific communities. In Russia and other former Soviet 
states, for example, the great strides that have been made to secure 
nuclear materials and WMD expertise or improve reactor safety are made 
possible by the access NNSA has to its counterpart organizations in 
these countries.
    The Administration's strategic review of NNSA's nonproliferation 
programs with Russia confirmed the importance of these programs and 
resulted in a significant policy change which is reflected in the 
fiscal year 2003 budget request. In January 2002, the Administration 
announced plans to proceed with a workable, technologically possible, 
and affordable approach to disposal of surplus U.S. plutonium.
    The United States plans to dispose of 34 metric tons of surplus 
weapons grade plutonium by turning the material into mixed oxide fuel 
(MOX) for use in commercial nuclear reactors. This decision follows a 
review by the Administration of alternative technologies to dispose of 
surplus plutonium to meet the nonproliferation goals agreed to by the 
U.S. and Russia while making the program less costly and more 
effective.
    In September 2000, the U.S. and Russia signed the Plutonium 
Management and Disposition Agreement committing each country to dispose 
of 34 metric tons of surplus weapons-grade plutonium each, in rough 
parallel. With the U.S. decision, we will be able to move forward on 
meeting our obligations under this agreement.
    Previously the U.S. government endorsed a dual-track approach to 
dispose of the plutonium by turning some of the material into MOX 
reactor fuel and immobilizing the remaining plutonium for long-term 
storage. Eliminating immobilization from the disposition pathway saves 
nearly $2 billion in life cycle funding, decreases plutonium storage 
costs, and facilitates closure of the former nuclear weapons complex 
sites. Importantly, the MOX fuel technology is proven, having been used 
by European countries in their reactors for more than 20 years.
    The MOX conversion process is expected to cost $3.8 billion over 20 
years, including the construction of new disassembly and fuel 
fabrication facilities at the Savannah River Site in South Carolina. 
Construction of the facilities is set to begin in fiscal year 2004.
    The Department of State and the NNSA will work with their 
counterparts in Russia to achieve the disposition of Russian surplus 
weapons-grade plutonium through the MOX process. Bilateral cooperation 
and inspections will assure progress and compliance with the agreement.
    The fiscal year 2003 budget request for the Fissile Materials 
Disposition program, including both Operating and Maintenance and 
Construction funding, is $384 million.
                    security and combating terrorism
    The NNSA employees and assets responded aggressively and 
immediately in the aftermath of the terrorist attacks on September 11, 
2002. Specifically, the NNSA:
  --Strengthened physical security at our sites to assure the safety 
        and security of nuclear weapons, the weapons complex and its 
        employees, special nuclear material and other high value assets 
        in custody of NNSA.
  --Provided technical assets and staff to aid in the recovery efforts 
        in New York City and at the Pentagon.
  --Worked closely with intelligence and law enforcement by providing 
        NNSA experts in their facilities, on the working groups, on the 
        White House Counter Terrorism Task Force, and in the Office of 
        Homeland Security.
  --Began studies to analyze the potential of high-energy, high-
        velocity attacks at key nuclear material and nuclear material 
        storage locations.
  --Established NNSA's Combating Terrorism Task Force to coordinate a 
        systematic review of twelve key areas of NNSA security and 
        operational responsibilities to recommend immediate 
        improvements.
  --Established a working group, drawing from all the work at NNSA 
        facilities, to define what capabilities we can bring to bear on 
        the problems at hand, and not just in the nuclear arena. NNSA 
        has capabilities in many technical areas ranging from chemical/
        biological weapons to sensors, to aircraft and airport 
        security. In the area of sensors, we have the best capability 
        in the world and are working to promote greater integration 
        across our research and development programs.
  --Responded to the changed threat by joining with the DOD in an 
        immediate review of the ``design basis threat.''
    The NNSA laboratories are being used to improve homeland security 
in ways that are not perhaps fully recognized by the public. The 
laboratories develop advanced technologies that detect chemical, 
biological and nuclear agents. These technologies help protect us 
today. Chemical and biological technologies and agents developed by the 
NNSA laboratories were used to help cleanup the Congressional office 
buildings of anthrax.
    In the aftermath of the September 11th attack, the NNSA efforts 
required substantial additional funding in order to achieve a safer 
security posture. This needs to be considered when making comparisons 
between the fiscal year 2003 request and the total fiscal year 2002 
available funds. The fiscal year 2002 emergency supplemental 
appropriation for terrorism related activities provided $357 million to 
the NNSA. Weapons Activities Safeguards and Security program received 
$106 million to hire and train additional protective force personnel, 
initiate physical security upgrades, and to address cyber-security 
infrastructure upgrades. The Secure Transportation Asset program 
received supplemental funding of $25 million to enhance security 
against the emerging threat.
    The Defense Nuclear Proliferation program account received $226 
million in supplemental funding to accelerate priority efforts in 
Nonproliferation Research and Development, International Nuclear 
Materials Protection and Cooperation, International Nuclear Safety and 
Cooperation, and additional Federal staffing.
    The fiscal year 2003 budget request continues to emphasize NNSA's 
security and nonproliferation programs. The Weapons Activities 
Safeguards and Security program request is $510 million. This allows 
for continued enhancements to protective forces and security systems. 
However, NNSA may need to revisit this funding level to accommodate 
emerging issues. We need to look at a new security architecture and a 
new way of doing business that does not assume ever increasing 
resources for security, or prevent the conduct of science and 
production at our facilities. The National Center for Combating 
Terrorism at the Nevada Test Site is separately requested in fiscal 
year 2003 at $10 million.
             facilities and infrastructure recapitalization
    As I have testified and discussed with many of you over the past 
year, improving the condition of the nuclear weapons complex's 
facilities and infrastructure remains a priority effort. Your support 
for these efforts is both necessary and timely. The restoration, 
revitalization, and rebuilding of the physical infrastructure is key to 
the maintenance of mission-capable facilities which contribute to 
credible nuclear deterrence. Recently, the NPR validated the findings 
of the NNSA regarding the condition of the complex and our path 
forward.
    Currently, Defense Programs acts in a landlord capacity and manages 
the complex day-to-day through its Readiness in the Technical Base and 
Facilities activities. From our studies, we have determined that the 
complex deteriorates by about $200 million annually. To arrest this 
deterioration and eventually begin to improve the condition of the 
weapons complex, the NNSA established the Facility and Infrastructure 
Recapitalization Program. The fiscal year 2003 budget request places a 
high priority on this activity, with a request of $243 million a 23 
percent increase over the fiscal year 2002 level. Future plans call for 
ramping up this expenditure from the current annual range of $200 
million to $500 million and sustaining the funding for about a decade. 
We continue to refine this outlook but that is about the size of the 
requirement.
    I have added a corporate facilities management program that 
complements the infrastructure spending and addresses one of your major 
concerns regarding responsible fiscal accountability. We have 
instituted Ten-Year Comprehensive Site Planning, established industry 
standard performance measures, and accurate reporting measures that now 
provide for measuring progress.
    The recapitalization program will focus on working off maintenance 
backlogs, prioritized to reduce or eliminate the risk of unplanned 
operational downtime due to equipment failure, extend the expected 
effective life span of equipment, optimize facility efficiencies, and 
repair, renew and refurbish existing structures. Also, the program 
supports dismantlement and removal of deactivated facilities and 
infrastructure that are excess to current and future mission 
requirements, and infrastructure planning activities to prepare and 
develop necessary plans for the execution of outyear Facilities and 
Infrastructure Recapitalization Program projects.
    The condition of the nuclear weapons complex is poised for 
improvement across its eight sites. A year ago, I unfolded this story 
of condition and need. The response has been substantial. The NNSA will 
continue this initiative until the complex has restored lost 
capabilities, modernized other capabilities, and is sound, safe, and 
secure.
                             naval reactors
    Our Naval Reactors program, which supports the nuclear powered 
submarines and carriers now on station around the world, remains a 
critical part of the national security mission. This program is 
requesting the smallest increase in the NNSA's fiscal year 2003 budget. 
We are requesting $707 million, an increase of about 3 percent. The 
increase will help to maintain the constant progress and consistent 
contribution to the nation's nuclear deterrent force that we have come 
to rely upon from the Naval Reactors program. The small increase above 
inflation is primarily for work to bring the dry spent fuel storage 
facility in Idaho online while continuing Naval Reactors activities to 
ensure the safety and reliability of the 102 Naval reactor plants, 
upgrade and improve existing reactor plants, and develop new reactor 
plants.
                      office of the administrator
    Finally, the budget request for my office in NNSA, the Office of 
the Administrator, is 6 percent higher than the fiscal year 2002 
appropriation--a $21.2 million increase. This account provides 
corporate direction and oversight of NNSA operations consistent with 
the principles of protecting the environment and safeguarding the 
safety and health of the public and the workforce of the NNSA. As you 
will remember, the fiscal year 2002 Energy and Water Development 
Appropriations Act consolidated the program direction funds from 
weapons activities and defense nuclear nonproliferation within the 
Office of the Administrator appropriation. The Naval Reactors program 
direction and the Secure Transportation Asset program direction retain 
separately funded program direction accounts. The increase in the 
Program Direction budget supports annual cost-of-living increases in 
salaries and benefits while support services and other related expenses 
remain at their fiscal year 2002 program levels.
                       nnsa organization standup
    At the beginning of this testimony, I noted that the NNSA 
organizational objectives are to improve effectiveness and efficiency. 
We approached the NNSA organization standup by implementing a two-phase 
plan. The first phase, essentially complete, focused on creating an 
integrated Headquarters organization, and defining the structural 
relationship between the Federal elements at Headquarters and the field 
locations. The second phase focuses on realigning our field structure 
and improving efficiencies through eliminating overlaps in 
responsibilities within the Federal structure and reducing unnecessary 
administrative burdens placed on those performing the mission.
    Last month, I submitted NNSA's ``Report to Congress on the 
Organization and Operations of the NNSA'' describing our 
accomplishments to date, our plan for assigning roles and 
responsibilities to and between Headquarters and field organizational 
units, and our strategy for operating an integrated national security 
enterprise. Much was accomplished in the past year. The NNSA:
  --Developed the first NNSA Strategic Plan as a framework for all 
        programs and the new organization.
  --Implemented a new organizational structure that consolidates 
        Headquarters support functions allowing mission programs to 
        focus more intensively on achieving results.
  --Installed the NNSA leadership team responsible for mission 
        performance and driving organizational improvement.
  --Began integrating NNSA decision making through a new Management 
        Council. Adopted the Planning, Programming, Budgeting, and 
        Evaluation (PPBE) system as NNSA's core business model in order 
        to restore financial credibility and discipline to our 
        financial processes.
  --Further defined NNSA's relationship as a ``separately organized 
        agency'' within the Department of Energy through streamlining 
        external oversight of environment, safety, health, and 
        security, and established an independent federal human resource 
        capability.
  --Resolved the key organizational issues left unanswered by the May 
        2001 report.
  --Refined NNSA's strategy for achieving an effective and efficient 
        organization.
    The recently released report summarizes our first-ever NNSA 
Strategic Plan, provides a detailed plan for assigning roles and 
responsibilities between Headquarters and field elements, and discusses 
our objectives in fiscal year 2002 and beyond. We plan to eliminate a 
layer of management and oversight over the nuclear weapons complex by 
removing the Operations Offices from the NNSA chain of command and 
converting these offices to service centers providing support services 
such as procurement and human resources. Each of the eight NNSA 
contractors will report to eight site offices which will in turn report 
to the Administrator. This locates NNSA support, decision making and 
oversight close to the contractor, consolidates service functions, and 
allows staff reductions downstream.
    Contract and project management will rest with each NNSA site 
office. Integration of weapons production activities will be performed 
in Albuquerque, New Mexico. Headquarters staff will continue to be 
responsible for program planning, budgeting, policy development, and 
management of weapons research and development and nonproliferation 
activities.
    NNSA will launch a systematic re-engineering campaign to reduce the 
number of separate offices and layers of Federal management, reduce the 
overall number of Federal employees, and correct skills mismatches. 
Federal staff not performing core functions will be redeployed and 
retrained as necessary. We intend to use incentives to encourage 
higher-than-average attrition, career development, and retention of 
highly skilled employees to right size and reinvigorate our staff.
    We will need your support in funding the Office of the 
Administrator Program Direction request of $348 million to implement 
the re-engineering campaign. Successful re-engineering cannot be 
accomplished without adequate resources to retain highly skilled 
employees, retrain employees with skills mismatches, recruit the right 
technical skills, and to cover the significant costs associated with 
separation incentives.
    NNSA has instituted an Administrative Workload Reduction Initiative 
using comprehensive input from the laboratories and plants, with task 
forces identifying specific improvement and reducing administrative 
burdens. As a result, NNSA contractors will be given clearer and more 
consistent expectations. They will also continue to comply with all 
environment, safety and health and security policies.
    When these changes are fully implemented, we will realize the goals 
set by Congress in establishing the NNSA. By clearly defining roles and 
responsibilities, we will increase accountability and reduce 
duplication. By reducing administrative burdens on the NNSA 
contractors, we will operate more efficiently and hold the contractors 
accountable for delivering on our expectations.
                               conclusion
    This concludes my written testimony on the policy framework and 
issues that shaped the formulation of the unified NNSA budget request 
for fiscal year 2003. The specific program activities are discussed in 
great detail in that request. Now, I will be pleased to answer your 
questions.

    Senator Reid. Senator Domenici, would you like to give your 
statement now?

                  STATEMENT OF ADMIRAL FRANK L. BOWMAN

    Senator Domenici. Let's proceed. I will give it in a little 
while.
    Admiral Bowman. Mr. Chairman, thank you for the opportunity 
to testify today. And let me also thank you and the committee 
for the faith that you have placed in this program and for 
protecting the core values that have been the hallmark of the 
Naval Reactors Program's success for more than 50 years.
    Through your efforts, our nuclear fleet remains deployed 
around the world, fully engaged in the war on terrorism. Our 
ongoing campaign against terrorism underlines the importance, 
as General Gordon was saying, of nuclear-powered ships. 
Aircraft from the nuclear-powered aircraft carriers U.S.S. 
Enterprise and U.S.S. Carl Vinson, and Tomahawk missiles 
launched from submarines and surface ships, carried out the 
initial attacks on targets in Afghanistan without any of the 
restrictions faced by most of our land-based forces. Our 
nuclear fleet again demonstrated the capability to operate 
freely, wherever needed, to protect our Nation's interests.
    Many of the impressive capabilities these ships and 
submarines possess were developed with funding supported by and 
provided by this subcommittee. Although new development is 
important, my number one priority is ensuring that the officers 
and sailors out there defending our Nation's interests are 
operating safe and effective nuclear propulsion plants. In 
fact, this is where most of my funding supports.
    The average age of these ships today is 16.5 years, but 
this average will exceed 22 years by the end of the decade 
because so few ships are being added. As these ships age, they 
place a greater and greater demand on Naval Reactors' DOE 
budgets.
    Also with the funding provided by this subcommittee, we are 
designing better, more cost-effective nuclear propulsion plants 
for the future. The Navy's new Virginia-class attack submarine, 
when delivered, will provide needed capability for the 21st 
century at an affordable price.
    The nuclear propulsion plant design of the new CVNX 
aircraft carrier is well underway. The CVNX reactor plant will 
provide 25 percent more energy than the Nimitz-class ships and 
substantially more electric-generating capacity than the 
reactors and electric plant used in those Nimitz-class ships 
today.
    To meet the increasing demands on our submarine fleet, I 
have started conceptual work on a Transformational Technology 
Core to deliver a significant energy increase to future 
Virginia-class ships with minimum impact to the overall ship 
design.
    To accomplish all this work, the fiscal year 2003 budget 
request, as General Gordon said, is $708 million, an increase 
of $5 million (after inflation) from fiscal year 2002 to 2003.
    To put the budget request in perspective, it is less than 4 
percent of the total DOE budget. From the early 1990s to 2000, 
Naval Reactors' budget actually declined 32 percent in real 
terms and has remained fairly steady for the last 3 years.
    Naval Reactors' fiscal year 2003 budget request is adequate 
to meet Program requirements for now. To live within our means, 
over the past several years, Naval Reactors has eliminated 
infrastructure, consolidated functions and facilities, revised 
work practices to become more efficient, and downsized the 
nuclear industrial base.
    Simply put, we have cut out the fat, but we are now cutting 
into the muscle of the organization.
    I am reviewing future resource requirements to determine 
what will be necessary to deliver technology that the Fleet 
will need in the decades ahead.
    Our husbanding of the taxpayers' dollars provided by this 
subcommittee has been positively recognized in two very recent 
reports.
    The GAO just reported: ``The Office of Naval Reactors has 
long been recognized as having a focused mission, strong 
leadership, clear lines of authority, long-serving employees, 
and a strong set of internal controls, as well as a culture 
that enhances accountability and good controls over its costs 
and contractor performance.''
    In forwarding the Naval Reactors fiscal year 2003 budget 
request to you, OMB noted: ``Outputs are identifiable and make 
key contributions to national security; delivery schedules are 
consistently met; contracts have positive and negative 
incentives and include performance requirements.''
    Let me briefly discuss the most important issue I see with 
our submarine fleet today. It is simply that we do not have 
enough of them.
    Today we have only 54 operational SSNs, or fast-attack 
submarines, not enough to meet all of our unified commanders' 
and national intelligence community's highest operational and 
collection requirements.
    We have done a great deal to stretch existing assets within 
existing budgets and overall defense priorities. We are 
refueling the first generation of the Los Angeles-class 
submarines and extending those submarines from 30 to 33 years 
of life. We are also forward-basing three submarines in Guam to 
maximize their effectiveness by putting them closer to the 
action. The only long-term solution, however, to meeting force 
level requirements is to build more submarines. This must be 
part of future budget deliberations within the Department of 
Defense.
    The practice of buying submarines one at a time will not 
achieve the submarine numbers we need for the future, nor is it 
a cost-effective way to buy anything, especially submarines. 
Multi-year procurements of more than one ship per year would 
provide significant savings compared to one per year (the way 
we are doing it now). Innovative contracting approaches should 
be encouraged in this period of tight resources for ship 
construction.
    As my very good friend Admiral Bob Natter, our Atlantic 
Fleet Commander, says: ``You know, we can fight them over here 
or we can fight them over there, and I prefer to fight them 
over there.''
    Well, I do, too. Everybody knows and agrees that submarines 
will be an absolutely necessary part of fighting them over 
there.
    Deputy Secretary of Defense Paul Wolfowitz recently said: 
``We must exploit our military strengths as the war on 
terrorism continues. These strengths are intelligence, 
precision strike, and the ability to operate underwater.''
    Well, that sounds just like submarines to me. And I think 
we need to get going on this build program.
    The unique capabilities inherent in nuclear power have 
played a vital role over the past 50 years in our Nation's 
defense. This legacy is as strong and vibrant today as it has 
ever been. Because of your strong support, this program has 
been able to establish and maintain an unparalleled record of 
excellence in meeting the threats to our Nation with speed and 
resolve.
    I thank you for that support and ask only that your support 
continues on into the future.
    Naval Reactors' record is strong. Our work, I believe, is 
important. And the funding needs are modest.

                           PREPARED STATEMENT

    Mr. Chairman, with your permission, I will submit for the 
record a written statement that contains more detail on the 
Naval Reactors' DOE budget and also the program's annual 
environmental, occupational radiation exposure, and 
occupational safety and health reports.
    [The statement follows:]

             Prepared Statement of Admiral Frank L. Bowman

    Thank you for inviting me to testify on Naval Reactors' fiscal year 
2003 Department of Energy budget request.
    Let me also thank you for the faith you continue to place in my 
Program and for protecting the core values that have been the hallmark 
of the Program's success for more than 50 years. Through your diligent 
efforts and support, our nuclear fleet remains deployed around the 
world, fully engaged in the war on terrorism.
    We all recognize that the threats our country faces today are as 
great as anytime in the past. We also know these threats are not 
limited to hostile nations with fixed borders but can come from 
organizations with no fixed borders, operating under a veil of secrecy 
and outside the international community.
    Our ongoing campaign against terrorism underlines the importance of 
nuclear-powered ships in defending our national interests and in 
responding to aggression against the United States. As our Nation was 
being attacked on September 11, USS ENTERPRISE was headed home, by way 
of a planned port visit. Upon seeing the attack on our country on CNN 
at sea, the captain ordered the rudder hard over and USS ENTERPRISE 
reversed course and prepared for action as the first aircraft carrier 
in position to respond to the attack. Also, a nuclear-powered submarine 
was within striking distance to attack targets in Afghanistan on 
September 11.
    When the President did order our military forces into action, 
aircraft from the nuclear-powered aircraft carriers, ENTERPRISE and 
CARL VINSON, along with Tomahawk missiles launched from submarines and 
surface ships, carried out the initial attacks on targets in 
Afghanistan without any of the restrictions imposed on most land-based 
aircraft. Our nuclear fleet again demonstrated its capability to 
operate freely over much of the globe within striking range of the 
majority of targets.
    It is more than a commercial--our aircraft carriers are 4\1/2\ 
acres of sovereign U.S. territory from which we can conduct sustained 
combat operations quickly and without having to negotiate staging 
rights on foreign soil. Nuclear power enhances these warships' 
capability and flexibility to sprint where needed and arrive ready for 
around the clock power projection and combat operations. Sustained 
high-speed capability (without dependence on a slow logistics train) 
enables rapid response to changing world circumstances, allowing 
operational commanders to surge these ships from the United States to 
trouble spots or to shift them from one crisis area to another. Nuclear 
propulsion helps the Navy stretch available assets to meet today's 
worldwide commitments.
    Our 54 operational nuclear attack submarines (SSNs) in the Navy's 
inventory possess inherent characteristics such as stealth, endurance, 
mobility, firepower, and multimission flexibility. These 
characteristics allow submarines unfettered access to contested 
battlespace 24 hours a day, 7 days a week, for as long as required. 
Once there, submarines can covertly monitor adversaries without risk of 
political or military escalation--a particularly valuable capability 
since adversaries understand and can sometimes avoid reconnaissance. 
Should tensions escalate, submarines can also execute Tomahawk strikes 
from undisclosed locations without warning, often from inside an 
adversary's defensive umbrella.
    The Nation's 18 strategic ballistic missile submarines (SSBNs) 
continue to form the bedrock of the country's strategic deterrence. 
These submarines carry the majority of our nuclear triad's warheads and 
are the most survivable units in this force, at the least cost.
    Many of the impressive capabilities these ships possess were 
developed with funding that was supported by this subcommittee.
    While new development is important, the number-one priority is 
ensuring the officers and Sailors that are out there defending our 
Nation's interests are operating safe, effective nuclear propulsion 
plants. This is where most of Naval Reactors' funding goes. Today, the 
Naval Reactors Program supports 102 reactors in 54 operational attack 
submarines, 18 ballistic missile submarines, 9 nuclear-powered aircraft 
carriers, 4 training and prototype platforms, a deep submergence 
vehicle, and 1 attack submarine undergoing inactivation.
    The average age of these ships today is 16 years, but this average 
will exceed 22 years by the end of the decade because so few new ships 
are being added to the Fleet. As these ships age, they place a greater 
and greater demand on Naval Reactors' DOE budgets.
    Also, with the funding provided by this subcommittee, we are 
designing better, more cost-effective nuclear propulsion plants for the 
future. When the Navy's new VIRGINIA-class attack submarine is 
delivered, it will provide needed capability for the 21st century at an 
affordable price. The reactor plant design uses advanced component and 
systems technology--including the first core designed from the start to 
operate throughout the life of the ship. The VIRGINIA-class also has a 
simplified plant arrangement with fewer components compared to previous 
designs, which reduces construction costs and will reduce future 
maintenance costs.
    The nuclear propulsion plant design of the new CVNX-class aircraft 
carrier is well underway. The CVNX reactor plant will provide 25 
percent more energy than NIMITZ-class ships and substantially more 
electric generating capacity than the reactors and electric plant used 
in NIMITZ-class ships. The extra energy will support higher operational 
tempos and future electrical load growth in the CVNX-class or longer 
life. We are designing and developing the CVNX nuclear propulsion plant 
without an increase in our DOE budget.
    To meet the increasing demands on our submarine fleet, Naval 
Reactors is working on a Transformational Technology Core (TTC) to 
deliver a significant energy increase to future VIRGINIA-class ships 
with minimum impact to the overall ship design. New transformational 
capabilities will soon be coming to the nuclear-powered submarine fleet 
through the conversion of four Trident submarines into SSGNs. With 
these ships, the Navy will be able to give theater CINCs an 
extraordinary strike/Special Operating Forces capability with a 
flexible, survivable platform that simultaneously relieves the 
operational strain on our naval forces. Surface ships and attack 
submarines now carrying Tomahawks can be freed up for other missions--a 
force multiplier. To this end, we are on course for a UUV and Tomahawk 
demonstration in December 2002 on an OHIO-class submarine.
                          nuclear fleet issue
    Let me briefly discuss the most important issue I see with our 
submarine fleet today--put simply, we do not have enough of them:
  --Today, we have only 54 operational SSNs--not enough to meet all of 
        the Unified CINCs' and the national intelligence community's 
        highest operational and collection requirements as identified 
        in the 1999 Joint Staff SSN report on force level.
  --Fleet operational data and Joint CINC demands clearly show the 
        mismatch between current force structure and requirements. With 
        force structure decreasing over the past several years, 
        submarine operational commanders have had to reduce the number 
        of deployed ships. And in spite of the fact that fewer SSNs 
        have been available to deploy, the demand for submarines 
        continues to increase, especially since September 11.
  --The Navy is doing what it can to stretch existing assets to meet 
        requirements within today's budget and overall priorities. For 
        example:
    --We are refueling the first generation of the LOS ANGELES-class 
            submarines and extending these submarines from 30 to 33 
            years. However, pushing the hull life comes at a cost. Life 
            extension exacerbates the ``aging Fleet'' problem. As the 
            Fleet ages, more resources are required for support, and we 
            have our young submariners out there with outdated 
            technology.
    --Additionally, to improve the operational effectiveness of the 
            submarine fleet, we have taken steps to forward-base three 
            submarines in Guam to maximize their effectiveness by 
            putting them closer to the action.
    --To meet just the highest priority requirements being placed on 
            the submarine fleet, we should refuel all remaining LOS 
            ANGELES-class submarines. Two are currently scheduled for 
            inactivation. While this is the right near-term decision to 
            stem the bleeding for submarine force restructure, 
            refueling LOS ANGELES-class submarines does not solve the 
            longer-term problem with submarine force structure. Next 
            decade, we will decommission three or four LOS ANGELES-
            class submarines per year as the boats built in the 1980s 
            reach end of service life.
    The only long-term solution to meeting force level requirements is 
to build more submarines. As we consider future budgets, we must 
include increasing the VIRGINIA-class submarine build rate to meet the 
Nation's long-term force level requirement for attack submarines. The 
force level issue is ultimately a resource question. The practice of 
buying submarines one at a time will not achieve the submarine numbers 
we need for the future and is not a cost-effective way to buy anything, 
including submarines. Multi-year procurements of more than one ship per 
year would provide significant savings compared to one per year. 
Coupled with leverage from buying material in Economic Ordering 
Quantities, real savings can be achieved. Innovative contracting 
approaches should be encouraged in this period of tight resources for 
ship construction.
    As my good friend, Admiral Bob Natter, our Atlantic Fleet 
Commander, says, ``We can fight em here or we can fight em over there. 
I prefer to fight them over there.'' Well, me too. Everyone knows and 
agrees submarines will be an absolutely necessary part of fighting them 
over there. Deputy Secretary of Defense Paul Wolfowitz recently said we 
must exploit our military strengths as the war on terrorism continues. 
These strengths, he said, are intelligence, precision strike, and the 
ability to operate underwater. Well, that sounds just like submarines 
to me. We need to get going.
          fiscal year 2003 department of energy budget request
    Naval Reactors' fiscal year 2003 DOE budget request is $708M, an 
increase of only $5M after inflation from fiscal year 2002 to fiscal 
year 2003. To put my budget request in perspective, it is less than 4 
percent of the DOE budget. From the early 1990s to 2000, Naval 
Reactors' budget has declined 32 percent in real terms, and has 
remained fairly steady for the last 3 years.
    Naval Reactors supports the 81 nuclear-powered warships that make 
up over 40 percent of the Navy's major combatants. This responsibility 
includes ensuring safe and reliable operation of reactor plants in 
these ships, enhancing the reactor plants' performance, as well as 
developing improved reactor plants to support the Navy's needs for the 
future.
    Sustaining today's 102 operating reactors requires continual 
analysis, testing, and monitoring of plant and core performance. 
Nuclear propulsion is a demanding technology--the harsh environment 
within a reactor plant subjects equipment and materials to the harmful 
effects of irradiation, corrosion, high temperature, and high pressure 
over a lifetime measured in decades. In addition, naval reactor plants 
must be rugged enough to accommodate ships' pitching and rolling; have 
the resilience to respond to rapidly changing demands for power; be 
robust enough to withstand the rigors of battle and shock; and be safe 
and easily maintainable by the Sailors who must live next to them.
    Naval Reactors' DOE laboratories have made significant advancements 
in components, materials, core lives, and predictive capabilities. 
These advancements allowed the Navy to extend the service life and 
intervals between major maintenance periods for nuclear-powered 
warships and to reduce ship off-line time for maintenance. Increasing 
ship availability also increases the Navy's warfighting capability, 
while reducing maintenance costs. Added ship availability is 
particularly important in the face of Fleet downsizing, because the 
operational demands on each remaining ship continue to increase. In the 
same vein, some development effort is devoted to ensuring Naval 
Reactors can meet the Navy's need to extend warship lifetime. Longer 
ship lifetimes are achievable because we are able to extend reactor 
plant lifetime. But longer lifetimes require more resources to support 
an older fleet.
    We are able to extend the lifetime of existing reactor plants 
because of the robust designs that resulted from solid engineering and 
design work done upfront. After significant additional engineering 
work, we determined that those reactor plants will be able to stay in 
service longer than we had originally intended. The engineering work to 
support those ships in their extended lives will continue during that 
period of life extension. For new reactor core and reactor plant 
designs, we are using the experience of the past 50+ years to 
incorporate improvements into both design and construction. It is 
imperative that we continue to deliver robust designs. It is equally 
important that we do the necessary engineering work now to ensure that 
those reactor plants are able to meet the needs of national defense 
now, and for the next several decades.
    New plant development work at the Program's DOE laboratories is 
focused on completing the design of the next-generation submarine 
reactor for the Navy's new VIRGINIA-class attack submarines and on 
continuing the design for a new reactor plant for the Navy's new CVNX-
class aircraft carriers.
    The design of the reactor plant for the VIRGINIA-class submarine is 
nearly complete. Today, 100 percent of reactor plant components have 
been delivered--all on schedule to support ship construction, and 
within budget. The pre-reactor-fill testing and initial reactor fill 
for the lead ship have been completed. Reactor plant construction is 
over 98 percent complete, and overall lead ship construction is over 70 
percent complete and on schedule. VIRGINIA is expected to go to sea in 
fiscal year 2004 and will provide needed capability for the Navy at an 
affordable price.
    CVNX is the first new carrier designed since the 1960's NIMITZ-
class. The CVNX reactor plant will build on three generations of 
nuclear propulsion technology developed for submarines since NIMITZ. 
This plant will incorporate needed advancements in warfighting 
capabilities and significantly reduce lifecycle costs.
    Reactor plant design work is on schedule to support the long design 
and manufacturing lead-times of reactor plant components needed for the 
CVNX ship construction schedule. Current design efforts include general 
arrangement design, system description and diagram development, and 
component design (such as final sizing and system interface 
evaluations). Long-lead reactor plant forging procurements began in 
fiscal year 2001, and the first reactor core procurements will begin in 
fiscal year 2003. Necessary system descriptions and general 
arrangements required for later design activities have been 
established.
    Major inactivation work on shutdown prototype reactors is nearly 
finished. The last of the prototype reactor plants at the Naval 
Reactors Facility in Idaho was defueled in fiscal year 1999. 
Inactivation and cleanup work at the Windsor site in Connecticut is 
complete, and regulatory approval for unrestricted release has been 
requested. The two shutdown prototype reactors at the Kesselring site 
in New York have been inactivated and defueled, and major dismantlement 
work will be completed in fiscal year 2002.
                      program budget requirements
    Naval Reactors' fiscal year 2003 DOE budget request of $708M is 
adequate to meet Program requirements for now. To live within our means 
over the past several years, Naval Reactors has eliminated 
infrastructure, consolidated functions and facilities, revised work 
practices to become more efficient, and downsized the nuclear 
industrial base. To support higher priority efforts--fleet support, 
CVNX- and VIRGINIA-class reactor plant designs, spent fuel processing, 
and prototype inactivation work--I have deferred important work, such 
as advanced reactor technology work and technology development for a 
submarine with electric drive, dismantlement and clean up of shutdown 
facilities and laboratory facility upgrades. It is not healthy to defer 
advanced concept development for a long period. This is the seed corn 
to meet future requirements and to ensure that we maintain our 
preeminent position in naval power. In addition, my laboratory 
facilities are approaching or exceeding the 50-year point and need 
upgrading and refurbishment. Also, we are beginning development of a 
new, high-energy core to meet Fleet demands in the future. I am 
reviewing future resource requirements to determine what will be 
necessary to deliver technology the Fleet will need in decades ahead.
   naval reactors fiscal year 2003 department of energy budget detail
    Naval Reactors' technical budget request is categorized into four 
areas of technology: Reactor Technology and Analysis, Plant Technology, 
Materials Development and Verification, and Evaluation and Servicing. 
This approach supports the integrated and generic nature of our DOE 
research and development work. The results of Naval Reactors DOE-funded 
research, development, and design work in the following technology 
areas will be incorporated into future ships, and retrofitted into 
existing ships.
    The $228.6M requested for Reactor Technology and Analysis will fund 
continued work on the next generation reactor for the VIRGINIA-class 
submarine and development work on the new reactor for CVNX-class 
aircraft carriers, and will ensure the safe and reliable operation of 
existing reactors. The reduction in operating plant maintenance periods 
places greater requirements on thermal-hydraulics, structural 
mechanics, fluid mechanics, and vibration analysis work to accurately 
predict reactor performance and to identify and avoid problems. Also, 
the continued push for longer life cores means we will continue to 
operate reactors beyond our operational experience base for many years 
to come. Developing improved analysis tools and a better understanding 
of nuclear data will allow us to predict performance more accurately 
throughout extended core life. Other efforts in this area include 
improving and streamlining core manufacturing processes to reduce cost 
and hazardous waste, performing reactor safety analyses, developing 
components and systems to support the Navy's acoustic requirements, and 
developing improved shield designs to reduce costs while preserving our 
record of excellence in radiological and environmental control. In 
addition, Naval Reactors is beginning concept studies on a new high-
energy core, the transformational technology core (TTC), to support 
increased Fleet operation requirements.
    The $112.1M requested for Plant Technology provides funding to 
develop and analyze those systems that transfer, convert, control, and 
measure reactor power to maximize plant performance. The request 
reflects the goal of enhancing steam generator performance, which will 
benefit CVNX steam generators--the largest components developed to date 
by Naval Reactors. Development of technologies in the areas of 
chemistry, energy conversion, instrumentation and control, plant 
arrangement, and component development will continue to improve 
performance and support operational requirements. Naval Reactors is 
also developing components to address known limitations or to improve 
reliability of instrumentation and power distribution equipment to 
replace older, technologically obsolete equipment that is increasingly 
difficult to support.
    The $136.2M requested for Materials Development and Verification 
will fund essential material analysis and testing as ships are kept in 
service longer than originally intended as well as part of Naval 
Reactors' share of the Advanced Test Reactor (ATR). Reactor core and 
reactor plant materials will have to perform safely and reliably for a 
longer time. Work on the core and core structural materials includes 
testing and analysis of fuel, poison, and cladding materials to verify 
acceptable performance, as well as developing materials with improved 
corrosion resistance. Testing and development of reactor plant 
materials also ensures reliable performance and leads to improvements 
such as reduced cracking and stress.
    The $144.4M request for Evaluation and Servicing sustains the 
operation, maintenance, and servicing of land-based test reactor plants 
and part of Naval Reactors' share of the ATR, a specialized materials 
testing facility operated by the DOE Office of Nuclear Energy, Science, 
and Technology. Materials, components, cores, and systems in these 
plants provide important technical data and experience under actual 
operating conditions, thus allowing potential problems to be identified 
and addressed before they occur in the operating Fleet. With proper 
maintenance, upgrades and servicing, the two operating test reactor 
plants and the ATR will continue to meet testing needs for quite some 
time.
    Evaluation and Servicing funds also support initiation of a dry 
spent fuel storage process line that will allow for placement into dry 
storage at Naval Reactors Facility (NRF) of naval spent nuclear fuel 
currently stored at the Idaho Nuclear Technology and Engineering Center 
(INTEC). Additionally, these funds support ongoing cleanup of 
facilities at all Naval Reactors sites to reduce hazards to personnel, 
and reduce potential liabilities due to aging facilities, changing 
conditions, or accidental releases.
         program infrastructure and administrative requirements
    In addition to the budget request for the important technical work 
discussed above, infrastructure and administrative funding is also 
required for continued operation of the Program. Specifically, the 
fiscal year 2003 budget request includes:
  --Facility Operations.--$50.0M in funding is to maintain and 
        modernize the Program's facilities, including the Bettis and 
        Knolls laboratories and the Expended Core Facility (ECF).
  --Construction.--$11.3M in funding is to refurbish and replace 
        Program facilities. This includes the continuation of the ECF 
        Dry Cell project in Idaho, which will significantly improve 
        Naval Reactors' ability to process naval spent fuel for dry 
        storage. (As identified and agreed to in a Settlement Agreement 
        signed by the Department of Energy, the Navy, and the State of 
        Idaho, Naval Reactors fuel must be among the early shipments of 
        spent fuel to the first permanent repository or interim storage 
        facility.) The requested funding also enables the continuation 
        of the Major Office Replacement Building project.
  --Program Direction.--$25.4M in funding is to cover Naval Reactors' 
        191 DOE personnel at Headquarters and the Program's field 
        offices, including salaries, benefits, travel, and other 
        expenses. This staff maintains oversight of the Program's 
        extensive day-to-day technical and administrative operations, 
        while continuing to ensure compliance with growing 
        environmental, safety, and other regulatory requirements, all 
        of which, notwithstanding our excellent record, necessitate 
        substantial effort.
          performance measurements, goals, and accomplishments
    My Program has a long history of operating with the highest levels 
of integrity and operational accountability. Our husbanding of taxpayer 
dollars provided by this subcommittee has been positively recognized in 
two very recent reports. In forwarding my fiscal year 2003 budget 
request to you, The Office of Management and Budget (OMB) rated Naval 
Reactors as ``Effective''--the highest adjectival rating on OMB's scale 
and noted: ``Outputs are identifiable and make key contributions to 
national security. Delivery schedules are consistently met. Contracts 
have positive and negative incentives, and include performance 
requirements.''
    Furthermore, in a report dated December 12, 2001, the General 
Accounting Office recognized Naval Reactors' strong performance within 
DOE and NNSA. The report stated: ``The Office of Naval Reactors, which 
is a part of NNSA, has long been recognized as having a focused 
mission, strong leadership, clear lines of authority, long-serving 
employees, and a strong set of internal controls, as well as a culture 
that enhances accountability and good control over its costs and 
contractor performance.'' The Naval Reactors Program has always been 
dedicated to continual improvement. We use semiannual reviews of short- 
and long-range plans to rebaseline work and revisit Program priorities. 
Monthly financial reports from contractors are used to compare actual 
performance against short- and long-range plans. Additionally, Naval 
Reactors headquarters maintains close oversight of its Management and 
Operating contractors through periodic reviews, formal audits, and 
performance appraisals.
    For fiscal year 2001, my Program met or exceeded all three major 
performance targets. We ensured the safety, performance, reliability, 
and service life of operating reactors for uninterrupted support of the 
Fleet. We exceeded 90 percent utilization availability for test reactor 
plants, and by the end of fiscal year 2001, U.S. nuclear-powered ships 
had safely steamed over 122 million miles. Naval Reactors developed new 
technologies, methods, and materials to support reactor plant design, 
which included surpassing the fiscal year 2001 goal of 93 percent 
design completion of the next generation submarine reactor. We 
initiated detailed design on the reactor plant for the next generation 
aircraft carrier, which is on schedule to meet the planned ship 
construction start. Additionally, Naval Reactors maintained its 
outstanding environmental performance--no personnel exceeded Federal 
limits for radiation exposure, and no significant findings resulted 
from environmental inspections by State and Federal regulators.
                               conclusion
    The ongoing support of the Senate Appropriations Committee, 
Subcommittee on Energy and Water Development, is one of the most 
important factors in our success story. The Subcommittee has recognized 
the requirements and demands the Program confronts daily: a growing 
need for power projection and forward presence far from home, which 
strains our dwindling number of nuclear ships; an aging nuclear fleet; 
and the funding required to meet these commitments today and in the 
future.
    The unique capabilities inherent in nuclear power have played a 
vital role over the past 50 years in our Nations' defense. This legacy 
is as strong and vibrant today as it ever has been. Actions in the 
Persian Gulf, peacekeeping actions in Eastern Europe, and, most 
recently, the war against terrorism have demonstrated the value of 
nuclear power. With your continued support, this legacy will continue 
far into the future as the Nation meets each new threat with strength 
and resolve. Naval Reactors' record is strong, the work is important, 
and the funding needs modest.
    I thank you for your support.

    Senator Reid. Dr. Beckner?

                    STATEMENT OF DR. EVERET BECKNER

    Dr. Beckner. Good morning. Thank you, Mr. Chairman, Members 
of the Subcommittee.
    I am pleased to be here today as the first Senate-
confirmed, Deputy Administrator for Defense Programs.
    The support of this committee is very gratifying for the 
thousands of men and women across the country who have 
dedicated their professional lives to making the Stockpile 
Stewardship Program a success.
    As I said in my confirmation hearing, I believe in systems 
analysis, and using the best information available to find the 
right solutions, not by intuition or accommodation, but by 
hardheaded analysis. And that is what we are doing with all the 
elements of the Stockpile Stewardship Program.
    We are investing the resources that the Congress provides 
in the tools, and experimental capabilities that we must have 
to deliver on our commitments to our customer, the Department 
of Defense and the citizens of the United States, to ensure the 
long-term success of the Stockpile Stewardship Program.
    This morning I will talk about several Stewardship Programs 
that are of particular interest to the committee, and ones that 
I focus on regularly.
    First and most important are the Life Extension programs 
for the W87, the W76, the W80, and B61, all coming up in the 
fairly near future. Second, I will spend some time with the W88 
pit manufacturing and certification activities at Los Alamos 
and our planning for the Modern Pit Facility. Third, the Nevada 
Test Site and its continuing role in meeting national security 
requirements. Fourth, the National Ignition Facility under 
construction at Lawrence Livermore National Laboratory. And 
finally, the Commercial Light Water Reactor program and the 
production of new tritium to support the stockpile.
    First, let's talk about getting work done. The men and 
women of the Stockpile Stewardship Program continue to meet 
their formidable day-to-day challenges with ingenuity and 
innovation, both in the way we do science and in the way we 
organize the work we do. Without the critical work of our 
stockpile stewards at the labs, plants, and in the Federal 
structure, we could not perform our mission. Our people remain 
our number one resource, and that must be carefully attended 
now and into the future.
    To that end, the NNSA must, and is working to improve the 
infrastructure across the complex. This committee has heard and 
seen first hand some of the antiquated working conditions we 
ask our people to work in. The funds available this year and 
the $242 million in the President's budget this year for the 
Facilities and Infrastructure (F&I) initiative will continue 
and make additional progress in correcting this problem. We 
believe this will have a direct impact on worker morale and 
productivity.
    On the life-extension program, as Members of this Committee 
are well-aware, the NNSA labs and plants have a validated 
requirement from the Nuclear Weapon Council to extend the 
service life of the W87, the W76, the W80, and the B61. This 
requirement was, if you recall, revalidated by the recently 
completed Nuclear Posture Review, which lays out the direction 
for this Nation's nuclear forces for the next five to 10 years.
    Life-extension work involves all elements of the weapons 
complex. For the last several years, we have been extending the 
life of the W87 warhead for the Air Force. This work is ongoing 
at Y-12, Lawrence Livermore, Sandia, and at Pantex. We are more 
than halfway through this effort and expect to wrap it up early 
in 2004.
    Life-extension for the W76 involves comprehensive overhaul 
of the warhead, including replacement of the arming, fusing, 
firing set; high explosives; gas transfer system; 
refurbishments. We will also be requalifying the weapon 
primary. For the W80, we will be replacing the trajectory 
sensing signal and the neutron generators, the tritium bottles, 
and the incorporating safety upgrades. For the B61, we will be 
refurbishing the secondary.
    These life-extension programs will ensure that these 
weapons remain safe, secure, and reliable for an additional 30 
years, once the work is complete.
    On the W88 pit manufacturing and certification program, 
over the last several years, NNSA has been implementing a pit 
manufacturing certification program to restore the capability 
of the United States to manufacture and certify this critical 
component without nuclear testing. This project is a pivotal 
challenge to the Stockpile Stewardship Program. I am pleased 
with the high level of management attention the program 
receives at Los Alamos, and the progress made in meeting this 
important national security objective.
    We remain on track to deliver a certifiable pit in fiscal 
year 2003 and a certified pit in fiscal year 2007.
    On the Modern Pit Facility, while the Los Alamos, TA-55, 
for making the W88 pits is adequate for the task at hand, it 
lacks the capacity and flexibility to manufacture pits in 
sufficient quantity to support the entire stockpile, so the 
NNSA is working on a longer term solution. We have a project 
team in place that has undertaken the required preconceptual 
planning work. During this phase, we will be carefully 
examining a number of issues, including technology development, 
to ensure the facility will meet both current and future 
requirements to fabricate replacement pits for the current 
nuclear stockpile, or pits for new designs, if required. Our 
next decision point for the Modern Pit Facility will be later 
this spring, at which time we will decide on proceeding to 
conceptual design.
    On enhanced test readiness, as Members of this Committee 
are well-aware, the NNSA is maintaining a capability to conduct 
an underground nuclear test within 24 to 36 months, based on 
existing presidential direction. The Nuclear Posture Review, 
however, raised several concerns about our test readiness 
posture, which we are addressing in a study to be completed 
later this spring. DoD and NNSA will work together to refine 
nuclear test scenarios and evaluate cost-benefit tradeoffs in 
order to determine, implement, and sustain the optimum test 
readiness time to support the policies of the Nuclear Posture 
Review.
    The President's fiscal year 2003 budget has requested an 
additional $15 million to implement the results of the 
aforementioned study, once the administration determines the 
best path forward.
    Senator Domenici. Did you say $15 million?
    Dr. Beckner. Yes, $15 million. The Nevada Test Site is a 
unique and critical component, not only for the Stewardship 
program but other national security activities as well. The 
subcritical experiments conducted at U1A, which General Gordon 
mentioned earlier, continue to provide our scientists and 
engineers vital data. Our most recent experiment, code-named 
Veto, was successfully carried out on February 14.
    The National Ignition Facility is one of the most important 
science and engineering programs we have in the Stockpile 
Stewardship program. I know this committee has been a strong 
supporter of the project, and we are grateful for that support. 
In 2002, the NIF team at Lawrence Livermore is continuing to 
make steady progress against its milestones. We have recently 
reported to the committee and others that several important 
milestones were met on or ahead of schedule, including 
completion of conventional construction. The program remains on 
track to begin stewardship experiments in 2004 with eight 
beams. And by the time all 192 laser beams are brought up in 
2008, we will have conducted some 1,500 stewardship 
experiments.
    On tritium, we are continuing to make progress in 
establishing the new source of tritium. We have in place a 
multi-year contract with the TVA to provide irradiation 
services. We expect the Nuclear Regulatory Commission will 
grant license amendments to the TVA reactors--Watts Barr and 
Sequoyah--that will be used for tritium production. Commercial 
vendors across the country are manufacturing parts for the 
tritium-producing rods that will go into the reactors in early 
fiscal year 2004.
    NTS's capabilities are broader than just stewardship. NTS 
has a critical role in helping the Nation deal with the new 
security challenges in the aftermath of September 11. Locating 
the National Center for Combatting Terrorism (NCCT) at the NTS 
with its infrastructure, facilities and resources assures that 
we ultimately prevail. Governor Ridge and the FEMA director, 
Joe Allbaugh, have been at the NTS, and I know were deeply 
impressed with the resources that can help train personnel and 
test technologies needed to win the war on terrorism.
    Mr. Chairman, I know that Congress wants less bureaucracy 
and more output from this program, with fewer problems along 
the way. I know you want program output which enhances 
security, which maintains and enhances the safety and 
reliability and performance of the nuclear stockpile, and which 
bolsters U.S. leadership in science and technology.

                           PREPARED STATEMENT

    I am convinced that the management reforms that the NNSA is 
implementing will address your first concern. I am also 
convinced that the Stewardship program is today ensuring that 
America's nuclear deterrent is safe, secure, and reliable. And 
of equal importance, the science and engineering campaigns of 
stewardship are advancing the frontiers of science and 
technology to help the country meet the economic and security 
challenges of this new millennium. Thank you.
    [The statement follows:]

                Prepared Statement of Dr. Everet Beckner

                              introduction
    Good morning Mr. Chairman and members of the subcommittee. I am 
pleased to be here today as the first Senate confirmed Deputy 
Administrator for Defense Programs. The support of this committee is 
very gratifying for the thousands of men and women across this country 
who have dedicated their professional lives to making the Stockpile 
Stewardship Program a success.
    As I said in my confirmation hearing, I believe in systems 
analysis, in using the best information available to find the right 
solutions, not by intuition or accommodation, but by hard headed 
analysis and that's what we are doing with all the elements of the 
Stewardship Program. We are investing the resources that the Congress 
provides, in the tools and experimental capabilities that we MUST have 
to deliver on our commitments to our customer, the Department of 
Defense, and the citizens of the United States, to ensure the long term 
success of the Stewardship program.
    This morning I will talk about several Stewardship programs that 
are of particular interest to this committee, and ones that I focus on 
regularly. First, and most important are the life extension programs 
for the W87, W76, W80, and B61. Second, W88 Pit manufacturing and 
certification at Los Alamos and our planning for a Modern Pit Facility. 
Third, the Nevada Test Site and its continuing role in meeting national 
security requirements. Fourth, the National Ignition Facility under 
construction at the Lawrence Livermore National Laboratory. And 
finally, the Commercial Light Water Reactor program and the production 
of new tritium to support the stockpile.
    First, lets talk about getting work done. The men and women of the 
Stockpile Stewardship Program continue to meet their formidable, day-
to-day challenges with ingenuity and innovation both in the way we do 
science and in the way we organize the work we do. Without the critical 
work of our ``stockpile stewards'' at the labs, plants and in the 
federal structure--we could not perform our mission. Our people remain 
our Number One resource that must be carefully attended now and into 
the future. To that end the NNSA must, and is, working to improve the 
infrastructure across the Complex. This committee has heard and seen 
first hand some of the antiquated working conditions we ask our people 
to work in. The $242 M in the President's budget this year for the F&I 
initiative will begin to correct this problem. This will have a direct 
impact on worker morale and productivity.
                            life extensions
    As members of this committee are well aware, the NNSA labs and 
plants have a validated requirement from the Nuclear Weapons Council to 
extend the service life of the W87, the W76, W80, and B61. This 
requirement was, if you will, revalidated by the recently completed 
Nuclear Posture Review, which lays out the direction for this Nation's 
nuclear forces for the next 5 to 10 years.
    Life extension work involves all elements of the weapons complex.
    For the last several years, we have been extending the life of the 
W-87 warhead for the Air Force. This work is ongoing at Y-12, Lawrence 
Livermore, Sandia and Pantex. We are more than half way through this 
effort and expect to wrap up the work by early 2004.
    Life extension for the W76 involves a comprehensive overhaul of the 
warhead, including replacement of the Arming, Firing and Fuzing set, 
high explosives, and gas transfer system and refurbishment of the 
secondary. We will also be requalifying the weapon primary. For the 
W80, we will be replacing the Trajectory Sensing Signal and Neutron 
Generators, the tritium bottles and incorporating surety upgrades. For 
the B61 we will be refurbishing the secondary.
    These life extension programs will ensure that these weapons will 
remain, safe, secure and reliable components of the U.S. nuclear 
deterrent for an additional 30 years once the work is complete.
                  w-88 pit manufacturing/certification
    Over the last several years the NNSA has been implementing a pit 
manufacturing and certification program to restore the capability of 
the United States to manufacture and certify this critical component 
without nuclear testing. This project is a pivotal challenge to the 
Stockpile Stewardship program. I am pleased with the high level of 
management attention this program continues to receive at Los Alamos 
and the progress made in meeting this important national security 
objective. We remain on track to deliver a certifiable pit W88 pit in 
fiscal year 2003. Headquarters and LANL staffs have been able to 
accelerate the date for a certified pit to fiscal year 2007, resulting 
in a savings for the American taxpayers.
                          modern pit facility
    While the LANL facility (TA-55) for making W88 pits is adequate for 
the task at hand, it lacks the capacity and flexibility to manufacture 
pits in sufficient quantity to support the entire stockpile, so the 
NNSA is working on a longer term solution. We have a project team in 
place that has undertaken the required preconceptual planning work. 
During this phase we will be carefully examining a number of issues 
including technology development to ensure that the facility will meet 
both current and future requirements to fabricate replacement pits for 
the current nuclear stockpile or pits for new designs, if required. Our 
next decision point for the Modern Pit Facility will be later this 
spring at which time we will decide on proceeding to conceptual design.
                        enhanced test readiness
    As members of this committee are well aware, the NNSA is 
maintaining a capability to conduct an underground nuclear test within 
24 to 36 months, based on existing Presidential direction. The Nuclear 
Posture Review, however, raised several concerns about our test 
readiness posture which we are addressing in a study to be completed 
later this Spring. DOD and NNSA will work together to refine nuclear 
test scenarios and evaluate cost/benefit tradeoffs in order to 
determine, implement and sustain the optimum test readiness time to 
support the the policies of the Nuclear Posture Review.
    The President's fiscal year 2003 budget has requested an additional 
$15 M to implement the results of the aforementioned study once the 
Administration determines the best path forward. We will of course, 
keep the Congress fully informed on this important national security 
activity as we proceed.
         other national security activities at nevada test site
    The Nevada Test Site is a unique and critical component not only 
for the Stewardship Program but other national security activities as 
well. The subcritical experiments, conducted at U1A continue to provide 
our scientists and engineers vital data on the performance 
characteristics of plutonium. Our most recent experiment, code named 
Vito, was successfully carried out on February 14. Vito was the first 
of three subcritical experiments in fiscal year 2002 in support of pit 
certification. NTS experimental capabilities are also being enhanced 
with the JASPER gas gun and the transfer of the Atlas machine. JASPER 
based experiments using plutonium will begin later this year. A new 
facility for Atlas is now under construction and on target for 
completion by the end of fiscal year 2002.
                       national ignition facility
    One of the most important science and engineering programs we have 
in Stewardship is the National Ignition Facility. I know that this 
committee has been a strong supporter of the NIF project and we are 
grateful for that support. In 2002, the NIF team at Lawrence Livermore 
is continuing to make steady progress against its milestones. We have 
recently reported to this committee and others that several important 
milestones were met on, or ahead of schedule, including completion of 
conventional construction and positioning and seismic tie down of the 
target chamber. The program remains on track to begin Stewardship 
experiments in 2004 with 8 beams, and by the time all 192 lasers beams 
are brought up in 2008, we will have conducted some 1,500 stewardship 
experiments.
                                tritium
    We are continuing to make progress in establishing the new source 
of tritium. We have in place a multi-year contract with the Tennessee 
Valley Authority (TVA) to provide irradiation services. We expect that 
the Nuclear Regulatory Commission will grant license amendments to the 
TVA reactors, Watts Bar and Sequoyah, that will be used for tritium 
production. Commercial vendors across the country are manufacturing 
parts for the tritium-producing rods that will go into the reactors in 
early fiscal year 2004.
    I am concerned however with the Tritium Extraction Facility at 
Savannah River. While construction of the civil/structural portion of 
the Tritium Extraction Facility is well along it is several months 
behind schedule. In addition, the bids on the Rest-of-Plant contract 
were well above the baseline estimate. As the result of these and other 
factors, we are carefully reviewing and revising our cost and schedule 
estimates for completion of the facility. It is likely that we will be 
coming to the Congress with a new baseline in a reprogramming package 
yet this year, following completion of these cost and schedule reviews.
                national center for combating terrorism
    NTS' capabilities are broader than just stewardship. NTS has a 
critical role in helping the Nation deal with the new security 
challenges in the aftermath of September 11. Locating the National 
Center for Combating Terrorism (NCCT) at the NTS with its 
infrastructure, facilities and resources assures that we will 
ultimately prevail. Governor Ridge and FEMA Director Joe Allbaugh have 
been to the NTS and I know were deeply impressed with the resources 
that can help train personnel and test technologies needed to win the 
war on terrorism, just as it helped win the Cold War.
                               conclusion
    Mr Chairman, I know that the Congress wants less bureaucracy and 
more output from this program, with fewer problems along the way. You 
want program output which enhances security, which maintains and 
enhances the safety, reliability and performance of the nuclear 
stockpile, and which bolsters U.S. leadership in science and 
technology. I am convinced that the management reforms that the NNSA is 
implementing will address your first concern. I am also convinced that 
the Stewardship program is today ensuring that America's nuclear 
deterrent is safe, secure and reliable. And--of equal importance--the 
science and engineering campaigns of Stewardship are advancing the 
frontiers of science and technology to help the country meet the 
economic and security challenges of this new millennium.

    Senator Reid. Ambassador Brooks?

                 STATEMENT OF AMBASSADOR LINTON BROOKS

    Mr. Brooks. Thank you, Mr. Chairman, Members of the 
Committee.
    This is my first opportunity to appear before this 
committee since my confirmation. I want to start by thanking 
the committee both for its support for me, but, much more 
importantly, for its support for the important programs that I 
am privileged to work on.
    Like my colleagues, I also want to call attention to the 
dedicated men and women, both at the Department of Energy and 
in the national labs, who have been working extremely hard to 
carry out these programs, often under quite difficult 
conditions in the Russian Federation.
    In less than 2 months, the President will meet with his 
counterpart in Moscow, and national security issues will be 
prominent on that agenda. We will benefit from the new 
strategic relationship the President has forged, but we also, 
in many ways, represent an example of it.
    Our relationship with the Russian Federation is 
cooperative, based on common actions against common threat. It 
is also a good paradigm for the new relationship that our two 
countries are forging.
    Building on that relationship and the support of the 
Secretary of Energy and General Gordon, we are now enjoying 
levels of access in the Russian Federation that are 
unprecedented. We have made enormous strides in securing 
nuclear materials, in controlling the exodus of technologies 
and expertise. But, as this committee knows as well as anyone, 
only a small amount of plutonium or highly enriched uranium is 
enough for a weapon.
    We continue to be concerned, particularly in the aftermath 
of the attacks of September 11, that this material is simply 
too tempting an opportunity we must not allow it to fall into 
the hands of rogue States.
    This has given great impetus both in the Congress and in 
the Department of Energy to our programs for material 
protection. And I am pleased with the progress we have made. 
But I want to make it clear that there are other important 
programs in the Department as well.
    Our programs are built, as you know, on four pillars: 
technology research and development; promotion of international 
nuclear safety; threat reduction efforts in Russia and the 
newly independent States and support for nonproliferation 
regimes. As General Gordon mentioned, we are seeking $1.13 
billion, which is a 36 percent increase from the last budget of 
the previous administration. This reflects not only the depth 
of the administration's commitment but the criticality of 
dealing with the threat.
    Our research and development focus is not only on nuclear 
detection but on chemical and biological threat detection. We 
have accelerated our nuclear materials programs in Russia. We 
now expect to finish these programs at least 2 years ahead of 
schedule. We are accelerating our so-called Second Line of 
Defense Program. We will use, if appropriated, our fiscal year 
2003 funding to install radiation detection at 21 additional 
strategic transit sites in Russia, Ukraine and Kazakhstan.
    Our efforts to find commercially viable and peaceful work 
for former nuclear weapons scientists in Russia are enjoying 
increasing success. These individuals are involved in many 
commercial initiatives, some of them directly relevant to how 
we address the terrorist threat.
    We are working with the Customs Department to improve its 
ability to detect nuclear materials. We have developed a new 
approach to disposing of excess plutonium. We got the job done 
3 years faster than the previous approach, saved a total of $2 
billion, reduced peak-year funding, and reduced the technical 
risk.
    We have assumed responsibility for shutting down the three 
remaining plutonium production reactors in the Russian 
Federation. We expect to accomplish this by 2007. We have also 
taken a new approach to international nuclear safety, 
recognizing our enduring responsibilities there beyond the 
Russian Federation.
    Nonproliferation, in particular, is an area that has to be 
attacked on many fronts. We are working closely with our 
colleagues in the Department of Defense and the Department of 
State to cut off the supply of nuclear materials, to tighten 
international borders, and to help tighten our own borders. It 
is an ambitious agenda. We are very pleased with the support we 
have gotten from Congress in the past and very pleased with the 
clear support that we have gotten following the administration 
review that General Gordon mentioned. We look forward to 
continuing to work to accelerate these important programs in 
the coming year. Thank you, sir.
    Senator Reid. I apologize to you, Ambassador Brooks, for 
stepping out for a minute, but each of the statements has been 
extremely helpful. Frankly, I have a long list of questions 
here, and most of them have been answered with the statements, 
and that is unusual. I think you have been very forthright. I 
have been extremely, I repeat, impressed with the statements.
    I am going to ask a couple of questions, and, Pete, turn 
things over to you, and you can do your statement, if you want 
to make it, and ask all the questions you want. I am going to 
leave in about 15 minutes. Is that okay with you?
    Senator Domenici. That is fine.
    Senator Reid. If you have to leave at noon, I will make it 
10 minutes. How's that?
    Senator Domenici. I have to leave at noon.
    Senator Reid. So we will divide the time. I will go to 10 
till, and then you take the rest of the time.
    Senator Domenici. Thank you.

                STORAGE OF DISMANTLED WEAPONS STOCKPILE

    Senator Reid. General Gordon, if we start pulling thousands 
of weapons out of the stockpile, is the weapons complex capable 
of dismantling and storing all of the unneeded weapons 
inventory at this time?
    General Gordon. Mr. Chairman, the answer to the question 
about are we capable of storing them safely and securely, the 
answer is yes. To bring them through a formal dismantlement 
process on a schedule and a time would eat into capacity that 
we are just now rebuilding to do this stockpile stewardship 
life-extension program work. So there is a balance to be made 
in how quickly we could dismantle weapons.

                        PIT PRODUCTION FACILITY

    Senator Reid. Maybe I should know the answer to this 
question from the statements that have been given, but how much 
pit production capacity will be required to meet future 
stockpile needs? And also, what are NNSA's plans for 
construction of a modern pit facility to meet these needs? When 
will it be required? And then, is there a cost associated with 
it?
    General Gordon. There is no reason you should know that 
from our testimony, because I do not think we know the precise 
answer to that ourselves. From the NPR, we know that the 
deployed stockpile will be on the order of 1,700 to 2,200 
weapons. A number of weapons will be kept in a reserve status 
beyond that. And a precise number and the disposition of those 
weapons has yet to be resolved.
    With respect to a pit facility, we do know that sometime in 
the future, a Modern Pit Facility will be required. The numbers 
will depend both upon the size of the stockpile and the results 
of ongoing. They will also depend on the aging studies.
    The work that is going on now, the scientific work on the 
aging issues, indicates a pretty long life for the pits is 45 
or more years. And we will have another year or two to really 
stretch that out.
    So, the idea of the Modern Pit Facility is to cut the time 
off the front of it by doing the required design and the 
preliminary work, but not to come close to building it until we 
can answer those questions much more precisely. The costs would 
have B's in it, though, for billions. With nuclear facilities, 
people sort of wave their hands and say they cost about $10,000 
a square foot in today's environment. So we need to get it 
right. We need not overbuild it. But when the time comes to 
build it, it will be expensive.

                 LEGISLATION TO MODIFY NUCLEAR WEAPONS

    Senator Reid. There has been talk that the department is 
considering research into modified nuclear weapons; some say 
even new ones. Would the law have to be changed to do this?
    General Gordon. You asked me to comment on that in my 
statement, and I think I did not do a very good job of that. 
Let me come back to that. The proposal that is in front of us 
right now, is limited to one program, which is to build a so-
called Robust Nuclear Earth Penetrator, which is simply take an 
existing design, package it in a way that could give it an 
opportunity to penetrate to depths greater than existing 
systems. That is the only specific work that is on the book. 
There is talk of some modifications to another system and there 
is no defined requirement for a new weapon at this time. So, by 
definition, everything is within the requirements of the 
legislation as now defined. And I do not see anything happening 
in the immediate future.
    To be clear, though, or just to be certain we are on the 
same wavelength, I have asked, and the NPR has validated the 
suggestion that we begin an advanced concept group at our 
laboratories. The purpose of that is not to go out and look to 
design a specific new weapon, where we do not have a 
requirement for it.
    But I would point out that in our ideas of retention of 
critical skills, one of those skills that is potentially fading 
rapidly, is the ability to design weapons. So what we have 
asked is that the labs put together a small group of young 
people who can begin to think about what the limits are, what 
the possibilities are, while they still can reach into the 
existing design community of the older designers who actually 
have had some experience.
    Senator Reid. We saw that in my tour of the labs. There was 
talk from some of the white-hairs and no-hairs that they felt 
that there should be new people coming up, that the work that 
they had done in years past was something that the new people 
have never done. So I am glad to see that being thought about.

                     RADIOLOGICAL DISPERSAL DEVICES

    Ambassador Brooks, and anyone who wishes to comment on 
this, this morning's Washington Post has an article that is 
quite interesting, front page. And it talks about the risk of 
dirty bombs associated with the missing nuclear material in 
Russia. Would anyone comment about the article? Has anyone read 
it, I guess I should say?
    General Gordon. Do you have anything on the article?
    Mr. Brooks. I just skimmed the article. I do not have 
anything particularly on the article.
    General Gordon. Mr. Chairman, the news of the specific 
radionuclide generator as it is talked about in this article 
is, frankly, new to me. And I am not up-to-speed on it.
    The concept of radiological dispersal devices, so-called 
dirty bombs, is reasonably well-understood and is a potential 
terrorist threat.
    The idea would be that you could take waste material, 
radionuclide-generated material like this, medical waste 
material, fuel waste material, and somehow cause it, with an 
explosion, to be dispersed in the atmosphere, which would then 
contaminate an area, depending on how carefully and how 
accurately it was done.
    This is, as the newspaper pointed out, this is a difficult 
problem to do in a very effective way. It is an easy weapon, if 
you can steal some and just try to get it around.
    What we generally believe is that the only people who are 
likely to be killed by a so-called dirty bomb or radiological 
dispersal device are the people who try to assemble it or 
someone who happens to be caught up in the explosive radius of 
the conventional explosion that takes it out.
    That said, it could, if well-designed, spread the material 
over a region, which would then have to be decontaminated, and 
could come with it the effects of some negative economics and 
the whole effect of terrorism that comes from being around 
unexplained, unintended radioactive sources.

               U.S. CUSTOMS ASSISTANCE ON EXPORT CONTROL

    Senator Reid. Are we doing anything to help the Customs, 
regarding these nuclear products that are coming in?
    General Gordon. Active programs----
    Senator Reid. Not ``coming in''; I should say that people 
may try to bring in.
    General Gordon. Very active programs. Do you want to 
comment?
    Mr. Brooks. Yes, may I add one thing to what General Gordon 
said on radiological dispersal devices? In one of the changes 
following September 11th, we are investigating with the Russian 
Federation whether there is work we can do to help improve the 
security of that material in Russia. We expect using about $15 
million of the additional funding provided to us in the 
supplemental to address this issue directly.
    With regard to the Customs, we are doing several things. We 
have R&D that looks at detecting nuclear materials as they 
enter the country. We are looking, in particular, at how to do 
this in a way that doesn't slow throughput. For example, screen 
large containers, one concept is a sensor that is in a crane. 
Everything gets moved by cranes, and you could scan the 
container at the same time.
    Detecting material is not particularly hard. Detecting 
material without slowing down the throughput is quite 
difficult.
    Second, we are working closely with Customs on export 
controls. We are providing training, based on our experience 
overseas, in what we have learned in helping to improve the 
border security in the Russian Federation. So we are trying to 
make sure that what we learn in the overseas part of our 
program is also applied in the United States.
    Senator Reid. One thing, Mr. Ambassador, in general, you 
should be aware, Customs is terribly, terribly understaffed. 
And you should be aware of that. So expecting them to do much 
with manpower won't happen.
    Mr. Brooks. We understand that, sir. And, in fact, the idea 
of the R&D--and, remember, we can't prove to you the R&D is 
going to succeed; but that is why they call it research.
    But the idea is, in fact, not to depend on things that are 
staffing-intensive. If you had enough people, you would just 
take apart all the containers. But you can't do that.

                        RUSSIAN PROGRAM FUNDING

    Senator Reid. My last question, and you have talked about 
it a little bit, Ambassador Brooks, your current-year 
appropriation for the Russian program is almost $300 million. 
That is $120 million more than the 2001 level. The extra funds, 
they helped, according to what you just said, what you said in 
your prepared statement. Is that right?
    Mr. Brooks. Yes, sir.
    Senator Reid. And one of the little battles we had in our 
conference with the House last year was how much money we put 
in this program.
    How much money do you think we should have in the program?
    I don't want you to be a Corps of Engineers Mike Parker.
    But do you have any idea what we should have in a perfect 
world?
    Mr. Brooks. I think we are quite happy with where we are--
--
    Senator Reid. Perfect answer.
    Mr. Brooks [continuing]. In both the 2002 and 2003, sir.
    Senator Reid. Just testing you. That was a good answer. 
Pete?
    Senator Domenici. Mr. Chairman, first I want to thank you 
for starting the meeting at 11:00, which was done at my 
request. And clearly, I don't want to hold these people beyond 
12:00, so I am going to put my statement in the record, and 
just ask a few questions, and make a few observations.
    Senator Reid. And we will both have a series of questions 
that will be submitted to you in writing. If you would answer 
those within the next couple weeks, that would be great.
    General Gordon. Absolutely.

                SANDIA NATIONAL LABORATORY PENSION PLAN

    Senator Domenici. Fine. I have the same situation, and they 
are broken down for each of you, as best I could.
    Let me first say, General Gordon, I am pleased that the 
department has made a decision with reference to the pension 
plan at Sandia National Laboratory, with reference to an effort 
to disperse in the future some of the excess funds that have 
been accumulating, and also to put the scientists and engineers 
at Sandia more on a par with those who are at the two other 
national laboratories. And that is a very good starting point 
for the morale at Sandia, which is beginning to change to a 
very positive one, since they are being asked to do some very 
interesting, exciting, and important things.
    General Gordon. Thank you for saying that, Senator. The 
laboratory has already reported that it has resulted in the 
retention of several important employees.
    Senator Domenici. I am quite sure. And I am sure that it 
will do that in the future, and it probably will bring some 
people on to their staff that they are looking for, in these 
particular times.

                        PIT PRODUCTION FACILITY

    Of all the issues, the one that surprises me the most, 
because it is just sort of like a migraine headache--if you 
have it, it just keeps coming back, you aren't quite sure when. 
But this pit production issue, we just have to get it finished, 
so that it doesn't keep coming back, at least to me.
    So let me just say, I am very concerned about the fact that 
we had the money at the right level and then along comes a cut, 
and it seems to me that we decreased, what we have been told is 
necessary to stay on schedule, by $52 million.
    General, can you support that or tell me what we can 
expect? Why are we doing it this way?
    General Gordon. Well, as you know, Senator, there was both 
a cut to the budget and some required funding to go into other 
areas, which resulted in something approaching a couple hundred 
million dollars to rebalance the programs. We rebalanced them 
as best we could at the time, leaving a shortfall primarily in 
the contingency of the pit program. We think it is very tight 
right now. We are continuing to look to be able to move some 
additional money against it, and we will be able to do some 
more as time goes on. It is a bit of a migraine, in that 
regard. I think about it every day, as well.
    So we are running on a knife-edge balance. The program 
remains very tight and really well-balanced. And we are trying 
every day to make the best priority decisions we can. That is 
probably the best we can do with this answer right now. I would 
take 10 seconds, though, and tell you that the reports for lack 
of a better word, of where the management is going of the 
program itself is much improved. We were up there the other day 
and looked at a schedule. And for the first time, the program 
manager said we live or die by this schedule, and that is a new 
process.
    Senator Domenici. Okay. Well, I understand how complicated 
it is. But I think the sooner you get rid of a migraine 
headache, if you can, the better off you are. That program, we 
ought to finish it, so we can tell everybody that is concerned 
about it that it has reached that critical stage.
    Dr. Beckner. If I could, Senator, I would add to the 
earlier comments. We do have a plan to make a decision on 
beginning the conceptual design work for that facility in, 
literally, the next 2 months.
    Senator Domenici. I heard that.
    Dr. Beckner. So we are moving ahead.
    Senator Domenici. I didn't get a chance to say thank you, 
Dr. Beckner, for taking this job. We have known each other for 
years. There is no doubt in my mind that you will do a 
wonderful job, and I thank you.

                 NAVAL REACTORS FUNDING AND TECHNOLOGY

    And Mr. Ambassador, we are glad that you took this and that 
you have come here. And I was going to make note of the fact 
that while you are relatively new to the NNSA--I think you 
joined in October--by my calculation, in the 6 months you have 
been on the job, the administration's budget request for your 
area alone has gone from $774 million to $1.1 billion for the 
next year. That is a 44 percent increase.
    Now, General, if you can get some additional people to join 
you that can have that big an impact--In 6 months, you ought to 
just tell us about them.
    General Gordon. Okay, Everet, the bar has been set.
    Dr. Beckner. Am I next?
    Senator Domenici. You're next.
    Let me ask, Admiral, we are hearing a lot about new nuclear 
reactors. It is so optimistic that some are saying we will be 
on our way, in the United States, to a new nuclear reactor 
within the next 7 years. I am not speaking of military; I am 
speaking of a reactor to produce electricity. Rather exciting.
    Does any of this total new design concept have anything to 
do with the United States Nuclear Navy?
    Admiral Bowman. Senator, I think that it is fair to say 
that my organization has, for these 50 years, been at the 
leading edge----
    Senator Domenici. No question.
    Admiral Bowman [continuing]. Of pushing the technology. And 
I think that some of the ideas that are being discussed today 
are leveraging some of the technology that we have developed 
with the funds provided by this committee over the years. So to 
that extent, yes.
    Naval Reactors is not now looking at any of the new kinds 
of reactors that you have heard about--the pebble-bed, modular, 
high-temperature, gas-cooled reactor--explicitly for any 
immediate use.
    But we certainly are a part of the materials area. And I 
think industry, for sure, leverages and enjoys the research and 
development that comes from our laboratories.
    Senator Domenici. Well, Nuclear Navy is a tremendous 
example for those of us who attempt to be objective about the 
risks or lack of risks in having nuclear reactors around, and 
even moving the reactors from place to place, and certainly 
moving the spent fuel around. The United States Navy is doing 
that all the time, and it is doing it out there in an ocean, in 
water, which it totally miscible. If you put something 
overboard, it affects a very large area. And yet, you are in 
every port except one in the Nation, which is a pretty good way 
to say, when you do it right, it is about as safe as anything 
that you can do in that area.
    General Gordon, I want to close by congratulating you. It 
did take awhile to get going, and I appreciate the objectivity 
of your statement in saying that we still have a long way to 
go. But when you have people on board like the two that are 
with you and some others that are joining you, I have no doubt 
that, within a couple of years, you will prove to all of those 
who might have been skeptics that the NNSA is going to work.
    Already, I believe, it gives people better answers. You 
know who to talk to. You know who is in charge. And I think my 
colleague, who is now chairman, who was ranking member when we 
did that, when we accomplished that legislation, has also 
indicated, from his standpoint, that he had doubts, but the 
NNSA, in his opinion, was a good move.
    And that is probably attributable as much as anything to 
the fact that we were fortunate to get you as the first person 
to be in charge. Best of luck, move ahead, get the management 
moved over under your jurisdiction as soon as you can. That's 
the job of these wonderful people that are helping you.

                     ADDITIONAL COMMITTEE QUESTIONS

    As we move into this era of danger here in America, clearly 
they are going to look more and more to how you have arranged 
your agency, so you can be helpful to our country in the area 
of terrorism for years to come.
    Thank you very much.
    Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                overall budget for stockpile stewardship
    Question. General Gordon, you are to be commended for what is 
overall a much improved budget request compared to previous years. This 
year's budget request is $300 million over the current year's enacted 
level (a 5.5 percent increase). However, even within that budget 
request, there are some real question marks.
    For example, the budget request for pit production is $54 million 
below what you indicated would be required in last year's report to 
Congress. Also, the Science Campaigns, which are critical to 
maintaining our capability to certify the stockpile, are cut by 11 
percent. Will you please comment on these two problem areas?
    Answer. With regard to pits, the $242 million for fiscal year 2003 
in the September 2001 pit report to the Congress covers W88 pit 
manufacturing and certification and includes a contingency of some $53 
million, with a funding profile that was based on an fiscal year 2009 
W88 pit certification date. Los Alamos and the NNSA have been able to 
accelerate the pit certification date to fiscal year 2007. This is 
expected to produce substantial savings in the out years (fiscal year 
2008/09), but no near term savings are expected.
    The Department's request of $194 million in fiscal year 2003 for 
W88 pit manufacturing and certification also includes pit manufacturing 
technology and Modern Pit Facility activities. To balance near-term 
priorities for the Stockpile Stewardship Program, this request of $194 
million reduces fiscal year 2003 risk contingency funding for the W88 
pit manufacturing and certification project and planned activities in 
pit manufacturing technology and the Modern Pit Facility. In addition, 
some funds were shifted to the Readiness in Technical Base and 
Facilities account so that facilities needed in manufacturing and 
certification would be ready. NNSA is fully committed to making the pit 
program successful. If additional funding is determined to be needed in 
fiscal year 2003, we will propose the necessary adjustments.
    The reduction in funding requested for the Science Campaigns 
reflects a delay in the design of the Advanced Hydrodynamic Test 
Facility. While significant preliminary research work has been 
completed on the Advanced Hydrodynamic Test Facility, the requirements 
and thus the critical design features for this facility are still under 
development. Upon completion and review of the requirements, now 
expected in fiscal year 2003, the NNSA will consider funding for 
facility design work on a schedule consistent with those requirements 
and other Stockpile Stewardship priorities.
                overall budget for stockpile stewardship
    Question. Could you use additional resources in these areas if they 
were provided?
    Answer. It is premature to apply additional resources to the 
Advanced Hydrodynamic Test Facility. Design work should follow the 
requirements, which are not yet adequately understood. For pits, 
additional resources would be used to reduce schedule risk and to 
ensure that the fiscal year 2003 manufacture of a certifiable W88 pit. 
If additional funding is determined to be needed in fiscal year 2003, 
we will propose the necessary adjustments.
    Question. What are some of the highest priority tasks that you will 
not be able to accomplish within the requested budget?
    Answer. The overall 6 percent increase in the fiscal year 2003 
request for NNSA is the largest growth in any DOE organization for this 
year. Within that amount, the Directed Stockpile Work activities 
receive an increase of 18 percent over the fiscal year 2002 level. All 
of the highest priority tasks for Stockpile Stewardship are 
accommodated within those increases.
                        five year budgeting plan
    Question. General Gordon, section 3253 of the National Nuclear 
Security Administration Act of 1999 required you to submit a detailed 
5-year budget plan. In your testimony, you said that the Nuclear 
Posture Review called for a stable and adequately funded 5-year budget 
plan. However, the NNSA budget documents indicate an outyear funding 
plan that grows only 2 percent a year, and includes the following 
statement, ``Beyond 2003, the Administration will work with the 
Department of Defense to provide resources to meet NNSA's requirements 
outlined in the Nuclear Posture Review.'' What does that last statement 
mean, and when do you expect to deliver a detailed 5-year funding plan 
to the Congress?
    Answer. The fiscal year 2003-2007 NNSA Future-Years Nuclear 
Security Program (FYNSP) was transmitted to cognizant congressional 
committees on March 26, 2002. The programs and 5-year funding envelope 
in the plan is based on the DOE outyear targets for NNSA combined with 
additional future years obligational authority currently scored in DOD 
accounts for NNSA's NPR-related activities. The OMB will work with NNSA 
and DOD during the fiscal year 2004 budget process to assure that 
sufficient national defense budget authority is provided to NNSA to 
meet NPR requirements.
    Question. Can you give us some insights as to what levels of 
funding the plan will call for over the next several years?
    Answer. The funding estimates for NNSA programs contained in the 
FYNSP are contained in the table below:

                                      FUTURE-YEARS NUCLEAR SECURITY PROGRAM
                                              [Dollars in Millions]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year
                      Appropriation                       ------------------------------------------------------
                                                              2003       2004       2005       2006       2007
----------------------------------------------------------------------------------------------------------------
Weapons Activities.......................................     $5,869     $6,457     $6,738     $7,023     $7,314
Defense Nuclear Nonproliferation.........................      1,114      1,406      1,502      1,639      1,604
Naval Reactors...........................................        708        720        733        747        761
Office of the Administrator..............................        348        354        360        366        373
                                                          ------------------------------------------------------
    Total, NNSA..........................................      8,039      8,937      9,333      9,775     10,052
----------------------------------------------------------------------------------------------------------------

                general reduction from the current year
    Question. General Gordon or Dr. Beckner, the appropriations bill 
for the current year (fiscal year 2002) included an $80 million general 
reduction to be generally applied proportionately across all programs, 
projects and activities. Your staff briefed the committee staff early 
this year and suggested that 30 percent of the general reduction ($24.5 
million) be applied to the long-troubled pit manufacturing program. I 
believe that is unacceptable, particularly given the great priority the 
Congress, the NNSA and Los Alamos have put on getting the pit program 
back on track. I understand you are revising your proposal on applying 
the general reduction, but we are now almost half-way through the 
fiscal year. How will the General Reduction be applied?
    Answer. The general reduction was assessed to all Weapons 
Activities programs consistent with the guidance in the congressional 
reports and programmatic budget execution priorities. A decision was 
made to exempt the Safeguards and Security activities based on the post 
9/11 security situation. A Base Table containing the distribution of 
the General Reduction for all DOE programs was provided to Chairmen and 
Ranking Minority members of cognizant congressional committees by the 
DOE CFO on January 31, 2002.
    Question. Will you assure me today that the pit program will be 
funded consistent with your own funding plan, and the resources 
provided by the Congress?
    Answer. The NNSA will ensure that the pit program receives adequate 
funding to meet the fiscal year 2003 W88 pit manufacturing and fiscal 
year 2007 W88 pit certification milestones. Reprogramming have been 
proposed which will provide funding for the program in fiscal year 
2002, consistent with current project needs.
                                tritium
    Question. General Gordon or Dr. Beckner, the Nuclear Posture Review 
states a goal of moving to 1,700 to 2,220 deployed weapons by 2012 plus 
a substantial number of weapons in reserve. Previously, you suggested 
that in order to maintain a 5-year reserve, you would need a new 
production capability on line by 2005. Given the conclusions of the 
latest NPR, do we still need a new production capability by 2005?
    Answer. The changes in the nuclear force structure resulting from 
the recent Nuclear Posture Review do not affect the date when NNSA 
needs to begin irradiating tritium producing rods in the Tennessee 
Valley Authority's Watts Bar and Sequoyah reactors. Irradiation will 
still begin in the fall of 2003 as currently scheduled, particularly 
because the initial core loads of tritium rods will be ``transition 
cores'' that will not contain nearly as many tritium rods as will be 
utilized for steady state production.
    Question. The NNSA is preparing to spend over $400 million on a 
Tritium Extraction Facility over the next few years in South Carolina. 
I understand the project is not going particularly well and the project 
may have substantially over-run its projected cost. What is the status 
of the Tritium Extraction Facility project?
    Answer. Construction of the civil/structural portion of the Tritium 
Extraction Facility at the Savannah River Site is well along, but is 
several months behind schedule. In addition, the bids on the Rest-of-
Plant contract were well above the baseline estimate. As a result, we 
are currently in the process of reviewing and revising our cost and 
schedule estimates for completion of the facility. We have also asked 
the Department's Inspector General to review the program and recommend 
additional corrective measures, as appropriate. A reprogramming request 
has been submitted to the Congress for the necessary additional fiscal 
year 2002 capital funding required for construction of the facility, as 
well as proposing the necessary shifts in fiscal year 2003 funding.
    Question. Given a possible change in tritium requirements, and 
substantial cost overruns in the tritium extraction facility, why 
should we not delay this project to fund other, more pressing, 
priorities?
    Answer. The critical issue in tritium supply-demand assessments is 
the size and composition of the nuclear weapons stockpile. A reduction 
in the force structure would impact the tritium ``need date'' and, 
therefore, the number of tritium rods that must be irradiated in the 
TVA reactors. However, the fall 2003 initial irradiation date would not 
be affected This is particularly true in view of the fact that the 
initial core loads of tritium-producing rods in each TVA reactor will 
be ``transition cores'' that will not contain nearly as many rods as 
will later be utilized for steady-state production.
                         nuclear posture review
    Question. What are the budget implications of the NPR that we 
should see over the next 5 years?
    Answer. The fiscal year 2003-2007 Future-Years Nuclear Security 
Program provided to cognizant congressional committees on March 26, 
2002, contained estimates of the funding required for NNSA to carry out 
NPR-related activities. This information is contained in the table 
below:

                                      FUTURE-YEARS NUCLEAR SECURITY PROGRAM
                                              [Dollars in Millions]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year
                      Appropriation                       ------------------------------------------------------
                                                              2003       2004       2005       2006       2007
----------------------------------------------------------------------------------------------------------------
Weapons Activities.......................................     $5,869     $6,457     $6,738     $7,023     $7,314
Defense Nuclear Nonproliferation.........................      1,114      1,406      1,502      1,639      1,604
Naval Reactors...........................................        708        720        733        747        761
Office of the Administrator..............................        348        354        360        366        373
                                                          ------------------------------------------------------
    Total, NNSA..........................................      8,039      8,937      9,333      9,775     10,052
----------------------------------------------------------------------------------------------------------------

    Question. What activities are included in this budget that support 
the recommendations of the Nuclear Posture Review?
    Answer. NNSA has been a key participant in the Administration's 
comprehensive Nuclear Posture Review, (NPR). The fiscal year 2003 
budget request supports the NPR by requesting significant increases for 
Directed Stockpile Work to support upcoming weapon refurbishments, and 
Facilities and Infrastructure Recapitalization to assure a robust and 
responsive nuclear weapons infrastructure in sustaining deterrence and 
dissuasion.
    In this connection, the report notes that the flexibility to 
sustain our enduring nuclear weapons stockpile, to adapt current 
weapons to new missions, or to field new weapons, if required, depends 
on a healthy program for stockpile stewardship and peer-review-based 
certification as well as a robust infrastructure for nuclear weapons 
production. It is a key point that not only the forces, but the 
demonstrable capabilities of the nuclear weapons complex itself, 
including its ability to sustain and adapt, are required to underpin 
credible deterrence in a changing security environment.
                         nuclear posture review
    Most importantly, this review reemphasizes the importance of 
nuclear weapons to deter the threats of weapons of mass destruction, to 
assure allies of U.S. security commitments, to hold at risk an 
adversary's assets and capabilities that cannot be countered through 
non-nuclear means and to dissuade potential adversaries from developing 
large-scale nuclear or conventional threats. To accomplish this goal, 
the NNSA expects to certify the stockpile through an aggressive 
science-based Stockpile Stewardship Program without resorting to 
underground nuclear testing. As discussed in the NPR, the NNSA will 
seek to reduce the lead-time to carry out a test by working with the 
DOD to refine test scenarios and evaluate the cost-/benefit tradeoffs 
in order to determine, implement, and sustain the optimum test 
readiness time that best supports the New Triad. The review also 
reaffirms a stockpile refurbishment plan that has been under 
development between DOD and DOE and outlines the shape of the nuclear 
weapons stockpile as we significantly reduce the number of 
operationally deployed nuclear weapons to the 1,700-2,200 range over 
the next 10 years. The number and condition of warheads to be provided 
under the NPR is consistent with the plan put forth in this budget 
request. Simultaneously, the review calls for maintaining a 
``Responsive Force'' which can be used to hedge against unforeseen 
problems in the deployed stockpile or an unexpected evolution of 
international relations. In addition, the NPR calls for NNSA to re-
establish an advanced concepts effort to ensure that our nuclear 
weapons capability can respond to a spectrum of threats to U.S. 
security.
    To indefinitely ensure the reliability and performance of this 
smaller number of weapons, the NPR calls for a modernized responsive 
nuclear weapons infrastructure to recover and sustain our nuclear 
weapons capability. Having significantly downsized the footprint of the 
nuclear weapons complex over the past 10 years, a modernized responsive 
infrastructure means upgrading our key facilities, many of which are 
now approaching 50 years in age, with a dedicated refurbishment 
program. It also means accelerating contingency planning for a modern 
pit facility to address long-term pit replacement needs.
    Question. Are there items the NPR recommends that you cannot 
accommodate within this budget?
    Answer. No. The NPR calls for a stable, adequately-funded Future 
Years Nuclear Security Program (FYNSP) to accomplish its goals, and the 
FYNSP transmitted on March 20, 2002, should be adequate to meet known 
requirements of the NPR.
                             pit production
    Question. General Gordon or Dr. Beckner, in September of last year 
you notified this Committee that the W88 Pit Project costs at Los 
Alamos would be $213 million for the current year, and $242 million in 
fiscal year 2003. I worked to ensure the Congress ultimately provided 
every penny you said you needed. You can imagine my surprise, when your 
staff briefed the committee and suggested that 30 percent of the 
general reduction ($24 million) be applied to this long-troubled 
program. Furthermore, the budget request for pit work at Los Alamos for 
fiscal year 2003 is not $242 million--as you indicated in your report 
to us last fall--but only $190 million. This is a decrease of $51 
million. Please explain the rationale for the reduced request for pit 
production.
    Answer. The $242 million for fiscal year 2003 in the September 2001 
pit report to the Congress covers W88 pit manufacturing and 
certification and includes a contingency of some $53 million, with a 
funding profile that is based on an fiscal year 2009 W88 pit 
certification date. Los Alamos and the NNSA have been able to 
accelerate the pit certification date to fiscal year 2007, this is 
expected to produce substantial savings in the out years (fiscal year 
2008/09), but no near term savings are expected.
    The Department's request of $194 million in fiscal year 2003 for 
W88 pit manufacturing and certification also includes pit manufacturing 
technology and Modern Pit Facility activities. To balance near-term 
priorities for the Stockpile Stewardship Program, this request of $194 
million reduces fiscal year 2003 risk contingency funding for the W88 
pit manufacturing and certification project and planned activities in 
pit manufacturing technology and the Modern Pit Facility. In addition, 
some funds were shifted to the Readiness in Technical Base and 
Facilities account so that facilities needed in manufacturing and 
certification would be ready. NNSA is fully committed to making the pit 
program successful. If additional funding is determined to be needed in 
fiscal year 2003, we will propose the necessary adjustments.
                facilities and infrastructure initiative
    Question. General Gordon or Dr. Beckner, last year I was very 
pleased to work with Chairman Reid in getting the Facilities and 
Infrastructure rebuilding effort underway with $200 million. I am 
pleased you have requested another $240 million for fiscal year 2003--a 
20 percent increase, however, I am still concerned. At this 
subcommittee's hearing on infrastructure earlier last year, you 
testified that there was an immediate need for and additional $300-$500 
million per year for the next 17 years to refurbish the weapons 
complex.
    In your written testimony today, you said you have ``determined 
that the complex deteriorates by about $200 million annually.'' With 
these kinds of numbers, it will take much more than the currently 
requested amounts to rebuild the complex for the future. Will you up 
date the Committee on the Facilities and Infrastructure Initiative?
    Answer. It is my firm intention to update the Committee 
periodically on the newly renamed Facilities and Infrastructure 
Recapitalization Program. In addition, my staff is in close contact 
with the staff members of your Committee and the staff members of House 
and Senate's authorization and appropriations Committees and 
Subcommittees. The combined staffers were briefed in January 2002 and 
another briefing is scheduled for the July/August 2002 timeframe.
    Question. What have you accomplished, and where do we need to go in 
the future?
    Answer. As we have discussed, the difficult challenge of rebuilding 
of the complex required a change of culture regarding the maintenance 
of the facilities and infrastructure of the weapons complex, adopting a 
corporate facilities management approach, and money. Culture change is 
happening, albeit slowly. However we have accomplished much with regard 
to a corporate facilities management of the complex. A brief 
enumeration follows:
  --Improved comprehensive planning throughout the complex
  --Integrated planning process with budget activities subsequently 
        improving assessment of F&I condition
  --Implemented financial accountability and project execution measures 
        Improve condition assessments throughout the complex
  --Developed priority approach to sifting requirements on a ``worst 
        first'' basis Funding from approved priority project list
  --Integrated performance measures to all plants and laboratories 
        appraisal systems Initiated cost saving through ROI project 
        selection and execution Funding the elimination of excess 
        facilities
  --Funding from approved priority project list
  --Integrated performance measures to all plants and laboratories 
        appraisal systems Funding the elimination of excess facilities, 
        to include reducing the complex footprint by some 500,000 sq ft 
        in fiscal year 2002, and saving some $5 million in surveillance 
        and maintenance costs
  --Managing through use of a coordinated project execution plan
  --Developed facilities and infrastructure budget guidance which is 
        being executed in the field
  --Established Ten Year Comprehensive Site Planning process, now in 
        its second year of usage
  --Executed $8.7 million (fiscal year 2001 Supplemental) worth of 
        projects
  --Establishing meaningful databases by which to manage the Facilities 
        and Infrastructure Recapitalization Program
  --Using the $200 million fiscal year 2002 appropriated funds, NNSA 
        will execute 81 Recapitalization projects (primarily 
        maintenance & repair), 37 Planning projects (design & 
        engineering for fiscal year 2003 recapitalization and facility 
        disposition projects), and 32 Facility Disposition projects 
        (ridding the complex of excess facilities)
    With regard to the future, we are changing the culture, and the 
approach to facilities management. At this point money becomes 
important. The Facilities and Infrastructure Recapitalization Program 
is a multi-year approach to restoring, rebuilding, and revitalizing the 
nuclear weapons complex. The congress began the process by providing 
$8.7 million in the fiscal year 2001 Supplemental Appropriation, which 
was followed by almost $200M in the fiscal year 2002 Appropriation. The 
NNSA's plan is to ramp up in $50 million increments annually over the 
next few years to a level of $500 million. Once this level is reached, 
the plan is to sustain that level for a decade. I believe that our 5-
year plan provides for this approach, which is, in my estimate, about 
the correct level of funding, all things considered. The continued 
support of congress is key to the future success of the Facilities and 
Infrastructure Recapitalization Program.
                 advanced hydrodynamic test facilities
    Question. General Gordon or Dr. Beckner, hydrodynamic test 
facilities are some of the most important in the entire stockpile 
stewardship program. Los Alamos has been studying the use of proton 
radiography as a new tool with great promise. This works builds on the 
long legacy of accelerator-based programs at that Laboratory.
    I realize that we are not ready to specify parameters of such an 
advanced hydrodynamic facility for future years, but I strongly support 
a research effort focused on understanding this technology and 
evaluating options for future construction. Failure to support the 
research effort will lead to loss of the key staff and destroy the 
research momentum completely. Once terminated, it would be extremely 
difficult to restart at a future date.
    I'm very disappointed that the Department has chosen to cut the 
budget for ``Advanced Radiography'' by 36 percent and has suspended all 
work on an advanced hydrotest facility in fiscal year 2003. Please 
discuss your views of the importance of radiography to the weapons 
program.
    Answer. Radiography is one of the fundamental tools required by the 
weapons laboratories for the study of nuclear stockpile issues. The 
Contained Firing Facility at Lawrence Livermore National Laboratory and 
the Dual-Axis Radiographic Hydrodynamic Test Facility (DARHT) at Los 
Alamos are two important radiography tools. The first axis of DARHT is 
operating and the hydrotests done to date have provided data of 
unprecedented quality to help resolve questions related to the 
stockpile. We continue to refine the operation of the DARHT first axis, 
while completing the second axis which will allow simultaneous views of 
hydrodynamic tests from two directions at multiple times. We are 
studying the needs of the stockpile certification processes in 
conjunction with the capabilities of the existing radiography 
facilities to determine future facility requirements.
    Question. Why has the NNSA chosen to suspend conceptual design of 
an advanced hydrotest facility?
    Answer. NNSA has a prudent path forward for the Advanced 
Hydrodynamic Test Facility. We have completed preliminary design work 
on the facility, however, the requirements and thus the critical design 
features for this facility are still under development. Additional 
design work without firm requirements, based on the needs of the 
stockpile is not appropriate.
                 advanced hydrodynamic test facilities
    Question. If additional resources are made available, how could 
such resources be used to support the advanced hydrotest facility?
    Answer. It is premature to apply additional resources to an 
advanced hydrotest facility. Significant preliminary design work has 
already been completed. Additional design activities should follow the 
technical and schedule requirements, which are not yet adequately 
understood. Any additional facility resources should be applied to the 
NNSA's maintenance and construction backlog.
                     los alamos construction items
    Question. General Gordon or Dr. Beckner: Los Alamos has recently 
completed, or will complete this year, several construction projects 
that are coming in substantially under budget. I am referring to the 
CMR Upgrades Project, the Strategic Computing Complex, and the 
Nonproliferation and International Security Center. All told, I believe 
the projects will be over $10 million under budget. Will Los Alamos be 
allowed to keep the ``under-run'' amount and apply to other pressing 
infrastructure projects at the lab?
    Answer. NNSA has directed that these under-runs proposed for 
reprogramming to more pressing program needs at the laboratory such 
replacing contingency funding in the pit program and paying the 
closeout costs for the Accelerator Production of Tritium program.
          los alamos administration building (a/k/a ``sm-43'')
    Question. Dr. Beckner, on many visits to Los Alamos, I've noted the 
condition of its administration building. This building has had a 
long--almost 50 year--history of contributions to national security, 
but that long history has resulted in an obsolete building that is 
sadly in need of replacement.
    It certainly is one of the buildings in our complex that does not 
represent an atomosphere even vaguely appropriate for a premier 
scientific facility. It represents a significant impediment to plans to 
entice new staff to consider location at Los Alamos to replace the many 
retiring scientists and technical staff.
    The NNSA and the Laboratory were moving ahead with replacement of 
the building and ``design-build'' proposals were solicited and a 
winning team was identified. The work was poised for kick-off in fiscal 
year 2003, but the Department has recently decided to postpone the 
project. Will you re-evaluate the Department's decision to postpone 
work on SM-43 and consider including SM-43 within the infrastructure 
upgrade funds that I've worked to obtain in the last year?
    Answer. All NNSA line-item construction projects (including SM-43) 
that are part of the Future Years Nuclear Security Plan (FYNSP) (fiscal 
year 2003-2007) were recently reviewed. The outcome of this evaluation 
was the development of an Integrated Construction Program Plan (ICCP) 
that fully supports line-item construction projects within the FYNSP. 
This plan fully supports the SM-43 project over a 2-year period (ending 
in fiscal year 2005) vice versa what was originally proposed as a 3-
year project (ending in fiscal year 2005). Los Alamos, as well as the 
other seven NNSA sites will review the ICPP and will integrate it with 
the Facilities and Infrastructure Recapitalization Program (FIRP) and 
the Operations of Facilities programs in a Ten-Year Comprehensive Site 
Plans. We will continue to work with LANL to ensure that concerns with 
the SM-43 funding are properly addressed within the sites' overall 
priorities.
               los alamos national laboratory foundation
    Question. Dr. Beckner, Section 3136 of the National Defense 
Authorization Act for Fiscal Year 2002, which I sponsored, specifically 
authorized the Secretary to continue payments to the Los Alamos 
National Laboratory Foundation for fiscal year 2003.
    That Foundation enables vital educational enrichment programs in 
the region surrounding the Laboratory in Los Alamos. It directly 
supports the Laboratory's ability to recruit and retain the scientific 
staff who certify our nuclear stockpile and are playing a vital role in 
homeland security and the war against terrorism.
    The Laboratory has announced their intent to hire up to 1,000 new 
employees in the near future, those employees will be encouraged to 
consider the Laboratory by the quality of schools in the vicinity of 
the Laboratory. Please explain the Department's rationale for zeroing 
this support in fiscal year 2003?
    Answer. Although further payments were authorized, no further 
funding was requested for the Northern New Mexico Educational 
Enrichment Foundation in the fiscal year 2003 President's Budget 
because the Department's commitment to endow the fund with $25 million 
was completed in fiscal year 2002. However, based on the Department's 
latest analysis of the situation as described in our May 7, 2002 report 
to Congress, the Department plans to continue support for the 
Foundation after fiscal year 2003.
    Question. Dr. Beckner, Section 3161 of last year's National Defense 
Authorization Act directed the Department to issue a report by March 1, 
2002, on future requirements for support of educational programs 
associated with the Los Alamos National Laboratory Foundation and the 
Los Alamos Public schools.
    As of today, March 18, that report has not been received by 
Congress. It is our understanding that a draft of that report is 
prepared and awaiting approval within the Department. Will you please 
expedite prompt release of this report?
    Answer. The Office of Defense Programs will work with the other 
elements of the National Nuclear Security Administration and the 
Department to deliver this report to the Congress in mid May 2002. High 
quality schools in Los Alamos have always been considered a crucial 
factor in our ability to attract and retain world class scientists and 
engineers for the Stockpile Stewardship program. Continued 
congressional support for this activity is critical.
                    nonproliferation budget--general
    Question. General Gordon, I am pleased to see the broad and 
specific goals of your nonproliferation program receive strong support 
from last year's NSC review. Overall, I believe you have a good budget 
for fiscal year 2003. How would you characterize your progress in the 
Nuclear Nonproliferation Program over the life of the program?
    Answer. The progress has been steadily increasing in both its rate 
and effectiveness. We have successfully overcome much of the mutual 
suspicion of our former Cold War rival and the cooperation is at an 
all-time high. This is reflected in the accelerating rate of both site 
and material upgrade completions. The high degree of cooperation is 
also reflected in the greater opportunities presented by Russian 
officials for material security, such as the presentation of new sites 
and the offer to work with the Strategic Rocket Forces.
    Question. How many sites did you protect last year compared to 
previous years?
    Answer. Last year, in fiscal year 2001, the MPC&A Program completed 
comprehensive upgrades at 7 sites in Russia, bringing the total number 
completed to 38. During the current fiscal year, the program plans to 
complete comprehensive upgrades at 5 more sites. The ambitious fiscal 
year 2003 Plan calls for the completion of comprehensive upgrades at an 
additional 12 sites, bringing the overall total number of sites 
completed to 55.
    Another way to measure the progress is the percentage or proportion 
of Russian nuclear materials brought under the program's auspices. 
During the 3 year period 2001-2003, the percent of the approximately 
600 metric tons of material secured under comprehensive upgrades will 
double, from 12 percent at the beginning of fiscal year 2001 to 23 
percent at the end of fiscal year 2003. Also, the percent of the nearly 
4,000 Navy warheads secured under comprehensive upgrades has risen from 
0 percent at the beginning of fiscal year 2001 to approximately 74 
percent secured by the end of fiscal year 2003.
    Question. What, if anything is needed to ensure the success of this 
program?
    Answer. Continued high-level support by the Administration and 
Congress is critical to ensure program success. The improvement in the 
relationship between the leaders of the two countries has helped to 
implement activities at the working level. Also, continued funding and 
support from Congress help us to maintain our current accelerated pace 
of completions and deepening trust with our counterparts in Russia.
                     materials protection in russia
    Question. Ambassador Brooks, the Secretary recently said that 
progress on the MPC&A tasks in Russia is 2 years ahead of schedule. 
That's excellent news--I'm a very strong proponent of this program. How 
has the program planning change recently?
    Answer. Since the September 11 attacks, NNSA has taken aggressive 
steps to accelerate and expand its role in facilitating nuclear 
security cooperation. Last year NNSA estimated that that the completion 
of comprehensive upgrades to the security at the 53 known weapons-
usable nuclear materials sites in Russia would not take place until 
2010. This time-frame has been shortened because of an access agreement 
signed in September of 2001 that utilized budgetary resources provided 
by supplemental appropriation. At this time, NNSA estimates that all 53 
sites will be completed at least 2 years ahead of the 2010 completion 
estimate.
    Russian naval sites have also received increased attention. NNSA 
estimated in 2001 that it would take until 2008 to complete 
comprehensive upgrades at 42 Russian naval sites storing nuclear 
warheads; NNSA has accelerated its efforts and the completion date is 
now 2006.
    Another new initiative is a concerted effort to reduce the threat 
posed by a Radiological Dispersion Device (RDD) against the United 
States. The NNSA has started work with Russia, Uzbekistan and the IAEA 
to secure materials that could be used to develop and deliver an RDD. 
It is hoped that future cooperation will be expanded to include 
additional countries in regions of concern.
    Question. Are the Russians fully on board with these new forecasts 
of progress and specifically have new agreements reduced past concerns 
on ``access'' issues to various facilities?
    Answer. Yes, the Access Agreement signed in September of 2001 with 
MinAtom includes all MPC&A work at MinAtom's civilian and weapons sites 
covering over 500Mt's of nuclear materials. It allows up to 120 site 
visits per year by teams of up to six people drawn from an access list 
of 185 program personnel. At the outset of fiscal year 2002, work 
resumed under the MPC&A program at the three key MinAtom sites (VNIITF, 
VNIIEF, and Elektrostal). This work had been suspended indefinitely at 
the end of fiscal year 1999. In April 2002, MPC&A program 
representatives and MinAtom agreed to a list of mutually acceptable 
site-wide MPC&A upgrades at VNIITF (formerly known as Chelyabinsk-70) 
estimated to be worth approximately $38 million. These upgrades include 
construction of a new central storage facility for nuclear material 
that will reduce the number of locations at the site where 
proliferations attractive nuclear material is stored. A similar 
agreement for VNIIEF (formerly Arzamas-16) is very close to completion. 
It identifies a suite of site-wide MPC&A upgrades valued at 
approximately $44 million, including completion of a central storage 
facility. At Elektrostal, DOE teams have been given access to buildings 
where we were told 3 years ago we would never be allowed to visit. We 
have made confirmatory measurements of the nuclear material at the 
sites and have begun MPC&A upgrades.
                     materials protection in russia
    Question. Significant additional funds were provided in the current 
year for MPC&A. Have you been able to adjust the program to effectively 
utilize these increased funds?
    Answer. Yes, additional resources provided by the fiscal year 2002 
supplemental appropriation combined with the signing of the 2001 Access 
Agreement have bolstered the MPC&A program enabling it to aggressively 
shorten its completion target dates for securing Russian nuclear 
facilities and materials. As mentioned previously, comprehensive 
upgrades at Russia's 53 known weapons-usable nuclear material 
facilities will be completed 3 years earlier than expected. The 
securing of Russia's 40 naval sites with nuclear weapons will be 
completed 2 years ahead of schedule. Finally, as testament to the 
administrative handling of the program, over 90 percent of the program 
funds will be committed to projects by the year's end.
    Question. Russia has four serial production facilities with immense 
production capacity, which hold enormous quantities of weapons-usable 
materials. I understand that we do not have an MPC&A program at these 
facilities. What is being done to change this limitation?
    Answer. For several years, MPC&A program management has been 
working with MinAtom at a very high level at the four serial production 
enterprises. In April 2002, MinAtom was presented with over $35M worth 
of contracts to construct central storage facilities at the two largest 
serial production enterprises (SPE's). Discussions continue on what 
would be unprecedented cooperation with Russia. Successful signing of 
these new contracts would open the door for expanded opportunities to 
finish securing the weapons-usable materials at the SPE's.
 materials protection control and accounting program issues around the 
                                 world
    Question. Ambassador Brooks, I've championed the Materials 
Protection Control and Accounting (MPC&A) program as its been applied 
to Russia. Russia is certainly the largest source of nuclear materials 
which could become potential threats to our security. But the events of 
last September must heighten our concern with materials for any weapon 
of mass destruction anywhere in the world.
    We need to look beyond MPC&A in Russia and ask how to best expand 
these efforts globally. I remember that in Russia, early progress was 
largely accomplished on a scientist-to-scientist basis through the so-
called ``lab-to-lab'' approach. It was only after scientific ties were 
established that more formalized government-to-government approaches 
began to make some progress. Is the original ``lab-to-lab'' approach 
being revisited to encourage progress in some of the countries that may 
present threats?
    Answer. The NNSA national laboratories have and will continue to 
play a critical role in carrying out the MPC&A Program's mission. The 
MPC&A Program is committed to using the most cost-effective methods, 
including expanded lab-to-lab engagements to accelerate the security of 
nuclear warheads and material.
    Question. Could Congress provide new authorizations for the 
Department that would facilitate MPC&A progress on all materials, not 
just nuclear, and not just in Russia?
    Answer. The NNSA's MPC&A program has, and will continue to, focus 
on securing nuclear materials considered to be at risk to illicit 
diversion and/or vulnerable to terrorists. Congressional authorization 
is required if the MPC&A program is to be expanded into these areas of 
emerging threats.
    Question. Please provide me with specific suggestions on enhanced 
authorizations that would enable this progress.
    Answer. The MPC&A is working aggressively to secure nuclear 
materials in Russia. A specific suggestion is to grant the authority 
for the MPC&A program to work cooperatively with countries throughout 
the world in order to prevent nuclear materials from being illicitly 
diverted or falling in the hands of terrorists.
                 russian plutonium disposition program
    Question. Ambassador Brooks, I appreciate that the President and 
Secretary proposed funding for a robust U.S. plutonium disposition 
program utilizing MOX fuel in commercial reactors. As you know, 
progress on plutonium disposition must be coordinated between the 
United States and Russia.
    The United States cannot be the only nation with a disposition 
program, especially when Russia has far more surplus plutonium then the 
United States. Without the full cooperation of the Russian government 
in finalizing their program, progress on this vital area is at risk in 
both nations.
    In past years, the focus within Russia was on disposition of their 
plutonium via a MOX program--but in talks with Russian leaders, I'm 
aware that the Russians have minimal interest in this approach and will 
pursue it only if paid to do so. To date, attempts to get international 
cooperation on funding package to cover the $2 billion Russian MOX 
program have not been successful. Is the Department actively discussing 
with the Russians other options for plutonium disposition that would be 
more in line with their national priorities, where they would be ready 
to invest significant amoungs of their own funds?
    Answer. Russia remains committed to the September 2000 Plutonium 
Management and Disposition Agreement (PMDA) (i.e., use of existing 
VVER-1000 light water reactors and the BN-600 fast reactor for 
plutonium disposition). While the Russians appear willing to modify 
some elements of the Russian plutonium disposition program in order to 
make it less costly and more sustainable, they are firm in the view 
that the existing PMDA should serve as the framework for plutonium 
disposition in the two countries. In this regard, representatives from 
the Departments of State and Energy have begun a series of meetings 
with senior officials of the Russian Ministries of Atomic Energy 
(MinAtom) and Foreign Affairs to discuss ways to improve the Russian 
program. By the fall of 2002, the Administration expects to have a much 
better definition of the details of Russian plutonium disposition and a 
much better appreciation of the costs of possible improvements or 
alternatives in the Russian program.
    In addition to examining ways to make the Russian program more cost 
effective, the Department of State, working with the Department of 
Energy, has intensified efforts and meetings with G-7 to obtain 
additional international pledges. The Administration is discussing with 
other G-8 countries a ``Global Partnership'' initiative, wherein the 
United States will pledge $10 billion in support of nonproliferation 
programs over the next 10 years, to be matched by a similar $10 billion 
commitment by other G-8 members. The allocation of these funds among 
nonproliferation programs will be the subject of future discussions and 
negotiations.
                 russian plutonium disposition program
    Question. Specifically, are the following alternatives to MOX being 
discussed?
  --Use of existing Russian fast reactors
  --Assistance in construction of another Russian fast reactor
  --High temperature gas-cooled reactors
  --Plutonium-thorium fuel combinations in existing VVER reaactors.
    Answer. No decisions or agreements exist at present concerning the 
employment of the BN-800 fast reactor for Russian plutonium 
disposition. In January 2002, DOE and MinAtom formed a joint U.S.-
Russian working group to conduct a preliminary assessment of the costs 
that would be involved in employing a combination of (BN-600 and BN-
800) fast reactor units for Russian plutonium disposition. Results of 
preliminary cost assessment are expected in July. The United States has 
no plans to assist in the construction of another Russian fast reactor 
for implementing the Russian plutonium disposition program.
    Russia is the early stages of researching the possible use of 
plutonium-thorium fuel in existing VVER reactors for the disposition of 
surplus plutonium beyond the 34 metric tons in the 2000 Agreement. In 
addition, Russia and the United States are researching gas reactors for 
use as a possible long-term option for of surplus Russian plutonium 
beyond the 34 metric tons. Both of these reactors are unrealistic for 
meeting the needs of the first 34 tons of the plutonium disposition 
program because they are more costly and dispose of plutonium more 
slowly than the existing MOX approach. The risks of failure or 
significant delay using these options are high because they depend on 
unproven, immature technologies.
    The Department is also participating with MinAtom in an experts 
group for examining technologies associated with proliferation 
resistant fuel cycles. The joint U.S.-Russian experts group began work 
immediately after the May Presidential Summit and will report its 
findings to the Secretary of Energy and the Russian Minister.
                 disposition of 2 tons of our plutonium
    Question. Ambassador Brooks, in announcing the decision for 
disposition of our weapons-grade plutonium via MOX, the Department 
indicated that plans for the disposal of 2 tons of plutonium-bearing 
wastes were not final. There were suggestions that materials might be 
diluted to remove them control of safeguards and then to proceed with 
disposal in WIPP.
    I've since been assured in writing by the Secretary that a range of 
alternative disposition paths will be examined for these materials and 
that they will not be shipped to WIPP. What is the status of studies of 
alternative pathways for that (2 tons of U.S. plutonium) material?
    Answer. The Department is still evaluating a range of disposition 
alternatives for this material. Key employees involved in these studies 
were working on preparing for the recent litigation involving plutonium 
shipments to the Savannah River Site. Now that the lawsuit is near 
completion, efforts on evaluating a range of disposition alternatives 
for this material will resume.
                     russian transition initiatives
    Question. Ambassador Brooks, on several occasions the 
Administration indicated its strong support for programs designed to 
employ scientists in the Former Soviet Union. The Initiatives for 
Proliferation Prevention (IPP) has enjoyed tremendous success, and the 
Nuclear Cities Initiative has tremendous potential to make progress in 
downsizing the former Soviet weapons complex. However, even though you 
propose a budget increase for nonproliferation overall, the budget 
request for these Russian Transition Initiatives drops from $57 million 
to $39 million. If you were provided additional resources in this area, 
would you be able to effectively use them in fiscal year 2003?
    Answer. The potential of both RTI programs are determined by the 
level commitment; the more money invested in them, the more that they 
are able to do. With additional resources, NCI could accelerate many of 
its efforts, speeding the closure of Avangard, for example, while IPP 
could fund additional projects to meet U.S. industry demand in new 
technology areas.
        role on nnsa labs in counter-terrorism/homeland security
    Question. General Gordon, in your testimony you indicated you had 
created a working group to define what capabilities we can bring to 
bear on the problems at hand, and not just in the nuclear arena. NNSA 
has many capabilities in many areas that should be applied to fighting 
terrorism both at home and abroad. Will you elaborate on your goals and 
expectations in this area?
    Answer. NNSA has world class science and technology resources and 
its goal is to focus those resources on the problem of homeland 
security and combating terrorism (CT). We have already drawn from our 
nuclear weapons R&D, test and manufacturing base in developing 
technologies that have made significant contributions, for example, to 
the detection of chemical and biological agents. Substantial efforts 
are also underway to understand and prioritize our domestic 
vulnerabilities and develop and implement the tools to mitigate them. 
We expect to continue these contributions whenever and wherever they 
are needed.
    Question. Are the resources of DOE/NNSA complex being effectively 
and efficiently utilized in this arena?
    Answer. Yes, but there is always room for improvement. A major 
effort is underway to strengthen coordination among various entities 
with CT responsibilities within the Department. Recently, the NNSA 
enterprise (i.e., the labs, production plants, Nevada Test Site, and 
Headquarters) are strengthening efforts to reach out to state and local 
agencies to understand better their particular needs in CT. In many 
cases there are near-term solutions being identified (e.g., providing 
data on R&D and nuclear weapons threats) and longer-term R&D programs 
that address more difficult problems (e.g., port security and the 
containerization problem).
    Question. Have you considered a fund or pool of funds that could be 
utilized by the labs to work on combating terrorism for other agencies?
    Answer. This year, I have undertaken an initiative to identify new 
R&D initiatives or acceleration of ongoing initiatives for application 
in the war against terrorism. An example of the use of this fund is R&D 
and the demonstration of a Radiological Detection Tracking System. This 
system has potential use by a number of agencies to combat terrorism. 
We have funded these within current authorities and funds available to 
NNSA.
        role on nnsa labs in counter-terrorism/homeland security
    Question. Is DOE/NNSA sufficiently represented in the multi-agency 
task forces and committees working on developing the appropriate 
response to terrorist threats?
    Answer. The Office of Homeland Security (OHS) has created several 
interagency working groups to coordinate agency programs for countering 
terrorism. Several existing Office of Science and Technology Policy 
(OSTP) interagency working groups, initiated to coordinate R&D 
programs, have been incorporated into this effort. The NNSA is a full 
participant in these groups. For example, DOE/NNSA is a member of the 
OSTP/OHS R&D strategy group identifying research and technology needs 
to combat WMD terrorism. Members, in addition to DOE/NNSA, represent a 
broad cross section of the nation's research and technology agencies. 
NNSA, is also a member of the Technical Support Working Group, working 
with the Departments of Defense, State and others to conduct a research 
and development program for combating terrorism requirements, both 
nationally and internationally.
    Question. What is the NNSA doing to make the resources of its 
laboratories more readily available to the Office of Homeland Security?
    Answer. The scientific and technological resources, world-class 
scientists and facilities of the NNSA national laboratories are 
available to OHS and other Federal agencies conducting the war against 
terrorism through the reimbursable Work for Others (WFO) program. We 
presently have a working group, chartered by General Gordon, to explore 
ways that the WFO process can be strengthened to provide broader and 
more timely support to the war against terrorism. The group's efforts 
include review of present policies and procedures governing WFO and 
discussions with policy officials and program managers across the 
interagency on ways the laboratories can be made more readily available 
to assist them in CT and related missions. These are part of NNSA's 
efforts to strengthen its scientific and technical leadership and serve 
as the lead agency for science and technology for OHS.
    Question. What additional funding will be needed to make this 
possible?
    Answer. If the NNSA were to serve as the lead technical agency for 
the OHS, additional funding would be required to establish the 
infrastructure and hire additional staff to perform the expanded 
mission. The additional funds required to serve as lead technical 
agency would be based on the specific role that NNSA would perform 
(e.g., interagency coordination of S&T initiatives vs. management and 
conduct of S&T initiatives). Specific funding estimates are not yet 
available.
        role on nnsa labs in counter-terrorism/homeland security
    Question. Related to the previous question, what is being done to 
lower barriers to access of these capabilities by other agencies, 
notably DOD, through the work for others (WFO) process?
    Answer. Immediately following the September 11 attacks, General 
Gordon called upon the national labs, plants and test site to respond 
immediately to requests for technical assistance. Emergency 
authorization was provided for this work that eased many WFO 
restrictions, especially regarding starting work before funds arrive 
from the requesting agency. Also the labs, plants, and Nevada Test Site 
provided technical experts and specialized equipment in response to 
several urgent requests including, for example, early warning of 
nuclear, chemical, or biological attack at key locations, support to 
New York City clean up efforts, support to FBI investigation of the 
anthrax letters, support to the Post Office and the Senate Hart 
building in connection with biological decontamination efforts, and 
many more.
    DOE/NNSA is now promulgating new, streamlined WFO procedures to 
facilitate access by other agencies with antiterrorism responsibilities 
to the technical capabilities at the national labs/plants/test site. 
This includes establishing technical teams to work with agencies to 
help define problems, work towards solutions, and provide necessary 
technology and training. With regard to DOD, NNSA has recently signed 
an agreement with DTRA to carry out jointly the Model Cities program 
that will demonstrate improved surveillance and detection methods 
against the threat of biological terrorism in urban centers. NNSA and 
DOE Emergency response are working jointly with DOD and other Federal 
agencies across a broad front to upgrade and develop new capabilities 
to prevent, detect and respond to nuclear terrorist threats of all 
kinds-ranging from radiological dispersal devices at the low end of the 
threat spectrum to crude nuclear explosive devices (improvised nuclear 
weapons) at the high end.
        role on nnsa labs in counter-terrorism/homeland security
    Question. How can DOE/NNSA expand it nonproliferation and Russian 
programs to counter the emerging threat of nuclear and radiological 
devices? What about expansion to other countries and regions?
    Answer. The DOE/NNSA is undertaking a number of initiatives to 
expand our efforts to counter these threats. First, we have worked to 
accelerate existing efforts to address vulnerabilities associated with 
nuclear material and expertise in the Russian Federation and the Newly 
Independent States (NIS). These efforts have resulted in greater access 
to sensitive facilities where vulnerabilities exist, and significant 
reductions in program implementation schedules. More nuclear facilities 
and border crossings are receiving security upgrades in parallel than 
ever before. We are investigating the possible expansion of our work to 
address national security threats posed by radiological dispersal 
devices or ``dirty bombs'' by assessing and prioritizing threats posed 
by various source materials in a range of locations. Pilot efforts to 
secure vulnerable materials are already underway.
    Regarding other countries or regions, we are intensifying efforts 
to engage with countries outside the Former Soviet Union (FSU) where 
significant vulnerabilities associated with nuclear materials, 
expertise, or export controls exist. Nuclear security cooperation is 
being discussed when we believe a credible threat exists and diplomatic 
and legal issues do not prohibit dialogue with a potential recipient 
country. We are also intensifying our efforts to support International 
Atomic Energy Agency (IAEA) programs to train member states on nuclear 
material security concepts.
    Question. NNSA's laboratories have played a key role in the 
investigation of the mail-based anthrax attacks. Do you see a growing 
role for the NNSA and its laboratories in this area of bio-terrorism 
prevention and response?
    Answer. Yes, the NNSA laboratories played a key role in the anthrax 
attacks deriving from the R&D program structured and executed by NNSA. 
If NNSA had not been poised to respond in areas such as biological 
forensics, interior fate and transport modeling, and decontamination, 
the identification of and response to the mail-based attacks would have 
been more difficult. NNSA continues to develop, validate, demonstrate, 
and transfer much needed technologies and capabilities for civilian 
protection and defense, working with other agencies toward the ultimate 
goal of an integrated biological and chemical defense approach for 
urban environments. By working closely with the user community, 
especially the state and local governments, their needs are 
incorporated into the planning and execution of research projects. 
Sustained, stable funding greatly enhances our ability to achieve 
program goals focusing on the civilian population.
     national infrastructure simulation and analysis center (nisac)
    Question. General Gordon, I would like to talk to you briefly about 
the NNSA's role in Homeland Security, particularly as it relates to the 
Department's leadership role in protecting our national energy 
infrastructure--such as pipelines, power plants, and transmission 
systems.
    The Department's Office of Energy Security and Assistance provides 
the technical support, response and recovery for the United States 
critical energy infrastructure, by working to protect the Nation 
against severe energy supply disruptions.
    One of the Government's best tools for this effort is the National 
Infrastucture Simulation and Analysis Center (NISAC) which utilizes the 
supercomputers at Sandia and Los Alamos National Laboratories to better 
understand the interdependence and vulnerabilities of critical 
infrastructure.
    NISAC will prove very useful to the Department of Energy, but it 
also has many applications outside the purview of the Department. 
Governor Ridge's Office of Homeland Security has taken a great interest 
in using NISCAS.
    The development of NISAC has been supported by many agencies. In 
the past three years, I have worked to provide $24.5 million for NISAC 
through the Department of Defense. The Administration has requested $20 
million for NISAC through the Department of Energy instead of the 
Department of Defense in fiscal year 2003. What role could you envision 
for NISAC if it were within the NNSA?
    Answer. I support the President's proposal that the NISAC be 
managed within the Department of Energy. I am confident that under 
DOE's leadership, the NISAC will become a national asset that enhances 
both the economic and physical security of our nation. By placing NISAC 
under the direct control of the Secretary of Energy, the President has 
recognized that the analytical capabilities available in the DOE 
complex are critical to its success. The NISAC will be a strategic 
asset and the Department will manage it as such. Interagency and 
intergovernmental coordination for the development of fiscal year 2003 
and outyear NISAC requirements is already underway. The DOE Office of 
Energy Assurance is working closely with the Sandia and Los Alamos 
National Laboratories to ensure scientific capabilities are properly 
aligned with the national security strategy. Additionally, the 
Department is closely coordinating with the Office of Homeland Security 
and the President's Critical Infrastructures Protection Board to 
develop a review process for NISAC requirements. The Department of 
Energy is the appropriate agency to provide long-term oversight and 
management of this critical project.
     national infrastructure simulation and analysis center (nisac)
    Question. If NISAC is funded through the NNSA, how could you ensure 
that it is available to the Office of Homeland Security and other 
agencies involved in critical infrastructure protection?
    Answer. The Department is developing a plan to ensure requirements 
developed for the NISAC are national, not departmental. The 
capabilities under development within the NISAC are much broader than 
the individual needs of any one agency. DOE understands the importance 
of detailed analysis of the interdependencies associated with critical 
infrastructure protection. The Secretary also supports the need for the 
Office of Homeland Security and other agencies to be partners in 
identifying what studies are required and in what priority order they 
must be completed. The Secretary of energy is committed to protecting 
the scientific capabilities resident within the DOE complex to do so. 
Understanding that not all agency needs will gain consensus as high 
priority in an interagency review process, the NISAC will also be able 
to provide analytical support to requesting agencies utilizing joint 
funding and Work for Others programs.
                             security costs
    Question. General Gordon, the fiscal year 2003 budget request does 
not include funding to continue to current rate of security operations 
through-out the weapons complex. I believe it would take at least an 
additional $65 million for fiscal year 2003. Why were these funds not 
included in the budget request?
    Answer. The fiscal year 2003 budget was formulated before the 
September 11 attack occurred and resulting implications for fiscal year 
2002 and beyond became known.
    Question. Can we expect to see these funds requested in a future 
supplemental?
    Answer. We continue to assess the safeguards and security posture 
of our complex in response to the evolving threat to our environment 
and we are prepared to rebalance our funding priorities as necessary to 
assure continued protection of our critical national assets.
                   nnsa's nuclear systems initiative
    Question. Admiral Bowman, the fiscal year 2003 NASA budget proposes 
a ``nuclear systems initiative.'' This initiative will develop new 
radioisotope power systems for on-board electric power on future space 
platforms, and it will also conduct research and development on nuclear 
electric propulsion systems that would allow future space craft to 
speed throughout the outer reaches of the solar system.
    NASA has proposed spending $126 million in fiscal year 2003 and up 
to $1 billion in the next 5 years. I understand the NASA Director has 
expressed an interest in collaborating with Naval Reactors in this 
effort. What is your view of this effort and the role for Naval 
Reactors?
    Answer. Dr. Sean O'Keefe, NASA Administrator, has established a 
bold ``nuclear systems initiative'' to reach outer space more 
efficiently than today's technology would allow.
    Naval Reactors does not have any ongoing work, nor do we have any 
budgeted work, for space nuclear propulsion. We have had discussions 
with NASA regarding what issues would need to be addressed for us to be 
involved. These discussions have been very preliminary in nature. No 
agreements have been reached.
    In discussions with high level officials at NASA and DOE, we 
explained that in the past, our work has been limited to Naval Nuclear 
Propulsion, and civilian power reactor programs as assigned. We 
expressed that we consider it inappropriate for NR to begin to design 
or build a space reactor unless given clear direction to do so by the 
White House or Congress. We have also discussed providing peer review 
of the effort as long as funding for this purpose is provided.
    Naval Reactors is fully employed with our current workload. 
However, if there were a defined national need for a space nuclear 
program, we would undertake this project if assigned by proper 
authority and appropriately funded.
    Question. Do you agree that the other NNSA labs with expertise in 
nuclear systems for space should play a strong role in this effort?
    Answer. Any project of this magnitude would certainly require the 
expertise of a large number of organizations.
    If reactor design or construction work is assigned to us, it would 
make sense to use the experience of the NNSA laboratory designers and 
infrastructure who have helped build our record of 50-plus years of 
operational success. Our involvement, if requested, should include 
maintaining the independence of both Naval Reactors Headquarters and 
our NNSA laboratories as provided in Executive Order 12344 and codified 
in two public laws.

                          SUBCOMMITTEE RECESS

    Senator Reid. The subcommittee stands recessed.
    [Whereupon, at 11:20 a.m., Monday, March 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, APRIL 18, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray presiding.
    Present: Senators Murray, Domenici, Cochran, Bennett, and 
Craig.

                          DEPARTMENT OF ENERGY

STATEMENT OF HON. JESSIE HILL ROBERSON, ASSISTANT 
            SECRETARY, OFFICE OF ENVIRONMENTAL 
            MANAGEMENT
ACCOMPANIED BY DAVID GARMAN, ASSISTANT SECRETARY, OFFICE OF ENERGY 
            EFFICIENCY AND RENEWABLE ENERGY

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. The subcommittee will come to order. 
Senator Reid, chairman of this subcommittee, was unable to be 
here at the last minute this morning. He is presiding over the 
energy debate on the floor. We have two very, very critical 
votes coming up in about an hour and a half here and he was 
unable to make it. We will submit his testimony for the record, 
but he knows how critical these issues are. He has worked very, 
very hard on them, and we will submit his statement and his 
questions for the record and he gives all of you his apologies 
for not being here.
    I would like to begin by thanking Chairman Reid and Senator 
Domenici for holding this hearing today and for scheduling it 
to accommodate those members who do have a vital interest in 
the environmental management program. The effort at the Hanford 
Nuclear Reservation and all of our national sites is not just 
about cleaning up nuclear wastes. To me it is about honoring 
our commitments to people and communities who have sacrificed 
over the years to ensure our safety.
    During World War Two and the Cold War, the people of the 
Tri-Cities in Washington State produced the material that went 
into our strategic arms. We won those wars in part because of 
the sacrifices made in the Tri-Cities. One legacy of that 
sacrifice is the freedom that we enjoy today. But another 
legacy is the nuclear waste.
    We have one of the most polluted sites in the world, the 
Hanford Nuclear Facility on the banks of the Columbia River. 
When it comes to environmental management program, the Bush 
Administration has some real credibility problems. Before the 
President's first budget was released, the budget director 
assured me that, despite press reports, Hanford's budget would 
not be cut. When the budget finally emerged, we found out the 
Hanford was cut after all. This year, for the second year in a 
row, the President's budget shortchanges Hanford.
    Equally disturbing are some of the recent management 
decisions made by the Department of Energy. DOE has failed to 
provide real assurances to the State of South Carolina. DOE is 
replacing a very successful site manager at Hanford. DOE is 
cutting the staff at the Office of River Protection, and DOE's 
actions have drawn a lawsuit by the Natural Resources Defense 
Council.
    All of these decisions by the Bush Administration do not 
give me a lot of confidence that the Department of Energy is on 
the right track. I have to tell you that in my community and in 
other sites across the country these actions have created the 
perception that the administration is taking unilateral actions 
that pit sites against one another in a competition for 
funding.
    You have the opportunity to reverse that perception by 
committing to work with the communities, the States, the 
regulators, to move the cleanup forward in a cooperative 
manner. I am not just talking about the Hanford site. We have 
Savannah River, Idaho, and others. It will not be acceptable to 
me or, I trust, this subcommittee to fail to meet Federal 
obligations at Hanford and the other sites.
    I recognize the potential contained in the letter of intent 
recently signed between the State of Washington and the 
Department of Energy. However, it is going to take a lot of 
work and cooperation to make that intent a reality, and I'm not 
yet convinced that the administration is doing its part.
    With the help of my colleagues on this panel and the 
Nuclear Waste Cleanup Caucus, I will continue to push the 
Federal Government to meet its Federal obligations at every 
site.
    Senator Craig.

                  STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. Madam Chairman, thank you very much. I am 
pleased that both Secretary Garman and Secretary Roberson are 
with us this morning. We are going to hear testimony on two 
programs that are awfully important to, I believe, DOE and the 
Nation and to the Idaho National Engineering and Environmental 
Laboratory in my State.
    Now, I must tell you that I, along with the chairman, have 
been somewhat of a skeptic and a critic of DOE's accelerated 
cleanup proposal for EM. While we can embrace the Secretary's 
goals of accomplishing more cleanup and doing it faster, and I 
think we all do, I have looked the Secretary straight in the 
eye and said: This has to be real. It cannot be just a 
mechanism for cheapening up cleanup standards and compromising 
on the protection of the environment.
    I must tell you that we all know the Secretary well enough 
to know that he looked me right back and said without question 
that there would be no compromises. He and I very early, on 
while he was a nominee-talked of this long period of time in 
which we had spread out cleanup at these facilities and that if 
there was any way to shorten it and do it as well as we planned 
to do it and do it in less time, that we would be dealing in 
tomorrow's dollars and not the dollars of next year or next 
year or decades later. Very frankly, that made sense to me.
    Cleanup acceleration cannot be a mechanism for DOE to walk 
away, though, from its commitments and obligations, and we know 
that. I believe the Secretary is a man of his word. He has 
assured me that his effort to reform and accelerate cleanup is 
a sincere one.
    I have nothing against a new leadership team wanting to 
take a fresh look at the cleanup programs. In fact, I think 
sometimes we bureaucratize these things in a way sometimes 
causing folks to go back and look again and be shaken a bit by 
an effort that can produce the kind of productivity that we 
need to have at these facilities.
    The EM program will take decades and cost many tens of 
billions of dollars. That is the reality that this country is 
committed to, and I think it deserves our best effort and our 
highest scrutiny.
    I am also pleased that yesterday the Governor of Idaho has 
been able to announce a resolution to Idaho's longstanding 
dispute with DOE over the Pit 9 cleanup issue. Pit 9 has been a 
cloud on our horizon, your horizon, way too long, frustrating 
all of us. We now have, I believe, a workable path forward for 
demonstrating the cleanup at Pit 9.
    Although Idaho and DOE can agree to disagree, and we have, 
on the legal interpretation of DOE's entire obligation for 
buried waste, we now have a way to break the logjam and move 
forward, and I think the Secretary and all of you, Secretary 
Roberson, you certainly demonstrated your commitment to doing 
that.
    This resolution will also allow Idaho to engage in a very 
earnest effort with DOE to begin to discuss how Idaho's cleanup 
can be accelerated. Although I do not support DOE's request for 
the appropriations of $800 million unallocated pot of money for 
acceleration, I do believe that the subcommittee should examine 
the results of DOE's accelerated cleanup discussion and try to 
factor the outcome of those proposals in the cleanup budget, 
which we will then appropriate for the sites.
    Secretary Abraham and I have discussed this and we both 
desire to see the reform discussion move forward as soon as 
possible. Secretary Roberson, I look forward to you and your 
office working on this in the coming weeks so that we can be 
successful in Idaho. Hanford has already spoken, as the 
chairman said, to their direction in acceleration.
    Assistant Secretary Garman, I recently sent you a letter 
and I understand you are exploring the opportunities to visit 
Idaho to see the capability of that site and what we think is a 
tremendous opportunity for our country. We have lots of 
resource and talent at the INEL and we believe that it can be 
channeled in the right direction to be a phenomenally 
productive effort for our country, for our future, and for our 
energy needs.
    We thank you both for being here and look forward to your 
testimony.
    Senator Murray. Thank you, Senator Craig.
    We will now hear from Jessie Hill Roberson, Assistant 
Secretary of the Office of Environmental Management, and David 
Garman, Assistant Secretary, Office of Energy Efficiency and 
Renewable Energy. Ms. Roberson.

                   STATEMENT OF JESSIE HILL ROBERSON

    Ms. Roberson. Thank you, Senator Murray and Senator Craig 
and for those members that show up while I am speaking. Thank 
you for having me here today.
    I am here today to ask for your support of the Department's 
Environmental Management budget request. I am pleased to report 
to you that the transformation of the Environmental Management 
program has begun. DOE has already taken the first steps to 
change our focus from risk management to risk reduction and 
elimination, to shift our focus from process to product, and to 
instill in this program the kind of urgency necessary to clean 
up and close the nuclear legacy of the Cold War, to protect the 
environment, and secure the homeland.
    We have already taken several steps to immediately 
implement proposals for reforming and revitalizing this 
program. We have deployed special teams to most of our sites to 
work with our field DOE, contractors, State and Federal 
regulators, and other stakeholders to develop accelerated 
cleanup plans.
    We are taking actions to further augment the Nation's 
security through this consolidation of nuclear material at EM 
sites, a key recommendation of the top to bottom review. We are 
working in partnership with the National Nuclear Security 
Administration to ensure that our nuclear materials remain safe 
and secure. This accelerated effort will lead to more secure 
protection of our nuclear material inventory while reducing the 
cost of storage and protection at multiple sites.
    DOE has also taken the initial steps to align our internal 
processes and management to enable a streamlined and more 
focused approach to cleanup. EM has begun reviewing our 
contracts to ensure that they are effectively meeting our 
cleanup and closure needs. We have also begun reviewing 
existing systems and, where necessary, developing new systems 
of managing our contracts to ensure effective government 
oversight.
    The progress we have made so far is significant. It would 
not have been possible without the active support of the 
Members of this Subcommittee and I appreciate your support. As 
far as we have come to date, the unfinished work ahead of us is 
great. Most of the hardest work and the toughest challenges are 
still before us.

       ENVIRONMENTAL MANAGEMENTS FISCAL YEAR 2003 BUDGET REQUEST

    The Environmental Management budget request for fiscal year 
2003 contains key initiatives and tools we need to help us 
continue the work of transforming this program. Our budget 
request of $6.7 billion is about the same amount as 
appropriated last year. However, if we can achieve agreements 
for accelerated cleanup at most of our DOE sites across the 
complex, we are prepared, the administration is prepared, to 
amend our request consistent with the funding needs of those 
agreements.
    Our fiscal year 2003 request has two components, a base 
request of $5.9 billion and a new Cleanup Reform account. This 
new account is proposed specifically to fund projects and 
activities at sites that achieve agreements with our States to 
enable accelerated cleanup.
    Simply put, our goal is to achieve a safer environment 
sooner. To take those actions, we can base on information 
acquired from past experiences and past investments in science 
and technology and to position ourselves for future remediation 
opportunities.
    I would like to make several points clear at the outset. We 
believe, first, that this account is critical to the success of 
our efforts. Second, it is our intent to look for more 
effective and efficient ways of achieving cleanup and risk 
reduction in the base budget request of $5.9 billion, thus 
demonstrating more visible and tangible results for the entire 
budget request. Third, it is not our intent to get out of 
compliance with any of our regulatory agreements. This is not 
an assault on our cleanup agreements. These agreements are 
living documents with processes to enable improvement and 
revision to achieve our mutual goals. Fourth, DOE is not only 
looking at States, but even looking more so at ourselves. We 
cannot achieve the results we want unless we address our own 
business practices. Fifth, DOE is not seeking any new authority 
from Congress at this time to achieve our accelerated 
objectives. We believe we have adequate authority within the 
current statutory framework. If in the future we believe we 
need new authority from Congress to carry out reforms of this 
program, we will seek help at that time.
    Members of this panel have appropriately demanded more of 
DOE--more accountability, more fiscal responsibility, and more 
tangible results. We are strongly aligned with your efforts to 
improve our work. The fiscal year 2003 budget request is based 
on a simple premise: The Congress, the States and the 
communities that host DOE sites all want accelerated risk 
reduction. This budget request will put into place a valuable 
set of tools and instruments we need to achieve that mutual 
goal.

                           PREPARED STATEMENT

    I do not come before you today claiming that we have all 
the answers. In many respects, this is still a work in 
progress, and to get here we have benefited greatly from those 
who were here before us. Nonetheless, we do feel a sense of 
urgency that requires that we forge ahead in spite of some 
uncertainties. I am confident that we can, working together, be 
successful.
    Thank you very much.
    [The statement follows:]

                Prepared Statement of Jessie H. Roberson

    Mr. Chairman, and Members of the Subcommittee, I appreciate this 
opportunity to appear before you to discuss the Department of Energy's 
Environmental Management (EM) program and its fiscal year 2003 budget 
request.
    We meet today at an historic moment for the Environmental 
Management program. This is no ordinary year. This budget request does 
not come at an ordinary time. This Administration has just completed a 
comprehensive review of EM and has concluded that this program is badly 
in need of repair. For 10 years we have spent tens of billions of 
dollars but have failed to make commensurate progress towards cleanup 
and risk reduction. If present trends continue unchecked, we will 
squander taxpayer money and make only minimal progress towards cleanup 
and risk reduction. This is unacceptable. This Administration is 
determined to make changes.
    This budget represents the first step towards addressing the 
fundamental problems facing EM. DOE has analyzed what is wrong and has 
taken the first steps forward. To go further, we need the help and 
support of Congress. We need the help and support of states and our 
state and federal regulators. We need the help and support of 
stakeholders and communities throughout America. We can turn this 
program around and produce real progress towards cleanup, but only if 
we all work together towards our common goals.
    The Department is requesting $6.714 billion for the EM program for 
fiscal year 2003. This is approximately the same level as Congress 
appropriated for the program in fiscal year 2002. In a year when 
demands for Federal dollars are particularly high, this request 
demonstrates the Administration's commitment to cleaning up the 
contamination resulting from Cold War nuclear weapons production and to 
ensuring that our surplus nuclear materials are safe and secure to 
protect the Homeland.
    The budget request before you begins to fundamentally change the 
way the cleanup is carried out. We have proposed structural changes in 
our request to enable us to begin these badly needed changes. The 
request provides ``base funding'' to ensure safety and security, and to 
support on-going cleanup activities at the sites. But it also includes 
a new and separate $800 million EM Cleanup Reform account. These funds 
will be made available to those sites that can--in partnership with 
their regulators, their contractors and their communities--change their 
way of doing business to provide more tangible progress towards cleanup 
and risk reduction. If the vast majority of sites agree to the reforms 
we think are necessary, it is possible that the $800 million may become 
over-subscribed. In this event, the Administration is prepared to 
support additional resources to complete reforms at remaining sites.
    The reforms proposed in the fiscal year 2003 budget request do not 
fully meet my own--or the Secretary's--expectations of an effective and 
revitalized EM program. Rather, it is a transitional budget. It 
contains some elements of the changes we plan to put in place, but it 
is really only a first step in the transition toward a more risk-based 
and efficient cleanup program. Therefore, in my testimony, I would like 
to take a step back from the details of the request to discuss the 
current circumstances of the EM program, the conclusions of the 
recently completed program review, and key elements of my 
implementation strategy. I will then address the priorities used to 
formulate the fiscal year 2003 request and provide highlights of the 
critical work we plan to accomplish in fiscal year 2003.
              laying the groundwork for fundamental change
                        the challenge before us
    The EM program is responsible for cleaning up the environmental 
legacy of the nation's nuclear weapons program and government-sponsored 
nuclear energy research. The cleanup program is one of the largest and 
most diverse and technically complex environmental cleanup programs in 
the world. Responsible for the cleanup of 114 sites across the country, 
the EM program faces the challenge of:
  --safely dispositioning large volumes of nuclear wastes, including 
        over 340,000 cubic meters of high-level waste stored at the 
        Hanford, Idaho, West Valley and Savannah River sites;
  --safeguarding materials that could be used in nuclear weapons, 
        including over two thousand tons of intensely radioactive spent 
        nuclear fuel, some of which is corroding, and more than 18 
        metric tons of weapons-usable plutonium;
  --deactivating and decommissioning several thousand contaminated 
        facilities no longer needed to support the Department's 
        mission; and
  --remediating extensive surface and groundwater contamination.
    The painful truth is that EK has not effectively managed this 
daunting task. Ironically, EM's own indicators would say we are doing 
well. We have met over 90 percent of our regulatory milestones, and our 
contractors routinely receive over 90 percent of their available fee. 
In large part, however, we are measuring process, not progress. This 
must change.
    To illustrate the magnitude of the challenge, EM's own internal 
estimates of what it will cost to complete cleanup continue to grow. 
EM's most recent life-cycle cost estimate, based on current plans, is 
$220 billion, an estimate that could easily increase to more than $300 
billion without breakthrough changes in the program. Additionally, only 
about one-third of the EM program budget today is going toward actual 
cleanup and risk reduction work. The remainder is spent on maintenance, 
fixed costs, and other activities required to support safety and 
security.
    The schedule estimates from just a few years ago have also proven 
to be overly optimistic. Over just the past few years, the estimated 
closure or cleanup completion dates have slipped for numerous sites. 
Moreover, the three largest sites--Savannah River, Idaho National 
Engineering and Environmental Laboratory, and Hanford--have such long-
term completion dates (2038, 2050, and 2070, respectively) that the 
estimates for cost and schedule are highly uncertain and subject to 
change.
    While most of the risks at these contaminated sites do not pose an 
imminent threat to public health and the environment, the complacency 
and inaction of the status quo will eventually have startling 
consequences. DOE spends billions of dollars each year simply to keep 
these materials safe and secure. Each year we do not move aggressively 
to reduce and remove these risks, they become costlier to manage and 
maintain. On the present course, we face the real possibility that we 
will never meet our cleanup and closure goals.
    While these outcomes are not acceptable, they are also not 
inevitable. This Administration believes firmly that reform of the 
complex is possible, as well as urgent. We have seen examples even 
under the current approach where an accelerated risk-based approach has 
yielded concrete results that have served the public interest in 
cleanup and closure. At Rocky Flats in Colorado, risk-based management 
approach, effective contracting strategies and an overall sense of 
urgency have produced real progress towards cleanup and closure. This 
site has worked hard and struggled to be at the point it is today. That 
same effort is needed throughout the DOE complex.
    I believe with appropriate management and with your support, we can 
replicate these successes throughout the nation.
                conclusions of the top-to-bottom review
    Last year, the Secretary of Energy told Congress that the status 
quo in the EM cleanup program was unacceptable. He directed me to 
conduct a comprehensive review of the cleanup program with the goal of 
quickly improving performance. The team I formed to conduct the review 
concluded that there are numerous structural and institutional problems 
that are driving EM's poor performance. The report also included 
several specific calls to action to remedy this situation. In the 
broadest sense, the report urged that the EM program transform its 
mission from managing risk to reducing and eliminating risk. The report 
was issued on February 4, 2002. I am moving out aggressively to 
evaluate and act on the recommendations of this report and work with 
Congress, the states, and stakeholders to develop mutually acceptable 
approaches.
    The recommendations, and the problems they address, generally fall 
into four areas:
    Improve DOE's Contract Strateg and Management.--The issue here is 
both our overall contracting strategy and how we manage contracts. The 
report concludes that EM's contracting approach is not always focused 
on accelerating risk reduction and applying innovative approaches to 
doing work. Effective contracting practices are essential to improve 
program performance. The EM Review concluded that the processes for 
contract acquisition, establishment of performance goals, funding 
allocation, and government oversight are managed as separate, 
informally related activities rather than as an integrated corporate 
business process. This results in performance standards that are 
inconsistently and ineffectively applied. The report recommends that 
EM:
  --Improve the quality of the contract solicitation process to attract 
        broader contractor participation.
  --Require clarity in contracts with respect to work scope, regulatory 
        requirements, and end points.
  --Clearly identify the nature and extent of uncertainty and risks, 
        and align the type of contract accordingly.
  --Increase emphasis on real risk reduction by focusing fees on end 
        points rather than intermediate milestones.
  --Eliminate the use of subjective performance measures.
    The report recommends that DOE undertake a review of all existing 
contracts for their alignment with these principles and revise or amend 
those contracts to improve this alignment. Our point here is not to 
criticize or penalize contractors. Obviously, they did what DOE asked 
for. But I do not believe that we asked for the right things, and we 
did not create contract vehicles that pushed them to perform. We must 
begin implementing more aggressive contracts--ones that genuinely 
challenge them to achieve and to shoulder more risk--while providing 
significant profit for truly outstanding performance. But, conversely, 
it means that mediocrity will reap no rewards.
    Move EM to an Accelerated, Risk-Based Cleanup Strategy.--EM's 
cleanup strategy is not based on a comprehensive, coherent, 
technically-supported risk prioritization. The framework, and in some 
cases, the interpretation of DOE Orders and requirements, environmental 
laws, regulations, and agreements have resulted in the diversion of 
resources to lower-risk activities and over-emphasis on process. To 
move towards a more risk-based approach:
  --Cleanup work should be prioritized to achieve the greatest risk 
        reduction at an accelerated rate.
  --Realistic approaches to cleanup should be based on technical risk 
        evaluation, anticipated future land uses, points of compliance, 
        and points of evaluation.
  --Cleanup agreements should be assessed for their contribution to 
        reducing risk to workers, the public, and the environment.
    The report recommends that DOE initiate an effort to review current 
DOE Orders and requirements as well as regulatory agreements, and 
commence discussions with states and other regulators with a view to 
achieving regulatory agreements that accelerate risk reduction based on 
technical risk evaluation. The issue here is not to avoid compliance 
with regulatory agreements. The issue here is that we need to work with 
states and regulators to ensure that these agreements truly match up 
with a risk-based approach. We are determined to begin this effort now.
    Align DOE's Internal Processes to Support an Accelerated, Risk-
Based Cleanup Approach.--The review concluded that EM's internal 
business processes are not structured to support accelerated risk 
reduction or to address its current challenge of uncontrolled cost and 
schedule growth. We must instill a sense of urgency in the system. If 
we are to accelerate the cleanup and reduce risk, we must transform 
EM's processes and operations to reflect this urgency and time 
sensitivity. Some specific actions include:
  --Improve work planning to increase the up-front understanding and 
        planning of work and apply project management principles to all 
        core work areas.
  --Expand the application of Integrated Safety Management (ISM) to 
        higher-level work planning, where decisions are made about what 
        work is appropriate and desirable and breakthrough safety 
        improvements may occur.
  --Develop ``Lessons Learned'' at a corporate level to provide a frank 
        description of significant project issues, with corporate 
        lessons learned required for all EM managers.
  --Apply DOE requirements in a manner consistent with the work at 
        hand, clarifying requirements relevant to cleanup and 
        streamlining the process for interpreting DOE Orders and 
        requirements for more complex cleanup projects.
  --Accelerate the closure of small sites. With relatively little 
        additional investment, the risks at remaining small sites can 
        be eliminated sooner, and the life-cycle costs reduced.
    Realign the EM program so its scope is consistent with an 
accelerated risk-based cleanup and closure mission.--The current scope 
of the EM program includes activities that are not focused on or 
supportive of an accelerated, risk-based cleanup and closure mission. 
EM should redeploy, streamline, or cease activities not appropriate for 
accelerated cleanup and closure. Specifically, EM should:
  --Accelerate the consolidation of activities that require safeguards 
        and security infrastructure to enhance safety and security, 
        reduce threats, reduce risk, and save money.
  --Refocus the EM technology program to directly address the specific, 
        near-term applied technology needs for cleanup and closure.
  --Eliminate or transfer from EM those activities not directly 
        supporting an accelerated, risk-based cleanup and closure 
        program.
                     making changes on a fast track
    The review identified specific issues and recommendations that will 
allow us to move aggressively to change the EM program's approach to 
its cleanup and closure mandate. Similarly, the sites have contributed 
their own site-specific strategies and proposals to refocus and 
accelerate their efforts. All the recommended changes are designed to 
focus the program on one primary result--reducing risk to public 
health, workers, and the environment on an accelerated basis.
    We have already instituted some changes, and will continue to take 
action as soon as possible and practicable to bring about the changes 
that are needed. We have deployed special teams to most of our sites to 
work with DOE, our contractors, state and federal regulators, and other 
stakeholders to develop revised cleanup plans. I am very pleased that 
we signed a letter of intent with the Hanford site in Washington that 
will enable us to significantly accelerate our work there and achieve 
more risk reduction. We are engaged in similar discussions at the 
Savannah River, Oak Ridge, and Brookhaven sites, and I expect to 
achieve similar results at these sites over the next few months.
    Additionally, we are already acting to ensure our contracts align 
with and support our accelerated cleanup mission. We recently announced 
that a new contract will be competed and awarded for cleanup of the 
Mound Site in Ohio. The new contract, streamlined and focused on 
reducing risk, will emphasize completing cleanup safely and more 
quickly, with a goal of transferring the site to the community by 2006 
or earlier.
    Similarly, as the review makes clear, EM needs to get its own house 
in order to ensure its internal processes and policies support the 
urgency of its mission. As part of our human capital strategy, we have 
just completed a reassignment of 40 percent of the program's 70 Senior 
Executives in order to strengthen, streamline, and remove unnecessary 
layers from the leadership of the program. Our purpose is to better 
leverage the unique talents of these executives, force better 
integration between the field and headquarters on the challenges 
confronting the program, and to stimulate new thinking and creative 
solutions to the cleanup.
    We are taking actions to further augment the nation's security 
through the consolidation of nuclear material at EM sites, a key 
recommendation of the Top-to-Bottom report. We are working in 
partnership with the National Nuclear Security Administration to ensure 
that our nuclear material is safe and secure. This accelerated effort 
will lead to more secure protection of our nuclear material inventory 
while reducing the expensive cost of storage and protection at multiple 
sites.
    This is just a beginning. We will continue to work quickly to 
implement the recommendations of the Top-to-Bottom report.
                  the fiscal year 2003 budget request
    A key element for implementing the review's recommendations is to 
ensure that the program's funding is properly aligned to support needed 
change. The fiscal year 2003 budget request is a first step towards 
achieving that alignment. It incorporates some new ways of doing 
business and includes a significant structural change designed to 
foster agreement on expedited, more risk-based cleanup approaches.
    EM's fiscal year 2003 budget request of $6.7 billion is essentially 
the same level as appropriated for fiscal year 2002. The budget request 
is composed of two parts: a base budget request and a new Environmental 
Management Cleanup Reform appropriation request of $800 million to 
implement fundamental changes to the cleanup program.
                      cleanup reform appropriation
    EM is requesting a new Cleanup Reform Appropriation that is 
critical to beginning implementation of the recommendations of the Top-
to-Bottom Review. While the overall size of the request is consistent 
with past years, DOE is requesting from Congress new discretion in 
allocating this money among the sites, and for specific projects within 
sites. We believe that this approach is essential to meeting the common 
goal of states, taxpayers and DOE--accelerated cleanup and risk 
reduction. DOE realizes that we are asking a great deal from Congress 
with this request, and we are eager to work with you to accomplish this 
goal.
    The Cleanup Reform Appropriation would in essence be a performance 
tool--a pool of funds available to those sites that both demonstrate 
their ability to realign to a more accelerated risk-based approach, and 
provide to DOE specific proposals consistent with this new approach 
that achieve greater risk reduction, faster.
    We are now in the midst of reassessing and realigning our 
activities to enable a more risk-based, accelerated cleanup approach. 
It is our goal to develop agreements at each site on a specific set of 
changes and commitments by all parties that will reflect this new 
approach. I have no doubt that this process may often be difficult. 
Everyone will have to let go of certain things they favor in the 
broader public interest of achieving more risk reduction faster. 
Indeed, the Top-to-Bottom review concluded that every player in the 
cleanup business needs to make changes to enable a more effective 
cleanup strategy.
    Once these strategic agreements are reached, we will develop 
specific plans that implement this new approach. These plans should be 
supported by the state and federal regulators, should align with a 
revised contract and regulatory strategy, and should reflect a risk-
based accelerated approach. These plans might be new projects not 
previously in the sites' baselines. They might be modified, accelerated 
versions of existing projects. I am also open to supporting projects 
that already reflect an accelerated risk-based approach, but where 
additional funds can achieve even greater risk reduction at a lower 
life-cycle cost. Each project proposed for the cleanup fund would have 
a new cost savings and funding profile. Funds from the Cleanup Reform 
Appropriation would then be made available to fund or supplement 
existing funding from the base budget for the project. The appropriate 
Congressional committees will be informed of the agreement and the 
commitment of funds from this appropriation. The funds identified with 
the acceleration will be merged with the funds in the parent 
appropriation (e.g., Closure, Site/Project Completion, Post-2006) of 
the old activity.
    This new appropriation will provide the stimulus necessary to 
encourage our sites, our contractors, DOE headquarters and program 
elements, and state and federal regulators to quickly forge agreements 
to enable more effective cleanup approaches. An example of the 
candidate projects identified during the review for alternate 
strategies that should produce results quicker and with substantial 
life-cycle savings are high-level waste vitrification projects. The 
review identified alternative approaches to treating high-level waste 
that would limit vitrification to the high-risk component and pursue 
alternative treatment approaches for lower-risk components. These 
alternative approaches offer the potential of earlier true risk 
reduction and could save the taxpayers tens of billions of dollars.
    In summary, this Cleanup Reform Appropriation provides EM with the 
tool we need to jump-start our reform agenda. It enables DOE, Congress, 
communities, regulators, and contractors to work together to achieve 
our common goal of accelerated cleanup and risk reduction. It also 
maintains for Congress the necessary oversight and checks and balances 
to ensure that this fund is managed prudently, and consistently with 
our common goals.
                          base budget request
    The base budget request would protect our workers, the public and 
the environment while continuing cleanup progress across the DOE 
complex. As I said earlier, this fiscal year 2003 budget is a 
transitional budget. It does not fully reflect the changes we have 
proposed and will be implementing throughout the DOE complex over the 
next several months. The progress towards cleanup and risk reduction 
reflected in this request does not meet either my, or the Secretary's, 
expectations for this program. But it does provide us with the set of 
tools we need to begin the process of improving EM's performance. In 
building the request, the Department applied the following principles 
and priorities:
    Protect human health and the environment.--The budget request 
continues to place the highest priority on protecting the health and 
safety of workers and the public at all DOE sites. We expect 
outstanding safety performance as a matter of course. We demand this 
from our contractors and ourselves, and we will accept nothing less.
    Surveillance and maintenance.--Surveillance, maintenance, and 
support activities needed to maintain waste, materials, facilities, and 
sites in a safe and stable condition are fully funded in the base 
budget. This funding maintains the sites in an operating and safe 
condition. Examples of these types of activities in the request 
include:
  --Safe storage, configuration, and accountability of nuclear 
        materials and spent nuclear fuel at sites such as the Idaho 
        National Engineering and Environmental Laboratory (INEEL), the 
        Savannah River Site in South Carolina, and the Hanford Site in 
        Washington;
  --Safe storage of high-level, mixed, and low-level waste, as well as 
        management and disposal of hazardous and sanitary waste, across 
        the DOE. complex, including tank safety activities at the 
        Hanford, INEEL, and Savannah River high level waste tank farms;
  --Long-term stewardship at more than 35 sites where cleanup has been 
        completed but where some contaminants still remain. In fiscal 
        year 2003, this will include Weldon Spring in Missouri, which 
        is expected to complete cleanup and transition to long-term 
        stewardship by the end of fiscal year 2002;
  --Maintaining the Portsmouth Gaseous Diffusion Plant in Ohio in cold 
        standby, including uranium deposit removal;
  --Surveillance and maintenance of more than 62,000 depleted uranium 
        hexafloride and other uranium cylinders located at gaseous 
        diffusion plants in Kentucky, Ohio, and Tennessee;
  --Surveillance and maintenance of facilities, including excess 
        contaminated facilities pending deactivation and 
        decontamination; Groundwater monitoring and continued operation 
        of treatment systems;
  --Essential landlord functions.
    Safeguards and security.--This is first EM budget request since the 
events of September 11. Our nation is more aware than ever before of 
the critical need to maintain vigilance in our domestic security and to 
protect against terrorism. The EM program is responsible for many tons 
of surplus nuclear material. The budget request provides funding at 
approximately the fiscal year 2002 appropriation, reflecting both 
increased and decreased safeguards and security needs. In particular, 
reduced requirements in Environmental Management Defense Facilities 
Closure Projects are commensurate with the planned removal of special 
nuclear materials from Fernald and Rocky Flats sites, and reflect 
completion of security upgrades in Miamisburg this year.
    Accelerated cleanup and closure of Rocky Flats Fernald and Mound.--
The request supports the work necessary to continue accelerated cleanup 
and closure of the Rocky Flats Environmental Technology Site in 
Colorado. The request maintains a focus on closure of the Fernald 
Environmental Management Project and the Mound Site in Ohio. Closing 
these sites will eliminate significant risk and financial liabilities 
that EM cannot afford to maintain. Our base budget request also funds 
supporting activities at sites such as the Savannah River Site and Oak 
Ridge in Tennessee that are critical to achieving closure of these 
three major sites.
    At Rocky Flats, the fiscal year 2003 request keeps the site on 
track for closing in 2006. In fiscal year 2003, it supports:
  --Eliminating the Security Protected Area. In fiscal year 2001, 
        special nuclear material was consolidated into a single 
        building, significantly reducing the size of the Protected 
        Area. This both reduced security costs for the buildings being 
        dismantled and improved productivity by reducing the time it 
        takes work crews to gain access to these facilities. In fiscal 
        year 2003, based on the current estimates for shipping nuclear 
        material off-site, we will be able to eliminate the Protected 
        Area entirely. Cost savings can than be shifted to active 
        cleanup, rather than maintaining costly safeguards and security 
        measures.
  --Shipping 3,700 cubic meters of transuranic waste to WIPP, and 
        35,000 cubic meters of low-level waste and 3,600 cubic meters 
        of low-level mixed waste for disposal, subject to receiver site 
        availability;
  --Completing shipments of plutonium metals and oxides off-site; and 
        Continuing deactivation and decontamination (D&D) activities 
        for Buildings 371, 707, 771, and 776/7, and associated 
        remediation work.
    At Fernald, the fiscal year 2003 request supports:
  --Continuing remediation of the Silos;
  --Shipping about 93,500 cubic meters of waste to a permitted off site 
        commercial disposal facility; continuing packaging and on- or 
        off-site disposition of mixed and low-level wastes; and placing 
        43,000 cubic meters of remediation waste in the on-site 
        disposal facility; and
  --Continuing D&D of the Pilot Plant Complex and Multicomplex, and 
        initiating D&D of the Liquid Storage Complex.
    At Miamisburg (Mound), we will continue efforts to cleanup 
contamination and transfer land to the community for economic 
development. We have already transferred 121 acres, or about 40 percent 
of the site, for this purpose. The fiscal year 2003 request supports:
  --Continuing acceleration of site cleanup and transfer of site 
        properties by completing ``critical path'' deactivation and 
        decontamination activities in the Main Hill Tritium facilities 
        (i.e., R, SW, and T Buildings);
  --Completing site preparations and beginning excavation of thorium- 
        and polonium-contaminated soil (i.e., Release Site 66), the 
        largest contaminated soil excavation project at Mound; and
  --Shipping over 19,000 cubic meters of contaminated soil and debris 
        for off-site disposal.
    Increased Shipments to the Waste Isolation Pilot Plant (WIPP.--The 
request maintains support for a significantly increased rate of 
shipments of transuranic waste to WIPP. The WIPP facility in New Mexico 
is critical to EM closure and completion goals at other sites. For 
example, WIPP is critical to the Department's commitment to the State 
of Idaho to ship 3,100 cubic meters of transuranic waste out of the 
state by December 2002, and to meeting the schedule for closure of 
Rocky Flats. In fiscal year 2002, the Department provided an additional 
$12 million to WIPP to increase by almost 50 percent the rate of 
shipments. The fiscal year 2003 request supports:
  --Continued increased shipments of contact-handled transuranic waste; 
        and
  --Continued progress toward beginning shipments of remote-handled 
        waste, including submission of regulatory documentation to the 
        New Mexico and EPA regulators and facility upgrades and 
        modifications needed for remote-handled disposal operations.
    Continuing Progress.--EM will continue to make progress in 
completing cleanup projects in accordance with existing approaches and 
under existing agreements. The Department will continue efforts to 
clean up release sites; to treat, store and dispose of hazardous and 
radioactive waste; and to decontaminate and decommission facilities at 
many sites. However, we expect to accelerate the pace of progress of 
many of these projects as we begin to implement the top-to-bottom 
review recommendations. For example, the request provides funding to:
    At the Hanford site, continue construction of the Waste Treatment 
Plant to vitrify high level waste. By the end of fiscal year 2002, we 
will have begun construction of two of three major facilities, and 
completed 50 percent of the engineering and design for all three. Work 
in fiscal year 2003 will focus on continuing construction of the 
vitrification facility, starting construction of the pretreatment 
facility, and purchasing major equipment, as well as designing the feed 
delivery system.
    At INEEL, begin operation of the Advanced Mixed Waste Treatment 
Facility, treat about 1,625 cubic meters of transuranic waste, and 
complete construction and begin operation of the CERCLA disposal 
facility for remediation waste, as well as continue operations to move 
spent nuclear fuel to safer storage.
    At the Savannah River Site, continue stabilization of high-risk 
nuclear material solutions in the canyons; continue activities to 
suspend and deactivate F-canyon; complete construction work to 
stabilize and package plutonium for long-term storage, and the transfer 
of americium/curium solutions to the high level waste tanks for 
eventual vitrification.
    At the Oak Ridge Reservation, complete major risk reduction 
remediation projects, including excavation, treatment, and off-site 
disposal of highly contaminated sediments from ORNL surface 
impoundments, and excavation of uranium contaminated soils from the Y-
12 Boneyard/Burial site and disposal in the new on-site disposal cell. 
The request also continues D&D work at East Tennessee Technology Park, 
including completing the dismantlement of two of the three remaining 
cascade units in Building K-31.
    At the Paducah Gaseous Diffusion Plant in Kentucky, complete high 
priority remedial actions, including cleanup of the North/South 
diversion ditch and continue scrap metal removal and groundwater 
actions, as well as characterization of high priority DOE Material 
Storage Areas.
    At the Portsmouth Gaseous Diffusion Plant, complete high priority 
remediation projects, and continue groundwater remediation, storage 
yard removal, and disposal of mixed low level waste. At West Valley in 
New York, continue decontamination of spent fuel processing and storage 
facilities, and continue construction of the Remote-Handled Waste 
Facility that will be used to prepare transuranic and other high-
activity waste for shipment and disposal. We will complete all 
vitrification processing operations and deactivation of vitrification 
facilities, including shutdown of the melter, by the end of fiscal year 
2002.
    At the Nevada Test Site, continue low-level waste operations in 
support of the DOE complex and priority remediation work, including 
modeling activities at the Underground Testing Area, and remediation of 
13 industrial sites.
    At Brookhaven National Laboratory in New York, continue high 
priority groundwater monitoring and remediation, and finalize and begin 
implementing the cleanup plan for the Peconic River.
    Focusing on Cleanup.--This budget request is the first reflection 
of a key tenet that success for the EM program requires a laser-like 
focus on its core mission of cleanup and closure. If activities do not 
support that mission, then EM should not be doing them. This budget 
request begins to implement this tenet by shedding several activities 
traditionally funded by EM, but which are not essential to achieving 
the Department's cleanup goals. For example:
    The request reflects a significant reduction in funding in 
headquarters-controlled and--managed accounts. Overall, funding for 
such headquarters-based programs and support services will be reduced 
to almost 50 percent of the fiscal year 2002 levels. While our request 
significantly reduces support services for headquarters-directed 
activities related to such programs as pollution prevention, hazardous 
worker training, and long-term stewardship, these functions will 
continue at some level as appropriate, but will be carried out by 
Federal employees rather than contractors.
    The budget request also reflects major shifts in the structure of 
the EM technology program to focus efforts on specific, short-term 
applied technology needs for cleanup and closure. These changes are 
discussed below.
                   refocusing science and technology
    EM's fiscal year 2003 request of $92 million for science and 
technology is significantly less than the $204.7 million appropriated 
in fiscal year 2002. This is the result of a dramatic shift in the 
program structure to ensure it is clearly focused on meeting cleanup 
and closure needs.
    In parallel with the broader review of the EM program, we have also 
undertaken an in-house evaluation of EM's Science and Technology (S&T) 
Program. As a result of this review, we concluded that an integrated 
technology program is an essential element for successful completion of 
the EM cleanup effort and for post-closure requirements. However, for 
the program to have maximum impact, it must be streamlined and highly 
focused on a limited number of critical, high-payback activities where 
real, measurable improvements can be gained versus a larger number of 
activities that offer only marginal improvement. It must be end-point 
and risk-driven to provide the necessary technical basis for future 
decision making.
    Toward this end, we are reorienting the S&T program to focus on two 
primary areas: (1) direct technical assistance to closure sites to 
ensure they have the necessary technology and technical support to meet 
closure schedules, and (2) alternative approaches and step improvements 
to high-risk, high-cost baselines to ensure all possible alternatives 
have been evaluated and that workable alternatives are available and 
used as the cleanup progresses. EM will execute this new approach using 
streamlined management structures and processes.
    As the first step, we are thoroughly reviewing ongoing activities 
to determine their applicability to the new areas. By June 30, 2002, we 
expect to have decisions on these activities and an operational plan 
for transitioning and managing S&T activities in fiscal year 2003 and 
beyond. We believe this realigned S&T program will better suit the 
Department's needs.
                               conclusion
    The changes that I envision are not changes on the margin. The 
reforms undertaken thus far are but a beginning, and must permeate the 
entirety of the scope and management of this program to create and 
sustain meaningful measurable success. They are a complete overhaul of 
the Department's environmental cleanup program that cannot afford to 
wait.
    I believe we face an historic opportunity to refocus, reshape and 
transform this program. All of us, and all of our regulators and 
stakeholders throughout the country want the same things from this 
program: accelerated cleanup and risk reduction. Making the changes we 
propose will not be easy. It will involve painful changes in the way 
all of us do business. I believe we have no alternative. The status quo 
is not an option. Muddling through and hoping for something different 
later is not an option. We cannot wait for a future time in the hope 
that making these changes might be easier.
    This is our moment. If we do not start to do what is needed now, we 
will have failed the taxpayers of today and the future generations of 
tomorrow.
    This is a marathon, not a sprint. This is not a process that will 
be completed overnight, but neither can we afford to delay. Delay only 
leads to increased cost and lack of real risk reduction. Eventually, 
delay will turn festering high cost problems into immediate public 
health risks.
    If we are ultimately to be successful, we need your help. I ask 
your support for the budget request before you. It is a critical first 
step to achieving our mutual goal of completing the cleanup of the 
nuclear weapons sites. I look forward to working with the Congress and 
others to achieve this goal.

    Senator Murray. Thank you, Ms. Roberson.
    Mr. Garman.

                       STATEMENT OF DAVID GARMAN

    Mr. Garman. Thank you for the opportunity to testify on the 
President's fiscal year 2003 budget request for the Office of 
Energy Efficiency and Renewable Energy. This is our first 
budget request since the release of the President's National 
Energy Plan, and for our Energy and Water Development 
Appropriations programs in fiscal year 2003 we are requesting a 
5.6 percent increase over fiscal year 2002 comparable 
appropriations and a 47 percent increase compared with our 
fiscal year 2002 request.
    But we are not merely seeking to spend more on these 
programs, we are seeking to achieve more from them. We have 
undertaken a strategic program review that has identified 
activities that should be expanded, refocused, or activities 
that require watch list scrutiny to ensure that they advance 
effectively. This review has driven many of the shifts you see 
in our fiscal year 2003 budget.
    Second, as part of a pilot effort we have applied new 
evaluation criteria to our research and development programs in 
accordance with the President's management agenda.
    Finally, we have been driven by a challenge issued to us by 
our Secretary, to take a bolder approach to our work and to 
leapfrog the status quo and pursue dramatic environmental 
benefits.
    The lesson that we learned during our strategic program 
review along with the direction provided to us by Secretary 
Abraham and the President's management agenda, have also led me 
to propose a significant reorganization of our office to 
strengthen our focus on program management, to make our program 
and organization more responsive, to focus on results rather 
than process, and to link budget with performance. When our new 
organization is in place and fully functional, it will enhance 
our ability to ensure the most judicious use of the taxpayer 
dollars entrusted to our use.
    With the time I have remaining, let me highlight some of 
the activities we are proposing. In the area of integrated 
biomass research and development, we are proposing a sharper 
focus on the program by unifying all biomass activities under 
one office and setting integrated priorities across all 
projects, including biofuels, biopower, and bio-based products.
    In geothermal Research and Development, our program will 
focus primarily on exploration and drilling research, because 
better understanding of geothermal resources and improved 
analytical methods of exploration will enable industry to 
locate and characterize new geothermal fields with greater 
success and to lower costs through advanced drilling 
technologies.
    Our hydrogen Research and Development activities are 
focused on hydrogen production, storage, and utilization 
technologies that can foster the transition to a hydrogen 
economy. The hydrogen program's Research and Development 
activities also strongly support the administration's recently 
announced Freedom Car initiative, to reduce or even end U.S. 
dependence on foreign oil by developing technologies that will 
ultimately result in vehicles requiring no oil and that emit no 
harmful pollutants.
    Our hydropower Research and Development program focuses on 
making hydropower plants more compatible with aquatic life and 
other water resource users through fish-friendly turbines and 
reducing changes in the quality of dissolved gases in 
downstream water.
    In our solar Research and Development program, we are 
seeking increases in the photovoltaic and integrated building 
technology lines. In our wind energy Research and Development 
program, we are shifting our focus to new and different turbine 
advances that will allow for competitive wind development in 
the more prevalent lower speed wind areas closer to population 
and load centers.
    In our electric energy systems and storage activities, we 
propose to focus on high-temperature superconductivity and 
distributed energy systems.

                           PREPARED STATEMENT

    Mr. Chairman, the President has offered a long-term energy 
strategy that promotes clean energy technologies. Our budget 
submission gives us the chance to play a major role in the 
Nation's energy future and to make a difference in the lives of 
our citizens.
    This concludes my testimony and I would be pleased to 
respond to any questions, either today or in the future. Thank 
you.
    [The statement follows:]

                   Prepared Statement of David Garman

                              introduction
    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to testify before you today on the President's fiscal year 
2003 budget request for the Office of Energy Efficiency and Renewable 
Energy (EERE).
    This budget request is our first since the release of the 
President's National Energy Policy (NEP)--a balanced, comprehensive 
strategy that recognizes the importance of energy efficiency and 
renewable energy. A majority of the 105 recommendations in the National 
Energy Policy document-54 to be exact-pertain to the importance of 
improving America's energy efficiency and expanding our use of clean, 
renewable energy sources. Some of these recommendations provide 
direction for EERE's programs.
    EERE's budget request is split, as you know, between the Energy and 
Water Development and Interior Appropriations Bills. Our overall budget 
request for fiscal year 2003 is $1.31 billion, up $10.2 million over 
the amount appropriated last year. For our Energy and Water Development 
programs in fiscal year 2003, we request $407.7 million, a 5.6 percent 
increase above fiscal year 2002 comparable appropriations of $386.4 
million, and a 47 percent increase compared with our fiscal year 2002 
request of $276.7 million.
    However, more important than how much we propose to spend on these 
programs is the fact that we are working to achieve more from them. As 
we developed this budget we were driven by some very fundamental 
questions. For example, what public benefits do we expect to achieve 
with the expenditure of these taxpayer dollars? How can we better 
measure success in pursuit of those public benefits? How can we 
leverage federal dollars through partnerships with States, communities 
and the private sector to achieve greater success? We grappled with 
these questions in several ways:
    First, in response to recommendations in the President's National 
Energy Policy, we undertook a Strategic Program Review to review 
historical performance of EERE programs, and propose appropriate 
funding for those that were performance-based and modeled as public-
private partnerships. This extensive review was accompanied by a series 
of public meetings held across the country. Our review identified 
activities that should be expanded, activities that have come to the 
end of their useful lives and should be terminated, activities that 
should be refocused, and activities that require ``watch list'' 
scrutiny to ensure they advance effectively. This review has driven 
many of the shifts you will see in our fiscal year 2003 budget.
    Second, we evaluated the results of an external, retrospective 
review by the National Academy of Sciences (NAS) designed to determine 
whether the benefits of our programs have justified the associated 
public expenditure. The NAS found that a number of our Research, 
Development and Demonstration (RD&D) programs have yielded significant 
economic and environmental benefits, new technological options, and 
important enhancements to engineering and scientific knowledge in a 
number of fields. The NAS also offered recommendations that will 
improve our methods for estimating program benefits. We have taken 
these recommendations seriously and are evaluating how to best 
implement them.
    Third, as part of a pilot effort, we applied new evaluation 
criteria to our research and development programs in accordance with 
the President's Management Agenda. While only a pilot, the criteria 
helped us steer our R&D portfolio toward activities where there was a 
clear Federal role; a strong R&D plan; a competitive awards process; 
and a demonstration of results and potential for public benefit. We 
hope to improve the application of these criteria in the evaluation of 
our R&D portfolio as we move ahead.
    Finally, we were driven by a challenge issued to us by Secretary 
Abraham to take a bolder approach to our work. Recognizing ``our 
increasing dependence on energy from areas of the world that are 
periodically unstable,'' Secretary Abraham directed us to concentrate 
our efforts on programs that ``revolutionize how we approach 
conservation and energy efficiency.'' He challenged us to ``leapfrog 
the status quo and prepare for a future that, under any scenario, 
requires a revolution in how we find, produce and deliver energy.'' He 
challenged us to pursue ``dramatic environmental benefits.''
    Some of the lessons we learned during our Strategic Program Review, 
along with the direction that has been provided to us by Secretary 
Abraham and the President's Management Agenda, have led me to propose a 
significant reorganization of EERE. Our Strategic Program Review told 
us that we needed to strengthen our focus on programs and program 
management. The President's Management Agenda challenged us to flatten 
the organization to make it more responsive; to focus on results, not 
process; to link budget with performance; and end overlapping functions 
and inefficiencies. When our new organization is in place and fully 
functional, it will enhance our ability to ensure the most judicious 
use of the taxpayer dollars entrusted to us to achieve results.
      fiscal year 2003 energy and water development budget request
    For fiscal year 2003, we request a $21.3 million increase above 
fiscal year 2002 comparable appropriations. Mr. Chairman, I believe 
that the budget request I am presenting today will move us forward in 
meeting our program goals and those of the NEP to modernize our energy 
infrastructure, to increase the development and clean use of our 
Nation's domestic energy supplies, and to improve the overall 
efficiency in the way our country uses energy. For example, some of our 
goals are:
  --Biomass R&D will reduce the production cost of cellulose-based 
        ethanol from about $1.40 per gallon today to $1.20 per gallon 
        by 2005, and to $1.07 per gallon by 2010.
  --Hydrogen R&D will demonstrate a conversion technology that will 
        lower the cost of large-quantity hydrogen production from 
        natural gas, from $3.75 per kilogram in 2000 to $2.50 per 
        kilogram in 2006.
  --Wind Energy R&D activities will provide the technologies to reduce 
        the cost of wind powered electricity generation in Class 4 wind 
        areas (13 mph annual average) from 5.5 cents per kilowatt-hour 
        in 2002 to 3 cents per kilowatt-hour by 2010.
  --Distributed Energy Systems R&D activities will increase the share 
        of new distributed energy electricity-generating capacity from 
        5 percent in 2000 to 7 percent in 2005.
  --High Temperature Superconductivity R&D efforts will lead to the 
        development of HTS wire capable of carrying 100 times the power 
        of comparable copper wire--with zero electrical resistance--by 
        2007.
    Mr. Chairman and members of the Subcommittee, I will now briefly 
discuss the portfolio of Renewable Energy Resources programs within the 
Office of Energy Efficiency and Renewable Energy.
                         integrated biomass r&d
    In fiscal year 2003, we are requesting $108.9 million for this 
restructured activity. In the Energy and Water Appropriations, we 
request $86 million, a decrease of $2.5 million from fiscal year 2002 
comparable appropriations, but an increase of $4 million compared with 
our fiscal year 2002 request. The remaining $22.9 million (i.e., 
Agriculture $8.3 million; Forest Products $1.0 million; and 
Crosscutting Combustion Gasification $13.6) has been requested from 
Interior Appropriations.
    Biomass is a priority for the Administration as reflected in the 
NEP. Frankly, Mr. Chairman, we have found that our biomass program has 
lacked focus in the past. In response, we have proposed unifying all 
biomass activities under one office and have worked to set integrated 
priorities across all projects including biofuels, biopower, and 
biobased products. Research opportunities and priorities were 
identified by using the draft industry-developed Biobased Products and 
Bioenergy vision and roadmap. The criteria used to choose new program 
direction include: activities requiring a strong government role; 
activities that can achieve a significant reduction in foreign oil 
dependence; activities that accelerate the biorefinery concept; and 
critical path activities to achieve key enabling technology goals. The 
result of this process is a portfolio that is balanced across three 
major areas: Gasification, Fuels and Chemicals, and Conversion and 
Processing. As with all our programs, we would like the R&D that we 
support through the Integrated Biomass program to be competitively 
awarded to the maximum extent possible.
    We are driven by our vision of the widespread operation of an 
integrated industrial biorefinery and our goal to reduce America's 
dependence on foreign oil. We already see the results of our efforts: 
we have closed dozens of projects since fiscal year 2001; we are de-
emphasizing biomass co-firing with coal and lignin routes to ethanol, 
and we are moving away from our work on plant sciences and feedstock 
production. Instead we are concentrating our overall funding on 
cellulosic ethanol, gasification, and biobased chemicals. Our fiscal 
year 2003 activities are:
  --In Biopower Systems, we request $33.0 million, a $6.2 million 
        decrease from fiscal year 2002 comparable appropriations ($4.8 
        million below our fiscal year 2002 request), to support the 
        following research and development activities:
    --Advanced gasification and biosynthesis gas technology suitable 
            for application in power generation (both large-scale and 
            distributed-energy systems), in an integrated biorefinery, 
            and for the production of chemicals;
    --Biomass (forest and agricultural residues) gasification systems 
            with capacities up to 1,000 dry tons per day at several 
            locations to illustrate their applicability in locations 
            with a variety of characteristics;
    --The development, field-testing, and optimization of the design of 
            prototype integrated biomass gasification/fuel cell 
            systems, and the establishment of their costs; and,
    --The implementation of demonstration facilities for biorefining 
            with multiple outputs: power, fuels, chemicalsand products.
  --In Biofuels, we request $53.0 million, a $4.2 million increase from 
        fiscal year 2002 comparable appropriations ($8.8 million above 
        our Fiscal Year 2002 request), to:
    --Demonstrate integrated enzymatic hydrolysis and fermentation of 
            cellulosic feedstocks to fuel and chemicals.
    --Support the development of novel harvesting equipment design, 
            storage and logistics for agriculture wastes reducing the 
            feedstock cost for the production of fuels and chemicals.
    --Initiate validation of multiple use feedstocks for renewable 
            diesel production.
    --Contribute to the implementation of demonstration facilities for 
            biorefining with multiple outputs: fuels, power, chemicals 
            and products.
                               geothermal
    The Geothermal Technology Development Program works in partnership 
with U.S. industry to establish geothermal energy as an economically 
competitive contributor to the U.S. energy supply, capable of meeting a 
portion of the Nation's heat and power needs, especially in the West. 
The program is focusing primarily on exploration and drilling research 
because better understanding of geothermal resources and improved 
analytical methods of exploration will enable industry to locate and 
characterize new geothermal fields at greatly reduced risk.
  --In fiscal year 2003, we request $26.5 million for geothermal 
        program activities, a decrease of $799,000 from fiscal year 
        2002 comparable appropriations ($12.6 million above our fiscal 
        year 2002 request). At this funding level, our activities will 
        include:
    --continuing core laboratory and university research to better 
            understand complex geothermal processes and to develop 
            technology to produce geothermal resources economically;
    --continuing development of Enhanced Geothermal Systems to double 
            the amount of accessible and economically-viable geothermal 
            resources in the West;
    --continuing research on enhanced detection and mapping efforts and 
            advanced drilling technology to (1) expand our domestic 
            geothermal resource base, (2) improve the success rate in 
            exploratory drilling from 20 percent in 2000 to 40 percent 
            by 2010, and (3) reduce the costs of drilling wells by 50 
            percent by 2008; and
    --continuing to reduce the costs of heat conversion and power 
            systems.
                                hydrogen
    The Hydrogen Program supports the research, development and 
validation of hydrogen production, storage, and utilization 
technologies that will foster the transition to a hydrogen economy. 
Hydrogen is a nearly ideal energy carrier. It can be oxidized in a fuel 
cell, combusted in a conventional engine, or simply burned. When used 
in this manner, the only by-product is water. Hydrogen can be produced 
from either fossil or renewable resources. As a transportable fuel, it 
has greater flexibility than electricity for vehicle and remote area 
use.
    The Hydrogen Program works with industry to improve efficiency and 
lower the cost of technologies that produce hydrogen from natural gas 
and renewable energy resources. In addition, the program works with the 
national laboratories to reduce the cost of technologies that produce 
hydrogen directly from sunlight and water. Hydrogen can be used in 
stationary applications for residential, commercial and industrial fuel 
cells, as well as in fuel-cell powered vehicles. Development of this 
clean energy carrier will lessen our dependence on imported fuels in 
both stationary and transportation applications. The Hydrogen Program's 
R&D activities also strongly support the Administration's recently-
announced FreedomCAR Initiative, which, in the long run, will help to 
end U.S. dependence upon foreign oil by developing technologies that 
will ultimately result in vehicles requiring no oil, and that emit no 
harmful pollutants or greenhouse gases.
  --In fiscal year 2003 we request $39.9 million for the Hydrogen 
        Program, an increase of $10.7 million above fiscal year 2002 
        comparable appropriations ($13 million above our fiscal year 
        2002 request). Activities will include:
    --Continuing to improve the efficiency and lower the cost of 
            fossil-based and biomass-based hydrogen production 
            processes to achieve $12-$15 per million Btu for 
            pressurized hydrogen when reformers are mass-produced by 
            2010 (compared to today's price of $18-$24 per million 
            Btu).
  --Continuing development of other advanced reformer and refueling 
            station components that can reduce the cost of hydrogen 
            production by an additional 25 percent, to achieve $9-$12 
            per million BTU for pressurized hydrogen when reformers are 
            mass-produced by 2015.
  --Continuing to develop and demonstrate safe and cost-effective 
        storage systems for use in stationary distributed electricity 
        generation and vehicle applications in urban Clean Air Act non-
        attainment areas.
                               hydropower
    In the case of hydropower, already an abundant and relatively 
inexpensive source of electricity, the program focuses on making 
hydropower plants more compatible with aquatic life and other water 
resource users through ``fish-friendly'' turbines and reducing changes 
in the quality of dissolved gases in downstream water. In addition, the 
Hydropower Program improves the technical, economic, and environmental 
performance of the Nation's abundant, in-place hydropower resources 
through collaborative research and development with industry and other 
Federal agencies.
  --In fiscal year 2003, we request $7.5 million for the Hydropower 
        Program, an increase of $2.5 million above fiscal year 2002 
        comparable appropriations and our fiscal year 2002 request. The 
        request will accelerate the development of a commercially 
        viable turbine technology capable of reducing the rate of fish 
        mortality to 2 percent or lower by 2010. This is compared to 
        turbine-passage mortalities of 5 to 10 percent for the best 
        existing turbines and 30 percent or greater for some turbines. 
        This environmentally-friendly turbine technology should also 
        help reverse the decline in hydroelectric generation, our 
        largest renewable energy resource.
                                 solar
    The EERE Solar Energy Technologies Program supports a range of 
applications including on-site electricity generation, and thermal 
energy for space heating and hot water. A primary objective of the 
program is to compound the value of solar by putting it at the point of 
use, making it an integral part of super efficient, state-of-the-art 
residential and commercial buildings. Efforts to reduce building energy 
consumption through energy efficiency and to provide on-site renewable 
energy production could lead to attractive and affordable ``zero-net-
energy buildings'' where all energy needs are met by renewable energy 
sources.
  --In fiscal year 2003, we request $87.6 million for the Solar Energy 
        Technologies Program, a decrease of $1.8 million from fiscal 
        year 2002 comparable appropriations ($38.3 million above our 
        fiscal year 2002 request). Our fiscal year 2003 request 
        includes: $73.7 million, an increase of $2.1 million, for 
        Photovoltaics; $12.0 million, an increase of $7.3 million, for 
        Solar Buildings; and $1.9 million, a decrease of $11.2 million, 
        for Concentrating Solar Power. The fiscal year 2003 activities 
        are as follows:
    --Photovoltaics research will focus on increasing domestic capacity 
            by lowering the cost of delivered electricity and improving 
            the efficiency of modules and systems. Fundamental research 
            at universities will be increased to develop non-
            conventional, breakthrough technologies while both 
            laboratory and university researchers work with industry on 
            large volume, low cost manufacturing, including increased 
            deposition rates, improved materials utilization and 
            characterization techniques, and materials recycling.
    --The Solar Buildings request emphasizes developing the ``zero-net-
            energy building'' concept, a concept linking energy 
            efficiency and renewable energy integration into building 
            designs. Reducing the cost of solar water heating by using 
            light-weight polymer materials to replace the heavy copper 
            and glass materials used in today's collectors is also 
            underway.
  --The Concentrating Solar Power program will complete the evaluation 
        of the 25 kW dish systems at the University of Nevada at Las 
        Vegas and terminate all remaining activities. The decision to 
        end these concentrating solar activities is based upon the 
        results of the external Renewable Power Pathways review 
        conducted by the National Research Council; the recently-
        completed EERE Strategic Performance Review; and the R&D 
        Investment Criteria issued by the Office of Management and 
        Budget.
                                  wind
    Advanced wind turbines are currently providing cost-competitive 
power in high wind speed (Class 6) areas. As a result, the Wind Energy 
Systems Program is shifting its focus to new and different turbine 
advances that will allow for competitive wind development in the more 
prevalent or common lower wind speed (Class 4) areas. The Wind Energy 
Systems Program seeks to provide economic, environmental, and energy 
security benefits by expanding the domestic use of wind energy and by 
fostering a world-class wind energy industry.
  --In fiscal year 2003, we request $44.0 million for Wind Energy 
        Systems activity, an increase of $5.4M compared to fiscal year 
        2002 comparable appropriations ($23.5 million above our fiscal 
        year 2002 request). Theprogram will:
    --Accelerate the Low Wind Speed Technology (LWST) project that will 
            produce cost effective wind technology for Class 4 wind 
            resource areas, making wind energy more economically 
            attractive in areas of the Nation closer to population and 
            load centers. Such technology has the potential to expand 
            the economically-accessible U.S. wind resources 20-fold.
    --Increase its research into distributed wind systems. Distributed 
            wind systems (typically small turbines sized less than 100 
            KW) provide a valuable alternative source of energy for a 
            variety of applications, such as for farmers, homeowners, 
            and in isolated villages. Smaller turbines also produce 
            useful energy in lower speed wind resources, and thus are 
            potentially cost-effective in more locations. Due to their 
            low capital cost, distributed wind systems are also more 
            available to individual landowners. The Program is funding 
            research and development on distributed wind systems and 
            applications through public/private partnerships following 
            the successful model of utility-scale technology.
                  electric energy systems and storage
    The Electric Energy Systems and Storage program has two components: 
the High Temperature Superconductivity Program (HTS) and Distributed 
Energy Systems (DES). DES activities are key components of a larger 
Distributed Energy Resources (DER) Program to lead a national effort to 
develop a flexible, smart, and secure energy system by integrating 
clean, efficient, reliable, and affordable distributed energy 
technologies.
    EERE's HTS and DER programs together are tackling the power-related 
issues confronting the Administration's goals of modernizing energy 
conservation and modernizing our energy infrastructure. The HTS Program 
seeks to reduce the electricity losses associated with moving 
electricity within largely urban areas, as well as improving the 
efficiency of large electric motors and generators. The DER Program is 
composed of five major activities, three of which are funded by Energy 
and Water Development appropriations: energy storage system research 
and integration; transmission reliability; and DER electric systems 
integration.
    For fiscal year 2003, our Electric Energy Systems and Storage 
request of $70.4 million, a decrease of $249,000 below fiscal year 2002 
comparable appropriations ($18.7 million above our fiscal year 2002 
request), will support the following activities:
  --For the HTS program, we request $47.8 million in fiscal year 2003, 
        an increase of $15.5 million above fiscal year 2002 comparable 
        appropriations ($11 million above our fiscal year 2002 
        request), to develop applications of superconducting materials 
        to the electricity infrastructure. The lack of electrical 
        resistance of HTS materials makes possible electrical power 
        systems, super efficient generators, transformers, and 
        transmission cables that reduce energy losses by half and allow 
        equipment half the size of present electrical systems.
    --At this level, we will complete final testing and evaluation for 
            the prototype 100-MW, 3-phase, HTS cable installed in 
            downtown Detroit. We will complete final testing and 
            evaluation for the prototype reciprocating magnetic 
            separator and the HTS-bearing, energy-storage flywheel and 
            begin construction of new prototypes of generators, power 
            cables, and other HTS systems under cost-shared projects 
            with industrial consortia. The national laboratories and 
            industry will demonstrate the capability to reproducibly 
            fabricate 10-meter lengths of Second Generation Wire that 
            carry 50 amps of electricity and 1-meter lengths that carry 
            100 amps of electricity.
  --The DES program includes three activities: (a) Energy Storage 
        Research; (b) Transmission Reliability; and (c) Electric 
        Systems Integration.
    --The Energy Storage Research activity addresses important 
            challenges to the delivery of electricity. As a peak 
            shaving tool during times of transmission overload or 
            during price peaks, storage allows more efficient 
            allocation of energy resources without producing additional 
            emissions. Storage has the potential of saving U.S. 
            industry many billions of dollars in downtime costs by 
            improving the customer's power quality. In fiscal year 
            2003, we request $7.6 million for Energy Storage Research 
            activities, a decrease of $1.5 million from fiscal year 
            2002 comparable appropriations ($0.7 million below our 
            fiscal year 2002 request).
    --The Transmission Reliability activity has developed and installed 
            prototype voltage and frequency monitoring and 
            visualization systems that allow transmission operators to 
            immediately recognize and correct system problems. Other 
            prototype satellite-synchronized reliability tools are 
            being installed that afford operators a real-time view of 
            system conditions, provide information for reliable 
            operation of the grid, and for efficient operation of 
            competitive electricity markets. In fiscal year 2003, we 
            request $7.7 million, a decrease of $10.5 million from 
            fiscal year 2002 comparable appropriations ($3.2 million 
            above our fiscal year 2002 request).
    --The DER Electric Systems Integration (formerly Distributed Power) 
            activity is developing standards and conducting tests and 
            analyses for the interconnection and integration of 
            distributed generation technologies at the customer site 
            and into the electric distribution system. The activity is 
            developing the microgrid concept to analyze the impact of 
            high penetrations of distributed generation on the 
            distribution system, and supporting removal of other 
            technical, institutional, and regulatory barriers to full 
            distributed generation technology deployment. In fiscal 
            year 2003, we request $7.2 million, a decrease of $3.5 
            million from fiscal year 2002 comparable appropriations 
            ($2.7 million above our fiscal year 2002 request).
                  renewable support and implementation
    The Renewable Support and Implementation activity is comprised of 
five elements for which we request $23.8 million, an increase of $10.1 
million above Ffiscal year 2002comparable appropriations ($14.3 million 
above our fiscal year 2002 request). These elements are:
    The Departmental Energy Management Program (DEMP) targets services 
at DOE facilities to improve energy and water efficiency, promote 
renewable energy use, and manage utility costs in facilities and 
operations. In fiscal year 2003, we request $3.0 million for DEMP 
activities, an increase of $1.5 million above fiscal year 2002 
comparable appropriations ($2 million above our fiscal year 2002 
request). The request will allow two to three renewable energy or other 
emerging energy technology projects to be funded. Wind, geothermal, 
biomass or solar projects will be evaluated and selected from 
applications submitted by DOE field offices.
    The International Renewable Energy Program promotes the export of 
clean U.S. technologies that contribute to global environmental 
improvements in greenhouse gases and to local air and water pollution. 
In fiscal year 2003, we request $6.5 million for international 
activities, an increase of $3.6 million above fiscal year 2002 
comparable appropriations ($4 million above our fiscal year 2002 
request). In fiscal year 2003, the $3,660,000 increase is to support 
the Clean Energy Technology Exports (CETE) initiative. The CETE 
approach will initiate two types of international activities: industry-
initiated export projects, and ``showcase'' projects that demonstrate 
the CETE vision of coordinated activities among the USG agencies with 
export responsibilities. Priority will be given to advancing the U.S. 
recommendations in the National Energy Policy. We anticipate major 
leveraging of these funds with those of other agencies and U.S. 
industry.
    The Renewable Energy Production Incentive Program stimulates 
electricity production from renewable sources owned by States or 
smaller private sector groups. In fiscal year 2003, we request $4.0 
million, an increase of $213,000 above fiscal year 2002 comparable 
appropriations (approximately equal to our fiscal year 2002 request).
  --The Indian Renewable Energy Resources Program provides assistance 
        to Native American Tribes and Tribal entities in assessing 
        energy resources, comprehensive energy plan development, energy 
        technology training, and project development. In fiscal year 
        2003, we request $8.3 million, an increase of $5.5 million 
        above fiscal year 2002 comparable appropriations (no funds 
        requested in fiscal year 2002), to begin assisting Tribes in 
        ways to use renewable energy technologies on Tribal lands. 
        Funds will be awarded competitively.
    The Renewable Program Support includes activities that promote the 
use of renewable technologies in uunder-served regions of the United 
States. In fiscal year 2003, we request $2.0 million, a decrease of 
$781,000 from fiscal year 2002 comparable appropriations (same as our 
fiscal year 2002 request).
              national renewable energy laboratory (nrel)
    The National Renewable Energy Laboratory (NREL) is the Nation's 
premier laboratory for renewable energy R&D. It also works to improve 
energy efficiency, advance related science and engineering, and 
facilitates technology commercialization. For 25 years, NREL research 
has focused on developing technologies that harness the energy in 
natural resources in order to provide consumers with clean, non-
polluting energy alternatives to conventional fossil fuels. Since its 
inception, NREL's research has won 31 prestigious R&D 100 awards. In 
fiscal year 2003, we request $4.2 million for operating expenses, an 
increase of $130,000 above fiscal year 2002 comparable appropriations 
(same as our fiscal year 2002 request). This year we are also 
requesting $800,000, the same as last year's appropriated level, to 
complete the design of a research laboratory and office space for a 
Science and Technology Facility at NREL.
                           program direction
    Program Direction funding provides Federal staffing resources as 
well as associated properties, equipment, supplies and materials for 
the Department's Renewable Energy programs. In fiscal year 2003, we 
request $16.9 million, a decrease of $2.6 million from fiscal year 2002 
comparable appropriations ($2.3 million below our fiscal year 2003 
request).
                               conclusion
    Mr. Chairman, the President has challenged us by setting forth a 
long-term strategy that integrates energy, environment and economic 
policy. The Office of Energy Efficiency and Renewable Energy will 
continue to build on our successful technology research, development, 
demonstration and deployment activities to meet the recommendations of 
the National Energy Policy. Our budget submission gives us the chance 
to play a major role in this Nation's energy future and to make a 
difference in the lives of our citizens. We welcome this opportunity.

    Senator Murray. Before we move to questions, we have 
several members who have joined us, including the ranking 
member, Senator Domenici. We will turn to them for opening 
statements and then we will go to questions. Senator Domenici.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much. I am just going to 
put my remarks in the record and proceed.
    I welcome both of you here. We have a real job ahead of us. 
We will do our very best to come up with the right thing in the 
areas that you are going to be testifying on, and thank you for 
your diligence in trying to make these programs work.
    Senator Murray. Senator Bennett, do you have an opening 
statement?
    Senator Bennett. No.
    Senator Murray. Senator Cochran?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chair, let me just join you in 
welcoming our witnesses this morning. This is an interesting 
area of research that these agencies and the Assistant 
Secretaries are responsible for overseeing. I know in our 
State, for example, we have biomass projects for alternative 
fuels. We have a nuclear waste cleanup procedure that has been 
analyzed at Mississippi State University that shows great 
promise, and from what I hear in trying to keep up with these 
activities is that these are very important to our 
environmental interests, they are very important to our energy 
independence.
    So I hope we will look very carefully at the funding levels 
to be sure that we have enough money in our budget for these 
ongoing projects that are showing great promise.
    I am happy to be a part of this subcommittee's effort to 
review this budget request and we appreciate the cooperation 
and the diligent efforts of these Assistant Secretaries in that 
regard.
    Senator Murray. Thank you very much, Senator.
    Senator Domenici. Could I just respond? Thank you very 
much.
    Senator Cochran, I just wanted to say, this subcommittee in 
terms of how many dollars it has to spend in the title energy 
and water, for some people it is rather difficult, what is this 
all about? But I can say your observation is absolutely true 
and that this subcommittee has an enormous diversity of 
jurisdiction that I for one am glad that you share with me. It 
does all of the nuclear weapons activity. Who would think that 
under the rubric or title of energy and water that you have the 
nuclear weaponry of the United States being funded and assured, 
and all the way down to solar energy--a rather exciting list of 
things we will be doing. Thanks for your observation.

                 OFFICE OF RIVER PROTECTION MANAGEMENT

    Senator Murray. Thank you, Senator Domenici.
    Ms. Roberson, I am going to begin with you. You decided to 
replace Harry Boston as site manager at the Office of River 
Protection. You took this action despite the fact that the 
State, the community, Senator Cantwell, Congressman Hastings, 
and myself appealed for Mr. Boston to be kept in place. Mr. 
Boston came to the ORP right after the meltdown of the BNFL 
privatization effort. He got the project back on track. He 
reestablished much-needed community confidence and he helped 
create a very important cooperative effort with the State and 
the Federal regulators.
    The project right now is really at a critical juncture. We 
are 6 months away from groundbreaking. Why are you replacing 
Mr. Boston and why did you ignore all the interested parties 
who told you how important it was to keep him there?
    Ms. Roberson. Senator Murray, I would like to say I believe 
that I did not ignore your request. The request that I got in 
conversation with the members was to delay that reassignment to 
ensure that we had a smooth transition supporting construction 
start of the project, which is exactly what we did.
    I do believe that as the project goes into heavy 
construction, the Department has the opportunity to deploy an 
executive that has been through the same kind of project both 
in tank-farm operations and construction of a vitrification 
plant, and that we truly have an obligation to deploy those 
resources to ensure that the lessons we learned in that 
previous experience could be applied to where successful, to 
repeat our successes, and where it was not a success, know what 
to look for and do not repeat those mistakes.
    So I believe for the health of the project it was important 
to ensure that the lessons we had learned were appropriately 
applied to the project at this critical point.

                       HANFORD COMMUNITY DISSENT

    Senator Murray. Well, do you realize how much this decision 
to replace Mr. Boston has caused the community to question 
DOE's commitment to the project? We have an editorial from the 
Tri-City Herald January 25th edition and I will quote it: 
``Now, if Boston is leaving, the community is left to wonder 
about Energy Department motives in jeopardizing the Office's 
progress.''
    There is an article in this morning's Seattle Post-
Intelligencer that says ``But, as always with Hanford, there 
are no guarantees. Boston, a widely respected leader in the 
cleanup, is being transferred this summer by top DOE officials. 
Those same officials recently started backing away from 
promises to turn all of the waste to glass, fueling 
environmentalists' fears about the future of the 586 square 
mile reservation.''
    Do you realize how much community dissent there is over 
this?
    Ms. Roberson. I spent quite a bit of time before this 
decision communicating with members of the community as well as 
our regulators. I believe that allowing a delay in that 
reassignment to support a smooth transition is the appropriate 
action to take, and that is what we did. We are not backing 
away from our commitment to the construction and operation of 
the vitrification plant. We think that our actions both in the 
budget and our actions on the ground demonstrate that.

                   EQUITABLE CONTRACTOR REQUIREMENTS

    Senator Murray. Well, I understand that the contract with 
Bechtel and the Washington Group for construction of the waste 
treatment plant requires the companies to leave their senior 
managers in place for 2 years or face a fine of $1 million. 
Now, DOE included that requirement because they understand that 
moving managers can really harm a project.
    Harry Boston has been in place for 18 months. Why does DOE 
demand certain practices of its contractors, but it does not do 
the same for itself?
    Ms. Roberson. Actually our demand of our contractors is the 
same demand of ourselves. What we asked our contractors to do 
was not to change out project managers without our agreement. 
But we fully expect them to consider the work to be done, the 
phase the work is in, and to ensure that they have the best 
available resource to carry it out.
    Senator Murray. You did not consider Harry Boston to be a 
part of that?
    Ms. Roberson. I am sorry, I do not understand.
    Senator Murray. You said that you expect your managers to 
be able to carry out the project as designed. Do you believe 
now that you have a different mission than Harry Boston had in 
place?
    Ms. Roberson. I believe going into construction is a 
different phase of the project and may require a different set 
of skills. We would expect our contractors to do exactly the 
same.
    Senator Murray. You felt that Mr. Boston did not have those 
skills?
    Ms. Roberson. I believe that the Department had at hand 
someone who had been through the experience and could and had 
demonstrated the capability, and that our best chances of 
success were to deploy our resources in that manner.
    Senator Murray. Thank you very much.
    Senator Domenici.
    Senator Domenici. Who came first?
    Senator Murray. Senator Bennett--well, Senator Craig was 
first.

                            HIGH LEVEL WASTE

    Senator Domenici. Senator Craig.
    Senator Craig. Thank you.
    I think one of the frustrations we all have is demonstrated 
by this map, that shows that when we go to clean up Rocky Flats 
it is a matter of moving the waste to another site. Then we say 
one site is clean, but the other sites--well, we do not say 
they are dirtier because we like to think that we are storing 
it safely.
    But I think that is symptomatic of a problem, a very big 
problem, a very real problem, is the way we handle high level 
wastes. Of course, we are struggling to try to get that under 
control. The Secretary has been forthright, as has the 
President, with Yucca Mountain, and we hope we can resolve that 
and go forward there for a high level waste repository.
    I know that my ranking member and I have other thoughts 
about high level waste. At the same time, our thoughts are 
still appropriate today. When we open Yucca Mountain, it is 
full by definition of the waste that is already out there and 
its design capacity. So clearly we are going to have to move 
forward and look at other approaches toward handling high level 
waste and cleanup. That is going to be very, very critical, I 
think, for the future of nuclear energy, and we hope it has a 
future and we are working hard to make that happen.

  IDAHO NATIONAL ENGINEERING AND ENVIRONMENTAL LABORATORY ACCELERATED 
                                CLEANUP

    Secretary Roberson, now that the State of Idaho and DOE 
have entered into this settlement agreement on Pit 9 as I have 
talked about, that our governor and DOE announced yesterday, 
how do you and your discussions with the State progressing on 
the opportunities of accelerated cleanup at the INEEL work and 
fit this budget cycle?
    Ms. Roberson. Senator Craig, as you are aware, we had 
initiated discussions on a proposed accelerated strategy with 
the State of Idaho and the regional EPA. With disposition of 
the dispute at hand, it really allows all the parties to focus 
all of their attention. I think we have a great base strategy 
to work from and I do not believe that we are behind. I believe 
we are in a position to secure an agreement that will be 
completed well ahead of the appropriations schedule.

                      ACCELERATED CLEANUP EFFORTS

    Senator Craig. Well, that is my next question, because, as 
we know, the clock is ticking on Congressional action on the 
Energy and Water bill, the appropriations work that this 
subcommittee is underway in doing. I guess my question is how 
are you factoring in the Congressional schedule in your 
discussions with DOE sites on accelerated cleanup?
    Ms. Roberson. We are working very hard at every one of our 
sites to try to satisfy that schedule. I cannot confirm that we 
will be able to do it because it is very difficult for all 
parties, but we are committed to give our best effort to do so.
    Senator Craig. Well, as you know, in absence of that and an 
unallocated pot of money for DOE accelerated cleanup, I think 
there is a great tendency here for us to move ahead, if you 
will, and lock into a bill dollars and cents for sites as it 
relates to EM. That will be our tendency. We want to guarantee 
that. I do not want a budget in Idaho reflective of a step 
back.
    Last year this committee and the staff and Senators worked 
overtime getting more money and to accelerate the cleanup, not 
to step back from it. So the ability to get this done in 
sequence with the budget and the cycle is going to be awfully 
darned important for all of us.
    Ms. Roberson. Our commitment is to definitely support that 
need.
    Senator Craig. Thank you, Mr. Chairman.
    Senator Murray. Senator Bennett.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

                    TAILINGS AT THE ATLAS MOAB SITE

    Senator Bennett. Thank you, Madam Chairman.
    Secretary Roberson, you and I have visited before about 
Moab and I wanted to get it into the record and therefore will 
go through some questions that we have already discussed off 
the record. For the record, this is tailings from a uranium 
mill which produced most of the uranium that was in America's 
weapons stockpile for many years. The Atlas Corporation that 
produced that has now gone bankrupt and DOE has taken title to 
the tailings pile and therefore the responsibility for deciding 
eventually what will be done.
    When I first became a Senator and became aware of this, 
why, NRC recommended capping in place and said there was no 
health risk involved in doing that and that that was by far the 
cheapest and environmentally best thing to do, because moving 
the tailings involves some degree of disturbing them and in the 
disturbance they were afraid that some of the environmental 
impact of the tailings might get into the air in the form of 
dust.
    Now the Utah officials have examined the impact downstream 
from the pollution--or the toxicity, is probably a better 
term--leaking into the Colorado River, and there is indication 
that it is endangering fish in the Colorado River and that long 
term the groundwater going into the river will produce 
significant problems.
    So we are looking now at not capping it in place. We are 
looking at moving it.
    Given that history, then, my first question is how do you 
intend to allocate the $966,000 included in your budget request 
for this year with respect to the tailings at Moab?
    Ms. Roberson. The activities that we perform are to 
continue. I am going to give you the very specifics of what is 
involved: to initiate groundwater cleanup along the banks of 
the Columbia River.
    Senator Bennett. In the Colorado River.
    Ms. Roberson. Colorado River, I am sorry. We are doing it 
on the Columbia River, too.
    Senator Bennett. We would love to have the water from the 
Columbia River in Utah.
    Ms. Roberson. Our fiscal year 2003 budget request supports 
groundwater cleanup along the Colorado River, continue air and 
water monitoring, and continue our efforts to control fugitive 
dust and storm water control.
    As you are aware, the National Academy of Sciences is near 
the end of their review and has given us a status briefing. 
They are on schedule to complete their review in June. We 
believe that within 3 months of the release of the NAS report, 
we could make a final decision and start to design a 
remediation action.

                        COLORADO RIVER POLLUTION

    Senator Bennett. Do you think you have got enough money to 
expand the current focus on protecting endangered fish in the 
river? I have asked Chairman Reid and Ranking Member Domenici 
for $4 million in this year, thinking that maybe $966,000 is 
not enough for us to deal with the other pollutants that pose 
environmental and human health risk.
    Ms. Roberson. Senator Bennett, in conjunction with our 
evaluation at the other sites, we really are seeking some 
insight from the National Academy of Sciences. If it appears 
that additional funding would be necessary to make sure that we 
are maintaining the site appropriately and proceeding 
appropriately with the remediation, then the Moab site will be 
included in our proposed allocation of the reform account 
money.
    Senator Bennett. When do you expect that evaluation to be 
available to us?
    Ms. Roberson. The first of June.
    Senator Bennett. The first of June. So you and I can 
revisit this issue sometime in June?
    Ms. Roberson. And we are hoping that the NAS can accelerate 
their schedule.

                          MOVING MOAB TAILINGS

    Senator Bennett. I do not want to put words in your mouth, 
but I take it from what you are saying that you are still open 
to the idea of moving it?
    Ms. Roberson. There has been no decision made. We 
absolutely are open to the options that are on the table.
    Senator Bennett. And moving it sooner rather than later?
    Ms. Roberson. Moving it is clearly an option, and if moving 
it is the necessary action we are certainly focused on 
accelerating our remediation.
    Senator Bennett. Thank you very much. I appreciate your 
attention to this, our past conversations about it, and your 
responses here today. Thank you.
    Ms. Roberson. Thank you, sir.
    Senator Murray. Senator Cochran.

            DEPLOYMENT OF THE ADVANCED VITRIFICATION SYSTEM

    Senator Cochran. Madam Chairman, thank you.
    Secretary Roberson, I want to commend you and Secretary 
Abraham for the work you are doing to help develop less costly 
and faster-deployed procedures for nuclear waste cleanup. The 
fact that you are exploring alternative technologies to me is 
encouraging because of the estimates for cleaning up sites 
right now and how those costs continue to seem to spiral upward 
at an alarming rate.
    My specific interest comes from my knowledge of the work 
that is being done at Mississippi State University at the DIAL 
Lab, the Diagnostic Instrumentation and Analysis Laboratory, 
that the Department of Energy helped create to explore these 
and other interests. Do you have specific plans for the 
deployment of the advanced vitrification system that is under 
review there?
    Ms. Roberson. We certainly have a desire. We see an 
opportunity and, as you are probably aware, we are working with 
the sponsors on deployment of that technology. We hope to begin 
in 2003, and so we do have specific plans and we are trying to 
work out those details with them.
    Senator Cochran. Does the budget request that is submitted 
before the committee now contain funding that would enable you 
to pay that?
    Ms. Roberson. This will be funded from the science and 
technology budget and, as you are aware, we have been reviewing 
over the last month all of the technology investment. At the 
end of this month that team, which is a team from around the 
complex, will provide its assessment, but I have had the 
opportunity to sit with them and this technology does indeed 
provide a real opportunity and is going to be supported.
    Senator Cochran. Thank you.
    Madam Chairman, I have some additional questions with some 
more specificity about the nature of this research and why it 
appears to me to be very important, and I would ask that those 
questions could be just submitted for the record.
    Senator Murray. Without objection.
    Senator Cochran. Thank you very much.
    Senator Murray. Senator Domenici.

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Senator Domenici. Thank you very much, Madam Chairman.
    Let me say to both of you, I hope you have a good year. 
Obviously, in a number of areas that you have control over 
there will be some very serious disagreements, but 
fundamentally the biggest one that we are going to have on the 
funding levels has to do with the $800 million that you have 
carved out, that you are holding there, saying that we are 
going to release it to sites to increase their money if they 
have entered into the kind of contracts that will expedite the 
cleanup that they are supposed to do and also do it in a more 
timely manner.
    Frankly, I am not sure that that will work, and I am sure 
that you are not sure it will work, either, because in the 
meantime we have to put appropriation bills out and we are 
going to have the Senators from all of the sovereign States 
that are affected. They are going to come before us and say 
that they should not be cut 25 percent because we are looking 
for a new system to make things better.
    On the other hand, I am more than willing to acknowledge 
that you are on the right track. I do not think you will ever 
get it done with such a huge carveout, but I think we have to, 
sooner rather than later, find some way to modernize the 
agreements and to enter into better ones where we will get 
better results.
    We are put, all of us that have sites, we are put in a 
position where we have become used to a certain portion of this 
budget that is cleanup money going to our States for the 
cleanup. It has almost become our cleanup, meaning the States 
and Congressmen who represent the area.
    So that no one will have any misunderstanding about your 
reductions, you did not play any favorites. The sites that have 
been reduced percentagewise the most are in New Mexico, so for 
that I thank you very much. I have already expressed with our 
chairperson the notion that anybody that thinks we have a very 
good and friendly relationship going with the Department, they 
can just look at this one.
    But I can assure you that we cannot live with the cuts that 
you put in the budget unless we did have a whole new system in 
place, and I am not sure by the time we have to mark this bill 
up that you are going to have that.
    I wonder if we could have a question put to them that they 
would report to you and I on the progress being made so that we 
will know something before the appropriation time on where they 
are. I am assuming it would be to the Chairman, Chairman Reid, 
but I would put that to you, Madam Chairperson, that, let us 
set a date and give them that date.

                ACCELERATED SCHEDULE PROGRESS REPORTING

    Senator Murray. In terms of the contracts?
    Senator Domenici. Let us ask them to report to us if they 
are having, making any progress.
    Senator Murray. I think that is a good idea.
    Ms. Roberson. I think that is a wonderful idea. I would be 
honored to do so.
    Senator Domenici. Well, just so none of us get carried 
away, it is a wonderful idea, but the chances that you will get 
anything done that is really a big departure, that will save a 
lot of money, do not seem to me to be very--there is not a high 
probability that that will occur. But we would like to see what 
you are doing and whether you are achieving anything or not.

                     MODERNIZING CLEANUP CONTRACTS

    Could you tell us as of now, you produced this budget with 
this kind of approach a few months ago. What has been 
happening? Have you been having any success in modernizing any 
of these contracts, or is anybody thinking about changing the 
way they are going to do the work?
    Ms. Roberson. Senator Domenici, I actually think we are 
making wonderful progress. Clearly, we will not achieve 
everything we wanted, but the thing that has been the most 
stark to me is the true sense of cooperation around each of the 
sites, every one of the sites. It is rewarding to sit across 
the table, as I have done at most of our sites and within the 
next 30 days will do at just about all of them, from our 
regulators and with interested stakeholders.
    Everyone is in agreement with the goal. I recognize that 
there will be details that will be hard to work through. But if 
we can establish a path, which is our goal here, I think the 
opportunity for success is tremendous. If I may talk for a 
minute about our facilities in your State proper, at the Los 
Alamos National Lab, we have about 2,000 containers of 
transuranic (TRU) waste which we have been unable to figure out 
how to prioritize, bring to the top of our cleanup agreement, 
and disposition that material.
    Working in conjunction with the facility, our local DOE, 
our regulators, and in that case with the NRC that regulates 
transportation, we believe we are definitely on the path to 
reach agreement to initiate movement of that material years in 
advance.

                      WASTE ISOLATION PILOT PLANT

    Your other facility, the Waste Isolation Pilot Plant, 
obviously is a receiver site for many of the other sites and 
therefore we are looking at it in the context of how do we make 
sure it is equipped and staffed and funded to support the plans 
from the other sites around the complex.
    I do believe we have a tremendous opportunity in front of 
us and, no, we will not get everything that we think should be 
gotten, but we will establish a path and I think that that is, 
quite frankly, a great achievement for all of us.
    Senator Domenici. Secretary Roberson, let me talk about 
WIPP for a minute with you, Waste Isolation Pilot Project. Let 
me ask, have you been there?
    Ms. Roberson. I have been there.
    Senator Domenici. Just one time?
    Ms. Roberson. I have been there one time.
    Senator Domenici. That is enough. I just wanted to make 
sure you were not a big expert. I have only been there one 
time.
    In any event, the proposal now being put forth by the 
Department of Energy is to expedite the filling of this 
repository, which would cut the time almost in half between now 
and when it will be filled versus how long it would be if we do 
not do anything. I gather the savings are in more than a few 
billions of dollars over time. Do you happen to have the 
number?
    Ms. Roberson. No, sir, I do not have handy with me the 
estimated savings of that operation.
    Senator Domenici. All right.
    Ms. Roberson. But we can get that for you.
    [The information follows:]

         Cost Savings From Expedited Filling of WIPP Repository

    The Department of Energy is proposing to expedite shipment 
of transuranic waste from the sites to the Waste Isolation 
Pilot Plant (WIPP) as part of the accelerated closure of sites 
in the weapons complex. This will be accomplished through the 
use of mobile vendors, pursuit of commercial rail to make 
shipments, as well as other initiatives, and would result in a 
ramp down in the WIPP operations sooner than anticipated. The 
potential cost savings associated with accelerated closure of 
WIPP is approximately $8 billion, resulting from approximately 
a 50 percent reduction in life-cycle cost by completing its 
mission by 2016, instead of 2034.

                       CARLSBAD COMMUNITY CONCERN

    Senator Domenici. Would you? I think it is very important 
if we are going to be making any adjustments with reference to 
what happens to that community. You understand that the 
community of Carlsbad and the surrounding area has been about 
as helpful to the Department as any recipient State on anything 
that has to do with the Department. They actually are excited 
about WIPP and have been supporters, traveled all over the 
country and in New Mexico, to our legislature, cohesively from 
the area.
    I believe it is very important, if we are going to come 
along now after they made all these arrangements and their city 
is going along, if we are going to cut the time in half, that 
we consider their economic vitality for the future. They expect 
to become a diverse economy and if we are going to all of a 
sudden switch gears and say you have got 15 years instead of 30 
to get that done, then we have to work with them in some ways 
to protect their citizens in that regard.
    I assume you would be the people that we would work with; 
is that correct?

      ENVIRONMENTAL MANAGEMENT ACCELERATED CLEANUP REFORM ACCOUNT

    Ms. Roberson. That is absolutely correct, sir.
    Senator, may I comment further?
    Senator Domenici. Please do.
    Ms. Roberson. What we are attempting to do through this 
accelerated account is to establish a path and develop the 
ability to be flexible in acquiring and learning from 
experiences, and focusing our investigations to ensure that we 
are prepared to carry out the remediation. We have a baseline 
that you are holding us accountable to delivering, but there is 
other work scope that also must be dispositioned.
    For instance, with the modernization of the weapons 
complex, additional facilities, materials, would come to the EM 
program at Oak Ridge. We are expecting to receive the FFTF 
facility at Hanford. There is additional work scope as the 
complex modernizes and moves ahead.
    The EM program is not done. We simply try to establish some 
boundaries and some process for dispositioning the work at hand 
right now, recognizing that there is additional work to come. 
So their role is not over. But I would also say to you that 
they have certainly demonstrated their support of the mission 
and the Department. They have been a wonderful community to 
work with and the Department is prepared to work with you and 
the rest of the delegation and the community to support their 
needs as well.

             SECRETARIAL MEETING WITH NEW MEXICO DELEGATION

    Senator Domenici. Do you happen to know whether the 
Secretary of Energy is going to be in Washington in the next 
couple of weeks? You would not happen to know about his 
itinerary? You do not have to. I just thought I might luck out.
    Ms. Roberson. We can get back to you. I do not know. We 
think he will be here next week.
    Senator Domenici. We will find out. Carlsbad, that 
delegation you spoke of is going to come to town.
    Ms. Roberson. I am going to meet with them.
    Senator Domenici. I have not made arrangements yet.
    I am going to stop for a while and let the chairperson 
proceed and then I will come back with a few more.

          WASHINGTON STATE CONCERNS ABOUT ACCELERATED CLEANUP

    Senator Murray. Thank you very much, Senator Domenici. I do 
think it is a good idea for Ms. Roberson to give us an update 
constantly on where these contracts are. The State of 
Washington has signed a letter of intent, but the Department of 
Ecology has already sent a letter that addresses some very 
serious concerns. I think they want to have opportunity and 
hope ahead of them, but they say it is simply too early to make 
definitive statements regarding their success, the number of 
years that may be cut from Hanford cleanup time line, or the 
amount of associated cost savings.
    Likewise, most targets are not yet sufficiently fleshed out 
to enable a decision by Ecology on whether to support 
implementation. I think there is a number of serious concerns. 
They have a work plan due by May 1st and an August 1st deadline 
as well, and I think, just looking at the Department of 
Ecology's latest letter, addressed April 8th, I think we are a 
long way from satisfaction on this, a lot of questions left out 
there.
    On behalf of Senator Reid, I do want to ask you a question, 
Ms. Roberson. It has been more than 2 months since announcing 
the cleanup reform initiative with the fiscal year 2003 budget 
request. Can you tell us, in that time has any State or 
regulatory agency agreed to waive legally binding cleanup 
agreements for a portion of the $800 million fund?
    Ms. Roberson. Not that I am aware of, and I am not aware 
that we have asked any State to do so.

         WORKFORCE REDUCTIONS AT THE OFFICE OF RIVER PROTECTION

    Senator Murray. Let me go back to ask you about Washington 
State again. The waste treatment plant is the largest 
environmental cleanup project in the world. It is a one of a 
kind facility. It has tremendous technical challenges. The 
Federal Government is going to be investing billions of dollars 
into that plant.
    You have recently directed a reduction in the work force at 
ORP from 129 employees down to 109. By comparison, Richland 
operations has over 300 employees for projects with a smaller 
budget. How do you justify to our communities cutting the work 
force at the Office of River Protection with this tremendous 
project ahead of us, with the tremendous amount of dollars that 
are being invested, and the tremendous amount of work and 
progress that we expect to have?
    Ms. Roberson. The staffing targets were established in the 
beginning of the fall of last year when we established staffing 
targets for all of our sites. In fact, the Richland office is 
over its target as well. In that time frame we have supported 
the sites with certain options to redeploy personnel. I have 
committed to work with them.
    But there has been no unique action taken against ORP. That 
target was established in October of last year, and since that 
time the staffing level has gone up. I have agreed with. What I 
have told the field managers is, on an annual basis, we will 
reevaluate the appropriate targets for each of the sites, but 
we have to have constraints and we have to ensure that we are 
being diligent about those resources.
    I have approved some of those hires at ORP even since that 
time. I have taken another reduction in headquarters to support 
that increase. I think I have tried to be fair and diligent in 
that process. But they are far from the only ones that have 
been given a challenge on their staff.

              DOE COMMITMENT TO OFFICE OF RIVER PROTECTION

    Senator Murray. This has contributed to a lot of the 
community concern about the Department of Energy's commitment 
to the Office of River Protection. As you know, I worked with 
all the other members of the Washington delegation to establish 
that Office of River Protection as a separate DOE project 
office. The reason that we did that was because the project was 
of such critical importance and such complexity that we really 
felt it warranted the need for an individual site manager who 
would give it his attention and who would report directly to 
headquarters. In fact, Congress reinforced that position by 
extending this separate designation at least through 2010.
    Can you assure me this morning that the manager of ORP will 
continue to report directly to you and not to the manager of 
Richland operations?
    Ms. Roberson. Yes, I can. I can assure you of that. There 
are no plans to change that.
    Senator Murray. Absolutely?
    Ms. Roberson. Absolutely.

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Senator Murray. Ms. Roberson, let me go again to you. DOE 
announced upon the signing of the letter of intent with 
Washington State that the administration supports an additional 
$433 million above the President's request for Hanford. We have 
been told DOE's specific allocation of the $433 million among 
the Office of River Protection and Richland operations would be 
decided by May 1st, when the draft work plan is released. Is 
this still your agency's intention?
    Ms. Roberson. Yes, it is, Senator Murray.
    Senator Murray. Will DOE be making a revised budget request 
for Hanford reflecting this agreement to allocate $433 million 
more for Hanford?
    Ms. Roberson. That is our intention, Senator Murray.
    Senator Murray. When will we receive that?
    Ms. Roberson. Our expectation is soon after May 1. We have 
a very close working relationship with the site and the 
regulators over the last few weeks and we actually think that 
tremendous progress has been made in the development of that 
performance agreement. Let me just say, I have not seen the 
State's letter. I am not surprised that they are cautious, as 
they should be.
    The performance management plan primarily focuses on the 
actions that the Department is to take. So I believe that we 
can still press forward. Now, I know one of the concerns is why 
can we not just communicate what the distribution of that $433 
million is. That is primarily because there are certain work 
scopes with the integration of the Central Plateau that we have 
to understand whether it is going to be a part of ORP or of 
Richland.
    For instance, there was some duplication of solid waste 
management activities. The management plan will provide us the 
opportunity to see what that path is and what activities fall 
where.
    Another activity as an example is the disposition of the 
cesium-strontium capsules. That was in the ORP baseline for 
vitrification in the 2020 timeframe. With the revised strategy, 
that distribution of responsibility is likely to change. So we 
cannot be absolutely sure what will need to fall into the ORP 
baseline and what will fall into Richland baseline. That is the 
reason we say we need that performance plan to do that.
    We believe we understand, the appropriate cost of the 
strategy. But the distribution of functional responsibilities 
still needs to be laid out.
    Senator Murray. You have been highlighting your commitment 
to seek an additional $300 million for the EM program if all of 
the cleanup agreements necessitate that. I should ask when, but 
how will the administration let us know what that support is?
    Ms. Roberson. As best I understand--and I think I might ask 
to respond in writing so that our CFO, Bruce Carnes, can 
respond.
    [The information follows:]
                       Cleanup Reform Initiative
    If needed to complete required reforms at all sites, the Department 
expects to request additional appropriations of up to $300 million for 
the Environmental Management Cleanup Reform Account. The Department 
believes we will have sufficient information during the fiscal year 
2003 appropriations process to determine whether additional funds are 
required. If needed, a budget amendment would be an appropriate vehicle 
for this request.

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Senator Murray. Will we see it in the supplemental request?
    Ms. Roberson. My understanding is it will come in the form 
of a supplemental or an amendment, but that is about the extent 
of what I can tell you. We would be glad to have him respond in 
writing or give you a call.
    Senator Murray. I would just tell you, Chairman Reid is not 
here. Senator Domenici, the ranking member, is. My assumption 
is that we will get our marching orders from Senator Byrd and 
Senator Stevens fairly quickly to mark up. So hopefully we will 
see that sooner rather than later and understand what the 
impacts are going to be.
    Ms. Roberson. Thank you.
    Senator Murray. I have one other question, but, Senator 
Domenici, why do you not go ahead.

                       LOS ALAMOS LAND TRANSFERS

    Senator Domenici. I am going to submit about eight or ten 
questions in writing and just take one of them with you. 
Secretary Roberson, this is regarding Los Alamos and in 
particular regarding the land transfer to San Ildelfonso 
Pueblo. I hope you can find that so we can talk here on the 
record. The Secretary of Energy is required to transfer lands 
in Los Alamos and Santa Fe Counties--New Mexico, that is--that 
are in excess to the Department's needs. This has been a very 
long process and very frustrating for this Senator, because it 
was supposed to take a couple of years and it has taken 5 or 6. 
It was supposed to be a lot of land that, if you look at the 
maps, we no longer needed, were just sitting out there. It 
turned out there was a use for much of it. Much of it was not 
environmentally usable.
    But we are down to getting some things done. The land 
transfer is intended to meet the responsibilities of the 
Department to provide land suitable for economic development so 
that the county could expand its tax base, diversify its basic 
economic base. We were hoping that this would get done years 
ago, but now we are down to the point where we have to get it 
done.
    Do you know its status and what is holding it up? Will we 
be able to transfer this land soon so we can at least have a 
few people believing that we are going to get them the excess 
land for them to use? Can you report to us on the, please?
    Ms. Roberson. Actually, the status that I have before me is 
that current planning is to transfer a total of 4,045 acres, 
but I believe about 2,000 of those we are trying to transfer in 
2002, I believe 1900 in 2003, and the sequencing that we are 
doing is to ensure that we are doing the environmental 
clearance on that land before transfer.
    The confirmation I have is that we will meet the schedule 
specified in Public Law 105-119, but I do not have more 
details.
    Senator Domenici. All right. You have to get yourself a 
little more current on it, but I just want to proceed and do 
not want to take any more time. I just want you to know that 
this is very, very important to this Senator. I get very 
frustrated when we commit to people and then the Department 
finds things that they should have found before that make it 
not possible to live up to what you are saying, said to your 
constituents.
    This is an important one and all of the land transfers that 
are pending there are under a specific proposal that has been 
adopted a few years ago, are going to come into fruition, and I 
want you to know that I do not want them to go to the bottom of 
the pile and not come back up unless I call, and I will not 
call unless somebody calls me, and you know what happens, we 
are 4 years into something.
    So in that regard, I would appreciate your assistance.

                   HIGH TEMPERATURE SUPERCONDUCTIVITY

    We have a high-temperature superconductivity center. Mr. 
Garman, during the past 2 years I have been very interested in 
the Department's effort to accelerate the development and 
application of high-temperature superconducting technologies 
through the joint efforts of Oak Ridge and Los Alamos. I 
believe that you have requested about $9 million to continue 
the work in 2003. Could you provide us with an update of this 
effort and describe the types of commercial potential that 
exists, and in order to achieve commercial success what level 
of investment should be made in Research and Development, over 
what period of time?
    No, I do not expect you to necessarily do that now, but 
perhaps you can just tell me a little bit about this project 
and get those answers for the record.
    Mr. Garman. Sure, I will provide an extensive answer for 
the record. But I would say that high-temperature 
superconducting wiring is a breakthrough in technology. We are 
in the middle of a demonstration project in Detroit now that 
shows great promise, particularly in constrained areas, 
carrying more and more power, longer and longer distances, at 
more reasonable costs. We are very excited about the work that 
is done at Los Alamos and Oak Ridge on the high-temperature 
superconducting wire. We will give you a map.
    [The information follows:]
                   High Temperature Superconductivity
    The Accelerated Coated Conductor project was initiated to assure 
continue U.S. leadership in the development of High Temperature 
Superconducting (HTS) wire for electric power applications. This 
project was designed to accelerate the development, commercialization, 
and application of high temperature superconductors through joint 
efforts among DOE laboratories, American industry, and universities. 
Based on their technological advances in HTS coated conductor 
development, Los Alamos and Oak Ridge National Laboratories lead this 
effort by making available state-of-the-art equipment and expert 
scientists to work cooperatively with U.S. industry developing 
fabrication techniques that lead to commercial manufacturing. This 
public- private partnership provides equipment, facilities, and 
technical expertise to accelerate industry R&D.
    The new equipment has been installed and scientists and engineers 
from the HTS companies have started using the facilities at the Los 
Alamos and Oak Ridge National Laboratories. Approximately $9 million of 
the fiscal year 2003 budget request will fund this cooperative research 
and development. Collaboration with industry also involves the design, 
development, and testing of pre-commercial prototype equipment in 50-50 
cost shared Cooperative Agreements to ultimately apply the coated 
conductors in power applications such as transmission lines, 
generators, transformers, and fault current limiters. Five companies 
have committed to using these advanced facilities: American 
Superconductor, 3-M Corporation, IGC-SuperPower, DuPont, and 
MicroCoating Technologies. Several other companies have indicated 
interest in using the facilities and have opened discussions with the 
laboratories.
    Approximately $9 million of the fiscal year 2003 budget request 
will specifically support this project and an additional $30 million 
will be needed to completion in fiscal year 2007 when industrial pilot 
plants are expected to have grown into mature manufacturing lines. Five 
companies have committed to using these advanced facilities at the 
national laboratories, and some initial work has already begun.

                    FUEL CELL RESEARCH AT LOS ALAMOS

    Senator Domenici. Fine. Then I will just quickly move to 
the Fuel Cell National Resource Center at Los Alamos. That 
comes under you also. Will you please for the record comment on 
your work in this area and elaborate on the future role of this 
center and Los Alamos in this area?
    Mr. Garman. Yes, sir. The work that is done at Los Alamos 
on the proton exchange membrane fuel cell is very important to 
us, particularly in the context of the administration's 
initiative on the Freedom Car project. PEM fuel cells tend to 
be lightweight, lower temperature than some other types of fuel 
cells. The work that has been done at Los Alamos to date has 
been very important in reducing the cost of the fuel cell 
stack, mainly through reduction in the platinum catalyst needed 
in the membrane.
    This is extremely important work. The best people in the 
program that we have are working at Los Alamos and we foresee a 
continued relationship with Los Alamos and an expansion of that 
effort in keeping with our initiative in the Freedom Car 
program.
    Senator Domenici. Thank you very much.
    I have no further questions. We will submit them in 
writing. I want to thank you for your courtesies this morning 
and pledge to you, working with Senator Reid, we will try to 
expedite our bill and try to prove our case to our Senators 
that have to do the allocating that we need more than a few 
hundred million plus-up in the accounts here. But that is not 
their problem. It is above their grade, I think.
    Senator Murray. Thank you, Senator Domenici, and thank you 
for your support on these issues over the 10 years I worked 
with you on this committee as well.
    Senator Domenici. You are welcome.

                   HAMMER TRAINING FACILITY REDUCTION

    Senator Murray. Ms. Roberson, let me go back to you again. 
The administration budget zeroes out funding for HAMMER, the 
training facility at Hanford. That facility has trained over 
150,000 Hanford and non-Hanford students since 1997. Managers 
and workers at the site tell us that HAMMER is responsible for 
the increased safety record and in fact since 1997 HAMMER has 
directly contributed to over three million safe work hours and 
about a quarter of a million hours of safe training.
    Since HAMMER has contributed to this significant safety 
record, why has DOE proposed to eliminate it?
    Ms. Roberson. Senator Murray, I had the opportunity to 
speak with our site manager at Richland, Keith Klein, as well 
as some of the workers on this topic. What I have advised Keith 
Klein is that the Department does indeed support the 
contribution that HAMMER has made to the preparedness and 
training of our workers, and I communicated that to 
representatives from our union, who benefit from that for the 
Department.
    I know that they are in discussions as to how that 
facility's contribution integrates in support of our 
accelerated cleanup, because the demands on it may be greater 
even as a result of that.
    Senator Murray. Correct.
    Ms. Roberson. They are discussing the budget and how that 
is to be integrated with the allocation of funding. I cannot 
tell you the specifics of that, but I know that those 
deliberations are ongoing.
    Senator Murray. But you have zeroed it out in your budget, 
HAMMER?
    Ms. Roberson. Because it needs to. Its value really has to 
be integrated with the cleanup plan. I believe that case can be 
made and is being made.
    Senator Murray. So you expect to take the money out of 
cleanup funds?
    Ms. Roberson. Well, it would have to be funded from the 
budget. The training of the employees at that facility, what 
they are doing is looking at the cost-benefit of some other 
training avenue. They have convinced me that this is the most 
efficient way to acquire those training services, and so we pay 
for training out of the budget one way or the other. Their 
recommendation is to support that training at HAMMER.
    Senator Murray. Out of the cleanup budget?
    Ms. Roberson. We would, with our distribution of funding, 
we would recommend a budget for HAMMER as a result of that, 
yes.
    Senator Murray. I understand workers from across the 
complex are training at Hanford. Is your budget proposing to 
eliminate training at HAMMER for all of the non-Hanford workers 
as well?
    Ms. Roberson. I am not aware of where the other workers are 
from. I have not been approached by the workers from other 
sites nor the site management, that there is an issue or 
concern. My understanding is that what the Department has done 
in the past is to support the training needs through Hanford 
and that is the way that I propose we go forward. So no, I have 
not considered that and I have not been approached with a 
proposal.
    Senator Murray. Well, as you alluded to, the operation of 
the waste treatment plant is going to take a lot of training to 
operate that. I will tell you, labor and the community again 
are gravely concerned that a lack of funding will really limit 
the training and will really prevent full operation of that 
waste plant.
    Have you considered the inability to train enough workers 
to affect the facility's operation with the cut of the HAMMER 
funding?
    Ms. Roberson. As I said, what I have asked Keith Klein and 
Harry Boston to do is to, based on their evaluation at the site 
of the training needs for employees and new employees integrate 
those training needs, which the Department will pay for one way 
or the other, into the needs of that facility and the timing. 
They have a responsibility to provide that recommendation.
    Senator Murray. Well, I will have some further questions 
about that, but I will work with the committee and submit them.

                         TANK WASTE AT HANFORD

    Let me go to one final question for myself. Ms. Roberson, 
statements by you and others at the DOE have suggested a desire 
to vitrify less tank waste and to leave some of the waste in 
the tanks permanently. I have to tell you that has raised a lot 
of concerns again in my State, because it is contrary to the 
requirements of the tri-party agreement. In fact, the 
Washington State Department of Ecology sent a letter to DOE 
noting that State and Federal regulators do not agree with some 
of the assumptions in the draft accelerated cleanup plan.
    Will you commit your agency to working with the State and 
Federal regulators to reach consensus on all the issues which 
would require actions contrary to the tri-party agreement?
    Ms. Roberson. Absolutely. There is no other way for us to 
do it. It is an agreement and we have to work together. We are 
absolutely committed to do so.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. I appreciate that. Again, I will just tell 
you that a lot of the actions have raised a lot of concerns 
among the community, as I have described throughout my 
questioning here, and I think it is very important that DOE 
understands the high level of concern about the commitment from 
DOE to ongoing efforts at Hanford.
    I do want to submit for the record a question from Senator 
Hollings regarding the South Carolina budget. He has some real 
concerns about that. I will submit that question to you.
    Mr. Garman, I did not mean to ignore you this morning. I do 
have some questions I will submit for the record for both of 
you. Senator Reid would like to keep the record open for a week 
for other members' questions as well.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Patty Murray
                        listing of site managers
    Question. Ms. Roberson, please provide me with a list of all site 
managers in the complex and how long (to the month) they have been in 
their current positions.
    Answer. The following is a list of the current site managers in the 
Environmental Management complex and the length of time they have 
served as of May 2002:
    Dr. Ines Triay, Manager, Carlsbad Field Office--3 years this month 
Vacant, Manager, Idaho Operations Office Vacant, Ohio Field Office
    Keith Klein, Manager Richland Operations Office--3 years this month
    Dr. Harry Boston, Manager, Office of River Protection--2 years 5 
months
    Barbara Mazurowski, Manager, Rocky Flats Field Office--1 year 11 
months
    Greg Rudy, Manager, Savannah River Operations Office--4 years this 
month
    However, DOE has announced the following management changes:
    Greg Rudy, will move to the National Nuclear Security 
Administration in Washington, D.C. and Charles Hansen, Deputy Manager 
of the Savannah River Operations Office, will become the Acting 
Manager.
    Eugene Schmitt, Acting Deputy Assistant Secretary for the Office of 
Policy, Planning, and Budget at EM Headquarters in Washington, D.C. 
will replace Barbara Mazurowski as Manager of the Rocky Flats Field 
Office.
    Roy Schepens, currently at the Savannah River Site will replace 
Harry Boston as the Office of River Protection Site Manager.
                     river corridor closure project
    Question. Ms. Roberson, the Department recently released a final 
RFP to select a contractor for the River Corridor Closure Project at 
Hanford. How is this solicitation consistent with the views expressed 
in last year's DOE contractor readiness report that the Department 
should expand competition by attracting interest from a broader base of 
contractors?
    Answer. In the report, ``Analysis of the DOE Contractor Base'' 
(January 2001), the authors recommended various actions that DOE should 
take to improve contractor responsiveness to Requests for Proposals 
(RFP). One of the recommendations was to promote competition and high 
quality contractor performance by (1) providing an emphasis on 
performance-based contracting; (2) giving greater clarity and details 
in the scope of work; (3) providing more background information and 
documents to potential offerors; and (4) making sure that the draft 
comment period is adequate and comments are fully considered.
    This was incorporated into the River Corridor Solicitation by (1) 
making the contract a cost-plus-incentive-fee contract, where the 
amount of fee earned is directly related to the performance and cost of 
that performance; (2) refining the scope of work to ensure that it 
contains only those areas that are well understood and documented; (3) 
providing on the website all the available documents for the use of 
potential offerors; and (4) providing a comment period of 27 days for 
the draft RFP. In addition, three separate site tours were held, one 
for a general overview of the Hanford Site and two for specific areas 
or facilities requested by the potential offerors.
    Another recommendation expressed in the report was to reward high 
quality contractor performance by (1) allowing contractors to earn 
market fees commensurate with performance and level of risk and 
liability assumed; and (2) sustaining or even strengthening the aspect 
of DOE competition policy that encourages up to 5-year extensions for 
strongly performing companies.
    This was incorporated into the River Corridor Solicitation by (1) 
making the maximum allowable fee attainable by an extremely successful 
contractor 15 percent of proposed target cost with a minimum fee of 2.5 
percent.; and (2) placing an option into the contract which provides 
for a large increase in scope for a highly successful performer. With 
the exercise of the option, the contract performance period would be 
increased by at least 5 years.
    The other recommendations pertained to monitoring of the 
marketplace and/or the administration of contracts after award. Insofar 
as the acquisition was concerned, these recommendations were addressed 
by holding one-on-one meetings with prospective offerors on two 
occasions prior to release of the final RFP. The Source Evaluation 
Board Chairman and Contracting Officer conducted telephone 
solicitations with qualified companies not normally performing on DOE 
contract activity to expand the pool of prospective offerors. It 
appears at this time that this particular action was successful.
    Question. You do agree that the contractor selected for the River 
Corridor Closure Project should to the extent possible, subcontract 
with local companies in the Tri-Cities?
    Answer. Since this is a cost-plus-incentive-fee type of contract, 
the selected contractor will be incentivized to place subcontracts 
which respond to competitive solicitations at the lowest cost. 
Companies closest to the area of performance will have an advantage due 
to lower transit and mobilization/demobilization costs. In addition, a 
small business plan and socioeconomic goals are to be incorporated into 
the contract. The contract itself will penalize the contractor if there 
is any non-compliance with the plan and goals. Finally, the contractor 
is also required to have a mentor/protege program in place during 
contract performance. Because of the number of qualified small 
businesses in the local area, it is reasonable to expect that a fair 
percentage of the selected small businesses will be Tri-Cities 
companies.
                            low-level waste
    Question. Ms. Roberson, last year in the fiscal year 2002 Energy 
and Water Appropriations Conference Report, the Committee directed your 
office to prepare a report on the life-cycle costs for the disposal of 
low-level radioactive waste at DOE and commercial disposal facilities. 
What is the status of that report? What are the major findings of that 
report?
    Answer. The cost study is in final Departmental review, and is 
expected to be delivered to Congress this summer. As a result of doing 
this analysis, we have drawn five major conclusions concerning our 
management of DOE low-level radioactive waste.
  --Generator site pre-disposal costs offer the greatest opportunity 
        for cost savings. All DOE decisions for choosing low-level 
        waste disposal locations should be based upon the full ``cradle 
        to grave'' cost of managing the specific waste stream, not just 
        the fee charged by the disposal facility or the cost of 
        disposal facility operations.
  --On-site DOE disposal cells for cleanup waste are cost effective.
  --Commercial facilities offer the lowest disposal cost for some DOE 
        waste.
  --DOE disposal sites offer services not available commercially.
  --Comparison of disposal alternatives must consider more than just 
        disposal fees. The DOE practice of charging a ``fee'' that does 
        not include capital costs and costs for closure and long-term 
        stewardship does not unfairly favor DOE disposal sites as long 
        as the ``cradle to grave'' cost for managing a waste stream is 
        considered in making disposal site selections.
                            low-level waste
    Question. Ms. Roberson, what is your office doing to make it easier 
for sites to choose the least expensive disposal option of low-level 
radioactivite wastes? Do you believe that the DOE's preference for the 
use of DOE disposal facilities should be changed to allow sites to use 
the most cost-effective option, whether that option is a DOE or 
commercial facility? If so, what is your office doing in this regard? 
What guidance does Headquarters plan to provide to its field offices to 
ensure that they are aware of the findings of your report and that they 
implement the most cost-effective options for the disposal of low level 
wastes?
    Answer. We have prepared a report that is in final Departmental 
review on the life-cycle costs for disposal of low-level radioactive 
waste at DOE and commercial disposal facilities. The report was 
prepared in response to the report accompanying the Energy and Water 
Development Appropriations Act of 2002. One of the findings of that 
study is that commercial facilities offer the lowest disposal cost for 
some DOE waste. To facilitate our sites' use of licensed commercial 
disposal facilities, we are considering changing our radioactive waste 
management directive to remove the requirement that sites seek an 
exemption to use non-DOE disposal facilities. Subsequent guidance may 
be issued to clarify implementation of this policy change.
                      life-cycle costs of disposal
    Question. Ms. Roberson, DOE's PEIS indicates that low-level waste 
and mixed low-level waste from off-site sources will be shipped to the 
Nevada Test Site and Hanford for disposal. Some have raised concerns 
that Hanford and the Site may be subsidizing DOE's disposal of these 
wastes unless the Department requires that generator sites pay the full 
amount of the life-cycle costs for disposal. If such wastes were to be 
disposed at Hanford, what are you planning to do to ensure that off-
site generators pay the life-cycle costs of disposal at Hanford, so 
that Hanford does not subsidize those costs from its budget?
    Answer. The Department is not really subsidizing any waste disposal 
costs at Hanford since the disposal site and the generator sites are 
all Federal Government entities. DOE's situation is different from 
private industry where the generator organization and the disposal 
organization are different. The disposal organization would charge the 
generator organization the full cost of disposal to maximize its 
profit. In turn, the generator organization would have the incentive to 
reduce the amount of waste generated in order to maximum its profit. 
There is no profit incentive for DOE. DOE implements other incentives 
(e.g., transportation, packaging, and waste minimization requirements) 
that have successfully minimized the amount and hazards of waste 
generated.
    Life cycle disposal costs include the costs for surveillance and 
monitoring many years after the disposal site has stopped receiving 
waste and has been closed. Individual generator sites would need to pay 
today for activities that will occur well after they have stopped 
disposing of waste at the disposal site. (Indeed, some generator sites 
would need to pay today for activities that would occur well after they 
are cleaned up, closed, and are no longer part of DOE). If individual 
generators were required to bear these costs, long-term carryover of 
congressional appropriations would be required.
    The Department recognizes that the DOE practice of charging ``fee'' 
that does not include capital costs and costs for closure and long-term 
stewardship may unfairly favor selection of DOE disposal sites when DOE 
waste generators are evaluating the cost-effectiveness of various 
disposal options. To address this, we are developing guidance that will 
require generators to consider the ``cradle to grave'' cost for 
managing a waste stream when making disposal site selections.
                        innovative technologies
    Question. Ms. Roberson, DOE officials have stated that the 
Department intends to provide extraordinary incentives to contractors 
that can provide exceptional technology in order to achieve its goal of 
accelerated environmental cleanup. Specifically, does the Department 
intend to utilize private sector technologies that have been developed 
through the use of their own capital by entering into contracts that 
will offer a portion of measured savings enabled by the privately 
developed technology as compensation for taking the risk to bring the 
technology to market? Further, will DOE develop a related procurement 
policy and model, if so when might this policy and model be brought 
forward?
    Answer. Accelerating the cleanup inherently involves two 
potentially conflicting objectives: 1) provide the highest confidence 
in estimating the cost and schedule to complete the cleanup, which will 
typically require the use of currently available technologies; and 2) 
implement accelerated schedules and reduced costs, which will typically 
require the use of innovative technologies that need additional 
development.
    The Department is reinforcing the incentive structure of contracts 
to ensure there are sufficient incentives for contractors to accept the 
risk of utilizing an innovative technology, but at the same time 
meeting cleanup commitments. The Department is reviewing current 
contracts to determine if changes are necessary.
              renewable energy production incentive (repi)
    Question. Mr. Garman, it's my understanding that the Renewable 
Energy Production Incentive (REPI) was created in the Energy Policy Act 
of 1992 to help communities served by municipal electric utilities and 
rural electric cooperatives (combined representing 25 percent of the 
industry nationwide) invest in renewable energy projects. My state of 
Washington has over 100 years of experience with public power systems, 
and they currently serve 3.2 million residential consumers--or over 50 
percent of the population. The REPI program represents the recognition 
that these not-for-profit electric utilities cannot utilize the 
production tax credits for renewable energy made available to private 
entities, including for-profit utilities. If the goal is to increase 
the use of renewable energy in this country--as I believe it is--then 
not-for-profit electric utilities need the same types of Federal 
incentives that Congress has provided to private entities through the 
tax code. Otherwise, we're telling 50 percent of the people in my home 
state and 25 percent of the people in this nation that their 
communities aren't worth the Federal investment.
    What is the current backlog of projects awaiting funding through 
the Renewable Energy Production Incentive (REPI) program? What was the 
backlog in 2001?
    Answer. The current backlog of projects awaiting funding is in the 
table below. The Department interprets ``current backlog'' to mean REPI 
Tier II projects that have unpaid electricity production as of December 
of the previous year. The current backlog is from the last year of 
production (i.e., fiscal year 2001) as well as from years prior to the 
fiscal year 2001 year of electricity production.

                   CURRENT REPI TIER II UNPAID BACKLOG
                          [Dollars in Millions]
------------------------------------------------------------------------
                                          Fiscal year
Facility       Owner/Utility Name         2002 Backlog     Fiscal year
  State                                      (kWh)         2002 Backlog
------------------------------------------------------------------------
     ASalt River Project                    1,815,029          $31,712
     CCentral Valley Financing            164,285,585        2,870,422
       Authority, (SMUD)
     CCity of Glendale                    261,279,986        4,565,123
     CCounty of Sacramento, Waste         111,516,895        1,948,440
       Management & Recycling
       Division
     CMonterey Regional Waste              66,461,485        1,161,225
       Management District
     CSonoma County Dept of                84,892,518        1,483,255
       Transportation and Public
       Works
     CThe Regents of University of         96,118,603        1,679,399
       California c/o UCLA Energy
       Services
     FJacksonville Electric                34,402,619          601,088
       Authority
     NCatawba County                       13,283,325          232,088
     OEmerald Peoples' Utility             40,084,778          700,367
       District
     OPacific Northwest Generation         68,011,141        1,188,301
       Coop
     PLycoming County Resource             31,968,825          558,564
       Management Services
     SSantee Cooper                           857,097           14,975
     WPublic Utility District #1,         122,620,940        2,142,452
       Klickitat County
     WPublic Utility District No. 1       795,445,504       13,898,143
       Snohomish County
     WCounty of Dane, Dept of Public       45,623,828          797,146
       Works
                                     -----------------------------------
            Totals for Tier II,         1,938,668,160       33,872,701
             fiscal year 2002
------------------------------------------------------------------------

    The backlog for 2001 is given in the table below:

                  YEAR 2001 REPI TIER II UNPAID BACKLOG
                          [Dollars in Millions]
------------------------------------------------------------------------
                                          Fiscal year
Facility       Owner/Utility Name         2001 Backlog     Fiscal year
  State                                      (kWh)         2001 Backlog
------------------------------------------------------------------------
     CCentral Valley Financing            128,028,921       $2,182,385
       Authority, (SMUD)
     CCity of Glendale                    205,182,974        3,497,556
     CCounty of Sacramento, Waste          50,323,004          857,808
       Management & Recycling
       Division
     CMonterey Regional Waste              51,034,909          869,943
       Management District
     CSonoma County Dept of                65,490,372        1,116,351
       Transportation and Public
       Works
     CThe Regents of University of         74,348,165        1,267,341
       California c/o UCLA Energy
       Services
     FJacksonville Electric                27,129,131          462,444
       Authority
     OEmerald Peoples' Utility             33,631,952          573,291
       District
     OPacific Northwest Generation         53,558,651          912,963
       Coop
     PLycoming County Resource             25,219,272          429,889
       Management Services
     WPublic Utility District #1,          73,170,039        1,247,259
       Klickitat County
     WPublic Utility District No. 1       631,458,266       10,763,859
       Snohomish County
     WCounty of Dane, Dept of Public       33,687,669          574,241
       Works
                                     -----------------------------------
            Totals for Tier II,         1,452,263,327       24,755,330
             fiscal year 2001
------------------------------------------------------------------------

              renewable energy production incentive (repi)
    Question. What has the Administration requested for the program in 
the last 5 fiscal years?
    Answer. The budget requests for REPI in the last 5 fiscal years 
are:
  --Fiscal year 1998--$4.0 M
  --Fiscal year 1999--$4.0 M
  --fiscal year 2000--$1.5M
  --Fiscal year 2001--$4.0 M
  --Fiscal year 2002--$3.991M
    Question. Given that the demand for REPI funding has increased 
pretty significantly, even in the past year, why has the Administration 
again requested $4 million for fiscal year 2003 for the program?
    Answer. There are several reasons why the Department did not 
request a greater amount for REPI:
    First, the annual REPI budget request is determined after careful 
consideration and balancing of the many research, development, and 
deployment priorities within EERE and the Department.
    Second, fully funding REPI would not be fair to some categories of 
private entities and private utilities. REPI was originally conceived 
to provide public utilities with similar benefits as the tax incentives 
given to private utilities. The majority of applications to REPI are 
for electricity from landfill gas projects, but landfill gas projects, 
if privately owned, do not have a tax credit comparable to the REPI 
incentive payment (although the President has proposed such a tax 
credit in the fiscal year 2003 budget).
    Currently, publicly-owned, landfill gas projects are eligible for 
REPI payments, but only as lower-priority Tier II projects that receive 
funds only after funds are exhausted for Tier I projects. Tier I 
technologies are those that would be eligible for tax credits if 
privately owned, and include solar, wind, geothermal, and closed-loop 
biomass technologies.
    The REPI budget request is sufficient to cover expected qualified 
electricity from projects using Tier I technologies that could, if 
privately-owned, get tax credits. Requesting REPI funds of $13.4 
million (at an estimated inflation-adjusted fiscal year 2003 payment 
rate of 1.71 cents/kwh) to cover all the possible qualified energy 
generated in fiscal year 2002 would mean that the Federal Government 
provides a significant incentive to projects, mostly landfill gas, that 
would not qualify for tax credits if privately-owned. Such an action 
would give an advantage to public entities over private entities.
    Finally, while acknowledging that REPI does provide some level of 
incentive, the Department recognizes the uncertainty about the full 
incentive value of REI due to the reliance on annual appropriations, 
particularly compared to tax credits. DOE is exploring options for 
improving this situation.
    Question. Municipal electric utilities and rural electric 
cooperatives represent 25 percent of the electric utility industry 
combined. Given both the national energy policy's and the climate 
change initiative's emphasis on increasing tax credits for renewable 
energy for the remaining 75 percent of the industry, why not a similar 
commitment--in the form of an increased REPI program--from the 
Administration for the mostly small and rural communities served by 
public power systems and rural electric cooperatives? In the 
Administration's recently-released climate change initiative there is a 
10-year, $7.1 billion commitment of tax incentives to ``spur 
investments in renewable energy and landfill gas conversion.'' 
Municipal electric utilities are uniquely suited to proceed with 
landfill-gas-to-energy projects in particular and could substantially 
help the Administration achieve its worthwhile objectives if some of 
the costs were mitigated through REPI.
    Answer. The Administration's priorities for renewable energy are 
set out in the National Energy Policy, the President's fiscal year 2003 
Budget Request and the President's Global Climate Initiative. These 
priorities, when implemented, will improve the cost and performance of 
renewable energy technologies for the benefit of, and use by, all 
communities, whether small or large, urban or rural, and served by 
private, public, or cooperative utilities.
    Question. It's my understanding that, since its inception, REPI 
projects have received about $25 million total. Do you know how much 
money the for-profit utilities have received in production tax credits 
during that same time (since 1992)? My point is not to discount the 
worthiness of the production tax credits--they've obviously been 
beneficial to the nation--but to highlight the disparity.
    Answer. The Department does not keep these data nor does it have 
knowledge of the amount of tax expenditures on production tax credits 
given to for-profit utilities since 1992. The raw data upon which such 
an analysis could be done are kept by both the Department of the 
Treasury and by Congress' Joint Tax Committee. The Department of Energy 
has contacted the Department of the Treasury seeking the requested 
information. The Department of Energy was informed that the answer is 
not readily retrievable from the raw data, and thus that the Department 
of the Treasury could not provide the requested information at this 
time.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

                    mound closure savings and costs
    Question. In February, you announced that the Department would 
compete the Mound contract over 2 years before the current contract 
expires. We understand that the Mound cleanup in on pace to finish by 
the end of 2005, well before the 2006 closure date and may be the first 
site to close in the Defense Facilities Closure Projects account. What 
additional savings and progress to you expect to achieve by competing 
this contract? What termination costs are you expected to pay the 
current cleanup contractor and what additional funds will be required 
to pay these costs and when will you request them?
    Answer. The Department has decided to recompete the Mound contract 
to capitalize on the advanced that have been made in the area of 
contract strategy for closure sites since the award of the current 
contract in 1997. EM plans to utilize a more incentivized contract 
structure at the Mound site that will be mutually beneficial to the 
contractor and to DOE. In addition, the current contract ends in 2004 
and has no options to extend. In order to reach closure, either a 
competition would need to be pursued at that time, or a sole source 
extension would be required. Few firms would be willing to invest in a 
competition at that stage of closure. The Department believes that a 
competition at this stage will provide the maximum opportunity for the 
receipt of innovative approaches from industry.
    Competition normally produces greater innovation and cost 
efficiency than sole source negotiation. EM anticipates that will be 
the case for the Mound solicitation. We will not know the cost savings 
and productivity improvements that may be realized, but we are working 
to develop a Request for Proposals that provides more flexibility and 
incentives for cost savings and accelerated progress than the current 
contract structure does.
    It is difficult to estimate the cost of changing to the new 
contract. If the incumbent contractor, which has stated its intention 
to compete for the contract, wins the award, the current contract may 
be modified, and a termination action would not be necessary. In this 
case, the cost of transition to a new contract should be minimal. If a 
new contractor wins the award, the incumbent contractor will present a 
termination-for-convenience proposal, and the government will audit it 
and negotiate a fair and equitable settlement.
                   decision to compete mound contract
    Question. We understand that your own independent review of the 
current Mound project baseline determined it to be on track for closure 
before the end of 2006 and one of the best in the DOE. How is your 
decision to compete the contract consistent with the fact that the 
Mound project baseline is on track and one of the best in the DOE?
    Answer. The internal DOE review, which has not been made available 
publicly because of ongoing procurement, concluded that the proposed 
baseline had the potential to meet the 2006 closure data. Technical 
risk-assumption, and funding issues remained to be negotiated, and such 
discussions never took place because of the decision to compete. 
Accordingly, it is not possible to say that baseline progress is ``on 
track for closure before the end of 2006.''
    EM officials have not made and are not aware of the statement that 
the Mound project baseline ``is on of the best in the DOE,'' and 
therefore, we cannot comment on theat statement except to say that we 
anticipate receiving a strong, fully validatable baseline through the 
competitive process.
    The Department's decision to compete the contract is consistent 
with its commitment to congress to close the Mound site by or before 
2006, to adhere to the tenents of the Competition in Contracting Act 
(CICA), to have a contract that will be in existence until the Mound 
site is remediated and transitioned to the community, and to provide 
the types of incentives that will motivate the successful contractor to 
accelerate the project to the greatest extent possible, consistent with 
DOE health and safety standards.
                  contract termination for convenience
    Question. We understand that the government has broad rights to 
terminate contracts for convenience, but isn't this decision a 
significant increase in those rights and have implications for 
procurement policy?
    Answer. The rights of the government to terminate a contract for 
convenience are well established in government procurement law. The 
standard applied for a decision to terminate for convenience is that 
the termination must be in the best interest of the government. The 
decision to terminate the Mound contract is within the established 
standard because it offers an opportunity to accelerate the schedule 
for closure of the Mound site at a reduced cost. In addition, it 
provides an opportunity to maximize application of innovative 
approaches from industry and capitalize on advances at other 
Departmental cleanup sites. The Department, the general public, and the 
contractor all benefit from a strategy designed to reduce risks, apply 
innovative approaches, and provide incentives to motivate the 
contractor to safely achieve the critical cleanup mission at an 
established target cost.
    The decision to terminate the Mound contract was based solely on 
facts specifically related to that contract. It does not alter the 
rights currently available to the Government for contract termination 
or reflect any changes in Departmental procurement policy.
                          contract competition
    Question. Has the Office of Management and Budget, including the 
Office of Federal Procurement Policy, reviewed the decision to compete 
the Mound contact and, if so, what have they advised the Department?
    Answer. The Office of Management and Budget, including the Office 
of Federal Procurement Policy, has not conducted a formal review of the 
decision to compete the Mound contract; therefore, they have not 
provided advice to the Department concerning the decision to compete 
the contract.
    As a general rule, however, the Office of Federal Procurement 
Policy has strongly endorsed competition, and has made Competitive 
Sourcing a top priority. The competitive sourcing initiative strives to 
create a market-based government that is not afraid of competition, 
innovation, and choice. Although the competitive sourcing initiative is 
related to public-private competition, the Department believes that the 
significant improvements in performance and cost savings projected 
through public-private competition will also be realized in competing 
work to improve cleanup schedules and capitalize on positive 
experiences to accelerate schedules and reduce costs. It is the firm 
conviction of the Department that the anticipated cost savings and 
accelerated completion of cleanup at the Mound site will more than 
offset the minimal disruption and potential costs associated with 
competing the contract.
               doe's goals for our nation's energy future
    Question. Last year during this hearing, I asked about DOE's plans 
for efficiency, renewables, and overall goals for 10, 20 and 50 years 
from now. I was not given any real answer. Nor have I been given an 
answer since that time. Do you have any idea whether DOE, and the EERE 
Office in particular, are developing short, medium, and long term goals 
to better determine our nation's energy future? If so, what are these 
plans? If not, why haven't any plans been developed?
    Answer. The Office of Energy Efficiency and Renewable Energy (EERE) 
is currently preparing a Strategic Plan that will address important 
energy-related challenges and opportunities facing our country. This 
plan identifies the goals and strategies EERE will pursue in the years 
ahead to address these programs. In developing this plan, EERE is 
paying greater attention to long-term impacts, specifically using a 
longer time horizon, extending from 1973 through to 2050. The plan will 
address quantitative results for the next 30 years and will look ahead 
50 years at structured energy markets. The Strategic Plan is explicitly 
tied to the vision and recommendations of the National Energy Plan, 
containing a sharper delineation of EERE's role and objectives.
                          eere reorganization
    Question. What is involved with your recently announced 
reorganization? For example, you mention that your reorganization is 
going to make the Office of Energy Efficiency and Renewable Energy 
(EERE) more efficient, but how is it more efficient if you will have 
the same number of staff as before? Isn't this about rearranging staff? 
If you are not eliminating any positions in this process, how will this 
save money or improve efficiency? Have you met with stakeholders/
businesses about your reorganization plans? What do they think of your 
plans?
    Answer. The EERE reorganization directly responds to the 
President's Management Agenda by proposing to eliminate the current 5 
sector stovepipe organizations, several management layers, place 
greater emphasis on the 11 programs and program management, and improve 
our business practices. The new business model accomplishes all this by 
realigning staff resources into two business units each directed by an 
Deputy Assistant Secretary. The Deputy Assistant Secretary for 
Technology Development oversees the 11 programs while the Deputy 
Assistant Secretary for Business Administration oversees three business 
management units. By realigning staff resources into these two business 
units, EERE will realize efficiency gains by placing greater emphasis 
on project, contract, and acquisition management and leaner 
administrative/support functions, with fewer layers of management. The 
business model is based on the following principle: make the 11 
Programs the center piece of the EERE organization and develop strong 
business services to support the programs and the program managers. Our 
goal is not to eliminate personnel positions. By developing an 
integrated corporate management system, used throughout the EERE 
organization, we will achieve economies of scale and process 
efficiencies in our project management and business management 
processes.
    The EERE stakeholder/business community has been briefed on our 
proposed reorganization. The general reaction has been favorable with 
most of the business/stakeholder community expressing a willingness to 
work with the EERE structure.
    Question. Your reorganization would reduce the number of Deputy 
Assistant Secretaries from 5 to 2, one for Technology Development and 
one for Business Administration. Each of these Deputy Assistant 
Secretaries would have 11 Program Offices reporting directly to them. 
Are you confident that these two individuals will be able to manage 
such a broad scope of responsibility? What steps would you take if a 
logjam occurs?
    Answer. Under the proposed EERE reorganization, the Deputy 
Assistant Secretary for Technology Development oversees the 11 programs 
and the Deputy Assistant Secretary for Business Administration oversees 
3 corporate business units. The selection of the two Deputy Assistant 
Secretaries was made after extensive interviews by Assistant Secretary 
Garman of all 14 Senior Executive Service (SES) members in the EERE 
organization. He is confident that his selections have the broad range 
of experience and capability to manage this new structure. Fundamental 
to making the proposed organization effective is to select the best, 
give them direction, not micro-manage their efforts, and trust their 
judgements. Similarly, the creation of the Board of Directors affords 
the Assistant Secretary the opportunity to tap the extensive knowledge 
and skill base of the senior career executives who compose the Board.
                 expanding eere's international efforts
    Question. In your Strategic Program Review you call for an 
expansion of EERE's international efforts. In the Review document you 
cite that ``current investments in this area are extremely modest'' and 
go on to recommend that ``R&D support is needed to develop energy 
supply and service applications appropriate to developing countries--
applications for use in buildings, industry, power, transport, 
agriculture, education, health and in particular, that can generate 
income for the user-building on U.S. renewable energy and energy 
efficiency technologies.'' I couldn't agree with you more that we need 
to expand EERE's international activities. But don't you need to expand 
EERE's international activities. But don't you need to do much more 
than just ``R&D support''? What additional plans do you have to expand 
EERE's international efforts?
    Answer. The fiscal year 2003 Budget Request is responsive to the 
language in the fiscal year 2002 Conference Report: ``The conferees 
expect the Department to work with the Department of Commerce, the U.S. 
Agency for International Development, and other relevant agencies to 
complete, and begin implementation of a 5-year plan to open and expand 
export markets for U.S. clean energy technologies. The conferees urge 
the Administration to include adequate funding for this initiative in 
the fiscal year 2003 budget submission.''
    The Department proposes an increase of $3,660,000 for the 
International Renewable Energy program. The requested $3,660,000 
increase is to support the Clean Energy Technology Exports (CETE) 
initiative. The 5 year plan has been drafted, is currently in agency 
concurrence, and is expected to be submitted to Congress within the 
next few weeks. The CETE approach will be to initiate two types of 
international activities: support for industry-initiated export 
projects and ``showcase'' projects that demonstrate the CETE vision of 
coordinated activities among the USG agencies with export 
responsibilities. Priority will be given to advancing the U.S. 
recommendations in the National Energy Policy. We anticipate major 
leveraging of these funds with those of other agencies and U.S. 
industry.
    The remaining $2,840,000 under the $6.5 million request will be 
used to support the energy efficiency and renewable energy provisions 
of existing DOE and U.S. Government bilateral and multilateral 
agreements. The most important of these agreements include the North 
American Energy Working Group (NAEWG) with Mexico and Canada, the Asia 
Pacific Economic Cooperation (APEC), and new Science and Technology 
agreements with Italy and Japan. Since September 11, these agreements 
have been expanded in scope to include the role that diversified energy 
resources can play in increasing national security.
                              transmission
    Question. Why is the electric system and storage account only level 
funded with last year, given the importance of improving the 
transmission situation in this country?
    Answer. The fiscal year 2002 funding request of $70M for electric 
energy systems and storage account is actually higher than last year 
given that some congressionally directed activities are expected to end 
in fiscal year 2002. Closure of these specific projects will provide 
additional funding to advance superconducting technologies in support 
of the transmission situation in the U.S. Additionally, the Department 
has recently released the National Transmission Grid Study that 
contacts 51 specific recommendations to modernize the Nation's electric 
transmission systems.
    The following activities initiated in fiscal year 20002 and 
proposed for fiscal year 2003 funding support recommendations in the 
study: model assessment and development to designate grid bottlenecks; 
development and implementation of grid metrics for reliability and 
market monitoring; and identification of tools, analysis methods, and 
data to perform future bottleneck assessments.
    Question. What is the Department doing to increase transmission 
availability so we can develop more renewable energy, particularly wind 
energy, in the Dakotas and other States?
    Answer. The Department's Office of Distributed Energy and Electric 
Reliability is conducting research and development (R&D) aimed at 
upgrading the capacity of existing transmission corridors without 
building new lines. Research includes the development of advanced 
transmission technologies, such as advanced overhead composite 
conductors, superconducting transmission and distribution cables, 
superconducting transformers, superconducting flywheel storage systems 
and other advanced energy storage systems. Additionally, the Department 
is developing real time monitoring and control systems that will 
improve the response of the transmission system.
    The Department is performing high-current testing on an advanced 
aluminum composite core conductor at Oak Ridge National Laboratory in 
partnership with 3M, and will install and evaluate this conductor on a 
major transmission line in North Dakota this year. This conductor can 
replace the conventional conductors on existing corridors with no 
changes to the towers or foundations, and carries two to three times 
the load of the conventional conductors. This capability increases 
overall transmission capacity, and allows the system to reliably 
accommodate wind farms loads under peak output conditions.
    Additionally, the Department just completed and released the 
National Transmission Grid Study that supports full competition, and 
identifies bottlenecks, and technologies for a modern grid system. The 
study contains 51 specific recommendations including the use of 
distributed generation to relieve bottlenecks, and other advanced 
technologies, including high voltage direct current (HVDC) lines that 
are attractive in the Dakotas for moving power long distances into the 
Western U.S. system that requires a DC tie.
                           green tag program
    Question. What is the latest update on the Green Tags program?
    Answer. DOE's Federal Energy Management Program provides technical 
assistance to Federal agencies to help them meet the renewable 
portfolio standard of Executive order 13123. Our guidance and technical 
assistance activities encourage agencies to purchase green power and 
use Green Tags to meet or help others meet their renewable energy 
goals. The Green Tags program is an important market mechanism to help 
individual Federal markets and facilities meet the standard with 
maximum flexibility. The renewable energy purchase program, including 
green tags, is a very important mechanism to help Federal agencies meet 
the renewable energy goals of Executive Order 13123.
    The latest update on Green Tags involves the Department's 
leadership by example in the purchase of renewable energy. The 
Secretary recently signed DOE Order 430.2 on utility and energy 
management. That Order establishes a Department wide goal of purchasing 
three percent of the electricity used by DOE's facilities from 
renewable resources by 2005 and seven percent by 2010, exceeding the 
Executive Order goal.
    Additionally at this year's DOE Earth day ceremony, DOE announced 
its plan to purchase of 17 percent of the DOE Headquarters Complex's 
electricity at competitive prices from renewable resources and the 
Secretary challenged DOE sites to find cost effective and creative ways 
of meeting their renewable energy goals.
                                biomass
    Question. There is a growing interest in this country in the value 
of biomass as a renewable energy source. This would be especially 
valuable to areas with high agricultural use such as my State of North 
Dakota. What does your Department plan to do to research and develop 
the use of biomass, and what funding have you requested for such 
efforts?
    Answer. With the support of the President and the guidance of the 
National Energy Policy, DOE's overall Biomass Program is working to 
increase national energy security and protect the environment by 
developing a domestic, renewable energy supply. The technologies that 
we are developing will significantly benefit the environment and rural 
economies by providing new energy sources, reducing emissions, and 
building new markets for America's farmers. We are also working to 
improve our national security by developing alternative fuels from 
agricultural wastes to reduce our dependence on foreign oil.
    DOE is working to maintain its leadership role in the promotion of 
biobased fuels, power and products by integrating its biomass programs 
to ensure that they are aligned with the goals outlined in the 
President's National Energy Policy. We have identified the industrial 
biorefinery as the most promising strategy to utilize fuels, power, and 
industrial products for the establishment of a sustainable renewable 
energy industry. Thus far, our Integrated Biomass Program has helped 
move two new biomass-based product technologies toward 
commercialization and lowered the estimated production cost of 
cellulase enzymes by 50 percent. Our goals for the future include 
sustaining our efforts to reduce the cost of cellulase enzymes to 5 to 
10 cents per gallon of ethanol produced to achieve a five-fold increase 
in the market share for chemicals and materials produced from biomass.
                     wind resource data and mapping
    Question. Money is needed for mapping wind resources to better 
refine wind resource data. What is the Department doing to fund and 
promote such efforts?
    Answer. The Department's Wind Energy Program is supporting 
activities to develop, verify, and improve the quality of wind resource 
information in the form of maps and data. This effort would 
substantially build on information developed in the mid-1980's using 
limited data, technology, and practices. The Department's support of 
advanced modeling techniques, new tools (such as Geographic Information 
Systems and more powerful computer systems), and new data sets ((such 
as digital terrain data at 1 square kilometer or better resolution) are 
leading to more accurate estimates of the wind resource than were 
previously possible. These new wind maps are instrumental in helping 
state and local officials, project developers, utilities and landowners 
identify suitable wind sites for more detailed evaluation.
    The Department's mapping effort is focused on developing wind 
resource information at the state level and is being conducted in 
concert with state officials and provide industry. This arrangement has 
lead to a more robust effort that meets end-user needs, allows for 
cost-sharing from state and other organizations, and helps build a wind 
resource assessment infrastructure at the state level. The Department 
has also undertaken regional development of wind resource information, 
particularly in contiguous states, such as wind mapping projects for 
the Northwest, Southwest, and Mid-Atlantic regions of the U.S. This 
allows for further leveraging of resources and builds regional support 
for exploring wind energy development.
    The Department is confident that U.S. wind resource mapping 
activities can be appropriately supported within the Wind Energy 
Systems program funding levels requested in the President's fiscal year 
2003 Budget Request.
                         tribal energy programs
    Question. The DOE has requested funds this year for the Tribal 
Energy Program. What efforts will the DOE take to work with tribes to 
develop renewable systems? What further opportunities are there to 
develop Federal use of renewable energy.
    Answer. Under the Tribal Energy Program, the Department will offer 
workshops and educational activities to build the capacity within the 
Tribes to make informed energy decisions. The program will work with 
other Federal agencies to collaborate in efforts mutually beneficial to 
the Tribes and to assure that duplication of efforts is avoided. The 
program will issue a competitive solicitation for both renewable energy 
project feasibility studies and implementation projects on Tribal 
lands. Being mindful that Tribes are at differing stages on an energy 
developmental spectrum, the program will offer: (1) assistance in 
investigating and formulating specific potential renewable energy 
projects through feasibility study funding; (2) assistance for 
technology validation projects; and (3) assistance in assessing Tribal 
renewable energy resources and identifying the options available to 
utilize those resources.
             development of federal use of renewable energy
    Question. What steps are being taken by the Administration to 
develop Federal renewable use in general?
    Answer. The Administration has activities underway to both increase 
access to the renewable resources that can be found on Federal lands as 
well as increase Federal sector use of renewable energy. The 
Administration's National Energy Policy, issued in May 2001, 
recommended that Federal agencies examine ways to increase renewable 
energy production on Federal lands. In response, the Departments of 
Interior, Energy, Agriculture and Defense created an interagency task 
force to examine potential renewable resources, as well as enhance the 
processes related to renewable energy project development. The 
Department of Energy (DOE) will support other Federal agencies by 
providing technical expertise to efforts to revise Federal land use 
plans, as well as develop more accurate renewable energy resource 
assessments.
    The Administration also continues to encourage Federal use of 
renewable energy at the over 500,000 domestic and international Federal 
facilities. DOE issued guidance to Federal agencies on May 15, 2000, 
directing Federal agencies to obtain 2.5 percent of their electricity 
use from renewable resources by 2005. DOE's Federal Energy management 
Program (FEMP) provides technical assistance and limited financial 
support for renewable energy projects at federal facilities; develops 
financial mechanisms to support renewable purchases; provide technical 
training sessions for facilities managers; and supports agency 
purchases of renewable generated power. In addition, as DOE leads the 
Federal Government by example, Secretary Abraham has directed DOE to 
purchase 3 percent of its electricity from renewable resources by 2005, 
and 7.5 percent by 2010.
    As an example of the Administration's commitment to developing 
Federal renewable energy use, on April 22, 2002, Secretary Abraham 
announced the largest ever purchase of electricity generated from 
renewable energy for DOE headquarters facilities in Washington, D.C. 
and Germantown, MD.
    As a result, roughly 17 percent of DOE Headquarters electricity 
needs will be met by renewable resources. This green power purchase 
will allow the DOE headquarters to become a partner in the 
Environmental Protection Agency's Green Power Partnership, a voluntary 
program that encourages public and private organizations to purchase 
renewable power.
                                 ______
                                 

              Questions Submitted by Senator Jean Carnahan

                           weldon spring site
    Question. What historic missions did the Atomic Energy Commission 
perform at the Weldon Spring Site in Missouri?
    Answer. The Atomic Energy Commission (AEC) performed operations 
relating to the assay of uranium ore concentrates shipped to the site 
from mines and mills in western states. This assay was to determine 
uranium concentration within the ore concentrates to establish payment 
for the mines and mills. After assay, some portions of the ore 
concentrates were shipped to other AEC facilities and remaining 
portions were processed on site by conversion from ore concentrates to 
pure uranium metal ingots. These ingots received some machining and 
were subsequently shipped off site to other AEC facilities for further 
processing. Also performed were process research and development for 
the conversion of ore concentrates to metal for both uranium, and to a 
limited extent, for natural thorium ores. In addition, the AEC 
performed waste disposal functions for both process wastes from the 
site and for disposal of the wastes from dismantling the Mallinkrodt 
Destrahan Street facilities in St. Louis, Missouri.
    Question. What historic missions did other DOE-predecessor agencies 
perform at the Weldon Spring Site in Missouri?
    Answer. Following closure of the facility and while the site was in 
a caretaker mode, the Energy Research and Development Agency performed 
site surveillance, monitoring and maintenance activities.
    Question. Were the historic missions at the Weldon Spring Site 
related to defense atomic energy activities or non-defense activities? 
If so, explain why site cleanup and long-term stewardship is funded 
from the Department's non-defense budget account.
    Answer. The activities at the Weldon Spring Site were early steps 
in the uranium processing cycle, one step after the milling process 
used at Uranium Mill Tailings Remediation Action Project sites. Uranium 
metal product from the site went into many elements of the Atomic 
Energy Commission's mission, including reactor fuel and weapons 
material. Because the site was inactive from 1966 onward, the 
Department's remedial effort, which began in the 1980's, placed the 
Weldon Spring Site in the non-defense segment of work.
                          grand junction site
    Question. Is there any reason why the long-term surveillance and 
maintenance of the Grand Junction site cannot be funded using the 
defense EM account given the Department's January 2001 report to 
Congress on long-term stewardship indicating that most sites requiring 
such maintenance should fall under defense-funded sites?
    Answer. The funding source has traditionally been non-defense, but 
other alternatives could be considered.
                           weldon spring site
    Question. Your fiscal year 2003 budget request indicates two 
apparently contradictory statements regarding the Weldon Spring Site in 
Missouri:
    Statement 1.-- ``Project complete; long-term stewardship activities 
transfer to Idaho/Grand Junction beginning in fiscal year 2003.''
    Statement 1.--``The post remediation activities require long-term 
surveillance and maintenance, and may also require long-term treatment 
of groundwater if decided by the final site groundwater Record of 
Decision.''
    Which statement is correct: Is the project ``complete'' or is 
``long-term treatment of groundwater'' still required? Please fully 
explain the accurate status of the project including any resolution on 
whether ``long-term treatment of groundwater'' will be required.
    Answer. Both statements are correct. However, long-term stewardship 
may be a component of the groundwater remedy that has yet to be decided 
for the Weldon Spring Site. All anticipated field construction 
activities will be complete as of September 2002, and the site cleanup 
is, therefore, at the appropriate point for entry into the long-term 
stewardship phase of the project. The numerous studies and remedial 
efforts for groundwater indicate that monitoring will be the 
appropriate remedy, and DOE's budget planning reflects that technical 
view. This does not preclude a different technical decision regarding 
groundwater remediation, which could require other remediation efforts. 
In that case, the Department would make the appropriate budget 
adjustment, as has been done at other locations.
    Question. Explain why the Department has not yet proposed follow-up 
groundwater work such as containment, cleanup studies, and continued 
observation as part of a post-closure long-term stewardship plan?
    Answer. Groundwater has been monitored at this site since 1986. 
Several focused studies of groundwater contamination were done in the 
1990s. This led to a proposed plan and draft record of decision for 
groundwater which was presented to the U.S. Environmental Protection 
Agency and the State. It called for active remediation of one 
contaminant, trichloroethene (TCE), and long-term monitoring of the 
remaining contaminants. The State objected, and DOE agreed to conduct 
additional studies in addition to the active remediation of TCE. As a 
result, an additional study of the aquifer to address State concerns 
and an interim record of decision for treatment of TCE were approved. 
The results of the study of the aquifer are being analyzed. Data from 
the treatment performance will be added to the results of the study of 
the aquifer, and at that time a proposed plan and record of decision 
regarding the long-term program for groundwater will be re-issued. 
Whatever the decision is, it will be incorporated into the long-term 
stewardship plan. Until the decision is reached, DOE will continue to 
implement the existing annual site environmental monitoring plan to 
ensure that no interruption in groundwater monitoring occurs.
    Question. The Grand Junction office is experienced in completing 
surface cleanup and conducting follow-up groundwater work as part of a 
long-term surveillance and maintenance program. The Department 
indicated that the Weldon Spring Site would be transferred to the Grand 
Junction Site yet provided no funds for that additional work. What is 
the purpose of making such a transfer without providing the funding the 
office needs to perform follow-up groundwater work?
    Answer. The fiscal year 2003 budget request includes funds for 
Grand Junction to assume responsibility for long-term stewardship 
activities, including surveillance and maintenance at the Weldon Spring 
Site. There are carryover funds from fiscal year 2002 being given to 
Grand Junction to supplement the request.
                    cercla closeout document matrix
    Question. Please provide a copy and a summary description of the 
``CERCLA Closeout Document Matrix'' and any and all documentation that 
provides a reliable technical schedule pertaining to the cleanup and 
closure of the Weldon Spring Site including the expected date of 
completion.
    Answer. The attached Weldon Spring Site Remedial Action Project 
summary schedule is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 predicted 2002 closure date documents
    Question. The fiscal year 2003 budget request indicates a predicted 
2002 closure date; when will the Project Closeout Report and the final 
sections of your groundwater operable unit and institutional control 
plans be submitted? If these documents predict a closure date later 
than the 2002 date in the fiscal year 2003 budget, when does the 
Department anticipate submitting an amended budget request with 
accurate information?
    Answer. The referenced documentation is scheduled to be completed 
in fiscal year 2004. All CERCLA closeout documentation done in fiscal 
year 2003 and fiscal year 2004 will be funded by fiscal year 2002 
Weldon Spring Site Remedial Action Project carryover funds. No amended 
budget request is necessary.
                           site closure dates
    Question. Please list any and all other project closures dates in 
the budget request that are incorrect, based on information that the 
Department and available at the time the budget request was submitted 
to Congress.
    Answer. All site completion and project completion dates contained 
in the fiscal year 2003 budget request were based on current cleanup 
plans. As you are aware, EM has developed an aggressive plan of action 
to change how the EM program approaches its cleanup mission. The EM 
program is now focusing on one primary result B reducing risk to public 
health, workers, and the environment on an accelerated basis. Since 
submittal of the fiscal year 2003 request, EM has made significant 
progress in defining the risk reduction and accelerated cleanup 
strategies at each of its sites. Once negotiations with regulators are 
completed and detailed site performance plans are finalized, EM will 
develop integrated project baseline for each site, which will be used 
to manage its cleanup activities. New site and project completion dates 
will be developed from these baselines.
              march 1999 fusrap mou between doe and usace
    Question. In March 1999, the Department signed a Memorandum of 
Understanding with the U.S. Army Corps of Engineers (USACE) delineating 
administration and execution responsibilities for the Formerly Utilized 
Sites Remedial Action Program (FUSRAP). DOE's more recent Top-to-Bottom 
Review indicates ``EM should develop a strategy for transferring lands 
that are not owned by DOE or associated with DOE missions but for which 
it is slated to perform long-term stewardship to other governmental 
agencies with land management missions.'' Why DOE still planning to 
take back sites from the Corps after cleanup while simultaneously 
planning to transfer other sites to other agencies for long-term 
stewardship?
    Answer. The Department is coordinating with other Federal agencies 
in an effort to identify options for the efficient and effective long-
term management of contaminated sites. This is an issue facing multiple 
Federal agencies. In the particular case of FUSRAP sites, most are on 
land that is privately owned. While the Department has long-term 
stewardship responsibility for these sites, the responsibility will, in 
the majority of cases, be limited to record keeping and information 
management.
    The land at four of the Federally-owned FUSRAP sites is under the 
administrative jurisdiction of the Department of Energy. Another 
Federally-owned site proposed for cleanup under FUSRAP, where the 
Atomic Energy Commission previously did work, is under the 
administrative jurisdiction of the Department of Defense. Under the 
Memorandum of Understanding, once the Corps completes the remediation 
effort, the responsibility for managing these Federally-owned lands and 
for post-closure care reverts back to DOE. This arrangement is 
consistent with the direction provided in the Energy and Water 
Development Appropriations Act of fiscal year 2000. For those 
Federally-owned sites currently under the administrative jurisdiction 
of DOE, we are working with the Corps to identify options for future 
use that would allow their transfer from the Federal Government.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
            hydrogen and fuel cell demonstration activities
    Question. What are the Department of Energy's ((DOE's) major 
hydrogen and/or fuel cell demonstration activities proposed for fiscal 
year 2003? Given that the University of Hawaii was designated as a 
Center of Excellence in Hydrogen Research and Education by the DOE, is 
Hawaii being considered as a location for these demonstration 
activities--especially as they relate to renewable energy resources?
    Answer. The Hydrogen Program (funded by Energy and Water 
Development Appropriations) intends to continue support jointly with 
the Office of Transportation Technologies (funded by Interior 
Appropriations) for several activities that were awarded through 
competitive solicitations. These include the demonstration of a power 
park that co-produces hydrogen and electricity for an industrial 
complex, several residential power parks that demonstrate hydrogen 
production and use with advanced storage systems and fuel cells, and 
electrolysis systems that produce more than 10,000 standard cubic feet 
per day of hydrogen from water to fuel hydrogen vehicles.
    The University of Hawaii is being supported with DOE funds through 
a competitive solicitation to conduct research and development in the 
area of photoelectrochemical hydrogen production and alanate hydrogen 
storage systems in fiscal year 2002. Additionally, in fiscal year 2002, 
the Department of Business, Economic Development and Tourism was 
awarded a cooperative agreement to develop a Hydrogen Power Park on the 
Big Island. This award was a 50:50 cost share and directed toward using 
renewable energy resources, and fuel cells/engines for power 
production. Our fiscal year 2003 request includes the second increment 
for the Hydrogen Power Park.
                freedomcar university research programs
    Question. The DOE has announced plans to replace the Partnership 
for a New Generation Vehicle (PNGV) with the FreedomCAR partnership. 
How much of the FreedomCAR budget will be for university research 
programs?
    Answer. Historically about 3 percent of the Department's automotive 
research budget has funded university R&D. FreedomCAR activities will 
continue this trend. With FreedomCAR's emphasis on longer-range, high-
risk technologies, and with a focus on individual component research, 
there will likely be increased opportunities for universities to 
participate in the coming years. In addition, we have efforts designed 
to make the entire program more accessible to universities. The CARAT 
(Cooperative Automotive Research for Advanced Technologies) program is 
restricted to universities and small businesses. The GATE (Graduate 
Automotive Technology Education) program provides assistance to 
graduate institutions to set up interdisciplinary curricula related to 
advanced vehicle development and provides support for a limited number 
of graduate students. We also have had solicitations restricted to 
university participation. One such effort (a university consortium) is 
focused on basic research into one type of advanced combustion that may 
solve some of the emissions problems that are a current barrier to 
using internal combustion engines. Under the current budget request 
just these three examples (CARAT, GATE, and the consortium) would total 
about $2.5 million.
           priority of hydrogen as an alternate energy source
    Question. Given the DOE's commitment to hydrogen and fuel cell 
technologies in the FreedomCAR, what is the Department's priority of 
hydrogen as an alternative energy source with respect to the 2003 
budget request?
    Answer. Much of the Department's ongoing transportation fuel cell 
technology activities (which total $50,000,000 in the fiscal year 2003 
budget request) focus on hydrogen as an alternative energy resource. To 
emphasize hydrogen-related work, the Department's fiscal year 2003 
budget request for Fuel Cell R&D and Fuel Processor/Storage increased 
by $2,800,000 or approximately 13 percent from the amount appropriated 
in fiscal year 2002. This increase would fund research into on-board 
hydrogen storage and associated off-board hydrogen fuel processing, 
purification, storage, and dispensing technologies. In addition, Field 
Evaluations, a new program element requesting $3,000,000, was added to 
conduct field evaluations of hydrogen fuel cell vehicles and associated 
hydrogen fuel technologies. In addition, the Components program element 
is requesting a 16 percent increase for R&D efforts that include 
research into air compression technologies necessary for hydrogen fuel 
cell vehicles. FreedomCAR also includes a portion of the hydrogen 
program funded by the Energy and Water Development appropriation; that 
program request for fiscal year 2003 is over 50 percent higher than the 
fiscal year 2002 appropriation.
                      fuel cell testing standards
    Question. Are there testing standards promulgated by the DOE or 
National Institute of Standards and Technology (NIST) regarding fuel 
cells to ensure that claims of energy production and efficiency by 
demonstration or pilot programs can be verified?
    Answer. The Society of Automotive Engineers (SAE), through its Fuel 
Cell Standards Committee, is developing the necessary fuel cell vehicle 
testing standards for on-board energy production and efficiency. The 
Committee's working groups are developing testing standards for fuel 
cell power system performance, reliability, fuel economy, emissions, 
and safety. In addition, SAE is working to coordinate and integrate its 
fuel cell testing standards work with those of international standards 
organizations. The Department participates in these SAE activities 
through representation in the working groups.
    The Department is also developing testing standards to evaluate and 
validate technologies in the area of on-board hydrogen storage. This 
activity includes developing test protocols, procedures, and baseline 
testing of low pressure hydrogen storage materials and systems 
including metal hydrides, chemical hydrides, and carbon-based 
approaches.
                     energy security and assurance
    Question. The Department is requesting a 683 percent increase in 
energy security and assurance. How will this increase be spent?
    Answer. In November of 2001, the Department of Energy's Office of 
Emergency Operations undertook the responsibility to include the 
protection of the National Energy Infrastructure as part of our core 
mission. We began an immediate and intensive outreach program to 
ascertain what had been done to protect the energy infrastructure and 
to identify what activities the Department needed to undertake to 
assist industry, as well as state and local governments. The energy 
infrastructure is comprised of 157,810 miles of transmission lines, 
5000 power plants generating a capacity of 800,000 Megawatts, two 
million miles of oil pipelines, refineries, ports, storage facilities, 
and a natural gas distribution system moving 23 trillion cubic feet of 
natural gas in additional pipelines. The Department and the Federal 
Government have a tremendous amount of unique capabilities to offer and 
we have instituted a program to make those capabilities available 
through training, exercises and staff assistance. We have carried this 
message to the energy sector through a variety of methods, including:
    As of today, teams have visited 42 states to identify what specific 
Energy Security and Assurance needs exist and put in place plans to 
support each state. The remaining states will be visited by the mid-
April. With this initial outreach effort complete, the Office of Energy 
Assurance will develop a long-term state engagement plan that will 
ensure active communications and support for each state, as well as 
regional and national strategies.
    Industry Vulnerability Survey Assistance.--We have begun an initial 
assessment of the 25 top critical energy assets throughout the country 
to provide a baseline analysis on the security of the energy 
infrastructure at a cost of $1.8M. Fourteen sites have been completed 
to date and the remainder will be complete by the end of March. In 
addition, the Department is conducting cyber vulnerability analyses of 
energy facilities to ensure the SCADA systems are protected. A total of 
174 critical energy assets have been identified, conducting 
vulnerability assessments on all of them sill require $12.5M.
    Development of National Security Standards.--We are in the process 
of developing national security standards/guidelines that will assist 
industry in developing security plans and procedures to better protect 
the national energy infrastructure. These standards are being 
developing cooperatively with industry and our interagency partners and 
will establish a baseline for developing national training standards 
for industry personnel.
    Technology Development and Sharing.--We conducted a technology expo 
in Washington, D.C. that allowed industry and government 
representatives to view first hand the technologies available in the 
national laboratories at a cost of $71,000.
    Training Support and Outreach.--Utilizing the expertise of the DOE 
Emergency Operations Training Academy, we have conducted a review of 
training already available within the Federal system that would be 
beneficial to industry and we are in the process of providing 
specialized training in weapons of mass destruction preparedness and 
response. Two sets of customized weapons of mass destruction emergency 
response interactive-training CDs are being distributed to states this 
week. We have completed the development of a Vulnerability Assessment 
two-day course, which has been made available through distance learning 
and we are in the process of completing a detailed five-day course that 
will be available to states and industry later this month. The 
interactive CDs cost $496,000 and the two-day course cost $6,000.
    All of these initiatives were undertaken because we saw an urgent 
need to help safeguard the energy infrastructure. We have absorbed the 
costs of these Energy Assurance activities within our existing funding 
although, to continue these aggressive efforts at this accelerated 
rate, we have requested fiscal year 2002 supplemental funding. The 
initiatives detailed above are the beginning of a long overdue program 
to share the resources of the Federal Government and lead the way to a 
more secure and assured energy infrastructure. We require the budget 
increase to continue these and similar activities.
    Question. How will the Department assure the energy supply of an 
isolated state like Hawaii not be disrupted or made unaffordable by 
terrorist attacks?
    Answer. The Federal Government cannot assure that the energy supply 
of any state is not disrupted by a terrorist attack. What we can do is 
what we began in the wake of the September 11 attacks. That is to reach 
out to the State and local governments and the energy industry and 
listen to their answer when we ask ``What do you need? How can we 
help?'' We will have visited every one of the fifty states by mid-
April. We do not go with the typical Federal Government message to tell 
them what we're going to do and what they must do to help us. Instead, 
we ask them where they need help and then we figure out how to do that.
    They are telling us they need training. We have responded by 
customizing three sets of interactive training CDs--two in emergency 
response to a weapon of mass destruction attack, and one on how to 
search a vehicle for a bomb. It is impossible to protect every electric 
pole, every substation, every wire so, which ones must be protected? We 
have developed a Vulnerability Assessment two-day course, which has 
been made available through distance learning and we are in the process 
of completing a detailed five-day course that will be available to 
states and industry later this month. This training and the associated 
training aids, shows them the many facets of physical and cyber 
vulnerabilities. While we are conducting baseline assessments of the 
nation's most critical energy infrastructure nodes, the training 
institutionalizes the skills to allow state, local and industry 
officials to assess their own entire infrastructure. All of this 
training is being provided at no cost.
    We are sharing the technical resources of the Department through 
mapping capabilities of their energy infrastructure and we are making 
our plume modeling technology available through the Internet so that, 
in the event of an attack, local officials can make the very time 
critical decisions needed to minimize exposure. We hosted a technology 
exposition in February, and we plan to host another next year, that 
showcased technologies developed by the National Laboratories that may 
be of benefit the energy infrastructure.
    In our role as the energy sector lead, we are in the perfect 
position to work across all energy industries and facilitate 
development of national security standards/guidelines that will assist 
industry in developing security plans and procedures to better protect 
the national energy infrastructure. These standards are being developed 
cooperatively with industry and our interagency partners and will 
establish a baseline for developing national training standards for 
industry personnel.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

                  advanced vitrification system (avs)
    Question. I commend you and the Secretary for your efforts to put 
the clean-up campaign on a less costly and faster track. I am very 
pleased with the leadership that you and the Secretary have shown, and 
I encourage you to keep moving in this direction. I also understand 
that DOE has had success with the development of the Advanced 
Vitrification System, which has the potential to lower the cost of 
waste cleanup, and that you have a plan to deploy this system. What are 
your plans for deployment of the Advanced Vitrification System?
    Answer. Last year, an independent panel performed a review of 
Advanced Vitrification System (AVS)-produced waste from bench-scale 
tests on DOE-provided waste surrogate to determine the system's ability 
to produce a borosilicate glass form that fully complies with the Waste 
Acceptance Product Specifications (WAPS). The panel determined that the 
AVS-produced product did not satisfy two of the six WAPS.
    In fiscal year 2002, the Department requested the developer of AVS, 
Radioactive Isolation Consortium (RIC), Inc., to prepare a Work Plan 
for completion of the third stage (of seven that a developing 
technology must successfully complete) and the design, construction and 
operation of a pilot-scale facility for bench-scale ``hot'' tests. RIC 
is currently performing tests to satisfy the remaining two WAPS and 
addressing technical issues associated with its Work Plan. Once results 
from the newest tests are analyzed and an acceptable Work Plan has been 
developed, decisions on future plans for AVS can be made.
    Question. What is the status of DOE's obligation of the $4 million 
provided in fiscal year 2002 for development of Advanced Vitrification 
System and how much of the $4 million appropriated for fiscal year 2001 
has been obligated?
    Answer. In the report accompanying the fiscal year 2001 Energy and 
Water Development Appropriations Act, Congress provided up to $4 
million to continue evaluation, development and demonstration of the 
Advanced Vitrification System (AVS) upon successful completion of 
supplemental testing. Approximately $464 thousand was provided to the 
Radioactive Isolation Consortium (RIC), Inc., during fiscal year 2001 
as the Department reviewed the analysis of tests performed on DOE-
provided surrogate wastes during fiscal year 2002. An independent team 
determined that the resulting AVS product did not satisfy two of six 
Waste Acceptance Product Specifications (WAPS).
    As of May 2002, approximately $2.7 million has been provided to 
RIC. The remaining funds for the project, a total of $4.0 million, will 
be available for obligation in July 2002. RIC is continuing bench-scale 
tests to establish whether AVS, using Hanford waste simulant, can 
produce borosilicate glass waste forms that fully comply with all six 
of the WAPS.
    To date, at the direction of Congress, the Department has invested 
over $7 million in the phased testing of AVS.
    Question. How much additional funding will you need to implement 
and expedite your plans for AVS?
    Answer. We believe any continued work on the Advanced Vitrification 
System (AVS) should be contingent upon successful completion of each 
stage of a series of phased tests. It is the Office of Environmental 
Management's policy to support full-scale work only after a project has 
successfully completed Stage 5 (of seven stages an emerging technology 
must complete). AVS has not yet fully completed Stage 3, and current 
efforts are focused on additional bench-scale tests to determine if an 
AVS product can successfully meet all six Waste Acceptance Product 
Specifications (WAPS), two of which an independent review team found 
were not met during fiscal year 2000 tests. Until results from the 
newest tests are analyzed and demonstrate that the AVS product can meet 
the remaining WAPS, it would be premature to develop future plans for 
AVS.
    Question. The Administration's budget summary says, ``The current 
cost estimate for cleaning up this set of 53 sites if $220 billion, an 
increase of 50 percent in just 3 years. As of 2001, DOE has completed 
14 of those 53 sites.'' Previous DOE testimony to the Committee has 
stated that the AVS appeared to be the only system that would work at 
Idaho National Engineering and Environmental Laboratory (INEEL) and the 
AVS single-use feature was also supported by the National Academy of 
Sciences as a solution for INEEL. Are you considering the potential 
savings of deploying the Advanced Vitrification System for applications 
to a broader array of wastes at sites in addition to Hanford?
    Answer. The Advanced Vitrification System's (AVS) applicability to 
a wider array of wastes is not being examined at this time. AVS has not 
yet been developed to the point that it is considered a deployable 
technology, as it is still in the early research and development 
phases. Currently, work on AVS is focused on whether the system can 
produce a borosilicate glass waste form that satisfies six Waste 
Acceptance Production Specifications for the repository, while also 
reducing the volume of waste produced. The current target of this 
research is a Hanford tank waste simulant.
    AVS is not the only system that could work at the INEEL. Joule-
heated melters that are currently available could meet INEEL 
requirements. While the 1999 National Academy of Sciences' report, 
``Alternative High Level Waste Treatments at the Idaho National 
Engineering and Environmental Laboratory,'' did identify single-use 
melters as one option that could have a potential advantage for some of 
the wastes at INEEL, AVS was not specifically mentioned in the report.
    Question. Does AVS' ability to vitrify waste without a great deal 
of pretreatment offer the potential for its use as the next generation 
vitrification system at Savannah River whenever the current melter 
system is spent?
    Answer. The Department is certainly interested in technologies that 
reduce the amount of treatment and separation required in order to 
stabilize high-level waste. For the high-level waste at the Savannah 
River Site, the Department is considering options which can cost-
effectively process the waste and meet both safety and production 
requirements. While the Advanced Vitrification System (AVS) has certain 
attributes which appear to be effective in the processing of high-level 
waste, there are two additional Waste Acceptance Product Specifications 
which still need to be met in order for AVS to be a viable option.
                    $800 million funding allocation
    Question. I applaud the Administration for its efforts to reduce 
future costs and at the same time speed-up the cleanup program. 
Obviously, you will need flexibility in the budget to accomplish it. I 
understand, the budget request for fiscal year 2003 includes ``$800 
million in a new `reserve' fund to implement fundamental program 
changes, with the expectation that the proposed reforms will improve 
cleanup efficiency by completing construction projects within 
baselines, reducing the cost of waste treatment and disposal, and 
integrating cleanup strategies across different sites.'' How would you 
allocate this funding?
    Answer. The $800 million request for the EM Cleanup Reform account 
is intended to provide a pool of funds to support accelerated risk-
reduction cleanup strategies that have been agreed to by state and 
Federal regulators. We will allocate funds to those sites that 
demonstrate their ability to re-align to a more accelerated risk-based 
approach, and develop specific performance plans that lay out actions, 
schedules and funding requirements consistent with this new approach. 
Funds would be made available to sites to support these plans once 
agreements have been reached with appropriate state and Federal 
officials.
                  advanced vitrification system (avs)
    Question. How would you feel about using a portion to expand the 
use of alternative technology, such as the Advanced Vitrification 
System for plutonium, mixed wastes, and other contaminated wastes at 
all of the DOE sites?
    Answer. Funds from the Environmental Management Cleanup Reform 
account are intended to support sites' accelerated cleanup approaches 
to achieve more risk reduction and accelerate cleanup with technologies 
that are currently available. Science and technology projects such as 
the Advanced Vitrification System are not likely candidates for 
allocations from this account since by definition they require some 
period for technology development. Rather, such activities should be 
funded in the EM Science and Technology budget.
    Question. Given the rising costs and delays that have plagued the 
cleanup program, wouldn't you agree, Madam Secretary, that DOE should 
introduce alternative technology as quickly as possible to help reduce 
costs and speed up the cleanup program?
    Answer. Absolutely. We believe that any innovative technology that 
has been proven to be an improvement over existing available methods or 
to provide a cleanup solution that did not previously exist should be 
deployed in cleanup operations as quickly as possible. This would allow 
the Department to meet EM's cleanup goals as quickly, safely, and 
efficiently as possible.

                         CONCLUSION OF HEARINGS

    Senator Murray. With that, I will recess subject to the 
call of the chair.
    [Whereupon, at 11:15 a.m., Thursday, April 18, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2003 
Energy and Water Development Appropriations Act.]
                            ENERGY PROGRAMS

       Prepared Statement of the Nuclear Waste Strategy Coalition

    On behalf of the Nuclear Waste Coalition Strategy (NWSC), I commend 
your efforts with regard to the Department of Energy's (DOE) fiscal 
year 2003 budget request to include the nuclear waste disposal program.
    As testimony for the record, the NWSC strongly supports increasing 
the DOE's budget request for $527 million for the civilian nuclear 
waste disposal program. The $527 million requested by the DOE is the 
minimum required to keep the nuclear waste disposal program on track. 
The amount approved in the fiscal year 2002 budget for nuclear waste 
disposal ($375 million) was lower than the Administration's request of 
$445 million. It was the 50 consecutive year that the DOE's budget for 
nuclear waste disposal was reduced by Congress. These years of cutbacks 
have caused the DOE to fall behind on their scheduled milestones. The 
continued lack of vigorous funding by the U.S. Congress for the nuclear 
waste disposal program is unacceptable to the NWSC.
    The fact is that while the nation's ratepayers continue to pay 
annually more than $1 billion into the Nuclear Waste Fund (NWF), the 
U.S. Congress has appropriated less than half of this amount in recent 
years. Since 1983, the nation's ratepayers have paid more than $19 
billion, including interest, into the NWF for the DOE to obtain a 
license, construct, operate and monitor a repository for commercial and 
military high-level nuclear waste, beginning in 1998. The DOE has spent 
more than 20 years extensively studying the geology, hydrology, 
chemistry and climate of Yucca Mountain. Since 1987, the DOE has spent 
approximately $8 billion to characterize a repository at Yucca 
Mountain. Studies undertaken clearly demonstrate that the science and 
technical evaluations support the Yucca Mountain site as the nation's 
permanent repository. Should Congress pass a resolution to designate 
the Yucca Mountain site as a repository, the Nuclear Waste Policy Act 
clearly mandates the DOE to continue with its scientific studies to 
conduct a multistep process for identifying and licensing the 
repository and transportation systems.
    However, unless Congress allocates essential funds from the NWF, 
the program's schedule--which is already 12 years behind schedule--will 
continue to slip. In fact, due to the lack of sufficient funding, the 
DOE's timeline to begin accepting spent nuclear fuel and high-level 
waste at the repository by 2010 may already be in jeopardy. The 
licensing application process has already slipped to 2004, and the 
award of the initial Phase A transportation planning activities may 
slip from the middle of 2003 to 2004.
    We believe it is particularly important--in light of the September 
11 terrorists' attacks--that requested funds be made available to 
initiate planning in fiscal year 2003 to expedite the DOE's near-term 
actions to prepare for fuel acceptance. These actions should include 
funding directed to development of transportation-related 
infrastructure and contingency planning, which will ultimately be 
needed to remove spent nuclear fuel and resolution of outstanding fuel 
acceptance issues.
    Again, the NWSC strongly urges members of Congress to appropriate 
the $527 million as requested by the DOE. Hopefully, the beleaguered 
civilian nuclear waste disposal program will proceed forward as 
envisaged by lawmakers in the 1982 Nuclear Waste Policy Act.
    The Coalition is comprised of state regulators, state attorneys 
general, nuclear electric utilities and associate members working 
together to hold the Federal government accountable for its contractual 
and statutory obligations to remove spent nuclear fuel from power 
plants across the nation to interim storage and eventually to a 
permanent repository. The NWSC is made up of participants from 44 
organizations in 25 states.
                                 ______
                                 

     Prepared Statement of the Solar Energy Industries Association

    Mr. Chairman, Members of the Committee, on behalf of the Solar 
Energy Industries Association (SEIA), the national trade organization 
representing the photovoltaics and solar thermal manufacturers, 
component suppliers, and national distributors, I appreciate the 
opportunity to submit testimony on solar energy programs sponsored by 
the Federal Government. In large part due to the Department of Energy's 
stewardship over the solar program, the industry is growing at a 
blistering pace--with growth over the past decade exceeding 20 percent 
annually. SEIA is thankful to this Committee for its support for the 
solar program. Continued support is more important now than ever. As 
the Director of the National Renewable Energy Laboratory (NREL), 
Admiral Richard Truly, remarked at the National Press Club on March 
14th, ``Renewable energy technologies offer the nation powerful tools 
for enhancing homeland security. . . . More broadly, the growing energy 
contributions made by wind, biomass, geothermal and solar can be 
especially useful in helping offset our nation's reliance on foreign 
energy sources, thereby bolstering U.S. energy security.''
    The demand for clean energy in the United States and around the 
world must rival the demand for any product on Earth. A recent Newsweek 
poll found an extraordinary 84 percent of Americans nationwide favor 
increased funding for the development of solar and wind power. These 
poll results have been echoed in the ballot booth. Last November, 73 
percent of San Francisco voters approved a plan to issue $100 million 
in municipal-revenue bonds to fund solar on public buildings. U.S. 
government support for renewables is tame compared to Germany, Japan, 
and other countries. The question is which country will implement the 
policies to take advantage of the seemingly unlimited, booming market 
for renewables. The United States already has lost most of the wind 
turbine industry as well as its lead in PV production. In addition to a 
generously funded, well-managed Research Development and Deployment 
program, tax incentives and national net metering and interconnection 
standards are essential for a vibrant U.S. solar industry.
    Given the charter of this Committee, I will focus my remarks on RD 
& D. SEIA respectfully requests $100 million for the photovoltaics (PV) 
program, $25 million for concentrating solar power (CSP), and $12 
million for Solar Buildings. This funding level is necessary to 
accelerate the technological advances of this energy source, which 
would increase our national security, add value to the electricity 
grid, provide high technology jobs, and improve our environment.
    The request also reflects that although Congress appropriated $95 
million for solar in fiscal year 2002, after funding reductions and 
earmarks are accounted for, the available funding is considerably less. 
In other words, the solar program got cut last year. The SEIA request 
reflects that peer reviews conducted in 2001 determined that the solar 
programs at DOE are expertly managed and achieving important national 
objectives such as cost reduction and improvement in technology.
    We are pleased that the Administration proposed a budget that 
boosts funding for the photovoltaics program and launches a thoughtful 
and aggressive campaign to promote Zero Net Energy Buildings. I commend 
the Assistant Secretary of Energy Efficiency and Renewable Energy, 
David Garman, for his commitment to the solar program and for his 
commitment to reduce bureaucracy at the Department to improve the 
effectiveness of all of the programs under his purview. The strong 
Administration endorsement of the Zero Energy Buildings program in the 
fiscal year 2003 Budget is particularly exciting, because this program 
spans the range of solar technologies. However, we are, of course, 
disappointed that the Administration once again proposes a close-out 
budget for the CSP program. This closeout budget is inconsistent with 
the congressional directive to the Administration to prepare a report 
to Congress as to how best to deploy 1000 MW of troughs, dishes, and 
power towers, in the Southwest--an initiative that the Western 
Governors Association supports. (Governors Jane Hull of Arizona, Kenny 
Guinn of Nevada, and Gary Johnson of New Mexico, all signed their names 
to the WGA letter.) And the budget undermines the impressive 
international interest in deploying these technologies.
    Additionally, the funding priorities within the PV program will 
need some readjustment. The focus on basic research is important, but 
it is the cost-shared programs that keep a solar manufacturing base in 
this country. Increased emphasis also needs to be placed on the systems 
and reliability accounts to maximize system performance.
    I would first note that the PV program as a whole is the jewel of 
the EE/RE office. The 2001 Peer Review of the DOE Photovoltaic Program 
concluded that:

    ``In terms of the program's relevance to national needs, the 
panelists found that the PV program's work was outstanding across all 
activities. . . . In summary, it is the panel's considered opinion that 
the PV program is doing an extremely effective job of setting 
priorities, balancing allocation of available resources, recognizing 
and addressing critical problems and barriers to progress and 
commercialization, and supporting the quality of work required to 
achieve its goals. . . . The panel notes that the consistently high 
rankings assigned in this evaluation are very unusual, and they are 
also very deliberated. . . The panel believes this to be a truly 
outstanding element of the Department of Energy's programs.''

    The cost-shared DOE programs, such as PVMat, Thin Films 
Partnership, and Building Integrated PV (BiPV) keep solar manufacturing 
in the United States. In fact, many states including, California, 
Virginia, Maryland, Delaware, Florida, Arizona, New Jersey, Ohio, 
Michigan, Pennsylvania, and Massachusetts, manufacture solar. The 
industry already employs some 20,000 workers. If the PV industry 
continues to grow at an annualized basis of 20 percent as it has for 
the past decade, the number of workers employed in the solar industry 
will soon rival the glass and other more mature industries.
    These programs also are highly effective. All of these programs are 
cost-shared research and enjoy exceptionally high remarks from the 
independent peer review team. The PVMat program has cut the cost of 
manufacturing solar modules in half. A record in efficiency in 
electricity produced by solar cells made from cadmium telluride used to 
manufacture thin film panels was achieved last year. And the 
Administration's fiscal year 2003 Congressional Budget Document 
recognizes the value of BiPV, finding that: ``Building integrated 
photovoltaics is an exciting and rapidly growing solar application in 
which solar panels serve the dual purpose of replacing conventional 
building materials and generating electricity. . . . By offering more 
than one functionality, BiPV systems will help cross the profit 
threshold that holds the key to significant growth in distributed, 
grid-connected electricity markets.''
    In fiscal year 2002, Congress earmarked $18,500,000 for the Thin 
Films Partnership. SEIA requests that number for fiscal year 2003. For 
PVMat [Advanced Manufacturing R & D] we request at a minimum the fiscal 
year 2001 funding level of $11 million. And for BiPV, SEIA supports at 
least a $2 million allocation.
    The three programs mentioned above succeed in the most important 
metrics of success: (1) cost reduction; (2) efficiency improvement; and 
(3) job creation in the United States.
    SEIA continues to support and urges full funding for Senator Frank 
Murkowski's innovative Residential Renewable Energy Grant program, 
which would offset a portion of the cost of renewable energy systems. 
Consumer rebate programs have been a leading engine for growth in the 
states and the Federal Government should look to replicate this effort 
in appropriate areas (i.e., solar systems on Federal land, etc.).
    The systems and reliability account should be restored to fiscal 
year 2001 levels. The Administration's emphasis on the most promising 
research in this area is not funded at an adequate level to cover all 
of the necessary inverter and balance-of-systems work.
    Cost-shared research programs and effective consumer incentive 
initiatives are essential elements to keep solar jobs in America. 
Another important item is consumer education. SEIA supports the 
Administration's request to continue funding for the Solar Solutions 
project. The Solar Electric Power Association (SEPA) has been working 
with DOE on this initiative to determine the next stage of creating 
market demand for photovoltaic energy systems and to showcase 
successful projects. The initiative recognizes the role of key players, 
including electric energy service providers and utilities, which 
continue to be a catalyst for successful community-based solar 
deployment.
    SEIA also requests that funds be included for an initiative to 
boost the supply of solar-grade silicon. Over 90 percent of solar 
modules are produced with silicon. Solar cell manufacturing growth (up 
38 percent this year) has outpaced the supply of affordable silicon. A 
meeting organized earlier this month--comprised of the companies that 
manufacture the vast majority of PV in this country--identified the 
severity of this roadblock to growth. Without an effective response, 
the potential growth of the industry will be compromised. This is a 
barrier that needs to be immediately addressed. Once a world leader, 
the U.S. has been continuously losing market share over the past 5 
years. Developing a strong silicon feedstock program in the U.S. can 
help turn that trend around.
    With respect to CSP, we believe that Congress should restore the 
proposed cuts to the funding for this program and instruct DOE to use 
its energies to make the 1000 MW Southwest Initiative a reality. The 
Senate will soon pass a tax bill that includes solar in the Production 
Tax Credit, which will improve the economics of this effort. According 
to RDI Consulting, the solar resource in the Southwest is the most 
abundant renewable resource available. As Western governors grapple 
with how to produce clean energy for a rapidly expanding population and 
states adopt Renewable Portfolio Standards, the attractiveness of CSP 
increases. Let's not forget that this is a proven technology. Some 354 
MW of CSP continues to produce, clean, affordable, and reliable energy 
in California. Even an evaluation of the Administration's own budget 
document demonstrates the promise and performance of CSP technologies:
    Distributed Power System Development.--``Because these systems are 
efficient (29.4 percent solar-to-electric conversion) and can be 
hybridized with other fuels (e.g., natural gas, hydrogen) they show 
great potential as a cost-competitive clean source of distributed 
power.''
    Dispatchable Power System Development.--``Large-scale CSP 
technologies have been operating successfully in the California desert 
for 15 years. Over this time the cost of these systems has decreased by 
a factor of 3, and at 12-14 cents/kWh they are currently the least 
expensive source of solar electricity. Recent technology advancements 
such as molten-salt thermal storage, low-cost receiver tubes, and 
concentrators has revitalized the CSP industry and placed them in 
position to play a major role in near-term green power opportunities, 
both domestically and overseas, as costs are projected to drop into the 
6-8 cents/kWh range. In fiscal year 2001 a new solar trough receiver 
was identified as being able to reduce the overall system cost by 20 
percent.''
    As to Solar Buildings, again, SEIA applauds the Administration's 
vision in this area. For solar to play more of a role in our energy 
mix, the distributed technologies need to get on the rooftops. The 
potential is incredible. Donald Osborn, Superintendent for Renewable 
Generation at SMUD, estimated that if every new home in California 
placed a 2.2 kW array on its roof, it would displace a dirtier 500 MW 
power plant. SEIA also endorses the Administration's emphasis on low-
cost, polymer-based solar water heaters to cut the cost of solar water 
heating by 50 percent to an equivalent of 4 cents kWh by 2004. Solar 
thermal could play a significant role in meeting the energy needs of 
the United States. Israel displaces 6 percent of its electricity with 
solar hot water heaters--an amount three times the level of non-hydro 
renewables in the United States.
    With some modifications to the Administration's budget, this 
Committee would greatly help the U.S. solar industry grow and prosper.
                                 ______
                                 

Prepared Statement of the International Society for Optical Engineering

    Issue.--The Department of Energy (DOE) is the Nation's leading 
sponsor of research in the physical sciences, second in computer 
science and mathematics, and third in engineering. The research funded 
by DOE underpins the Department's missions in energy, environment, and 
national security. It advances energy-related basic science, and 
provides unique user facilities for the U.S. scientific and engineering 
communities. This research is critical to sustaining and enhancing our 
national and homeland security, energy supply, economy, quality of 
life, and educational growth. DOE also provides a significant portion 
of the Federal R&D funding supporting scientists and engineers at our 
universities. These researchers and their students--the next generation 
of scientists and engineers--are conducting long-term, peer-reviewed 
basic research that is tackling present problems and preparing for 
future challenges.
    Position SPIE.--The International Society for Optical Engineering--
urges Congress to strengthen the Nation's investment in DOE's Office of 
Science (OS) programs and facilities by providing an increase of at 
least $300 million, for a minimum budget of $3.580 billion for fiscal 
year 2003. Setting aside funds for efforts requiring one-time funding 
in fiscal year 2002, the Administration's budget for DOE proposes only 
a 5 percent boost for OS--an inadequate increase to meet U.S. 
priorities in national defense, energy security, and environmental 
quality.
    SPIE appreciates and supports the Administration's plan to 
significantly increase funding for the National Nuclear Security 
Administration (NNSA), which maintains and enhances the safety, 
reliability, and performance of the U.S. nuclear weapon stockpile to 
meet national security requirements. However, SPIE is concerned about 
the significant funding reduction planned for the High Energy Density 
Physics Campaign. This Campaign is essential for certification of the 
life extension of our weapons stockpile and contributes to the science 
and engineering that enables NNSA to utilize experiments, simulations, 
and surveillance information in place of underground nuclear testing to 
make science-based judgments for stewardship. SPIE urges Congress to 
bolster funding for this extremely important program.
    Rationale.--DOE's Office of Science is one of the primary 
government sponsors of basic research in the United States and leads 
the Nation in supporting the physical sciences and engineering. OS 
funding supports world-class, peer-reviewed and competitively selected 
research in areas of national priority as well as the construction and 
operation of major scientific user facilities (such as high intensity 
X-ray sources and massively parallel computer centers) for the Nation's 
scientists and engineers. Annually, more than 18,000 of our Nation's 
researchers conduct research at OS user facilities. Unfortunately, 
these facilities will continue to operate at approximately 75 percent 
of the optimally available hours without a funding increase, thus 
limiting the Nation's scientific and engineering communities in 
scheduling experiments that require consistent operating or long lead 
times, or present a narrow window of opportunity for collecting data.
    The results of research conducted by the Office of Science's 
Biological and Environmental Research (BER) and Basic Energy Sciences 
(BES) programs greatly impact the public and the entire Nation. 
Developing the knowledge necessary to understand and mitigate the 
adverse health and environmental consequences of energy production, BER 
contributions include new medical diagnostic and therapeutic tools for 
disease diagnosis and treatment, non-invasive medical imaging, and 
biomedical engineering. The goal of BER's Medical Applications and 
Measurement Science program--to deliver relevant scientific knowledge 
that will lead to innovative diagnostic and treatment technologies for 
human health--is vital to recognizing and responding to bioterrorism.
    The BES program is a principal sponsor of fundamental research for 
the Nation in the areas of materials, science and engineering, 
chemistry, geosciences, and bioscience as related to energy. BES 
applications include solar conversion, batteries and fuel cells, and 
solar photo-conversion processes. With funding priorities such as the 
design of the next-generation Linac Coherent Light Source, and improved 
instrumentation of the Neutron and X-ray scattering facilities, BES 
provides the knowledge to support the President's National Energy Plan 
for improving the quality of life for all Americans.
    As the details of the fiscal year 2003 DOE budget are discussed, 
SPIE recommends that Congress increase funding for DOE's Office of 
Science and the High Energy Density Physics Campaign beyond the amount 
requested by the Administration. Funding for these programs is an 
investment that will enable the Nation's scientific and engineering 
communities to discover and develop the technologies of tomorrow.
                                 ______
                                 

         Prepared Statement of the Southern States Energy Board

    The Southern States Energy Board (SSEB) is pleased to provide 
testimony for the record to the Senate Appropriations Subcommittee on 
Energy and Water Development as it considers fiscal year 2003 funding 
for the U.S. Department of Energy (DOE), Office of Energy Efficiency 
and Renewable Energy (EERE), and specifically related to the biomass/
biofuels fiscal year 2003 budget request.
    Request.--SSEB governors recommend that the Congress appropriate 
$5,000,000 to the DOE Regional Biomass Energy Program (RBEP) and direct 
that the Southern States Energy Board receive $2,000,000 of that 
appropriation to conduct a regional governors biobased products and 
bioenergy economic development initiative in the southern region.
    This line item, which would continue an appropriation that has 
appeared in every Federal budget since fiscal year 1983, is for the 
purpose of promoting economic development by fostering the use of 
biobased products and bioenergy, and takes advantage of and sustains 
existing networks and infrastructure developed throughout the Nation by 
the regional governor organizations.
    Purpose.--The regional governors biobased products and bioenergy 
economic development initiative (the ``Initiative'') will coordinate 
State policies, programs and activities at the regional level and 
provide a logical structure for the Federal Government to interface 
with individual States. Through interstate coordination and 
cooperation, the Initiative will improve efficiency by reducing 
activities that overlap with other States and by sharing resources 
between states and the Federal Government through coordinated, 
collaborative efforts. Critical to sustaining a ``new economy'' in the 
Southern States and elsewhere in the Nation, the Initiative will take 
advantage of and sustain existing biobased product and bioenergy 
networks and infrastructure previously developed by the regional 
governor organizations.
    Benefits.--The economic benefits of RBEP are striking: the Federal 
investment of $68.5 Million over the life of the program has had an 
estimated impact of some $720 Million, with Federal dollars leveraging 
State and private sources in the $2-$4 range. By cost sharing projects 
and activities with the public and private sector, the economic benefit 
translates into a cost share equal to $29 Million, making the value of 
the total benefits in excess of $43.9 Million over this 6-year period.
    Beyond the potential economic development benefits, participating 
States gain the opportunity to strengthen and integrate the work of 
energy, agriculture, forestry, environmental and other State agencies. 
Where issues are the same among several States, strategies can be 
developed to address these issues without regard to State borders. 
Examples include the development of similar legislative actions, 
working with the private sector with multi-state locations, and multi-
state training and outreach to economize resources.
    The National Energy Policy.--Energy independence is a critical 
element in the President's Energy Policy and can be significantly 
enhanced by developing viable domestic alternative energy sources. This 
is precisely the purpose of the RBEP, a goal that over 20 years has 
been successfully promoted through this modest appropriation.
    The Administration's performance-based focus is to achieve the 
greatest possible return on each taxpayer dollar. The National Energy 
Policy recommends funding R&D programs that are ``performance-based and 
modeled as public-private partnerships'' and recognizes unique regional 
energy concerns. The President expressly encourages working with 
regional governors organizations to determine how to better serve the 
needs of diverse areas of the country.
    The RBEP relies on interstate coordination on a regional level to 
accomplish its goals. Through an intricate and long-standing network of 
the public and private sectors, the RBEP provides extensive technical 
and policy expertise necessary for identifying strategies that have 
multi-state and multi-discipline applications. The five regional 
programs with State agency participation offer a well-connected 
national network of expertise for serving regional, State and local 
needs.
    Even though RBEP represents a model program for return on each 
taxpayer dollar through public-private partnerships and is an integral 
component to the DOE's justification for the fiscal year 2003 budget 
request, the fiscal year 2003 Energy Efficiency and Renewable Energy 
budget request paradoxically eliminates funding for the RBEP.
    History.--The Regional Biomass Energy Program was created by 
Congress in 1983 under the Energy and Water Development Appropriations 
bills Public Law 97-88 and Public Law 98-50. The enabling legislation 
instructed DOE to design its national program to work with States on a 
regional basis, taking into account regional biomass resources and 
energy needs. Today, there are five regional programs, working with 
representatives in all 50 States, Puerto Rico and the Virgin Islands, 
and hosted primarily by regional governors organizations (Southern 
States Energy Board, Coalition of Northeastern Governors and the 
Council of Great Lakes Governors).
    From fiscal year 1983-fiscal year 1996, the budget for this program 
averaged $3.9 Million per year. Beginning in 1997, the program was 
transferred to the Office of Fuels Development (OFD), with the 
understanding that it would receive funding from both OFD and the 
Office of Hydropower and Biopower Technologies. Since 1997, the RBEP 
base program has received approximately $14.9 Million in DOE funding.
    Southeastern Regional Biomass Energy Program.--Among the most 
valuable aspects of the RBEP are the host organizations and the program 
managers. Their combined experience related to biomass technologies and 
policies is recognized nationally. Because of their long-term 
association with the States, RBEP host organizations and program 
managers are trusted resources that States rely upon for advice and 
assistance.
    The Southern States have participated in this strategy through the 
Southeastern Regional Biomass Energy Program (SERBEP), which has 
provided over $5.8 Million in project funds since 1992 with a cost-
share over $21 Million by leveraging State and private funding for 
technology development. The SSEB has created awareness and support for 
bioenergy/biobased products in the executive and legislative branches 
of State government, improved the effectiveness of SERBEP activities, 
provided more formal interaction between the States, and improved 
policy development and coordination in particular.
    From 1983 through 1998, the SERBEP was operated by the Tennessee 
Valley Authority. Then, in 1999, as an interstate compact with enabling 
legislation in each member state, SSEB was selected as the ``host 
organization'' for the SERBEP and received funding through a 5-year 
cooperative agreement. Because SSEB covers 16 States, Puerto Rico and 
the U.S. Virgin Islands, with the governor and a member of the House 
and Senate from each member State, roughly one-third of the governors 
and their legislatures in the United States are actively involved in 
bioenergy-related activities through SSEB.
    Projects are selected through a competitive solicitation that 
undergoes a peer review evaluation process. Major beneficiaries are 
universities and small businesses, which have the greatest potential 
for job creation, and rural organizations, where jobs are most 
desperately needed. Grants to States under this program provide seed 
investment and venture capital at the ``grass roots level'' to small 
businesses, entrepreneurs, universities and State and local 
governments. The investment promotes technology development, deployment 
and transfer while creating jobs, strengthening the economy and 
contributing to homeland security.
    Energy Policy in the South.--In September 2001, the SSEB and the 
Southern Governors' Association addressed energy policy and adopted 
Energy Policy in the South--Integrating Energy, Environment and 
Economic Development: A Balanced and Comprehensive Approach that is in 
concert with the President's National Energy Plan. It was presented to 
Vice President Cheney at the 2001 Annual Meeting of the Southern 
Governors Association and the SSEB.
    The cornerstone of this report is the need for a stable, reliable 
and secure energy supply. The five key principles highlighted in the 
document are as follows:
  --Ensure diversity of domestic energy resources to achieve energy and 
        economic stability;
  --Address supply to enable market stability and ensure energy 
        reliability;
  --Increase conservation and improve efficiency to minimize 
        environmental impact and foster demand response;
  --Expand and strengthen infrastructure capacity; and
  --Advance R&D and use clean energy technologies and systems.
    The Southern Governors recognize that in order to maintain the 
world's strongest economy and protect national security coupled with a 
clean environment, States must support and develop policies and 
technologies that enable a diversity of domestic energy resources to be 
utilized throughout the region. SERBEP is a prime example of the call 
upon the Congress by the Southern Governors to provide adequate funding 
and incentives for further development of clean and efficient 
technologies and systems to provide an effective approach to increasing 
domestic energy supplies.
    In the Energy Policy in the South, the Southern Governors recommend 
that States should develop programs and policies that will foster a 
regional market in the Southern States for biofuels and bioenergy. In 
addition, the Southern Governors recommend increased funding for the 
regional biomass energy program in order to foster economic development 
of bioenergy and biofuel projects in the Southern States.
    Conclusion.--The ``zeroing out'' of the RBEP greatly diminishes the 
states' ability to participate in the development of biomass energy 
markets-just as the Federal energy policy seeks to encourage diverse 
energy sources. By eliminating access to the states' expertise, 
knowledge and experience with biomass resources and markets, DOE will 
be remain as the primary public sector participant in the development 
of policy and markets.
    Now that DOE is reorganizing the Office of Energy Efficiency and 
Renewable Energy and integrating all bioenergy activities, SSEB, the 
regional governor organization for energy and environment in the South, 
and the other regional governor organizations are uniquely positioned 
to implement a ``regional governors biobased products and bioenergy 
economic development initiative.'' The Initiative will both support the 
goals of EERE and complement the National Biobased Products and 
Bioenergy Initiative.
    SSEB and the other regional governor organizations hosting regional 
biomass energy programs are critical partners of DOE for achieving the 
Renewable Energy Resources program's three EE principal strategies of: 
(1) improving energy technologies and practices through R&D; (2) 
formulating policies and standards; and (3) facilitating private sector 
deployment of advanced energy technologies and practices into their 
target markets.
    We urge the Congress to restore this modest but vital appropriation 
to protect the Federal Government's 20-year investment in RBEP, and to 
continue the promotion of the strong Gederal interest in viable and 
growing biobased products and bioenergy. Restoration of the 
appropriation for RBEP places the Federal focus where it belongs: with 
the states and not on energy alone, but rather the broad application of 
biobased products and bioenergy to create economic development in 
America's next century.
economic and environmental impacts of rbep projects funded through the 
                                 states
    AL.--In Alabama, for example, the RBEP is providing over $39,000 to 
Pro-Gen Power to assist them in the planning for installation of a 20 
million gallons per year of ethanol plant in Alabama by 2003. Pro-Gen 
also contributed over $39,000 to the study. The installation of this 
facility will provide 150 construction jobs over a 12-month period and 
60 ongoing jobs for plant operations, plus indirect jobs. The plant 
will produce the equivalent of 194,789 barrels-of-oil and reduce carbon 
dioxide Greenhouse Gas emissions by over 146,000 tons per year. This 
ethanol will either be used in Alabama to reduce gasoline imports or 
the ethanol will be exported from the state, either way providing 
beneficial cash flows to the State.
    KY.--In Kentucky, for example, the RBEP provided $25,000 (fiscal 
year 2000 funds) and technical assistance to the Kentucky Division of 
Energy and the Paducah/McCracken County Joint Sewer Agency to assess 
the feasibility of recovering methane gas from their wastewater 
treatment plant and using this gas to provide energy to operate the 
plant. The County also provided $128,000 toward the study. Based on the 
results of the SERBEP funded study, the project is now being 
implemented and will be operational by early June 2002. In full 
operation, the project is projected to save the County over $49,000 per 
year in electrical costs, and provide energy equivalent to 1,402 
barrels of oil per year.
    MS.--In Mississippi, for example, the RBEP provided $32,000 to the 
Mississippi Energy Office and Alcorn State University to assist them in 
establishing an ethanol production industry in the State. These 
partners also provided in $16,600 in cost sharing for the project. Just 
utilizing the 2.8 million tons of wood waste generated in Mississippi 
per year could create 280 million gallons of ethanol with a value of 
$336 million, while reducing gasoline imports into the State by 280 
million gallons. Benchmark studies by the State of Minnesota project 
that ethanol production of 100 million gallons per year would result in 
about 2,400 new jobs, an annual payroll of about $60 million, and an 
overall impact on the State economy in excess of $200 million.
    MO.--In Missouri, for example, the RBEP provided $110 to the 
University of Missouri and the Missouri Energy Center to develop 
computerized decision tools to allow rural electric cooperatives to 
inexpensively determine the feasibility of incorporating biopower 
technologies into their electricity generation mix. The University of 
Missouri contributed an additional $30,000 to the project and the 
National Rural Electric Cooperative Association contributed $70,000. 
Encouraging electric cooperatives to use bioenergy is important, as the 
cooperatives are owned the members of the communities they serve, and 
the economic impact from producing and using biomass for energy stays 
in the local (rural) community.
    SC.--In South Carolina, for example, the RBEP provided $49,500 and 
technical assistance to the South Carolina Energy Office to assist 
Linpac Paper perform a feasibility study on using biomass resources to 
substitute for natural gas in their operations. Linpac and others 
provided $96,000 in cost sharing for the project. Linpac Paper, a 
recycling paper company located in Cowpens, South Carolina, is now 
proceeding with implementation of systems to allow them to generate a 
significant part of their natural gas needs from biomass resources. The 
study found over 342,000 tons of waste biomass resources available in 
the State, including animal manures. In addition to providing an 
environmentally acceptable method of waste disposal for various biomass 
residues, a facility to dispose of half of this waste would have a $38 
million investment, produce 4-5 MW of power, insulate Linpac Paper from 
natural gas price increases and interruptions, and reduce economic 
drain from purchasing natural gas from outside the State.
    WV.--In West Virginia, for example, the RBEP provided $80,000 to 
the West Virginia Energy Efficiency Program and West Virginia 
University to develop a new process to convert poultry litter into a 
valuable, renewable transportation fuel. The RBEP seed money enabled 
the technology developers to obtain $318,000 in cost sharing, including 
over $30,000 from a private industry fabricator in West Virginia, who 
plans on marketing the technology throughout the United States. In 
addition to preventing poultry litter and other waste from polluting 
surface and groundwater, the potential value-add to poultry litter in 
West Virginia alone is over $6 million per year, producing over 2 
billion barrels-of-oil equivalent energy per year, and reducing carbon 
dioxide Greenhouse Gas emissions by over 146,000 tons per year. Like 
many SERBEP sponsored projects, in spite of its preliminary successes 
and potential benefits, the only source of Federal funding received for 
the project was from SERBEP, and this funding was crucial to the 
initiation of the project.
    TX.--(Covered by the Western Regional Biomass Energy Program hosted 
by the Nebraska Energy Office) In Texas, the Western Regional Biomass 
Energy Program (WRBEP) provided $57,040 to Texas Engineering Experiment 
Station. In College Station, TX evaluate selected aspects and the 
economics of the utilization of feed lot cow manure as a coal/manure 
blend for boiler burners. This recently completed project did 
laboratory work that demonstrated that manure can be mixed with coal 
and reduces the NO<INF>X</INF> emissions. Another project was completed 
at West Texas A&M University by Dr. David B. Parker. This project 
explored the anaerobic digestion of cattle manure in controlled 
landfill cells. Dr. Parker did laboratory studies and field 
demonstrations. The Western states have massive quantities of animal 
manure in feed lots and in confined animal facilities. These animal 
feeding operations have considerable environmental problems in dealing 
with their animal wastes. These WRBEP funded project in Texas and other 
States help find positive energy alternatives for dealing with animal 
waste products.
    Funds of $10,000 went to Dr. Max Schauck with Baylor University at 
Aviation Sciences Department in Waco, TX to help support an 
International Aviation Conference on Alternative Aviation Fuels. Using 
support from WRBEP and other sources Dr. Schauck has done lead work on 
getting ethanol certified by the FAA as a clean burning aviation fuel. 
WRBEP is supporting other projects in other States to certify aviation 
fuels. A WRBEP funded project in South Dakota is using a Texas Skyways, 
a nationally know aviation company to the engine modification work and 
testing under a subcontract under a $44,997 WRBEP grant.
    Funds were provided to the University of Texas at Austin and the 
University of Texas at El Paso to participate in the 2000 Ethanol 
Vehicle Competition. In these contests University students compete 
nationally to improve a production vehicle to run more effectively on 
E-85. Texas won first place in this competition.
    WRBEP has provided over $92,000 in funding to Mr. Joe D. Craig of 
Cratech, Inc. located near Tahokia, TX. With WRBEP funding support 
Cratech has developed a state of the art computer controlled biomass 
gasification unit. The unit is nearly market ready. The unit can gasify 
rice hulls, wood chips, cotton gin trash and other waste materials. The 
combustible gas generated by this unit is then used to run a turbine to 
generate electricity. Rice hulls and cotton gin trash are available in 
large quantities in Texas and other Southern States and create 
expensive disposal problems for agricultural producers. This technology 
can turn a waste material into an effective asset. The technology is 
sized to fit the needs of small to medium manufacturers with one 
megawatt of power production as its goal. $23,963 in funds was provided 
to the Texas Renewable Energy Industries Associations, Inc. for a 
workshop series which included: Texas Clean Transportation Seminar 99, 
The Renewable Fuels Solution, Building and Industry and Infrastructure, 
Seminar, 4/26/99, Austin, TX; Seminar on Integrating Environmental and 
Energy Technologies for Large-Scale Swine Operations, 6/9/99, Etter, 
TX; Landfill Gas Opportunities for Municipalities, 7/20/99, San 
Antonio, TX. These workshops helped alert Texans to biomass energy 
opportunities.
                                 ______
                                 

                 Prepared Statement of Plug Power, Inc.

    Plug Power urges the Senate Energy and Water Appropriations 
Subcommittee to approve $42 million for the Hydrogen Research and 
Development Program in the Office of Power Technologies at the U.S. 
Department of Energy (DOE.)
    My name is Dr. Roger Saillant, President and Chief Executive 
Officer of Plug Power, Inc., a developer of on-site energy generating 
systems utilizing proton exchange membrane (``PEM'') fuel cells for 
stationary power applications. I am particularly pleased about the 
opportunity to comment on the DOE Budget. Plug Power, our Latham, NY-
based company was founded in 1997, as a joint venture of DTE Energy 
Company and Mechanical Technology Incorporated. Plug Power's fuel cell 
systems for residential and small commercial stationary applications 
are expected to be sold globally through a joint venture with the 
General Electric Company, one of the world's leading suppliers of power 
generation technology and energy services.
    Plug Power is very enthusiastic about the attention being paid to 
the impact of fuel cell technology on energy transformation and the 
interest level in Washington. I believe that we as a nation currently 
have an opportunity to make a great difference to our economy, to our 
world position, and to the environment. As an auto company executive 
veteran of 30 years experience, who participated in the auto emission, 
safety, and fuel economy improvements, I see parallels in the magnitude 
of the challenges and the scope of the outcomes. First, the auto 
company transition costs were enormous but were forced by regulation. 
Currently, the fuel cell industry in partnership with the U.S. 
Government is trying to facilitate fuel cell based energy 
transformation improvements through R&D and buy-down incentives at a 
significant dollar cost. Second, this upcoming change in our energy 
situation is related to worldwide problems of natural resource 
depletion rates and global environmental degradation. Thus, the United 
States must be a technological leader in the emergence of this economic 
opportunity. And third, going from a centralized distribution model to 
a mosaic of centralized and distributed generation based on fossil 
fuels, wind, biomass, solar, and nuclear will require inspired 
leadership from our government over an extended period of time.
    Development of a hydrogen economy is vital for our society's 
economic well being. For years, we have relied on central station 
energy generation and transportation derived from finite natural 
resources and have thereby both depleted those resources and degraded 
environmental quality. A hydrogen infrastructure that supports both 
stationary and transportation fuel cells is the bridge to an energy 
system that values our ``natural capital'' and moves towards a 
sustainable energy economy. Many states are already starting to embrace 
development of a hydrogen infrastructure.
                    stationary fuel cell description
    A stationary fuel cell is an on-site power generation system that 
electrochemically combines hydrogen with oxygen in the air to form 
electricity. The hydrogen fuel can be obtained from readily available 
fuels, such as natural gas or propane, or in the longer term from 
renewable sources. It can also be generated by electrolyzing water with 
low-cost off-peak electricity, or with electricity obtained from 
renewable sources such as solar, wind, or biomass. Fuel cell systems, 
whether for the residential, commercial or institutional markets, 
produce not only electricity, but also heat that can be captured and 
beneficially utilized in these applications (combined heat and power 
(CHP)). This makes such fuel cell systems highly efficient as well as 
environmentally friendly. This is in stark contrast to central power 
plants where generally the heat is not captured or utilized. The heart 
of the stationary PEM fuel cell system is the stack, which is comprised 
of the same technology as is used in most fuel cell vehicle 
applications.
                     stationary fuel cell benefits
    Our traditional central generation model for supply of power in the 
United States is failing to meet the needs of a growing economy with 
increasing demand for high-quality power. There are weaknesses in power 
generation, transmission and distribution infrastructure that can best 
be met with the new paradigm of distributed generation: placing the 
generating assets on site, where both the thermal and electric energy 
is needed. Fuel cells will be an important technology component in our 
nation's distributed generation portfolio.
    When fueled by hydrogen from a renewable energy source such as 
solar, wind, or hydropower, or if the fuel source is bio-fuel like 
ethanol from plant wastes, CO<INF>2</INF> emissions are net zero.
    Fuel cells can provide highly reliable electricity. Some studies 
estimate that power quality and reliability issues cost our economy as 
much as $150 billion per year in lost materials and productivity alone 
(source: Bear Stearns, April 2000 Distributed Energy, p. 8).
    Fuel cells require hydrogen and oxygen to react chemically and 
produce electricity (and heat) and can therefore use any hydrogen rich 
fuel, or direct hydrogen. This allows fuel cell products to be 
``customized'' for customers' available fuel. It also provides the 
option of renewably generated hydrogen for a fully renewable and zero 
emissions energy system.
    Because fuel cells provide electricity at the site of consumption, 
they reduce the load on the existing transmission and distribution 
system. Siting the fuel cells at the point of consumption also avoids 
the line losses (up to 15 percent) inherent in moving electricity and 
provides an alternative to costly and unattractive traditional power 
lines.
    Because fuel cells make both electric and thermal energy where it 
is needed, the heat can be recaptured in combined heat and power 
applications to attain combined efficiencies of over 80 percent.
         hydrogen and fuel cell research and development needs
    Our company is participating in the Department of Energy road-
mapping process for the hydrogen program. It is becoming increasingly 
clear that, eventually, renewably generated hydrogen running fuel cell 
systems, will provide much of the electricity that this country 
requires. While the Department has fuel cell R&D programs in Fossil 
Energy as well as in the Transportation budget, the hydrogen program is 
the glue that holds all of these activities together.
    The Department requested a significant increase for hydrogen, from 
$29 million in 2002 to a request of $39 million in 2003 and we at Plug 
Power believe such an increase is well justified. Way back in March of 
last year we provided information about moving to a hydrogen economy to 
the Secretary and to the White House Task Force on Energy. We were 
pleased to see this interest reflected in the National Energy Plan and 
in the budget request.
    Of particular interest to Plug Power Inc. is the increased emphasis 
on hydrogen storage technologies, distributed and remote power 
validations, and infrastructure validation. Our company is working with 
rural communities on hydrogen-based fuel cell systems used for back up 
and peak power. The use of hydrogen, converted from existing 
electricity and stored until needed, can reduce the need for less 
environmentally friendly generation and can save money on investment in 
new electric infrastructure. Additionally, Plug Power is exploring some 
potential hydrogen refueling scenarios that would feed both stationary, 
power generation fuel cells as well as automotive fuel cell systems. In 
fact, we met recently with personnel at the White House about hydrogen 
infrastructure options and a means to move as quickly as possibly to a 
widespread national infrastructure akin to that of the natural gas 
pipeline industry.
            need for government r&d and systems integration
    We have heard repeatedly over the past several months about a large 
industry wide research and development effort for fuel cells and about 
a hydrogen economy, and frankly, we at Plug Power are thrilled to hear 
it. We feel that there is a vital role for the U.S. Government, and 
specifically the Department of Energy, to work with industry on pre-
competitive research and on development of a robust hydrogen 
infrastructure.
    Pre-competitive research is tough for industry. Further, 
development of a national hydrogen infrastructure will require 
significant government participation. As with Rural Electrification 
after World War II, a widespread infrastructure for hydrogen will be a 
difficult and costly challenge. DOE, as an unbiased participant, must 
do the work now to develop the various options and pathways to such a 
hydrogen future. The roadmapping process is a good start, but the 
participants have already identified hundreds of millions of dollars 
worth of research and development that must take place. We have the 
opportunity in this country to lead the world in fuel cell and hydrogen 
technology development and deployment, but it will take all of us 
working collectively, with private sector dollars being stimulated by 
government commitment.
    This sort of cooperative effort is not something a competitive 
industry will readily undertake. Rather, the government has to take the 
lead in bringing us all together, ensuring that no one's rights are 
infringed upon, similar to the Semetech approach used in Austin in the 
late 80's. I feel very strongly that there are ``leapfrog'' 
technologies that will help all of us, while helping the United States 
become a global technology leader in this field. We need to work 
together, with the DOE taking the lead because without this private-
public partnership, the U.S. industry will fail to develop and will 
allow another country to win the race to lead this industry.
    We urge this Subcommittee to approve a Budget of $42 M for the 
Hydrogen Research and Development Program in the Office of Power 
Technologies. We would urge that any increase above the President's 
request, reflect the infrastructure and distributed/remote power 
emphasis we discussed earlier.
                                 ______
                                 
          Prepared Statement of the American Chemical Society
    The American Chemical Society (ACS) would like to thank Chairman 
Harry Reid and Ranking Member Pete V. Domenici for the opportunity to 
submit testimony for the record on the Energy and Water Development 
Appropriations bill for fiscal year 2003.
    As you may know, ACS is a non-profit scientific and educational 
organization, chartered by Congress, representing more than 163,000 
individual chemical scientists and engineers. The world's largest 
scientific society, ACS advances the chemical enterprise, increases 
public understanding of chemistry, and brings its expertise to bear on 
state and national matters.
    Advances in science and engineering have produced more than half of 
our nation's economic growth in the last 50 years. Each field of 
science contributes to our diversity of strengths and capabilities and 
has given us the flexibility to apply science in unexpected ways. 
Together, science and engineering and the highly trained people who 
work in these fields remain the most important factor in the 
productivity increases responsible for economic growth and rising 
living standards, economists agree. Increased attention to national 
security and counter-terrorism activities and the bipartisan commitment 
to double the budget of the National Institutes of Health over five 
years led to record investments in federal research and development 
(R&D) in fiscal year 2002. Nevertheless, the R&D investment in some 
federal agencies is still inadequate for them to achieve their 
missions. Opportunities to perform high-quality research, recruit U.S. 
students to science and engineering fields, and fully utilize world-
class federally supported research facilities are being missed. U.S. 
intellectual leadership and competitive position in the global economy 
almost certainly will erode in the long term as a result. For fiscal 
year 2003, Congress and the administration will be challenged by the 
costs of the war on terrorism, budget deficits, and an uncertain 
economic outlook. As these challenges are confronted, strength in 
science should remain a key national objective.
DOE Budget Recommendations
    The Office of Science helps DOE foster a secure and reliable energy 
system that is environmentally and economically sustainable, 
responsibly steward the Nation's nuclear weapons, clean up DOE 
facilities, and support continued U.S. leadership in science and 
technology. By supporting people, research, and world-class science and 
engineering facilities, the Office of Science expands the frontiers of 
science in areas critical to DOE's missions and builds the nation's 
scientific infrastructure. It is the nation's largest supporter of 
research in the physical sciences.
    The Society is disappointed with the flat funding request for this 
vital Office. Consistent investments in four areas are critical to the 
Office of Science's success--workforce, basic energy research, physical 
infrastructure, and developing the next generation of scientific tools. 
To meet these challenges, ACS strongly supports funding the Office of 
Science at $3.5 billion in fiscal year 2003, an increase of $300 
million or 10 percent over fiscal year 2002. The additional funds 
should be targeted to increase the number of grants and improve 
research infrastructure.
    Within the Office of Science, ACS is particularly supportive of the 
Basic Energy Sciences and Biological and Environmental Research 
programs. The Basic Energy Sciences (BES) program funds an array of 
long-term basic research to improve energy production and use and 
reduce the environmental impact of those activities. In addition, the 
BES program manages almost all of DOE's scientific user-facilities. The 
Biological and Environmental Research (BER) program advances 
fundamental understanding in fields such as waste processing, 
bioremediation, and atmospheric chemistry to better understand 
potential long-term health and environmental effects of energy 
production and use, and identify opportunities to prevent pollution. 
Progress in these fields also is needed to develop and advance new, 
effective, and efficient processes for the remediation and restoration 
of DOE weapons production sites. ACS supports a strong role for DOE in 
federal efforts to understand and address global climate change. The 
Society applauds the $3 million request for DOE's participation in the 
new Climate Change Research Initiative.
    ACS recommends that a majority of the proposed $300 million 
increase be invested to advance basic energy research in core programs 
and in initiatives such as nanotechnology. DOE is the primary source of 
federal support for a variety of scientific areas such as catalysis, 
carbon cycle research, photovoltaics, combustion, corrosion, fission 
engineering, plasma science, nuclear imaging, and advanced computer 
science that are essential to our nation's energy security and economic 
performance. Currently, DOE must decline many highly rated grant 
proposals. These are lost opportunities for significant discoveries. 
Inadequate investment in any research field constricts the supply of 
trained people who are able to apply research and develop new advances. 
The steady decrease in degrees awarded at both undergraduate and 
graduate levels in these areas therefore threatens the future 
capabilities of U.S. industry, universities, and government.
    ACS applauds the Administration for proposing to invest an 
additional $40 million to increase operating time at DOE research 
facilities and provide new instrumentation. Each year, over 15,000 
scientists and students from academia, industry and government--many 
funded by agencies other than DOE--conduct cutting-edge experiments at 
the national laboratories and user facilities that DOE manages. 
Additional funding would allow more operating time, upgrades, 
instrumentation, and technical support. DOE also must look toward the 
future by funding R&D for and conceptual design of the next generation 
of user facilities and equipment to ensure the long-term 
competitiveness of the U.S. research enterprise. Because both people 
and equipment are needed to perform an experiment, additional funding 
for user-facilities should not come at the expense of research grants. 
For example, some facilities are underutilized because support has 
declined for investigators that use them. More complete utilization of 
DOE's facilities would increase the return on investment made in their 
construction and maximize their scientific contributions and 
educational value.
    Outside of the Office of Science, ACS is supportive of DOE's Energy 
Efficiency and Renewable Energy and Fossil Energy programs. These 
programs have definite environmental, economical, and intellectual 
benefits. The National Academies estimated that the total net realized 
economic benefits associated with the Energy Efficiency programs it 
reviewed were approximately $30 Billion (valued in 1999 dollars), 
substantially exceeding the roughly $7 Billion (1999 dollars) 
expenditure made by the government over the 22-year life of the 
programs. The Academies estimated that the realized economic benefits 
associated with the Fossil Energy programs amounted to nearly $11 
Billion (1999 dollars) over the same 22-year period. Continuing 
investment in these programs will build on the advances made by the 
Office of Science programs and strengthen America's traditional and 
alternative energy sources. However, a December 2001 General Accounting 
Office report concluded that DOE's poorly integrated missions have 
created significant organizational challenges, and that the Department 
has not yet found an effective organizational structure that integrates 
the different operating styles and requirements of its diverse 
missions. These challenges have to be overcome in order to improve 
coordination between the applied and basic research programs at DOE. 
Better coordination between the applied research programs and the 
Office of Science would leverage advances in all these programs.
                                 ______
                                 
    Prepared Statement of Southeastern Federal Power Customers, Inc.
    Mr. Chairman and Members of the Subcommittee: As Chairman of the 
Southeastern Federal Power Customers' (``SeFPC'' or ``Customers'') 
Operation and Maintenance Committee, I hereby submit the following 
testimony on the Administration's fiscal year 2003 Budget Request for 
the Army Corps of Engineers' (``Corps'') South Atlantic Division 
(``SAD'') and the Great Lakes and Ohio River Division (``LRD'') on 
behalf of the SeFPC.
    The SeFPC represents approximately 238 rural electric cooperatives 
and municipal electric systems that provide electricity to some 5.8 
million customers in the states of Alabama, Georgia, Mississippi, 
Kentucky, North Carolina, South Carolina, Florida, Virginia, West 
Virginia, and Illinois. As the Committee is aware, the Corps is 
responsible for operating and maintaining hydropower generating 
facilities at federal multipurpose water projects pursuant to the 
Federal Power Marketing Program. The energy and capacity of these 
projects in the southeast are marketed by the Department of Energy's 
Southeastern Power Administration (``SEPA''). SEPA supplies as much as 
30 percent of the capacity and 10 percent of the energy needs of 
individual SeFPC members. In certain cases, it is the members of the 
SeFPC who purchase power directly from SEPA under the Federal Power 
Marketing Program; in other cases, it is their member distribution 
systems that are the purchasers of federally generated hydropower.
    Importantly, the Federal Power Marketing Program was designed by 
Congress to be self-supporting--it is one of the few programs that 
literally pays for itself. Pursuant to the Federal Power Marketing 
Program, electric consumers, like the SeFPC members, are responsible 
for repaying (with interest) the federal taxpayer investment of the 
hydropower production component in the Corps' multi-purpose projects. 
Currently, the rates charged by SEPA to preference customers such as 
the SeFPC's members include the hydropower portion of the costs for 
future operation and maintenance (``O&M'') and renewals and replacement 
(``R&R'') activities at these facilities. In turn, these revenues are 
deposited in the Federal Treasury and are used to reimburse 
Congressionally-appropriated funds for O&M and R&R expenses at the 
Corps' hydropower facilities. To date, preference customers have paid 
in SEPA rates over $125 million in excess of the amounts spent on O&M 
and R&R.
    The Administration's fiscal year 2003 Budget Request proposes to 
alter this funding arrangement. Modeled after the Bonneville Power 
Administration's (``BPA'') financial schematic, the Budget calls for 
the direct funding of routine hydropower O&M for the three other 
Federal Power Marketing Administrations, including SEPA, that sell 
power generated at Corps' facilities. This dramatic shift in policy 
necessarily raises a number of questions. However, we will await the 
Administration's legislative proposal before addressing this issue. We 
do, though, have several issues of concern based on the preliminary 
description of this change that is set forth in the Administration's 
Budget Request:
  --It is the SeFPC's understanding that the direct O&M funding for the 
        Corps would be assigned specifically for hydropower, thus 
        prohibiting any reprogramming of the funds. While disallowing 
        the reprogramming of hydropower monies is a positive step, the 
        SeFPC believes that some level of Congressional oversight of 
        the Corps' activities would be appropriate.
  --As drafted, the proposal fails to provide for any customer 
        involvement. Instead, the O&M decisions are made exclusively by 
        the Corps and the relevant PMA. The SeFPC notes that preference 
        customers are in an ideal position to provide advice on 
        prioritizing among the backlog of Corps' projects, as is 
        currently done via the Southeast Alliance. The SeFPC would 
        welcome the opportunity to continue to participate in the 
        selection process.
  --The SeFPC questions how this financial scheme would be funded 
        initially. The BPA has operated under a direct funding 
        arrangement since 1999 and now has a revolving fund for these 
        expenses. In contrast, preference customers may be obligated to 
        advance the O&M money to the Corps and pay O&M costs in SEPA 
        rates. The Customers, then, will experience a double hit. And, 
        as noted above, the Customers have already paid $125 million 
        for O&M and R&R that has not been used for that purpose.
  --The contemplated funding procedure may place an undue accounting 
        and administrative burden on the Customers.
    The Administration's general O&M funding request represents a 4.3 
percent reduction from the prior year. As noted previously, 5.8 million 
SeFPC customers rely on the economic power produced in the Corps' SAD 
and LRD divisions. Any shortfall in hydropower funding means that the 
Corps will not be able to perform necessary O&M work at the aging 
federal hydropower projects, thus placing the long-term reliability of 
the southeastern facilities in jeopardy. If a generating facility 
becomes inoperable as a result of this neglect, SEPA will have to 
purchase market-priced replacement power--the cost of which it will 
seek to recover through future rate increases. Despite having repaid, 
with interest, the federal investment incurred to construct these 
projects through SEPA rates, the Customers and their consumers could be 
forced to incur an over-charge simply because this account was not 
adequately funded.
    In conclusion, a number of details should be worked out before such 
a marked departure from the current standard operating practice of the 
Federal Power Marketing Program in the southeastern United States is 
undertaken--particularly where the change does not involve 
Congressional oversight. Additionally, Congress should ensure 
sufficient funding for the Corps' ongoing O&M costs. For too long, 
customers such as the SeFPC members have been paying for O&M work in 
SEPA funds without receiving the corresponding Congressional 
appropriations. Any alteration in the Corps' O&M funding process should 
correct this costly discrepancy.
                                 ______
                                 
           Prepared Statement of the University of Rochester
Summary and Requested Action
    The inertial confinement fusion (ICF) program is a key element in 
the Department of Energy's (DOE) Stockpile Stewardship Program (SSP) 
authorized by Public Law 103-160 to ``establish a stewardship program 
to ensure the preservation of the core intellectual and technical 
competencies of the United States in nuclear weapons.'' The OMEGA laser 
at the University of Rochester (UR) is the principal laser research 
facility for UR and the three National laboratories (Los Alamos, 
Sandia, and Livermore) for purposes of ICF and SSP experiments. The 
Laboratory for Laser Energetics (LLE) is the only facility that also 
trains significant numbers of graduate students in inertial fusion. The 
OMEGA laser, the highest-power ultraviolet fusion laser in the world, 
is the principal laser facility for SSP activities for DOE in fiscal 
year 2003 and will be for a number of years to come. The Secretary of 
Energy Advisory Board (SEAB) National Ignition Facility Laser System 
Task Force Report noted the importance of continuing scientific contact 
with ``. . . the laser-based research at the University of Rochester.''
    LLE (since 1970) is the only ICF program that has been jointly 
supported by the Federal government, State government, industry, 
utilities, and a university. LLE makes fundamental scientific 
contributions to the National program. The Laboratory transfers 
technology to the public and private sectors through the training of 
graduate students and interactions with industry and other Federal 
laboratories. The Laboratory serves as a National Laser Users' Facility 
benefiting scientists throughout the country.
    LLE's primary ICF mission is to validate the direct-drive option 
for ICF, including ignition and gain on the National Ignition Facility 
(NIF). In addition, DOE proclaimed that OMEGA is also needed to meet 
mission-critical requirements for the indirect-drive ignition plan 
developed by DOE for the NIF, and to conduct experiments to support the 
SSP mission, including some that are classified, in collaboration with 
the National laboratories.
    OMEGA is the only operating facility that can demonstrate the 
scientific potential of direct drive to provide a modest- to high-gain 
energy option for the Nation. For fiscal year 2003, we are also 
requesting funds to add an extended performance capability (EP) on the 
OMEGA facility and funds necessary to develop petawatt technologies. 
The preconceptual design of this extended facility was completed in 
fiscal year 2002. A 500-trillion watt capability will add substantial 
utility to the existing OMEGA facility, enhance our capability to 
perform SSP experiments, test high-gain concepts, and provide a premier 
high-intensity laser-interaction facility in the U.S. Additional 
capabilities on OMEGA are required to support the SSP and high-energy-
density physics programs due to current over subscription of OMEGA and 
future over subscription of the NIF. Concomitantly, since the cost per 
shot on OMEGA is considerably less than that on the NIF and the 
repetition rate is higher by a factor of 4 or greater, many relevant 
experiments can use OMEGA at a significant cost savings to the program. 
Since the OMEGA facility will be the only large laser implosion 
facility for NNSA in the U.S. until at least 2008, it is vital to keep 
its capabilities current to support the National program.
    To provide the support for program deliverables and the operation 
and extension of OMEGA (for both ICF experiments and SSP experiments), 
and to maintain the training programs at Rochester, a total 
authorization and appropriation of $54,200,000 for the University of 
Rochester for fiscal year 2003 is required. This amount includes 
$15,000,000 for the OMEGA extended performance capability and 
$3,000,000 for petawatt technology development.
Background
    Thermonuclear fusion is the process by which nuclei of low atomic 
weights, such as hydrogen, combine to form higher atomic weight nuclei 
such as helium. In this process some of the mass of the original nuclei 
is lost and transformed to energy in the form of high-energy particles. 
Energy from fusion reactions is the most basic form of energy in the 
universe. Our sun and other stars produce energy by thermonuclear 
fusion reactions occurring in their interior. Fusion is also the 
process that provides the vast destructive power of thermonuclear 
weapons.
    To initiate fusion reactions, the fuel must be heated to tens of 
millions of degrees. In ICF the heating and compression of fusion fuel 
occur by the action of intense laser or particle beams. There are two 
approaches to ICF, direct and indirect drive. Indirect drive involves 
the conversion of beam energy to x-rays to compress a fuel capsule in 
an enclosure called a hohlraum. Direct drive involves the direct 
irradiation of a spherical fuel capsule by energy from a laser and is 
generally more efficient energetically than indirect drive. In either 
approach, if very extreme density and temperature conditions are 
produced, it is possible to produce many times more energy in these 
fusion reactions than the energy provided by the drivers.
The OMEGA Extended Performance (EP) Facility at UR/LLE
    The University of Rochester's Laboratory for Laser Energetics (UR/
LLE) is the lead laboratory for direct-drive inertial confinement 
fusion (ICF) and is the location of the OMEGA laser facility. OMEGA is 
currently one of two facilities available to conduct high-energy-
density physics (HEDP) experiments in support of the Nation's Stockpile 
Stewardship Program (SSP). OMEGA and the National Ignition Facility 
(NIF) are designed to support SSP by performing planar-target and 
spherical-implosion experiments at irradiation intensities of 10\15\ to 
10\16\ Watts/cm\2\. At these intensities, a highly compressed core of 
deuterium-tritium fuel can be assembled that, with the full energy of 
NIF, will achieve ignition.
    Existing laser technology also allows high-energy laser systems 
with significantly higher laser intensities, up to 10\20\ Watts/cm\2\, 
to be built. With success in the petawatt technology program these 
intensities can be increased by a factor of ten. The availability of 
such lasers would be very beneficial to the stockpile stewardship and 
fusion energy programs. They also have many exciting basic science 
applications. The establishment of a National high-intensity laser-
matter interaction program would significantly enhance the ability to 
attract and retain the scientific expertise required for the United 
States' nuclear weapons program in the future.
    The UR/LLE proposes to put in place a high-intensity, high-energy 
laser facility with a peak power initially of 5<greek-e>10\14\ Watts 
that could achieve irradiation intensities up to 10\20\ Watts/cm\2\ 
using existing technology. Given success of the National petawatt 
initiative to advance technology, the peak power and irradiation 
intensities could be increased by a factor of ten. This facility would 
then significantly benefit SSP through the ability to produce intense 
photon, proton, and electron beams for radiography and by conducting 
HEDP experiments to test advanced computer codes relevant to nuclear 
weapons, basic science, and astrophysics. Additionally, the 
availability of a short-pulse backlighter source would significantly 
advance ignition physics. Such a facility could test the ``fast 
ignitor'' concept to increase the gain of an ICF target. Should this 
concept prove viable, it would support SSP as well as the inertial 
fusion energy program.
    This extended performance capability on OMEGA is required in 
support of SSP and HEDP programs. Concomitantly, with the delay of the 
NIF this added capability will contribute substantially to the critical 
need to recruit and retain graduate students, postdoctoral associates, 
university faculty members, and National laboratory scientists in areas 
of National need.
    Locating a high-intensity, high-energy facility at UR/LLE offers 
several advantages. Most importantly, since OMEGA is the only facility 
capable of assembling a highly compressed deuterium-tritium core from a 
cryogenic target, it is the only location at which a fully diagnosed, 
integrated ``fast ignitor'' experiment could be conducted. Other 
advantages include: (1) operating synergies with OMEGA will reduce 
operating costs, (2) UR/LLE has an established scientific user base, 
and (3) UR/LLE has a proven track record of delivering similar-sized 
projects on time and on budget and of operating and maintaining large-
scale laser systems.
    The construction time line and cost for this extended capability is 
as follows:

                              [In millions]
------------------------------------------------------------------------
                                                 Fiscal Year--
                                     -----------------------------------
                                        2003     2004     2005     2006
------------------------------------------------------------------------
 Design & Long Lead Procurement.....      $15  .......  .......  .......
Procurement and Assembly............  .......      $25      $25  .......
Integration & Commissioning.........  .......  .......  .......      $13
------------------------------------------------------------------------

                                 ______
                                 
       Prepared Statement of the American Wind Energy Association
  commitment to r&d a crucial factor in achieving wind energy market 
                               potential
 u.s. wind energy industry coming off most successful year in history 
              with nearly $2 billion in economic activity
 more emphasis needed on small wind systems used to power homes, farms 
                          and small businesses
    The American Wind Energy Association \1\ (AWEA) appreciates this 
opportunity to provide testimony for the record on the Department of 
Energy's Fiscal 2003 wind energy program budget before the House 
Appropriations Subcommittee on Energy and Water Development. AWEA's 
testimony addresses the following:
---------------------------------------------------------------------------
    \1\ The American Wind Energy Association, or AWEA, was formed in 
1974. The organization represents virtually every facet of the wind 
industry, including turbine and component manufacturers, project 
developers, utilities, academicians, and interested individuals.
---------------------------------------------------------------------------
Request for the Department of Energy Wind Program: $55 million
    AWEA requests a funding level of $55 million for the wind energy 
program at the Department of Energy (DOE) to support wind energy 
development at the national, state, and local levels. Working in 
conjunction with the U.S. wind industry, power producers, suppliers, 
industrial consumers and residential users, DOE provides important 
technical support, guidance, information, and limited cost-shared 
funding for efforts to explore and develop wind energy resources. 
Moreover, the research and development (R&D) program at DOE is helping 
to support advanced wind energy research that is attracting support 
from major industrial companies. AWEA's fiscal year 2003 budget 
testimony is focused on two areas within the wind program:
            Utility-Scale Wind Development
    This cost-shared DOE/industry partnership program has proven to be 
successful and with modest annual appropriations has been helpful in 
significantly lowering the cost of wind power. In fact, over the past 
twenty years, the cost has been reduced by over 80 percent. The program 
is aimed at further driving down the cost of wind power to a level 
fully competitive with traditional fuel technologies. An important 
emphasis is on developing wind turbines capable of operating in areas 
with lower wind speeds. This would expand wind development potential by 
20 times as well as allow the placement of turbines closer to existing 
transmission lines. In addition to lowering the cost of wind power, R&D 
support is necessary for enhanced wind site forecasting and power 
systems integration.
            Small Wind Systems
    More emphasis on DOE's small wind turbine program (machines rated 
at 100 kilowatts or below) will help achieve greater cost reductions 
and increase the availability of this energy option for homes, farms, 
schools, and businesses.
Overview
    On the heels of its most successful year in history, the U.S. wind 
industry is poised for significant growth. However, important 
challenges lay ahead. For its part, the wind industry continues to work 
to drive down the cost of wind-generated electricity, thereby enhancing 
the competitiveness of the product to electricity providers.
    AWEA appreciates the support the subcommittee has provided to the 
DOE wind program. Last year, the subcommittee significantly raised the 
funding level for the program above the fiscal year 2002 request of the 
Administration. The Administration's fiscal year 2003 Congressional 
Budget request of $44 million for the wind program more closely 
reflects the view of Congress and that of the wind industry.
    The wind energy program at the Department of Energy has a strong 
history of success. Over the last twenty years, the cost of wind energy 
has dropped by more than 80 percent, to a level that is close to 
competitive with traditional energy technologies. Cost shared industry/
government research and development activities at DOE and the National 
Renewable Energy Laboratory (NREL) have played an important role in 
this achievement. Programs such as Wind Powering America have been 
educating interested parties across the country on the benefits of wind 
power.
    Continued investment at DOE in domestic energy alternatives like 
wind power will allow the industry to keep driving down costs and 
improving the efficiency of new wind turbines. Wind energy holds the 
greatest potential of all non-hydro renewables to contribute to our 
energy needs over the next decade.
    Wind energy is positioned to be an important part of the nation's 
energy mix. Wind can be an important component in protecting against 
volatile electricity rates. The costs of a wind plant are primarily up-
front capital costs, thus the price for electricity is stable over the 
life of the plant because the fuel, the wind, is free.
    Investing in domestic, inexhaustible renewable energy technologies 
strengthens our national security, provides rural economic development, 
spurs new high-tech jobs, and helps protect the environment. There are 
no downsides to investing in wind and other renewables.
    Finally, we want to stress the importance of the wind energy 
Production Tax Credit (PTC), which provides a 1.5-cent per kilowatt-
hour credit for electricity produced (the credit is currently 1.7 cents 
adjusted for inflation). A 2-year extension of this tax credit was 
approved with bipartisan support in March 2002 and signed into law by 
the President. The wind industry is seeking a full 5-year extension of 
the credit, in order to provide for more certainty and stability for 
the industry. Legislation calling for a 5-year PTC extension has 
attracted strong bipartisan support in both the House and Senate and is 
included in comprehensive energy policy legislation.
Utility-Scale Wind Development
    The U.S. wind industry achieved unprecedented success in 2001, 
installing a record amount of new generation across 16 states. The 
final tally of 1,695 megawatts (MW), equal to $1.7 billion of economic 
investment, lifted the wind industry's total generating capacity by 
approximately 66 percent over the previous year. Current installed 
capacity nationwide is now 4,261 MW across 26 states, or enough power 
to serve about 1 million average U.S. households.
    By mid-2003, installed wind energy capacity in the United States is 
expected to be upward of 5,000 MW. The states of Texas, Minnesota, 
Oregon, Wyoming and Iowa account for most of the new wind energy 
development. Texas alone accounted for over 900 MW of new development 
in 2001.
    In 2002, development is planned in a number of states, including 
West Virginia, California, Montana, Iowa and Pennsylvania. This new 
development will help spur rural economic development through new 
construction and manufacturing jobs, lease income for landowners, and 
local and county tax payments.
    Cost shared research and development programs at DOE have played a 
key role in the development of wind energy. There is important work to 
be done, however, to continue the momentum the industry has built. For 
instance, the current generation of wind turbines have successfully 
lowered the cost at the best wind sites (Class 5 & 6). However, in 
order for wind to reach its full potential, the industry must penetrate 
areas with moderate wind speeds (Class 3 & 4). Tapping such areas, 
which are often closer to necessary transmission lines, could increase 
the amount of wind development by a factor of 20.
Small Wind Systems (100 kW and below)
    AWEA believes a greater emphasis on small wind turbine research and 
development is needed as the demand for these turbines continues to 
grow. Distributed generation with small customer-sited power plants has 
great potential for reducing energy costs, promoting competition in the 
marketplace, and strengthening the nation's electrical supply network.
    AWEA recognizes that some progress has been made at DOE in the 
small wind turbine program. However, it is vital that additional 
resources be dedicated to programs that will help make small wind 
turbines cost-competitive for homeowners. DOE has significant programs 
for technology development and deployment of other distributed energy 
technologies, but programs for small wind have received little 
attention despite the fact that small wind systems arguably have a 
greater market potential.
    The high up-front costs of small wind systems make it very 
difficult for this technology to gain wide acceptance in the domestic 
market. This would change if DOE had the resources to work with 
America's small wind manufacturers to achieve cost reductions similar 
to those achieved by the large, utility-scale wind industry. In some 
states like California, that provide a state rebate for purchasers, 
small wind turbine manufacturers have experienced a surge in sales, 
demonstrating the public support for cost-effective small wind 
turbines.
    AWEA requests that a Small Wind Turbine Initiative (SWTI) be 
developed at the Department of Energy. Such an initiative would reduce 
the costs of small wind systems for homes, farms, and small businesses 
by promoting deployment leading to higher production volumes, reducing 
market barriers, and improving the technology. SWTI aims to make small 
wind turbines cost effective for an estimated 6-10 million potential 
rural residential users over the next twenty years.
            Additional Funding Request: Renewable Energy Production 
                    Incentive (REPI): $8 million
    AWEA also advocates for additional funding for the Renewable Energy 
Production Incentive (REPI) program as a separate item within the 
Renewable Energy budget. Year-to-year uncertainty regarding funding 
levels for the Renewable Energy Production Incentive (REPI) plays havoc 
with the long-term planning needs of running a municipally owned 
utility. Due to insufficient funds for the program, full payments for 
eligible projects have not been made for a number of years. For this 
reason, AWEA suggests the Congress work with the Department of Energy 
to develop long-range alternatives to annual funding of this program.
    The REPI program, authorized by the Energy Policy Act of 1992, 
encourages municipally owned utilities to invest in renewable energy 
technologies including wind energy systems. REPI permits Department of 
Energy to make direct payments to publicly and cooperatively owned 
utilities at the rate of 1.5 cents per kilowatt-hour for electricity 
generated from wind, solar, geothermal, and biomass projects. Because 
wind energy projects require a two to three year lead-time for 
permitting and construction, it is very important that stable and 
predictable funding be provided.
Conclusion
    Continued investments in wind energy R&D are delivering value for 
taxpayers by developing another domestic energy source that strengthens 
our national security, provides rural economic development, spurs new 
high-tech jobs, and helps protect the environment.
    While the wind industry is coming off a record year in 2001 in 
terms of new generation capacity installed, continued Department of 
Energy wind energy R&D is vital to growing this domestic power source. 
The current debates in Congress regarding energy policy have brought to 
light the important role wind and other renewable energy technologies, 
both utility-scale and small-scale, can play in our nation's energy 
strategy.
    AWEA appreciates the opportunity to provide this testimony to the 
Subcommittee. We would be pleased to answer any questions that may 
arise. Thank you.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, with more than 42,000 members, 
appreciates the opportunity to provide written testimony on the fiscal 
year 2003 budget for the Department of Energy (DOE) science programs.
    The ASM represents scientists working in academic, medical, 
governmental and industrial institutions worldwide. Microbiological 
research is focused on human health and the environment and is directly 
related to DOE programs involving microbial genomics, climate change, 
bioremediation and basic biological processes important to energy 
sciences.
    The scientific enterprise has benefited enormously from the 
investments in the basic sciences made by the DOE Office of Science. 
The DOE Office of Science is the nation's primary supporter of the 
physical sciences and is an essential partner in the areas of 
biological and environmental science research as well as in 
mathematics, computing, and engineering. Furthermore, the Office of 
Science supports a unique system of programs based on large-scale, 
specialized user facilities that bring together working teams of 
scientists focused on such challenges as: global warming, genomic 
sequencing, and energy research. The Office of Science is also an 
invaluable contributor to the scientific programs of the National 
Institutes of Health (NIH) and the National Science Foundation (NSF) 
and supports peer-reviewed, basic research in DOE-relevant areas of 
science in universities and colleges across the United States. These 
cross-disciplinary programs contribute enormously to the knowledge base 
and training of the next generation of scientists while providing 
worldwide scientific cooperation in physics, chemistry, biology, 
environmental science, mathematics, and advanced computational 
sciences.
    The Office of Science will play an increasingly important role in 
the Administration's goal of U.S. energy independence in this decade. 
Many DOE scientific research programs share the common goal of 
producing and conserving energy in environmentally responsible ways. 
Programs include basic research projects in microbiology, as well as, 
extensive development of biotechnological systems to produce 
alternative fuels and chemicals, to recover and improve the refinement 
process of fossil fuels, to remediate environmental problems, and to 
reduce wastes and pollution.
    The Administration's proposed budget for fiscal year 2003 requests 
$22 billion for the DOE overall, an increase of $600 million or 2.7 
percent and $3.3 billion for the Office of Science, an increase of $4 
million over fiscal year 2002. The ASM would like to submit the 
following comments and recommendations for funding levels for research 
in the Biological and Environmental Research (BER) and Basic Energy 
Sciences (BES) programs for fiscal year 2003.
Microbial Genomics Program (MGP)
    The DOE is the lead agency supporting the genomic sequencing of 
non-pathogenic microbes. This sequenced information provides clues into 
how we can design biotechnological processes that will function in 
extreme conditions and potentially solve pressing national priorities, 
such as, biosecurity, global warming, and energy production. The 
Administration has requested $11 million for fiscal year 2003, which is 
essentially flat with fiscal year 2002. In view of the tremendous 
potential of microbial genomic sequencing, the ASM recommends that 
Congress provide $15 million for fiscal year 2003. DOE's role in this 
science frontier needs to be expanded.
    Since microbes power the planet's carbon and nitrogen cycles, clean 
up our wastes, and make important transformations of energy, they are 
an important source of biotechnology products, and are extremely 
valuable for advancing our knowledge of the non-medical microbial 
world. Knowing the complete DNA sequence of a microbe provides 
important keys to the biological capabilities of the organism and is 
the first step in developing strategies to more efficiently detect, 
counteract, use, or reengineer that microbe to address an assortment of 
national issues. The DOE has completed the DNA sequencing of more than 
50 microbes with potential uses in energy, waste cleanup, and carbon 
sequestration. For instance, the recently sequenced Deinococcus 
radiodurans, a bacterium that is extremely resistant to radiation. 
Deinococcus radiodurans could potentially be used in hazardous waste 
clean up at DOE energy facilities that previously relied upon expensive 
decontamination processes.
    The ASM applauds DOE's leadership in recognizing this important 
need in science and endorses expansion of its microbial genome 
sequencing efforts, particularly in using DNA sequencing to learn more 
about the functions and roles of the 99 percent of the microbial world 
that cannot yet be grown in culture.
Genomes To Life Program
    Our world is filled with microorganisms that have evolved on Earth 
over 3.8 billion years and, as suggested by their diversity and range 
of adaptation, have long ago solved many of the nation's energy and 
environmental problems (i.e., energy transformation and carbon 
sequestration). A deeper, genetically based understanding of these 
organisms, culminating in computational models of their function, can 
be used to predict and even modify their functions to address energy 
needs, biothreat reduction, and toxic waste cleanup. The Genomes to 
Life program is on the cutting edge of biology. The ASM strongly 
supports the Administration's funding of the program at $36.7 million 
for fiscal year 2003, an increase of $15 million over fiscal year 2002.
    The Genomes to Life program and others are just beginning to 
demonstrate the potential applications of microorganisms for energy, 
medicine, agriculture, environmental, and national security needs. This 
research will potentially offer new biotechnology solutions to these 
challenges and those of tomorrow. Underlying the potential applications 
of biotechnology for clean energy, mitigating climate change, and 
environmental cleanup is the need for a solid understanding of the 
functions, behaviors and interactions of every biological part (the 
genes and proteins) of a microorganism. If we are to improve the 
productivity of forests, bioremediation agents, biomass crops and 
agricultural systems, it is imperative to understand how these 
biological machines work. This will require a staggering amount of 
expertise across the sciences, new computational capabilities, new 
tools, and new interdisciplinary approaches to genomics research.
    The ASM applauds the bold vision of the Genomes to Life program and 
notes that this represents the kind of interdisciplinary science that 
DOE has done successfully in the past, making use of advanced 
technologies, specialized facilities, teams of scientists, and 
computational power. The ASM also sees this program as the basis for an 
expanded effort to understand more broadly how genomic information can 
be used to understand life at the cellular level and urges Congress to 
fully support this exciting program.
Climate Change Research
    The ASM is pleased to see the Administration's support of Climate 
Change Research continue in its fiscal year 2003 budget. The ASM 
endorses the President's proposed $137 million budget, a 7 percent 
increase over fiscal year 2002. The Society is also supportive of the 
proposed $13.9 million budget for the Ecological Processes section for 
fiscal year 2003, a $1.5 million increase over fiscal year 2002.
    The Climate Change Research subprogram seeks to apply the latest 
scientific knowledge (i.e., genomic, new computational methods) to the 
potential effects of greenhouse gas and aerosol emissions on the 
climate and the environment. This program is DOE's contribution to the 
interagency U.S. Global Change Research Program proposed by President 
Bush in 1989 and codified by Congress in the Global Change Research Act 
of 1990 (Public Law 101-106). This program is vital if science is to 
advance its understanding of the radiation balance between the surface 
of the Earth and the uppermost portions of the atmosphere and how this 
will affect the planet's climate and ecosystems.
    The Ecological Processes portion of the subprogram is focused on 
understanding and simulating the effects of climate and atmospheric 
changes on the biological structure and functioning of planetary 
ecosystems. Research will also identify potential feedbacks from 
changes in the climate and atmospheric composition. This research is 
critical if we are to better understand the changes occurring in our 
ecosystems from increasing levels of atmospheric pollutants.
    The ASM urges Congress to support this important research within 
the Office of Science budget. The Climate Change Research subprogram is 
a key component in developing more accurate climate modeling and 
ecosystem data, and promises to yield new technologies to address 
future climate shifts.
Basic Energy Science
    The Administration's requested funding for the Office of Basic 
Energy Sciences (BES) is $1.02 billion for fiscal year 2003. This 
funding level is a $20 million increase over fiscal year 2002. This 
program is a principal sponsor of fundamental research for the nation 
in the areas of materials sciences, chemistry, geosciences, and 
biosciences as it relates to energy. Program initiatives include 
microbiological and plant sciences focused on harvesting and converting 
energy from sunlight into energy feedstock such as cellulose and other 
products of photosynthesis, as well as how those chemicals may be 
further converted into energy rich molecules such as methane, hydrogen 
and ethanol. Alternative and renewable energy sources will remain of 
strategic importance in the nation's energy portfolio, and DOE is well 
positioned to advance basic research in this area. The advances in 
genomic technologies have given this research area a tremendous new 
resource for advancing the Agency's bioenergy goals.
Bioremediation
    The MGP's research into bioremediative microorganisms' complements 
the research supported by the DOE's Natural and Accelerated 
Bioremediation Program (NABIR) and other DOE bioremediation research 
initiatives. The Administration's proposed budget for the NABIR program 
is $24.7 million, a $2.6 million increase over fiscal year 2002. The 
ASM supports the Administration's request for bioremediation research. 
However, the ASM believes that greater benefits will be achieved if the 
NABIR program is increased to $30 million, which is more consistent 
with the original $40 million plan for the program.
    Bioremediation scientists are searching for cost-effective 
technologies to improve current remediation methods to clean up DOE's 
contaminated sites. This research has the potential to lead to new 
discoveries into reliable methods of bioremediation of metals and 
radionuclides in soils and groundwater. The NABIR program supports the 
basic research that is needed to understand this technology to more 
reliably develop the practical applications for cost-effective cleanup 
of pollutants at DOE sites. The ASM strongly recommends that additional 
funding be allocated to balance the program elements and pollutants 
studied as originally envisioned when the NABIR Program was designed.
New Technologies and Unique Facilities
    New technologies and advanced instrumentation derived from DOE's 
expertise in the physical sciences and engineering have become 
increasingly valuable to biologists. The beam lines and other advanced 
technologies for determining molecular structures of cell components 
are at the heart of current advances to understand cell function and 
have practical applications for new drug design. DOE advances in high 
throughput, low cost DNA sequencing; protein mass spectrometry, cell 
imaging and computational analyses of biological molecules and 
processes are other unique contributions of DOE to the nation's 
biological research enterprise. Furthermore, DOE has unique field 
research facilities for environmental research important to 
understanding biogeochemical cycles, global change and cost-effective 
environmental restoration. In short, DOE's ability to conduct large-
scale science projects and draw on its unique capabilities in physics, 
computation and engineering is critical for future biological research.
    The ASM strongly supports the basic science agenda across the 
scientific disciplines and encourages Congress to maintain its 
commitment to the Department of Energy research programs to maintain 
U.S. leadership in science and technology.
                                 ______
                                 
   Prepared Statement of the Business Council for Sustainable Energy
                              introduction
    The Business Council for Sustainable Energy offers testimony on the 
role it foresees for the Department of Energy's (DOE) renewable and 
distributed energy research, development, demonstration and deployment 
programs.
    The Council was formed one decade ago by businesses and industry 
trade associations sharing a commitment to achieve our nation's 
economic, environmental and national security goals through the rapid 
deployment of clean and efficient natural gas, energy efficiency and 
renewable energy technologies. Our members range in size from Fortune 
500 enterprises to small entrepreneurial companies, to national and 
international trade associations.
    We thank the Committee for its exceptional work crafting the fiscal 
year 2002 appropriations bill and generally compliment the 
Administration for its fiscal year 2003 proposals. The trend is for the 
most part positive and it is critical that it continue so that American 
energy security will be put under the control of American technology 
and taken out of the hands of potentially unreliable international 
energy suppliers.
               a federal commitment to energy is critical
    Although circumstances now appear radically different from those of 
a year ago, we are in fundamentally the same situation from an energy 
security perspective; the reality has only become that much more stark. 
While blackouts and price swings have abated, our revived economy may 
prompt their return. Furthermore, the events of September 11 renewed 
attention on energy security in a way that was completely unimaginable. 
The importance of energy security, due to our domestic and 
international vulnerabilities, now claims great interest.
            federal programs to promote renewable resources
    The Council has long recognized that the market, not the U.S. 
government, makes energy supply choices. Unfortunately, foreign 
governments are in a position to make energy supply choices for us, and 
the reality is that energy technology and infrastructure cannot be 
developed overnight. Like our military, in order to have an option 
available when the need arises, we may only count on those resources we 
had the foresight to prepare ahead of time. The ability to have a 
secure, affordable and clean supply of energy to drive our economy 
comes from a sustained commitment by industry and the federal 
government to research, develop and deploy appropriate technologies. 
Countless risks arise all throughout this process, most of which are 
borne by industry; however, there are points at which governmental 
support is most appropriate, effective and critical.
                              solar energy
    We are pleased that the Administration has become aware, as this 
Committee already knew, of the promise of solar technologies. That 
comports with the attitude of the American public, where recent 
nationwide media polls found 84 to 91 percent of respondents favor 
increased funding for solar power development.
    It's critical for the cost-shared programs to receive adequate 
funding. The Administration, with the exception of concentrating solar 
power, has made great progress in the last year in its recognition of 
the value of solar energy programs and for that it deserves accolades.
Concentrating Solar Power
    The one disappointing aspect of the Administration's solar energy 
budget proposal is its continued failure to see the promise of 
concentrating solar power technology. CSP received a strong peer review 
and Congressional direction in the fiscal year 2002 energy and water 
appropriations bill to produce a report on how 1,000 MW of CSP in the 
Southwest received support from Governors Jane Dee Hull of Arizona, 
Kenny C. Guinn of Nevada, and Gary E. Johnson of New Mexico on behalf 
of the Western Governors Association.
    To effectively support this program, we recommend a $25 million 
appropriation, with half of that amount being devoted to support the 
1,000 MW initiative in the Southwest.
Photovoltaics
    This technology utilizes silicon to convert sunlight directly into 
electricity. Vigorous research has cut costs in half since 1995. On the 
horizon is the potential to halve costs yet again, making photovoltaic-
produced electricity competitive with other distributed electricity 
generation options in the U.S.
    We request a total of $100 million for photovoltaic programs, 
including at least $11 million for the PVMat program (Advanced 
Manufacturing R&D), $2 million for BiPV, and $18.5 million for Thin 
Films.
The Zero Energy Building Initiative
    The Administration endorsement of the Zero Energy Buildings program 
in this budget is particularly exciting and something the Council 
strongly supports because this program spans a range of solar and 
energy efficiency technologies including integrated solar thermal and 
solar absorption cooling systems, photovoltaics, fuel cells and smart 
inverters and controls. The ZEB program is a multifaceted technology 
integration effort to create buildings that generate as much energy as 
they consume. The seeds to a longterm solution to our nation's energy 
and environmental challenges are germinating in this dynamic research 
program. We request $15 million for this program.
                                  wind
    Utility-scale wind energy reported its single best year of growth 
in 2001, which saw just short of 1,700 MW of new capacity installed. 
This doubles the previous record year of 1999. The success of this 
industry is a testament to industry and government working together. 
Research continues to create more efficient and economical turbines, 
increasing output in the best wind locations and opening up other 
regions to wind power production. What was once a day long trip to see 
is now a scant two-hour drive from the Capitol, where one can witness 
wind turbines generating electricity along the Pennsylvania Turnpike in 
Somerset County.
    Wind energy technology continues to advance, soon to make wind 
capable of providing cost-competitive electricity in more than the five 
percent of potential sites where it is competitive today. To do so, 
federal support is critical. For overall wind energy programs, the 
Council is asking for $55 million in funding.
    Demand for small wind turbines also continue to grow. Companies 
like Bergey Windpower, a Council member and manufacturer of small wind 
systems serving the distributed generation market for rural homes and 
facilities, are still working overtime to satisfy orders from 
electricity-starved regions. These distributed generation systems have 
great potential to reduce energy costs, promote competition and 
strengthen the electrical grid.
    DOE has significant programs for many technologies but not for 
small wind. A Small Wind Turbine Initiative (SWTI) would reduce the 
costs of small wind systems for homes, farms, and small businesses by 
promoting deployment that would lead to higher production volumes, 
reducing market barriers and improving the technology. SWTI aims to 
make small wind turbines cost-effective for an estimated six million to 
ten million potential rural residential users, opening a potential 
market of thousands of megawatts that could make small wind a major 
contributor to our domestic energy supply.
                           geothermal energy
    The Council supports federal programs directed at taking advantage 
of geothermal resources. California today receives six percent of its 
electricity from geothermal resources and the western United States 
could realize nearly 20,000 megawatts of electrical and thermal energy 
using enhanced geothermal technology. That would represent a tripling 
of today's output, and would satisfy the needs of 18 million residents. 
The Council requests an increase to $45 million in geothermal funding 
in fiscal year 2003.
                                hydrogen
    The Council supports federal hydrogen programs and the inclusion of 
alkaline fuel cells in the hydrogen program.
                      distributed energy resources
    Reliable, on-site generated power continues to increase in its 
importance as more and more manufacturing processes and information 
technologies become dependent upon a continuous supply of high-quality 
power. Whether energy is produced by microturbines, reciprocating 
engines, fuel cells or other gas-fueled systems or by renewable energy 
technologies, challenges to widespread deployment remain. Some of these 
technologies need further refinement, while all need federal 
intervention in the development of interconnect standards to gain 
access to the electricity grid. Also, many of these technologies 
benefit from integration into energy delivery systems, a challenge not 
undertaken within individual technology development programs. In 
essence, despite the pull from the marketplace, the federal role 
remains strong.
    The DER program is significantly under-funded. The Office of Power 
Technologies receives nearly ten solicitation applications for every 
award it makes. While more manufacturers are entering the market, 
significant RD&D requirements abound. DER provides the opportunity for 
more efficient use of waste heat to achieve total system efficiency 
levels as high as 80 percent. Further, the higher efficiency of DER 
systems inherently leads to lower emissions since they typically use 
cleaner feedstock fuels than many central power plants.
    The national economy is inextricably linked to information and 
electronically sensitive computer systems that require uninterruptible 
power that the 50+ year old electric grid is increasingly challenged to 
serve. Many utilities are now exploring the utilization of DER to 
reduce the strain on congested transmission systems. On-site DER 
systems are especially important for high-tech and mission-critical 
facilities as they offer dramatic power quality and reliability 
increases. Mission-critical systems, be it in high-tech, healthcare, 
manufacturing or government facilities, are enhanced by DER.
    We are very supportive of the modest $7.5 million proposal for 
proton membrane exchange fuel cell program within the Office of Power 
Technologies. We highlight the need for these resources to be 
concentrated toward the research needs to develop a robust and reliable 
power generation unit.
    Collectively, tremendous work remains in the areas of system 
development, advanced batteries, smart controls and sensors, power 
quality and reliability, storage, and interconnection. DOE has studied 
the technical, regulatory, market and institutional barriers to 
widespread utilization of DER, is working in partnership with industry 
to advance the state of the art of these technologies and is working to 
promote commercial acceptance.
                 renewable energy production incentive
    We respectfully request that the program be funded at a level that 
at least approaches that needed to cover currently authorized 
expenditure, approximately $40 million. The $4 million Administration 
request for fiscal year 2003 will for the first time not even fully 
fund the tier 1 projects, solar and wind. That means that it would not 
cover any of the tier 2 renewable energy projects such as a county 
landfill gas-to-energy project. Last year, these tier 2 projects 
received less than 10 percent of the amount that a plain reading of 
Title XII, section 1212 of the Energy Policy Act of 1992 clearly 
intends.
    Municipally owned utilities like the Sacramento Municipal Utility 
District, Los Angeles Department of Water and Public Works and others 
read the words in Section 1212 as they pondered the economics of 
important public energy projects. Full funding of REPI in fiscal year 
2003 will begin a rebuilding of confidence and stability in federal 
incentives for responsible, local, renewable energy projects.
                        international activities
    Finally, the Council supports federal programs designed to help 
open international markets for renewable energy technologies. 
Competition in rapidly growing developing country markets is intense; 
U.S. renewables manufacturers face the dual obstacles of competition 
from conventional energy sources and foreign renewables manufacturers 
often buoyed by government assistance.
    Our participation in international markets is more critical than 
ever. Over two billion people in the world lack a reliable supply of 
electricity. Growth in developing nations will take their energy use 
levels above that of the industrialized nations within two decades, 
with an anticipated expenditure of $4 trillion to $5 trillion. 
Traditionally, most ``new'' environmentally friendly and efficient 
technologies are not the first choice of decision-makers in these 
markets. With encouragement and bureaucratic streamlining, however, 
U.S. clean energy exports could easily double in less then five years, 
resulting in up to $5 billion in export revenues and 100,000 new 
American jobs.
    The Council is extremely supportive of funding for international 
energy programs and urges that funding not come at the expense of 
existing research, development and deployment programs. Beyond the 
benefit to U.S. exports, these technologies can help ensure 
international economic and political stability and enhance our national 
security by meeting the profound needs of these countries.
                               conclusion
    A variety of energy options is needed to create energy security and 
ensure our economic and environmental integrity. With a full slate of 
choices, choices in part aided by research and development supported by 
the Department of Energy, the marketplace will be able to select the 
most appropriate solutions to meet specific needs, take American energy 
security out of the hands of overseas suppliers of questionable 
reliability and reduce our domestic infrastructure vulnerabilities.
    The Council strongly urges the Congress to continue its support of 
federal research, development, demonstration and deployment programs 
for renewable and distributed energy technologies. By adopting a robust 
budget, Congress can demonstrate its genuine commitment to the nation 
throughout this critical time.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Energy and Water Development.
    UCAR is a consortium of 66 universities that manage and operate the 
National Center for Atmospheric Research (NCAR) and additional programs 
that support and extend the country's scientific research and education 
capabilities. The UCAR mission is to support, enhance, and extend the 
capabilities of the university community, nationally and 
internationally; to understand the behavior of the atmosphere and 
related systems and the global environment; and to foster the transfer 
of knowledge and technology for the betterment of life on earth. In 
addition to its member universities, UCAR has formal relationships with 
approximately 100 additional undergraduate and graduate schools 
including several historically black and minority-serving institutions, 
and 40 international universities and laboratories. UCAR is supported 
by the National Science Foundation (NSF) and other federal agencies 
including the Department of Energy (DOE).
                         doe office of science
    DOE is the fourth largest supporter of basic research in the 
federal government. The programs and national user facilities of the 
agency's Office of Science are vital to the nation's basic research 
investment across all disciplines in the natural and physical sciences. 
These yield both short-term benefits and future advances in 
environmental research, basic computing and physics research, energy 
supply, homeland security, and educational growth. For fiscal year 
2003, UCAR joins the Association of American Universities and the 
Energy Sciences Coalition in urging the Committee to support an 
increase of 9.1 percent, or $300 million, for DOE's Office of Science, 
for a total of $3.58 billion.
    Within the Office of Science, the Biological and Environmental 
Research (BER) program develops the knowledge necessary to identify, 
understand, and anticipate the potential health and environmental 
consequences of energy production and use. These are issues that are 
absolutely critical to our country's well-being and security, yet the 
program's request is down 11.6 percent from the fiscal year 2002 
enacted level of $570.3 million. I urge the Committee, in following the 
recommendation made above for the Office of Science, to increase BER's 
allocation by 9.1 percent, for a total of $622.2 million. I would like 
to comment on the following programs within DOE's Office of Science 
that are of particular importance to the work of the atmospheric 
sciences community:
  biological and environmental research (ber) climate change research 
                               subprogram
    Critical to our nation's health, well-being, and security is BER's 
responsibility to develop the knowledge needed to understand and 
anticipate the long-term environmental consequences of energy 
production, development and use; and to develop creative solutions to 
related environmental challenges including climate change. Much of the 
funding for this research is provided to the country's universities and 
laboratories through a peer-reviewed, competitive process that ensures 
the highest possible caliber of work. BER's Climate Change Research 
subprogram (previously the Environmental Processes subprogram) will 
contribute to the reduction and resolution of key uncertainties. I urge 
the Committee to support at least the Climate Change Research 
Subprogram request of $137.9 million, a 7.0 percent increase over the 
fiscal year 2002 budget.
    The subprogram's following components are of great importance in 
DOE's contribution to the multi-agency U.S. Global Change Research 
Program:
Climate Modeling
    BER's Climate Modeling effort, within the subprogram's Climate and 
Hydrology program, improves the capacity to produce long-term climate 
change scenarios for climate change research and assessment purposes. 
Some of the remaining mysteries of climate change prediction include 
the roles played by clouds, evaporation, precipitation, and surface 
energy exchange, all of which are addressed by the Climate Modeling 
program. This work is of great importance to our understanding of the 
manner in which climate change, natural or otherwise, affects specific 
areas of the country with ramifications to local environmental and 
economic systems. The proposed funding of $27.2 million for Climate 
Modeling in fiscal year 2003 reflects flat funding and is insufficient 
to cover inflation, much less make the advances that are necessary and 
possible. I urge the Committee to appropriate an amount of at least 
$29.0 million, a 7.0 percent increase, for Climate Modeling within BER.
Atmospheric Radiation Measurement (ARM) Program
    ARM, funded within the subprogram's Climate and Hydrology program, 
contributes to determining the role of clouds in climate change and 
addresses the interaction of solar energy with water vapor and aerosols 
as they affect the atmospheric radiative balance that drives the 
climate system. ARM data are critical to the improvement of General 
Circulation Models (GCMs), which simulate the global atmosphere and 
enable us to understand and predict changes in global and regional 
temperature and precipitation patterns that result from both 
anthropogenic and natural influences. ARM supports the work of many 
university principal investigators and makes possible interactions and 
collaborative work with DOE National Laboratories and scientists at 
NASA, NOAA, and DOD. To facilitate the transfer of ARM research to 
premier modeling centers, the ARM program supports scientific 
``Fellows'' at the National Center for Atmospheric Research, NOAA and a 
European center. Requested fiscal year 2003 funding for ARM Research is 
$13.3 million, exactly the same amount as the fiscal year 2002 level. 
The request for ARM Infrastructure to support the three ARM sites and 
instrumentation is $31.4 million, a much-needed 14 percent increase. I 
urge the Committee to increase the level for ARM Research to $14.3 
million, or a 7.0 percent increase, and to support the $31.4 million 
request for ARM Infrastructure.
Atmospheric Chemistry and Carbon Cycle
    BER's Atmospheric Chemistry and Carbon Cycle programs support 
research at university, DOE, and non-DOE laboratories across the 
country to provide information on the atmospheric environment that is 
critical for long-range energy planning. DOE's carbon cycle research 
explores movement of carbon on a global scale and is key to 
understanding the sources and sinks of carbon both in terrestrial and 
ocean systems. The agencies of DOE, NOAA, NSF, and EPA have a 
coordinated strategy to work toward completing our knowledge of the 
carbon cycle. One of the especially important aspects of the DOE carbon 
cycle program is its support of long-term measurement sites and data 
holdings that are used by climate change researchers around the world. 
Proposed overall funding for this critical work appears to receive 
$37.7 million, an 8.9 percent increase over fiscal year 2002. However, 
essentially all of this increase comes from the addition of the 
Administration's Climate Change Research Initiative mentioned below. 
This means that the request for Atmospheric Chemistry and Carbon Cycle 
is flat. I urge the Committee to support a real increase of at least 7 
percent for Atmospheric Chemistry and Carbon Cycle for a total of $39.9 
million.
Climate Change Research Initiative (CCRI)
    In fiscal year 2003, the Administration will institute the CCRI as 
part of a new interagency effort, the DOE portion of which is to be 
funded within BER's Atmospheric Chemistry and Carbon Cycle program. 
CCRI deliverables will be targeted at information of strategic use to 
policy-makers, such as more reliable predictions of what the future 
climate would be under different greenhouse forcing scenarios and how 
much climate and land use changes will affect natural sources and sinks 
of carbon. DOE will participate in one of the specific research areas: 
understanding the North American Carbon Cycle (with NOAA, NSF, and 
USDA), which is identified as a priority need in the interagency Carbon 
Cycle Science Plan. I urge the Committee to support the establishment 
of the Climate Change Research Initiative, to enable to the fullest 
extent possible CCRI enhancement of and collaboration with USGCRP 
research, and to support the Initiative's needed growth in years to 
come in order to provide continuous knowledge and guidance that 
contributes to the nation's security and well-being.
Human Interactions--Global Change Education
    BER's Global Change Education program performs a great service for 
the atmospheric sciences community by joining with the NSF and other 
agencies to support students involved in the UCAR-managed program, 
Significant Opportunities in Atmospheric Research and Science (SOARS). 
SOARS, recipient of one of this year's Presidential Award for 
Excellence in Science, Math, and Engineering Mentoring, is a four-year 
graduate and undergraduate program for students pursuing careers in the 
atmospheric and related sciences. In its relatively short history, 
SOARS has already increased the number of under-represented students in 
this scientific area by a significant percentage. I would like the 
Committee to be aware that BER's Climate Change Research program is 
contributing to the SOARS effort to ensure that tomorrow's scientific 
workforce reflects the diversity of our citizenry and provides 
opportunity to all students.
             advanced scientific computing research (ascr)
    DOE's ASCR provides advances in computer science and the 
development of specialized software tools that are necessary to 
research the major scientific question being addressed by the Office of 
Science. ASCR's continued progress is of particular importance to 
atmospheric scientists involved with complex climate model development, 
research that takes enormous amounts of computing power. By their very 
nature, problems dealing with the interaction of the earth's systems 
and global climate change cannot be solved by traditional laboratory 
approaches. Of particular importance to the U.S. National Assessment 
effort in global change is ASCR's critical contribution to the multi-
agency effort to develop the Coupled Parallel Climate Model (PCM) and 
its successor, the Community Climate System Model (version 2.0). I urge 
the Committee to support the request of $169.6 million, an 8 percent 
increase, for ASCR in fiscal year 2003.
    On behalf of UCAR and the atmospheric sciences research community, 
I want to thank the Committee for the important work you do for U.S. 
scientific research. We appreciate your attention to the 
recommendations of our community concerning the fiscal year 2003 budget 
of the Department of Energy.
                                 ______
                                 
                             WATER PROGRAMS
Prepared Statement of the Santa Clara Valley Water District, San Jose, 
                               California
                        guadalupe river project
    Background.--The Guadalupe River is a major waterway flowing 
through a highly developed area of San Jose, in Santa Clara County, 
California. A major flood would damage homes and businesses in the 
heart of Silicon Valley. Historically, the river has flooded downtown 
San Jose and the community of Alviso. According to the U.S. Army Corps 
of Engineers (Corps) 2000 Final General Reevaluation & Environmental 
Report for Proposed Project Modifications, estimated damages from a 1 
percent flood in the urban center of San Jose are over $575 million. 
The Guadalupe River overflowed in February 1986, January 1995, and 
March 1995, damaging homes and businesses in the St. John and Pleasant 
Street areas of downtown San Jose. In March 1995, heavy rains resulted 
in breakouts along the river that flooded approximately 300 homes and 
business.
    Project Synopsis.--In 1971, the local community requested that the 
Corps reactivate its earlier study. Since 1972, substantial technical 
and financial assistance have been provided by the local community 
through the Santa Clara Valley Water District in an effort to 
accelerate the project's completion. To date, more than $85.8 million 
in local funds have been spent on planning, design, land purchases, and 
construction in the Corps' project reach.
    The Guadalupe River Project received authorization for construction 
under the Water Resources Development Act of 1986; the General Design 
Memorandum was completed in 1992, the local cooperative agreement was 
executed in March 1992, the General Design Memorandum was revised in 
1993, construction of the first phase of the project was completed in 
August 1994, construction of the second phase was completed in August 
1996. Project construction was temporarily halted due to environmental 
concerns.
    To achieve a successful, long-term resolution to the issues of 
flood protection, environmental mitigation, avoidance of environmental 
impacts, and project maintenance costs, a multi-agency ``Guadalupe 
Flood Control Project Collaborative'' was created in 1997. A key 
outcome of the collaborative process was the signing of the Dispute 
Resolution Memorandum in 1998, which resolved major mitigation issues 
and allowed the project to proceed. A joint General Reevaluation Report 
& Environmental Report was developed to address project modifications 
and the environmental effects for public review. Response to public 
comments was documented in the final report which was approved by 
Brigadier General John Griffin, Corps Director of Civil Works, on 
November 16, 2001. General Griffin also signed the Record of Decision. 
Completion of the last phase of flood protection construction is 
estimated in 2004 and is dependent on timely federal funding.
    Fiscal Year 2002 Funding.--$8 million was appropriated in fiscal 
year 2002 to continue Guadalupe River Project construction.
    Fiscal Year 2003 Funding Recommendation.--Based upon the need to 
continue construction to provide critical flood protection for downtown 
San Jose and the community of Alviso, it is requested that the 
Congressional Committee support an appropriation add-on of $15 million, 
in addition to the $5 million in the Administration's fiscal year 2003 
budget, for a total of $20 million to continue construction of the 
final phase of the Guadalupe River Flood Protection Project.
                          llagas creek project
    Background.--The Llagas Creek Watershed is located in southern 
Santa Clara County, California, serving the communities of Gilroy, 
Morgan Hill and San Martin. Historically, Llagas Creek has flooded in 
1937, 1955, 1958, 1962, 1963, 1969, 1982, 1986, 1996, 1997, and 1998. 
The 1997 and 1998 floods damaged many homes, businesses, and a 
recreational vehicle park located in areas of Morgan Hill and San 
Martin. These are areas where flood protection is proposed. Overall, 
the proposed project will protect the floodplain from a 1 percent flood 
affecting more than 1,100 residential buildings, 500 commercial 
buildings, and 1,300 acres of agricultural land.
    Project Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 566), the Natural Resources 
Conservation Service completed an economic feasibility study in 1982 
for constructing flood damage reduction facilities on Llagas Creek. The 
Natural Resources Conservation Service completed construction of the 
last segment of the channel for Lower Llagas Creek in 1994, providing 
protection to the project area in Gilroy. The U.S. Army Corps of 
Engineers (Corps) is currently updating the 1982 environmental 
assessment work and the engineering design for the project areas in 
Morgan Hill and San Martin. The engineering design is being updated to 
protect and improve creek water quality and to preserve and enhance the 
creek's habitat, fish, and wildlife while satisfying current 
environmental and regulatory requirement. Significant issues include 
the presence of additional endangered species including the red-legged 
frog and steelhead, listing of the area as probable critical habitat 
for steelhead, and more extensive riparian habitat than were considered 
in 1982.
    Until 1996, the Llagas Creek Project was funded through the 
traditional Public Law 566 federal project funding agreement with the 
Natural Resources Conservation Service paying for channel improvements 
and the District paying local costs including utility relocation, 
bridge construction, and right of way acquisition. Due to the steady 
decrease in annual appropriations for the Public Law 566 construction 
program since 1990, the Llagas Creek Project has not received adequate 
funding from U.S. Department of Agriculture to complete the Public Law 
566 project. To remedy this situation, the District worked with 
congressional representatives to transfer the construction authority 
from the Department of Agriculture to the Corps under the Water 
Resources Development Act of 1999 (Section 501). Since the transfer of 
responsibility to the Corps, the District has been working the Corps to 
complete the project.
    Fiscal Year 2002 Funding.--$500,000 was appropriated in fiscal year 
2002 for the Llagas Creek Flood Protection Project for planning and 
design.
    Fiscal Year 2003 Funding Recommendation.--Based upon the high risk 
of flood damage from Llagas Creek, it is requested that the 
Congressional Committee support an appropriation add-on of $650,000, in 
addition to the $225,000 in the Administration's fiscal year 2003 
budget, for a total of $875,000 for planning and environmental updates 
for the Llagas Creek Project.
                      coyote creek watershed study
    Background.--Coyote Creek drains Santa Clara County's largest 
watershed, an area of more than 320 square miles encompassing most of 
the eastern foothills, the City of Milpitas, and portions of the Cities 
of San Jose and Morgan Hill. It flows northward from Anderson Reservoir 
through more than 40 miles of rural and heavily urbanized areas and 
empties into south San Francisco Bay.
    Prior to construction of Coyote and Anderson Reservoirs, flooding 
occurred in 1903, 1906, 1909, 1911, 1917, 1922, 1923, 1926, 1927, 1930 
and 1931. Since 1950, the operation of the reservoirs has reduced the 
magnitude of flooding, although flooding is still a threat and did 
cause damages in 1982, 1983, 1986, 1995, and 1997. Significant areas of 
older homes in downtown San Jose and some major transportation 
corridors remain susceptible to extensive flooding. The federally-
supported lower Coyote Creek Project (San Francisco Bay to Montague 
Expressway) which was completed in 1996 did protect homes and 
businesses from storms which generated of record runoff in the northern 
parts of San Jose and Milpitas.
    The proposed Reconnaissance Study would evaluate the reaches 
upstream of the completed federal flood protection works on lower 
Coyote Creek.
    Objective of Study.--The objectives of the Reconnaissance Study are 
to investigate flood damages within the Coyote Creek Watershed; to 
identify potential alternatives for alleviating those damages which 
also minimize impacts on fishery and wildlife resources, provide 
opportunities for ecosystem restoration, provide for recreational 
opportunities; and to determine whether there is a Federal interest to 
proceed into the Feasibility Study Phase.
    Study Authorization.--The existing study authority is the 1941 
Guadalupe River and Adjacent Streams authorization. This authorization 
is limited in scope to flood protection issues only. Congressional 
representatives are currently pursuing an updated study resolution to 
authorize a multipurpose study of the watershed.
    Fiscal Year 2002 Funding.--No federal funding was received in 
fiscal year 2002.
    Fiscal Year 2003 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $100,000 to 
initiate a multipurpose Reconnaissance Study within the Coyote Creek 
Watershed.
  san jose area water reclamation and reuse program (south bay water 
                           recycling program)
    Background.--The San Jose Area Water Reclamation and Reuse Program, 
also known as the South Bay Water Recycling Program, will allow the 
City of San Jose and its tributary agencies of the San Jose/Santa Clara 
Water Pollution Control Plant to protect endangered species habitat, 
meet receiving water quality standards, supplement Santa Clara County 
water supplies, and comply with a mandate from the U.S. Environmental 
Protection Agency and the California Water Resources Control Board to 
reduce wastewater discharges into San Francisco Bay.
    The Santa Clara Valley Water District (District) collaborated with 
the City of San Jose to build the first phase of the recycled water 
system by providing financial support and technical assistance, as well 
as coordination with local water retailers. The design, construction, 
construction administration, and inspection of the program's 
transmission pipeline and Milpitas 1A Pipeline was performed by the 
District under contract to the City of San Jose.
    Status.--The City of San Jose is the program sponsor for Phase 1, 
consisting of almost 60 miles of transmission and distribution 
pipelines, pump stations, and reservoirs. Completed at a cost of $140 
million, Phase 1 began partial operation in October 1997. Peak 
operation occurred in August 2000 with actual deliveries of 10 million 
gallons per day of recycled water. The system now serves over 300 
customers and delivers over 6,000 acre-feet of recycled water per year.
    Phase 2 is now underway. In June 2001, San Jose approved an $82.5 
million expansion of the program. The expansion includes additional 
pipeline extensions into the cities of Santa Clara and Milpitas, a 
major pipeline extension into Coyote Valley in south San Jose, and 
reliability improvements of added reservoirs and pump stations. The 
District and the City of San Jose executed an agreement in February 
2002 to cost share on the pipeline into Coyote Valley and discuss a 
long-term partnership agreement on the entire system. Phase 2's near-
term objective is to increase deliveries by the year 2010 to 15,000 
acre-feet per year.
    Funding.--In 1992, Public Law 102-575 authorized the Bureau of 
Reclamation to work with the City of San Jose and the District to plan, 
design, and build demonstration and permanent facilities for reclaiming 
and reusing water in the San Jose metropolitan service area. The City 
of San Jose reached an agreement with the Bureau of Reclamation to 
cover 25 percent of Phase 1's costs, or approximately $35 million; 
however, federal appropriations have not reached the authorized amount. 
To date, the program has received $23 million of the $35 million 
authorization.
    Fiscal Year 2002 Funding.--$4 million was appropriated in fiscal 
year 2002 for project construction.
    Fiscal Year 2003 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $8 million, 
in addition to the $2 million in the Administration's fiscal year 2003 
budget, for a total of $10 million to fund the Phase 2 study and work.
                     upper guadalupe river project
    Background.--The Guadalupe River is one of two major waterways 
flowing through a highly urbanized area of Santa Clara County, 
California, the heart of Silicon Valley. Historically, the river has 
flooded the central district and southern areas of San Jose. According 
to U.S. Army Corps of Engineers (Corps) 1998 feasibility study, severe 
flooding in the upper Guadalupe River's densely populated residential 
floodplain south of Interstate 280 would result from a 100-year 
flooding event and potentially cause $280 million in damages.
    The probability of a large flood occurring before implementation of 
flood prevention measures is high. The upper Guadalupe River overflowed 
in March 1982, January 1983, February 1986, January 1995, March 1995, 
and February 1998, causing damage to several residences and businesses 
in the Alma Avenue and Willow Street areas. The 1995 floods in January 
and March, as well as in February 1998, closed Highway 87 and the 
parallel light-rail line, a major commute artery.
    Project Synopsis.--In 1971, the Santa Clara Valley Water District 
(District) requested the Corps to reactivate its earlier study. From 
1971 to 1980, the Corps established the economic feasibility and 
federal interest in the Guadalupe River only between Interstate 880 and 
Interstate 280. Following the 1982 and 1983 floods, the District 
requested that the Corps reopen its study of the upper Guadalupe River 
upstream of Interstate 280. The Corps completed a reconnaissance study 
in November 1989, which established an economically justifiable 
solution for flood protection in this reach. The report recommended 
proceeding to the feasibility study phase, which began in 1990. In 
January 1997, the Corps determined that the National Economic 
Development Plan would be a 2 percent or 50-year level of flood 
protection rather than the 1 percent or 100-year level. The District 
strongly emphasized overriding the National Economic Development Plan 
determination, providing compelling reasons for using the higher 1 
percent or 100-year level of protection. In 1998, the Acting Secretary 
of the Army did not concur to change the basis of cost sharing from the 
50-year National Economic Development Plan to the locally preferred 
100-year plan, resulting in a project that will provide less flood 
protection, and therefore, be unable to reduce flood insurance 
requirements and reimbursements, as well as eliminate recreational 
benefits and increase environmental impacts. Based on Congressional 
delegation requests, the Assistant Secretary of the Army directed the 
Corps to revise the Chief's Report to reflect more significant federal 
responsibility. The Corps feasibility study determined the cost of the 
locally preferred 100-year plan is $153 million and the Corps National 
Economic Development Plan 50-year plan is $98 million. The District has 
requested that the costs of providing 50-year and 100-year flood 
protection be analyzed again during the preconstruction engineering 
design phase for the determination of the National Economic Development 
Plan. In a memorandum for the Assistant Secretary of the Army, dated 
October 12, 2000, Major General Hans A. Van Winkle, Deputy Commander 
for Civil Works, made a similar recommendation. The federal cost share 
has yet to be determined. The project was approved for construction by 
the Water Resources Development Act of 1999 (Section 101).
    Fiscal Year 2002 Funding.--$300,000 was appropriated in fiscal year 
2002 for the Upper Guadalupe River Project to continue preconstruction 
engineering and design.
    Fiscal Year 2003 Funding Recommendation.--Based upon the high risk 
of flood damage from the upper Guadalupe River and the need to complete 
preconstruction engineering and design, it is requested that the 
Congressional Committee support an appropriation add-on of $2 million 
in fiscal year 2003 to complete preconstruction engineering and design 
for the Upper Guadalupe River Flood Protection Project.
                     upper penitencia creek project
    Background.--The Upper Penitencia Creek Watershed is located in 
northeast Santa Clara County, California, near the southern end of the 
San Francisco Bay. In the last two decades, the creek has flooded in 
1980, 1982, 1983, 1986, 1995, and 1998. The January 1995 flood damaged 
a commercial nursery, a condominium complex, and a business park. The 
February 1998 flood also damaged many homes, businesses, and surface 
streets.
    The proposed project on Upper Penitencia Creek, from the Coyote 
Creek confluence to Dorel Drive, will protect portions of the cities of 
San Jose and Milpitas. The floodplain is completely urbanized; 
undeveloped land is limited to a few scattered agricultural parcels and 
a corridor along Upper Penitencia Creek. Based on the U.S. Army Corps 
of Engineers' (Corps) 1995 reconnaissance report, 4,300 buildings in 
the cities of San Jose and Milpitas are located in the flood prone 
area, 1,900 of which will have water entering the first floor. The 
estimated damages from a 1 percent or 100-year flood exceed $121 
million.
    Study Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 83-566), the Natural Resources 
Conservation Service completed an economic feasibility study (watershed 
plan) for constructing flood damage reduction facilities on Upper 
Penitencia Creek. Following the 1990 U.S. Department of Agriculture 
Farm Bill, the Natural Resources Conservation Service watershed plan 
stalled due to the very high ratio of potential urban development flood 
damage compared to agricultural damage in the project area.
    In January 1993 the Santa Clara Valley Water District (District) 
requested the Corps proceed with a reconnaissance study in the 1994 
fiscal year while the Natural Resources Conservation Service plan was 
on hold. Funds were appropriated by Congress for fiscal year 1995 and 
the Corps started the reconnaissance study in October 1994. The 
reconnaissance report was completed in July 1995, with the 
recommendation to proceed with the feasibility study phase. The 
feasibility study, initiated in February 1998, is scheduled for 
completion in 2003.
    Advance Construction.--To accelerate project implementation, the 
District submitted a Section 104 application to the Corps for advance 
approval to construct a portion of the project. Approval of the Section 
104 application was awarded in December 2000. The advance construction 
is for a 2,500-foot long section of bypass channel between Coyote Creek 
and King Road. The District plans to begin construction on this portion 
of the project in 2002.
    Fiscal Year 2002 Funding.--$400,000 was appropriated in fiscal year 
2002 for the Upper Penitencia Creek Flood Protection Project for 
project investigation.
    Fiscal Year 2003 Funding Recommendation.--Based upon the high risk 
of flood damage from Upper Penitencia Creek and the need to proceed 
with the feasibility study, it is requested that the Congressional 
Committee support the $559,000 in the Administration's fiscal year 2003 
budget for the Upper Penitencia Creek Flood Protection Project.
    coyote/berryessa creek project, berryessa creek project element
    Background.--The Berryessa Creek Watershed is located in northeast 
Santa Clara County, California, near the southern end of the San 
Francisco Bay. A major tributary of Coyote Creek, Berryessa Creek 
drains a large area in the City of Milpitas and a portion of San Jose. 
The Berryessa Watershed is 22 square miles.
    On average, Berryessa Creek floods once every four years. The most 
recent flood in 1998 resulted in significant damage to homes and 
automobiles. The proposed project on Berryessa Creek, from Calaveras 
Boulevard to Old Piedmont Road, will protect portions of the Cities of 
San Jose and Milpitas. The flood plain is largely urbanized with a mix 
of residential and commercial development. Based on the U.S. Army Corps 
of Engineers (Corps) 1993 draft General Design Memorandum, a 1 percent 
or 100-year flood could potentially result in damages of $52 million 
with depths of up to three feet.
    Study Synopsis.--In January 1981, the Santa Clara Valley Water 
District (District) applied for federal assistance for flood protection 
projects under Section 205 of the 1948 Flood Control Act. The Water 
Resources Development Act of 1990 authorized construction on the 
Berryessa Creek Flood Protection Project as part of a combined Coyote 
Creek/Berryessa Creek Project to protect portions of the Cities of 
Milpitas and San Jose.
    The Coyote Creek element of the project was completed in 1996. The 
Berryessa Creek Project element proposed in the Corps' 1987 feasibility 
report consisted primarily of a trapezoidal concrete lining. The Corps 
and the District are preparing a General Reevaluation Report which 
involves reformulating a project which is more acceptable to the local 
community and more environmentally sensitive. Project features will 
include setback levees and floodwalls to preserve sensitive areas 
(minimizing the use of concrete), appropriate aquatic and riparian 
habitat restoration and fish passage, and sediment control structures 
to limit turbidity and protect water quality. The project will also 
accommodate the City of Milpitas' adopted trail master plan. Estimated 
total costs of the General Reevaluation Report work are $3.8 million, 
and should be completed in the winter of 2003.
    Fiscal Year 2002 Funding.--$750,000 was appropriated in fiscal year 
2002 for the Coyote/Berryessa Creek Flood Protection Project to 
continue the General Reevaluation Report and environmental documents 
update.
    Fiscal Year 2003 Funding Recommendation.--Based on the continuing 
threat of significant flood damage from Berryessa Creek and the need to 
continue with the General Reevaluation Report, it is requested that the 
Congressional Committee support an appropriation add-on of $1 million 
for the Berryessa Creek Flood Protection Project element of the Coyote/
Berryessa Creek Project.
                san francisquito creek watershed project
    Background.--San Francisquito Creek forms the boundary between 
Santa Clara and San Mateo counties, California and separates the cities 
of Palo Alto from East Palo Alto and Menlo Park. San Francisquito Creek 
is one of the last continuous riparian corridors on the San Francisco 
Peninsula and home to one of the last remaining viable steelhead trout 
runs. The creek flows through five cities and two counties, from 
Searsville Lake above Stanford University to the San Francisco Bay near 
Palo Alto Airport. It is a highly valued resource by these communities. 
Area between El Camino Real and the bay is subject to flooding during a 
1 percent flood and has a flooding frequency of approximately once in 
15 years. Over $155 million in damages could occur in Santa Clara and 
San Mateo counties from a 1 percent flood, affecting 4,850 homes and 
businesses, according to the 1998 Reconnaissance Investigation Report 
done by San Francisquito Creek Watershed Council, a local stakeholder 
group.
    Flooding History.--Overflowed seven times since 1910 with record 
flooding in February 1998. Flooded significant areas of Palo Alto in 
December 1955, inundating about 1,200 acres of commercial and 
residential property and about 70 acres of agricultural land. April 
1958 storms caused a levee failure downstream of Highway 101, flooding 
Palo Alto Airport, the city landfill, and the golf course up to four 
feet deep. Overflowed in 1982 near Alpine Road, at University Avenue, 
and downstream of Highway 101, causing extensive damage to private and 
public property. Overflowed at numerous locations on February 3, 1998, 
causing severe, record consequences with more than $28 million in 
damages, based on a March 1999 U.S. Army Corps of Engineers (Corps) 
Survey Report. More than 1,100 homes were flooded in Palo Alto, 500 
people were evacuated in East Palo Alto, and the major commute and 
transportation artery, Highway 101, was closed.
    Status.--Active citizenry anxious to avoid a repeat of February 
1998 flood. Since 1955, numerous floodplain management studies have 
been commissioned by the Corps, the Santa Clara Valley Water District 
(District), Stanford University, and the San Mateo County Flood Control 
District. Grassroots, consensus-based Watershed Council has 
productively united local and state agencies with citizens, flood 
victims, developers, and environmental activists. The cities of Palo 
Alto, East Palo Alto, Menlo Park, San Mateo County and the District 
have established a Joint Powers Authority to coordinate creek 
maintenance issues, to develop a solution to flooding and to address 
other creek-related issues. The Joint Powers Authority Board has 
initiated Congressional involvement to authorize a Corps reconnaissance 
study. Should federal interest be demonstrated by the reconnaissance 
study, the next step would be a cost-shared feasibility study. The 
feasibility study would require six to seven years work and cost $5-6 
million. Study elements will include an investigation to define 
flooding, erosion and other stream needs within the project area; an 
analysis of alternative solutions; a public participation program 
followed by preparation of an Engineer's Report; and an Environmental 
Impact Report. Flood protection alternatives for the San Francisquito 
Creek project might include raising the levees downstream of Highway 
101, storage of flows upstream, channel diversions such as detention 
basins or auxiliary channels, or instream improvements that increase 
the capacity of the channel through the urban area. The riparian 
habitat and urban setting of San Francisquito Creek offer unique 
opportunities for a multi-objective project which could enhance 
habitat, improve water quality, and provide for recreational use.
    Fiscal Year 2002 Funding.--No federal funding was received in 
fiscal year 2002.
    Fiscal Year 2003 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $100,000 in 
fiscal year 2003 to conduct a Reconnaissance Study of the San 
Francisquito Creek Watershed.
                  coyote creek at rock springs project
    Background.--Coyote Creek flows through the cities of Milpitas and 
San Jose. The Rock Springs neighborhood is upstream of the recently 
completed, federally-supported flood protection works on Coyote Creek. 
The neighborhood suffered severe damages to approximately 25 apartment 
buildings in January 1997 when Coyote Creek flooded in the vicinity of 
the low-income Rock Springs neighborhood. This event was estimated to 
be a 15-year event. The neighborhood was almost flooded again in 
February 1998, when Coyote Creek in the vicinity of the neighborhood 
was within a foot of overtopping its banks.
    Status.--In February 1999, the Santa Clara Valley Water District 
(District) initiated discussions with U.S. Army Corps of Engineers 
(Corps) for a Section 205 study to reduce flood damage in Rock Springs 
neighborhood. A cost-sharing agreement for the Section 205 Small 
Projects Program $1.16 million three-year feasibility study was signed 
by the Corps and the District on January 4, 2000. Funding is a 50/50 
cost share. Preliminary alternatives consist of a levee or floodwall.
    Project Timeline.--
  --District requested federal assistance from Corps under Section 
        205--Feb 1999
  --Feasibility cost sharing agreement signed--Jan 2000
  --Public Scoping Meeting--May 2001
  --Draft Feasibility Report/Environmental Impact Statement--Nov 2002
  --Final Detailed Project Report/Environmental Impact Statement--Apr 
        2003.
    Fiscal Year 2002 Funding.--$200,000 was received in the fiscal year 
2002 Section 205 appropriation.
    Fiscal Year 2003 Funding Recommendation.--Based upon the need to 
continue the feasibility study to provide critical flood protection for 
the low-income Rock Springs Neighborhood, it is requested that the 
Congressional Committee support an earmark of $100,000 within the 
Section 205 Small Flood Protection Projects Program.
                      pajaro river watershed study
    Background.--Pajaro River flows into the Pacific Ocean at Monterey 
Bay, about 75 miles south of San Francisco. The drainage area 
encompasses 1,300 square miles in Santa Clara, San Benito, Monterey, 
and Santa Cruz counties. Potential flood damage reduction solutions 
will require cooperation between four counties and four water/flood 
management districts. There is critical habitat for endangered wildlife 
and fisheries throughout the basin. Six separate flood events have 
occurred on the Pajaro River in the past half century. Severe property 
damage in Monterey and Santa Cruz counties resulted from floods in 
1995, 1997, and 1998. Recent flood events have resulted in litigation 
claims for damages approaching $50 million. $20 Million in U.S. Army 
Corps of Engineers (Corps) flood fight funds have been expended in 
recent years.
    Status.--Two separate Corps activities are taking place in the 
watershed. The first activity is a Corps reconnaissance study 
authorized by a House Resolution in May 1996 to address the need for 
flood protection and water quality improvements, ecosystem restoration, 
and other related issues. The second activity is a General Revaluation 
Report initiated in response to claims by Santa Cruz and Monterey 
Counties that the 13 mile levee project constructed in 1949 through 
agricultural areas and the city of Watsonville is deficient. The 
reconnaissance study on the entire watershed has been initiated by the 
San Francisco District of the Corps and will be complete in fiscal year 
2002. Watershed Stakeholders are working cooperatively to support the 
Corps' reconnaissance study, which will provide information to help 
reach an understanding and agreement about the background and facts of 
the watershed situation.
    Local Flood Prevention Authority.--Legislation passed by the State 
of California (Assembly Bill 807) in 1999 titled ``The Pajaro River 
Watershed Flood Prevention Authority Act'' mandated that a Flood 
Prevention Authority be formed by June 30, 2000. The purpose of the 
Flood Prevention Authority is ``to provide the leadership necessary to 
. . . ensure the human, economic, and environmental resources of the 
watershed are preserved, protected, and enhanced in terms of watershed 
management and flood protection.'' The Flood Prevention Authority was 
formed in July 2000 and consists of representatives from the Counties 
of Monterey, San Benito, Santa Clara, and Santa Cruz, Zone 7 Flood 
Control District, Monterey County Water Resources Agency, San Benito 
County Water District, and the Santa Clara Valley Water District. The 
Flood Prevention Authority Board sent a letter of intent to cost share 
a feasibility study of the Pajaro River Watershed to the Corps in 
September 2001.
    Fiscal Year 2002 Funding.--$50,000 was authorized in fiscal year 
2002 for the Pajaro Watershed Reconnaissance Study. In addition, $1 
million was authorized for continuation of the General Revaluation 
Report.
    Fiscal Year 2003 Funding Recommendation.--It is requested that the 
Congressional Committee support the Administration's fiscal year 2003 
budget of $100,000 for the Pajaro River Watershed Study. It is also 
requested that the committee support $275,000 for continuation of the 
General Revaluation Report in Santa Cruz and Monterey Counties.
                        calfed bay-delta program
    Background.--In an average year, half of Santa Clara County's water 
supply is imported from the San Francisco Bay/Sacramento-San Joaquin 
Delta estuary (Bay-Delta) watersheds through three water projects: The 
State Water Project, the federal Central Valley Project, and San 
Francisco's Hetch Hetchy Project. In conjunction with locally-developed 
water, this water supply supports 1.7 million residents in Santa Clara 
County and the most important high-tech center in the world. In average 
to wet years, there is enough water to meet the county's long-term 
needs. In dry years, however, the county could face a water supply 
shortage of as much as 100,000 acre-feet per year, or roughly 20 
percent of the expected demand. In addition to shortages due to 
hydrologic variations, the county's imported supplies have been reduced 
due to regulatory restrictions placed on the operation of the state and 
federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water mixing 
in from San Francisco Bay, have the potential to create disinfection 
by-products that are carcinogenic and pose reproductive health 
concerns.
    Santa Clara County's imported supplies are also vulnerable to 
extended outages due to catastrophic failures such as major earthquakes 
and flooding. As demonstrated by the 1997 flooding in Central Valley, 
the levee systems can fail and the water quality at the water project 
intakes in the Delta can be degraded to such an extent that the 
projects cannot pump from the Delta.
    Project Synopsis.--The CALFED Bay-Delta Program is an 
unprecedented, cooperative effort among federal, state, and local 
agencies to restore the Bay-Delta. With input from urban, agricultural, 
environmental, fishing, and business interests, and the general public, 
CALFED is developing a comprehensive, long-term plan to address 
ecosystem and water management issues in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability and 
water quality for millions of Californians and the state's $700 billion 
economy and job base.
    The June 2000 Framework for Action and the August 2000 Record of 
Decision/Certification contain a balanced package of actions to restore 
ecosystem health, improve water supply reliability and water quality. 
It is critical that federal funding be provided to implement these 
actions in the coming years.
    Fiscal Year 2002 Funding.--$30 million was appropriated for the 
CALFED Bay-Delta Program in the final fiscal year 2002 appropriations 
legislation.
    Fiscal Year 2003 Funding Recommendation.--It is requested that the 
Committee support an appropriation add-on of $35 million, in addition 
to the $25 million in the Administration's fiscal year 2003 budget, for 
a total of $50 million for the CALFED Program.
                                 ______
                                 
     Prepared Statement of the NAPA County Flood Control and Water 
                         Conservation District
                    napa river flood control project
Background
    The Napa River is the main waterway into which all tributaries on 
the Napa Valley flow. The river reaches its highest flow and the main 
point of concentration of storm water in the heart of the downtown city 
of Napa. The original town of Napa was established at the head of the 
navigable Napa River channel in 1848 as its only port for 
transportation and commerce until the railroad extended from Benicia to 
Napa in 1902.
    The project is located in the city and county of Napa, California. 
The population in the city of Napa, approximately, 67,000 in 1994, is 
expected to exceed 77,000 this year. Excluding public facilities, the 
present value of damageable property within the project flood plain is 
well over $500 million. The Napa River Basin, comprising 426 square 
miles, ranging from tidal marshes to mountainous terrain, is subject to 
severe winter storms and frequent flooding. In the lower reaches of the 
river, flood conditions are aggravated by high tides and local runoff. 
Floods in the Napa area have occurred in 1955, 1958, 1963, 1965, 1986 
(flood of record), 1995, and 1997. In 1998, the river rose just above 
flood stage on three occasions, but subsided before major property 
damage occurred.
    Over the years, the community has expressed a strong desire for 
increased flood management. Since 1962, twenty-seven major floods have 
struck the Valley region, exacting a heavy toll in loss of life and 
property. The flood on 1986, for example, killed three people and 
caused more than $100 million in damage. The town of Napa is 
particularly vulnerable to floods: during a typical 100-year flood, 
more than 325,000 gallons of water flow through the downtown river area 
per second, with the potential of inundating 2 million square feet of 
businesses and offices and nearly 3,000 homes.
    Flood damage in downtown Napa has recurred in January 1993, January 
and March 1995, January 1997, and February 1998, resulting in disaster 
declarations and Damage Survey Reports filed with FEMA, reaffirming the 
urgent need to implement the cost-effective project. In March 1995 and 
January of 1997, additional flood disasters occurred.
    Damages throughout Napa County totaled about $85 million from the 
January and March 1995 floods. The floods resulted in 27 businesses and 
843 residences damaged countrywide. Almost all of the damages from the 
1986, 1995, and 1997 floods were within the project area.
    Locally developed flood measures currently in place provide minimal 
protection and include levees, floodwalls, pump stations, upstream 
reservoirs, restrictive flood plain management ordinances, and 
designated flood evacuation zones. Vast areas of flood plain are 
restricted to agricultural and open space uses, precluding development 
that would be damaged by flooding. These local measures still leave 
most of the city of Napa vulnerable to frequent damaging floods. 
Congress has authorized a flood control project since 1944, but due to 
expense, lack of public consensus on the design and concern about 
environment impacts, a project had never been realized. The most recent 
Corps of Engineers project plan consisted of a deepening and 
channelization project. In mid-1995, federal and state resource 
agencies reviewed the plan and gave notice to the Corps that this plan 
had significant regulatory hurdles to face.
Approved Plan--Project Overview
    In an effort to identify a meaningful and successful plan, a new 
approach emerged that looked at flood control from a broader, more 
comprehensive perspective. Citizens for Napa River Flood Management was 
formed, bringing together a diverse group of local engineers, 
architects, aquatic ecologists, business and agricultural leasers, 
environmentalists, government officials, homeowners and renters and 
numerous community organizations.
    Through a series of public meetings and intensive debate over every 
aspect of Napa's flooding problems, the Citizens for Napa River Flood 
Management crafted a flood management plan offering a range of benefits 
for the entire Napa region. The Corps of Engineers served as a partner 
and a resource for the group, helping to evaluate their approach to 
flood management. The final plan produced by the Citizens for Napa 
River Flood Management was successfully evaluated through the research, 
experience and state-of-the-art simulation tools developed by the Corps 
and numerous international experts in the field of hydrology and other 
related disciplines. The success of this collaboration serves as a 
model for the nation.
    Acknowledging the river's natural state, the project utilizes a set 
of living river strategies that minimize the disruption and alteration 
of the river habitat, and maximizes the opportunities for environmental 
restoration and enhancement throughout the watershed. This strategy 
replaces the former project and now entails flood plain acquisition and 
restoration of a geomorphically stable river channel, replacement of 
bridges and environmentally sensitive stream bank treatment in the 
urban reaches of the city of Napa.
    The Corps has developed the revised plan, which provides 100-year 
protection, with the assistance of the community and its consultants 
into the Supplemental General Design Memorandum (SGDM) and its 
accompanying draft Environmental Impact Statement/Environmental Impact 
Report (SEIS/EIR). These reports were released for public comment in 
December of 1997 and underwent final review by Corps Headquarters. 
Construction of the project began two years ago.
    The coalition plan now memorialized in the Corps final documents 
includes the following engineered components: lowering of old dikes, 
marsh plain and flood plain terraces, oxbow dry bypass, Napa Creek 
flood plain terrace, upstream and downstream dry culverts along Napa 
Creek, new dikes, levees and flood walls, bank stabilization, pump 
stations and detention facilities, and bridge replacements. The 
benefits of the plan include reducing or elimination of loss of life, 
property damage, cleanup costs, community disruption due to 
unemployment and lost business revenue, and the need for flood 
insurance. The plan will protect access to businesses, public services, 
and create opportunities for recreation and downtown development, 
boosting year-round tourism. In fact, the project has created an 
economic renaissance in Napa with new investment, schools and housing 
coming into a livable community on a living river. As a key feature, 
the plan will improve water quality, create urban wetlands and enhance 
wildlife habitats.
    The plan will protect over 7,000 people and over 3,000 residential/
commercial units from the 100-year flood event on the Napa River and 
its main tributary, the Napa Creek, and the project has a positive 
benefit-to-cost ratio under the Corps calculation. One billion in 
damages will be saved over the useful life of the project. The Napa 
County Flood Control District is meeting its local cost-sharing 
responsibilities for the project. A countywide sales tax, along with a 
number of other funding options, was approved four years ago by a two-
thirds majority of the county's voters for the local share. Napa is 
California's highest repetitive loss community. This plan is 
demonstrative of the disaster resistant community initiative, as well, 
as the sustainable development initiatives of FEMA and EPA.
Project Synopsis
            Fiscal Year 2002 Funding
    The 2002 appropriations bill included $7,000,000 to continue 
construction of the project. The funding was sought for demolition of 
buildings and fixtures on 24 parcels that have been acquired by the 
non-federal sponsor, relocation of the Napa Valley Wine Train rail line 
for an approximate 3 mile distance, as well as relocation of the 
attenuate buildings serving this public utility, construction of marsh 
and flood plain terraces for an approximate 3 mile distance. Included 
in this amount is the reimbursement to the non-federal sponsor for 
expenditures in excess of 45 percent of the total project costs to 
date.
            Necessary Fiscal Year 2003 Funding
    Funding for the Napa River Project during 2003 in the amount of 
$15,000,000 is needed to continue construction of the project. These 
funds will be used to accomplish the following tasks:
  --Complete HTRW remediation along the east side of the river;
  --Initiate and complete the Contract 1B excavation work in Kennedy 
        Park;
  --Initiate Contract 2East excavation work on the east side of river 
        from Imola to the Bypass;
  --Continue engineering and design on future contracts;
  --Accomplish Construction Management on contract underway;
  --Initiate reimbursement of local sponsor with funds not required for 
        the above.
    Included in this amount is the reimbursement to the non-federal 
sponsor for expenditures in excess of 45 percent of the total project 
costs to date. By the end of June, 2002 the non-federal sponsor will 
have expended $93,000,000.
                    napa valley watershed management
Background
    Napa Valley watershed faces many challenges and stresses to its 
environmental health and flood management abilities. From a healthy 
river point of view, the Napa River has been on a recovery path since 
its low point in the 1960's, when the last of the native salmon were 
taken from the system by severe water pollution and habitat 
destruction. Steelhead trout have survived as a remnant population of 
two hundred that is presently in need of higher quality and more 
extensive spawning areas for recovery to a significant population. 
Beginning populations of fall run Chinook salmon have taken up 
residence in the watershed in those few areas available for spawning. 
While the chemical and wastewater pollution of earlier years has been 
effectively dealt with, excess sediment is still a critical stress on 
the salmon population, as it is to the spawning and rearing areas of 
the river in the estuarine zone upstream of San Pablo Bay, populated by 
delta smelt, splittail, green sturgeon and striped bass.
    The U.S. EPA and Region II Water Quality Control Board have 
prioritized the River as an impaired water body because of the sediment 
production. The excess sediment generated in the watershed suffocates 
spawning areas, reduces the stream's flood-carrying ability, fills deep 
pools, increases turbidity in the stream and estuary, carries with it 
nutrients that bring significant algae blooms during the summer and 
fall, and changes the morphological balance of the streams and river 
toward more unstable conditions.
    Over time, both private and public diversions and levees have been 
constructed in a chaotic way. The accumulated encroachment has 
constrained the river and its riparian corridor to approximately one 
third of its optimum morphological width for much of its length. The 
Napa Valley has also been extensively drained in the last century, 
eliminating nearly all of the sloughs and extensive wetlands that once 
covered the valley floor. Combined with increasing agricultural and 
urban development, the narrowed channel and loss of wetlands has 
greatly changed the river and its major tributaries, limiting its flood 
management capabilities. The river now regularly scours extensively on 
both bed and banks generating large amounts of sediment that settle in 
the lower river and estuary, only to be stirred and moved by the tides 
during the dry season. Loss of tidal wetlands in the lower river due to 
70 years of dike construction has resulted in a much smaller area to 
disperse sediment, exacerbating losses in all types of riverine and 
estuarine-related complex habitats in the system.
    In an effort to address these conditions and to develop local tools 
for improving natural resource management, the Corps and the Napa 
County Flood Control and Water Conservation District is currently 
developing a Napa Valley Watershed Management Plan (WMP) which would 
identify problems and opportunities for implementing environmentally 
and economically beneficial restoration in the Napa Valley watershed 
providing ecosystem benefits, such as flood reduction, erosion control, 
sedimentation management, and pollution abatement. The plan, which is 
the feasibility study the District is requesting funds for, would 
include the identification, review, refinement, and prioritization of 
restoration and flood protection opportunities with an emphasis on 
restoration of the watershed's ecosystem (e.g.: important plant 
communities, healthy fish and wildlife populations, rare and endangered 
habitats and species and wildlife and riparian habitats). The 
development of the plan would be an iterative process, providing 
technical planning, and design assistance to local entities to foster 
restoration of watershed ecosystem.
    The purpose would be to complete the WMP by providing technical, 
planning, and design assistance to the non-Federal interests for 
carrying out watershed management, restoration and development on the 
Napa River and its tributaries from Soscol Ridge, located approximately 
5 miles south of the city of Napa, to Mt. St. Helena, the northern most 
reach of the Napa River watershed, California. The watershed plan would 
look at the upper Napa Valley watershed including Napa, Yountville, St. 
Helena, Calistoga, and the unincorporated areas of Napa County north of 
Soscol Ridge. A management program incorporating flood protection and 
environmental restoration would be developed as a result of the 
watershed plan.
    To address the above mentioned and other local, regional, and 
national watershed concerns, the Napa County Board of Supervisors 
appointed a Napa County Watershed Task Force (WTF) to identify 
community based and supported solutions. The WTF submitted their 
recommendation for further action to the Napa County Board of 
Supervisors. Preliminary watershed analysis is being completed with an 
understanding that additional scientific and technical decisions and 
solutions would be incorporated into the Napa Valley watershed plan.
    The U.S. Army Corps of Engineers, San Francisco District (Corps) 
and the Napa County Flood Control and Water Conservation District 
(NCFCD) developed the Napa Valley Watershed Project Management Plan 
with input from the Napa County Planning Department (NCPD), Napa County 
Up-Valley Cities, Napa County Watershed Task Force (WTF), Napa County 
Resource Conservation District (RCD), Regional Water Quality Control 
Board (RWQCB), the San Francisco Estuary Institute (SFEI), and other 
regional and local stakeholders. Coordination of a local and regional 
restoration programs would be critical in the planning process to 
provide a watershed management plan that identifies the best management 
practices for the watershed and supports potential spin off projects to 
be implemented independently of the WMP. The regional monitoring and 
assessment strategy being developed by regional interests will be a 
component in the development of the feasibility report. The monitoring 
and assessment strategy incorporates different indicators, 
classifications, and potential pilot projects to provide benchmarks for 
future restoration activities.
    In an effort to identify problems and opportunities for 
implementing beneficial restoration in the Napa Valley Watershed, the 
Napa County Flood Control District is seeking that the Napa Valley 
Watershed Management Study be continued by the Corps of Engineers. The 
authority for this study is the Northern California Streams Study 
Authority stemming from the Rivers and Harbors Act of 1962, Public Law 
87-874. Specifically, the Napa County Flood Control District is working 
closely with the Corps in the feasibility report in examining the 
watershed management needs, including flood control, environmental 
restoration, erosion control, storm water retention, storm water runoff 
management, water conservation and supply, wetlands restoration, 
sediment management and pollution abatement in the Napa Valley, 
including the communities of Napa, Yountville, St. Helena, Calistoga 
and the incorporated areas of Napa County.
Project Synopsis
            Fiscal Year 2002 Budget Funding
    The fiscal year 2002 appropriations bill included $250,000 to 
continue the Napa Valley Watershed Management Study.
            Necessary Fiscal Year 2003 Funding
    Funding for the Napa Valley Watershed Management Study during 
fiscal year 2003 in the amount of $250,000 is needed to have the Corps 
of Engineers continue the feasibility study to examine watershed 
management needs.
         milliken-sarco-tulocay creeks groundwater basin study
Background
    The groundwater basin underlying the unincorporated area east of 
the City of Napa is in overdraft. This area is referred to as the 
Milliken-Sarco-Tulocay groundwater basin, or MST. The Board of 
Supervisors enacted a Groundwater Conservation Ordinance in an effort 
to limit all new and permitted users in the MST area to a very 
restrictive amount of groundwater until such time as a recharge project 
can be implemented to reverse the declining water table. The Napa 
County Flood Control District also took action by contracting with the 
United States Geological Survey (USGS) to perform an update to their 
1977 study of the MST groundwater basin. This study will determine the 
extent of the problem, the recharge characteristics, the inter-basin 
communication capabilities, the solutions that are likely to succeed 
and the groundwater budget for the area. The three year USGS study has 
been underway for a year and early results confirm that the groundwater 
basin is in decline and is in need of serious recharge efforts.
    There is a sense of urgency in establishing a recharge program to 
address this decline in water inventory available to the residents and 
businesses within the basin. A number of potential solutions have been 
identified and must be further assessed to ascertain their viability in 
solving the groundwater problems existent in the basin.
    Possible solutions include the following:
  --Recharge enhancement at the infiltration galleries.--The 1977 USGS 
        study revealed that 95 percent of the recharge of the 
        groundwater basin occurred at 23 isolated locations along the 
        creeks and tributaries, generally where the arable soils meet 
        the foothills. Enhancing recharge in these areas may have a 
        dramatic impact on the overall water balance equation for the 
        basin. The USGS work will give a general analysis of this 
        possible solution, but a reconnaissance level evaluation must 
        be done to evaluate cost effectiveness.
  --Importing recycled water.--Recycled water will soon be available at 
        the south end of this basin. Great opportunities exist for 
        recycled water usage within the south and middle sections of 
        the basin, especially at an existing golf course located in the 
        middle section. Benefit would be gained by substituting 
        recycled water for pumped groundwater, thereby leaving 
        groundwater for others in the area. Substituted water could be 
        used by this golf course and nearby agriculture.
  --Importing surplus groundwater from another basin.--A unique 
        opportunity exists to import surplus groundwater from a 
        construction project into the north basin. The project at hand 
        is a depressed underpass, that gets into the local groundwater 
        table (not the MST basin), results in year round pumping, and 
        creates a year round surplus that would be available for 
        substitution for groundwater within the MST basin (which is 
        located about 3 miles east of the project site.) The most 
        likely user is a golf course located in the north basin.
  --Other possible solutions include.--Construction of very small local 
        reservoirs to enhance recharge; Construction of small 
        reservoirs to provide water for agriculture; and, Importing 
        treated water, which, in addition to political problems, would 
        involve finding other imported water to make the treating and 
        delivering agency whole.
    Additionally, there are likely many more possibilities, all of 
which need to be identified, developed, and evaluated. All of these 
possibilities need to be studied at the reconnaissance level to 
determine their feasibility.
    At the heart of this reconnaissance level evaluation must be the 
environmental analysis. As an example, the property owners constructing 
reservoirs have impacted the ecology of the area, which results in 
lessening the sustaining flows to the Napa River. Another example is 
the continuous decline in the groundwater table, which results not only 
in the one time expenditure of effort, materials and energy to drill 
deeper wells, but more tragically, in the ongoing expenditure of energy 
associated with pumping from deeper depths.
    Following directly on the environmental benefits within the 
groundwater basin itself are the other benefits flowing from bringing 
the basin into balance. USGS staff believes that the basin, if in 
balance and in its naturally recovered condition, will actually return 
to its original state of flowing to the Napa River. This would provide 
tremendous benefit, not only to Milliken, Sarco, and Tulocay Creeks, in 
the local setting, but also to the Napa River, both by stream flow and 
by underground flow. Additional water into the Napa River system during 
protracted portions of the year would greatly restore and enhance the 
local watershed ecosystem.
    Action is needed. The sooner steps are taken to identify and 
address the problem, the smaller the cost of implementing solution 
measures.
Request
    In an effort to identify problems and opportunities for 
implementing solutions in the MST groundwater basin, Napa County Flood 
Control District is seeking to have the Corps initiate a reconnaissance 
study to evaluate all prospective water sources that could alleviate 
the widespread water quantity problems and identify and implement 
engineering measures to restore ecological recovery of the MST 
groundwater basin and associated groundwater infiltration and recharge 
in the Napa River watershed. Such measures could include conjunctive 
use; recharge enhancement and importing recycled and potable water.
            Necessary Fiscal Year 2003 Funding
    Funding for the Napa Groundwater Recharge Study during fiscal year 
2003 in the amount of $100,000 is needed to have the Corps initiate the 
reconnaissance study to examine groundwater needs in the basin.
              napa river dredged material recycle facility
Background
    The Napa County Flood Control and Water Conservation District 
(District) and the Corps of Engineers (Corps) are currently 
constructing the Napa River Flood Protection Project which provides not 
only the public safety and economic benefits of flood protection but 
also provides large-scale environmental restoration of wetlands, tidal 
marshes and upland wildlife habitat. A main feature of the Flood 
Project, in addition to the restoration element is the maintenance of a 
minimal low flow/navigation channel which retains the historic central 
channel and removes levees and other man-made structures to accomplish 
hydraulic efficiency as a natural, largely self-maintaining river.
    At present, the Corps is responsible for maintaining the Napa River 
navigation channel from the Mare Island Causeway to the Third Street 
Bridge in downtown Napa. Upon completion of the Napa River Flood 
Protection Project (scheduled for 2005), the Corps will continue to be 
responsible for maintenance of the Napa River navigation channel from 
Mare Island Causeway to Kennedy Park and the Corps will share 
responsibility for maintenance of the Napa River navigation/low flow 
flood conveyance channel from Kennedy Park to Third Street Bridge with 
the District. The maintenance of the Napa River channel consists 
primarily of periodic removal of the accumulated sediments by dredging 
to maintain a minimum width and depth in the central river channel 
adequate to provide safe navigation and sufficient flood flow 
conveyance. The most recent dredging project was completed over a 3-
year cycle from 1997 through 1999. As a result of that project and the 
subsequent closure of the District's main disposal site at Kennedy 
Park, additional disposal capacity is needed to dispose of and recycle 
for beneficial use a projected 1,500,000 cubic yards of sediment over 
the next 50 years.
    The Napa River Dredged Material Recycle Facility is envisioned not 
only as a permanent disposal site, but also as a material-handling 
facility, including an off-loading terminal with facilities to handle 
pump-out for hydraulic slurried material as well as off-loading from 
barges and other surface vessels. A secure, bermed dewatering facility 
with capacity for stockpiling, dewatering and treating up to 1.5 
million cubic yards of solids and 20 acre feet of tailwater would be 
used for temporary storage pending re-location to final use sites. It 
is noted that the subject land parcel has 1,300+ frontage feet of 
direct access to the railroad which connects to SPRR's Western Division 
line at Suisun and the Coast Division line at Schellville. The facility 
will therefore be a potential source of trans-shipping from rail to 
barge for other off-site beneficial uses.
Project Description
    The Napa River dredged material facility is located within the San 
Pablo Bay watershed and adjacent to the California Department of Fish 
and Game's 8,000 acre Napa Marsh preserve. The Project area is 
approximately 219 acres and has been used as a salt production site. 
The project will fulfill the long-term dredged material management 
plans of the District.
Request
    In an effort to meet the long-term dredged material management 
plans of the District for the Napa River, the District is seeking to 
have the Corps initiate the assessment for the dredged material 
handling and disposal site to replace the 2 existing disposal sites 
which have been filled and closed. Phased implementation of the project 
includes: project design including environmental assessments, 
cooperation agreements, land purchase, relocations and construction of 
containment structures, water control structures, off-loading and 
docking facilities and securing all necessary permits.
            Necessary Fiscal Year 2003 Funding
    Funding for the Napa River Dredged Material Recycle Facility during 
fiscal year 2003 in the amount of $300,000 is needed under the Corps' 
Operation and Maintenance Program to have the Corps conduct an initial 
assessment, including an environmental assessment and alternatives 
analysis of the facility.
                                 ______
                                 
  Prepared Statement of the Riverside County Flood Control and Water 
                         Conservation District
                  murrieta creek flood control project
    Murrieta Creek poses a severe flood threat to the cities of 
Murrieta and Temecula. Over $10 million in damages was experienced in 
the two cities as a result of Murrieta Creek flooding in 1993. The 1997 
Energy and Water Appropriations Act dedicated $100,000 to conducting a 
Reconnaissance Study of watershed management in the Santa Margarita 
Watershed ``including flood control, environmental restoration, 
stormwater retention, water conservation and supply, and related 
purposes''. The study effort was initiated in April 1997 and completed 
the following December. The Reconnaissance Study identified a Federal 
interest in flood control on the Murrieta sub-basin, and recommended 
moving forward with a detailed feasibility study for a flood control 
project on Murrieta Creek.
    Efforts on the Feasibility Study began in April 1998, and were 
completed in September 2000. The Feasibility Study Report recommends 
the implementation of Alternative 6, the Locally Preferred Plan (LPP) 
for flood control, environmental restoration, and recreation. The LPP 
is endorsed by the Cities of Temecula and Murrieta, and by the 
community as a whole.
    H.R. 5483, the Energy and Water Appropriations Act of 2000 included 
specific language authorizing the Corps to construct ``the locally 
preferred plan for flood control, environmental restoration and 
recreation described as Alternative 6, based on the Murrieta Creek 
Feasibility Report and Environmental Impact Statement dated September 
2000.''
    After finalizing the necessary cost sharing agreement in February 
2001, the Corps initiated the detailed engineering design necessary to 
develop construction plans and specifications for a Murrieta Creek 
Project utilizing an fiscal year 2001 appropriation of $750,000. The 
project received an additional appropriation of $1,000,000 for 
engineering design efforts in fiscal year 2002. Those funds were 
utilized to develop design-level topographic mapping for over 4 miles 
of the project, to complete all necessary geotechnical work, and to 
begin the preparation of construction drawings for the initial phase of 
construction. The District now respectfully requests that the Committee 
support an fiscal year 2003 appropriation of $750,000 so that the Corps 
may further its efforts on the Preconstruction Engineering and Design 
phase of the Project.
    The Murrieta Creek Flood Control Project is being designed, and 
will be constructed in four distinct phases. Phases one and two include 
channel improvements through the City of Temecula. Phase three involves 
the construction of the 240-acre detention basin, including the 160+ 
acre restoration site and recreational facilities. Phase four of the 
project will include channel improvements through the City of Murrieta.
    The Corps is confident that in fiscal year 2003, its engineering 
design effort will be completed for the downstream reach of the project 
through Old Town Temecula, and that phase one of the project will be 
ready for construction. Equestrian, bicycle, and hiking trails as well 
as a continuous habitat corridor for wildlife are components of this 
and every phase of the project.
    The District, therefore, respectfully requests the Committee's 
support of a $2,000,000 appropriation in fiscal year 2003 so that the 
Corps may initiate a construction start on the much awaited Murrieta 
Creek Flood Control, Environmental Restoration, and Recreation Project.
                       santa ana river--mainstem
    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River-All River project that includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers' Report to the Secretary of the Army. The Boards of 
Supervisors of Orange, Riverside, and San Bernardino Counties continue 
to support this critical project as stated in past resolutions to 
Congress.
    The three local sponsors and the Corps signed the Local Cooperation 
Agreement (LCA) in December 1989. The first of five construction 
contracts started on the Seven Oaks Dam feature in the spring of 1990 
and the dam was officially completed on November 15, 1999. A dedication 
ceremony was held on January 7, 2000. Significant construction has been 
completed on the lower Santa Ana River Channel and on the San Timoteo 
Creek Channel. Construction activities on Oak Street Drain and the Mill 
Creek Levee have been completed.
    For fiscal year 2003, an appropriation of $9.5 million is necessary 
to initiate construction activities on several features within ``Reach 
9'' of the Santa Ana River immediately downstream of Prado Dam. This 
segment of the Santa Ana River project is the last to receive flood 
protection improvements. The streambed existing today in a relatively 
natural state, would receive only localized levee and slope revetment 
treatment to protect existing development along its southerly bank. 
Approximately $3.5 of the total $9.5 million appropriation requested 
for Reach 9 would fund environmental mitigation measures necessitated 
by the Corps construction activities.
    The completion of landscaping activities on Reaches 4 and 8 of the 
Santa Ana River Channel would require a $3 million appropriation. The 
removal of accumulated sediment within an already completed section of 
the Santa Ana River Channel near its outlet to the Pacific Ocean will 
necessitate an fiscal year 2003 appropriation of $3 million. This 
dredging work is necessary before project turnover to the Local 
Sponsors for operation and maintenance.
    Construction activities on phase 3b of San Timoteo Creek Channel, a 
Mainstem feature located within San Bernardino County, would be 
completed given an additional $16 million appropriation.
    The Prado Dam feature of the Santa Ana River Mainstem project is in 
need of several major upgrades in order that it mitigate the potential 
impacts of a 100-year storm. The Corps is now ready to initiate 
modifications to the dam embankment and outlet works including the 
emergency spillway. All of the engineering design for the dam is now 
complete. An fiscal year 2003 appropriation of $26.5 million would 
allow the Corps to proceed directly into construction on Prado Dam's 
outlet works and embankment, and would fund all necessary environmental 
mitigation measures.
    We, therefore, respectfully request that the Committee support an 
overall $58 million appropriation of Federal funding for fiscal year 
2003 for the Santa Ana River Mainstem project including Prado Dam.
san jacinto & santa margarita river watersheds special area management 
                                 plans
    The County of Riverside recognizes the interdependence between the 
region's future transportation, habitat, open space, and land-use/
housing needs. In 1999, work was initiated on Riverside County's 
Integrated Planning program (RCIP) to determine how best to balance 
these factors. The plan will create regional conservation and 
development plans that protect entire communities of native plants and 
animals while streamlining the process for compatible economic 
development in other areas. The major elements of the plan include 
water resource identification, multi-species planning, land use, and 
transportation.
    In order to achieve a balance between aquatic resource protection 
and economic development, the Corps is developing what are termed 
Special Area Management Plans (SAMP) for both the San Jacinto and Santa 
Margarita Watersheds. This comprehensive planning effort will be used 
to assist Federal, State and local agencies with their decision making 
and permitting authority to protect, restore, and enhance aquatic 
resources while accommodating various types of development activities. 
The Santa Margarita and San Jacinto watersheds include such resources 
as woodlands, wetlands, freshwater marshes, vernal pools, streams, 
lakes and rivers.
    The final product of the SAMP will be the establishment of an 
abbreviated or expedited regulatory permit by the Corps under Section 
404 of the Clean Water Act. The Corps' effort includes facilitating 
meetings between all potential watershed partners, and the integration 
of the joint study effort with the planning efforts of the balance of 
the RCIP project.
    The $500,000 Federal appropriation received for fiscal year 2001 
allowed the Corps to initiate work on this three year, $6.5 million 
SAMP effort. The $2 million appropriation received in fiscal year 2002 
allowed the Corps to make significant progress on a ``landscape level 
aquatic resource delineation'', and to initiate a functional assessment 
to determine the value of waters and wetlands.
    Further funding is now needed to complete the SAMP effort. We, 
therefore, respectfully request that the Committee support a combined 
$2,000,000 appropriation of Federal funding for fiscal year 2003 for 
the Corps to continue its work on the Special Area Management Plans for 
the San Jacinto and Santa Margarita River Watersheds.
    Board of Supervisors--Riverside County Flood Control and Water 
                         Conservation District
  resolution no. f2002-06 supporting federal appropriations for flood 
                 control projects for fiscal year 2003
    WHEREAS, the United States House of Representatives Committee on 
Appropriations, Sub-Committee on Energy and Water Development, and the 
United States Senate Committee on Appropriations, Sub-Committee on 
Energy and Water Development are holding hearings to consider 
appropriations for Flood Control and Reclamation Projects for Fiscal 
Year 2003 and have requested written testimony to be submitted to the 
committees prior to March 31, 2002; and
    WHEREAS, the Riverside County Flood Control and Water Conservation 
District supports the continuation of design efforts, and initiation of 
construction for a critical flood control project on Murrieta Creek; 
the furtherance of construction activities on the Santa Ana River 
Mainstem project; the initiation of construction activities at Prado 
Dam; and the continuation of Corps efforts in developing Special Area 
Management Plans for the San Jacinto and Santa Margarita River 
Watersheds; now, therefore,
    BE IT RESOLVED by the Board of Supervisors of the Riverside County 
Flood Control and Water Conservation District in regular session 
assembled on March 5, 2002, that they support appropriations by 
Congress for Fiscal Year 2003 for the following projects:

U.S. Army Corps of Engineers

Murrieta Creek:
    Preconstruction Engineering & Design................        $750,000
    Construction--General...............................       2,000,000
Santa Ana River Mainstem: Construction--General.........      31,500,000
Prado Dam: Construction--General........................      26,500,000
San Jacinto & Santa Margarita River Watersheds 
    (Riverside County) Special Area Management Plans 
    (SAMP)..............................................       2,000,000

    BE IT FURTHER RESOLVED that the General Manager-Chief Engineer is 
directed to distribute certified copies of this resolution to the 
Secretary of the Army, Members of the House of Representatives 
Committee on Appropriations and Sub-Committee on Energy and Water 
Development, the Senate Committee on Appropriations and Sub-Committee 
on Energy and Water Development, the Senate Committee on Appropriations 
and Sub-Committee on Energy and Water Development, and the District's 
Congressional Delegation--Senators Dianne Feinstein and Barbara Boxer, 
Congressman Ken Calvert and Darrell Issa, and Congresswoman Mary Bono.

ROLL CALL:
    Ayes: Buster, Venable and Mullen
    Noes: None
    Absent: Tavaglione and Wilson
                                 ______
                                 
 Prepared Statement of the Metropolitan Water Reclamation District of 
                            Greater Chicago
    On behalf of the Metropolitan Water Reclamation District of Greater 
Chicago (District), I want to thank the Subcommittee for this 
opportunity to present our priorities for fiscal year 2003 and, at the 
same time, express our appreciation for your support of the District's 
projects in the years past. The District is the local sponsor for three 
Corps of Engineers priority projects of the Chicagoland Underflow Plan: 
the O'Hare, McCook and Thornton Reservoirs. We are requesting the 
Subcommittee's full support for McCook and Thornton Reservoirs, as the 
O'Hare Reservoir has been completed. Specifically, we request the 
Subcommittee to include a total of $30,000,000 in construction funding 
for the McCook and Thornton Reservoir projects in the bill. The 
following text outlines these projects and the need for the requested 
funding. Also, attached is a booklet indicating the benefits of the 
project, the municipalities in our area which benefit from these 
projects, and the need for the requested funding. The booklet reviews 
the history of the issues involved, including newspaper articles and 
pertinent data from the U.S. Army Corps of Engineers (Corps) and the 
Illinois State Water Survey.
The Chicagoland Underflow Plan
    The Chicagoland Underflow Plan (CUP) consists of three reservoirs: 
the O'Hare, McCook and Thornton Reservoirs. These reservoirs are a part 
of the Tunnel and Reservoir Plan (TARP). The O'Hare Reservoir Project 
was fully authorized for construction in the Water Resources 
Development Act of 1986 (Public Law 99-662) and completed by the Corps 
in fiscal year 1999. This reservoir is connected to the existing O'Hare 
segment of the TARP. Adopted in 1972, TARP was the result of a multi-
agency effort, which included officials of the State of Illinois, 
County of Cook, City of Chicago, and the District.
    TARP was designed to address the overwhelming water pollution and 
flooding problems of the Chicagoland combined sewer areas. These 
problems stem from the fact that the capacity of the area's waterways 
has been overburdened over the years and has become woefully inadequate 
in both hydraulic and assimilative capacities. These waterways are no 
longer able to carry away the combined sewer overflow (CSO) discharges 
nor are they able to assimilate the pollution associated with these 
discharges. Severe basement flooding and polluted waterways (including 
Lake Michigan, which is the source of drinking water for millions of 
people) is the inevitable result. We point with pride to the fact that 
TARP was found to be the most cost-effective and socially and 
environmentally acceptable way for reducing these flooding and water 
pollution problems. Experience to date has reinforced such findings 
with respect to economics and efficiency.
    The TARP plan calls for the construction of the new ``underground 
rivers'' beneath the area's waterways. The ``underground rivers'' are 
tunnels up to 35 feet in diameter and 350 feet below the surface. To 
provide an outlet for these tunnels, reservoirs will be constructed at 
the end of the tunnel system. Approximately 101.5 miles of tunnels have 
been constructed or are under construction at a total cost of $2.4 
billion and are operational. The tunnels capture the majority of the 
pollution load by capturing all of the small storms and the first flush 
of the large storms. Another 16 miles of tunnels costing $399 million 
need to be completed. The completed O'Hare Reservoir provides 343 
million gallons of storage. This Reservoir has a service area of 13.7 
miles and provides flood relief to 21,000 homes in Arlington Heights, 
Des Plaines and Mount Prospect. Thornton and McCook Reservoirs have not 
been built yet, so significant areas remain unprotected. Without these 
outlets, the local drainage has nowhere to go when large storms hit the 
area.
    Since its inception, TARP has not only abated flooding and 
pollution in the Chicagoland area, but has helped to preserve the 
integrity of Lake Michigan. In the years prior to TARP, a major storm 
in the area would cause local sewers and interceptors to surcharge 
resulting in CSO spills into the Chicagoland waterways and during major 
storms into Lake Michigan, the source of drinking water for the region. 
Since these waterways have a limited capacity, major storms have caused 
them to reach dangerously high levels resulting in massive sewer 
backups into basements and causing multi-million dollar damage to 
property.
    Since implementation of TARP, 1.1 billion gallons of CSOs have been 
captured by TARP, that otherwise would have reached waterways. Area 
waterways are once again abundant with many species of aquatic life and 
the riverfront has been reclaimed as a natural resource for recreation 
and development. Closure of Lake Michigan beaches due to pollution has 
become a rarity. After the completion of both phases of TARP, 99 
percent of the CSO pollution will be eliminated. The elimination of 
CSOs will reduce the quantity of discretionary dilution water needed to 
keep the area waterways fresh. This water can be used instead for 
increasing the drinking water allocation for communities in Cook, Lake, 
Will and DuPage counties that are now on a waiting list to receive such 
water. Specifically, since 1977, these counties received an additional 
162 million gallons of Lake Michigan water per day, partially as a 
result of the reduction in the District's discretionary diversion since 
1980. Additional allotments of Lake Michigan water will be made to 
these communities, as more water becomes available from reduced 
discretionary diversion.
    With new allocations of lake water, more than 20 communities that 
previously did not get lake water are in the process of building, or 
have already built, water mains to accommodate their new source of 
drinking water. The new source of drinking water will be a substitute 
for the poorer quality well water previously used by these communities. 
Partly due to TARP, it is estimated by IDOT that between 1981 and 2020, 
283 million gallons per day of Lake Michigan water would be added to 
domestic consumption. This translates into approximately 2 million 
additional people that would be able to enjoy Lake Michigan water. This 
new source of water supply will not only benefit its immediate 
receivers but will also result in an economic stimulus to the entire 
Chicagoland area by providing a reliable source of good quality water 
supply.
The McCook and Thornton Reservoirs
    The McCook and Thornton Reservoirs of the Chicagoland Underflow 
Plan (CUP) were fully authorized for construction in the Water 
Resources Development Act of 1988 (Public Law 100-676). These CUP 
reservoirs, as previously discussed, are a part of TARP, a flood 
protection plan that is designed to reduce basement flooding due to 
combined sewer back-ups and inadequate hydraulic capacity of the urban 
waterways.
    These reservoirs will provide a storage capacity of 15 billion 
gallons and will provide annual benefits of $104 million. The total 
potential annual benefits of these projects are approximately twice as 
much as their total annual cost. The District, as the local sponsor, 
has acquired the land necessary for these projects, and will meet its 
cost sharing obligations under Public Law 99-662.
    These projects are a very sound investment with a high rate of 
return. They will enhance the quality of life, safety and the peace of 
mind of the residents of this region. The State of Illinois has 
endorsed these projects and has urged their implementation. In 
professional circles, these projects are hailed for their 
farsightedness, innovation, and benefits.
    Based on two successive Presidentially-declared flood disasters in 
our area in 1986 and again in 1987, and dramatic flooding in the last 
several years, we believe the probability of this type of flood 
emergency occurring before implementation of the critical flood 
prevention measure is quite high. As the public agency for the greater 
Chicagoland area responsible for water pollution control, and as our 
past sponsorship for flood control projects, we have an obligation to 
protect the health and safety of our citizens. We are asking your 
support in helping us achieve this necessary and important goal of 
construction completion.
    We have been very pleased that over the years the Subcommittee has 
seen fit to include critical levels of funds for these important 
projects. We were delighted to see the $17,000,000 in construction 
funds included in the Energy and Water Development Appropriations bill 
for fiscal year 2002. However, it is important that we receive a total 
of $30,000,000 in construction funds in fiscal year 2003 to maintain 
the commitment and accelerate these projects. This funding is critical 
to continue the construction of the McCook Reservoir on schedule, in 
particular, to complete construction of the slurry wall, distribution 
tunnels, and pumps and motors to accelerate the design of the Thornton 
Reservoir. The community has waited long enough for protection and we 
need these funds now to move the project in construction. We 
respectfully request your consideration of our request.
Summary
    Our most significant recent flooding occurred on February 20, 1997, 
when almost four inches of rain fell on the greater Chicagoland area. 
Due to the frozen ground, almost all of the rainfall entered our 
combined sewers, causing sewerage back-ups throughout the area. When 
the existing TARP tunnels filled with approximately 1.2 billion gallons 
of sewage and runoff, the only remaining outlets for the sewers were 
our waterways. Between 9:00 p.m. and 3:00 a.m., the Chicago and Calumet 
Rivers rose six feet. For the first time since 1981 we had to open the 
locks at all three of the waterway control points; these include 
Wilmette, downtown Chicago, and Calumet. Approximately 4.2 billion 
gallons of combined sewage and stormwater had to be released directly 
into Lake Michigan.
    Given our large regional jurisdiction and the severity of flooding 
in our area, the Corps was compelled to develop a plan that would 
complete the uniqueness of TARP and be large enough to accommodate the 
area we serve. With a combined sewer area of 375 square miles, 
consisting of the city of Chicago and 51 contiguous suburbs, there are 
550,000 homes within our jurisdiction, which are subject to flooding at 
any time. The annual damages sustained exceed $150 million. If TARP, 
including the CUP Reservoirs were in place, these damages could be 
eliminated. We must consider the safety and peace of mind of the two 
million people who are affected as well as the disaster relief funds 
that will be saved when these projects are in place. As the public 
agency in the greater Chicagoland area responsible for water pollution 
control, and as the regional sponsor for flood control, we have an 
obligation to protect the health and safety of our citizens. We are 
asking your support in helping us achieve this necessary and important 
goal. It is absolutely critical that the Corps' work, which has been 
proceeding for a number of years, now proceeds on schedule through 
construction.
    Therefore, we urgently request that a total of $30,000,000 in 
construction funds be made available in the fiscal year 2003 Energy and 
Water Development Appropriations Act to continue construction of the 
McCook and Thornton Reservoir Projects.
    Again, we thank the Subcommittee for its support of this important 
project over the years and we thank you in advance for your 
consideration of our request this year.
                                 ______
                                 
    Prepared Statement of the West Tennessee Tributaries Association
    Good morning. My name is M.V. Williams. I serve as President of the 
West Tennessee Tributaries Association and appear before you today 
representing the Mississippi Valley Flood Control Association. It is my 
privilege to serve as Chairman of the Executive Committee for the 
Association.
    The Executive Committee is vested with the management and direction 
of the Association in accordance with the policies adopted by the 
Association. I and the other nine members of the Executive Committee 
are elected for a one year term by the members from our respective 
states, two each from Louisiana, Mississippi and Arkansas and one each 
from Tennessee, Kentucky, Illinois and Missouri. Each of us are the 
head of our respective organization be it levee board, drainage 
district, state agency or municipality. We serve without pay but are 
rewarded with the knowledge that we are serving for the benefit of our 
friends and neighbors in the Mississippi River Valley.
    Our Association was first organized in 1922 and we have been coming 
to Washington to meet with our elected representatives for over 60 
years. As always we appreciate this opportunity.
    Today we in this great nation are faced with a war against terror, 
one that we must win. The Congress is faced with the almost 
insurmountable problem of how best to fund this war and at the same 
time provide for the necessary appropriations to protect, preserve and 
make the necessary improvements and enlargements to the infrastructure 
that is of such great importance to the continued growth and prosperity 
of our nation.
    To not do both is unthinkable.
    We as an Association and as patriotic citizens realize what a 
tremendous problem you are faced with. For that reason, after long 
consideration and lengthy discussion we have arrived at the barest 
amount we consider necessary to continue with necessary and vital on-
going construction work and to do the minimum amount of maintenance 
work that is necessary to prevent further deterioration of the federal 
investment already made to our flood control and navigation work.
    We must also continue the work of restoring and protecting our 
natural environment.
    We have seen what happens to countries, even world-powers, when 
they do not make the required improvements to their infrastructures and 
properly maintain what they have in place. We cannot afford this to 
happen to us anymore than we can allow terrorists from the axis of evil 
to dictate to us and to destroy our hard-won freedoms that we enjoy.
    For these reasons we are firmly convinced that the minimum amount 
of appropriations required in fiscal year 2003 for the Mississippi 
River and Tributaries Project is $391,000,000. I have attached a sheet 
to my statement that reflects our request in more detail.
    This amount will not allow for new construction work that is so 
vitally needed nor will it allow for investigations to begin that will 
lead to reports to the Congress for consideration of additional work 
that will be required to improve the safety and well-being of the 
citizens of the great Mississippi River Valley and to allow the entire 
country to benefit from the many bounties of our rich and fertile 
valley.
    We very reluctantly do not request funds in a sufficient amount to 
accomplish these things but we as individuals and collectivity as an 
Association come before you today with the hope that the Congress in 
its inherent wisdom will consider the wonderful investment for the 
country's future that appropriations for the Mississippi River and 
Tributaries has always been. The return in benefits for each dollar 
invested is properly larger than any other appropriation made by the 
Congress.
    At times such as those we now face, we must not forget the 
important role the Mississippi River and its tributaries have played in 
national defense. The worth of the waterways system to move military 
equipment has been proven over and over again.
    The Administration's Budget for the Corps of Engineers' Civil Works 
Program reflects a trend that is disturbing to us. The budget that has 
been submitted to this body indicates strongly a move to change the 
Corps of Engineers from the premier engineering and construction agency 
of the entire world to one concerned principally with the maintenance 
of work already in place. We are totally in agreement that maintenance 
is vital and must be done expeditiously but the design and construction 
work performed by the Corps of Engineers must continue if our Nation is 
to remain strong and the world leader.
    The speakers to follow me will be more specific in their 
statements, so speaking for the entire Mississippi Valley Flood Control 
Association I wish to thank you for this opportunity to appear before 
you today and special thanks for your kind attention and actions this 
group has taken in the past to assist us with our problems and 
concerns.

Mississippi Valley Flood Control Association--Fiscal Year 2003 Civil 
Works Requested Budget, Mississippi River and Tributaries Appropriations

        PROJECT AND STATE                                  MVFCA REQUEST

SURVEYS, CONTINUATION OF PLANNING AND ENGINEERING & 
    ADVANCE ENGINEERING & DESIGN:
    Memphis Metro Area, TN & MS.........................         $25,000
    Germantown, TN......................................         345,000
    Wolf River, Memphis, TN.............................         123,000
    Millington, TN......................................         150,000
    Coldwater Basin Below Arkansas......................         180,000
    Alexandria, LA to the Gulf of Mexico................         420,000
    Morganza, LA to the Gulf of Mexico..................       2,880,000
    Donaldsonville, LA to Gulf of Mexico................         780,000
    Spring Bayou, LA....................................         505,000
    Collection & Study of Basic Data....................         600,000
                    --------------------------------------------------------
                    ____________________________________________________
      SUBTOTAL--SURVEYS, CONTINUATION OF PLANNING 
      ..................................................
        & ENGINEERING & ADVANCE ENGINEERING & 
      ..................................................
        DESIGN..........................................       6,008,000
                    ========================================================
                    ____________________________________________________
CONSTRUCTION:
    St. John's Bayou-New Madrid Floodway, MO............       5,020,000
    Eight Mile Creek, AR................................       1,960,000
    Helena & Vicinity, AR...............................       1,360,000
    Grand Prairie Region, AR............................      12,200,000
    West Tennessee Tributaries, TN......................         100,000
    Nonconnah Creek, TN.................................       1,995,000
    Reelfoot Lake, TN...................................         710,000
    St. Francis Basin, MO & AR..........................       4,270,000
    Yazoo Basin, MS.....................................      46,300,000
    Atchafalaya Basin, LA...............................      28,210,000
    Atchafalaya Basin Floodway..........................      10,000,000
    MS Delta Region, LA.................................       3,500,000
    Horn Lake Creek, MS.................................         509,000
    MS & LA Estaurine Area, MS & LA.....................          25,000
    Louisiana State Penitentiary, LA....................       2,449,000
    Channel Improvements, IL, KY, MO, AR, TN, MS & LA...      39,140,000
    Mississippi River Levees, IL, KY, MO, AR, TN, MS & 
      LA................................................      50,285,000
                    --------------------------------------------------------
                    ____________________________________________________
      SUBTOTAL--CONSTRUCTION............................     208,033,000
      SUBTOTAL--MAINTENANCE.............................     200,837,000
                    --------------------------------------------------------
                    ____________________________________________________
      SUBTOTAL--MISSISSIPPI RIVER & TRIBUTARIES.........     414,878,000
LESS REDUCTION FOR SAVINGS & SLIPPAGE...................     -30,878,000
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL--MISSISSIPPI RIVER & TRIBUTARIES............     384,000,000
FULL FUNDING FOR FEDERAL RETIREE COSTS..................       7,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      GRAND TOTAL--MISSISSIPPI RIVER & TRIBUTARIES......     391,000,000
                                 ______
                                 
       Prepared Statement of the Eastern Municipal Water District
    The Eastern Municipal Water District respectfully requests your 
support for inclusion of $5 million in the fiscal year 2003 Energy and 
Water Appropriations bill for the District's ``Water Supply 
Desalination Infrastructure South Perris Project'' as well as for 
inclusion in the same bill, $4 million for the District's ``Regional 
Water Related Infrastructure Project''.
    The South Perris project was authorized in the 106th Congress for 
design and construction as part of the U.S. Army Corps of Engineers' 
Water Resources management Act projects, that were included in H.R. 
4577, Section 108, Subsection (d), item number 52 for the amount of 
$25,000,000. The Regional Water Related Infrastructure project was 
authorized for preliminary engineering, feasibility studies and 
environmental documentation as part of H.R. 4577, Section 108, 
Subsection (a), item number 24.
    These two projects are important components to the overall plan of 
the District to address increasing needs as a result of concerns over 
the future availability of imported water supplies from Northern 
California and the Colorado River. I have attached fact sheets and maps 
for each of these projects.
    In addition, we would strongly request that you support efforts to 
increase the overall budget of the Bureau of Reclamation. The Bureau's 
Budget has been cut 36 percent from fiscal year 1991 to fiscal year 
2000. This is the primary Federal agency that we have relied upon in 
the past for funding our infrastructure needs and would like to use to 
fund future authorizations. We know the Bureau of Reclamation has a $5 
billion backlog of work. That work, as well as any new authorizations 
in this congress will not be addressed in a timely manner if the Bureau 
continues to be cut and underfunded. We support the western water 
industry's campaign to increase the Bureau's Water and Related 
Resources Budget from its present $762 million by another $115 million 
in fiscal year 2003 as part of the goal to have the Water and Related 
Resources Budget at $1 billion by fiscal year 2005.
    On behalf of the Board of Directors of Eastern Municipal Water 
District and the General Manager, I want to thank you for your 
consideration of our request for assistance.
                                 ______
                                 
 Prepared Statement of the Louisiana Governor's Task Force on Maritime 
                                Industry
   lower mississippi river and connecting waterways, the j. bennett 
           johnston waterway and the calcasieu river waterway
    Mississippi River Ship Channel, Gulf to Baton Rouge, LA.--Recommend 
the Corps be funded $200,000 (Construction General) to perform required 
work on the saltwater intrusion mitigation plan and complete design 
studies for potential phase III 55-foot channel.
    Mississippi River, Baton Rouge to the Gulf, Maintenance Dredging.--
The President's fiscal year 2003 Budget is $57,482,000 under O&M 
General. Recommend that the Corps be funded $66,162,000 to repair and 
construct channel training structures.
    Mississippi River Gulf Outlet (MRGO), LA., Maintenance Dredging.--
The President's fiscal year 2003 Budget is $13,061,000 under O&M 
General. Recommend that the Corps be funded $16,351,000 for maintenance 
dredging and bank stabilization.
    Inner Harbor Navigation Canal (IHNC) Lock, LA.--The President's 
fiscal year 2003 Budget is $9,000,000 in Construction General funds. 
Recommend that the Corps be funded $30,000,000 to continue construction 
and mitigation for the IHNC Lock replacement.
    Mississippi River Outlets at Venice, LA.--The President's fiscal 
year 2003 Budget is $80,000 under O&M General. Recommend that the Corps 
be funded $2,755,000 to perform critical maintenance dredging.
    Bayou Sorrel Lock, LA.--The President's fiscal year 2003 Budget is 
$110,000 under General Investigation Studies. Recommend that the Corps 
be funded $500,000 to advance pre-engineering design for the 
replacement of Bayou Sorrel Lock on the Gulf Intracoastal Waterway 
(GIWW), Morgan City-to-Port Allen alternate route.
    Gulf Intracoastal Waterway, LA and TX.--The President's fiscal year 
2003 Budget is $19,129,000 under O&M General. Recommend that the Corps 
be funded $27,464,000 to perform critical maintenance at the navigation 
locks.
    Calcasieu Lock, LA.--The President's fiscal year 2003 Budget is 
$150,000 in GI funds. Recommend that the Corps be funded $800,000 to 
advance the feasibility phase of the study to replace Calcasieu Lock on 
the GIWW.
    Calcasieu River and Pass, LA.--The President's fiscal year 2003 
Budget is $15,852,000 under O&M General. Recommend that the Corps be 
funded $21,352,000 to construct revetment at Devil's Elbow.
    MRGO Reevaluation Study, LA.--The President's fiscal year 2003 
Budget has no funding for this study. Recommend that the Corps be 
funded $1,711,000 (Construction General). Funds are needed to complete 
a study to determine the advisability of maintaining the 36-foot depth 
of the MRGO.
    J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--The President's fiscal year 2003 Budget is $11,016,000 
(Construction General) and $7,297,000 (O&M General). Recommend that the 
Corps be funded $29,000,000 (Construction General) and $16,764,000 
(O&M, General) to complete work already underway.
    As Chairman of the Louisiana Governors Task Force on Maritime 
Industry, I hereby submit testimony to the Senate Subcommittee on 
Energy and Water Development on behalf of the ports on the lower 
Mississippi River, the J. Bennett Johnston Waterway and the Calcasieu 
River waterway and the maritime interests related thereto of the State 
of Louisiana relative to Congressional appropriations for fiscal year 
2003.
    The U.S. Army Corps of Engineers reports that in 2000 a total of 
434.1 million tons of foreign and domestic waterborne commerce moved 
through the consolidated deepwater ports of Louisiana situated on the 
lower Mississippi River between Baton Rouge and the Gulf of Mexico. 
Deepening of this 232-mile stretch of the River to 45 feet has been a 
major factor in tonnage growth at these ports. Due in large part to the 
efforts of Congress and the New Orleans District of the Corps, 
Louisiana's ports and the domestic markets they serve can compete more 
productively and effectively in the global marketplace. Ninety-one 
percent of Americas foreign merchandise trade by volume (two-thirds by 
value) moves in ships, and 21.3 percent of the nation's foreign 
waterborne commerce passes through Louisiana's ports. Given the role 
foreign trade plays in sustaining our nation's growth, maintaining the 
levels of productivity and competitiveness of Louisiana's ports is 
essential to our economic well-being.
    In terms of transportation services and global access, Louisiana 
ports enjoy a distinct competitive advantage. Hundreds of barge lines 
accommodate America's waterborne commerce on the lower Mississippi 
River. The high level of barge traffic on the river is indicated by the 
passage of more than 229,000 barges through the Port of New Orleans 
annually. In 2000, 2,336 ocean-going vessels operated by more than 100 
steamship lines serving U.S. trade with more than 150 countries called 
at the Port of New Orleans. The Port's trading partners include: Latin 
America (40.5 percent); Asia (26.6 percent); Europe (21.6 percent); 
Africa (9.4 percent) and North America (1.8 percent). During the same 
year, more than 6,014 vessels called at Louisiana's lower Mississippi 
River deepwater ports.
    The foreign markets of Louisiana's lower Mississippi River ports 
are worldwide; however, their primary domestic market is mid-America. 
This heartland region currently produces 60 percent of the nation's 
agricultural products, one-half of all of its manufactured goods and 90 
percent of its machinery and transportation equipment.
    The considerable transportation assets of Louisiana's lower 
Mississippi River ports enable mid-Americas farms and industries to 
play a vital role in the international commerce of this nation. In 
2000, the regions ports and port facilities handled 238.6 million tons 
of foreign waterborne commerce. Valued at $43.8 billion, this cargo 
accounted for 18.7 percent of the nation's international waterborne 
trade and 26.1 percent of all U.S. exports. Bulk cargo, primarily 
consisting of tremendous grain and animal feed exports and petroleum 
imports, made up 89.5 percent of this volume. Approximately 50.2 
million tons of grain from 17 states, representing 56.3 percent of all 
U.S. grain exports, accessed the world market via the 10 grain 
elevators and midstream transfer capabilities on the lower Mississippi 
River. This same port complex received 97.8 million short tons of 
petroleum and petroleum products, 17.1 percent of U.S. waterborne 
imports of petroleum products.
    In 2000, public and private facilities located within the 
jurisdiction of the Board of Commissioners of the Port of New Orleans, 
the fourth largest port in the United States, handled a total of 90.8 
million tons of international and domestic cargo. International general 
cargo totaled 12.2 million tons. Although statistically dwarfed by bulk 
cargo volumes, the movement of general cargo is of special significance 
to the local economy because it produces greater benefits. On a per ton 
basis, general cargo generates spending within the community more than 
three times higher than bulk cargo. Major general cargo commodities 
handled at the Port include: iron and steel products; coffee; forest 
products; copper; aluminum products; and natural rubber.
    Fostering the continued growth of lower Mississippi River ports is 
necessary to maintain the competitiveness of our nation's exports in 
the global marketplace and, consequently, the health of the nation's 
economy. Assuring deep water access to ports has been a priority of our 
trading partners around the world. Moreover, an evolving maritime 
industry seeking greater economies of scale continues to support 
construction of larger vessels with increased draft requirements. 
Because it facilitated the provision of deepwater port access, passage 
of the Water Resources Development Act of 1986, played a most 
significant role in assuring the competitiveness of ports on the lower 
Mississippi river and throughout the United States.
    By December 1994, the Corps completed dredging of the 45-foot 
channel from the Gulf of Mexico to Baton Rouge, LA (Mile 233 AHP). 
Mitigation features associated with the first phase of the channel 
deepening project in the vicinity of Southwest Pass of the river, 
accomplished in 1988, are nearing completion. We urge the continued 
funding for this work in fiscal year 2003 to complete construction of 
improvements to the Belle Chasse water treatment plant. This will 
complete the approximate $15 million in payments to the State of 
Louisiana for construction of a pipeline and pumping stations to 
deliver potable fresh water to communities affected by saltwater 
intrusion. We further urge that the Corps be provided funding to 
proceed with design studies for Phase III, which will allow deepening 
of the river to the 55-foot authorized depth.
    Along with the Port of New Orleans, the Port of South Louisiana, 
the nation's largest port with 217.8 million tons of foreign and 
domestic cargo in 2000, and the Port of Baton Rouge, the nation's ninth 
largest port with 65.6 million tons of foreign and domestic cargo in 
2000, and other lower Mississippi River ports are dependent upon timely 
and adequate dredging of Southwest Pass to provide deep draft access to 
the Gulf of Mexico. The President's fiscal year 2003 Budget is 
$57,482,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $66,162,000 to repair and construct foreshore dikes, 
lateral dikes and jetties.
    Maintenance of adequate depths and channel widths in the 
Mississippi River Gulf Outlet Channel (MRGO) is also of great concern. 
This channel provides deep draft access to the Port of New Orleans 
principal container terminals and generates an annual economic impact 
of nearly $800 million. In 2000, 469 general cargo vessels calling on 
the MRGO Tidewater facilities accounted for 30.1 percent of the general 
cargo tonnage handled over public facilities at the Port of New Orleans 
and 74.3 percent of Louisiana's containerized cargo.
    Because of the MRGO's demonstrated vulnerability to coastal storm 
activity, annual channel maintenance dredging and bank stabilization 
are essential to assure unimpeded vessel operations. In 1998, heavy 
shoaling related to Hurricane Georges resulted in the imposition of a 
draft restriction from the project depth of 36 feet to 25 feet. The 
President's fiscal year 2003 Budget is $13,061,000 under O&M General. 
We, however, strongly recommend that the Corps be funded $16,351,000 
for maintenance dredging and bank stabilization.
    We recognize the need for the Corps to evaluate the feasibility of 
continuing the maintenance of a deep draft channel in the MRGO because 
of increased maintenance costs and environmental impacts. Any thoughts 
of not maintaining a deep draft channel in the MRGO must be preceded 
with the completion of another deep draft access (IHNC Lock) to the 
many businesses serviced by the MRGO, even though the Port of New 
Orleans is planning to relocate the container terminals to the 
Mississippi River. The President's fiscal year 2003 Budget has no 
funding for this study. We, however, strongly recommend that the Corps 
be funded $1,711,000 to complete this study.
    The Inner Harbor Navigation Canal (IHNC) Lock is a critical link in 
the U.S. Inland Waterway System as well as the Gulf Intracoastal 
Waterway (GIWW), and provides a connection between the Port of New 
Orleans Mississippi River and IHNC terminals. In 1998, the Corps 
approved a plan for replacement of this obsolete facility. The Corps 
estimates that the lock replacement project will have a cost-benefit 
ratio of 2.1 to one and will provide $110 million annually in 
transportation cost savings. In addition to minimizing adverse impacts 
to adjacent neighborhoods, the project includes a $37 million Community 
Impact Mitigation Program. The President's fiscal year 2003 Budget of 
$9,000,000 for the IHNC Lock Replacement will pay for engineering and 
design work, construction, and the mitigation program, all on a delayed 
basis. We, therefore, strongly recommend that the Corps be funded 
$30,000,000 to complete demolition on the east side, and advance 
engineering and design, levee contracts, and mitigation measures.
    Operation and maintenance of the Mississippi River Outlets at 
Venice, La. are essential to providing safe offshore support access to 
energy-related industries. In 2000, these channels accommodated cargo 
movements exceeding 3.1 million tons. In addition to routine traffic, 
Baptiste Collette Bayou is used by shallow draft vessels as an 
alternate route between the MRGO, GIWW and the Mississippi River. The 
President's fiscal year 2003 Budget is $80,000 under O&M General. We, 
however, strongly recommend that the Corps be funded $2,755,000 to 
perform critical maintenance dredging.
    More than 77.9 million tons of cargo transverse the GIWW in the New 
Orleans District annually. The President's fiscal year 2003 Budget is 
$19,129,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $27,464,000 to perform critical maintenance at the 
navigation locks.
    The President's fiscal year 2003 Budget for the Bayou Sorrel Lock, 
LA project is $110,000 in GI funds. To assure the efficient flow of 
commerce on the GIWW, we urge that the Corps be funded $500,000 to 
advance the completion of the pre-engineering design for replacement of 
the Bayou Sorrel Lock, Morgan City-to-Port Allen alternate route. We 
further recommend that the Corps be funded $800,000 in GI funds to 
advance the completion of the feasibility phase of the study to replace 
Calcasieu Lock on the GIWW by three years.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which often does not meet project depth and width requirements. 
This Port is one of Louisiana's major deep-water ports, benefitting the 
economy of the state and the nation. In 2000, the Port handled 33.8 
million tons of import cargo and 15.8 million tons of export cargo. The 
Port and private facilities along this waterway provide thousands of 
jobs for the Lake Charles area. In 2000, 1,127 ships and 7,586 barges 
used the Calcasieu River waterway. The Port area's growth and continued 
success depends on the provision of a reliable and safe channel at full 
project dimensions. The President's fiscal year 2003 Budget is 
$15,852,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $21,352,000 to construct revetment at Devil's Elbow.
    One additional project warrants consideration. The J. Bennett 
Johnston Waterway, Mississippi River to Shreveport, La. Project 
provides 236 miles of navigation improvements, 225 miles of channel 
stabilization works and various recreational facilities. Project 
completion will stimulate economic growth along the Red River Basin and 
increase cargo flows through the deep draft ports on the lower 
Mississippi River. The President's fiscal year 2003 Budget is 
$11,016,000 (Construction General) and $7,297,000 (O&M General). We, 
however, strongly recommend that the Corps be funded $29,000,000 
(Construction General) and $16,764,000 (O&M, General) to complete work 
already underway.
    The need and impetus to reduce the Federal budget is certainly 
acknowledged; however, reduced funding on any of the above projects 
will result in decreased maintenance levels which will escalate 
deterioration and, ultimately, prevent them from functioning at their 
full authorized purpose. Reduction in the serviceability of these 
projects will cause severe economic impacts not only to this region, 
but to the nation as a whole that will far outweigh savings from 
reduced maintenance expenditures. Therefore, we reiterate our strong 
recommendation that the above projects be funded to their full 
capability.
    Supporting statements from Mr. Gary P. LaGrange, Executive Director 
of the Port of New Orleans; Mr. Joseph Accardo, Jr., Executive Director 
of the Port of South Louisiana; Mr. Roger Richard, Executive Director 
of the Greater Baton Rouge Port Commission; Mr. Terry T. Jordan, 
Executive Director of the Lake Charles Harbor and Terminal District; 
Mr. Channing Hayden, President of the Steamship Association of 
Louisiana; and Capt. Mark Delesdernier, President of the Crescent River 
Port Pilots Association are attached. Please make these statements 
along with my statement part of the record. Supplemental graphics 
relating to my statement have been furnished separately for staff 
background use. Thank you for the opportunity to comment to the 
subcommittee on these vital projects.
                                 ______
                                 
             Prepared Statement of the Port of New Orleans
    The Port of New Orleans is located at the terminus of the most 
extensively developed waterway system in the world, the 14,500 mile 
inland waterway system of the United States. The Port, via the 
Mississippi River and the Mississippi River Gulf Outlet, serves as the 
gateway between America's heartland and the global marketplace.
    The Louisiana Governor's Task Force on the Maritime Industry has 
submitted a statement in support of fiscal year 2003 Congressional 
appropriations for the U.S. Army Corps of Engineers. This statement 
addresses Corps activities on the Lower Mississippi River and 
connecting waterways, the J. Bennett Johnston Waterway, and the 
Calcasieu River Waterway. We endorse the statement of the Governor's 
Task Force and the funding levels recommended therein.
    We greatly appreciate the outstanding support and cooperation 
received over many years from the subcommittee, and look forward to 
working with you on these vitally important projects.
                                 ______
                                 
      Prepared Statement of the Steamship Association of Louisiana
    I am President of the Steamship Association of Louisiana (SALA). 
Our Association represents ship owners, operators, and agents who 
handle the majority of the 7,000 to 8,000 ocean-going vessels that call 
Louisiana's deep-water ports each year. SALA is dedicated to the safe, 
efficient movement of maritime commerce through the state's deep-water 
ports. We endorse the testimony of Mr. Donald T. Bollinger, Chairman of 
the Governor's Task Force on Maritime Industry.
    Channel stabilization and maintenance dredging in Southwest Pass 
(SWP) are critical to maintaining project draft. Project draft ensures 
the Mississippi River's deep-water ports will continue to handle the 
country's foreign and domestic waterborne commerce in the most cost-
effective way possible.
    For years we have urged this Committee to provide funds to maintain 
project draft at SWP. You have responded, and your wisdom has 
benefitted the entire American heartland served by the Mississippi 
River system. SWP was greatly restricted throughout the 1970s. From 
1970 to 1975, the channel was at less than project draft 46 percent of 
the time. In 1973 and 1974, the channel was below the 40-foot project 
draft 70 percent of the time. During some periods, drafts were limited 
to 31 feet. Fortunately, those conditions have not recurred because of 
a combination of factors: Your help, and the constant vigilance of the 
Pilots, the Corps, and the maritime community. The years 1990 through 
2001 show a tremendous improvement in channel stability. The funding 
you provided was money well spent. The repairs to the jetties and 
dikes, and the Corps' ability to rapidly respond to shoaling, have been 
instrumental in maintaining project dimensions. However, the lack of 
available hopper dredges has, at times, threatened the integrity of the 
channel.
    The Pilots have taken advantage of tidal flows and other factors to 
recommend the maximum draft possible consistent with safe navigation. 
This results in additional sales and increased competitiveness for U.S. 
products on the world market. Industry's partnership with you has kept 
Mississippi River ports competitive and attractive to vessels. An 
additional twelve inches of draft to a large vessel with a loading 
capacity of 250 metric tons per inch is an added 3,000 tons of cargo. 
As of this writing, freight rates for grain moving from the Mississippi 
River to the Far East are $18 per metric ton. Using this figure, each 
foot of draft represents an additional $54,000 in vessel revenue, or 
$270,000 for the five additional feet over the old 40-foot project 
draft that the new channel provides.
    The funds we request for maintenance dredging ($66.2 million, $8.7 
million over the President's request) are essential for the Corps to 
maintain a reliable channel and respond rapidly to potential problems. 
This builds the confidence of the bulk trade in a reliable Mississippi 
River draft, which is critically important. Much of Louisiana's bulk 
trade is exported agricultural products and imported petroleum 
products. The export commodities are neither captive to Louisiana nor 
the United States if they can be shipped from competing countries at a 
consistently lower cost.
    The deeper the channel, the more important channel stabilization 
becomes. Adequate channel stabilization work minimizes the maintenance 
cost of the deeper channel--a cost-effective investment. The faster the 
project is stabilized, the faster and greater the benefits of reduced 
O&M costs will be realized. Also, we recommend that the Corps conduct 
research on prototype dredging techniques.
    Funds are also needed for dustpan dredges to work the crossings 
above New Orleans. These crossings control the draft to the Ports of 
South Louisiana and Baton Rouge, home to eight of our ten major grain 
elevators plus many mid-stream and other bulk cargo facilities. This 
area caters to the bulk trade and must have a stable channel depth 
consistent with the depth at Southwest Pass. Only two dustpan dredges 
in the world are available to maintain the deep-draft crossings between 
New Orleans and Baton Rouge. There are times when a high river is 
followed by a rapid drop in the river's stage. In such cases, the 
dustpan dredges may not be available, or both dredges may not be 
capable of restoring the 12 crossings within a reasonable time. When 
this happens, hopper dredges are used to assist in the work.
    For all of the above reasons, we request full funding for the 
mitigation features of the O&M General, 45-foot Mississippi River 
project.
    We also support Phase III of the Mississippi River channel 
deepening project and urge that the Corps be funded to proceed with 
design studies for the 55-foot channel, Baton Rouge to the Gulf of 
Mexico.
    The Mississippi River-Gulf Outlet (MR-GO) is also a viable channel 
for the state of Louisiana. The funds you provided in past fiscal years 
have allowed the Corps to improve the channel considerably. However, 
the channel width has remained limited primarily because of erosion. 
For safety reasons in this narrow channel, one-way traffic restrictions 
apply to vessels with a draft of 30 feet or more, causing delays to the 
tightly-scheduled container traffic using the MR-GO. These specialty 
vessels serving the Port's facilities are becoming larger. The highest 
wages under the International Longshoremen's Association's contract 
($26 per straight-time hour) is paid for work at the MR-GO container 
facilities. Anything that threatens the MR-GO jeopardizes these high-
paying jobs, which are held mostly by minority workers.
    To improve safety on the MR-GO and protect Louisiana's container 
trade (and the well-paying, minority employment it produces), we 
request that the Corps be funded at $16.4 million for the MR-GO in 
fiscal year 2003. This will allow annual maintenance dredging, north 
and south bank stabilization, and jetty maintenance, which is essential 
to provide the stability needed for vessel and port operations.
    With facilities located on both the MR-GO and the Mississippi 
River, an adequate route between the two is essential for efficient 
transit between these facilities. The shortest route is the inadequate, 
antiquated Inner Harbor Navigation Canal (IHNC) Lock built in the 1920s 
with a width of 75 feet and limited depth of 30 feet. Its maximum 
capacity has long been exceeded. The average waiting time for passage 
through the Lock has increased from 8 percent hours in 1985 to about 12 
hours at present; however, we understand that waiting time can be more 
than a day in some instances. A much larger ship lock is necessary to 
accommodate today's traffic.
    The replacement project for the IHNC Lock is important to the ports 
on the lower Mississippi River and to the nation's commerce since it is 
on the corridor for east/west barge traffic. Without full funding, the 
project will be delayed and increase the overall cost of the project. 
We urge Congress to provide the Corps' full fiscal year 2003 capability 
($30 million) for this important project to insure its completion. 
Delays are unthinkable since the new lock is long overdue.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which is often below project depth and width. This is another of 
Louisiana's major deep-water ports that benefits the economy of the 
State and the nation. The public and private facilities along this 
waterway provide thousands of jobs for the Lake Charles area. This 
channel, because of its project deficiencies, requires one-way traffic 
for many ships, causing delays that disrupt cargo operations. This is 
costly and inefficient for industry. The Port area's growth and 
continued success depends on a reliable and safe channel that should be 
at full project. We request funding to the full capability of the Corps 
($21.4 million) to maintain this channel at its project dimensions and 
to construct needed revetments at Devil's Elbow.
    The J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
Louisiana, Project is directly related to our deep-water ports. The 
continuation and completion of this work will stimulate the economy all 
along the Red River Basin with jobs and additional international trade. 
This increased trade will help the Port of Shreveport and the ports on 
the lower Mississippi River, providing needed growth and benefitting 
the states of Louisiana, Texas, Oklahoma, and Arkansas, which are 
served through the Shreveport distribution center. Therefore, we 
strongly recommend that the Corps be funded to full capability for 
fiscal year 2003.
                                 ______
                                 
           Prepared Statement of the Port of South Louisiana
    The Port of South Louisiana very much appreciates being given the 
opportunity to submit this statement and supportive material to signify 
its endorsement of the statement of Mr. Donald T. Bollinger, Chairman 
of the Louisiana Governor's Task Force on Maritime Industry.
    The Port of South Louisiana is comprised of nearly 54 miles of 
Mississippi River north of New Orleans and south of Baton Rouge, with 
more than fifty private and public docks and wharves. The Port of South 
Louisiana is the largest tonnage port in the United States and third 
largest in the world, handling more than 253 million short tons of 
cargo during 2001. Of this total tonnage, more than 130 million tons 
are shipped in international trade by deep water vessel and 123 million 
tons are shipped in domestic trade by vessels and barges. Each year 
more than 100,000 barges transport cargo at the Port of South Louisiana 
and more than 4,300 ships call at the public and private wharves of our 
Port.
    A recent study by Dr. Tim Ryan of the University of New Orleans 
indicates that nearly 20 percent of the domestic gross product of the 
State of Louisiana is dependent upon the maritime industry and one of 
eight jobs is created from the economic activity of the maritime 
industry. Attached you will find statistics which have been developed 
from the records of the Port of South Louisiana.
    The Port of South Louisiana strongly urges the Congress to fund all 
of the following projects. Mississippi River Ship Channel, Gulf to 
Baton Rouge, LA; Mississippi River, Baton Rouge to the Gulf, 
Maintenance Dredging; Mississippi River-Gulf Outlet (MR-GO), LA., 
Maintenance Dredging; Inner Harbor Navigation Canal (IHNC) Lock, LA; 
Mississippi River Outlets at Venice, LA; Bayou Sorrel Lock, LA; Gulf 
Intracoastal Waterway, LA and TX; Calcasieu Lock, LA; Calcasieu River & 
Pass, LA; Mississippi River-Gulf Outlet (MR-GO) Reevaluation Study, LA; 
and J. Bennett Johnston Waterway, Mississippi River to Shreveport.
    The Port of South Louisiana strongly believes that the funding and 
completion of the above maritime projects will enhance the ability of 
the ports in the region to be competitive in the global economy and 
will enhance the ability of domestic industry and agriculture to 
compete in the export of its products.
    If we can provide any further information, please feel free to call 
upon me.

                                        COMMODITY STATISTICS AND SUMMARY
                                      [Total Throughput 2001 (short tons)]
----------------------------------------------------------------------------------------------------------------
                                                                          Domestic      Domestic     2001 Total
                                               Exports       Imports      Shipments     Receipts       Tonnage
----------------------------------------------------------------------------------------------------------------
Animal Feed...............................     7,295,822        14,948        23,194     5,621,077    12,955,041
Barley....................................        28,839        33,259  ............        97,566       159,663
Chemicals/Fertilizers.....................       893,124     5,155,475     7,296,969     3,824,099    17,169,667
Coal/Lignite/Coke.........................       181,268       834,216     2,388,848       624,538     4,028,871
Concrete/Stone Products...................        26,347     2,027,689     1,279,978       523,383     3,857,398
Crude Oil.................................       942,982    46,257,711     5,536,647     1,882,355    54,619,695
Edible Oils...............................       852,182  ............       108,957       361,327     1,322,466
Maize.....................................    30,702,645        28,665  ............    28,974,208    59,705,518
Milo......................................     1,375,042  ............  ............       564,588     1,939,630
Ores/Phosphate Rock.......................  ............     2,853,316     1,038,838     1,981,166     5,873,320
Petro-Chemicals...........................     2,073,556     3,146,846    25,661,727    13,814,156    44,696,286
Rice......................................       608,534  ............  ............     1,582,341     2,190,875
Soybean...................................    17,021,772  ............        15,971    15,039,925    32,077,668
Steel Products............................         6,749     3,230,475       651,582       395,545     4,284,351
Sugar/Molasses............................       153,249        22,382        82,333        18,781       276,744
Wheat.....................................     3,727,424        39,682        58,099     3,203,727     7,028,932
Wood/Woodchips............................        27,786  ............  ............        12,372        40,158
Other.....................................       111,948       382,418        91,636         6,768       592,771
                                           ---------------------------------------------------------------------
      TOTAL...............................    66,029,272    64,027,083    44,234,780    78,527,921   252,819,056
----------------------------------------------------------------------------------------------------------------
Source: Port of South Louisiana Data.

                                 ______
                                 
         Prepared Statement of the Port of Greater Baton Rouge
    Maintaining open navigable channels for the Mississippi River and 
its tributaries is vital to the nation's commerce and national 
interest. Therefore, the Port of Greater Baton Rouge respectfully 
requests that your committee give favorable consideration to the 
following U.S. Corps of Engineers projects:
  --Mississippi River Ship Channel--Gulf to Baton Rouge, Louisiana 
        (Construction General).--We support full funding of $200,000 in 
        fiscal year 2003 to the U.S. Corps of Engineers General 
        Construction Budget. This will allow for the required work on 
        the saltwater intrusion mitigation plan and the Phase III 
        design studies for the fifty-five foot channel. Both projects 
        are important to the future success of the Port of Greater 
        Baton Rouge.
  --Mississippi River--Baton Rouge to the Gulf--Maintenance Dredging.--
        We support maximum funding for maintenance dredging for the 
        Mississippi River and recommend approval of the President's 
        fiscal year 2003 Budget of $66,162,000.
  --Mississippi River--Gulf Outlet (MR-GO), LA, Maintenance.--We 
        support the President's fiscal year 2003 Budget of $13,061,000 
        under O&M General to include increase funding to the U.S. Corps 
        budget to increase capability for bank stabilization.
  --Bayou Sorrel, Lock, LA.--The President's fiscal year 2003 budget is 
        $110,000 under General Investigation Studies. Recommend the 
        U.S. Corps be funded $500,000 to advance pre-engineering design 
        for the replacement of the Bayou Sorrel Lock on the Gulf 
        Intracoastal Waterway (GIWW), Morgan City-to-Port Allen 
        alternate route.
  --Mississippi River Outlets at Venice, LA.--The President's fiscal 
        year 2003 budget is $80,000 under O&M General. recommend that 
        the Corps be funded $2,755,000 to perform critical maintenance 
        dredging.
  --Gulf Intracoastal Waterway.--The President's fiscal year budget is 
        $19,129,000 under O&M General. Recommend that the Corps be 
        funded $27,464,000 to perform critical maintenance at the 
        navigation locks.
  --J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
        LA.--President's fiscal year 2003 is $11,016,000 in 
        (Construction General) and $7,297,000 for Operations and 
        Maintenance. We support full funding to the U.S. Corps budget 
        to complete work already underway and recommend the U.S. Corps 
        be funded $29,000,000 (Construction General) and $16,764,000 
        (O&M General) to complete work already underway.
    As stated in previous correspondence, these projects are vital not 
only to the Port of Greater Baton Rouge but to the entire lower 
Mississippi River and the nation. They are projects of critical 
national significance. The great Mississippi River is the premier 
national waterway, providing accessibility to and from foreign 
countries for the transportation of goods and services used by 
countless numbers of U.S. companies and individual citizens. The 
channel must be properly designed and maintained for the benefit of all 
ports and commerce.
    We also earnestly request your support for funding of the other 
projects included in March 22, 2002 testimony prepared and submitted by 
Mr. Donald T. Bollinger. A summary of Mr. Bollinger's statement is 
attached. Our waterway infrastructure must be properly maintained if we 
are to increase trade and have the confidence of our trading partners 
around the world. Your cooperation and support of these important 
projects for the Mississippi River are greatly appreciated.
                                 ______
                                 
           Prepared Statement of the Associated Branch Pilots
    Mr. Chairman: The Associated Branch Pilots is an Association of 
Pilots that have been guiding oceangoing vessels into the entrances of 
the Mississippi River system for over 125 years. We are called Bar 
Pilots because we guide the ships past the constantly shifting and 
shoaling sand bars in the area.
    Southwest Pass of the Mississippi River is the main entrance for 
deep draft oceangoing vessels entering the Lower Mississippi River 
System. It is the shallowest stretch of the Lower Mississippi River 
System and the area that requires the greatest effort by the Corps of 
Engineers to maintain project depth.
    In 2001, the Associated Branch Pilots made 10,348 transits on 
oceangoing vessels through Southwest Pass. Of these ships 3,309 were of 
50,000 deadweight tons or greater and 809 had a draft in excess of 4 
feet.
    This number of heavily laden vessels calling on the Lower 
Mississippi River System is a result of having a channel with a depth 
of 45 feet.
    This first phase has proven to be extremely well designed and well 
maintained by the fact that the maximum draft recommended by my 
Association for vessels using Southwest Pass has been 45 feet or 
greater, except for periods of extremely high water that caused 
shoaling that overwhelmed the dredging efforts. This is in stark 
contrast to the late 1970's and early 1980's when we often had to 
recommend drafts less that the project depth due to shoaling.
    To the world shipping community, this means that calling at ports 
on the Mississippi River system will be more profitable because larger 
ships can enter and carry greater amounts of cargo.
    This is beneficial to the entire United States because it makes the 
large quantities of petroleum, agriculture, and manufactured products 
shipped from the Mississippi Valley more desirable due to the increased 
profitability.
    I would also like to comment briefly on the East-West navigation 
channels near Venice, Louisiana. Tiger Pass and Baptiste Collette 
provide a shorter, more direct route to Breton Sound and the Gulf of 
Mexico for offshore supply boats and small tugs and barges. These 
channels not only represent a savings in time and money for these 
vessels, but reduce the traffic in the main shipping channel, the 
Mississippi River and its passes, which is one of the most congested 
waterways in the country.
    The dredging and maintaining of South Pass would contribute to the 
safety of the overall waterway.
    The Associated Branch Pilots also pilot vessels in the Mississippi 
River Gulf Outlet, a man-made tidewater channel 75 miles long, 
stretching from the Gulf of Mexico to an intersection of the 
Intercoastal Waterway in New Orleans.
    This channel leads to the Main Container Terminals for the Port of 
New Orleans, the Roll On, Roll Off Terminal, the Port of New Orleans 
Bulk Handling Plant, and additional General Cargo Docks. For the Port 
of New Orleans to remain competitive in the ever-growing container 
trade, the continued maintenance of this channel is crucial. In 2001, 
837 ships called on the port using the Mississippi River Gulf Outlet.
    Much is being said pro and con concerning the Mississippi River 
Gulf Outlet. There is, admittedly, an erosion problem in the 
Mississippi River Gulf Outlet, but any curtailment of shipping traffic 
in the channel without regard to the long-term effect upon the Port of 
New Orleans would be disastrous. I strongly support approval of funding 
for both the maintenance dredging/jetty repair project and the erosion/
rip rap study for the Mississippi River Gulf Outlet.
    Funding of the Corps of Engineers' projects in the Lower 
Mississippi River System has proven to be money well spent. It has 
increased exports and imports that have benefited the entire United 
States. I urge your support of the funding requested to enable the 
Corps to continue to maintain and improve the most efficient and 
productive waterway system in the country.
                                 ______
                                 
   Prepared Statement of the Lake Charles Harbor & Terminal District
    The Lake Charles Harbor and Terminal District respectfully requests 
favorable consideration from you and your committee for the following 
projects:
  --Calcasieu River and Pass, LA.--The President's fiscal year 2003 
        Budget is $15,852,000 under O&M General. Recommend that the 
        Corps be funded $21,352,000 to construct revetment at Devil's 
        Elbow.
  --Calcasieu Lock, LA.--The President's fiscal year 2003 Budget is 
        $150,000 in GI funds. Recommend that the Corps be funded 
        $800,000 to advance the feasibility phase of the study to 
        replace Calcasieu Lock on the GIWW.
  --Gulf Intracoastal Waterway, LA and TX.--The President's fiscal year 
        2003 Budget is $19,129,000 under O&M General. Recommend that 
        the Corps be funded $27,464,000 to perform critical maintenance 
        at the navigation locks.
    These projects are vital not only to the Port of Lake Charles, but 
to many parts of the nation. The Calcasieu River provides a route for 
oil and gas to enter the country's 11th largest port and ultimately be 
distributed to the Midwest and Northeast areas. The Port also provides 
a route for exports such as bagged grains, wood and paper products, dry 
bulk materials and other commodities, which originate from as far as 
the Pacific Northwest.
    The District also requests support for funding of the other 
projects included in the testimony of Mr. Donald Bollinger. These 
projects are extremely important to Louisiana ports as well as the 
nation.
    Your assistance with these matters is most appreciated.
                                 ______
                                 
   Prepared Statement of the Crescent River Port Pilots' Association
    I am President of the largest pilot association in the United 
States. The Crescent River Port Pilots furnish pilots for ships 
destined to the Port of Baton Rouge, Port of South Louisiana, Port of 
New Orleans, Port of St. Bernard, and the Port of Plaquemines.
    The Crescent River Port Pilots have piloted and shifted over 15,500 
ships during 2001. We pilot deep draft vessels on more than 100 miles 
on the lower Mississippi River and 35 miles on the Mississippi River 
Gulf Outlet.
    The lower end of our route on the Mississippi River has a shoaling 
problem starting with the high water season each year. The shoaling 
requires daily attention by the United States Army Corps of Engineers 
to maintain project depth.
    Heavy-laden vessel calls on the lower Mississippi River system as a 
direct result of the completion by the Corps of Engineers of the 
deepening of the channel from 40 feet to 45 feet.
    For several years now, we have had extraordinary success in keeping 
the river dredges to project depth. This success is a direct result of 
an experienced and vigilant Corps of Engineers that, through 
experience, is able to timely bid in dredges to avoid extra dredging 
cost by waiting too long to start maintenance dredging.
    Channel stability sends a positive message to the world's shipping 
community that schedule cargo for deep draft vessels months in advance 
is reliable. This makes the port call on the Mississippi River very 
profitable since the ships can lift greater tonnage.
    Keeping project depth is beneficial to 27 states that are directly 
tied to the Mississippi River Port Complex.
    Additionally, I would like to comment on the east and west 
navigation channels near Venice, Louisiana. Baptiste Collette and Tiger 
Pass provide a shorter and more direct route to Breton Sound and West 
Delta in the Gulf of Mexico for oil field support vessels.
    The Crescent River Port Pilots also pilot ships in the Mississippi 
River Gulf Outlet. A man-made channel approximately 75 miles long 
starting in Breton Sound in the Gulf of Mexico and ending in New 
Orleans where it intersects with the Intercoastal Waterway.
    The Mississippi River Gulf Outlet feeds the main container 
terminals in the Port of New Orleans. Additional docks, such as Bulk 
Terminal and general cargo facilities depend on this channel, which 
handled approximately 847 ship calls last year.
    The Mississippi River Gulf Outlet has been a controversial channel 
since its inception, but being an integral part of the Port of New 
Orleans, it would be a disaster if it is not kept at project width and 
depth. The Crescent River Pilots strongly support approval of funding 
for both the maintenance dredging, and jetty repair projects.
    Funding of the United States Army Corps of Engineers projects in 
the lower Mississippi River system which includes the Mississippi River 
Gulf Outlet, Tiger Pass, Baptiste Collette, and Southwest Pass has 
proven to be money well spent.
    I urge your support of the funding requested to allow the Corps of 
Engineers to continue to maintain and improve the most productive 
waterway system in the world.
    Mr. Chairman, thanks for allowing me the opportunity to submit my 
comments to your subcommittee.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    The Metropolitan Water District of Southern California (MWD) is 
pleased to submit the following testimony for the record, regarding 
programs contained in the U.S. Bureau of Reclamation's, the Department 
of Energy's and the Army Corps of Engineers' fiscal year 2003 budgets 
for your Subcommittee's hearing record.
    MWD strongly recommends your approval of a Reclamation fiscal year 
2003 budget that includes $30 million in funding for the CALFED Bay-
Delta Program. In addition, MWD urges your support for the San Joaquin 
Water Supply and Exchange Program, as part of the reauthorization of 
the California Bay-Delta Act. We ask for your support for additional 
federal funding for Reclamation's Colorado River Basin Salinity Control 
Program. We request that Congress appropriate $17.5 million for 
implementation of the basinwide program that will ensure protection of 
water quality for this important source of water supply. MWD also urges 
your support for Reclamation's Endangered Species Recovery 
Implementation effort and for the Lower Colorado River Operations 
Program. These programs will provide for conservation of endangered and 
threatened species and habitat along the lower Colorado River, 
mitigation for impacts associated with Reclamation's projects, and 
support for the Arizona-California-Nevada/federal Lower Colorado River 
Multi-Species Conservation Program.
    California has developed a Colorado River Water Use Plan 
(California Plan) to provide a framework for the agencies which rely on 
river water to reduce diversions to within California's 4.4 million 
acre-foot per year normal apportionment. Successful implementation of 
the California Plan is vital to the water supply reliability of the 
State of California, and is critical to the Colorado River interests of 
the six other Colorado River Basin states and Mexico. MWD supports 
Reclamation funding of $2 million for Salton Sea Habitat Enhancement 
activities in support of environmental permits required to proceed with 
the California Plan. Two water management reservoirs near the All-
American Canal, an 8,000 acre-foot reservoir to the east of the 
Imperial Valley and a 3,000 acre-foot reservoir on the western side of 
the Valley, would help facilitate the implementation of the California 
Plan and could be of significant benefit to the other Colorado River 
Basin states and Mexico. Reclamation funding of $6.9 million is needed 
in fiscal year 2003 in order to complete the environmental impact 
analysis and, if a decision is made to move forward, the initial stage 
of project design.
    Projects funded under Title XVI of the Reclamation Projects 
Authorization and Adjustment Act of 1992 (Public Law 102-575) and the 
Reclamation Recycling and Water Conservation Act of 1996 (Public Law 
104-266) will greatly enhance Southern California's water supply 
reliability and the environment through effective water recycling and 
recovery of contaminated groundwater. Funding in the fiscal year 2003 
budget for previously unfunded projects, as well as the continued 
support for previously funded projects, is a positive step toward 
realizing regional water supply reliability. The Bureau of 
Reclamation's budget request for research into the technologies and 
science of water recycling is another vital step toward making water 
reuse a viable alternative for communities faced with limited water 
supplies. MWD urges your full support for the $35 million for Title 
XVI.
    Metropolitan requests federal funding for desalination activities 
aimed at developing new and innovative technologies. Technologies to be 
investigated include innovative pretreatment options such as 
nanofiltration, ultra low-pressure reverse osmosis membranes and ultra 
violet (UV) light technology for disinfection and oxidation. Brackish 
water desalination represents a potentially viable alternative water 
source to reduce reliance on imported water supplies and minimize the 
economic impact associated with high salinity water. Current salinity 
removal technologies are energy-intensive and expensive. Treating 
Colorado River water to the secondary total dissolved solids (TDS) 
standard of 500 milligrams/liter, using conventional membrane 
technology, can cost $300 or more per acre-foot. These high costs have 
precluded the widespread implementation of brackish water desalination 
technologies, especially for large-scale applications. Breakthroughs in 
desalination technology will offer potential benefits to water 
utilities with sources impaired by high salinity levels. It is 
estimated that $3 million will be required to continue this research 
being sponsored by Metropolitan and its member agencies.
    MWD supports the recommendation by the National Drought Policy 
Commission that drought planning assistance funding needs to be 
increased at the national level and recommends the Bureau's drought 
planning program be increased to $5 million. MWD desires your support 
of funding at the level of $4.1 million necessary for work required to 
remove radioactive uranium mill tailings in Moab, Utah. These programs 
are essential for regional water supply reliability.
    The Army Corps of Engineers' (Corps) comprehensive civil works 
program has the capability to contribute to the social, economic, and 
environmental well being of California. MWD is primarily interested in 
the Corps' environmental restoration studies and projects that address 
the needs of the Bay-Delta Estuary. The President's proposed fiscal 
year 2003 budget includes numerous programs in the Corps' South Pacific 
Division, which includes California. Several ecosystem restoration 
studies and projects specifically address significant habitat issues at 
various locations in the Bay-Delta watershed. Corps programs that will 
contribute to the long-term Bay-Delta solution include environmental 
restoration studies in the Sacramento and San Joaquin River watersheds, 
habitat conservation and mitigation elements of flood damage prevention 
projects, and ecosystem restoration programs. MWD urges Congress to 
fully support these Corps programs as the fiscal year 2003 federal 
appropriations process moves forward.
    We look forward to working with you and your Subcommittee. Please 
contact Brad Hiltscher, MWD's Legislative Representative in Washington, 
D.C. at (202) 296-3551, if we can answer any questions or provide 
additional information.

 METROPOLITAN WATER DISTRICT OF SOUTHERN CALIFORNIA RECOMMENDATIONS FOR
                     FISCAL YEAR 2003 APPROPRIATIONS
------------------------------------------------------------------------
       Appropriations Bill                   MWD Recommendation
------------------------------------------------------------------------
U.S. Bureau of Reclamation:
    California Bay-Delta            $30 million
     Ecosystem Restoration.
    Salton Sea Habitat             $2 million
     Enhancement Activities.
    Yuma Area Project............  $6.9 million for Water Management
                                    Reservoirs near the All-American
                                    Canal
    Colorado River Basin Salinity  $17.5 million plus sufficient funds
     Control Program--Title II.     for required operation and
                                    maintenance of constructed units and
                                    for plan formulation
    Endangered Species Recovery    $12.747 million
     Implementation.
    Lower Colorado River           $12.421 million
     Operations Program.
    National Fish and Wildlife     $850,000
     Foundation.
    Title XVI Water Reclamation    $35 million
     and Reuse Program.
    Water Conservation Field       $500,000 for MWD
     Services Program Earmark.
    Drought Assistance Program...  $5 million
    Brackish Water Desalination..  $3 million
Department of Energy: Removal of   $4.1 million
 Radioactive Tailings in Moab,
 Utah.
 U.S. Army Corps of Engineers:     Support Corps programs
 South Pacific Division.
------------------------------------------------------------------------

                                 ______
                                 
               Prepared Statement of the State of Arizona
    As a member of the Colorado River Basin Salinity Control Forum 
representing the State of Arizona, I wish to indicate strong support 
for the designation of funds for the Colorado River Basin salinity 
control program.
    The Bureau of Reclamation (Reclamation) is the lead agency for the 
Colorado River Basin Salinity Control Program. In recent years, this 
salinity control program has been funded at $12 million. These funds, 
together with cost-sharing from the Colorado River Basin states, have 
produced projects which demonstrate a cost-effective and successful 
methodology for controlling salinity in the Colorado River. However, 
the water quality control plan, which is prepared by the Forum, adopted 
by the Colorado River Basin states, and approved by the EPA, recommends 
that Reclamation's portion of these efforts be funded at $17.5 million. 
An appropriation of this amount would allow the implementation of the 
approved water quality control plan and help control the economic 
damages in the Lower Basin states due to salinity from the Colorado 
River.
    Arizona's cities, industries, farms, and Indian Tribes depend on 
the Colorado River. As we import the water to support our growing 
economy, we also import the salt that has accumulated in the river. 
Approximately 1.5 million tons per year of salt are now being imported 
into Arizona via the Colorado River. If the accumulation of salt in the 
river can be reduced, the economic costs of salt disposal and salt 
damages will be reduced. Currently, the damages due to salt are 
estimated to be over half a billion dollars annually in Arizona, 
Nevada, and Southern California. These damages would be significantly 
higher if the Colorado River Basin Salinity program had not been in 
place during the last three decades.
    Over the last few years the salinity control efforts by Reclamation 
have been under-funded, resulting in control efforts lagging behind 
goals agreed upon in the program's salinity control plan. The $17.5 
million recommended for Colorado River salinity control would provide 
the appropriations necessary to more aggressively meet these goals and 
reduce the significant economic costs to the Lower Basin States.
    In addition to controlling water quality for water users in the 
United States, the Salinity Control program helps the United States to 
comply with Minute 242 of the Mexican Water Treaty of 1944. The United 
States has always met the commitments agreed to in Minute 242, but 
water quality at the International Boundary continues to be a subject 
of discussion between the United States and Mexico sections of the 
International Boundary and Water Commission.
    Thank you for your subcommittee's consideration of additional 
funding for the Colorado River Salinity Control Program and we hope to 
have your continued support of this vital program.
                                 ______
                                 
                     Prepared Statement of Audubon
    Mr. Chairman, on behalf of over one million members and supporters 
of Audubon, thank you for the opportunity to submit our views on the 
fiscal year 2003 budget of the U.S. Army Corps of Engineers (Corps). 
The focal point of our statement on the Corps' fiscal year 2003 budget 
is our mission, to protect birds, other wildlife, and their habitat.
Upper Mississippi River Environmental Management Program (EMP)
    Each year over 400 bald eagles and nearly 30,000 wild tundra swan, 
along with hundreds of thousands of other birds use the Upper 
Mississippi River. Audubon is deeply concerned about the historically 
low and grossly inadequate funding levels proposed in the President's 
fiscal year 2003 budget for the Upper Mississippi River System 
Environmental Management Program (EMP). The current Administration's 
request of $12 million is approximately one-half of the program's 
funding in recent years and just over one-third of the fully authorized 
levels needed to adequately restore damaged river habitat, and monitor 
the delicate Mississippi River ecosystem.
    To date, the EMP is a leading example of the type of collaborative 
process the federal government can use to develop a balanced and 
sustainable river plan. Its participants are committed and diverse, 
including the Corps, U.S. Fish and Wildlife Service, the U.S. 
Geological Survey, and the states of Illinois, Iowa, Minnesota, 
Missouri, and Wisconsin, and the environmental community, all of whom 
cooperate to share costs and achieve a common goal. This goal, the 
mission of the EMP, is to ``ensure the coordinated development and 
enhancement of the Upper Mississippi River System'' which stretches 
from Minneapolis, Minnesota to Cairo, Illinois. The efforts of the EMP 
contribute to the management of navigation and flood control. The EMP 
enhances and rehabilitates riverine wetland areas up and down the river 
stimulating transportation uses, attracting visitors, adding 
recreational opportunities, and bolstering local economies. The program 
helps preserve this natural treasure by managing river navigation and 
flood control, promoting recreation on the river--helping people to 
enjoy the river now while ensuring its preservation for future 
generations.
    The Corps estimates that the low levels of funding in the 
President's proposed fiscal year 2003 budget could result in the 
elimination of several critical restoration projects in the Rock Island 
District (Smiths' Creek and Rice Lake projects), St. Paul District 
(Long Meadow project and Biological Monitoring), and in the St. Louis 
District (Scheming Chute project). We strongly urge the Subcommittee to 
fund the EMP at its fully authorized level of $33.17 million to 
maintain a capacity for the long term monitoring and habitat 
restoration of this irreplaceable river ecosystem, and to save key 
programs and offices that will otherwise be eliminated by drastic 
budget cuts.
Everglades Restoration
    Thank you for your past support of the restoration of America's 
Everglades. Because the Everglades has been severely abused for more 
than 100 years, its restoration is the most ambitious environmental 
challenge our nation has ever undertaken. At this time, however, the 
outcome remains uncertain. What happens to this living treasure greatly 
depends on America's actions now and how much we acknowledge the need 
to honestly balance the use and conservation of natural resources. If 
our effort is successful, the restoration of the South Florida/
Everglades ecosystem will serve as the hemispheric model for 
sustainability. If not, we face forever losing this natural treasure.
    Congress approved, with support from the State of Florida, the 
Comprehensive Everglades Restoration Plan (CERP) as a framework for 
changes to the Central and Southern Florida (C&SF) Project. The CERP, 
which along with Modified Water Deliveries and the C-111 project, are 
critical to restoring, preserving, and protecting the South Florida 
ecosystem, while still providing for other water-related needs of the 
region.
  --The President's request for the Corps share of CERP funding in 
        fiscal year 2003 is $37 million, an increase of $9 million over 
        fiscal year 2002. We are concerned that this amount is far 
        short of the Corps' original projection of $83 million needed 
        for CERP implementation in fiscal year 2003 and that the 
        proposed budget does not include $2.5 million necessary for 
        construction of CERP pilot projects. In March of 2001, the 
        Corps projected $83 million for CERP implementation in fiscal 
        year 2003. In December of 2001, that figure was revised 
        downward to $33.6 million and the CERP implementation schedule 
        was revised so as to postpone construction of several projects. 
        We are concerned that this $50 million downward revision in the 
        projected fiscal year 2003 funding levels, and a $30 million 
        downward revision in projected fiscal year 2004 funding levels, 
        will require much higher levels of funding in future years that 
        may be difficult to attain.
  --We are concerned that the construction of CERP Pilot Projects will 
        not be funded for the second consecutive year in the 
        President's proposed budget due to the ``no new starts'' policy 
        of the Administration, causing further delay in essential 
        restoration. The ``no new starts'' policy should be limited to 
        new projects that have not received funding. This policy has 
        been mistakenly applied to the pilot projects; these projects 
        are critical components of a pre-existing project--the C&SF--
        changes to which were previously authorized in WRDA 1999 and 
        WRDA 2000 and funded in fiscal years 2001 and 2002. These 
        projects include the Okeechobee and Hillsboro Aquifer Storage & 
        Recovery Pilot Projects; the L-31N Seepage Management Pilot; 
        and the Lake Belt In-Ground Reservoir Technology Pilot. The 
        Total Construction funding required for the pilot projects in 
        fiscal year 2003 is $2.5 million.
    Everglades restoration is a long-term commitment, and it must be 
completed in its entirety. Each component depends on others therefore, 
all of the ``building blocks'' must be in place for the restoration to 
succeed. We urge the Committee to continue to provide adequate funding 
for the timely implementation of other previously authorized programs 
whose performance assumptions have been included in the CERP, including 
Kissimmee River Restoration, Modified Waters Delivery Project, C-111, 
and Critical Projects (authorized in WRDA 1996).
The Challenge 21 Program (Flood Mitigation and Riverine Restoration 
        Program, Sec. 212 WRDA 1999)
    Increasingly, communities at risk for flooding are implementing 
non-structural solutions to reduce potential flood damage. These 
solutions include moving frequently flooded homes and businesses out of 
the floodplain and working to return the floodplains of rivers and 
creeks to a condition where they can naturally moderate floods. In 
addition to reducing flood losses, non-structural projects help meet 
many other goals of riverside communities including improving water 
quality, increasing opportunities for recreation, and improving and 
restoring wildlife habitat. Unfortunately, most federal spending does 
little to support these non-structural solutions. Challenge 21, a non-
structural flood damage reduction program authorized in 1999, is 
explicitly designed to help support such community-driven and 
environmentally-beneficial efforts. Challenge 21 allows the Corps to 
relocate vulnerable homes and businesses in smaller communities away 
from floodplains, restore floodplain wetlands, and increase 
opportunities for riverside recreation, serving to improve quality of 
life in riverside communities. This deserving program is the best 
current method for communities to achieve both flood hazard mitigation 
and restoration of this nation's great rivers.
    We strongly urge you to appropriate $25 million in funding in 
fiscal year 2003, one-half of the programs' authorized level of 
funding, to ensure that all willing communities and non-federal 
partners may participate in the U.S. Army Corps of Engineers' Challenge 
21 program.
Section 1135 Program (Project Modification for Improvement of the 
        Environment)
    The Section 1135 Program allows the Corps to modify the structures 
and operations of existing Corps projects to improve the quality of the 
environment where those projects have contributed to the degradation of 
the environment. The program also authorizes the restoration of areas 
harmed by Corps projects.
    The environmental damage caused by existing Corps projects, many 
constructed before federal laws requiring mitigation, are enormous. 
These projects have caused devastating impacts to natural systems such 
as the Everglades, and severely degraded rivers such as the Missouri, 
Upper Mississippi, Illinois, and Apalachicola Rivers. The environmental 
impacts from Corps projects include the loss of rivers' critical side 
channels, sandbars and wetlands, and jeopardizes the continued 
existence of federally listed endangered bird and other wildlife 
species. We strongly urge you to appropriate full funding of $25 
million, $9 million above the Administration's proposed budget, to 
ensure that non-federal partners may participate in the Corps' 1135 
program in fiscal year 2003.
Section 206 Program (Aquatic Ecosystem Restoration)
    The Section 206 Program allows the Corps to undertake small-scale 
projects to restore the aquatic environment, regardless of the 
existence or impact of the Corps' projects in the area. Projects 
carried out under this program must improve the quality of the 
environment, be in the public interest, and be cost-effective. 
Individual projects under this program may not exceed $5 million, and 
non-federal interests must provide 35 percent of the cost.
    In order for willing communities and non-federal partners to 
ameliorate both environmental and economic impacts caused by altering 
our nation's rivers, floodplains, and wetlands, we strongly urge you to 
appropriate full funding of $25 million, $15 million above the 
Administration's request, for the Corps' Section 206 program in fiscal 
year 2003.
Missouri River Restoration
    The Missouri River Fish and Wildlife Mitigation Project is the 
primary habitat restoration program for the lower Missouri River 
between Sioux City, Iowa and St. Louis. Congress established it in 1986 
to help reverse the long-term decline of Missouri River fish and 
wildlife habitat due to the federally sponsored channelization and 
stabilization projects of the Pick-Sloan era. Congress approved $13.5 
million in fiscal year 2002 for the project, the highest appropriation 
yet received. We applaud the proposed increase in the President's 
budget to $17.5 million in fiscal year 2003 for this program, however, 
it is imperative that the funding be increased to $20 million to meet 
the critical demand for accelerated habitat restoration on the lower 
Missouri River. The Missouri River remains a nationally significant 
resource, attracting tens of millions of visitors annually and 
supporting over 150 species of fish and wildlife. However, severe loss 
of important habitat--such as side channels, wetlands, and sandbars--
threaten the river's long-term health. As the nation prepares to 
celebrate the 200th anniversary of Lewis and Clark's Voyage of 
Discovery, we have a once-in-a-lifetime opportunity to restore the 
Missouri River and revitalize our riverside communities.
    Supporting the Missouri River Fish and Wildlife Mitigation Project 
will help reverse the decline of river wildlife by restoring historic 
chutes, side channels, wetlands, backwaters, and other habitat fish and 
wildlife need to feed, conserve energy, and reproduce. We urge you to 
bolster critically important efforts to reverse the decline of the 
nation's longest river by supporting an appropriation of $20 million 
for the Missouri River Fish and Wildlife Mitigation Project in fiscal 
year 2003.
Napa River Salt Marsh Feasibility Study
    Audubon has made San Francisco Bay restoration a national priority. 
The Napa River Salt Marsh is a critical component of efforts to restore 
the entire San Francisco Bay ecosystem. The restoration of 10,000 acres 
of former industrial salt ponds in the northern San Francisco Bay would 
create the largest restored tidal wetland in the Western United States.
    The restored wetlands will provide extensive wildlife habitat for 
endangered species, migratory waterfowl and shorebirds, and fish and 
aquatic species. Once restored, the tidal marsh will also improve water 
quality, provide beneficial use for recycled treated wastewater and 
improve public open space and recreational opportunities. In order for 
the Corps of Engineers to complete the feasibility study and complete 
the restoration design with the California Coastal Conservancy, $1.3 
million is needed in fiscal year 2003 for the Napa River Salt Marsh 
Restoration Project. There is an urgent need to complete the study and 
begin restoration. As the salinity rises within the ponds and as the 
infrastructure (levees and water control structures) deteriorates, 
ponds no longer provide habitat for wildlife, the risk of a high-saline 
spill to the Napa River rises, and the cost of future restoration 
increases.
    Thank you for providing us with this opportunity to testify on the 
U.S. Army Corps of Engineers proposed fiscal year 2003 budget.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
         bureau of reclamation--fiscal year 2003 appropriation
    Colorado River Basin Salinity Control Forum's Recommendation:
  --Program Authorized in 1995 (Public Law 104-20)--$17,500,000.
  --General Investigation Funds--Adequate Funding.
  --Operation and Maintenance--Adequate Funding.
    This testimony is in support of funding for the Colorado River 
Basin salinity control program. Congress has designated the Department 
of the Interior, Bureau of Reclamation (Reclamation), to be the lead 
agency for salinity control in the Colorado River Basin. This role and 
the authorized program were refined and confirmed by the Congress when 
Public Law 104-20 was enacted. A total of $17,500,000 is requested for 
fiscal year 2003 to implement the needed and authorized program. 
Failure to appropriate these funds will result in significant economic 
damage in the United States and Mexico.
    The President's request for funding is $10.1 million. Studies have 
shown that implementation of the program has fallen behind the needed 
pace to control salinity concentrations. In previous years, the 
President has supported, and Congress has funded, a program at $12 
million. Most recently, the President's requests have dropped and this 
year's request, in the judgement of the Forum, is inappropriately low. 
Water quality commitments to downstream United States and Mexican water 
users must be honored while the Basin states continue to develop their 
Compact apportioned waters of the Colorado River. Concentrations of 
salts in the water above water quality standard mandated levels would 
cause hundreds of millions of dollars in damage in the United States 
and result in poorer quality water being delivered by the United States 
to Mexico. For every 30 mg/l increase in salinity concentrations, there 
is $75 million in additional damages in the United States. The Forum, 
therefore, believes implementation of the program needs to be 
accelerated to a level beyond that requested by the past President.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding and Reclamation has a backlog of 
proposals. Reclamation continues to select the best and most cost-
effective proposals. Funds are available for the Colorado River Basin 
states' cost sharing for the level of federal funding requested by the 
Forum. Water quality improvements accomplished under Title II of the 
Colorado River Basin Salinity Control Act also benefit the quality of 
water delivered to Mexico. Although the United States has always met 
the commitments of the International Boundary & Water Commission's 
(Commission) Minute 242 to Mexico with respect to water quality, the 
United States Section of the Commission is currently addressing 
Mexico's request for better water quality at the International 
Boundary.
                                overview
    In 2000, Congress reviewed the program as authorized in 1995. 
Following hearings, and with Administration support, the Congress 
passed legislation that increased the ceiling authorized by this 
program by $100 million. Reclamation has received cost-effective 
proposals to move the program ahead and the Basin states have funds 
available to cost-share up-front.
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through Minute 242, to Mexico concerning the quality of water 
being delivered to Mexico below Imperial Dam. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly legislated Clean Water Act. Initially, the Secretary 
of the Interior and Reclamation were given the lead federal role by the 
Congress. This testimony is in support of adequate funding for the 
Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while leaving 
implementation of the salinity control policy with the Secretary of the 
Interior, also gave new salinity control responsibilities to the 
Department of Agriculture, and to the Bureau of Land Management. 
Congress has charged the Administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin states are strongly supportive of that concept as 
the Basin states consider cost sharing 30 percent of federal 
expenditures up-front for the salinity control program, in addition to 
proceeding to implement their own salinity control efforts in the 
Colorado River Basin.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of the program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every three years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities under 
control.
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, and below Parker, and Hoover 
Dams in 1972 have been identified as the numeric criteria. The plan 
necessary for controlling salinity and to reduce downstream damages has 
been captioned the ``plan of implementation.'' The 1999 Review of water 
quality standards includes an updated plan of implementation. The level 
of appropriation requested in this testimony is in keeping with the 
agreed upon plan. If adequate funds are not appropriated, state and 
federal agencies involved are in agreement that damage from the high 
salt levels in the water will be widespread in the United States as 
well as Mexico and will be very significant.
                             justification
    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin states is the level of funding necessary to 
proceed with Reclamation's portion of the plan of implementation. In 
July of 1995, Congress amended the Colorado River Basin Salinity 
Control Act. The amended Act gives Reclamation new latitude and 
flexibility in seeking the most cost-effective salinity control 
opportunities, and it provides for proposals and more involvement from 
the private as well as the public sector. The result is that salt 
loading is being prevented at costs often less than half the cost under 
the previous program. Congress this last year recommitted its support 
to the revised program when it enacted Public Law 106-459. The Basin 
states are, pursuant to Public Law 104-127 (FAIRA), cost sharing up-
front on an annual basis, which adds 43 cents for every federal dollar 
appropriated. The federally chartered Colorado River Basin Salinity 
Control Advisory Council, created by the Congress in the Salinity 
Control Act, has met and formally supports the requested level of 
funding. The Basin states urge the Subcommittee to support the funding 
as set forth in this testimony.
                     additional support of funding
    In addition to the funding identified above for the implementation 
of the newly authorized program, the Salinity Control Forum urges the 
Congress to appropriate necessary funds needed to continue to maintain 
and operate salinity control facilities as they are completed and 
placed into long-term operation. Reclamation has completed the Paradox 
Valley unit which involves the collection of brines in the Paradox 
Valley of Colorado and the injection of those brines into a deep 
aquifer through an injection well. The continued operation of this 
project and other completed projects will be funded through Operation 
and Maintenance funds.
    In addition, the Forum supports necessary funding to allow for 
continued general investigation of the salinity control program. It is 
important that Reclamation have planning staff in place, properly 
funded, so that the progress of the program can be analyzed, 
coordination between various federal and state agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned to maintain the water quality standards for 
salinity so that the Basin states can continue to develop their 
Compact-apportioned waters of the Colorado River.
                                 ______
                                 
 Prepared Statement of the Fort Peck Assiniboine and Sioux Tribes and 
                        Dry Prairie Rural Water
                    fiscal year 2003 budget request
    The Fort Peck Assiniboine and Sioux Tribes and Dry Prairie Rural 
Water respectfully request fiscal year 2003 appropriations for the 
Bureau of Reclamation from your subcommittee on Energy and Water 
Development. Funds will be used to construct critical elements of the 
Fort Peck Reservation Rural Water System, Montana, (Public Law 106-382, 
October 27, 2000). The amount requested is $14,853,000 as set out 
below:

                                          FISCAL YEAR 2003 BUDGET REQUEST
----------------------------------------------------------------------------------------------------------------
                                                             Assiniboine and       Dry Prairie
                          Item                               Sioux Tribes                              Total
----------------------------------------------------------------------------------------------------------------
Non-Contract Activities:
    Administration/Easements..........................            $200,000             $95,000         $295,000
    Poplar to Big Muddy Design (Part).................             500,000      ..............          500,000
    Dane Valley Design................................  ......................          53,000           53,000
    Intake Inspection.................................             120,000      ..............          120,000
    Water Treatment Plant Inspection..................             586,000      ..............          586,000
    Culbertson to Medicine Lake Inspection............  ......................         215,000          215,000
    Reclamation Oversight.............................             479,000             115,000          594,000
Construction Activities:
    Intake............................................           1,713,000      ..............        1,713,000
    Water Treatment Plant.............................           8,372,000      ..............        8,372,000
    Culbertson to Medicine Lake.......................  ......................       2,405,000        2,405,000
                                                       ---------------------------------------------------------
      Total...........................................          11,970,000           2,883,000       14,853,000
                                                       =========================================================
      Percentage......................................               80.59               19.41           100.00
----------------------------------------------------------------------------------------------------------------

    The sponsor Tribes and Dry Prairie greatly appreciate the 
appropriations from the subcommittee for fiscal year 2002 that have 
permitted significant progress in the first year.
                          proposed activities
    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation (see map), was authorized by Public Law 106-
382, October 27, 2000. The budget request provides the funds necessary 
to complete the intake on the Missouri River. Approximately half of the 
funds for intake construction are in the appropriations for fiscal year 
2002. The budget request also provides for construction of water 
treatment plant for this regional drinking water project. Funds are 
required in both fiscal year 2003 and 2004 for completion of the water 
treatment plant. The project will also design the first portion of the 
pipeline leaving the water treatment plant. The section will be east of 
the water treatment plant and will serve the community of Poplar, 
headquarters community for the Assiniboine and Sioux Tribes. 
Construction is scheduled to start in fiscal year 2004. This will also 
provide a source of water for a section of the Fort Peck Indian 
Reservation contaminated by oil drilling operations and the subject of 
EPA orders to the non-Tribal oil company responsible. The oil company 
will provide the distribution system necessary to mitigate the problems 
and the Assiniboine and Sioux Rural Water System will provide the 
interconnecting pipeline without duplicating any facilities identified 
in the Final Engineering Report. This is an exigent circumstance that 
will be corrected by the project in fiscal year 2004.
    An urgent project will be undertaken in the Dry Prairie area to 
bring water supplies from Culbertson with an existing treatment plant 
on the Missouri River to Medicine Lake where the existing water 
treatment is inoperable and requires major revisions to bring it into 
operation. Even with the extra expenditures, the treatment plant will 
only produce water of the poor quality that will be replaced by Dry 
Prairie. The system to be constructed in fiscal year 2003 will also 
serve the Dane Valley residents with fiscal year 2004 funds and 
mitigate costs of hauling water so prevalent there. The budget request 
is consistent with the construction schedule in the Final Engineering 
Report.
                 status of project planning and design
    The Final Engineering Report, incorporating the costs of facilities 
to serve both the Reservation and the Dry Prairie Rural Water System 
outside the Fort Peck Indian Reservation is submitted to the Bureau of 
Reclamation for final review and will be before Congress in spring 
2002. The water conservation plan is also before the Bureau for review. 
Bureau of Reclamation concluded a value engineering session on the 
project in April, 2001, and the Accountability Report in response to 
the value engineering investigation is complete.
    The Final Engineering Report shows that construction costs of the 
project total $192 million, October 1998$. The total Federal costs will 
be $175 million (October 1998$), less or comparable to similar projects 
in the Western United States.
    Environmental assessment is near completion for both the 
Reservation and the Dry Prairie areas of the project.
    Pilot studies and design of the water treatment plant are scheduled 
in the third and fourth quarters fiscal year 2002 with construction of 
the intake beginning in the fourth quarter. Design of the Culbertson to 
Medicine Lake project by Dry Prairie will also begin in second and 
third quarter fiscal year 2002 with capability to begin construction in 
first quarter fiscal year 2003.
                         local project support
    The State of Montana, by action of its legislature, appropriated 
$62,000 in fiscal year 1997 to provide for a Needs Assessment and cost 
estimate of facilities outside the Reservation in the Dry Prairie part 
of the project. The 1999 Montana Legislature approved an additional 
$182,000 in planning funds for use by Dry Prairie in fiscal year 1999 
and 2000. The needs and facility costs determined for the Dry Prairie 
Water System were incorporated into the Final Engineering Report. In 
addition, the 1999 Montana Legislature approved a funding mechanism 
from its Treasure State Endowment Program to finance the non-federal 
share of project planning and construction. Demonstrating support of 
Montana for the project, there were only three votes against the 
statutory funding mechanism in both the full House and Senate.
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was a logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives. The Tribes did not seek financial compensation for the 
settlement of their water rights but contemplated water development for 
meaningful projects as now authorized.
    Dry Prairie support is demonstrated by a financial commitment of 
all 14 communities within the service area to participate in the 
project. Rural support is strong, with about 70 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.
enterprise community designation and need for water quality improvement
    The Fort Peck Indian Reservation is designated as an Enterprise 
Community, underscoring the level of poverty and need for economic 
development in the region. The success of the Enterprise Community 
designation within the Reservation will be enhanced by the availability 
of safe and adequate municipal, rural and industrial water supplies 
that this regional project will bring to the Reservation. Outside the 
Fort Peck Indian Reservation, the Dry Prairie area has income levels 
that are higher than within the Reservation but lower than the State 
average.
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality. More than 80 percent of 
rural households draw water from near-surface aquifers with nitrates 
exceeding primary contaminant levels for drinking water pursuant to 
regulations implementing the Safe Drinking Water Act. Some of the worst 
water on the North American Continent lies below the Fort Peck Indian 
Reservation in the Madison Formation. This water is not used for human 
or livestock consumption. It is a brine several times more concentrated 
than sea water. Above this unsuitable aquifer are lesser aquifers that 
have been subjected to oil and gas development and have been 
contaminated, in part, by those activities.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and Dry Prairie have 
successfully planned a regional water project, comparable to Garrison, 
WEB, Mni Wiconi and Mid-Dakota that relies on the high quality waters 
of the Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Tables 1 and 2.

              TABLE 1.--COMPARISON OF FORT PECK TOTAL DISSOLVED SOLID LEVELS WITH COMPARABLE PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                                                        Total
                                                                                                      Dissolved
                     Project                                           Community                        Solids
                                                                                                        (mgl)
----------------------------------------------------------------------------------------------------------------
Fort Peck........................................  Fort Kipp.......................................        2,730
Lewis and Clark..................................  Upper Limit.....................................        2,600
Mni Wiconi.......................................  Red Shirt.......................................        2,332
Mni Wiconi.......................................  Reliance........................................        2,056
Mni Wiconi.......................................  Murdo...........................................        1,761
Mni Wiconi.......................................  Kennebec........................................        1,740
Mni Wiconi.......................................  Presho..........................................        1,398
Fort Peck........................................  Poplar..........................................        1,380
Fort Peck........................................  Frazer..........................................        1,180
Lewis and Clark..................................  Lower Limit.....................................        1,179
Mni Wiconi.......................................  Wakpamni Lake...................................        1,125
Mni Wiconi.......................................  Horse Creek.....................................          869
Fort Peck........................................  Brockton........................................          748
Mni Wiconi.......................................  Pine Ridge Village..............................          416
----------------------------------------------------------------------------------------------------------------


                     TABLE 2.--COMPARISON OF FORT PECK SULFATE LEVELS WITH COMPARABLE PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                                                  Sulfate (mgl)
                    Project                                       Community
----------------------------------------------------------------------------------------------------------------
Lewis and Clark..............................  Upper Limit..................................            1,500
Mni Wiconi...................................  Reliance.....................................            1,139
Fort Peck....................................  Fort Kipp....................................            1,120
Mni Wiconi...................................  Red Shirt....................................            1,080
Mni Wiconi...................................  Murdo........................................            1,042
Mni Wiconi...................................  Kennebec.....................................              984
Mni Wiconi...................................  Presho.......................................              644
Lewis and Clark..............................  Lower Limit..................................              538
Fort Peck....................................  Frazer.......................................              498
Mni Wiconi...................................  Horse Creek..................................              410
Mni Wiconi...................................  Wakpamni Lake................................              398
Fort Peck....................................  Brockton.....................................              212
Fort Peck....................................  Poplar.......................................              103
Mni Wiconi...................................  Pine Ridge Village...........................               70
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the City of Los Angeles Board of Harbor 
                   Commissioners, Port of Los Angeles
    Mr. Chairman and Members of the Subcommittee: We are Nicholas G. 
Tonsich, President of the City of Los Angeles Board of Harbor 
Commissioners, and Larry A. Keller, Executive Director of the Port of 
Los Angeles. Together, we oversee the activities of the Port of Los 
Angeles, the largest container seaport in the United States. Our 
testimony speaks in support of continuing the Federal role in carrying 
out the major navigation improvements underway at the Port, which 
underpin our country's decisive role in global trade.
    We thank your Subcommittee for its unwavering support of the Pier 
400 Deep-Draft Navigation and Landfill Project, the first phase of the 
2020 Infrastructure Development Plan at the Port. With the Corps of 
Engineers, we are proud to have completed Pier 400 in April 2000--under 
budget and ahead of schedule! In August of this year, the Maersk 
Sealand shipping company--now the largest shipping line in the world--
will open its state-of-the-art container terminal on Pier 400. Last 
year, your Subcommittee's earmark helped us begin the Channel Deepening 
Project, the second phase of the navigation improvements under the 2020 
Plan. The Corps has scheduled construction to begin this August.
    Today, we present testimony evidencing the need for full federal 
funding for construction of the Channel Deepening Project. The 
President's fiscal year 2003 Budget targets funds to construction 
projects that, ``provide the greatest economic return to the nation . . 
.'' \1\ By all objective standards, the Channel Deepening Project 
squarely meets the President's tests as do the Port's operation and 
maintenance projects that support our commercial navigation 
initiatives. Therefore, we respectfully ask the Subcommittee to fully-
fund our fiscal year 2003 appropriations requests.
---------------------------------------------------------------------------
    \1\ ``The Budget for Fiscal Year 2003, Corps of Engineers--Civil 
Works,'' Page 296.
---------------------------------------------------------------------------
the economic impact of the 2020 infrastructure development plan on the 
                         united states economy
    In the late 1970s, the San Pedro Bay ports of Los Angeles and Long 
Beach quite accurately forecast the current surge in the international 
trade needs of the Southern California region, and the Nation. The 
dramatic increase in trade volumes would come from Pacific Rim and 
Latin American countries. In the early 1980s, the Port of Los Angeles 
entered a long-term cooperative planning effort with the Army Corps of 
Engineers, known as The 2020 Infrastructure Development Plan. The 2020 
Plan acknowledges the phenomenal growth of trade through the Port of 
Los Angeles. It is a blueprint for the Port's infrastructure 
development and adaptation to changes in maritime technology and to the 
projected growth in trade volumes well into this century. The Channel 
Deepening Project marks the second phase of the 2020 Plan that began 
with the Pier 400 Deep-Draft Navigation and Landfill Project. The Port 
of Los Angeles is aggressively moving forward with the 2020 Plan's 
goal: to meet the extraordinary infrastructure demands placed on the 
port of Los Angeles in the face of the explosion in global trade.
    The forecast has proved true, far exceeding our expectations! 
Consequently, infrastructure development at the Port of Los Angeles is 
now more critical than ever, with more than 35 percent of containerized 
trade entering the United States through the San Pedro Bay port 
complex. Approximately 19 percent is attributed to container 
throughputs at the Port of Los Angeles. In fact, the Port of Los 
Angeles handled more than 5.1 million TEUs in 2001, representing a 
first in the history of American seaports. Pacific Rim and Mexican 
trade volumes with the United States are also at an all-time high. 
These increased trade volumes have solidified the Port of Los Angeles 
as a pivotal player in the global trading network.
    With a more robust Asian economy, we can best describe the 
potential for increased two-way trade with the Pacific Rim, alone, as 
colossal. To illustrate, in 2000, nine start-up shipping lines entered 
the trans-Pacific trading network, seven of which now call at the Port 
of Los Angeles. Last year, the Port and its customers recorded an 
unprecedented increase in containerized cargo from the Pacific Rim 
valued at more than $300 billion. These goods went on to stores and 
manufacturing plants across the United States supporting jobs and local 
economies. In 2001, goods imported from China accounted for 55 percent 
of the overall Pacific Rim trade with the United States. Conversely, 
China is the primary importer of American goods. Modifications in its 
trade policies and investment practices make it a favorable market for 
American businesses and would boost the continued upswing in the United 
States economy and the strong purchasing power of American consumers 
seeking competitively priced retail merchandise. 2001 was a year of 
continued burgeoning trade opportunities with Latin America, also. 
Trade volumes between Mexico and Southern California, for instance, has 
increased 152 percent since 1994. As such, the Port handled 
approximately 5 million containers, in 2001 alone, resulting in the 
maritime industry's recognition of the Port of Los Angeles as the 
busiest container port in the United States.
    As we have testified in the past, cargo throughput for the San 
Pedro Bay--and the Port of Los Angeles in particular--has a tremendous 
impact on the United States' economy. This fact cannot be over 
emphasized. The ability of the Port to meet the spiraling demand of the 
phenomenal growth in global trade through its facilities is dependent 
upon the construction of sufficiently deep water channels that will 
accommodate the largest state-of-the-art deep-draft cargo container 
ships that are already in service. These new ships provide greater 
efficiencies in cargo transportation, thereby offering American 
consumers lower prices on imported goods and exports that are more 
competitive from the United States to foreign markets. However, for 
American seaports to maintain their position in global trade, the 
federal government must immediately make the necessary infrastructure 
improvements that will enable our ports to participate in this rapidly 
changing global trading arena.
    The Channel Deepening Project is clearly a commercial navigation 
project of national economic significance and one that will yield 
exponential economic returns to the United States well into the future. 
The national economic benefits are evidenced by the creation of more 
than one million permanent well-paying jobs across the United States; 
more than $1 billion in wages and salaries; and, local state and 
federal sales and income tax revenues, including increased U.S. Customs 
Service revenues, deposited to the Federal treasury. The return on the 
Federal investment is real and quantifiable, and we expect it to 
surpass the cost-benefit ratio as determined by the Corps of Engineers 
project Feasibility Study many times over. The Federal investment in 
the Channel Deepening Project will ensure that the Port of Los Angeles, 
the nation's largest container seaport, remains at the forefront of the 
new global trade network well into the 21st century.
                     the channel deepening project
    The Channel Deepening Project began in February 1999 when the Port 
and the Los Angeles District Corps executed a Memorandum of Agreement 
(MOA). The MOA expedited the preliminary study phase required to engage 
the Corps in the Channel Deepening Project, a federal navigation 
project. In anticipation of a favorable Chief of Engineers' Report, 
Congress authorized the Channel Deepening Project in the Water 
Resources Development Act of 2000. The Corps approved the Feasibility 
Study on December 29, 2000, thereby enabling the Port to proceed with 
the Channel Deepening Project.
    The Port of Los Angeles requests that your Subcommittee include an 
appropriation of $20,000,000 for the federal share of construction 
dredging of the main navigation channel, to begin in August of this 
year. The Corps of Engineers' has estimated the total project cost of 
approximately $171,000,000 \2\ with a federal share of $49,800,000, and 
a local share of $121,200,000. The Corps has formally stated that it 
has capability to spend fully the $20 million in fiscal year 2003. In 
May of this year, we expect to execute a simple Project Cooperation 
Agreement (PCA) with the Corps, enabling the project to begin on time. 
Along with the executed PCA, we need Congress to fully-fund the Channel 
Deepening Project in fiscal year 2003.
---------------------------------------------------------------------------
    \2\ Escalated through end of construction in fiscal year 2005, per 
OMB.
---------------------------------------------------------------------------
    We cannot emphasize too strongly the critical importance of 
initiating construction dredging on the Channel Deepening Project in 
calendar year 2002. At -45 Mean Lower Low Water (MLLW), the Main 
Channel is, simply, too shallow to accommodate the new state-of-the-art 
container vessels designed to draft as much as -48 feet and hold 
containers weighing more than 6,000 TEUs. The 2000 Chief of Engineers' 
Report concurred with the Feasibility Study's recommendation that the 
Corps dredge the Channel to at least -53 feet, including a modest 
allowance for varied tidal conditions and under-keel clearance. The 
project also includes dredging approximately 6.6 million cubic yards of 
sediment from the Turning Basin, the West and East Basins, and the East 
Basin Channel. Five of the major container shipping lines that 
currently call at the Port of Los Angeles have vessels that draft -46 
feet when fully loaded. Consequently, they call with only partial loads 
to be able to safely navigate the harbor's channels. While unavoidable, 
this makes for an inefficient shipping system and opens the door to 
cargo diversion to Vancouver, Canada.
    To further illustrate the urgency of fully funding the Channel 
Deepening Project, the China Shipping Company is awaiting six 9,000 TEU 
container ships. Its partner, CMA-CGM (Compagnie Maritime 
d'Affretement-Compagnie Generale Maritime)--also known as ``The French 
Line''--ordered three 6,600 TEU container ships. Each ship drafts at 
-48 feet. Beginning in 2004, these lines will begin calling exclusively 
at the Port of Los Angeles from the Pacific Rim. Unless construction 
dredging begins this year and remains on schedule, the Port would be 
unable to service its customers' infrastructure needs and provide the 
planned state-of-the-art functional navigation gateway for the imported 
consumer goods and manufacturing parts to enter the American stream of 
commerce.
    Simply, Mr. Chairman, there are no other ports on the west coast of 
the United States with the current infrastructure capacity to serve 
these container ships or to absorb the volume of container throughputs. 
These state-of-the-art container ships represent the new competitive 
requirements for international shipping efficiencies in this century. 
It is imperative that Congress appropriate the requested funding that 
will enable the Channel Deepening Project to begin this August, with 
ongoing full funding that will keep the project on schedule for 
completion in 2005.
 ongoing maintenance of the los angeles harbor and breakwater and the 
                       los angeles harbor models
    For the Army Corps of Engineers Operation and Maintenance Program, 
the Port of Los Angeles seeks $4,000,000 to continue the hydrographic 
surveys, and the ongoing maintenance dredging of the federal channels 
and turning basins, and to continue engineering studies and 
rehabilitation of the federal breakwater at the Los Angeles Harbor. The 
efficient operation of the completed Pier 400 Project relies, too, on 
the ongoing maintenance of the federal navigation channels and the 
hydrographic surveys.
    Furthermore, the Port of Los Angeles also requests a total 
appropriation of $3,165,000 for the San Pedro Bay Models at the Corps 
of Engineers' Waterways Experiment Station (WES) at Vicksburg, 
Mississippi. This funding is critical for the Corps' maintenance of the 
Los Angeles Harbor Model studies and the Wave Gauge Program. Our 
request includes $165,000 for the maintenance of the physical model of 
the San Pedro Bay to maintain operational readiness for the continued 
study of navigation improvements at the Port, and $3,000,000 to upgrade 
the wave gauges, wave generators, and computer systems that are now 
outdated.
    The information derived from these study tools is critical to the 
validation of the numerical and physical models used for the design of 
ongoing projects under the Port's 2020 Plan. For example, during the 
state-of-the-art design of the Pier 400 Project, the scientists and 
engineers at WES, the Port of Los Angeles and the Corps' Los Angeles 
District used eight separate, but related models, to site the land 
reclamation element of the project and its effect on tidal resonance on 
container ships at dock. As a result, maintenance of the hydraulic and 
physical models at WES, and their prototype data acquisition 
facilities, continue to be an essential resource for the Corps of 
Engineers and the Port of Los Angeles.
                               in summary
    Mr. Chairman, the Port of Los Angeles respectfully urges your 
Subcommittee to include the following earmarks in the fiscal year 2003 
Budget to support the U.S. Army Corps of Engineers projects on behalf 
of the Port of Los Angeles:
  --$20,000,000 to start construction dredging of the Channel Deepening 
        Project;
  --$4,000,000 for channel maintenance dredging and rehabilitation of 
        the Federal breakwater;
  --$3,165,000 for ongoing maintenance of the Los Angeles Harbor Model 
        at WES.
    Thank you, Mr. Chairman, for the opportunity to submit this 
testimony in support of continued Congressional support of the Channel 
Deepening Project and other important Federal navigation projects at 
the Port of Los Angeles. The Port has long valued the support of your 
Subcommittee and its appreciation of the port industry's importance to 
the economic vitality of the United States, and, in particular, the 
role of the Port of Los Angeles in contributing to this country's 
economic vigor.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI) and 
its more than 200 member tribal nations, we are pleased to have the 
opportunity to present written testimony on fiscal year 2003 
appropriations for the Department of Energy.
    The tragic events of September 11 brought forth the strength and 
the determination of our nation to survive in the face of adversity. It 
is this same spirit that has carried Indian Country through years of 
annihilation and termination. It is this same spirit that has propelled 
Indian Nations forward into an era of self-determination. And it is in 
this same spirit of resolve that Indian Nations come before Congress to 
talk about honoring the federal government's treaty obligations and 
trust responsibilities throughout the fiscal year 2003 budget process.
    The federal trust responsibility represents the legal obligation 
made by the U.S. government to Indian tribes when their lands were 
ceded to the United States. This obligation is codified in numerous 
treaties, statutes, Presidential directives, judicial opinions, and 
international doctrines. It can be divided into three general areas--
protection of Indian trust lands; protection of tribal self-governance; 
and provision of basic social, medical, and educational services for 
tribal members.
    NCAI realizes that Congress must make difficult budget choices this 
year. As elected officials, tribal leaders certainly understand the 
competing priorities that members of Congress must weigh over the 
coming months. However, the fact that the federal government has a 
solemn responsibility to address the serious needs facing Indian 
Country remains unchanged, whatever the economic or political climate 
may be. We at NCAI urge you to make a strong commitment to meeting the 
federal trust obligation by fully funding those Department of Energy 
programs that are vital to the creation of vibrant Indian Nations.
            office of energy efficiency and renewable energy
    The Solar Program within the Office of Energy Efficiency and 
Renewable Energy provides electricity restructuring technical 
assistance and analysis to state and tribal decisionmakers to achieve 
renewable and energy efficiency goals. It also provides for competitive 
solicitation for cost-shared awards for renewable and hybrid field 
feasibility studies National Congress of American Indians fiscal year 
2003 Energy Appropriations Testimony Page and validation projects. We 
support the Administration request of $87 million for the Solar 
Program.
    In the Renewable Indian Energy Resource Program, the NCAI strongly 
urges enactment of the proposed $8.3 million funding level, which would 
help tribes with much-needed capacity building activities.
    NCAI also supports the proposed increase for the Weatherization 
Assistance to $277.1 million. This funding level would greatly assist 
in the delivery of cost-effective, energy efficient improvements to 
lower-income households.
                   office of environmental management
    The Office of Environmental Management Office of Public 
Accountability (EM-11) funds cooperative agreements with several tribes 
that are participating in the cleanup and restoration of federal 
facilities and lands impacting tribal environmental quality. Funding 
for tribal cooperative agreements has been frozen for the past five 
years, while the scope of program issues and activities has expanded. 
We urge increased funding for all tribal cooperative agreements in 
order to provide realistic resources to the tribes involved in cleanup 
and environmental restoration programs.
    Under the President's budget request, Hanford Site activities would 
receive up to $800 million for expedited cleanup efforts in fiscal year 
2003. The amount and timing of the increase proposed for the Hanford 
Site is dependent upon an agreement between Washington State, the 
Department of Energy, and the Environmental Protection Agency. Because 
the Hanford Site is on ceded lands of the Umatilla, Yakama, and Nez 
Perce tribes, these governments should be included as a consenting and 
planning party before finalization of cleanup goals, objectives, and 
implementation.
            office of civilian radioactive waste management
    The Administration has proposed a $150 million increase for the 
Office of Civilian Radioactive Waste Management Programs, which 
oversees development of a high-level radioactive waste and spent 
nuclear fuel repository at Yucca Mountain in Nevada. The funding 
increase would be utilized for completing characterization studies, 
program integration, and waste acceptance and transportation services.
    The State of Nevada and ten counties surrounding Yucca Mountain 
have received several million dollars for scientific review of the 
studies, yet tribal governments have not received funding for oversight 
activities or review and analysis of technical assessments. We urge the 
Subcommittee to direct the Department of Energy to provide at least $10 
million for impacted tribes to assess the full range of impacts of the 
Yucca Mountain repository to their homelands and culture. The Yucca 
Mountain Project Office has identified and worked with impacted tribes 
and should immediately implement a consultation and funding outreach 
with impacted tribal governments.
                               conclusion
    Thank you for this opportunity to present written testimony 
regarding the fiscal year 2003 appropriations for the Department of 
Energy. The National Congress of American Indians calls upon Congress 
to fulfill the federal government's fiduciary duty to American Indians 
and Alaska Native people. This responsibility should never be 
compromised or diminished because of any political agenda or budget 
cut. Tribes throughout the nation relinquished their lands and in 
return received a trust obligation, and we ask that Congress maintain 
this solemn obligation to Indian Country and continue to assist tribal 
governments as we build strong, diverse, and healthy nations for our 
people.
                                 ______
                                 
            Prepared Statement of the Ventura Port District
    The Ventura Port District respectfully requests that the Congress:
  --Support the Administration's request for $2,590,000 to be included 
        in the fiscal year 2003 Energy and Water Development 
        Appropriations Bill for the U.S. Army Corps of Engineers 
        maintenance dredging of the Ventura Harbor federal channel and 
        sand traps.
  --Include $1,510,000 to the fiscal year 2003 Energy and Water 
        Development Appropriations Bill for the U.S. Army Corps of 
        Engineers to repair the serious structural damage to the South 
        Beach Groin at Ventura Harbor.
  --Include $400,000 in the fiscal year 2003 Energy and Water 
        Development Appropriations Bill to continue a cost shared 
        Feasibility Study to determine the advisability of modifying 
        the existing Federal navigation project at Ventura Harbor to 
        include a sand bypass system.
                               background
    Ventura Harbor, homeport to 1500 vessels, is located along the 
Southern California coastline in the City of San Buenaventura, 
approximately 60 miles northwest of the City of Los Angeles. The harbor 
opened in 1963. Annual dredging of the harbor entrance area is usually 
necessary in order to assure a navigationally adequate channel. In 
1968, the 90th Congress made the harbor a Federal project and committed 
the U.S. Army Corps of Engineers to provide for the maintenance of the 
entrance structures and the dredging of the entrance channel and sand 
traps.
    The harbor presently generates more than $40 million in gross 
receipts annually. That, of course, translates into thousands of both 
direct and indirect jobs. A significant portion of those jobs are 
associated with the commercial fishing industry (the harbor is 
consistently amongst the top ten commercial fishing ports in the United 
States), and with vessels serving the offshore oil industry. 
Additionally, the headquarters for the Channel Islands National Park is 
located within the harbor, and the commercial vessels transporting the 
nearly 100,000 visitors per year to and from the Park islands offshore, 
operate out of the harbor. All of the operations of the harbor, 
particularly those related to commercial fishing, the support boats for 
the oil industry, and the visitor transport vessels for the Channel 
Islands National Park are highly dependent upon a navigationally 
adequate entrance to the harbor.
                     operations & maintenance needs
Maintenance Dredging
    It is estimated that $2,590,000 will be required to perform routine 
maintenance dredging of the harbor's entrance channel and sand traps 
during fiscal year 2003. This dredging work is absolutely essential to 
the continued operation of the harbor.
South Beach Groin
    It is estimated that $1,510,000 will be required during fiscal year 
2003 for the Corps of Engineers to repair extensive storm damage to the 
South Beach Groin. While the Congress did add funds to the fiscal year 
2002 Appropriations Bill to effectuate these repairs, heavy seas in 
late December 2001 and early January 2002 caused a breach to develop in 
the trunk of the harbor's offshore breakwater and in light of the fact 
that the breach had the potential to immediately impair the 
navigability of the harbor entrance the Corps of Engineers, with the 
Port District's concurrence, redirected the fiscal year 2002 
appropriation to the more urgent breakwater repairs. Thus, the groin 
repairs will not be accomplished in fiscal year 2002 and the structure 
continues to experience further degradation.
                              study needs
    It is estimated that $400,000 will be required during fiscal year 
2003 to continue a cost shared Feasibility Study to determine the 
advisability of modifying the existing Federal navigation project at 
Ventura Harbor to include a sand bypass system. Given the continuing 
need for maintenance dredging, it is appropriate to determine if a sand 
bypass system or other measures can accomplish the maintenance of the 
harbor in a manner that is more efficient and cost effective than the 
current contract dredging approach.
                                 ______
                                 
 Prepared Statement of the Louisiana Department of Transportation and 
                              Development
               mississippi river and tributaries project
    The Louisiana Department of Transportation and Development, Office 
of Public Works and Intermodal Transportation, is the agency designated 
to represent the State of Louisiana in the planning and orderly 
development of its water resources. This statement is presented on 
behalf of the State of Louisiana and its twenty levee boards. It 
contains recommendations for fiscal year 2003 appropriations for work 
in Louisiana under the Mississippi River and Tributaries Project.
    Louisiana contains the terminus of the Mississippi River, which has 
the third largest drainage basin in the world, exceeded only by the 
watersheds of the Amazon and Congo Rivers. The Mississippi River drains 
41 percent, or 1\1/4\ million square miles, of the contiguous United 
States and parts of two Canadian provinces. All of the runoff from 
major river basins, such as the Missouri and Upper Mississippi, the 
Ohio including the Tennessee and others, and the Arkansas and White, 
flow into the Lower Mississippi, which empties into the Gulf of Mexico 
through Louisiana.
    The jurisdiction of levee boards in Louisiana includes one-third of 
the State's total area. However, the importance of this one-third of 
the State can be seen by the fact that it contains nearly 75 percent of 
the State's population and about 90 percent of the State's disposable 
personal income. Traditionally, the levee district areas are water rich 
and many have fallen heir to industrial development that ranks high in 
the nation. It has been estimated that about 60 percent of the State's 
agricultural products come from levee district areas. So you can see 
why Louisiana and its twenty levee districts are so interested in 
seeing the completion of the Mississippi River and Tributaries Project.
    In making the following recommendations regarding construction, 
studies, and some selected operation and maintenance items, the State 
of Louisiana hopes that Congress and the Administration will honor 
their prior commitments to infrastructure development and fund our 
requests.
Operation and Maintenance.--Request: $62,892,000
  --Atchafalaya Basin
  --Old River
  --Lower Red River, South Bank Levees (Bayou Rapides Drainage 
        Structure and Pumping Plant)
  --Mississippi River Levees (total MR&T)
  --Channel Improvement (total MR&T)
    The operation and maintenance of completed works are essential to 
achieving the full benefits of projects. In times of budget constraints 
it is essential that operation and maintenance of projects continue as 
scheduled in order to maintain their effectiveness, otherwise more 
expensive maintenance and rehabilitation would be required at a later 
date.
    The above listed projects have reached a point where delayed 
maintenance is now essential and we urge you to fund these projects to 
the full capability of the Corps.
Mississippi River Levees (total MR&T).--Request: $30,600,000
    The Mississippi River and Tributaries Project above Louisiana is 
about 90 percent complete, but to a much lesser extent in Louisiana. 
Because of the improvements upstream, increased flows are a major 
problem in Louisiana where the project is lagging behind the 
construction in the upper valley. Of the total request for levee 
construction, most is needed for Louisiana projects. In the Vicksburg 
District there is a deficiency of 4 to 7 feet on mainline Mississippi 
River levees in the Fifth Louisiana Levee District. It is also 
requested that Federal funds be provided to purchase rights-of-way for 
this critical work as the Levee District is in an economically 
depressed area and does not have a tax base capable of producing the 
funds necessary for both maintenance and rights-of-way purchase.
Channel Improvement (total MR&T).--Request: $23,750,000
    Channel improvement and bank stabilization provide protection to 
the levees and the development behind them, as well as, preventing 
unsatisfactory alignment where the river's bank is unstable. The funds 
we are requesting will provide for the dredging and revetment work 
necessary to accommodate increased flows caused by upstream 
improvements.
Morganza to The Gulf of Mexico.--Request: $8,000,000
    Funds are requested for pre-construction engineering and design. 
This hurricane protection project is vital for coastal Louisiana and 
should be constructed as soon as possible. Authorization should be in 
WRDA 2002.
Local Contributions for Flood Control Improvements
    Historically, Louisiana has always done its part in cooperation 
with the Federal agencies concerned with flood control. The Louisiana 
Board of State Engineers, the forerunner of the Department of 
Transportation and Development, Office of Public Works and Intermodal 
Transportation, was created in 1879, the same year as the Mississippi 
River Commission, to coordinate the planning and construction of the 
required flood control facilities to protect the State. Since that 
time, local expenditures for flood control have exceeded $730,000,000. 
This amount adjusted to present day dollars represents expenditures in 
excess of $5.5 billion. Nearly one-half of the potential flooded area 
of the Lower Mississippi River Valley lies in Louisiana. Local 
expenditures for flood control have increased with the growth of the 
valley. This record not only meets, but exceeds any National Water 
Policy local participation requirement ever put into practice.
Conclusion
    The Mississippi River and Tributaries Project has been underway 
since 1928 and isn't scheduled for completion until the year 2031--a 
date that will continually move further into the future unless an 
adequate level of funding is provided each year. We understand the need 
for budget constraints, but the past budget requests for the total MR&T 
Project has not been adequate. We endorse the recommendation of the 
Mississippi Valley Flood Control Association in their request for $391 
million for the MR&T project throughout the whole valley.
    The State of Louisiana, Department of Transportation and 
Development, Office of Public Works and Intermodal Transportation, in 
particular, wishes to commend the Appropriations Subcommittees on 
Energy and Water Development and express our appreciation for the 
foresight and understanding exhibited for water resources projects 
which are vital to the national interest. We solicit your further 
consideration of the recommendations presented herein.

         MISSISSIPPI RIVER AND TRIBUTARIES--SUMMARY OF RECOMMENDED
         APPROPRIATIONS FOR FISCAL YEAR 2003--STATE OF LOUISIANA
------------------------------------------------------------------------
                                                            Louisiana
         Louisiana Projects           Budget  Schedule       Request
------------------------------------------------------------------------
Operation and Maintenance:
    Mississippi River Levees........        $6,875,000        $3,456,000
    Atchafalaya Basin...............        12,512,000        17,152,000
    Channel Improvement.............        14,610,000        14,610,000
    Old River Control Structure.....        11,520,000        25,299,000
    Bonnet Carre Spillway...........         3,105,000         3,105,000
    Lower Red River-Bayou Rapides              125,000         2,375,000
     Drainage Structure & Pumping
     Plant..........................
    Boeuf & Tensas Rivers...........         2,463,000         3,713,000
    Red River Backwater Area........         3,145,000         3,595,000
    Atchafalaya Basin, Floodway              2,095,000         2,095,000
     System, LA.....................
    Baton Rouge Harbor-Devil Swamp,            210,000           210,000
     LA.............................
    Bayou Cocodrie and Tributaries..            75,000            75,000
    Mississippi Delta Region,                  860,000           860,000
     Caernarvon, LA.................
    Inspection of Completed Works...           751,000           751,000
    Mapping.........................           750,000           750,000
    Dredging........................         6,970,000         6,970,000
    Revetments & Dikes (AR, LA, MS).        13,170,000        13,170,000
Construction:
    Mississippi River Levees........        29,100,000        30,600,000
    Louisiana State Penitentiary             2,449,000         2,449,000
     Levee..........................
    Atchafalaya Basin...............        18,873,000        21,873,000
    Channel Improvements............        21,350,000        23,750,000
    Atchafalaya Basin, Floodway              7,107,000        10,200,000
     System.........................
    Mississippi Delta Region, Davis          3,500,000         3,500,000
     Pond...........................
    Mississippi & Louisiana                     25,000            25,000
     Estuarine Area (Bonnet Carre)..
General Investigations:
    Morganza to the Gulf of Mexico..         2,880,000         8,000,000
    Donaldsonville to the Gulf of              780,000         1,300,000
     Mexico.........................
    Alexandria to the Gulf of Mexico           420,000           700,000
    Spring Bayou....................           480,000         1,200,000
    Tensas River Basin, LA..........                 0           200,000
    West Baton Rouge Parish, LA                      0           750,000
     (recon)........................
    Collection & Study of Basic Data           445,000          445,000
------------------------------------------------------------------------
  NOTE: The projects listed above are only those in Louisiana (except
  where noted) and directly affect the State. We realize that there are
  other projects in the Valley. We endorse the recommendations of the
  Mississippi Valley Flood Control Association.

  flood control, navigation, hurricane protection and water resources 
                         projects in louisiana
    The Louisiana Department of Transportation and Development, Office 
of Public Works and Intermodal Transportation, is the agency designated 
to represent the State of Louisiana for the coordinated planning and 
development of water resources, including flood control, navigation, 
drainage, water conservation and irrigation projects; therefore, this 
statement is presented on behalf of the State of Louisiana and its 
twenty levee boards. We are pleased to present the recommendations for 
fiscal year 2003 appropriations for Louisiana projects. The projects 
listed herein are in addition to those covered in the statement by the 
Office of Public Works and Intermodal Transportation for the 
Mississippi River and Tributaries Project.
    Louisiana contains the terminus of the Mississippi River, which has 
the third largest drainage basin in the world. The Mississippi drains 
41 percent, or 1\1/4\ million square miles, of the contiguous United 
States and parts of two Canadian provinces. In addition to the 
Mississippi River system, Louisiana contends with other interstate 
waters--the Sabine River, the Red River, the Ouachita River, the Amite 
River, and the Pearl River. All of these river systems converge toward 
Louisiana, passing on to the Gulf of Mexico, draining a figure 
approaching 50 percent of these contiguous 48 states.
    Louisiana also plays a strategic part in providing the country with 
access to world markets through an inland navigation system. 
Approximately 75 percent of all soybeans, animal feed, and corn grown 
in the United States are shipped through Louisiana. And almost 50 
percent of all rice and cereals. Louisiana has the highest waterborne 
traffic by state. The river flood control systems work in conjunction 
with the hurricane and coastal protection systems to form a total 
integrated protection system to protect us from floods of all types. 
This integrated system protects the inland navigation system. It also 
protects the petrochemical industry in Louisiana which has the second 
largest refining capacity in the country producing approximately 15 
billion gallons of gasoline at 19 refineries. Louisiana ranks second in 
produced natural gas and third for oil production. The pipeline system 
which supplies much of the country with natural gas and petroleum 
originates in Louisiana. The petrochemical and oil and gas industries 
depend almost totally on Federally constructed levee systems to protect 
them from floods and hurricanes, and depend on the Federally maintained 
navigation system for transportation. This infrastructure development 
which benefits the entire country has contributed to the destruction of 
our marshes and wetlands which still produce a commercial fish and 
shellfish harvest worth more than $600 million and 40 percent of the 
Nation's wild fur and hides harvest worth more than $15 million. This 
wealth of natural resources cannot survive and propagate for the 
economic benefit of our State and Nation without onshore facilities 
that require protection from major storms and hurricanes. It would be a 
national loss if these facilities and infrastructures were not 
protected. But Louisiana alone cannot support the infrastructure on 
which the country depends. All these facilities in Louisiana that 
support and contribute to the economic well being of the country are 
protected by flood control measures; flood control measures that the 
Federal Government has appropriately committed itself to provide.
    In making the following recommendations regarding construction, 
studies, and operation and maintenance items, the State of Louisiana 
would hope that Congress and the Administration will honor their prior 
commitments to infrastructure development and fund our requests. We 
feel that water resources projects are probably the most worthwhile and 
cost-effective projects in the Federal budget, having to meet stringent 
economic justification criteria not required of other programs. We ask 
that this be taken into consideration in the final decision to 
appropriate the available funds.
Inner Harbor Navigation Canal Lock.--Request: $30,000,000
    The Inner Harbor Navigation Canal (IHNC) lock has long been 
considered dimensionally obsolete and is a key to the viability of the 
Port of New Orleans, the nation's 4th largest.
West Bank Vicinity of New Orleans, LA.--Request: $25,000,00
    We urge Congress to provide for an accelerated construction 
schedule for this project to provide hurricane protection to the 
metropolitan area of New Orleans.
Southeast Louisiana Urban Flood Control.--Request: $100,000,000
    We urge that the approved five-year construction schedule be 
maintained by authorizing funds to the full capability of the Corps.
Lake Pontchartrain and Vicinity, Hurricane Protection.--Request: 
        $14,900,000
    Funding to the full capability of the Corps will allow for the 
completion of existing construction contracts and to continue with 
other required work.
Mississippi River Ship Channel, Baton Rouge to Gulf.--Request: $200,000
    The funds will be used to complete existing construction contracts 
for saltwater intrusion mitigation to the water supply of Plaquemines 
Parish.
New Orleans to Venice.--Request: $3,500,000
    This is a hurricane protection project for Plaquemines Parish. The 
funds requested are needed to continue construction of this important 
hurricane protection project.
Larose to Golden Meadow.--Request: $410,000
    This is a hurricane protection project which will protect the 
developed areas along Bayou Lafourche. Funds are needed to complete 
this project.
Ouachita River Levees.--Request: $3,600,000
    The Ouachita River Levees are deficient and need to be brought up 
to Federal standards. We request that specific language be added to the 
appropriations bill to direct the Secretary of the Army to accomplish 
this task.
J. Bennett Johnston (Red River) Waterway.--Request: $29,000,000
    Remaining work consists of additional channel training works, 
purchase of mitigation lands and construction of recreation features. 
We urge the approval of funds for fiscal year 2003 based on the 
previously approved schedule.
Grand Isle and Vicinity.--Request: $213,000
    Funds are requested to complete the study.
East Baton Rouge Parish, LA.--Request: $1,000,000
    The funds requested are needed initiate construction.
Lake Pontchartrain Westshore.--Request: $300,000
    Funds would be used to advance Pre-construction, engineering and 
design.
MR-GO Reevaluation Study.--Request: $16,351,000
    The Environmental Protection Agency, at the request of local 
officials, has formed a task force to re-examine the navigation project 
based on the amount of economic benefits and the safety issues of 
possible storm damage.
Orleans Parish, LA.--Request: $25,000
    This project is in addition to the Southeast Urban Flood Control 
projects already under construction in Orleans Parish. The funds 
requested would be used to advance pre-construction engineering and 
design.
Jefferson Parish, LA.--Request: $25,000
    This project is in addition to the Southeast Urban Flood Control 
projects already under construction in Jefferson Parish. The funds 
requested would be used to advance pre-construction engineering and 
design.
Calcasieu Lock, LA.--Request: $800,000
    The Calcasieu Lock is becoming congested due to an increase in 
traffic. The funds will be used to advance the feasibility study.
St. Bernard Parish, Urban Flood Control.--Request: $500,000
    Flood control improvements are needed to reduce the repetitive 
damages to residential development, which is consistent with 
Administration policy. The funds will be used to advance the 
feasibility study.
New Study Requests.--Request: $200,000
    Several new study requests will address a comprehensive look at the 
hurricane protection system, urban flood control, ecosystem restoration 
and beneficial use of dredged material. See attached Summary Sheet for 
individual projects.
Continuing Authorities Projects
    We urge you to discontinue the practice of earmarking funds and to 
raise the program limits for Section 205 projects to $60 million.
Coastal Wetlands Planning, Protection and Restoration Act
    The passage of the Coastal Wetlands Planning, Protection and 
Restoration Act has been a positive force for Louisiana. We support the 
continued funding for this program.
Red River Basin Chloride Control Project.--Request: $2,000,000
    The funds are needed to continue environmental monitoring and 
completion of the Ouchita River re-evaluation studies.
Operation and Maintenance.--Request: Full Capability
    It is essential that operation and maintenance not be delayed which 
would hamper the effectiveness of the projects and cause more expensive 
maintenance at a later date. We urge you to continue funding O&M to the 
Corps' full capability.
Conclusion
    ``The 2003 Budget targets funds to those waterways that provide the 
greatest economic return, and substantially reduces funding for those 
that provide minor commercial navigation benefits.'' That statement is 
from the President's Budget. It is in direct contradiction with the 
Constitution of the United States of America, Article I, Section 9, 
which states: ``No Preference shall be given by any Regulation of 
Commerce or Revenue to the Ports of one State over those of another; 
nor shall Vessels bound to, or from, one State, be obliged to enter, 
clear, or pay Duties in another.'' Clearly, the President's budget 
gives preference to ports that are on the so-called efficient waterways 
over the ports that are on the underutilized channels. This preference 
is not supported by the Senate who likened the waterways to the 
interstate highway system in Senate Report 107-39. The Senate 
understands the importance of the smaller channels that feed into the 
main arteries of commerce. We believe that this budget policy, if 
allowed to become reality, would devastate the national economy. We 
need to think and practice ``intermodalism'' throughout the government. 
It does no good for the Department of Transportation to promote 
intermodal transportation when the administration is actively 
neglecting the maintenance of the waterway infrastructure. We urge your 
continued support for our marine transportation infrastructure.
    We wish to express our thanks to the Appropriations Subcommittees 
on Energy and Water Development of the House and Senate for allowing us 
to present this brief on the needs of Louisiana. Without reservation, 
practically every single project in Louisiana which has been made 
possible through actions of these committees has shown a return in 
benefits many times in excess of that contemplated by the authorizing 
legislation. The projects which you fund affect the economy of not only 
Louisiana, but the nation as a whole. The State of Louisiana 
appreciates the accomplishments of the past and solicits your 
consideration of the appropriations requested for fiscal year 2003.

    FLOOD CONTROL, NAVIGATION, HURRICANE PROTECTION AND WATER RESOURCES
PROJECTS IN LOUISIANA--SUMMARY OF RECOMMENDED APPROPRIATIONS FISCAL YEAR
                                  2003
------------------------------------------------------------------------
                                                            Louisiana
         Louisiana Projects           Budget  Schedule       Request
------------------------------------------------------------------------
Construction:
    Inner Harbor Navigation Canal           $9,000,000       $30,000,000
     Lock...........................
    West Bank Vicinity of New                5,000,000        25,000,000
     Orleans, LA....................
    Southeast Louisiana Urban Flood         20,083,000       100,000,000
     Control........................
    Lake Pontchartrain and Vicinity,         4,900,000        14,900,000
     Hurricane Prot.................
    Mississippi River Ship Channel,            200,000           200,000
     LA.............................
    New Orleans to Venice, Hurricane           900,000         3,500,000
     Protection.....................
    Larose to Golden Meadow,                   410,000           410,000
     Hurricane Protection...........
    Ouachita River Levees...........                 0         3,600,000
    J. Bennet Johnston (Red River)          11,016,000        29,000,000
     Waterway, LA...................
    Grand Isle and Vicinity.........                 0           213,000
    Comite River Diversion..........         3,000,000         7,000,000
    MR-GO Reevaluation Study........                 0         1,711,000
    East Baton Rouge Parish, LA.....                 0         1,000,000
    Ascension Parish (Environmental                  0         1,000,000
     Infrastructure), LA............
    East Baton Rouge Parish                          0         6,574,000
     (Environmental Infrastructure),
     LA.............................
    Livingston Parish (Environmental                 0         1,000,000
     Infrastructure), LA............
    Red River Chloride Control......           ( \1\ )  ................
Pre-construction Engineering and
 Design:
    Lafayette Parish, LA............           125,000           750,000
    Orleans Parish, LA..............            25,000            25,000
    Jefferson Parish, LA............            25,000            25,000
    West Shore, Lake Pontchartrain,            100,000           300,000
     LA.............................
    Intracoastal Waterway Locks                110,000           500,000
     (Bayou Sorrel), LA.............
Authorized Studies:
    Calcasieu Lock..................           150,000           800,000
    Louisiana Coastal Area-Ecosystem           785,000         5,000,000
     Restoration Feasibility Study
     (COAST  2050)..................
    St. Bernard Parish, Urban Flood            150,000           500,000
     Control........................
    St. John the Baptist Parish, LA.           100,000           300,000
    Calcasieu River Basin, LA.......           150,000           700,000
    Amite River & Tributaries, LA-             100,000           700,000
     Bayou Manchac..................
    Amite River Ecosystem                      150,000           600,000
     Restoration....................
    Atchafalaya, Chene, Boeuf and              100,000           500,000
     Black..........................
    Hurricane Protection                       125,000         1,000,000
     Improvements...................
    St. Charles Parish, Urban Flood            100,000           450,000
     Control........................
    Plaquemines Parish, Urban Flood            100,000           500,000
     Control........................
    Port of Iberia, LA..............           185,000           685,000
    Ouachita River Bank                         37,000            37,000
     Stabilization (AR, LA).........
New Study Requests:
    Millenium Port, LA..............                 0           100,000
    Port Fourchon Enlargement, LA...                 0           100,000
    Pearl River, Bogalusa (MS)......                 0           500,000
Operation and Maintenance: \2\             158,428,000       210,949,000
    Atchafalaya River, Bayous Chene,        14,681,000        19,181,000
     Boeuf & Black..................
    Barataria Bay Waterway..........                 0         5,060,000
    Bayou Lafourche.................         1,085,000         1,085,000
    Calcasieu River & Pass..........        15,852,000        21,352,000
    Gulf Intracoastal Waterway......        19,129,000        27,464,000
    Miss River, Baton Rouge to the          57,482,000        66,162,000
     Gulf...........................
    Mississippi River Gulf Outlet...        13,061,000        16,351,000
    Miss River Gulf Outlets at                  80,000         2,755,000
     Venice.........................
    Ouachita & Black Rivers (AR, LA)         6,491,000        10,795,000
    J Bennett Johnson WW............         7,297,000        16,764,000
    Lake Providence Harbor..........            20,000           441,000
    Madison Parish Port.............             5,000            97,000
------------------------------------------------------------------------
 \1\ Full capability.
 \2\ Note: The following is only a partial listing of the most severely
  under budgeted projects.

                                 ______
                                 
          Prepared Statement of Fifth Louisiana Levee District
    With the combined efforts of the Washington delegation, the 
Mississippi Valley Flood Control Association, the Vicksburg District, 
Corp of Engineers, the State of Louisiana, and the Fifth Louisiana 
Levee District, great strides have been made in recent years regarding 
flood protection for the people of Louisiana. Vulnerable areas, levee 
stretches insufficient in height, have been reduced significantly. 
Completing construction of the remaining Levee enlargement projects, as 
planned, at the earliest date(s) possible, is the only way to insure 
that investments already made in the mainline Mississippi River Levee 
System are protected.
    It is also the only way to insure that the people of Louisiana are 
protected. As long as any section of the Mississippi River Levee System 
is deficient, people are at risk. The Levee System in Louisiana and 
Mississippi must be brought to heights and capabilities equal to that 
of the levees to the north.
    The Mississippi Valley Flood Control Association has requested a 
total appropriation of $391,000,000 (copy attached) in fiscal year 2003 
for Mississippi River and Tributaries (MR&T), to be divided among the 
seven states covered by the Project.
    To guarantee that the Vicksburg District, Corp of Engineers is able 
to proceed with construction plans for the Mississippi River Levee 
System and ensure that MR&T construction schedules are met, it is 
essential that the $25,5000,000 ``capability'', as requested and 
allocated for construction of Levees within the Division, be funded.
    The people of Louisiana spend six months each year contending with 
the possibility of being flooded by waters descending from the northern 
reaches of this nation, and the other six months contending with the 
competing demands on the water resources of the area, especially in the 
Tensas River Basin in Louisiana. Demands for water use and the decline 
of environmental resources combine to create a perpetual problem to the 
health and economy of the Basin.
    Additional funds in the amount of $250,000, allocated for Tensas 
River Basin, Louisiana, Reconnaissance Study, are needed in order for 
the Corps of Engineers to complete a thorough study that is required to 
ensure proper and efficient use of the Basin's water resources, a study 
investigating a comprehensive watershed approach to the problem. I urge 
support of that request for funding.

Mississippi Valley Flood Control Association--Fiscal Year 2003 Civil 
Works Requested Budget, Mississippi River and Tributaries Appropriations

        PROJECT AND STATE                                  MVFCA REQUEST

SURVEYS, CONTINUATION OF PLANNING AND ENGINEERING & 
    ADVANCE ENGINEERING & DESIGN:
    Memphis Metro Area, TN & MS.........................         $25,000
    Germantown, TN......................................         345,000
    Wolf River, Memphis, TN.............................         123,000
    Millington, TN......................................         150,000
    Coldwater Basin Below Arkansas......................         180,000
    Alexandria, LA to the Gulf of Mexico................         420,000
    Morganza, LA to the Gulf of Mexico..................       2,880,000
    Donaldsonville, LA to Gulf of Mexico................         780,000
    Spring Bayou, LA....................................         505,000
    Collection & Study of Basic Data....................         600,000
                    --------------------------------------------------------
                    ____________________________________________________
      SUBTOTAL--SURVEYS, CONTINUATION OF PLANNING 
      ..................................................
        & ENGINEERING & ADVANCE ENGINEERING & 
      ..................................................
        DESIGN..........................................       6,008,000
                    ========================================================
                    ____________________________________________________
CONSTRUCTION:
    St. John's Bayou-New Madrid Floodway, MO............       5,020,000
    Eight Mile Creek, AR................................       1,960,000
    Helena & Vicinity, AR...............................       1,360,000
    Grand Prairie Region, AR............................      12,200,000
    West Tennessee Tributaries, TN......................         100,000
    Nonconnah Creek, TN.................................       1,995,000
    Reelfoot Lake, TN...................................         710,000
    St. Francis Basin, MO & AR..........................       4,270,000
    Yazoo Basin, MS.....................................      46,300,000
    Atchafalaya Basin, LA...............................      28,210,000
    Atchafalaya Basin Floodway..........................      10,000,000
    MS Delta Region, LA.................................       3,500,000
    Horn Lake Creek, MS.................................         509,000
    MS & LA Estaurine Area, MS & LA.....................          25,000
    Louisiana State Penitentiary, LA....................       2,449,000
    Channel Improvements, IL, KY, MO, AR, TN, MS & LA...      39,140,000
    Mississippi River Levees, IL, KY, MO, AR, TN, MS & 
      LA................................................      50,285,000
                    --------------------------------------------------------
                    ____________________________________________________
      SUBTOTAL--CONSTRUCTION............................     208,033,000
      SUBTOTAL--MAINTENANCE.............................     200,837,000
                    --------------------------------------------------------
                    ____________________________________________________
      SUBTOTAL--MISSISSIPPI RIVER & TRIBUTARIES.........     414,878,000
LESS REDUCTION FOR SAVINGS & SLIPPAGE...................     -30,878,000
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL--MISSISSIPPI RIVER & TRIBUTARIES............     384,000,000
FULL FUNDING FOR FEDERAL RETIREE COSTS..................       7,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      GRAND TOTAL--MISSISSIPPI RIVER & TRIBUTARIES......     391,000,000
                                 ______
                                 
      Prepared Statement of St. Francis Levee District of Arkansas
                           executive summary
    The Lower Mississippi Valley Flood Control Association fiscal year 
2003 Civil Works Budget, Mississippi River and Tributaries 
Appropriations--Requesting Appropriations of $4,270,000 for 
Construction and $12,900,000 for Maintenance and Operation in the St. 
Francis Basin Project and a Total of $391,000,000 for the Mississippi 
River Tributaries Project.
                         background information
    My name is Rob Rash, and my home is in Marion, Arkansas, located on 
the West side of the Mississippi River and in the St. Francis Basin. I 
am the Chief Engineer of the St. Francis Levee District of Arkansas. 
Our District is the local cooperation organization for the Mississippi 
River and Tributaries Project and the St. Francis Basin Project in 
Northeast Arkansas. Our District is responsible for the operation and 
maintenance of 160 miles of Mississippi River Levee and 75 miles of St. 
Francis River Tributary Levee in Northeast Arkansas.
    The St. Francis Basin is comprised of an area of approximately 
7,550 square miles in Southeast Missouri and Northeast Arkansas. The 
basin extends from the foot of Commerce Hills near Cape Girardeau, 
Missouri to the mouth of the St. Francis River, seven miles above 
Helena, Arkansas, a total distance of 235 miles. It is bordered on the 
east by the Mississippi River and on the West by the uplands of 
Bloomfield and Crowley's Ridge, having a maximum width of 53 miles.
    The Mississippi River and Tributaries Project and the St. Francis 
Basin Project provide critical flood protection to over 2,500 square 
miles in Northeast Arkansas alone. This basin's flood control system is 
the very lifeblood of our livelihood and prosperity. Our resources and 
infrastructure are allowing the St. Francis Basin and the Lower 
Mississippi Valley to develop into a major commercial and industrial 
area for this great nation. The basin is quickly becoming a major steel 
and energy production area. The agriculture industry in Northeast 
Arkansas and the Lower Mississippi Valley continues to play an integral 
role in providing food and clothing for this nation. This has all been 
made possible because Congress has long recognized that flood control 
in the Lower Mississippi Valley is a matter of national interest and 
security and has authorized the U.S. Army Corps of Engineers to 
implement a flood control system in the Lower Mississippi Valley that 
is the envy of the civilized world. With the support of Congress over 
the years, we have continued to develop our flood control system in the 
Lower Mississippi Valley through the Mississippi River and Tributaries 
Project and for that we are extremely grateful.
    Although, at the current level of project completion, there are 
areas in the Lower Mississippi Valley that are subject to major 
flooding on the Mississippi River. The level of funding that has been 
included in the President's Budget for the overall Mississippi River 
and Tributaries Project is not sufficient to adequately fund and 
maintain this project. The level of funding will require the citizens 
of the Lower Mississippi Valley to live needlessly in the threat of 
major flood devastation for the next 30 years. Timely project 
completion is of paramount importance to the citizens of the Lower 
Mississippi. Ten and Fifteen Mile Bayou improvements are just one of 
many construction projects necessary for flood relief in the St. 
Francis Basin. Ten and Fifteen Mile Bayou improvements were 
reauthorized by Congress through the Flood Control Act of 1928, as 
amended. Section 104 of the Consolidated Appropriation Act of 2001 
modified the St. Francis Basin to expand the project boundaries to 
include Ten and Fifteen Mile Bayous and shall not be considered 
separable elements. The first item of work cannot begin until the 
Design Document Review and Environmental Assessment are completed in 
April 2002 for the total project length of 38 miles. Total project 
length includes Ten and Fifteen Mile Bayou, Ditch No. 15 and the 10 
Mile Diversion Ditch that provide drainage for the West Memphis and 
Vicinity. Without additional funds, construction would be delayed and 
West Memphis and Vicinity will continue to experience record flooding 
as of December 17, 2001. West Memphis and Vicinity would experience 
immediate flood relief when the first item of construction is 
completed.
                            proposed funding
    We support the amount of 391,000,000 requested by the Mississippi 
Valley Flood Control Association for use in the overall Mississippi 
River and Tributaries Project. This is the minimum amount that the 
Executive Committee of the Association feels is necessary to maintain a 
reasonable time line for completion of the overall Mississippi River 
and Tributaries Project. Also, the amounts that have been included in 
the President's Budget for the St. Francis Basin Project; construction, 
operation and maintenance have not been sufficient to fund critical 
projects. These declined amounts have resulted in a significant backlog 
of work within the St. Francis Basin. Therefore, our District is 
requesting additional capabilities of 12,900,000 for the St. Francis 
Basin Project construction funds and $4,270,000 for the St. Francis 
Basin operation and maintenance funds. The amounts requested for the 
St. Francis Basin Project are a part of the total amounts requested for 
the Mississippi River and Tributary Appropriations of the Civil Works 
Budget.
                               summation
    As your subcommittee reviews the Civil Works Budget of fiscal year 
2003 Appropriations for the Mississippi River and Tributaries Project, 
please consider the significance of this project to the Lower 
Mississippi Valley and the Nation's, economy and infrastructure. As 
always, I feel the Subcommittee will give due regard to the needs of 
the Lower Mississippi River Valley as it considers appropriations for 
the Mississippi River and Tributaries Project. I would like to 
sincerely thank the Subcommittee for its past and continued support of 
the Mississippi River and Tributaries Project.
    Also, I would like to express our continued support for the U.S. 
Army Corps of Engineers and the fine water resource projects that they 
perform. However, we find the Corps under constant attack from a 
variety of organizations and special interests groups. A few members of 
Congress are even proposing to reform the Corps. In our opinion, 
leadership at the Corps is of the highest level of professional 
integrity, and the processes in place result in projects that are 
essential to the well being of our great nation. I can think of no 
other agency that provides such a vital service to the citizens of this 
country. The Corps of Engineers is the worlds' premiere engineering and 
construction agency. They have the expertise and technical ability to 
perform any task or solve any problem the nation could possibly face. 
We depend on their services daily. I would like to respectfully request 
that you and your Subcommittee help us defend the U.S. Army Corps of 
Engineers from these unjustified attacks and accusations and to promote 
them as the fine agency that they are and have been for the past 226 
years.

   MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION--FISCAL YEAR 2003 CIVIL
WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
                                            President's     Recommended
            Project and State                 Budget          Program
------------------------------------------------------------------------
SURVEYS, CONTINUATION OF PLANNING AND
 ENGINEERING & ADVANCE ENGINEERING &
 DESIGN:
    Memphis Metro Area, TN & MS.........         $25,000              $0
    Memphis Harbor, TN..................               0         700,000
    Germantown, TN......................         345,000         545,000
    Wolf River, Memphis, TN.............         123,000         123,000
    Millington, TN......................         150,000         150,000
    Bayou Meto Basin, AR................               0       1,880,000
    Southeast Arkansas..................               0         900,000
    Boydsville, AR......................               0         150,000
    Coldwater Basin Below Arkansas......         180,000         300,000
    Alexandria, LA to the Gulf of Mexico         420,000         700,000
    Morganza, LA to the Gulf of Mexico..       2,880,000       7,500,000
    Donaldsonville, LA to Gulf of Mexico         780,000       1,300,000
    Spring Bayou, LA....................         505,000       1,250,000
    Tensas River, LA....................               0         200,000
    Donaldsonville Port Development, LA.               0         100,000
    Collection & Study of Basic Data....         600,000         600,000
                                         -------------------------------
      SUBTOTAL--SURVEYS, CONTINUATION OF       6,008,000      16,398,000
       PLANNING & ENGINEERING & ADVANCE
       ENGINEERING & DESIGN.............
                                         ===============================
CONSTRUCTION:
    St. John's Bayou-New Madrid                  100,000       5,020,000
     Floodway, MO.......................
    Eight Mile Creek, AR................         750,000       1,960,000
    Helena & Vicinity, AR...............         660,000       1,360,000
    Grand Prairie Region, AR \1\........               0      12,200,000
    West Tennessee Tributaries, TN......         100,000         100,000
    Nonconnah Creek, TN.................         605,000       1,995,000
    Reelfoot Lake, TN...................               0         710,000
    St. Francis Basin, MO & AR..........       1,970,000       4,270,000
    Yazoo Basin, MS \2\.................      10,550,000      35,875,000
    Atchafalaya Basin, LA...............      18,873,000      28,210,000
    Atchafalaya Basin Floodway..........       7,010,000      10,000,000
    MS Delta Region, LA.................       3,500,000       3,500,000
    Horn Lake Creek, MS.................         300,000         509,000
    MS & LA Estaurine Area, MS & LA.....          25,000          25,000
    Louisiana State Penitentiary, LA....       2,449,000       2,449,000
    Channel Improvements, IL, KY, MO,         36,690,000      39,140,000
     AR, TN, MS & LA....................
    Mississippi River Levees, IL, KY,         42,360,000      50,285,000
     MO, AR, TN, MS & LA................
                                         -------------------------------
      SUBTOTAL--CONSTRUCTION............     125,942,000     197,608,000
                                         ===============================
      SUBTOTAL--MAINTENANCE.............     162,135,000     200,837,000
                                         ===============================
      SUBTOTAL--MISSISSIPPI RIVER &          294,085,000     414,843,000
       TRIBUTARIES......................
LESS REDUCTION FOR SAVINGS & SLIPPAGE...     -13,085,000     -30,843,000
                                         -------------------------------
      TOTAL--MISSISSIPPI RIVER &             281,000,000     384,000,000
       TRIBUTARIES......................
                                         ===============================
FULL FUNDING FOR FEDERAL RETIREE COSTS..       7,000,000       7,000,000
                                         ===============================
GRAND TOTAL--MISSISSIPPI RIVER &             288,000,000     391,000,000
 TRIBUTARIES............................
------------------------------------------------------------------------
\1\ Capability--$45,000,000.
\2\ Capability--$44,775,000.

                                 ______
                                 
 Prepared Statement of the Board of Levee Commissioners for the Yazoo-
                           Mississippi Delta
    This statement today, made on behalf of the citizens represented by 
the Yazoo-Mississippi Delta Levee Board, is not only in support of the 
funding request contained herein, but also for the general funding 
testimony offered for fiscal 2003 by the Mississippi Valley Flood 
Control Association. The Association is requesting funding in the 
amount of $391 million for the Mississippi River and Tributaries 
Project (MR&T), an amount based on the Association's professional 
assessment of the capabilities of the U.S. Army Corps of Engineers, 
Mississippi Valley Division.
    A copy of my remarks is included and I ask that it be made a part 
of the record. In the aftermath of the devastating and historic Great 
Flood of 1927, the Flood Control Act of 1928 established as national 
priority, the development of a comprehensive flood control plan to 
reduce the likelihood of such a horrific events ever happening again in 
the lower Mississippi valley. As we look back, now 74 years later, the 
MR&T has returned $23 in benefits for every dollar expended-truly an 
American public works success story.
    Significantly, however, a substantial amount of uncompleted work on 
the project remains, necessarily exposing many areas to the risks of 
flooding. Consequently, the Yazoo-Mississippi Delta Levee Board asks 
Congress to provide funding at a level which will allow the MR&T to 
continue at a pace commensurate with the national priority to protect 
people and property from the ravages of flooding. In order to avoid the 
sorts of delays which can result in the loss of life and livelihoods, 
we must again depend upon the good men and women of Congress to add the 
necessary funding to the Administration's budget which will allow the 
Corps of Engineers to proceed with its work at full capacity.
    A brief summation of and justification for our request, along with 
a line-item chart reflecting existing and needed funding levels for 
MR&T projects in Mississippi follows, with special emphasis given to 
those projects most critical to our levee district:
           mississippi river levees and channels improvement
    Of special interest to our district is the ongoing joint effort 
between our board and the Memphis District, U.S. Army Corps of 
Engineers, to address significant underseepage and boils which occur 
during high river stages at the Hillhouse area of Coahoma County. A 
system of relief wells is planned and we urgently hope that adequate 
funding for this, and other efforts to strengthen and enlarge the 
Mainline Mississippi River Levee will be available. Overall, the needs 
for levees and channels in Mississippi and neighboring states totals 
$50.285 million, with an additional $2.375 million in maintenance funds 
required in Mississippi for additional gravel surfacing and operational 
costs, along with $13.170 million earmarked for bank stabilization and 
shoreline protection.
                       upper yazoo projects (uyp)
    The number one priority for the Yazoo-Mississippi Delta Levee 
Board, the Upper Yazoo Project was originally conceived in 1936. This 
project includes a system of flood control reservoirs which discharge 
into a system of channels and levees intended to safely convey 
headwater from the hills to the Mississippi River. While this project 
has been proceeding smoothly to date, it is absolutely critical to the 
people of the North Delta that it continue on schedule. The necessity 
of that was made quite clear by this winter's flooding, all of which 
was related to problems which would be solved with completion of the 
UYP. We are requesting that $18 million be appropriated for fiscal 2003 
so that work items 5A, 5B and Item 7 structures might be completed and 
that the acquisition of mitigation lands might continue.
                yazoo headwater flood control reservoirs
    Four major flood control reservoirs exist in Mississippi to control 
the release of headwater into the Yazoo River system--Sardis, 
Arkabutla, Enid and Grenada. These have prevented significant flood 
damages through allowing drainage from the state's hill section to be 
released into the much lower Delta at controlled rates. The proper 
maintenance and operation of these reservoirs are essential to all 
persons residing downstream. All four require both routine maintenance 
and upgrading, and we are requesting that Congress allocate the needed 
$53.457 million so that they can continue to function effectively.
       big sunflower river construction and maintenance projects
    The primary drainage outlet for 10 counties in Mississippi, the 
Sunflower River System has been subject to the same siltation factors 
common to all Delta streams. The Corps of Engineers has determined that 
the river has a 40 percent reduction in its flow capacity. While the 
urgently needed completion of this project has been delayed by politics 
and litigation, it is our belief that these problems will soon be 
resolved, and we are requesting that Congress allocate $4.115 million 
in maintenance funds so that scheduled work items might proceed at that 
time. Additionally, we are requesting $1.2 million in construction 
funds so that Item 66 A/B at Swan Lake might be completed and that 
mitigation lands might be purchased.
              demonstration erosion control project (dec)
    While the Administration's budget contains no funding for these 
projects--most of which lie outside our district--we strongly feel that 
the continued funding of DEC is important due to the fact that 
substantial amounts of the sediments which would be controlled by them 
would eventually end up within the Coldwater-Tallahatchie-Yazoo River 
system. Just as now exists with the Big Sunflower, such sedimentation 
would necessarily result in significant additional maintenance within 
the overall river system.
                        greenwood and yazoo city
    Additional maintenance funds totaling $2.725 million are needed to 
continue existing pump plant operations, remove silt and install relief 
wells.
                               main stem
    Maintenance funding in the amount of $3.239 million is required for 
needed repairs and rehabilitation of the Cassidy and Whiting Bayou, 
Wasp Lake and Piney Creek drainage structures.
                            yazoo backwater
    Although lying wholly outside our district, we continue to support 
the Mississippi Levee Board's efforts to reduce the effects of annual 
backwater flooding in the South Delta. We join in their request for 
$14.250 million in additional funding in order to accelerate design and 
initiate a pumps contract and to acquire right-of-way and easement 
lands. We also support their request for $680,000 in maintenance funds 
to rehabilitate bulkheads at Steele Bayou, Little Sunflower and Muddy 
Bay drainage structures.
                     continuing authority programs
    The YMD Levee Board has committed to assist local governments in 
co-sponsoring projects that fall under the Corps Continuing Authority 
Program. There is tremendous need for Section 14, Section 205, and 
Section 208 programs throughout our district. We urge that Congress 
fund these authorities to their maximum appropriation limits.
    Those of us at the Yazoo-Mississippi Delta Levee Board are deeply 
appreciative of the enormous support lent our efforts by Congress in 
the past and it is with full awareness of the challenges facing our 
great nation that we earnestly request that you support us again in 
meeting our challenge of keeping the flood waters at bay.
    Humbly submitted on behalf of the Yazoo-Mississippi Delta Levee 
Board and all the citizens it seeks to keep dry.
                                 ______
                                 
        Prepared Statement of the Little River Drainage District
    My name is Dr. Sam Hunter, DVM of Sikeston, Missouri. I am a 
veterinarian, landowner, farmer and resident of Southeast Missouri.
    I am the President of the Little River Drainage District, the 
largest such entity in the nation. Our District serves as an outlet 
drainage and flood control District to parts of seven (7) counties in 
Southeast Missouri. We provide flood control protection to a sizable 
area of Northeast Arkansas as well. Our District is solely tax 
supported by more than 3,500 private landowners in Southeast Missouri.
    Our District, as well as other Drainage and Levee Districts in 
Missouri and Arkansas, is located within the St. Francis River Basin. 
This is a project item of the Mississippi River and Tributaries 
Project.
    The St. Francis Basin Project was authorized by Congress in 1928 
for improvements by the U.S. Army Corps of Engineers. The initial 
authorization was justified by a projected benefit cost ratio of 2.4:1. 
Today this ratio is 3.6:1 and the project is still not completed. As 
you can see this has been a wise investment of our federal tax dollars. 
Few projects or ventures with funding levels provided by the Federal 
Government return more than they cost. This one does and we need to 
complete it in a timely fashion.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our government now needs to fulfill 
their part of the project and bring it to completion as quickly as 
possible.
    The amount allocated for maintenance in the St. Francis Basin 
Project for fiscal year 2002 was approximately $11.8 million. This is a 
slight increase over what had been occurring for the past five (5) 
years which we saw funding levels average approximately $9.5 million. 
The U.S. Army Corps of Engineers had a capability of approximately $15 
million last year.
    We believe the Corps could adequately use approximately $13 million 
a year for maintenance within that basin. We respectfully request 
Congress approve funding for maintenance in the St. Francis Basin 
Project of $12.9 million. This is only $100,000 more than what was 
allocated in fiscal year 2002 and is only $2.4 million more than what 
is in the President's budget. Further we would request $4.27 million be 
budgeted for construction money in this project. The $4.27 million is 
equal to the Corps capability.
    Since the initiation of the project for improvements we have seen 
many positive changes occur such as:
  --Many miles of all weather roads have been constructed and are 
        usable almost daily each year.
  --Improved flood control and drainage.
  --Development of one of the most fertile and diversified valleys in 
        the world.
  --Growth of towns, schools, churches, industry, commerce, and etc.
  --Improvement of our environment: malaria, typhoid and other such 
        diseases are no longer the norm but seldom occur.
  --A future for our young people to have a desire to remain in the 
        area.
  --Production of a variety of food and fiber products.
    As you can see many changes have occurred and we who live there 
welcome them fully. We, local interests, in Southeast Missouri and 
Northeast Arkansas want this project brought to completion and 
adequately maintained. We have waited over seventy (70) years and we 
believe it is now time to complete a wise investment for our nation.
    Our requests to you today is to approve funding for the St. Francis 
Basin Project of $4,270,000 for construction for the fiscal year 2003 
and with funding of not less than $12,900,000 to perform the required 
and needed annual maintenance of items within that project which have 
been completed and which are the responsibility of the U.S. Army Corps 
of Engineers.
    The Corps of Engineers has a capability of more than $391,000,000 
for fiscal year 2003 in the MR&T Project. We ask you to give 
consideration to provide funding levels at $391,000,000 for this 
project for fiscal year 2003. This will provide some new construction 
but it will also provide the necessary maintenance monies needed each 
year.
    Our great Mississippi River and the other navigable tributaries are 
valuable assets to our great nation. As far back as 1845 we find 
records indicating our forefathers and leaders of this nation 
recognized the Mississippi River as a national problem, a national 
asset, and a problem local interests could not and should not be 
responsible for controlling, namely, flood control and navigation. The 
river has always been a viable asset to our nation and important to the 
development of our towns along its banks such as New Orleans, 
Louisiana, Memphis, Tennessee, St. Louis, Missouri, and of course many 
others along it and its tributaries.
    We have locks and dams which are more than fifty (50) years old. 
They need to be improved and enlarged to meet the needs for our 
navigation interest to perform in the 21st century. Our competing 
nations are modernizing and building navigation systems in order to 
compete with our export of commodities and we need to at least keep 
pace. We must upgrade our waterways infrastructure in order to compete 
with the foreign markets and we must improve our aging waterway 
facilities. No successful private industry does not improve and 
modernize it internal and external features in order to keep pace with 
the competition and to meet current demands. Our nation needs to do the 
same.
    It has been proven over and over our waterway transportation system 
is the safest, the most environmentally acceptable, and the most fuel 
efficient in moving commodities and materials throughout our nation. It 
would be totally unacceptable and very unwise to diminish that mode of 
moving products throughout our nation and expect them to be moved 
either by rail or by highways. Our highway systems already are in dire 
need of repair and to add additional demands on them would be extremely 
costly, very unsafe, and would expend much more fuel which we currently 
do not have but must import. Hopefully, common sense will prevail and 
Congress will make the choice to invest into one (1) of the greatest 
assets we have in our nation. The many locks and dams on our rivers are 
needed. They were designed to accommodate traffic fifty (50) years ago 
and it is now time to upgrade, enlarge, and construct them to 
accommodate the industry as we have it today. We have done the same 
thing with our vehicular traffic on our roads by upgrading, enlarging, 
and constructing to meet the modern day demands. It is now time and 
past time to do the same for our water industry. Former President 
Eisenhower saw an increase in our car and truck traffic on the horizon 
and thus we implemented an extensive interstate system. Let's do 
something in a similar way on our rivers.
    Our nation is the world's leading maritime and trading nation. We 
rely on an efficient and effective marine transport system to maintain 
our role as a global power.
    Our current waterway system has improved the quality of life and 
has provided a foundation for economic growth and development in the 
United States particularly throughout the Mississippi Valley. Our flood 
control systems work, our transport systems are efficient, our multi-
purpose projects all contribute to our national prosperity. The 
benefits are real, the flood damages are known to have prevented much 
devastation. Transportation costs have been reduced and increased trade 
worldwide has increased. Unfortunately our nation has not invested in 
water resource projects and has not kept pace with the economic and 
social expansion not only in this country but on global markets as 
well. Most of our locks and dams are outdated and were designed only 
for a fifty year life. We have exceeded that on nearly half of those 
locks. Many of our locks are undersized for modern commercial barge 
demands and need to be modernized. There is currently $9 billion needed 
for waterway improvements in addition to a backlog of approximately 
$240,000,000 which we need to address in this country. Our country 
should have the same vision and the same goal of modernizing and 
upgrading our waterway system as we upgraded and modernized our 
interstate system across our country.
    Recently the American Society of Civil Engineers provided an 
independent report card review on America's infrastructure. Features 
that were graded were roads, bridges, transit systems, aviation 
schools, drinking water, waste water, dams, solid waste, hazardous 
waste, navigable waterways, and energy. The highest grade this 
independent organization gave was a C+ to our solid waste disposal 
system. The overall average which they gave to our infrastructure was a 
D+. This is shameful and this needs to be corrected. The ASCE estimates 
approximately $1.3 trillion needs to be spent on our infrastructure 
over the next five (5) years.
    What a great way for our country to stimulate its economy and at 
the same time be building and making investments into a system which 
will return back more dollars than expended. This would be a ``win-
win'' endeavor for our citizens. It would be:
  --A win for our economy as it would put private contractors to work.
  --A win for the environment as it would encourage more companies to 
        ship products on our waterways which is the cleanest form of 
        transportation.
  --A win for the safety of the movement of those goods throughout our 
        nation. Barge transportation is the safest form of 
        transportation we have.
  --A win for our taxpayers. What an encouragement, it should be to the 
        American taxpayer to see our tax dollars invested returning 
        more than was spent. Few, if any, other government programs do 
        that.
  --A win for our nation since we are upgrading and improving a part of 
        our infrastructure which is long past due and which will permit 
        fair and open competition with other nations for foreign 
        markets.
  --A win for saving fuel to ship tons of commodities by water instead 
        of rail or highways. Barges are the most fuel efficient to move 
        tonnage of products.
  --A win for our defense system should the Mississippi River be needed 
        to move wartime materials and weapons through our waterway 
        systems. At least let's have a modern system in place to use 
        should such a need arise.
    We have only a few oil producing fields, therefore, we must look 
for as many means as possible to conserve our fuel. Utilizing and 
increasing our waterway transportation industry is one (1) way to do 
that. We need an energy plan and we encourage Congress to incorporate 
increased use of water to move products throughout our nation as one 
way to conserve fuel. Every little bit will help when our oil resources 
are so small domestically.
    This past year there has been much unfair criticism of the U.S. 
Army Corps of Engineers for their study procedures and related work. 
This organization should have their hands held up high and not with 
accusing fingers pointed toward them. We say it is about time the Corps 
Program begins to grow. Certainly it does not need to diminish. No 
other organization, to my knowledge, must stand before Congress each 
year and justify by a favorable cost/benefit ratio of why they need the 
funding to do the work Congress has authorized them to do. The 
Mississippi and Tributaries Project currently returns back to the 
Federal Treasury more than $25 for each dollar spent. In any society 
and to any investor that is a good return.
    The Corps of Engineers does not do anything beyond what Congress 
has authorized them to do. They can and they will improve our great 
nation if Congress will only let them and if those groups who oppose 
them are not given the never ending ability to interfere. Those groups 
and individuals who oppose the Corps seem to only have to point a 
finger and we see an investigation occur. They should be required to 
provide scientific facts and supporting evidence not ``innuendos'', 
``perhaps'', ``maybes'', and ``could have'' type charges before any 
consideration is given to their allegations. Simply to delay a project 
or to cast doubt in the citizens eyes through their good use of our 
news media means they have been successful. Local interests and those 
who benefit from the Corps projects are fully aware of the results of 
their tactics. We are sure Congress in their wisdom will do the same. 
Your assistance in this matter is extremely important. Congressman 
Barry from Arkansas and Congresswoman Jo Ann Emerson from Missouri 
understands the problem. Perhaps many more of the other 433 will be 
likewise enlightened.
    I wish to thank you very much for your time and kind attention and 
for taking the time to review the above discourse. We would be very 
appreciative of anything this committee can do to help us improve our 
environment, improve our livelihood, and improve the area in which we 
live and work which ultimately is good for America. We are also very 
appreciative of all this Committee has done for us in the past. We 
trust you will hear our pleas and act accordingly.
                                 ______
                                 
         Prepared Statement of the Pontchartrain Levee District
        mississippi river and tributaries flood control project

           SUMMARY FISCAL YEAR 2003 RECOMMENDED APPROPRIATIONS
------------------------------------------------------------------------
                 Project                      Budget        Recommended
------------------------------------------------------------------------
Mississippi River & Tributaries Flood       $288,000,000    $391,000,000
 Control Project........................
------------------------------------------------------------------------

    The Mississippi River and Tributaries Flood Control Project has 
been under construction as an authorized project for about 73 years, 
and yet there are a number of segments not yet complete. Although most 
levees are complete to grade and section in south Louisiana an 
extensive reach from the Old River Control Structure in lower Concordia 
Parish upstream to the Lake Providence area is still below grade. 
Should these levees be overtopped during a major flood, those people in 
south Louisiana know full well those flood waters are going to head 
southward. Other items not yet complete are slope protection and crown 
surfacing. It is recommended that a minimum of $50,285,000 be 
appropriated for Mississippi River Levees.
    The second item of indispensable importance to Pontchartrain Levee 
District and the State of Louisiana is Channel Improvements. Main line 
levees must be protected from caving banks throughout this lower river 
reach where extremely narrow battures are the last line of defense 
against levee crevasses and failures. If caving banks are not 
controlled the only answer is ``setback''. Simply stated there is no 
room remaining for levee setbacks in the Pontchartrain Levee District. 
Revetment construction must be annually funded to prevent levee 
failures, land losses and relocations. This item also benefits the 55-
foot depth navigation channel. The Pontchartrain Levee District 
recommends at least $39,140,000 be appropriated for fiscal year 2003 
for Mississippi River Channel Improvements.
                                comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping these Subcommittees advised of current and future 
needs for federal monetary support on vital items of the MR&T Flood 
Control Project. Beginning in 1995 the Subcommittees refused to give 
audience to the Mississippi Valley Flood Control Association. This year 
no oral testimony will be heard. Again, this is a great travesty of 
justice. Such actions seriously erode the partnership that has been 
built between Congress, the Corps of Engineers and local sponsors.
    We trust that this pattern will revert back to the sixty-three year 
practice of hearing our delegation. Five representatives from the 
Pontchartrain Levee District are present today desiring to present 
views to the Subcommittees--they are:
  --Commissioners: Joseph Gautreau, President; Jesse J. Bartley; and 
        Steven Wilson.
  --Staff: Mike Babin, Program Administrator; and Susan Canatella, 
        Secretary to the Board.
                               conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittees on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project 
along with Hurricane Protection and efficient, alert actions taken to 
appropriate funds for the many complex requirements. We endorse 
recommendations presented by the Association of Levee Boards of 
Louisiana, Department of Transportation and Development, Mississippi 
Valley Flood Control Association and Red River Valley Association.
                                 ______
                                 
    Prepared Statement of Arkansas River Basin Interstate Committee
    Mr. Chairman and members of this distinguished Committee, my name 
is Wallace Gieringer. I am retired as Executive Director of the Pine 
Bluff-Jefferson County (Arkansas) Port Authority. It is my honor to 
serve as Chairman of the Arkansas River Basin Interstate Committee, 
members of which are appointed by the governors of the great states of 
Arkansas, Colorado, Kansas, Missouri, and Oklahoma.
    In this time of war on terrorism, homeland defense and needed 
economic recovery, our thanks go to each of you, your staff members and 
the Congress. Your efforts to protect our nation's infrastructure and 
stimulate economic growth in a time of trial and budget constraints are 
both needed and appreciated.
    Our nation's growing dependence on others for energy, and the need 
to protect and improve our environment, make your efforts especially 
important. Greater use and development of one of our nation's 
treasures--our navigable inland waterways--will help remedy these 
problems. At the same time, these fuel-efficient and cost-effective 
waterways keep us competitive in international markets.
    As Chairman of the Interstate Committee, I present this summary 
testimony as a compilation of the most important projects from each of 
the member states. Each of the states unanimously supports these 
projects without reservation. I request that the copies of each state's 
individual statement be made a part of the record, along with this 
testimony.
Montgomery Point Lock and Dam
    The Interstate Committee continues to identify Montgomery Point 
Lock and Dam as our top priority. As completion of construction nears, 
we respectfully request a $25 million Congressional Add for a total 
budget of $45 million for fiscal year 2003 to insure that this urgently 
needed lock and dam is in operation as soon as possible at the lowest 
possible cost. Scheduled to be operational in 2003, Montgomery Point 
will protect over $5 billion in public and private investments, some 
fifty thousand jobs, world trade, growing military shipments and future 
economic development. Continuing problems caused by the lowering of the 
Mississippi River continue to plague McClellan-Kerr entrance channel 
users. During times of low water on the Mississippi River the entrance 
channel is drained of navigable water depth. As the Mississippi River 
bottom continues to lower, the McClellan-Kerr moves toward total 
shutdown. Thus, the entire Arkansas River Navigation System is at risk, 
and its long-term viability is threatened without Montgomery Point.
    Use of the temporary by-pass channel increases navigation hazards 
and existing dredge disposal areas are virtually full. Ongoing dredging 
and disposal of material can mean environmental damage. Construction 
needs to continue as rapidly as possible before limited dredge disposal 
areas become inadequate.
    The good news is that you, your associates and the Congress have 
all recognized the importance of constructing Montgomery Point! 
Appropriations of $176.3 million have been made to date for 
engineering, site acquisition and construction for this project. Mr. 
Chairman and Members of the Committee, continuing Congressional support 
is essential at this crucial time in the history of the project.
    The Interstate Committee also respectfully recommends the following 
as important priorities:
Backlog of Major Maintenance--Arkansas
    A $2 million Congressional Add to the fiscal year 2003 O&M funding 
for the McClellan-Kerr Arkansas River Navigation System in Arkansas is 
vitally important. These additional funds will help repair bank 
stabilization and other navigational system components that have 
deteriorated over the past three decades.
    The O&M funding level has been stagnant for the past 10 years while 
cost and maintenance needs have continued to increase. Your help in 
adding $2 million to the project will reduce the critical backlog of 
needed maintenance repairs, the lack of which cause impediments to 
commercial navigation.
Equus Beds Aquifer--Kansas
    Equus Beds Aquifer Storage and Recovery Project--the continuation 
of a Bureau of Reclamation project jointly endorsed by the City of 
Wichita, Groundwater Management District No. 2 and the State of Kansas. 
This model, nationally acclaimed technology has proven the feasibility 
of recharging and providing environmental protection to a major 
groundwater aquifer supplying water to irrigation, municipal and 
industrial users. The demonstration project has successfully recharged 
more than one billion gallons.
    Governor Graves supports this much-needed project in order to 
secure the quality of life and economic future for more than 20 percent 
of the state's population.
    We are grateful for your previous cost share funding during the 
demonstration phase. We request continued Congressional support:
  --By authorizing as a Federal project, the Aquifer Storage and 
        Recovery Project and directing the Bureau of Reclamation to 
        participate in its final design and construction to completion 
        as funding is available.
  --Through continued cost share funding for Phase One of the full-
        scale Aquifer Storage and Recovery Project in the minimum 
        amount of $1,500,000 for fiscal year 2003.
Tow Haulage Equipment--Oklahoma
    We also request funding of $2.5 million to initiate the 
installation of tow haulage equipment on the locks located along the 
Arkansas River Portion of the McClellan-Kerr Arkansas River Navigation 
System. Total cost for these three locks is $4.5 million. This project 
will involve installation of tow haulage equipment on W.D. Mayo Lock 
and Dam #14, Robert S. Kerr Lock and Dam #15, and Webbers Falls Lock 
and Dam #16, on the Oklahoma portion of the waterway. The tow haulage 
equipment is needed to make transportation of barges more efficient and 
economical by allowing less time for tows to pass through the various 
locks.
    The testimony we present reveals our firm belief that our inland 
waterways and the Corps efforts are especially important to our nation 
in this time of trial. National treasures, like the inland waterways, 
need be cared for, nurtured and protected for the benefit of the 
populace. Without adequate annual budgets this is impossible.
    We strongly urge the Appropriations Committee to increase the 
Corps' fiscal year 2003 budget so that long deferred system-wide 
maintenance may be accomplished and delayed construction projects may 
be completed in a timely and cost-effective manner.
    Mr. Chairman, Members of this Committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our states which set 
forth specific requests pertaining to those states.
    We sincerely appreciate your consideration and assistance.
                                arkansas
          statement of paul latture, ii, chairman for arkansas
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present testimony to this most important committee. I 
serve as Executive Director for the Little Rock Port Authority and as 
Arkansas Chairman for the Interstate Committee. Other committee members 
representing Arkansas, in whose behalf this statement is made, are 
Messrs. Wally Gieringer of Hot Springs Village, retired Executive 
Director of the Pine Bluff-Jefferson County Port Authority; Scott 
McGeorge, President, Pine Bluff Sand and Gravel Company, Pine Bluff; 
Barry McKuin of Morrilton, President of the Conway County Economic 
Development Corporation; and N.M. ``Buck'' Shell, CEO, Five Rivers 
Distribution in Van Buren and Fort Smith, Arkansas.
    In this time of war on terrorism, homeland defense and needed 
economic recovery, our thanks go to each of you, your staff members and 
the Congress. Your efforts to protect our nation's infrastructure and 
stimulate economic growth in a time of trial and tight budgets are 
needed and appreciated. Our requests for fiscal year 2003 are modest.
    We especially call to your attention three projects on the 
McClellan-Kerr Arkansas River Navigation System that are especially 
important to navigation and the economy of this multi-state area: 
completion of Montgomery Point Lock and Dam, the backlog of Major 
Maintenance and completion of the Arkansas River Navigation Study, AR & 
OK.
Montgomery Point Lock and Dam
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential as construction for this project nears completion. 
We respectfully request a $25 million Congressional Add for a total 
budget of $45 million for fiscal year 2003. Adequate funding will 
insure that this urgently needed facility is in operation as soon as 
possible at the lowest possible cost. Scheduled to be operational in 
2003, Montgomery Point will protect over $5 billion in public and 
private investments. Some fifty thousand jobs, world trade and growing 
military shipments have resulted from the McClellan-Kerr Arkansas River 
Navigation System. Without Montgomery Point Lock and Dam the future of 
our wonderful navigation system remains threatened.
    We are very grateful that you, your associates, and the Congress 
have recognized the urgency of constructing Montgomery Point, a time 
sensitive project. Economic growth along the entire McClellan-Kerr is 
being deterred awaiting completion! As the Mississippi River bottom 
continues to lower, the McClellan-Kerr moves toward total shutdown. 
Existing dredge disposal areas are virtually full. Ongoing dredging and 
disposal of material can mean environmental damage. Construction must 
continue as rapidly as possible if the project is to be in place before 
disposal areas become inadequate.
Backlog of Major Maintenance
    A need for a $2,000,000 Congressional Add to the Operation and 
Maintenance funding for the McClellan-Kerr Arkansas River Navigation 
System is vitally important. The additional funds would help repair 
bank stabilization and other navigational system components, which have 
deteriorated over the past three decades.
    The O&M funding level has been stagnant for the past 10 years while 
cost and maintenance needs have continued to increase. Your help in 
adding $2,000,000 to the project will reduce the critical backlog of 
maintenance repairs.
Arkansas River Navigation Study, AR & OK
    On another crucial matter, a $1,090,000 Congressional Add is needed 
for a total budget of $2,000,000 for the most important Arkansas River 
Navigation Study, AR & OK. We want to especially express thanks, Mr. 
Chairman, for the Committee's past support. In addition, taking into 
account the need to realize the total economic potential of the 
McClellan-Kerr Navigation System, WRDA 2000 directed the Corps to 
``expedite completion of the Arkansas River Navigation Study, including 
the feasibility of increasing the authorized channel depth from 9 feet 
to 12 feet.''
    More than 93 percent of the navigation system already enjoys a 12-
foot or greater channel depth. A 12-foot channel can mean up to 43 
percent more cargo in each barge with resultant energy savings, reduced 
cost of shipping, reduction in greenhouse gases plus other 
environmental advantages. Lock chambers on the McClellan-Kerr were 
built to accommodate deeper drafts.
    While navigation is the primary purpose of the McClellan-Kerr 
System, navigation needs and flood control are closely related. Chronic 
high-water flows and channel restrictions result in decreased 
navigation traffic, as well as continued flooding in the vicinity of 
Fort Smith, Arkansas and reduced recreational use. This study addresses 
the navigation System Operating Plan and navigable depths to improve 
navigation conditions on the river as well as the performance of flood 
control measures and the impacts of high/low flows on environmental 
quality and recreation uses.
    Other projects are important to the environment, social and 
economic well-being of our region and nation. We recognize the 
importance of continued construction of needed features to the 
McClellan-Kerr Arkansas River Navigation System and strongly recommend 
that you favorably consider the following in your deliberations:
  --Support continued funding for the construction, and Operation and 
        Maintenance of the McClellan-Kerr Arkansas River Navigation 
        System. We are grateful that you included $800,000 in fiscal 
        year 2002 to complete bank stabilization work in the vicinity 
        of the Little Rock Port.
  --Continue construction authority for the McClellan-Kerr Arkansas 
        River Navigation Project until remaining channel stabilization 
        problems identified by the Little Rock District Corps of 
        Engineers have been resolved. It is vitally important that the 
        Corps continue engineering studies to develop a permanent 
        solution to the threat of cutoffs developing in the lower 
        reaches of the navigation system and for the Corps to construct 
        these measures under the existing construction authority.
  --Fund installation of tow-haulage equipment for the locks and dams 
        on the Oklahoma portion of the McClellan-Kerr. This efficiency 
        feature will reduce lockage time by as much as 50 percent while 
        permitting tonnage to double in each tow with only a minor 
        increase in operating cost.
    In conclusion, Mr. Chairman, please help prevent a crisis for the 
Arkansas River Navigation System and the multi-state region it serves 
by appropriating $45 million for use in fiscal year 2003 for Montgomery 
Point Lock and Dam.
    The entire Arkansas River Navigation System is at risk and its 
long-term viability is threatened. Some $5 billion in federal and 
private investments, thousands of jobs, world trade and growing 
military shipments are endangered. The system remains at risk until 
Montgomery Point is completed.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider these requests that are 
so important to the economic recovery of our region and nation.
                                 kansas
           statement of gerald h. holman, chairman for kansas
    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association (ABDA). I also serve as Chairman of ABDA.
    The Kansas ABDA representatives join with our colleagues from the 
states of Oklahoma, Arkansas and Colorado to form the multi-state 
Arkansas River Basin Interstate Committee. We fully endorse the summary 
statement of the Arkansas River Basin Interstate Committee.
    In addition to the important projects listed below, continued 
construction to completion of the Montgomery Point Lock and Dam Project 
is essential to maintain viable navigation for commerce on the 
McClellan-Kerr Navigation System. This inland waterway is vital to the 
economic health of our multi-state area. Likewise, your support is 
vital to maintain its future viability. Construction is well underway 
and continued funding is needed. We state our unanimous support for the 
$45 million needed by the Corps of Engineers for fiscal year 2003 to 
maintain the most economical and cost efficient construction schedule.
    The critical water resources projects in the Kansas portion of the 
Arkansas River Basin are identified below. The projects are safety, 
environmental and conservation oriented and all have regional and/or 
multi-state impact. We are grateful for your leadership and your past 
commitment to our area.
    We ask for your continued support for these important Bureau of 
Reclamation projects on behalf of the Wichita/South Central Kansas 
area:
Equus Beds Aquifer Storage and Recovery Project
    This is the continuation of a Bureau of Reclamation project jointly 
endorsed by the City of Wichita, Groundwater Management District No. 2 
and the State of Kansas. This model technology has proven the 
feasibility of recharging a major groundwater aquifer supplying water 
to nearly 600,000 irrigation, municipal and industrial users. The 
demonstration project has successfully recharged more than one billion 
gallons of water from the Little Arkansas River. The project is 
essential to help protect the aquifer from on-going degradation caused 
by the migration of saline water.
    Governor Graves supports this much-needed project in order to 
secure the quality of life and economic future for more than 20 percent 
of the state's population. All interested parties fully support the 
project as the needed cornerstone for the area agricultural economy and 
for the economy of the Wichita metropolitan area.
    The demonstration project has confirmed earlier engineering models 
that the full scale aquifer storage and recovery project is feasible 
and capable of meeting the increasing water resource needs of the area 
to the mid 21st century. Presently, the Equus Beds provide 
approximately half of the Wichita regional municipal water supply. The 
Equus Beds are also vital to the surrounding agricultural economy. Once 
the aquifer storage and recovery project is on-line, south central 
Kansas will rely to an even greater extent on the aquifer for water 
resources. Environmental protection of the aquifer, which this 
strategic project provides, will have increasing importance to ensure 
quality water for the future.
    The full scale design concept for the aquifer storage and recovery 
project calls for a multi-year construction program. Phase One is 
estimated to cost $17.1 million. Construction is planned to begin in 
2003. The total project involving the capture and recharge of more than 
100 million gallons of water per day is estimated to cost $110 million 
over 10 years. This is substantially less costly, both environmentally 
and financially, when compared with reservoir construction or other 
alternatives. The aquifer storage and recovery project is a vital 
component of Wichita's comprehensive and integrated water supply 
strategy estimated to cost $350 million at completion.
    We are grateful for your previous cost share funding during the 
demonstration phase, as a compliment to funds provided by the City of 
Wichita. As we enter the construction phase, we request continued 
Congressional support:
  --By authorizing as a Federal project, the Aquifer Storage and 
        Recovery Project and directing the Bureau of Reclamation to 
        participate in its final design and construction to completion 
        as funding is available.
  --Through continued cost share funding for Phase One of the full-
        scale Aquifer Storage and Recovery Project in the minimum 
        amount of $1,500,000 for fiscal year 2003.
Cheney Reservoir
    The reservoir provides approximately half of Wichita's regional 
water supply. Two continuing environmental problems threaten the water 
quality and longevity of the reservoir. One is sedimentation from soil 
erosion and the other is non-point source pollution, particularly the 
amount of phosphates entering the reservoir resulting in offensive 
taste and odor problems. A partnership between farmers, ranchers and 
the City of Wichita has proven beneficial in implementing soil 
conservation practices and to better manage and therefore reduce and/or 
eliminate non-point source pollution. Lansat 7 imaging and digital 
elevation modeling have been employed to identify high priority areas. 
To date, over 2,000 environmental projects have been completed within 
the 543,000-acre watershed. The next phase of concentration is buffer 
strips for the control of pollution from intermittent streams and also 
from livestock waste. This partnership must continue indefinitely to 
protect the reservoir and to extend the life of the Wichita regional 
water supply. The City of Wichita is providing funding for this 
critical, nationally acclaimed model nonpoint source pollution project. 
We request continued federal funding in the amount of $125,000 for 
fiscal year 2003.
    Many of our agricultural communities have historically experienced 
major flood disasters, some of which have resulted in multi-state 
hardships involving portions of the state of Oklahoma. The flood of 
1998 emphasized again the need to rapidly move needed projects to 
completion. Major losses also took place in the Wichita metropolitan 
area. Projects in addition to local protection are also important. Our 
small communities lack the necessary funds and engineering expertise 
and federal assistance is needed. This Committee has given its previous 
support to Kansas Corps of Engineers projects and we request your 
continued support for the following:
  --Arkansas City, Kansas Flood Protection.--Unfortunately, this 
        project was not completed prior to the flood of 1998. The flood 
        demonstrated again the critical need to protect the 
        environment, homes and businesses from catastrophic damages 
        from either Walnut River or Arkansas River flooding. When the 
        project is complete, damage in a multi-county area will be 
        eliminated and benefits to the state of Oklahoma just a few 
        miles south will also result. The Secretary of the Army was 
        authorized to construct the project in fiscal year 1997. The 
        project is slated for completion in fiscal year 2004. We 
        request your continued support in the amount of $5 million for 
        fiscal year 2003, the level needed by the Corps of Engineers.
  --Walnut River Basin, Kansas Feasibility Study.--This basin including 
        the Whitewater and Little Walnut Rivers, is located in south 
        central Kansas. The feasibility study will identify ecosystem 
        resources, evaluate the system qualities, determine past losses 
        and current needs, and evaluate potential restoration and 
        preservation measures. The non-Federal sponsor is the Kansas 
        Water Office who believes that environmental restoration is a 
        primary need in the basin. Environmental restoration features 
        may also stabilize and protect streambanks from erosion and 
        improve the water quality in the basin. The request for fiscal 
        year 2003 is $200,000, which is the Corps' capability.
  --Grand Lake Feasibility Study.--A need exists to complete evaluation 
        of water resource problems in the Grand-Neosho River basin in 
        Kansas and Oklahoma to evaluate solutions to upstream flooding 
        problems associated with the adequacy of existing real estate 
        easements necessary for flood control operations of Grand Lake, 
        Oklahoma. A study authorized by the Water Resources Development 
        Act of 1996 was completed in September of 1998 and determined 
        that if the project were constructed based on current criteria, 
        additional easements would be required. Section 449 of WRDA 
        2000 directed the Secretary to evaluate backwater effects 
        specifically due to flood control operations on land around 
        Grand Lake. That study indicated that Federal actions have been 
        a significant cause of the backwater effects and according to 
        WRDA 2000, the feasibility study should be 100 percent 
        Federally funded. A Feasibility study is necessary to determine 
        the most cost-effective solution to the real estate 
        inadequacies. Changes in the operations of the project or other 
        upstream changes could have a significant impact on flood 
        control, hydropower, and navigation operations in the Grand 
        (Neosho) River system and on the Arkansas River basin system, 
        as well. We request funding in the amount of $3 million in 
        fiscal year 2003 to fully fund Feasibility studies evaluating 
        solutions to upstream flooding associated with existing 
        easements necessary for flood control operations of Grand Lake.
  --Grand (Neosho) Basin Watershed Reconnaissance Study.--A need exists 
        for a basin-wide water resource planning effort in the Grand-
        Neosho River basin, apart from the issues associated with Grand 
        Lake, Oklahoma. The reconnaissance study would focus on the 
        evaluation of institutional measures needed to improve the 
        quality of the aquatic and terrestrial habitat in the basin and 
        to assist communities, landowners, and other interests in 
        southeastern Kansas and northeastern Oklahoma in the 
        development of non-structural measures to reduce flood damages. 
        We request funding in the amount of $100,000 in fiscal year 
        2003.
  --Continuing Authorities Programs.--We support funding of needed 
        programs including the Small Flood Control Projects Program 
        (Section 205 of the 1948 Flood Control Act, as amended) as well 
        as the Emergency Streambank Stabilization Program (Section 14 
        of the 1946 Flood Control Act, as amended). Smaller communities 
        in Kansas (Iola, Liberal, McPherson, Augusta, Parsons, Altoona, 
        Coffeyville and Medicine Lodge) have previously requested 
        assistance from the Corps of Engineers under these programs. 
        The City of Wichita has also addressed flooding problems 
        through this program. We urge you to support these programs to 
        the $50 million programmatic limit for the Small Flood Control 
        Projects Program and $15 million for the Emergency Streambank 
        Stabilization Program.
      The Planning Assistance to States Program under section 22 of the 
        Water Resources Development Act of 1974, as amended, provides 
        federal funding to assist the states in water resource 
        planning. The state of Kansas is grateful for previous funding 
        under this program which has assisted small Kansas communities 
        in cost sharing needed resource planning as called for and 
        approved in the Kansas State Water Plan. We request continued 
        funding of this program at the level which will allow the state 
        of Kansas to receive the $500,000 limit.
      Also, Ecosystem Restoration Programs are relatively new programs 
        which offer the Corps of Engineers a unique opportunity to work 
        to restore valuable habitat, wetlands, and other important 
        environmental features which previously could not be 
        considered. Preliminary Restoration Plan studies are underway 
        at Newton, Garden City and Neosho County. We urge you to 
        support section 1135 of the Water Resources Development Act of 
        1986 and Section 206 of the Water Resources Development Act of 
        1996 at their $25 million programmatic limits.
  --National Streamflow Information Program (NSIP).--For more than 100 
        years, the USGS has operated a multipurpose streamgaging 
        network supported primarily by other Federal, State and Local 
        agencies. Streamflow data from those stations is used for 
        planning and decisions related to agriculture, industry, urban 
        water supplies, riverine and riparian habitat, navigation and 
        flood hazard verification. The loss of about 22 percent of the 
        streamgaging stations since 1971 has resulted in a commensurate 
        loss in valuable streamflow information. In 1998, the USGS 
        completed a study on the ability of the streamgaging network to 
        meet Federal needs. A NSIP program was recommended to produce 
        information for multiple current and future uses. We recommend 
        funding the NSIP program to cover the entire cost of a baseline 
        network of stream gages needed to meet national interests in 
        order to ensure the long-term stability of this vital network.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated. Our infrastructure must be maintained and 
where needed, enhanced for the future.
    Mr. Chairman and Members of this Committee, we thank you for the 
dedicated manner in which you and your colleagues have dealt with the 
Water Resources Programs and for allowing us to present our needs and 
funding requests.
    Thank you very much.
                                oklahoma
       statement of james m. hewgley, jr., chairman for oklahoma
    Mr. Chairman and members of the committee, I am James M. Hewgley, 
Jr., Oklahoma Chairman of the Arkansas River Basin Interstate 
Committee, from Tulsa, Oklahoma.
    It is my privilege to present this statement on behalf of the 
Oklahoma Members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the Committee are: Mr. Ted Coombes, Tulsa; Mr. 
Edwin L. Gage, Muskogee; Mr. Terry McDonald, Tulsa; and Mr. Lew 
Meibergen, Enid.
    Together with representatives of the other Arkansas River Basin 
states, we fully endorse the statement presented to you by the Chairman 
of the Arkansas River Basin Interstate Committee. We appreciated the 
opportunity to present our views of the special needs of our States 
concerning several studies and projects.
Montgomery Point Lock and Dam--Montgomery Point, Arkansas
    As we have testified for several years, we are once again 
requesting adequate appropriations to continue construction of this 
most important and much needed project. This project must be kept on 
the current schedule to insure the shippers on the system will not be 
impacted by a low water event after that date. Lower funding will only 
stretch out the completion of the project and add to the final cost in 
real dollars and subject the shippers to possible losses due to low 
water and restrictions on, or halting, navigation.
    We respectfully request the Congress to appropriate $45 million in 
the fiscal year 2003 budget cycle to continue construction on the 
current project schedule. With the needed funding for fiscal year 2003 
(and significantly reduced funding in fiscal year 2004) the project can 
be finished by July of fiscal year 2004. This request coincides with 
the Presidents recommendation that ``funding go toward ongoing 
projects, particularly those nearing completion.'' This will help 
insure the project is completed and in operation in a timely manner at 
the lowest possible cost.
    Mr. Chairman, it is my pleasure to point out to this distinguished 
Committee that this navigation system has brought low cost water 
transportation to Oklahoma, Arkansas and the surrounding states. There 
has been over $5.5 billion invested in the construction and development 
of the McClellan-Kerr Arkansas River Navigation system by the Federal 
Government and the public and private sector, resulting in the creation 
of over 50,000 jobs in this partnered project.
Tow Haulage Equipment--Oklahoma
    We also request funding of $2.5 million to initiate the 
installation of tow haulage equipment on the locks located along the 
Arkansas River Portion of the McClellan-Kerr Arkansas River Navigation 
System. Total cost for these three locks is $4.5 million. This project 
will involve installation of tow haulage equipment on W.D. Mayo Lock 
and Dam#14, Robert S. Kerr Lock and Dam#15, and Webbers Falls Lock and 
Dam#16, on the Oklahoma portion of the waterway. The tow haulage 
equipment is needed to make transportation of barges more efficient and 
economical by allowing less time for tows to pass through the various 
locks.
Arkansas River System Operations Feasibility Study--Arkansas and 
        Oklahoma
    We are especially pleased that the budget includes funds to 
continue the Arkansas River Navigation Study, a feasibility study which 
is examining opportunities to optimize the Arkansas River system. The 
system of multipurpose lakes in Arkansas and Oklahoma on the Arkansas 
River and its tributaries supports the McClellan-Kerr Arkansas River 
Navigation System, which was opened for navigation to the Port of 
Catoosa near Tulsa, Oklahoma, in 1970. The navigation system consists 
of 445 miles of waterway that passes through the states of Oklahoma and 
Arkansas. This study would optimize the reservoirs in Oklahoma and 
Arkansas that provide flows into the river with a view toward improving 
the number of days per year that the navigation system would 
accommodate tows. This study could have significant impact on the 
economic development opportunities in the states of Oklahoma, Arkansas, 
and the surrounding states. Due to the critical need for this study, we 
request funding of $2.0 million, which is greater than shown in the 
budget, to continue feasibility studies in fiscal year 2003.
Maintenance of the Navigation System
    We request additional funding in the amount of $2 million, over and 
above normal funding, for deferred channel maintenance. These funds 
would be used for such things as repair of bank stabilization work, 
needed advance maintenance dredging, and other repairs needed on the 
systems components that have deteriorated over the past three decades.
    In addition to the systemwide needed maintenance items mentioned 
above, the budget for the Corps of Engineers for the past several years 
has been insufficient to allow proper maintenance of the McClellan-Kerr 
Arkansas River Navigation System--Oklahoma portion. As a result, the 
backlog of maintenance items has continued to increase. If these 
important maintenance issues are not addressed soon the reliability of 
the system will be jeopardized. The portion of the system in Oklahoma 
alone is responsible for returning $2.6 Billion in annual benefits to 
the regional economy. We therefore request that $3.02 million be added 
to the budget to accomplish the critical infrastructure maintenance 
items following: Repair weir at L&D 14; repair tainter gates at L&D 17; 
stream bank stabilization at Marine terminal and down stream dike 
repair; construct Navigation signs; replace bridge bearing pad at L&D 
17 and repair support cells at L&D 15. These are the very worst of the 
needed repairs of the many awaiting proper preventive maintenance and 
repair.
Miami, Oklahoma and Vicinity Feasibility Study
    We request funding of $700,000 for the continuation of a 
feasibility study for the vicinity in Ottawa County including and 
surrounding Miami, Oklahoma in the Grand (Neosho) Basin. Water resource 
planning related concerns include chronic flooding, ecosystem 
impairment, poor water quality, subsidence, chat piles, mine shafts, 
health effects, and Native American issues. The State of Oklahoma's 
desire is to address the watershed issues in a holistic fashion and 
restore the watershed to acceptable levels. Study alternatives could 
include structural and non-structural flood damage measures, creation 
of riverine corridors for habitat and flood storage, development of 
wetlands to improve aquatic habitat and other measures to enhance the 
quality and availability of habitat and reduce flood damages.
    We are pleased that the President's budget includes funds to 
advance work for Flood Control and other water resource needs in 
Oklahoma. Of special interest to our committee is funding for the 
Skiatook and Tenkiller Ferry Lakes Dam Safety Assurance Projects in 
Oklahoma and that construction funding has been provided for those 
important projects. We would like to see Tenkiller funded at the $6.5 
million level which is the Corps capability for fiscal year 2003. We 
request that funding in the amount of $3 million be provided for the 
Skiatook Dam Safety project. We are also pleased that funding is 
included to continue reconnaissance studies and initiate feasibility 
studies for the Oologah Watershed, the Wister Watershed and the Miami, 
OK and Vicinity region. We are also pleased to see continued funding 
for the SE Oklahoma Water Resource Study.
Oologah Lake Watershed Feasibility Study
    We request funding of $450,000 for ongoing feasibility studies at 
Oologah Lake and in the upstream watershed. The lake is an important 
water supply source for the city of Tulsa and protection of the lake 
and maintaining and enhancing the quality of the water is important for 
the economic development of the city. Recent concerns have been 
expressed by the city of Tulsa and others regarding potential water 
quality issues that impact water users as well as important aquatic and 
terrestrial habitat. Concerns are related to sediment loading and 
turbidity, oilfield-related contaminants and nutrient loading.
Illinois River Watershed Reconnaissance Study
    We request funding in the amount of $100,000 to conduct a 
reconnaissance study of the water resource problems of the Illinois 
River Basin. The Illinois River watershed is experiencing continued 
water resource development needs and is the focus of ongoing Corps and 
other agency investigations. However, additional flows are sought 
downstream of the Lake Tenkiller Dam and there are increasing watershed 
influences upstream of Lake Tenkiller which impact on the quality of 
water available for fish and wildlife, municipal and industrial water 
supply users, and recreation users of the Lake Tenkiller and Illinois 
River waters.
Grand (Neosho) Basin Reconnaissance Study
    We request funding in the amount of $100,000 to conduct a 
reconnaissance study of the water resource problems in the Grand 
(Neosho) Basin in Oklahoma and Kansas. There is a need for a basin-wide 
water resource planning effort in the Grand-Neosho River basin, apart 
from the issues associated with Grand Lake, Oklahoma. The 
reconnaissance study would focus on the evaluation of institutional 
measures which could assist communities, landowners, and other 
interests in northeastern Oklahoma and southeastern Kansas in the 
development of non-structural measures to reduce flood damages in the 
basin.
Grand Lake Feasibility Study
    A need exists to evaluate water resource problems in the Grand-
Neosho River basin in Kansas and Oklahoma to evaluate solutions to 
upstream flooding problems associated with the adequacy of existing 
real estate easements necessary for flood control operations of Grand 
Lake, Oklahoma. A study authorized by the Water Resources Development 
Act of 1996 was completed in September of 1998 and determined that if 
the project were constructed based on current criteria, additional 
easements would be required. Section 449 of WRDA 2000 directed the 
Secretary to evaluate backwater effects specifically due to flood 
control operations on land around Grand Lake. That study indicated that 
Federal actions have been a significant cause of the backwater effects 
and according to WRDA 2000, the feasibility study should be 100 percent 
Federally funded. A Feasibility study is necessary to determine the 
most cost-effective solution to the real estate inadequacies. Changes 
in the operations of the project or other upstream changes could have a 
significant impact on flood control, hydropower, and navigation 
operations in the Grand (Neosho) River system and on the Arkansas River 
basin system, as well. We urge you to provide $3 million to fully fund 
Feasibility studies for this important project in fiscal year 2003 and 
to direct the Corps of Engineers to execute the study at full Federal 
expense.
Polecat Creek Reconnaissance Study
    This watershed drains about 370 square miles and includes the 
cities of Jenks, Glenpool and Sapulpa, Oklahoma. This area has 
experienced significant growth within the last 10 years and flooding 
occurs frequently. The most recent flood occurred in May 2000 with over 
300 structures (including 200 homes) experiencing flood damage. We 
request $100,000 in fiscal year 2003 to perform this very important 
reconnaissance study.
Wister Lake Watershed Feasibility Study
    We request funding of $450,000 to continue feasibility studies of 
the Wister Lake watershed. Wister Lake is located on the Poteau River 
near Wister, Oklahoma. The lake was completed in 1949 for flood 
control, water supply, water conservation and sediment control. Wister 
Lake is the primary water resource development project in the Poteau 
River Basin. It provides substantial flood control, municipal and 
industrial water supply, and recreation benefits for residents of 
LeFlore County, Oklahoma, and the southeastern Oklahoma region. 
Ecosystem degradation in the lake and in the basin, in general, is 
occurring primarily as a result of non-point source pollution from 
poultry operations, forestry practices, abandoned strip coal mines, and 
natural gas exploration operations. The study will identify potential 
measures to restore the ecosystem in the basin and will evaluate other 
water resource problems and potential solutions.
    We also support funding for the Continuing Authorities Program, 
including the Small Flood Control Projects Program, (Section 205 of the 
1948 Flood Control Act, as amended) and the Emergency Streambank 
Stabilization Program, (Section 14 of the 1946 Flood Control Act, as 
Amended). We want to express our appreciation for your continued 
support of those programs.
Section 205
    Although the Small Flood Control Projects Program addresses flood 
problems which generally impact smaller communities and rural areas and 
would appear to benefit only those communities, the impact of those 
projects on economic development crosses county, regional, and 
sometimes state boundaries. The communities served by the program 
frequently do not have the funds or engineering expertise necessary to 
provide adequate flood damage reduction measures for their citizens. 
Continued flooding can have a devastating impact on community 
development and regional economic stability. The program is extremely 
beneficial and has been recognized nation-wide as a vital part of 
community development, so much so, in fact, that there is currently a 
backlog of requests from communities who have requested assistance 
under this program. There is limited funding available for these 
projects and we urge this program be fully funded to the programmatic 
limit of $50 million.
Section 14
    Likewise, the Emergency Streambank Stabilization Program provides 
quick response engineering design and construction to protect important 
local utilities, roads, and other public facilities in smaller urban 
and rural settings from damage due to streambank erosion. The 
protection afforded by this program helps insure that important roads, 
bridges, utilities, and other public structures remain safe and useful. 
By providing small, affordable, and relatively quickly constructed 
projects, these two programs enhance the lives of many by providing 
safe and stable living environments. There is also a backlog of 
requests under this program. Funding is also limited for these projects 
and we urge this program be fully funded to the programmatic limit of 
$15 million.
Sections 1135 and 206
    We also request your continued support of and funding for the 
Ecosystem Restoration Programs (Section 1135 of the Water Resources 
Development Act of 1986 and Section 206 of the Water Resources 
Development Act of 1996). The Ecosystem Restoration Programs are 
relatively new programs which offer the Corps of Engineers a unique 
opportunity to work to restore valuable habitat, wetlands, and other 
important environmental features which previously could not be 
considered. The Section 1135 Program is already providing significant 
benefits to the states of Kansas and Oklahoma. We urge that these 
programs be fully funded to the programmatic limit of $25 million each.
    We also request your continued support of the Flood Plain 
Management Services Program (Section 206 of the 1960 Flood Control Act) 
which authorizes the Corps of Engineers to use its technical expertise 
to provide guidance in flood plain management matters to all private, 
local, state, and Federal entities. The objective of the program is to 
support comprehensive flood plain management planning. The program is 
one of the most beneficial programs available for reducing flood losses 
and provides assistance to officials from cities, counties, states, and 
Indian Tribes to ensure that new facilities are not built in areas 
prone to floods. Assistance includes flood warning, flood proofing, and 
other flood damage reduction measures, and critical flood plain 
information is provided on a cost reimbursable basis to home owners, 
mortgage companies, Realtors and others for use in flood plain 
awareness and flood insurance requirements.
    We also request your support of the Planning Assistance to States 
Program (Section 22 of the 1974 Water Resources Development Act) which 
authorizes the Corps of Engineers to use its technical expertise in 
water and related land resource management to help States and Indian 
Tribes solve their water resource problems. The program is used by many 
states to support their State Water Plans. As natural resources 
diminish, the need to manage those resources becomes more urgent. We 
urge your continued support of this program as it supports States and 
Native American Tribes in developing resource management plans which 
will benefit citizens for years to come. The program is very valuable 
and effective, matching Federal and non-Federal funds to provide cost 
effective engineering expertise and support to assist communities, 
states and tribes in the development of plans for the management, 
optimization, and preservation of basin, watershed, and ecosystem 
resources. The Water Resources Development Act of 1996 increased the 
annual program limit from $6 million to $10 million and we urge this 
program be fully funded to the programmatic limit of $10 million.
    On a related matter, we would share with you our concern that the 
Administration has not requested sufficient funds to meet the 
increasing infrastructure needs of the inland waterways of our nation. 
The Administration's request will not keep projects moving at the 
optimum level to complete them on a cost effective basis. Moving the 
completion dates out is an unacceptable exercise since 50 percent of 
the funds come from the Waterways Trust Fund. This will not only waste 
federal funds but, those from the trust fund as well.
    We strongly urge the Appropriations Committee to raise the Corps of 
Engineers budget to $4.9 billion to help get delayed construction 
projects back on schedule and to reduce the deferred maintenance 
backlog which is out of control. This will help the Corps of Engineers 
meet the obligations of the Federal Government to people of this great 
country.
    Concerning another related matter, we have deep concerns about the 
attempt to re-authorize the Endangered Species Act without significant 
beneficial reforms. If a bill is passed through without reforms, it 
will be devastating to industry and the country as a whole. We strongly 
urge you to take a hard look at any bill concerning this re-
authorization and insure that it contains reasonable and meaningful 
reforms. We urge the re-authorization of the act with reforms at the 
earliest possible time.
    Mr. Chairman, we appreciate this opportunity to present our view on 
these subjects.
                                 ______
                                 
   Prepared Statement of the Brazos River Harbor Navigation District
    On behalf of the Brazos River Harbor Navigation District and the 
users of Freeport Harbor, we extend gratitude to Chairman Reid, and 
members of the subcommittee for the opportunity to submit testimony in 
support of the feasibility study for the proposed channel improvement 
project for Freeport Harbor and Stauffer Channel, Texas.
    We express full support of the inclusion in the fiscal year 2003 
budget for:
  --Initial phase of a Corps of Engineers feasibility study for 
        Freeport Harbor, Texas--$500,000
                         history and background
    Port Freeport is an autonomous governmental entity authorized by an 
act of the Texas Legislature in 1925. It is a deep-draft port, located 
on Texas' central Gulf Coast, approximately 60 miles southwest of 
Houston, and is an important Brazos River Navigation District 
component. The port elevation is 3 to 12 feet above sea level. Port 
Freeport is governed by a board of six commissioners elected by the 
voters of the Navigation District of Brazoria County, which currently 
encompasses 85 percent of the county. Port Freeport land and operations 
currently include 186 acres of developed land and 7,723 acres of 
undeveloped land, 5 operating berths, a 45" deep Freeport Harbor 
Channel and a 70' deep sink hole. Future expansion includes building a 
1,300-acre multi-modal facility, cruise terminal and container 
terminal. Port Freeport is conveniently accessible by rail, waterway 
and highway routes. There is direct access to the Gulf Intracoastal 
Waterway, Brazos River Diversion Channel, and, State Highways 36 and 
288. Located just three miles from deep water, Port Freeport is one of 
the most accessible ports on the Gulf Coast.
                          project description
    The fiscal year 2002 Energy and Water Appropriations signed into 
law included a $100,000 appropriation to allow the United States Army 
Corps of Engineers (USACE) to conduct a reconnaissance study to 
determine the federal interest in an improvement project for Freeport 
Harbor, Texas. The USACE, in cooperation with the Brazos River Harbor 
Navigation District as the local sponsor, has initiated that study. The 
Corps anticipates a benefit to cost ratio of the project to be at an 
impressive more than 20 to 1 benefit to cost.
    The project will study the federal interest in widening and 
deepening Freeport Harbor and Stauffer Channel. Port Freeport has the 
opportunity to solidify significant new business for Texas with this 
improvement project. In addition, the improvement to the environment by 
taking a huge number of trucks off of the road, transporting goods more 
economically and environmentally sensitive by waterborne commerce is 
infinitely important to the community, the State, and the Nation. 
Moreover, the enhanced safety of a wider channel cannot be overstated.
                    economic impact of port freeport
    Port Freeport is 16th in foreign tonnage in the United States and 
24th in total tonnage. The port handled over one million tons of cargo 
in 2001 and an additional 70,000 T.E.U.'s of containerized cargo. It is 
responsible for augmenting the Nation's economy by $7.06 billion 
annually and generating 30,000 jobs. Its chief import commodities are 
bananas, fresh fruit and aggregate while top export commodities are 
rice and chemicals. The port's growth has been staggering in the past 
decade, becoming one of the fastest growing ports on the Gulf Coast. 
Port Freeport's economic impact and its future growth is justification 
for its budding partnership with the federal government in this 
critical improvement project.
                     community and industry support
    This proposed improvement project has wide community and industry 
support. The safer transit and volume increase capability is an 
appealing and exciting prospect for the users of Freeport Harbor and 
Stauffer Channel. The anticipated more than 20 to 1 benefit to cost 
ratio that will arise from the Corps of Engineers reconnaissance study 
will solidify the federal interest.
         what we need from the subcommittee in fiscal year 2003
    The Administration's budget included $200,000 for the first phase 
of the feasibility study, which will be conducted at a 50/50 federal 
government/local sponsor share. The Corps had indicated a capability 
for fiscal year 2003 of $500,000 to institute this project on an 
optimal and most cost-efficient time frame for the federal government 
and the local sponsor. We respectfully request the additional $300,000 
for fiscal year 2003.
                                 ______
                                 
                  Prepared Statement of Cameron County
    On behalf of Cameron County and the users of the Gulf Intracoastal 
Waterway, (GIWW) Texas, we extend gratitude to Chairman Reid, and 
members of the subcommittee for the opportunity to submit testimony in 
support of an appropriation to direct the United States Army Corps of 
Engineers (USACE) to conduct a reconnaissance study to reroute the 
GIWW.
    We express full support of the inclusion in the fiscal year 2003 
budget for:
  --Reconnaissance study--$100,000
                         history and background
    On September 15, 2001, a tugboat and several barges struck the 
Queen Isabella Causeway on the Gulf Intracoastal Waterway at the mouth 
of the Brownsville Ship Channel east of Port Isabel. The accident took 
the lives of eight people.
    A January 1997 Reconnaissance Report of the Gulf Intracoastal 
Waterway-Corpus Christi Bay to Port Isabel, Texas (Section 216), was 
conducted by the United States Army Corps of Engineers. The study was 
initiated to determine the federal interest in rerouting the GIWW. The 
information available at the time indicated a less than favorable 
benefit to cost ratio for the proposed realignment. Since the September 
15 incident, the Corps, Cameron County officials, and a number of local 
entities and residents of the County have reopened discussion of the 
rerouting of the GIWW. The Corps of Engineers agrees that new facts 
regarding the safety of the current alignment warrants a revisiting of 
the issue to determine the viability of rerouting the channel in a 
direct line from the point where the waterway crosses underneath the 
causeway to the point where it reaches the Brazos Santiago Pass and the 
Brownsville Ship Channel. The route in question is the exact one 
traveled by the tugboat and barges that struck the bridge on September 
15, killing eight people. The tugboat captain failed to negotiate the 
sharp turn after it passed through the Long Island Swing Bridge. This 
particular turn is one of the most dangerous on the entire waterway.
                          project description
    The reconnaissance study would allow the Corps to reopen the 
examination of the rerouting of the GIWW on the basis of safety. The 
measure would seek to eliminate safety hazards to Port Isabel and Long 
Island residents created by barges that move large quantities of fuel 
and other potentially dangerous explosive chemicals through the 
existing route under the Queen Isabella Causeway. The overall goal of 
the study would be to enhance safety and transportation efficiency on 
this busy Texas waterway by removing the treacherous turn tug and barge 
operators are forced to make as they navigate the passage through the 
Long Island Swing Bridge. In addition to the hazardous curve, the 
winding and congested course taken by the waterway through the City of 
Port Isabel adds needless distance and time to the transportation of 
goods to and from Cameron County ports. These costs are borne not only 
by commercial operators using the waterway, but also by consumers and 
businesses all across Texas and the Nation. The rerouting would also 
seek to correct the adverse impact of waterway traffic on Cameron 
County residents. Apart from the obvious potential for damage to the 
Queen Isabella Causeway, adverse impacts are created by waterway 
traffic in the form of traffic delays associated with the Long Island 
Swing Bridge and the transportation of hazardous materials within 
several hundred feet of densely populated areas in Port Isabel and Long 
Island. Currently, a 1950's era swing bridge that floats in the 
waterway channel connects Long Island and the City of Port Isabel. As 
waterborne traffic approaches the bridge, cables are used to swing it 
from the center of the channel and then swing it back into place. This 
costly and time-consuming process, which frequently backs up traffic 
into the downtown business district of Port Isabel, is estimated to 
drain hundreds of dollars a year from the economy of this economically 
distressed area. More serious problems are created when the heavily 
used cables or winch motors on the swing bridge fail, leaving the 
bridge stuck in an open or closed position. Equipment failures often 
cause delays for several days and leave Long Island residents cut-off 
from vehicle access or the ports of Port Isabel and Brownsville cut-off 
from in-bound and out-bound barge traffic. During these times, supplies 
of vital commodities are halted all across the Rio Grande Valley as 
stocks dwindle and produce and finished goods begin to pile up.
                impact of the gulf intracoastal waterway
    The Gulf Intracoastal Waterway is an integral part of the inland 
transportation system of the United States. Stretching across more than 
1,300 coastal miles of the Gulf of Mexico, this man-made, shallow-draft 
canal moves a large variety and great number of vessels and cargoes. 
The 426 miles of the waterway running through Texas makes it possible 
to supply both domestic and foreign markets with chemicals, petroleum 
and other essential goods. Barge traffic is essential to many of the 
port economies from Texas to Great Lakes ports, indeed, throughout the 
entire GIWW. Some ports feel their future strategic plans are closely 
linked to the efficient operation of the GIWW. This is true for ports 
that rely almost entirely on barge traffic as well as ports that 
function primarily as recreational facilities. Most of the cargo moved 
along Texas waterways is petroleum and petroleum products. The GIWW is 
well suited for the movement of such cargo, and, therefore, has allowed 
many of the smaller, shallow-draft facilities to engage in both 
interstate and international trade. Commercial fishing access via the 
GIWW has had a significant impact on these port economies as well.
                               conclusion
    A 1995 Lyndon Baines Johnson School of Public Affairs report 
entitled ``The Texas Seaport and Inland Waterway System'' warned of 
concern with the safe operation of barges on the GIWW citing, ``a 
serious accident perhaps involving a collision between two barges 
carrying hazardous materials could force closure of the waterway''. No 
one foresee the terrible accident that occurred on September 15. The 
lives of eight people came to an end and the lives of their loved ones 
was irrevocably changed forever. This important waterway must be 
improved to prevent another tragedy. The $100,000 that must be added to 
the fiscal year 2003 appropriations bill will allow the Corps of 
Engineers to begin to remedy this dangerous situation. Cameron County, 
the users of the GIWW, and the residents of the area respectfully 
requests the addition of this much-needed appropriation.
                                 ______
                                 
   Prepared Statement of the Chambers County-Cedar Bayou Navigation 
                                District
    On behalf of the Chambers County-Cedar Bayou Navigation district 
and the users of the Cedar Bayou Channel, Texas, we extend gratitude to 
Chairman Reid, and members of the subcommittee for the opportunity to 
submit testimony in support of the improvement project for the Cedar 
Bayou Channel, Texas.
    We express full support of the inclusion in the fiscal year 2002 
budget for:
  --Pre-Construction Engineering and Design (O&M) For Cedar Bayou, 
        Texas--$310,000
                         history and background
    The River and Harbor Act of 1890 originally authorized navigation 
improvements to Cedar Bayou. The project was reauthorized in 1930 to 
provide a 10 ft. deep and 100 ft. wide channel from the Houston Ship 
Channel to a point on Cedar Bayou 11 miles above the mouth of the 
bayou. In 1931, a portion of the channel was constructed from the 
Houston Ship Channel to a point about 0.8 miles above the mouth of 
Cedar Bayou, approximately 3.5 miles in length. A study of the project 
in 1971 determined that an extension of the channel to project Mile 3 
would have a favorable benefit to cost ratio. This portion of the 
channel was realigned from mile 0.1 to mile 0.8 and extended from mile 
0.8 to Mile 3 in 1975. In October 1985, the portion of the original 
navigation project from project Mile 3 to 11 was deauthorized due to 
the lack of a local sponsor. In 1989, the Corps of Engineers, Galveston 
District completed a Reconnaissance Report dated June 1989, which 
recommended a 12 ft. by 125 ft. channel from the Houston Ship Channel 
Mile 3 to Cedar Bayou Mile 11 at the State Highway 146 Bridge. The 
Chambers County-Cedar Bayou Navigation District was created by the 
Texas Legislature in 1997 as an entity to improve the navigability of 
Cedar Bayou. The district was created to accomplish the purpose of 
Section 59, Article XVI, of the Texas Constitution and has all the 
rights, powers, privileges and authority applicable to Districts 
Created under Chapters 60, 62, and 63 of the Water Code--Public Entity. 
The Chambers County-Cedar Bayou Navigation District then became the 
local sponsor for the Cedar Bayou Channel.
                project description and reauthorization
    Cedar Bayou is a small coastal stream, which originates in Liberty 
County, Texas, and meanders through the urban area near the eastern 
portion of the City of Baytown, Texas, before entering Galveston Bay. 
The bayou forms the boundary between Harris County on the west and 
Chambers County on the east. The project was authorized in Section 349 
of the Water Resources Development Act 2000, which authorized a 
navigation improvement of 12 feet deep by 125 feet wide from mile 2.5 
to mile 11 on Cedar Bayou.
                   justification and industry support
    First and foremost, the channel must be improved for safety. The 
channel is the home to a busy barge industry. The most cost-efficient 
and safe method of conveyance is barge transportation. Water 
transportation offers considerable cost savings compared to other 
freight modes (rail is nearly twice as costly and truck nearly four 
times higher). In addition, the movement of cargo by barge is 
environmentally friendly. Barges have enormous carrying capacity while 
consuming less energy, due to the fact that a large number of barges 
can move together in a single tow, controlled by only one power unit. 
The result takes a significant number of trucks off of Texas highways. 
The reduction of air emissions by the movement of cargo on barges is a 
significant factor as communities struggle with compliance with the 
Clean Air Act.
    Several navigation-dependent industries and commercial enterprises 
have been established along the commercially navigable portions of 
Cedar Bayou. Several industries have docks on at the mile markers that 
would be affected by this much-needed improvement. These industries 
include: Reliant Energy, Bayer Corporation, Koppel Steel, CEMEX, US 
Filter Recovery Services and Dorsett Brothers Concrete, to name a few.
                       project costs and benefits
    The Corps of Engineers has indicated a benefit to cost ratio of the 
project of 2.8 to 1. The estimated total cost of the project is $16.8 M 
with a federal share estimated at $11.9 M and the non-federal sponsor 
share of approximately $4.9 M. Total annual benefits are estimated to 
be $4.8 M, with a net benefit of $3 M. This project is environmentally 
sound and economically justified. We would appreciate the 
subcommittee's support of the required $310,000 appropriation included 
in the Administration's budget to complete the plans and specifications 
of the project so that it can move forward at an optimum construction 
schedule. The users of the channel deserve to have the benefits of a 
safer, most cost-effective federal waterway.
                                 ______
                                 
  Prepared Statement of the Association for the Development of Inland 
                  Navigation in America's Ohio Valley
    Mr. Chairman and Members of the Subcommittee: I am Barry Palmer, 
Executive Director of DINAMO, The Association for the Development of 
Inland Navigation in America's Ohio Valley. DINAMO is a multi-state, 
membership based association of business and industry, labor, and state 
government leaders from throughout the Ohio Valley, whose singular 
purpose is to expedite the modernization of the lock and dam 
infrastructure on the Ohio River Navigation System. Largely through the 
leadership of this subcommittee and the professional efforts of the 
U.S. Army Corps of Engineers, we in the Ohio Valley are beginning to 
see the results of 20 years of continuous hard work in improving our 
river infrastructure.
    Lock and dam modernization at Robert C. Byrd Locks and Dam, Grays 
Landing Locks and Dam, Point Marion Lock, and Winfield Locks are 
largely complete. These projects were authorized for construction in 
the Water Resources Development Act of 1986. The immediate problems 
really are focused on completing in a timely manner lock and dam 
modernization projects authorized by the Congress in subsequent water 
resources development acts. Substantial problems remain for adequate 
funding of improvements at the Olmsted Locks and Dams, Ohio River, IL/
KY; Lower Monongahela River Locks and Dams 2, 3 & 4, PA; McAlpine Locks 
and Dam, Ohio River, IN/KY; Marmet Lock, Kanawha River, WV; and for the 
Kentucky Locks, Tennessee River, KY. The construction schedules for all 
of these projects have been severely constrained, and we are requesting 
increased funding for these construction projects at an ``efficient 
construction rate.'' Following is a listing of the projects and an 
efficient funding level determined by the U.S. Army Corps of Engineers 
to advance construction projects for completion by 2010 or earlier and 
to advance other projects through the planning, design and engineering 
and construction process:
Recommendations for Fiscal Year 2003
  --For the Robert C. Byrd Locks and Dam modification project, formerly 
        the Gallipolis Locks and Dam on the Ohio River, OH/WV, about 
        $12,300,000 to complete rehabilitation of the dam. Fiscal year 
        2003 Budget Request $1,500,000.
  --For the Winfield Lock Replacement on the Kanawha River, WV, 
        $3,600,000 for continued construction of the lock and 
        relocations related to environmental mitigation. Fiscal year 
        2003 Budget Request $200,000.
  --For the Olmsted Locks and Dam, replacing Locks and Dams 52 and 53 
        on the Lower Ohio River, IL/KY, $89,000,000 for continued 
        construction of the approach lock walls related to the twin 
        110' <greek-e> 1,200' locks and design and initial construction 
        activities for the new gated dam. Fiscal year 2003 Budget 
        Request $77,000,000.
  --For the Monongahela River Locks and Dams 2, 3 & 4, PA, $63,00,000, 
        the completion of construction on the Braddock Dam, prepare 
        Charleroi Locks site development, prepare work on the Charleroi 
        Locks demolition/dam stilling basin and to initiate 
        construction on the Charleroi Locks floating guard wall. Fiscal 
        year 2003 Budget Request $36,017,000.
  --For the McAlpine Lock Project on the Ohio River, IN/KY, $30,000,000 
        to complete construction of the cofferdam related to the new 
        110' <greek-e> 1,200' lock addition. Fiscal year 2003 Budget 
        Request $6,192,000.
  --For the Marmet Lock Replacement on the Kanawha River, WV, 
        $58,000,000 for real estate acquisition and for initial systems 
        for mitigation of the construction project. Fiscal year 2003 
        Budget Request $10,978,000.
  --For the Kentucky Lock Addition on the Tennessee River, KY, 
        $45,000,000 to continue construction of the new highway and 
        bridge work and to begin construction of the upstream 
        cofferdam. Fiscal year 2003 Budget Request $27,400,000.
  --For continuing major rehabilitation of London Locks and Dam, 
        Kanawha River, $11,934,000. Fiscal year 2003 Budget Request 
        $11,934,000.
  --For the Ohio River Mainstem Study, including studies related to 
        completing Interim Feasibility Reports for Newburgh, Cannelton, 
        and Meldahl, and for Emsworth, Dashields, and Montgomery Locks 
        and Dams, approximately $3,000,000 in fiscal year 2003. This 
        level of funding is needed to continue the work leading to 
        construction authorization documents for additional capacity at 
        these six lock and dam locations. Fiscal year 2003 Budget 
        Request $3,000,000.
  --For Pre-Construction Engineering and Design for the John T. Myers 
        Locks and Dam, Ohio River, IN/KY, $2,100,000. A new 
        construction start for this project will be required soon, 
        since this project was authorized for construction in the Water 
        Resources Development Act of 2000. Fiscal year 2003 Budget 
        Request $1,346,000.
  --For Pre-Construction Engineering and Design for the Greenup Locks 
        and Dam, Ohio River, OH/KY, $2,100,000. A new construction 
        start for this project will be required soon, since this 
        project was authorized for construction in the Water Resources 
        Development Act of 2000. Fiscal year 2003 Budget Request 
        $1,302,000.
    All lock and dam modernization projects should be completed in a 
timely and orderly manner. It is important to note that monies to pay 
for lock and dam modernization are being generated by a 20 cents per 
gallon diesel fuel tax by towboats operating on America's inland 
navigation system. These tax revenues are gathering in the Inland 
Waterways Trust Fund, in order to finance 50 percent of the costs of 
these project costs. There is about $400 million in the Inland 
Waterways Trust Fund. The real challenge is not the private sector 
contribution to completing these lock and dam construction projects in 
a timely manner, but rather it is the commitment of the federal 
government to matching its share.
    The construction schedules for Ohio River Navigation System 
projects have slipped from one to six years, depending on the project. 
Delaying the construction of these vitally needed infrastructure 
investments is a terribly inefficient practice. Inefficient 
construction schedules cost people a lot of money. A March 2000 study 
by the Institute for Water Resources concluded that $1.34 billion of 
cumulative benefits (transportation savings) for Olmsted, Lower 
Monongahela River 2, 3 & 4, McAlpine, Marmet, and Kentucky lock and dam 
modernization projects have been lost forever. The benefits foregone 
represent the cumulative annual loss of transportation cost savings 
associated with postponing the completion of these projects from their 
``optimum,'' or ``efficient,'' schedule. In addition, this study 
concludes that $534 million of future benefits are at risk but will be 
foregone (based on fiscal year 2001 schedules) if funding is not 
provided to accelerate design and construction activities in accordance 
with ``efficient'' schedules.
    Expenditures for lock and dam modernization are an investment in 
the physical infrastructure of this nation. The President's $4.29 
billion Corps of Engineers Civil Works Budget for fiscal year 2002 will 
fall at least $700 million short of what will be needed to meet the 
nation's water resources needs. Mr. Chairman, we have great confidence 
in the Corps of Engineers and urge your support for a funding level 
more in line with the real water resources development needs of the 
nation. For lock and dam modernization on America's inland navigation 
system, targeted construction funding ought to be at a level of about 
$300 million annually, with half coming from the Inland Waterways Trust 
Fund and half coming from the General Treasury. Last year Congress 
provided about $4.54 billion for the Corps of Engineers program and 
more than $200 million for lock and dam modernization on America's 
inland navigation system. It is reasonable that funding for the Corps 
program should be increased to levels closer to $5 billion and about 
$300 million for lock and dam modernization on our nation's river 
system, in order to complete the major lock and dam modernization 
projects by the end of the decade or earlier.
    Following is our analysis of the partial consequences of inadequate 
funding of Ohio River Navigation System infrastructure improvements:
Olmsted Locks and Dam
    The project is cost-shared 50/50 with the Inland Waterways Trust 
Fund. Total project cost of $1.06 billion. The benefit to cost ratio is 
3.5 to 1 based on an interest rate of 8 7/8 percent. The average annual 
navigation benefits for this project are $526,250,000. Construction 
funds were first appropriated in fiscal year 1991. Approximately $514 
million has been expended through fiscal year 2001 leaving a balance of 
$538 million to complete the project. In fiscal year 2002 the Congress 
provided $40,000,000. During the last three fiscal years the 
President's budget averaged about $40 million annually for the Olmsted 
construction project, while about $68 million has been reprogrammed 
into the project during the same time ($58 million in fiscal year 2000 
alone). The challenge is to put Olmsted on an Efficient Funding 
schedule, which will require $89 million in fiscal year 2003 and about 
$70 million annually throughout the balance of the decade.
    Olmsted has already slipped its completion date by 4 years, and 
hundreds of millions in transportation benefits have already been 
washed down the river (non-recoverable) because of construction 
schedule slippage. The President's fiscal year 2003 Civil Works Budget 
has funded the project on an Efficient Funding Schedule, and the new 
facility could be operational by 2010. This improved construction 
scenario (when compared to fiscal year 2002 construction schedule 
projections) could prevent the loss of more than $2.5 billion in 
transportation benefits.
    Many contracts are required to design and construct the project. Of 
the sixteen major construction contracts, five are complete, five are 
underway and six remain to be awarded. The construction contracts for 
the Locks ($270 million) are nearly complete. The Locks Approach Walls 
($99 million) and the Operating & Maintenance Bulkheads ($24 million) 
construction contracts and the preparation of the Dam P&S will continue 
in fiscal year 2002. The advertisement of the Dam construction contract 
is scheduled for fiscal year 2002, with the award scheduled for the 
first quarter of fiscal year 2003. The award of this contract assumes 
that adequate funding will be available to support the estimated $300M 
construction contract over the five-year contract duration.
Lower Monongahela River Locks and Dams 2, 3 & 4
    A significant portion of the fiscal year 2003 appropriation will be 
used to complete construction of the new gated Braddock Dam (NTP for 
construction of Braddock Dam was issued in July 1999). When 
operational, the new gated Braddock Dam can lessen system failure risks 
by raising Pool 2 five feet to reduce the head at L/D 3 only if 
adequate funding to complete the required Pool 2 relocations is 
received. The decommissioning of L/D 3 is scheduled to begin with the 
completion of one new lock chamber at Locks 4 (Charleroi). The 
Pittsburgh District has a plan to maintain momentum on advancing 
construction of the new Charleroi Locks that requires significant 
funding in the near term. Without sufficient funds, this plan would be 
forced into a very inefficient design and construction mode, causing 
major delays to project completion and the realization of project 
benefits. In summary, efficient funding levels for this project are 
vital to maintain viable inland navigation on the Monongahela River and 
avoid these negative impacts:
    Navigation Project Funding Schedules presented to the Inland 
Waterway Users Board on July 18, 2001, indicate that an additional $501 
million will be required to complete the project (seven years) by 2010 
(it has already slipped its completion date by 6 years). The Corps of 
Engineers funding for the Lower Mon Project has only averaged $30 
million annually From fiscal year 1997 to fiscal year 2001. $40 million 
was appropriated in fiscal year 2002. The President's Budget for fiscal 
year 2003 allocates $36,017,000, while the Efficient Funding Level for 
construction of this project is $63 million. Continued funding at a 
rate of $36 million annually could delay completion an additional 5 or 
more years, possibly by 2015 -17.
    Construction delays fail to reduce risks associated with continued 
reliance and use of existing Locks and Dam 3 and Locks 4. A structural 
failure would cause a loss in transportation savings of hundreds of 
millions of dollars per year. Delays in construction completion 
increase the cost of work by about 2.7 percent per year for inflation. 
Delays in construction completion result in continued transportation 
inefficiencies of about $30 million per year. Each year the project is 
delayed, $1.5 million of scare Operations and Maintenance funds must be 
allocated to continue L/D 3 in service. The relocation of utilities in 
pool 2, to accommodate a five-foot pool raise upon completion of the 
Braddock Dam, would be delayed. Raising Pool 2 is critical to 
decreasing loads on the structurally deficient L/D 3.
McAlpine Locks and Dam
    The McAlpine Locks and Dam project is cost-shared 50/50 with the 
Inland Waterways Trust Fund. The total cost of the project is $278 
million. The benefit to cost ratio is 1.8 to 1 based on an interest 
rate of 8 percent. The average annual benefits for this project are 
$41.6 million. Approximately $60 million has been expended through 
fiscal year 2001 leaving a balance of approximately $218 million to 
complete the project. During the last five fiscal years the Congress 
appropriated slightly more than $12 million annually ($18.6 million in 
fiscal year 2002) for the McAlpine project. In fiscal year 2001 an 
additional $9M was reprogrammed into McAlpine to meet construction 
expenditures and fiscal year 2002 will require $9M to be reprogrammed 
to meet scheduled expenditures. In fiscal year 2003, $30 million is 
needed to fund the project on an Efficient Funding Level, and an 
average of $47.5 million annually through fiscal year 2007 will be 
needed to complete the project.
    McAlpine has already slipped its completion date by 5 years, and 
over $173 million in transportation benefits have been washed down the 
river (non-recoverable) because of construction schedule slippage. 
Failure to fund the project on an Efficient Funding Schedule in fiscal 
year 2003 (at $30 million) and each future year could delay completion 
by as much as an additional ten years, possibly to 2017. That scenario 
would wash another $416 million in benefits down the river.
    The cofferdam/lock demolition construction contract was awarded in 
May 2000 and is approximately 60 percent complete. The Corps of 
Engineers can advertise a contract for construction of the new lock in 
February 2002. Award of the lock contract is scheduled for September 
2002 and will have a four-year performance period. If funded at an 
efficient level, the lock can be completed in 2007. A total of $208 
million will be needed over the next five years (fiscal year 2003-
fiscal year 2007) to complete the project.
Marmet Lock and Dam
    The majority of the fiscal year 2003 appropriation will be used to 
continue construction of the replacement lock. When operational, the 
new Marmet Lock will reduce the average transit time of 4.7 hours to 
0.8 hours, and at current traffic levels, would yield over 16.4 
thousand hours of trip time savings for the 4,210 tows which utilized 
the project in 2001.
    Navigation Project Funding Schedules presented to the Inland 
Waterway Users Board in July 2001 indicate that an additional $248 
million will be required to complete the project by 2009 (seven years). 
The Corps of Engineers funding for the Marmet Project has only averaged 
$12 million annually from fiscal year 1998 to fiscal year 2001. $27.1 
million was appropriated in fiscal year 2002. The fiscal year 2003 
budget allocates nearly $11 million, when the efficient funding level 
for the new Marmet Lock is $58 million. With remaining costs to 
complete the new lock estimated at $236 million, a $6 million annual 
investment would delay completion of the project more than 22 years. 
Average annual benefits of this new project are about $56 million a 
year.
Kentucky Locks and Dam
    The project is cost-shared 50/50 with the Inland Waterways Trust 
Fund. The total project cost is estimated to be $533 million. Average 
annual benefits are $52.5 million, and the project has a benefit to 
cost ratio of 2.4 to 1. Construction on the project commenced in July 
1998 and could be completed by 2008 if sufficient and timely funds are 
received. Approximately $69 million has been expended through fiscal 
year 2001, leaving a balance of $464 million to complete the project. 
During the last three fiscal years the Kentucky Lock Addition project 
has received an average funding level of approximately $21 million. To 
complete the project on an Efficient Funding Schedule (in the 2008 
timeframe) will require $45 million in fiscal year 2003 and annual 
funding levels of $55 to $60 million from fiscal year 2004 to project 
completion. Annual budget allocations/appropriations at the fiscal year 
2003 level identified in the President's fiscal year 2003 Civil Works 
Budget ($27.4 million) will delay completion of the project by as much 
as 17 years. And $hundreds of millions will be washed down the river.
    Due to the continuing deterioration of the existing 60 year-old 
Kentucky Lock, two 130-day outages are expected to be needed beginning 
in 2009 to make necessary repairs. The economic ramifications to these 
outages will be extreme. Completion of the new lock prior to these 
outages will not only prevent these economic disruptions but will also 
expedite the economic benefits of eliminating the long delays currently 
and projected by traffic using the existing lock.
    Many contracts are required to design and construct the project. Of 
the eight major construction contracts, one is complete, one is 85 
percent complete, two are just underway, and four remain to be awarded. 
The largest of these construction contracts is for the new 110' 
<greek-e> 1,200' lock, which will be ready for award in 2004 if 
sufficient funds are appropriated in fiscal year 2003 and allocated in 
fiscal year 2004.
    We thank you for the opportunity to present this request and our 
thoughts on these matters.
                                 ______
                                 
   Prepared Statement of the Garrison Diversion Conservancy District
    My name is Richard Fugleberg, Chairman of the Garrison Diversion 
Conservancy District Board of Directors. I am privileged to represent 
the largest water district this side of the Rocky Mountains. I am 
submitting this for your consideration as you look at the 
appropriations for fiscal year 2003 for the Bureau of Reclamation and, 
in particular, the Garrison Diversion project. I would also like to 
discuss the impact that the current budget request has for Garrison and 
for the Bureau of Reclamation on the effort to fight recession and 
provide reliable, affordable, quality water supplies to the citizens of 
North Dakota.
    I must start by recognizing that this nation is currently in the 
unenviable position of fighting two wars at the same time. We cannot 
look our children or grandchildren in the face and consider any 
alternative but to fight the war against the horrific potential of 
terrorism. We must be able to tell those children and grandchildren 
that we are fully committed to not only fighting this war, but winning 
it. As bad as terrorism is, the eventual result of a prolonged 
recession or depression is as bad, if not worse. If we do not win the 
war on recession, we will eventually be unable to wage the war on 
terrorism effectively, and we will suffer a slow, but certain and 
agonizing, demise. We have no choice but to fight to win both wars at 
the same time.
    A strong economy is needed in order to support the defense program. 
This means we must continue our programs to maintain our 
infrastructure. The economy/business sectors depend not only on 
infrastructure in the form of transportation networks, communication 
systems and energy supplies, but most importantly, water supplies.
           discussion of overall bureau of reclamation budget
    It is important to recognize that the fiscal year 2003 budget 
submission of $726 million for the Bureau of Reclamation's Water and 
Related Resources program is $80 million better than their request for 
fiscal year 2002. It is still, however, $36 million less than the 
amount that Congress provided last year, and $115 million less than has 
been called for by the ``Invest in the West'' Coalition, a coalition of 
nine western water organizations that are involved in the full array of 
western water issues.
    The ``Invest in the West'' goal, one with which I agree, is to 
raise the Bureau's Water and Related Resources Budget to $1 billion by 
the end of fiscal year 2005. This is simply a goal to restore the 
budget to previous levels. The erosion of the Bureau's budget during 
the 90s has created problems across the west for virtually all of its 
constituents.
    The Bureau of Reclamation reports that they have a $5 billion 
backlog of projects. The 106th Congress authorized $2 billion worth of 
water programs, of which the Dakota Water Resources Act was a major 
piece. I would also like to submit, for the record as Attachment 1, a 
report by the National Urban Agriculture Council, entitled ``Withering 
in the Desert'', which shows the Bureau of Reclamation's budget 
declining 36 percent from fiscal year 1991 through fiscal year 2000. 
The Invest in the West Coalition believes this modest ramping up of the 
present budget is necessary and appropriate in order to restore the 
program effectiveness of the Bureau and to meet the critical water 
needs in the west. In addition to the construction backlog, there is 
also a need to deal with future operation and maintenance funding needs 
in the program. This is particularly true in the operation and 
maintenance budgets for Native American projects. This element of the 
budget is already in serious competition for construction dollars, as I 
will briefly illustrate during my discussion of the Garrison program.
    As you look forward to funding for western water needs and the 
needs in our own state, I would like you to consider one other need 
that I believe could be addressed in the Bureau budget. There is a 
serious need for the Bureau of Reclamation, working with the states and 
the tribes, to conduct a water development needs assessment for the 
western states. We can't just look at today when we have a 
responsibility for tomorrow. We suggest you consider providing some 
modest funding to the 17 western states to update their state water 
plans so a comprehensive view on future development funding needs would 
be available to your Committee, as well as the respective authorizing 
and appropriations committees. It is a need that hasn't been addressed. 
The Western Water Policy Review Commission examined the issues, but not 
the funding necessary to address the current and future issues. I 
believe this is a vital missing link as Congress, the Administration 
and water users provide a vision and opportunities for future 
generations.
                   budget impacts on garrison project
    At this point, I would like to shift to the particulars of the 
budget as it impacts the Garrison program and some specific projects 
within the State of North Dakota. Let me begin by reviewing the various 
elements within the current budget request and then discuss the impacts 
that the current level of funding will have on the current program.
    Attachment 2 shows the funding history over the last six years for 
the Garrison Diversion Unit. The average is approximately $26 million. 
The President's budget request for fiscal year 2003 is for $25.239 
million. A continuation of that trend is a formula for disaster. The 
President's budget request maintains the historic funding level but 
ignores the needs of the current programs and does not keep up with the 
price increases expected in the major programs as delays occur. 
Fortunately, Congress saw fit to provide that the unexpended 
authorization ceilings would be indexed annually to adjust for 
inflation. The proposed allocations to the indexed programs in the 
President's budget totals $6.7 million. If a modest 2 percent inflation 
factor is assumed, the increase will be $8 million for MR&I and $2 
million for the Red River Valley phase. Simply put, with the current 
request, we will lose ground on the completion of these projects.
    This year, the District is asking the Congress to appropriate a 
total of $45 million for the Project. Attachment 3 is a breakdown of 
the elements in the District's request. To discuss this in more detail, 
I must first explain that the Garrison budget consists of several 
different program items. For ease of discussion, I would like to 
simplify the breakdown into three major categories. The first I would 
call the base operations portion of the budget request. Attachment 4 
contains a breakdown of the elements in that portion of the budget. 
This amount is nominally $20 million annually. However, as more Indian 
MR&I projects are completed, the operation and maintenance costs for 
these projects will grow and create a conflict with a growing request 
for actual construction funding.
    The second element of the budget is the MR&I portion. This consists 
of both Indian and non-Indian funding. The Dakota Water Resources Act 
contains an additional $200 million authorization for each of these 
programs. For discussion purposes, I have lumped them together and 
acknowledged that however each program proceeds, it is our intent that 
each reach the conclusion of the funding authorization at approximately 
the same time. We believe this is only fair.
    The MR&I program consists of a number of medium-sized projects that 
are independent of one another. They generally run in the $20 million 
category. Some are, of course, smaller and others somewhat larger, but 
one that is considerably larger is the Northwest Area Water Supply 
Project (NAWS). The first phase of that project is underway. The 
optimum construction schedule for completion of the first phase has 
been determined to be five years. The total cost of the first phase is 
$66 million. At a 65 percent cost share, the federal funding needed to 
support that program is $43 million. On the average, the annual funding 
for that project alone is over $8 million. Four other projects have 
been approved for future funding and numerous projects on the 
reservations are in the final stages of planning. These requests will 
all compete with one another. It will be a delicate challenge to 
balance these projects with one another. Nevertheless, we believe that 
once a project is started, it needs to be pursued vigorously to 
completion. If it is not, we simply run the cost up and increase the 
risk of incompatibility among the working parts.
    An example of the former would be the certain impact of increased 
cost of construction over time through inflation but also by 
protracting the engineering and administration costs and ``interest-
during-construction'' costs.
    Another costly example might be that a part used in an early phase 
may no longer be available from manufacturers during the last phases. 
The risk of the two dissimilar parts not quite meshing in actual 
operation is, of course, increased when the project is stretched out 
over a longer period of time.
    The third element of the budget is the Red River Valley (RRV) 
construction phase. The Dakota Water Resources Act authorized $200 
million for the construction of facilities to meet the water quality 
and quantity needs of the Red River Valley communities. It is my belief 
that the final plans and authorizations, if necessary, should be 
expected in approximately five years. This will create an immediate 
need for greater construction funding.
    This major project, once started, should be pursued vigorously to 
completion. The reasons are the same as for the NAWS project and relate 
to good engineering construction management. Although difficult to 
predict at this time, it is reasonable to plan that the RRV project 
features, once started, should be completed in approximately seven 
years. This creates a need for an additional $30 million as soon as 
authorized and a repayment contract is signed. Fortunately, the RRV 
project start will probably follow the completion of the NAWS first 
phase and possible later phases.
    Using these two projects as examples sets up the argument for a 
steadily increasing budget. First, to accelerate the MR&I program in 
early years to assure the timely completion of the NAWS project and 
then to ready the budget for a smaller MR&I allocation when the RRV 
project construction begins.
    Attachment 5 illustrates the level of funding for the two major 
items, MR&I and RRV. It is quickly apparent that if a straight-line 
appropriation is used for each, that a jolt or funding disaster will 
occur in the sixth year. That is when an additional $30 million will 
suddenly be needed for the RRV program. It is simply good management to 
blend these needs to avoid drastic hills and valleys in the budget 
requests. By accelerating the construction of NAWS and other projects 
which are ready for construction during the early years, some of the 
pressure will be off when the RRV project construction funding is 
needed. A smoother, more efficient construction program over time will 
be the result.
    Attachment 6 shows such a program. It begins with a $45 million 
budget this year and gradually builds over time to nearly $80 million 
when the RRV construction could be in full swing (fiscal year 2008). 
Mr. Chairman, this is why we believe it is important that the budget 
resolution recognize that a robust increase in the budget allocation is 
needed for the Bureau of Reclamation. We hope this testimony will serve 
as at least one example of why we fully support the efforts of the 
``Invest in the West'' campaign to increase the overall allocation by 
another $115 million in fiscal year 2003 and over time an increase to a 
total of $1 billion.
    Once again, the District acknowledges the difficulty of increasing 
the numbers in a time of deficit spending, but can only conclude that 
these two wars must be fought vigorously and simultaneously. We cannot 
afford to fail at either.

           Attachment 1.--National Urban Agriculture Council

      Withering in the Desert: The Need to Increase the Bureau of 
                          Reclamation's Budget
    Western water interests have been concerned for several years about 
the downward trend of the Water and Related Resources Budget of the 
U.S. Bureau of Reclamation, Department of the Interior. The Bureau's 
Budget has decreased more than 36 percent in ten years going from 
$899,378,000 in fiscal year 1991 to $573,612,000 in fiscal year 2000. 
During the five-year period covered by the tables attached to this 
report, it was reduced by $106 million.
    In order to address the backlog in the Bureau of Reclamation that 
is discussed later in this report, we suggest a $1 billion a year 
budget be provided for the Water and Related Resources account in their 
budget so that important needs in the West are adequately addressed.
    During the time frame of fiscal year 1991-fiscal year 2000, 
Congress has passed new project and program authorizing legislation for 
the Bureau such as the Reclamation Projects Authorization and 
Adjustment Act of 1992 and projects in the Omnibus Consolidated and 
Emergency Supplemental Appropriations for fiscal year 2001. 
Freestanding authorization bills in the 106th Congress totaled $2 
billion, giving the Bureau of Reclamation a $5 billion backlog of 
authorizations to be incorporated into their Budget. This backlog 
includes the Title 16 Water Reclamation and Reuse Program and the 
California Bay-Delta Ecosystem Restoration Program.
    In 1997 the Bureau published its five-year Strategic Plan pursuant 
to the Government Performance and Results Act (GRPA) of 1993. Western 
water organizations participated in discussions and development of the 
plan and on the subsequent Annual Plans for the Bureau. The Strategic 
Plan had three primary objectives coupled with eighteen strategies and 
five-year goals for each of the strategies. Their mission, in its 
simplest terms, is broken down as follows:
  --Manage, develop, and protect associated water related resources;
  --Protect the Environment in the West;
  --Improve business practices and increase employee productivity.
    We do not believe the Bureau should unilaterally redefine its 
mission. First, its original mission isn't finished. Second, defining 
the mission of a Federal agency is the prerogative of Congress, not the 
agency itself. In June of 1998, Congress was presented with a report 
from the Western Water Policy Review Advisory Commission: ``Water in 
the West: Challenge for the Next Century''. Western water interests 
concerns with the decline of the Bureau's Budget are matched by their 
concern of how to address the growth-related issues in the West. As the 
report notes: ``For the past 15 years, the West has been experiencing 
the most dramatic demographic changes for any region or period in the 
country's history. Should present trends continue, by 2020 population 
in the West may increase by more than 30 percent.''
    With that growth is a little recognized fact: The Bureau of 
Reclamation is about to celebrate its 100th birthday. The Bureau of 
Reclamation is responsible for the largest portion of water storage in 
Federal reservoirs in the West; an ever-increasing aging 
infrastructure. Reclamation has sole responsibility for the operation 
of reservoirs with a total capacity of more than 119 MAF and shares 
responsibility for the operation of reservoirs with an additional 16 
MAF. There are about 133 water projects in the western United States 
constructed by Reclamation. As a result, the Bureau of Reclamation's 
operation and maintenance budget, just like that of the U.S. Army Corps 
of Engineers is increasing at a substantial rate. Just as the backlog 
of projects needs to be accommodated, there is a need to recognize the 
operations and maintenance budget with future Budget increases.
    Attached is a table for fiscal year's 1996-2000 budgets for each of 
the major agencies in the Department of the Interior. All of these 
agencies are funded by the Interior Appropriations Bill. The Bureau of 
Reclamation is funded by the Energy and Water Appropriations Bill, 
which also funds the U.S. Army Corps of Engineers and the Department of 
Energy. However, when viewed by the Administration and the Department 
of the Interior, the Bureau of Reclamation is included in the 
Department's framework for decisions on increases or reductions to the 
overall Department's Budget even though it is funded by a different 
appropriations account.
    There is great concern among Western water interests about the 
downward trend of the Bureau's Budget. There is a general consensus 
that a minimum of $1 billion a year is needed to address ongoing 
programs and the growing backlog of the Bureau. This is necessary for 
the West to address its growth related issues. Given the information 
presented in the attached tables, every agency except the Bureau of 
Reclamation and the Minerals Management Service received a Budget 
increase, ranging from $30 million to $500 million during these five 
fiscal years. The Bureau of Reclamation has suffered a $106 million 
decrease. We feel a change needs to occur, especially since there was a 
combined increase of $1.3 billion for these agencies during the fiscal 
year 1996-2000 time frame. This time frame incidentally coincides with 
the 5-year Balanced Budget Agreement where a vast majority of other 
agencies programs were being reduced. In addition, Congress has 
provided money through Conservation and Reinvestment Act (CARA)-type 
programs in the fiscal year 2001 budget that, just for the Interior 
related budget non-Reclamation program, amounted to $678 million. This 
funding is only expected to increase in the future once the actual 
authorizing legislation passes Congress.
    There is also a growing recognition that in the 107th Congress, 
there is a strong likelihood of an additional $3 to $7 billion of 
authorizations being proposed for the State of California. These 
include new authorizations for CAL-FED, a comprehensive water 
management program for the Santa Ana Watershed, the Salton Sea, and a 
water reuse/recycling program for various parts of California. There 
are also growing program needs in the Pacific Northwest with respect to 
addressing salmon related issues.
    A careful note needs to be made about the $3 billion backlog for 
the Bureau that existed prior to the action in the 106th Congress. A 
small portion of that backlog may be reduced as a result of the 
legislation that passed in the 106th Congress. For example, the old 
cost ceiling for the Animas LaPlata (ALP) is in the $3 billion backlog. 
The legislation that passed the 106th Congress for ALP reduced the cost 
of the project substantially. There are further examples of features of 
projects in that backlog that will likely never get built, but Congress 
has taken no action to suggest that they should be modified or deleted.
    In addition, a report last year by the firm of Will & Carlson, 
Inc.--``The Greening of the Bureau of Reclamation: From Bird Seed to 
Pistachio Farms to Life on the Edge'' reviewed the Bureau of 
Reclamation's budget from fiscal year 1991-99 regarding loans, grants 
and cooperative agreements for less than $2 million. That report 
indicated during that period, approximately $750 million had been 
provided for a variety of activities. The vast majority of these 
activities were legitimately related to specific project or program 
authorizations of the Bureau of Reclamation, as well as activities 
directly related to other Federal requirements and activities, such as 
the Endangered Species Act and Indian Water Rights Settlements. Without 
making a value judgment call, there was funding provided for maybe as 
much as 20 percent of this total that might be questionable. 
Regardless, the information is now available so that Congress, if they 
so choose, can decide on whether such activities should continue in the 
future. It is important to recognize the dollar amount that is 
necessary for the environmental challenge for water development to 
occur to meet the future water needs in the West.
    In conclusion, with the growth related issues in the West, the 
backlog of projects, the downturn in the Bureau's Budget, the overall 
increase in almost all of the other Interior Agencies, and with the 
country now in a budget surplus period, it is time to increase the 
Bureau's Budget to a level that meets this challenge. It is time to 
turn the corner on the funding for the Bureau and put it on a course so 
the West is not left withering in the desert.
 106th congress--bureau of reclamation bills/provisions that became law
Reclamation-Wide
    Reclamation Reform Act Refunds, Public Law 106-377
    Dam Safety amendments, Public Law 106-377
    Hawaii Reclamation and Reuse Study, Public Law 106-566
Great Plains Region
    Perkins County Rural Water Supply Project, Public Law 106-136
    Rocky Boys Indian Water Rights Settlement, Public Law 106-163
    Lewis and Clark Rural Water Supply, Public Law 106-246
    Middle Loup Title Transfer, Public Law 106-366
    Northern Colorado Title Transfer, Public Law 106-376
    Glendo Contract Extension, Public Law 106-377
    Canyon Ferry Technical Corrections, Public Law 106-377
    Loveland Warren Act amendment, Public Law 106-377
    Fort Peck Rural Water Supply, Public Law 106-382
    Park County land conveyance, Public Law 106-494
    Palmetto Bend Title Transfer, Public Law 106-512
    City of Dickinson, North Dakota Bascule Gates Settlement Act, 
Public Law 106-566
    Dakota Water Resources Act, Public Law 106-554
    Lower Rio Grande, Public Law 106-576
Upper Colorado Region
    Central Utah Project Completion Act, Public Law 106-140
    Carlsbad Title Transfer, Public Law 106-220
    Jicarilla Apache Feasibility Study, Public Law 106-243
    Weber Basin Warren Act Amendment, Public Law 106-368
    Upper Colorado Fish Recovery, Public Law 106-392
    Colorado River salinity, Public Law 106-459
    Mancos (Warren Act Amendment), Public Law 106-549
    Colorado Ute Settlement Act Amendments, Public Law 106-554
Lower Colorado Region
    Griffith Title Transfer, Public Law 106-249
    Ak-Chin Indian Water Rights Settlement, Public Law 106-285
    Hoover Dam Miscellaneous Sales, Public Law 106-461
    Yuma Port Authority Transfer Act, Public Law 106-566
    Wellton Mohawk Title Transfer, Public Law 106-221
Pacific Northwest Region
    Deschutes, Public Law 106-270
    Minidoka Authorization Ceiling Increase, Public Law 106-371
    Chandler study, Public Law 106-372
    Nampa and Meridian Title Transfer, Public Law 106-466
    Cascade Reservoir Land Exchange, Public Law 106-493
    Bend Feed Canal, Public Law 106-496
    Salmon Creek Studies, Public Law 106-499
    Fish Screen, Public Law 106-502
Mid-Pacific Region
    Sly Park Title Transfer, Public Law 106-377
    Solano Project Warren Act amendment, Public Law 106-467
    Sugar Pine Title Transfer, Public Law 106-566
    Clear Creek Title Transfer, California, Public Law 106-566
    Colusa Basin, California, signed 12/23/00, signed 12/23/00, Public 
Law 106-566
    City of Roseville, CA, signed 12/23/00, Public Law 106-554
    Truckee Water Reuse Project, Public Law 106-554
    Sacramento River study, Public Law 106-554
    Klamath studies, Public Law 106-498
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              Attachment 2

Attachment 3.--Justification for $45 Million GDU Appropriation, Fiscal 
                               Year 2003
    Northwest Area Water Supply is cleared for construction after 15 
years of study and diplomatic delay. Construction of first phase is 
estimated to be $66 million.
    Designs are based on a five-year construction period, thus, $12 
million is needed for NAWS alone. Indian MR&I programs should be 
approximately the same.
    McKenzie County, Ramsey County expansion, Tri-County and the 
Langdon-Munich phase will be ready but may be funded from carryover of 
existing appropriations.
    Red River Valley special studies are behind schedule and need to be 
accelerated.

                        [In millions of dollars]

OPERATION AND MAINTENANCE OF INDIAN MR&I SYSTEMS PLUS JAMESTOWN 
    DAM...........................................................     4
BREAKDOWN OF $45 MILLION CONSTRUCTION REQUEST:
    Operation and Maintenance of existing Supply system...........     5
    Wildlife Mitigation & Natural Resources Trust.................     4
    Red River Valley Special Studies and Env. Analysis............     4
    Indian and non-Indian MR&I....................................    20
    Indian Irrigation.............................................     3
    Recreation....................................................     1
    Underfinancing 9.5 percent....................................     4
                                                                  ______
      Total for Construction......................................    41
                        =================================================================
                        ________________________________________________
      Grand Total.................................................    45

 Attachment 4.--Elements of the Base Operations Portion of the Garrison 
                 Diversion Unit Budget, Fiscal Year 2003

                        [In millions of dollars]

Operation and Maintenance of Indian MR&I systems and Jamestown 
    Dam...........................................................   4.5
Operation and Maintenance of Existing GDU facilities..............   5.0
Funding of Natural Resources Trust and remaining Wildlife 
    Mitigation Programs...........................................   4.0
Indian Irrigation.................................................   2.5
Recreation........................................................   1.0
Underfinancing at 9.5 percent.....................................   4.0
                                                                  ______
      Total.......................................................  21.0
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 6

                                 ______
                                 
          Prepared Statement of the Tumalo Irrigation District
    The Tumalo Irrigation District (TID) in Bend, Oregon respectfully 
requests your support for inclusion of $1,300,000 in the fiscal year 
2003 Energy and Water appropriations bill for the District's Bend Feed 
Canal Project. The 106th Congress authorized the U.S. Bureau of 
Reclamation to participate in the further construction associated with 
the project in the amount of $2.5 million.
    The TID is proposing to continue and complete in the next fiscal 
year construction to pipe a critical portion of our open canals, 
essentially eliminating water loss and enhancing public safety along 
the project's approximate 14,500 foot length. The conserved water would 
be used to deliver enhanced water to the TID irrigators even in drought 
years, as they currently receive inadequate water in 8 of 10 years. It 
will also increase stream flows in Tumalo Creek and the Deschutes 
River.
    The TID Board of Directors has expressed its willingness to pay 
their share of the estimated $5 million project cost of this important 
project and have provided all but $80,000 of their share. We are 
concerned that no funding for the project was requested by the 
Administration in their fiscal year 2003 Budget for the Bureau of 
Reclamation. Our request for $1.3 million for fiscal year 2003 would 
allow us to complete the project in the next fiscal year which would 
benefit both the District and the general public. We appreciate the 
previous funding that we have received for work in this area and look 
forward to your favorable consideration of our request.
                                 ______
                                 
Joint Prepared Statement of New Jersey Maritime Resources, State of New 
     Jersey, Department of Transportation; New York City Economic 
 Development Corporation; Transportation and Infrastructure, State of 
   New York, Empire State Development Corporation; and Port Commerce 
        Department, the Port Authority of New York & New Jersey
    On behalf of the Port of New York and New Jersey, we wish to thank 
you for the support this Subcommittee has shown for navigation programs 
and the civil works program. This Subcommittee and Congress understand 
the critical relationships between the navigation programs and the 
nation's commercial shipping and defense. We are especially 
appreciative of the funding that projects in our port have received to 
enable it to continue to serve our country's security, economic and 
international commerce objectives.
    We offer our comments on the U.S. Army Corps of Engineers' fiscal 
year 2003 budget request. We enthusiastically support the 
Administration's budget request to continue the New York and New Jersey 
Harbor Navigation project at a strong level of funding. We also 
appreciate the support of Governor McGreevey and Governor Pataki for 
their leadership in securing federal funding for critical projects in 
the Port of New York and New Jersey. These funds will ensure that 
essential navigation infrastructure will be in place to accommodate 
post-Panamax ships currently deployed in international commerce. Clear 
trends in steamship design and construction will result in a larger 
percentage of the worldwide fleet of container ships that require 
channel depths up to 50 feet. It is critical, therefore, that major US 
gateways have the required depth to accommodate these deeper draft 
vessels. The Port of New York and New Jersey directly serves states of 
the Northeast and Midwest and with these channel improvements can 
continue to provide greater transportation efficiencies to those 
markets and as warranted provide for better military deployment.
    In general, we support the Administration's budget request for 
studies and channel maintenance within the Port of New York and New 
Jersey. We respectfully request that the Subcommittee appropriate funds 
at levels outlined in this statement to ensure that these important 
projects continue. Listed below are select projects, discussed later in 
this statement, and appropriation amounts that we seek for fiscal year 
2003. Those projects displayed in bold are our requests beyond the 
fiscal year 2003 budget levels.

------------------------------------------------------------------------
                                              Budget       Port Request
------------------------------------------------------------------------
Construction: New York & New Jersey         $120,000,000    $120,000,000
 Harbor.................................
Studies:
    NY Harbor Anchorage Areas...........         364,000         364,000
    Flushing Bay & Creek, NY Restoration         258,000         258,000
    Hudson--Raritan Estuary (NY/NJ).....         676,000       2,800,000
    Hudson--Raritan Estuary (Lower               206,000         700,000
     Passaic)...........................
    Hudson--Raritan Estuary (Gowanus)...         360,000       1,000,000
Operation and Maintenance:
    Buttermilk, NY......................         300,000         300,000
    East River, NY......................          80,000          80,000
    East Rockaway Inlet, NY.............       2,100,000       2,100,000
    Flushing Bay & Creek, NY............          80,000          80,000
    Jamaica Bay, NY.....................       1,420,000       1,420,000
    New York Harbor (Drift Removal).....       5,300,000       5,300,000
    New York Harbor (Prevention of               750,000         750,000
     Obstructive Deposits)..............
    New York Harbor, NY (Sandy Hook            3,720,000       3,720,000
     Channel)...........................
    New York & New Jersey Channels......       3,835,000       3,835,000
    Newark Bay, Hackensack & Passaic              75,000         825,000
     Rivers.............................
    Project Condition Surveys, NY              1,650,000       1,650,000
     District...........................
    Raritan River, NJ...................          80,000          80,000
------------------------------------------------------------------------

    A brief description of each of these activities follows.
                              construction
New York and New Jersey Harbor
    This project was authorized by Section 101 (a)(2) of the Water 
Resources Development Act of 2000 (Public Law 106-541). The recommended 
project includes deepening the Ambrose Channel from deep water to the 
Verrazano-Narrows Bridge to 53 feet below mean low water (mlw), and 
deepening the Anchorage Channel (from the Verrazano-Narrows Bridge to 
its confluence with the Port Jersey Channel), the Kill van Kull 
Channel, portion of the Newark Bay Channels, the Arthur Kill Channel 
(from the Kill van Kull to Howland Hook Marine Terminal), the Port 
Jersey Channel and the Bay Ridge Channel to 50 feet mlw (52 feet mlw in 
rock or otherwise hard material). The Pre-construction Engineering and 
Design phase began March 6, 2001. While the local sponsor and Corps of 
Engineers prepare the project cooperation agreement with the Corps of 
Engineers the ongoing Kill van Kull-Newark Bay channel project (45 feet 
mlw) continues to make great progress and remains under budget. The 
next contract is about to be let and we are working with the Corps of 
Engineers to maintain the 2004 completion date. In the spirit of the 
consolidated funding approved by this Committee in conference last 
year, the local sponsor has applied for a permit and would fund a 
parallel contract to have the contractor continue the dredging beyond 
45 feet to 50 feet. We are very grateful that the Committee approved in 
the fiscal year 2002 conference report the combined funding of the New 
York & New Jersey Harbor, the Kill van Kull, Arthur Kill and Port 
Jersey channel projects. It will prove to be a very effective way to 
advance the project and maximize efficiencies. We are likewise honored 
that the Administration considers this project a national priority and, 
accordingly, we strongly support the $120 million budget request.
                                studies
NY Harbor Anchorage Areas (NY & NJ)
    This study was authorized by a Senate Committee Resolution on 
December 5, 1980. Red Hook Flats anchorage area, consisting of three 
anchorage areas, is located west of Red Hook and Bay Ridge, Brooklyn. 
It comprises part of the Port of New York and New Jersey anchorage area 
system that also includes the Gravesend, Liberty Island and Stapleton 
Anchorage areas. The reconnaissance report, completed in December 1993, 
identified a favorable improvement alternative for the Red Hook Flats 
consisting of deepening specific areas. The feasibility study has been 
started, and will examine this and other alternatives and recommend one 
that is technically feasible, economically justified and 
environmentally sound. We support the Administration's request for 
$364,000 in order to continue this feasibility study.
Flushing Bay & Creek, NY Restoration
    A reconnaissance study for Flushing Bay and Creek was authorized by 
resolution of the Committee on Public Works and Transportation of the 
U.S. House of Representatives adopted September 28, 1994. The study was 
authorized to address the problems and needs of the area with a view 
toward improving water quality problems in the Bay through ecosystem 
restoration. The primary concern is the southwest corner of the Bay 
next to LaGuardia Airport where water quality is degraded. The 
feasibility study began in October 1999 and will be finished in January 
2003. Reconnaissance work indicates that ecosystem restoration can be 
effected, with benefits measurable as improvements in fish and wildlife 
habitat values. The Port Authority of New York and New Jersey supports 
this initiative and is willing to continue to be an active co-sponsor 
of the study. To that end, we support the Administration's request for 
$258,000 in order to continue this much needed feasibility study.
Hudson--Raritan Estuary Studies
    These studies were authorized by a House of Representatives 
Committee Resolution dated April 15, 1999, Docket Number 2596. 
Increases are being requested for the Hudson River Estuary studies in 
order to achieve the completion schedules of 2005 for the New York & 
New Jersey and Lower Passaic studies and 2004 for the Gowanus study.
  --New York & New Jersey.--The purpose of the study is to identify a 
        project that will comprehensively restore estuarine, wetland 
        and adjacent upland buffer habitat throughout the port region 
        to the extent practicable, in keeping with existing port and 
        regional management plans. The NY District and the Port 
        Authority signed the Feasibility Cost Sharing Agreement July 
        12, 2001. The Feasibility Study began July 16, 2001. We are 
        eager to keep the momentum of this study going and respectfully 
        request that the fiscal year 2003 budget be augmented to 
        $2,800,000 particularly since identification and implementation 
        of beneficial use of dredged material for habitat enhancement 
        and restoration from large-scale port channel deepening 
        projects is included in this study.
  --Lower Passaic.--Local communities throughout the Passaic River 
        Basin requested a program of improvements that would restore 
        the Passaic River. The Passaic River, including adjacent river 
        shorelines, has been subject to degradation as a result of 
        historic industrial and commercial activities, along with the 
        associated impacts of urban development. The NY District 
        initiated the Reconnaissance Phase in January 2000 that 
        recommended a separate feasibility study for the tidal 
        influence of the Lower Passaic River. The NY District is now 
        working to develop a Project Study Plan (PSP) for the 
        feasibility study. The PSP is being developed in coordination 
        with the Environmental Protection Agency. The District expects 
        to execute the Feasibility Cost-Sharing agreement by August 
        2002. The non-Federal partner is the New Jersey Maritime 
        Resources. We respectfully request that the fiscal year 2003 
        budget be augmented to $700,000.
  --Gowanus.--The feasibility study will assess the environmental 
        problems and potential solutions in the Gowanus Canal. 
        Restoration measures will assess hot spot clean-up of off 
        channel contaminated sediments, contaminant reduction measures, 
        creation of wetlands, water-quality improvements, and 
        alteration of hydrology/hydraulics to improve water movement 
        and quality. The potential non-Federal partner is the NYC 
        Department of Environmental Protection. We request that the 
        fiscal year 2003 budget be augmented to $1,000,000 for this 
        study intended to benefit human health.
                       operation and maintenance
    Operation and maintenance projects are critical to the continued 
commerce, navigation and security of the Port of New York and New 
Jersey. This, in turn, is of paramount importance to the nation's 
security. If channels are not maintained to the depth recorded on 
nautical charts they become inaccurate and increase the risk of 
groundings to vessels. Portions of the channels in Newark Bay that lead 
to the Port Newark Marine Facility were deepened from 35 feet to 40 
feet in 1995 as part of a more comprehensive deepening project. The 
current federal fiscal year provided funds to dredge a portion of these 
channels, unfortunately there were insufficient funds to do the needed 
maintenance dredging. Consequently, we respectfully request that the 
fiscal year 2003 budget be augmented by $750,000 to $20,140,000 for the 
New York District's operation and maintenance work.
                               conclusion
    The Port of New York & New Jersey has a long and productive history 
with Congress and the Corps of Engineers in the development and 
evolution of one of America's first seaports. Much of the Federal 
government's early revenues were collected in New York Harbor as 
tariffs, long before the advent of the income tax. In our port the 
civil works program, coupled with public and private sector 
investments, has served the Nation's economic and security interest for 
the better part of two centuries. The same is true in other ports of 
the United States. We are proud of that history and commit to 
continuing this partnership with the federal government so that our 
region will continue to serve the nation for centuries to come.
                                 ______
                                 
        Prepared Statement of the City of Stillwater, Minnesota
    Chairman Reid and Members of the Energy and Water Development 
Subcommittee, I thank you for the opportunity to submit this testimony 
requesting the $1.5 million needed to complete Stage 3 of the 
Stillwater, Minnesota flood control project. In 2001, the City 
experienced its seventeenth flood since 1941, immediately after the 
Corps completed construction work on Lock and Dam #3 20 miles South of 
the convergence of the Mississippi River and the St. Croix River.
    The first two stages of the project have been completed, and 
Congress appropriated $2.3 million in the fiscal year 2002 
Appropriations Bill to begin construction the critical Stage 3 of the 
project. The $1.5 million in Federal funds requested this year, plus 
State appropriated, and local funds should be sufficient to complete 
the $13.2 million project
    The project is divided into three stages. Stage 1 included the 
repair and reconstruction of the existing retaining wall which extends 
1,000 feet from Nelson Street on the South to the gazebo on the North 
end of the levee wall system. Stage 2 consists of the extension of the 
levee wall about 900 feet from the gazebo North around Mulberry Point.
    The completion of Stage 2 was delayed by floods of 1997, costing 
the City and the Federal government nearly a half million dollars. 
After the waters subsided, it was discovered that the soil beneath the 
planned levee extension was very unstable, requiring a revision of 
plans, and the addition of another stage in the construction process.
    The flood waters of the St. Croix River did not recede until August 
of 1997. The construction area remained under water preventing 
construction work to proceed as scheduled. Lowell Park, which extends 
the full length of the levee wall system, several structures, and the 
emergency roadway which is used to provide emergency medical assistance 
for those using the recreational St. Croix River, and as a water source 
for local fire departments, were all either under water or 
inaccessible.
    Phase I, the repair and reconstruction of the original levee wall, 
was completed in the Summer of 1998. Work on Stage 1 was completed in 
late Summer of 1997, and additional soil borings were taken for Stage 
2. The soil was found to be very unstable, and unable to support the 
levee system designed for Stage 2 of the project. The construction of 
Stage 2 required remedial action, and was been designated as Stage 2S. 
A contract was awarded for Phase 2S in November, 1998, and was 
completed in 1999. Phase 2 was begun in the late Fall of 1999, and the 
major construction work was completed at the end of the year 2000. Only 
some landscaping, and finishing work on the levee wall system remains 
to be done. The Design Memorandum schedule calls for the construction 
of Stage 3 in fiscal year 2002, and to be completed in fiscal year 
2003, according to the Corps schedule.
     Stage 3 expands the flood protection system by constructing a 3 
foot flood wall, and driving sheet piling below the surface to reduce 
seepage and to provide a base for the wall. The flood wall will be 
constructed about 125 feet inland from the riverbank. Stages 1 and 2 
were critical to the protection of the fragile waterfront, and also, to 
prevent minor flooding on the North end of the riverfront.
    Stage 3 is the component that provides the flood protection for the 
City. The rising elevation of the terrain, the flood wall, and minimal 
emergency measures are designed to provide the City with up to 100 year 
flood protection.
    The Mayor, City Council Members, and Engineering staff all 
understand that Stage 3 of the flood control project is essential for 
the protection of life and property of the citizens, that the Stage 3 
flood wall is a critical phase of the project, and that the project 
must be completed at the earliest possible date. The Corps acknowledged 
the necessity for all three stages of the project when the Design 
Memorandum included plans for all three stages.
    This fact is born out by the support of the Minnesota Department of 
Natural Resources, the Governor of Minnesota, and the State 
Legislature. The Minnesota Department of Natural Resources made funds 
available based on this premise. The State has appropriated half of the 
Non-Federal matching funds needed to complete Stage 3 of the project, 
as well as for Stages 1 and 2. The City has provided the remainder of 
the required matching funds, consequently, only the Federal share is 
missing to complete the project.
                  stillwater--a national historic site
    The City of Stillwater is recognized for the 66 historic sites on 
the National Register of the U.S. Department of Interior, as well as 
other historic structures. Many of these sites are located in the flood 
plain of the St. Croix River. Designated the ``Birthplace of 
Minnesota,'' the City of Stillwater was founded in 1843.
    When Wisconsin became a state in 1848, a portion of land West of 
the St. Croix and Mississippi Rivers, including much of what is now the 
Twin Cities of Minneapolis and St. Paul, was excluded. The prominent 
citizens of the excluded area convened in Stillwater on August 26, 
1848, passed a resolution to be presented to Congress asking that a 
``new territory be formed,'' and that the territory be named 
``Minnesota.'' Henry Sibley carried the petition to Washington, D.C., 
and in March, 1849, Minnesota Territory was established. Stillwater 
then became the only city in the nation to become the county seat of 
two different territories, St. Croix County in Wisconsin, and 
Washington County, Minnesota. The Stillwater Convention firmly 
established Stillwater as the ``Birthplace of Minnesota.''
    Stillwater grew and prospered as the Lumber Capitol of the Midwest. 
Billions of feet of timber was cut, and floated down the St. Croix to 
the nine sawmills that were located on the riverbank of the St. Croix 
at Stillwater between 1848 and 1914. More logs were carried through the 
boom site North of Stillwater than any other place in the United 
States. Three billion feet of lumber was produced by the nine lumber 
mills in the 1880's alone. All nine lumber mills wee located on the 
riverfront The lumber from the Stillwater mills were the primary source 
of wood- constructed buildings throughout the Midwest.
    Much of the lumber was carried down the St. Croix to the 
Mississippi River, and on to St. Louis, the ``jumping off'' point for 
the Westward movement. Sawdust and wood debris from these mills helped 
created the fragile riverbank that the levee wall system protects 
today.
     Later in the 19th Century, five railroads carried lumber from 
Stillwater Westward to Nebraska, North and South Dakota, and points 
West, as the Nation expanded beyond the Mississippi River into the 
plains states. Many of the Midwest's oldest buildings still carry the 
mark of the Stillwater mills.
    As a result of Stillwater's place in the history of the Midwest, 
the lumber industry, the unique homes built by Minnesota's first 
millionaires, and the birthplace of both Minnesota Territory and the 
State of Minnesota, sixty-six sites are included on the National 
Register of Historic Places. All of the downtown area, which is located 
in the 100-year flood plain, is included in this recognition.
           the impact of lock and dam #3 on floods stillwater
    The Lock and Dam #3 was constructed in 1937-38 on the Mississippi 
River at Red Wing, Minnesota. The Lock and Dam construction raised the 
level of the St. Croix at Stillwater by 8 to 10 feet. It has made the 
City of Stillwater vulnerable during periods of high water and flooding 
of the St. Croix since that time. Records prove that the lock and dam 
construction, raising the water levels of both the Mississippi and the 
St. Croix River, has markedly increased the incidence of flooding at 
Stillwater. The culpability of the Corps is clearly evident.
    The Mississippi and the St. Croix Rivers merge about 14 miles South 
of Stillwater. When constructing the Lock and Dam at Red Wing in 1938, 
the Federal officials recognized that detaining the flow of the 
Mississippi would back up the water in the St. Croix at Stillwater. A 
1,000 foot levee wall system was constructed at Stillwater by the WPA 
under the supervision of the Corps to protect the fragile waterfront.
    From 1850 to 1938, the 88 years prior to the construction of Lock 
and Dam #3, only four floods were reported by historians. None were the 
result of Spring snow melts. The 1852 flood was the result of a 
cloudburst, the destruction of a dam built on McKusick Lake above the 
City, and was not the result of the flooding of the St. Croix River. 
The floods of June 14, 1885, and May 9, 1894, as well as the 1852 
flood, were all the result of cloudbursts in or above Stillwater. These 
floods resulted in both loss of life and significant property losses in 
the City.
     Since the completion of the Lock and Dam 60 years ago, the St. 
Croix has flooded on 17 occasions, and only four times in the 90 years 
preceding the construction of the Lock and Dam. None of the four were 
the result of high water on the St. Croix River. Four floods were 
recorded in the 1940's, immediately after the completion of the lock 
and dam at Red Wing. The 1952, 1965, and 1969 floods were record-
breaking floods, the result of a heavy snow fall, and early Springs 
rainfall, coupled with warm weather. Record flooding was avoided in 
1997, by the early planning of City officials, the construction of a 
huge emergency levee requiring thousands of truck loads of clay and 
sand, the work of hundreds of volunteers, and luck in the avoidance of 
a severe rainstorm in or around the flood event.
    The 2001 flood was second worst flood in the 160 year history of 
the City. It was only topped only by the flood of 1965. The careful 
planning and preparation by the City, hundreds of volunteer workers 
included high school students and younger, local citizens from 
Minnesota and Wisconsin, and dozens of inmates from the near-by State 
prison were given credit for preventing a major catastrophe for the 
City. The water pump rental, thousands of yards of sand and fill, and a 
``round the clock'' line up of trucks, cost the Federal, State, and 
local governments nearly $1.3 million.
    The planning and preparation of City officials, and adequate lead 
time have allowed the construction of levees high enough to avoid 
massive flooding in the historic section of the City during most of the 
floods, and to prevent further loss of life. However, a 4-5 inch 
rainfall during high water levels would be devastating to the City. 
Such rainfalls are not infrequent in the St. Croix Valley, and can not 
be anticipated. A major concern is the safety of the volunteers. 
Working around heavy equipment and massive trucks, day and night, and 
on top of 20 foot emergency levees over swirling flood waters, it is 
only a matter time until we have serious injuries or loss of life.
    A wet Fall that saturates the soil, heavy snows during the Winter, 
extended warm spells in the Spring, coupled with persistent Spring 
rains, and cloudbursts as experienced in the past, will all come 
together in the same year at some point in time. At that point, the 
City's emergency responses to flood control will not be sufficient to 
cope with the flood waters.
    History bears out the City's contention that the raising of the 
river levels by ten feet in 1938, when Lock and Dam #3 was constructed, 
greatly increases the flooding potential faced by the City during the 
past 60 years. On this basis alone, the Federal Government must share 
in the responsibility for providing a remedy. The construction of the 
Stage 3 flood wall at Stillwater will provide this safety.
               environment threatened during flood events
    The St. Croix River was designated as one of the first Wild and 
Scenic Rivers by Congress and is protected under both Federal and State 
laws, as well as by local ordinances. The St. Croix River is carefully 
monitored by the Federal government, an Interstate Commission, and the 
DNR's by both the States of Wisconsin and Minnesota.
    The City's concern is the trunk sanitary sewer line and pumping 
stations for the City of Stillwater. The sewer line runs adjacent to 
the riverfront and is frequently under water during major flood events. 
More than 2 million gallons of raw sewage is handled daily by the sewer 
line and pumping stations that follow the riverfront. Engineers have 
advised the City that extended flooding of the flood plain could result 
in the rupturing of the trunk line or the surcharging of the pumping 
stations.
    Either of these events would result in the direct flow of raw 
sewage into the St. Croix River. It would be impossible to repair the 
system during the high water of a flood event. During the 1997 floods, 
one pumping station and a portion of the trunk sewer line remained 
under water for 95 days, and required careful monitoring by the City 
workers.
    The protection of the river is not only the dominant theme of the 
State and Federal governments, but also by the counties and 
municipalities that line the riverbanks of the St. Croix. However, the 
greatest protectors of the river are the citizens themselves who take 
advantage of the crystal blue waters of the St. Croix for fishing, 
boating, and other recreational and scenic purposes.
    The topography of the City of Stillwater requires the location of 
the trunk sanitary sewer line and pumping stations at the base of the 
City's hub, adjacent to the riverfront. The City is built on two hills 
that slope toward the river, abruptly interrupted by sandstone bluffs 
extending 50-75 feet high above the river level. The sanitary sewer 
system serving the 16,000 Stillwater residents flows into the trunk 
sewer line that runs parallel to the riverfront. It can not be moved. 
The 2 million gallons of raw sewage handled by the system each day, is 
gathered in the trunk sewer line and pumped Southward to the water 
treatment plant.
    According to engineering studies, the trunk line and the pumping 
stations are both susceptible to rupture or surcharging during periods 
of flooding. Little could be done to stop the flow of raw sewage into 
the St. Croix until the water receded. During recent floods, it is not 
unusual for high water levels to persist for as much as 2-5 months. 
Such an event could release 120 million gallons of raw sewage into one 
of America's most pristine rivers over that period of time. If for no 
other reason than the protection of the river, the City believes the 
Stage 3 flood wall must be constructed with no delay.
                         legislative background
    The Stillwater Flood Control and Retaining Wall project first was 
authorized in section 363 of the Water Resources Development Act (WRDA) 
of 1992. An allocation of $2.4 million was made in the the Energy and 
Water Development Appropriations Act of 1994.
    A Committee Report described the project in three parts--to repair, 
extend, and expand the levee wall system on the St. Croix River at 
Stillwater, Minnesota.
  --``To repair'' (Stage 1) the original existing levee wall system 
        constructed in 1936.
  --``To extend'' (Stage 2) the original wall by approximately 900 feet 
        to prevent the annual flooding that occurs at that location, 
        and
  --``To expand'' (Stage 3) the system by constructing the flood wall 
        about 125 feet inland from the levee wall system to protect the 
        downtown and residential section in the flood plain.
    In 1995, the Design Memorandum confirmed the cost estimate for the 
project was much too low, and the project was reauthorized for $11.6 
million by Congress in the 1996 WRDA legislation. In 2001, the Corps 
estimated the Federal cost at $9.86 million, the non-Federal cost at 
$3.29 million, and the total cost of the project to be $13.15 million.
    Since the reauthorization of the project five years ago, and the 
completion of the feasibility study, both Stage 1 and 2 have 
essentially been completed. Only the completion of Stage 3 will provide 
the City with the flood protection that is critically needed. The 
reconstruction of the existing levee wall system, the extension of the 
levee wall, and the construction of the flood wall are all critical to 
the safety of the citizens, the protection of property, and the 
preservation of historic sites that contributed to the growth and 
expansion of the Midwest in the last half of the 19th Century.
                                summary
    The Mayor and Council for the City of Stillwater, Washington County 
Officials, the Governor and Minnesota State Legislature, and bipartisan 
support of Minnesota Representatives and Senators in Congress, all 
recognize the significant importance of completing this project by 
constructing the Stage 3 flood wall on the St. Croix River at 
Stillwater. They are committed to the completion of the Flood Wall 
Project at Stillwater. It is critical to the protection of property, 
the preservation of our history, the respect of historic Indian sites, 
and the safety of our citizens and their homes and business.
    We respectfully urge the Energy and Water Development Subcommittee 
for Appropriations to allocate the $1.5 million needed to complete the 
Stage 3 flood wall in the fiscal year 2003 Appropriations Bill. If you 
have questions or would like additional information regarding this 
project, please call on us.
                                 ______
                                 
         Prepared Statement of the City of Crookston, Minnesota
    Chairman Reid and Members of the Appropriations Subcommittee, I 
appreciate the opportunity to submit this testimony on behalf of the 
City Council and the citizens of Crookston, Minnesota. We are 
requesting $3.702 million in Federal funds for the completion of Stage 
2 of the flood control project authorized in the Water Resources 
Development Act of 1999. This funding level includes the $3.2 million 
the U.S. Army Corps of Engineers has determined is necessary to 
complete the work on Stage 2 of the Crookston Flood Control Project, 
and $500,000 for the development of the plans and specifications for 
Stage 3. As a result of the history of flooding experienced by the 
citizens of Crookston, and the continuing threat of flood events we 
face, it is critical that the funds needed for the Crookston project is 
made available in the Energy and Water Appropriation Bill for fiscal 
year 2003.
    We would like to thank you and the Members of this Committee for 
the $2 million appropriation awarded the Crookston Flood Control 
Project in the fiscal year 2002 Appropriations Bill. These funds have 
made it possible to complete nearly all the construction scheduled in 
Stage 1 of the project. Plans and specifications for Stage 2 have been 
completed. Bids for construction of Stage 2 are now in the process of 
being advertised. Construction is scheduled to begin immediately after 
the Winter thaw this Spring.
    The $2 million provided in the fiscal year 2002 Appropriations Bill 
has allowed us to move ahead on the construction of Stage 2. We are 
requesting $3.702 million in the fiscal year 2003 Energy and Water 
Appropriations Bill. This will provide funds to complete the 
construction of Stage 2, and provide $500,000 for the development of 
the plans and specifications for Stage 3.
    Stage 2 calls for the construction of a second diversion channel, 
levees, and other features. The Section 22 study completed by the Corps 
has identified two additional communities that remain unprotected under 
the existing project. An amendment to the project authorization is 
being requested in WRDA 2002 which will include the Chase/Loring and 
Sampson Additions. The inclusion of the two additional communities in 
the project will result in a cost/benefit ratio of 1:1.03 as determined 
by the E and R Index. The inclusion of funds for the plans and 
specifications in the fiscal year 2003 Appropriations Bill will permit 
the project construction to move forward in fiscal year 2004 without 
any delay between Stage 2 and Stage 3.
    The original project was authorized incrementally, rather than 
including all four of the neighborhoods susceptible to flooding. All 
the homeowners have been paying flood project fees for 10 years to 
provide the non-Federal match required. It would be unfair to the 
citizens living in unprotected areas to halt the project when half 
completed.
    The Sampson and Chase/Loring Additions include some 250 structures, 
primarily single family dwellings. There are two rather large apartment 
complexes, one of which is designed as assisted living housing for 
senior citizens. It is located adjacent to the river, directly in the 
flood plain.
    Two sanitary sewer pump stations are housed in the Sampson 
addition. Both are a concern to the City during flood conditions. As 
major trunk sewer lines, they carry more than a third of the City's raw 
sewage daily. It is important that Stage 3 plans and specifications be 
included in the fiscal year 2003 Appropriations Bill. Delaying the work 
till 2003 will result in increased costs, and continuing an unsafe 
environment for many of our citizens.
                        background and logistics
    The City of Crookston is located in the Red River Valley of Western 
Minnesota, in Polk County, 25 miles East of Grand Forks, North Dakota. 
The Red Lake River winds its way through the City from its source at 
the Upper and Lower Red Lakes, and flows into the Red River at Grand 
Forks. The population of the City has remained constant over the past 
decade at about 8,200 citizens.
    The community was settled in 1872, when the first railroad route 
was announced crossing the Red Lake River where Crookston now stands, 
and later, extending to Canada. The economy of Crookston is based 
primarily on agriculture. It is the home of the University of Minnesota 
Crookston, a technology oriented school with a full academic program 
enrolling approximately 2,500 students.
                    flooding events and their causes
    Floods occurring over the past forty years have created significant 
damage to homes and businesses, and have resulted in the loss of lives 
as well. They include the flood events of 1965, 1966, 1967, 1969, 1978, 
1979, 1996, and 1997. Floods have been documented at Crookston as early 
as 1887. The 1950 flood, though not the maximum flood of record, 
created the most damage to the City and resulted in the deaths of two 
citizens from the community.
    Between 1950 and 1965, clay levees were constructed through local 
efforts in an attempt to ameliorate the damages from the flooding of 
the Red Lake River. The floods of 1965, however, demonstrated these 
efforts were not adequate to hold back the torrents of water during 
significant flood events. While certain areas of the City received some 
flood protection, severe damages occurred in the South Main Street 
area. This section of the City has since been totally cleared.
    The 1969 flood established new high water marks, and again, it was 
necessary to carry out extreme emergency measures. These efforts were 
successful in protecting the community from severe damages. Recognizing 
the need for more protection, another locally financed project was 
initiated, extending, enlarging, and raising the height of the levee 
wall system.
    The flood of 1997, was the ``grandaddy'' of all floods. It 
established the highest water mark in recorded history when the Red 
Lake River crested at 28.6 feet above flood stage, the equivalent of a 
three story building. It is described as a 500-year flood event.
    Only the careful planning and preparation by City officials in 
cooperation with the Corps of Engineers, the State of Minnesota, FEMA, 
the National Guard, and many private citizens, were damages reduced, 
and fortunately, no lives were lost. Prior to the crest of the flood, 
the City of Crookston completed the work of adding two feet of clay and 
sandbags to the entire levee system throughout the town. The Corps of 
Engineers constructed clay dikes as a second line of defense, 
sacrificing a few homes for the good of many others. As a precautionary 
measure, 400 residents evacuated from their homes during the height of 
the flood.
    These efforts spared Crookston from the devastation experienced by 
neighboring towns, allowing the City to provide for 8,000 persons 
evacuated from their homes in nearby communities, But this disaster and 
the potential devastation that such floods can bring, emphasized the 
critical importance of replacing the temporary earthen and clay dikes 
with a well-planned, permanent flood control system.
    There are several causative factors that have created flood 
conditions for the Red River Valley and the City of Crookston. The Red 
River of the North did not carve out the valley, it merely meanders 
back and forth through the lowest parts of the floor of the ancient 
Glacial Lake Agassiz.
    With no definitive flood plain to channel flood torrents, the slow-
moving flood waters quickly overrun the shallow river banks and spread 
out over the flat floor of the former glacial lake bed. The small 
river's gradient is on one-half foot per mile, as opposed to areas in 
Southwestern Minnesota where in one instance, the gradient establishes 
a 19 foot drop in one mile. Both extremes have created problems.
    The Red Lake River flows into Crookston from the Northeast, winds 
it way through the City, and flows out of the City, turning in a 
Northwesterly direction toward its confluence with the Red River at 
Grand Forks, North Dakota. The merged rivers then flow due North into 
Winnipeg, Manitoba, Canada. As the snow melts in the Southern portion 
of the valley, ice often remains in the channel to the North. Ice and 
other debris flowing North pile up against the river ice creating ice 
dams. These barriers back up the water and increase the flood crest 
upstream.
    The extremely level terrain also creates a phenomenon during the 
Spring thaw which is called ``overland flooding.'' As the snow melts, 
the huge volume of water can overwhelm the network of shallow ditches 
and creeks. Unable to enter the choked stream channels, the water 
travels overland until it meets small terrain barriers such as railroad 
beds and road grades, creating huge bodies of water.
    In addition to the topography of the area, a combination of factors 
such as agricultural drainage, the loss of wetlands, the Federal 
governments work in the Red River Basin, and the construction of the 
county ditch systems, all these factors have contributed to the 
vulnerability of the area.
    City officials and the Corps of Engineers are evaluating the 
potential for flooding even this year, While the weather is permitting 
a more gradual snow melt with less water content, a substantial 
rainfall of several inches on the soil that is already saturated from 
the snow melt can greatly increase the predicted flood levels.
                     project description and status
    A Feasibility Cost Share Agreement between the Corps of Engineers 
and the City was signed on October 19, 1992, and a feasibility study 
and environmental assessment was completed in 1997. Both partners 
shared costs equally in the $1.2 million study. The Red Lake Watershed 
District and the State of Minnesota provided part of the non-Federal 
funding required, and both join the City with their strong support.
    The Feasibility Report by the U.S. Army Corps of Engineers 
recommended that a local flood control project be constructed 
consisting of two down-stream cut off channels and levees built to the 
100-year level of protection for Thorndale, Woods, and the downtown/
Riverside neighborhoods. While the two down-stream cut channels are 
planned to reduce the flooding somewhat for the entire City, and the 
levees protect the fore mentioned neighborhoods, other areas of the 
City remain at risk. The Corps of Engineers has completed a Section 22 
study of the City in which further recommendations will be made.
    The National Economic Development (NED) optimization analysis 
indicated that the 100-year and the 50-year levels of protection would 
have the approximately the same net benefits. The policy is that if two 
alternatives have the same benefits the lower cost plan is accepted.
    The District, after consultation, requested a waiver to recommend 
the 100-year protection. Their rationale included the high potential 
for property damages, the increased risk of loss of life, and the 
benefits of providing a consistent level of protection throughout the 
City. Secretary of the Army (Civil Works) H. Martin Lancaster approved 
the waiver on January 15, 1997.
  --1992--Feasibility Cost Share Agreement signed.
  --1997--Feasibility Report and Environmental Assessment completed.
  --1997--National Economic Development optimizational analysis waived 
        to provide the entire project with 100-year flood protection.
  --1998--Preconstruction engineering and design efforts begun.
  --1999--Project authorized for construction in the Water Resource 
        Development Act of 1999.
  --2000--Plans, specifications, and design work for Stage 1 completed.
  --2000--Congress appropriates $1 million for Stage 1 construction.
  --2000--Plans and Specifications for Stage 2 commenced.
  --2001--Corps of Engineers total cost estimates for the project to be 
        $10.8 million
  --2001--City requests $5.31 million from Congress for the 
        construction of Stage 2 of the Crookston Flood Control Project.
  --2001--Congress appropriates $2 million to complete work of Stage 1.
  --2002--Bids are advertised for construction of Stage 2.
                              fiscal data
    The recommended plan has a fully funded baseline cost estimate of 
$9.5 million and a benefit to cost ratio of 1.6. The total cost of the 
project, as projected by the Army Corps of Engineers, is $10.8 million. 
The increase is due to newly refined design requirements.
    The following ``Cost-Sharing Schedule'' was information developed 
by the Corps of Engineers, and was made available to us on January 30, 
2001. Our request for $5.31 million for Stage 2 of the project is based 
on this information. Nearly all of Stage 2 expenditures will occur in 
2002 and 2003. The schedule provided by the Corps is as follows:

                         CROOKSTON, MINNESOTA FLOOD CONTROL PROJECT--COST-SHARING SCHEDULE
                                                  (Costs in $000)
----------------------------------------------------------------------------------------------------------------
                                       Total
            Fiscal Year               Project     LERRDs    Non-Fed      Fed      Percent   Total Fed  Total Non-
                                       Costs                  Ped       Const.                Costs    Fed Costs
----------------------------------------------------------------------------------------------------------------
2000 and Prior.....................     $1,168         $0       $298       $870       29.7       $870       $298
2001...............................      2,490      1,650          0        840        0.0        840      1,650
2002...............................      4,086      1,000          0      3,086       32.4      2,760      1,326
2003...............................      2,814        125          0      2,689       34.8      2,339        475
2004...............................        242          0          0        242        3.1        211         31
                                    ----------------------------------------------------------------------------
    Total Costs....................     10,800      2,775        298      7,727        100      7,020     3,780
----------------------------------------------------------------------------------------------------------------
Sponsor 35 percent Share = $3,780.
LERRDs = $2,775.
Cash Requirement = $1,005.
Five Percent Cash = $540.

                non-federal contributions to the project
    The citizens of Crookston have demonstrated their commitment to the 
project each year since 1997. Every year for since 1997, they have 
voted to assess themselves a flood control project fee, over and above 
their property taxes. This action by the community has resulted in 
raising about $1.4 million up to the present time. One third of these 
local funds were used to meet part of the 50 percent match for the $1.2 
million feasibility study, and the remainder will be used as a part of 
the non-Federal match for the construction Stages of the flood control 
project.
    The State of Minnesota has also made a significant contribution to 
the project. They have appropriated $3.3 million for the dual purpose 
of providing funds to match the Federal contribution, and to buy out 
homes that have been lost in the construction of the flood control 
measures. Nineteen families were required to lose their homes to the 
project, including one farm. The State funds were used both for the 
purchase of the homesteads, and the relocation of the affected 
families.
    For these reasons, we respectfully request this Subcommittee to 
appropriate $5.31 million of Federal funds in the fiscal year 2002 
Appropriations Act to complete the Stage 2 work on the Crookston Flood 
Control Project. The Committee's favorable response to this request 
will prevent any delays affecting the completion of the project, and 
avoid cost overruns that inevitably occur when construction is delayed.
    In closing, I would like to say there is nothing more important to 
me as Mayor, and to each Member of the Crookston City Council, than the 
safety of our citizens, and the protection of their homes and property. 
We can not give them this assurance until we have completed this flood 
control project.
    May I also say that our association with the St. Paul District of 
the Army Corps of Engineers throughout this process has been 
outstanding. They are an extraordinary organization, working on the 
scene during flood conditions, and assisting us as we attempt to 
resolve this problem that threatens our citizens. We could not ask for 
a better partner in this project.
    Thank you for the opportunity to bring this important matter to 
your attention through this statement. I will be delighted to respond 
to any questions you may have about the project.
                                 ______
                                 
 Prepared Statement of the Oglala Sioux Tribe Rural Water Supply System
              fiscal year 2003 construction budget request
    The Mni Wiconi Project beneficiaries (as listed below) respectfully 
request appropriations for construction in fiscal year 2003 in the 
amount of $46,077,000 as follows:

Oglala Sioux Rural Water Supply System:
    Core Facilities (Pipelines and Pumping Stations)....     $17,164,000
    Distribution System on Pine Ridge...................       7,349,000
West River/Lyman-Jones Rural Water System...............       7,748,000
Rosebud Sioux Rural Water System........................      10,725,000
Lower Brule Sioux Rural Water System....................       3,091,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Mni Wiconi Project..........................      46,077,000

    The project sponsors have been provided with the Administration's 
budget for this project in fiscal year 2003 ($23.292 million for 
construction) and are extremely concerned with the inadequacy of the 
budget. The following is the average federal funding need to complete 
the project in fiscal year 2008.

Total Federal Funding Required..........................    $391,091,000
Federal Spent Through Fiscal Year 2002..................    $213,384,726
Percent Spent...........................................           54.56
Amount Remaining........................................    $177,706,274
Average Required for Fiscal Year 2008 Finish............     $29,617,712

    The funding request presented above is urgently needed to complete 
this project in a timely manner. An extension of time beyond fiscal 
year 2007 will require an increase in the project budget beyond 
indexing due to added years of administration. The funding request is 
within the capability of the sponsors to utilize in fiscal year 2003 
based on the status of designs.
    The principle elements in the budget for fiscal year 2003 are 
$17.164 million for the Oglala Sioux Rural Water Supply System (OSRWSS) 
core to reach Kadoka and funds for Rosebud, Lower Brule and West River/
Lyman-Jones to build distribution systems that will interconnect with 
the OSRWSS core facilities.
    The sponsors are extremely pleased to report that the OSRWSS water 
treatment plant on the Missouri River near Fort Pierre, South Dakota, 
is fully operational and will deliver treated water on a sustained and 
dependable basis during fiscal year 2002 and thereafter. Large diameter 
OSRWSS core pipelines (24 inch) will have been constructed by the end 
calendar year 2002 to Vivian and Murdo, over a distance of 100 miles. 
The completion of these critical segments of the core pipeline permits 
the Lower Brule Sioux Tribe to interconnect at Vivian and deliver water 
immediately to large areas of West River/Lyman-Jones. Over a period of 
several years, Lower Brule will complete its core system into the 
Reservation. The completion of the core pipeline to Murdo permits the 
Rosebud Sioux Tribe and other parts of West River/Lyman-Jones to 
interconnect at that location. Over 50 percent of the design population 
will have access to Missouri River water from the OSRWSS core 
pipelines, but only if the requested level of appropriations is made 
available to provide for construction of the interconnecting pipelines. 
The project now has the most significant project components completed 
and can conclude the project in a timely manner given adequate 
appropriations in fiscal years 2003 through 2008. The subcommittee is 
respectfully petitioned by the sponsors to give priority to the 
completion of this project before committing significant funds to new 
projects. The degree of poverty and need for improvement of drinking 
water are set forth in greater detail in section 3 of our testimony and 
underscore the importance of this project.
        osrwss core pipeline to reach kadoka in fiscal year 2003
    Only the Pine Ridge Indian Reservation and parts of West River/
Lyman-Jones will be without points of interconnection to the OSRWSS 
core. The requested funding level for the OSRWSS core of $17.164 
million will complete the project from Murdo to Kadoka and leave a 
relatively small distance in fiscal year 2004 for connection to the 
northeast corner of the Pine Ridge Indian Reservation where, in 
combination with the western part of West River/Lyman-Jones, the 
remaining 50 percent of the design population resides. The 2000 census 
confirms that this remaining population is growing at a rate of 24 
percent per decade or 1\1/2\ times greater than projected from the 1990 
census. Delivery of Missouri River water to this area is urgently 
needed.
    All proposed OSRWSS construction activity will build pipelines that 
will provide Missouri River water immediately to beneficiaries. In many 
cases, construction of interconnecting pipelines by other sponsors is 
ongoing, and fiscal year 2003 funds are required to complete projects 
that will connect with the OSRWSS core.
    Funding for OSRWSS core and distribution facilities is necessary to 
bring the benefits of the Empowerment Zone designation to the Pine 
Ridge Indian Reservation, one of five rural designations across the 
Nation. There is great anticipation on the Pine Ridge Indian 
Reservation. The federal projection that as much as $.5 to $1.0 billion 
in economic activity can be generated, however, is largely dependent on 
the timely completion of a water system, which depends on 
appropriations for this project.
    Finally, the Subcommittee is respectfully requested to take notice 
of the fact that fiscal year 2003 will significantly advance 
construction of facilities that will bring the end of the project into 
focus. While amendment of the legislation is required to extend the 
completion date beyond fiscal year 2003 to as distant as fiscal year 
2008, the Subcommittee's past support has brought the project to the 
point that the end can be seen. Key to the conclusion of the project in 
fiscal year 2008 is the completion of the OSRWSS core to the Pine Ridge 
Indian Reservation. Toward this end, funds are included in the fiscal 
year 2003 budget to build the connecting pipelines between the 
northeast corner of the Pine Ridge Indian Reservation and the central 
portion of the Reservation near Kyle. Rosebud is similarly engaged in 
the construction of a major connecting pipeline that will join the 
OSRWSS core near Murdo and deliver water southerly to the central 
portions of the Rosebud Indian Reservation and to service areas for 
West River/Lyman-Jones.
                      unique needs of this project
    This project covers much of the area of western South Dakota that 
was formerly the Great Sioux Reservation established by the Treaty of 
1868. Since the separation of the Reservation in 1889 into smaller more 
isolated reservations, including Pine Ridge, Rosebud and Lower Brule, 
tensions between the Indian population and the non-Indian settlers on 
former Great Sioux lands has been high with little easing by successive 
generations. The Mni Wiconi Project is perhaps the most significant 
opportunity in more than a century to bring the sharply diverse 
cultures of the two societies together for a common good. Much progress 
has been made due to the good faith and genuine efforts of both the 
Indian and non-Indian sponsors. The project is an historic basis for 
renewed hope and dignity among the Indian people. It is a basis for 
substantive improvement in relationships.
    Each year our testimony addresses the fact that the project 
beneficiaries, particularly the three Indian Reservations, have the 
lowest income levels in the Nation. The health risks to our people from 
drinking unsafe water are compounded by reductions in health programs. 
We respectfully submit that our project is unique and that no other 
project in the Nation has greater human needs. Poverty in our service 
areas is consistently deeper than elsewhere in the Nation. Health 
effects of water borne diseases are consistently more prevalent than 
elsewhere in the Nation, due in part to (1) lack of adequate water in 
the home and (2) poor water quality where water is available. Higher 
incidences of impetigo, gastroenteritis, shigellosis, scabies and 
hepatitis-A are well documented on the Indian reservations of the Mni 
Wiconi Project area. At the beginning of the third millennium one 
cannot find a region in our Nation in which social and economic 
conditions are as deplorable. These circumstances are summarized in 
Table 1. Mni Wiconi builds the dignity of many, not only through 
improvement of drinking water, but also through direct employment and 
increased earnings during planning, construction, operation and 
maintenance and from economic enterprises supplied with project water. 
We urge the subcommittee to address the need for creating jobs and 
improving the quality of life on the Pine Ridge and other Indian 
reservations of the project area.
    Employment and earnings among the Indian people of the project area 
is expected to positively impact the high costs of health-care borne by 
the United States and the Tribes. Our data suggest clear relationships 
between income levels and federal costs for heart disease, cancer and 
diabetes. During the life of the Mni Wiconi Project, mortality rates 
among the Indian people in the project area for the three diseases 
mentioned will cost the United States and the Tribes more than $1 
billion beyond the level incurred for these diseases among comparable 
populations in the non-Indian community within the project area. While 
this project alone will not raise income levels to a point where the 
excessive rates of heart disease, cancer and diabetes are significantly 
diminished, the employment and earnings stemming from the project will, 
nevertheless, reduce mortality rates and costs of these diseases.

                              TABLE 1.--1990 BUREAU OF CENSUS ECONOMIC STATISTICS \1\
----------------------------------------------------------------------------------------------------------------
                                                                      Per Capita Families Below
                                                 ---------------------------------------------------------------
              Indian Reservation/Site                  Income ($)        Poverty Level        Unemployment (%)
                                                                             (%)
----------------------------------------------------------------------------------------------------------------
Pine Ridge (Shannon County).....................            $3,029               59.6                   32.7
Rosebud (Todd County)...........................             4,005               54.4                   27.3
Lower Brule (Lyman County)......................             4,679               45.0                   15.7
State of South Dakota...........................            10,661               11.6                    4.2
National........................................            14,420               10.0                    6.3
----------------------------------------------------------------------------------------------------------------
\1\ 2000 census data are not yet available for income and poverty. Preliminary estimates based on 1997 census
  information indicate that conditions have not changed significantly.

    Financial support for the Indian membership has already been 
subjected to drastic cuts in funding programs through the Bureau of 
Indian Affairs. This project is a source of strong hope that helps off-
set the loss of employment and income in other programs and provide for 
an improvement in health and welfare. Tribal leaders have seen that 
Welfare Reform legislation and other budget cuts nation-wide have 
created a crisis for tribal government because tribal members have 
moved back to the reservations in order to survive. Recent Census 
Bureau data indicate that the population of Shannon County (Pine Ridge 
Indian Reservation) increased over 24 percent between 1990 and 2000. 
The populations of the Rosebud and Lower Brule Indian Reservations have 
also continued to grow. Economic conditions have resulted in 
accelerated population growth on the reservations. The Mni Wiconi 
Project Act declares that the United States will work with us under the 
circumstances:
        . . . the United States has a trust responsibility to ensure 
        that adequate and safe water supplies are available to meet the 
        economic, environmental, water supply and public health needs 
        of the Pine Ridge, Rosebud and Lower Brule Indian Reservations 
        . . .
    Indian support for this project has not come easily because the 
historical experience of broken commitments to the Indian people by the 
Federal Government is difficult to overcome. The argument was that 
there is no reason to trust and that the Sioux Tribes are being used to 
build the non-Indian segments of the project and the Indian segments 
would linger to completion. These arguments have been overcome by 
better planning, an amended authorization and hard fought agreements 
among the parties. The Subcommittee is respectfully requested to take 
the steps necessary the complete the critical elements of the project 
proposed for fiscal year 2003.
    The following sections describe the construction activity in each 
of the rural water systems.
          oglala sioux rural water supply system--distribution
    Pine Ridge and parts of West River will be the last project 
sponsors to interconnect with the OSRWSS core to receive Missouri River 
water. With the conclusion of projects under construction in fiscal 
year 2002, the Oglala Sioux Tribe will have completed all facilities 
that can be supported from local groundwater and will rely on the 
OSRWSS core to convey Missouri River water throughout the Reservation. 
Much pipeline has been constructed, primarily between Kyle, Wounded 
Knee and Red Shirt and between Pine Ridge Village and the communities 
of Oglala and Slim Buttes.
    Of particular importance to the Oglala Sioux Tribe is the start of 
the main transmission system from the northeast corner of the 
Reservation to Kyle in the central part of the Reservation. The 
transmission line is needed to interconnect the OSRWSS core system with 
the distribution system within the Reservation in order to deliver 
Missouri River water to the populous portions of the Reservation. With 
adequate funds, this critical segment of the project can be initiated 
in fiscal year 2003 and concluded to coincide with the westward 
construction of the OSRWSS core to the northeast corner of the 
Reservation. This component of the Oglala system has been deferred for 
several years due to inadequate funding although the design and 
easements have been completed on large portions of the project. This 
system is urgently needed so that the OSRWSS core system can be 
utilized.
        west river/lyman-jones rural water system--distribution
    WR/LJ is now delivering quality water to more of its membership 
with each Federal appropriation. With fiscal year 2002 funds and 
completion of the OSRWSS water treatment plant we were able to provide 
service to Ft. Pierre, Vivian, Presho, Kennebec and rural members in 
those areas. Service was also extended to new housing facilities now 
able to be build adjacent to the Federally developed Oahe reservoir 
North of Ft. Pierre. The City of Murdo will be served very early in 
fiscal year 2003.
    Each year of Tribal core pipeline construction provides WR/LJ with 
the opportunity to construct distribution pipeline that have been long 
awaited by its membership. The area now being reached by core pipeline 
is an area where the only alternative to project water is a $50,000 
deep well that is beyond the financial means of most members and the 
water still does not meet Safe Drinking Water Act standards.
    The area in Eastern Mellette County will extend pipelines from the 
Rosebud core that is making its connection to the core pipeline at 
Murdo. These lines will serve WR/LJ members and Rosebud tribal members 
through shared and jointly financed distribution facilities.
    WR/LJ will construct distribution facilities in the Murdo, Draper 
and Okaton service areas as the Oglala core extends westward. This area 
includes service to communities and commercial facilities that serve 
the traveling public along the US Interstate 90 corridor.
            rosebud rural water system (sicangu mni wiconi)
    The foresight of the Rosebud Sioux Tribe in planning the Sicangu 
Mni Wiconi will become apparent in fiscal year 2003. Existing sources 
of supply for some reservation communities are unable to meet the 
revised arsenic standard planned for implementation in 2006. In other 
areas the level of nitrates are rising and the current primary standard 
has been exceeded. The high quality water from the OSRWSS core is now 
needed to provide a safe and adequate drinking water supply.
    While the existing Sicangu Mni Wiconi well field near Rosebud 
continues to be a reliable source for portions of the project area, it 
was not originally intended to extend service to northern Todd County 
and Mellette County from that source. The connection to the OSRWSS core 
at Murdo will eliminate the need to provide tribal members and WR/LJ 
members with ground water from the Rosebud well field. The core 
connection will not only provide a reliable source of high quality 
water for the residents in the rural areas near Corn Creek and the WR/
LJ Mellette East Project, it will also ``free-up'' groundwater from the 
Rosebud well field to be used in eastern Todd County where nitrate 
levels are rising.
    The Tribe's highest priority for funding in 2003 is completion of 
the core pipeline project. However, without funds to construct 
distribution lines and service connections the water will not reach the 
areas that need it most. Funds are also being sought for a distribution 
and service lines in the Spring Creek/Grass Mountain area (high arsenic 
concentrations) and Hidden Timber/Okreek area (high nitrate 
concentrations).
              lower brule rural water system--distribution
    The Lower Brule Rural Water System has made a tremendous amount of 
progress over the last few years. A state of the art microfiltration 
water treatment plant was constructed and placed into operation in 
December 1999. The completion of this plant has not only benefited the 
users of the LBRWS but also allowed the provision of high quality water 
to a significant number of users of the West River/Lyman Jones Rural 
Water System from Oacoma to Vivian.
    The provision of water to WR/LJ RWS and its users has been a very 
rewarding experience. The cooperation and communication between the two 
systems, especially the operation and maintenance personnel, has been 
exceptional and has thus led to the successful delivery of high quality 
water to users on both systems. As a result, much of the apprehension 
that was felt prior to this supply of water has turned to praise.
    The Fort George Butte-County Line Road and the Vivian to Presho 
core pipelines are installed. Both segments will be tested and placed 
into operation as soon as water is available from the Oglala Sioux 
Rural Water Supply System (OSRWSS) core pipeline. Construction of the 
Presho to Kennebec and Kennebec North pipelines began during the 2001 
construction season with all of the piping being installed. The mild 
winter has allowed the Contractor to continue work on the 
appurtenances. As a result, these lines should be flushed, tested and 
placed into service by early spring 2002. All of these pipelines will 
initially serve only WR/LJ users until the on-Reservation distribution 
system can be constructed.
    LBRWS has committed current funding for the construction of the 
last segment of LBRWS core pipeline between Kennebec and Reliance 
during the 2002 construction season. This will result in the core 
pipeline from Vivian to Reliance serving WR/LJ service areas along the 
pipeline and the cities of Vivian, Presho and Kennebec.
    After the Project received funding and construction began, the 
LBRWS quickly realized that the original estimated cost was severely 
underestimated. The Bureau of Reclamation confirmed the error in the 
original estimate in their Cost Containment Report dated October 1999.
    Primarily, as a result of the severely underestimated cost in the 
Final Engineering Report, the LBRWS has received the extent of the 
funding designated for its portion of the project with the receipt of 
the 2001 funds. An amendment to increase the ceiling for overall 
project costs, including that needed by Lower Brule, has been 
requested. The LBRWS with the support of the other sponsors is 
proceeding with the optimism that the amendment will be approved in a 
time frame that will not impact the progress currently being made. To 
that extent, LBRWS will receive $1,450,000 in fiscal year 2002 funds 
for the Kennebec to Reliance segment of core pipeline and is requesting 
$3,091,000 in fiscal year 2003 funds for the Fort Hale, Medicine Butte 
North and Kennebec North-Medicine Creek distribution systems. This will 
be the initiation of the on-Reservation distribution system and thereby 
provide service to on-Reservation users.
             operation, maintenance and replacement budget
    In fiscal year 2002, the approved budget for operation, maintenance 
and replacement (OMR) was $7.5 million. The sponsors will work with 
Reclamation and among themselves to budget more closely in this and 
future years to insure that OMR costs are adequate and that they do not 
reduce the amount available from total project funds to complete 
construction by fiscal year 2008.
                                 ______
                                 
   Prepared Statement of the Board of Mississippi Levee Commissioners
               mississippi river and tributaries project
    Mr. Chairman and Members of the Committee: I am James E. Wanamaker, 
Chief Engineer for the Board of Mississippi Levee Commissioners, 
Greenville, Mississippi, and I have the privilege of presenting this 
statement on behalf of this Board and the citizens of the Levee 
District. The Board of Mississippi Levee Commissioners is comprised of 
7 elected commissioners representing the counties of Bolivar, 
Issaquena, Sharkey, Washington, and parts of Humphreys and Warren 
counties in the Lower Yazoo Basin in Mississippi. The Board of 
Mississippi Levee Commissioners is charged with the responsibility of 
providing protection to the Mississippi Delta from flooding of the 
Mississippi River and maintaining major drainage outlets for removing 
the flood waters from the area. These responsibilities are carried out 
by providing the local sponsor requirements for the Congressionally 
authorized projects in the levee district.
    The region encompassed by the Mississippi River & Tributaries 
Project over lays the heart of the recently authorized Delta Regional 
Authority. The employment of the local work force and purchases from 
local vendors by the contractors on these projects are vital to 
maintaining the economies of some of the most impoverished counties 
included in the boundary of the Delta Regional Authority. Adequate or 
increased funding of existing authorities is one of the most efficient 
ways to boost the economy and to improve our nation's infrastructure.
    The foresight used by the Congress in their authorization of the 
many features of the Mississippi River & Tributaries Projects is 
exemplary. This project has proven to be one of the most cost effective 
projects ever undertaken by the United States. The Board remains aware 
that the President's budget is again extremely low shifting the burden 
again to the Congress of funding projects at levels deemed necessary to 
maintain timely construction to provide the much needed flood 
protection to the Mississippi Delta. Without the Congressional adds to 
the budget over the last several years, construction would be lagging 
far behind throughout the entire Lower Mississippi Valley. The 
Mississippi Valley Flood Control Association will be submitting a 
general statement to support an appropriation of $391M for fiscal year 
2003 for surveys, advanced engineering, construction, and the operation 
and maintenance of the Mississippi River & Tributaries Project. We must 
always remember that the Lower Mississippi River receives flood waters 
from 41 percent of the Continental United States and inadequate funding 
delays benefits and increases the cost of our projects to the nation.
    The Mainline Mississippi River Levee throughout the Valley is the 
backbone for providing flood protection to the Delta areas. Following 
the 1973 flood, it was determined that 69.1 miles of Mainline 
Mississippi River Levees in Mississippi were deficient in grade and 
section. The Corps of Engineers currently has 18 miles of our levee 
under construction with another award scheduled for June of this year. 
The administration budget for Mississippi River Levees of $42.36M will 
not allow any new construction starts on this vital project. We are 
asking that the Congress appropriate $50M for construction of Mainline 
Mississippi River Levees to allow construction to proceed in an orderly 
manner. Until such time all of our levees are completed to grade and 
section, the Mississippi Delta will remain exposed to severe flooding 
from the Project Design Flood on the Mississippi River. It is estimated 
that the State of Mississippi alone would suffer damage in excess of 
$1.8 billion with over 20,000 homes flooded, displacing more than 
56,000 people by an overtopping of the levee system in Mississippi.
    As the Corps prepares to release the Final Reformulation Report for 
the Yazoo Backwater Project, I need to remind you that the Board of 
Mississippi Levee Commissioners initiated a consensus process involving 
State and Federal resource agencies and major private environmental 
groups. After the initial meeting the National Wildlife Federation, the 
Mississippi Wildlife Federation, the Audubon Society, the Gulf 
Restoration Network, and the Sierra Club elected to withdraw from this 
consensus building process. The only private environmental group to 
remain in the process was Ducks Unlimited. The consensus process 
involved over 50 hours of meetings of these agencies, organizations, 
and local citizens over an 18 month period. We remain very disappointed 
in the attitude taken by the U.S. Fish & Wildlife Service and 
Environmental Protection Agency during this process. These agencies did 
not participate as resource agencies as anticipated, but as advocates 
of their own plan for the area. The consensus process resulted in a 
modification of alternatives being considered by the Corps of Engineers 
for this project. The Board of Mississippi Levee Commissioners and the 
Corps of Engineers have each hosted public meetings in the project area 
and found the vast majority of individuals living in the project area 
support the recommended plan. This support is given by these local 
individuals living in the project area even though water levels will be 
7 feet deeper with the recommended plan than the 1982 plan before the 
pumps are operated, and 62,500 acres of developed land will be taken 
out of production and reforested as part of this project. The 
Recommended Plan is supported officially by the Board of Mississippi 
Levee Commissioners, and all six County Boards of Supervisors in the 
project area, Issaquena, Sharkey, Washington, Warren, Humphreys, and 
Yazoo. We are currently requesting an appropriation of $14.25M for this 
project, which will allow the Vicksburg District to initiate right-of-
way acquisition and initiate the pump supply contract for this project.
    As with all infrastructure, the need for maintenance is required to 
keep the projects functioning as designed. Many areas experienced heavy 
flooding on two occasions last fall that would have been prevented with 
the completion of this maintenance project. The Big Sunflower River 
Maintenance Project is a case where the local sponsors have provided 
the necessary minor maintenance for over 50 years. It has been 
identified that major maintenance is required to restore the capacity 
of this project to move flood waters through the Mississippi Delta. We 
are requesting an appropriation of $4.115M to allow work to continue on 
this project. Construction on Item 3 has been completed and right-of-
way for Item 2 is being acquired. This appropriation will allow the 
work on Item 2 to continue and to purchase rights-of-way for future 
items.
    Work on the Upper Yazoo Project is continuing with the completion 
of Items 4-A and 4-B bringing protection in the Delta to the City of 
Greenwood. We are requesting an appropriation of $18M for the Upper 
Yazoo Project which will allow work to continue upstream. The 
communities of Marks, Tutwiler, and Glendora all had extensive flooding 
following heavy rains in November and December of last year. It is 
imperative that work on this project be continued to provide an 
adequate outlet for the flood control reservoirs that hold back flood 
waters from the Mississippi Delta. Without an adequate outlet for these 
reservoirs, stages inside the reservoirs will continue to rise 
threatening an overtopping of the emergency spillway, whereby, we lose 
all control of flood waters in the basin.
    Work on the Upper Steele Bayou Project has been completed through 
Greenville and as we pointed out on other projects, the completed works 
provided enormous protection to the heavy rains received in November 
and December of last year. Our request of $1.2M for this project will 
allow work to continue in the Yazoo National Wildlife Refuge and 
continue acquisition of mitigation lands.
    The construction of the Demonstration Erosion Control Project 
greatly reduces erosion in the upland tributaries and holds back the 
movement sediment into our Delta streams. Continued work on this 
project will reduce future maintenance requirements along the Yazoo 
Tallahatchie Coldwater System in years to come. Our request for $21.6M 
will allow construction to continue further reducing erosion and 
sediment to the Delta streams.
    Maintenance of our Mainline Mississippi River Levee System 
continues as a major feature carried out by the basins' Levee Boards. 
The Flood Control Act of 1928 clearly delineates Federal and local 
responsibilities in the maintenance activities required for this 
project. We are requesting $8.13M for the maintenance of Mississippi 
River Levees to allow the Corps of Engineers to carry out the Federal 
responsibilities for major maintenance along the Mainline Mississippi 
River Levee System.
    As we pointed out earlier, all projects need to be maintained to 
keep them functioning as designed. Work on our 4 flood control 
reservoirs are no exception to this need. We are asking for an 
appropriation for maintenance of Arkabutla Lake of $18.33M; Enid Lake 
$7.436M; Grenada Lake $8.186M; and Sardis Lake of $19.505M. The 
increased funds requested for this project will be utilized to complete 
the bank protection along these dams, repair water wells, treatment 
storage facilities and other maintenance needs. We are also requesting 
an appropriation of $1.265M for the tributaries features of the Yazoo 
Basin which will allow for continued bank stabilization and shore line 
protection work.
    In closing, I must take a minute to reflect on the criticism being 
focused on the Corps of Engineers' study process utilized in reviewing 
projects. I must point out that the focus of the criticism primarily on 
the Upper Mississippi Navigation Study relies on activities taking 
place prior to the publication of a draft report. No one knows what 
that draft report would have contained had the process been allowed to 
continue. Even after a draft report is published, the current process 
allows thorough review of the report and the recommended plan by 
government agencies, private organizations and individuals throughout 
the project area and the Nation. All of the comments received by the 
Corps through that draft report must be addressed prior to a final 
report being made before construction of any project proceeds. Far more 
studies performed by the Corps of Engineers throughout the Nation fall 
by the wayside than results in actual construction taking place. We 
feel that the current process provides a thorough review and an 
adequate opportunity for proponents and opponents to review and express 
their thoughts.
    We are grateful to the Committee for providing us the opportunity 
each year to present our requests.
                                 ______
                                 
           Prepared Statement of Red River Valley Association
                              introduction
    The Red River Valley Association is a voluntary group of citizens 
bonded together to advance the economic development and future well 
being of the citizens of the four state Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 77 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts, Municipalities and other local 
governmental entities in developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 77th Annual Meeting in Shreveport, Louisiana on February 21, 
2002, and represent the combined concerns of the citizens of the Red 
River Basin area as they pertain to the goals of the Association, 
specifically:
  --Economic and Community Development
  --Environmental Restoration
  --Flood Control
  --Bank Stabilization
  --A Clean Water Supply for Municipal, Industrial and Agricultural 
        Uses
  --Hydroelectric Power Generation
  --Recreation
  --Navigation
    The Red River Valley Association is aware of the constraints on the 
federal budget, and has kept those restraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in the Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested.
                             rrva testimony
    Mr. Chairman and members of the Committee. I am Wayne Dowd, and 
pleased to represent the Red River Valley Association as its President. 
Our organization was founded in 1925 with the express purpose of 
uniting the Citizens of Arkansas, Louisiana, Oklahoma and Texas to 
develop the land and water resources of the Red River Basin.
    Even though the President's budget included $4.175 billion for 
civil works programs this is $450 million (9.73 percent) less than 
appropriated in fiscal year 2002. Again, the Corps took the biggest 
reduction than any of the other major Federal agencies. This does not 
come close to the real needs of our nation. A more realistic funding 
level to meet the requirements for continuing the existing needs of the 
civil works programs is $6.4 billion. The traditional programs, inland 
waterways and flood protection remain at the low, unacceptable level as 
in past years. These projects are the backbone to our nation's 
infrastructure for waterways, flood control and water supply. We remind 
you that civil works projects are a true ``jobs program'' in that 100 
percent of project construction is contracted to the private sector, as 
is much of the architect and engineer work. Not only do these funds 
provide jobs, but provide economic development opportunities for our 
communities to grow and prosper.
    The tragedy of the 11 September terrorist attack has shown how 
fragile our economy can be. The civil works program is a catalyst that 
is responsible for creating jobs and stimulating growth. It would be 
irresponsible to allow our nation's infrastructure to deteriorate, or 
worse, stop its growth in a time when America must be the leader in 
world trade. Our inland waterways are the key to our dominance of world 
markets. This is a pivotal budget year where critical decisions must be 
made which will determine our future economic strength.
    The Corps of Engineers has served our nation for over 225 years and 
has been instrumental in developing the infrastructure that makes us 
the economic power we are in the world today. In 1996 our ports 
generated over $146 billion in federal taxes, moving 2.3 billion tons 
of commerce annually providing $3 increase in GDP for every $1 spent. 
Corps flood control projects have prevented damages of $21 billion 
annually saving $6 for every $1 spent. Corps projects and lakes provide 
more recreation opportunities for Americans, in visitor days, than the 
National Park Service.
    It is difficult to understand why the environmental extremists are 
so strong in their objection to the inland waterways. The facts are 
that one barge, 1,500 tons of commodities, is equivalent to 15 jumbo 
rail hoppers or 58 tractor-trailer trucks. According to EPA, towboats 
emit 35 to 60 percent fewer pollutants than locomotives or trucks. So 
why would anyone want to take cargo off our waterways and increase 
highway congestion and air pollution? We do not believe opponents to 
civil work programs have the scientific justification to back their 
claims.
    We do not support proposed actions for radical reform to the Corps 
process or additional independent review of Corps projects. Civil Works 
projects already go through the strictest ``benefit to cost'' 
justification then any other federal agency.
    I would now like to comment on our specific requests for the future 
economic well being of the citizens residing in the four state Red 
River Basin region.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. The tonnage moved in CY 2000 
was 3.8 million tons with the projected tonnage, to justify the 
project, at 3.9 million tons. We are extremely proud of our public 
ports, municipalities and state agencies that have created this 
success. New opportunities were announced in CY 2001 including a 
ConAgra facility at the Natchitoches Parish Port. Liquid petroleum 
shipments are expected to double in CY 2002 and commercial stone 
operations are expected to increase. You are reminded that the Waterway 
is not complete, twelve percent (12 percent) remains to be constructed, 
$244 million. We appreciate Congress's appropriation level in fiscal 
year 2002; however, in order to keep the Waterway safe and reliable we 
must continue at a funding level closer to $25 million. The RRVA formed 
a Navigation Committee for industry, the Corps and Coast Guard to 
partner in making our Waterway a success. This effort has reaped many 
benefits. We cannot sacrifice what has been accomplished by inadequate 
funding levels each year.
    An issue we need to address is the current 9-foot draft authorized 
for the J. Bennett Johnston Waterway. Our Waterway feeds into the 
Mississippi River, Atchafalaya River and Gulf Coastal Canal, which all 
accommodate 12-foot draft barges. This additional cargo capacity will 
greatly increase the efficiency of our Waterway and make us compatible 
with the systems we feed into. We request that the Corps conduct a 
study to evaluate this proposal requiring $300,000 for fiscal year 
2003. This change would greatly increase the economic success of our 
Waterway.
    The feasibility study to continue navigation from Shreveport-
Bossier City, Louisiana into the State of Arkansas is on going. It is 
imperative that you continue funding this important study and 
appropriate the $583,000 required for fiscal year 2003 to complete the 
study. This region of SW Arkansas and NE Texas continues to suffer 
major unemployment and the navigation project, although not the total 
solution, will help revitalize the economy. The President's budget 
included no funding for this study. We remind you that this is a $6 
million study cost shared 50 percent with the Arkansas Red River 
Commission. It would not do justice to come this far and not complete 
the study after the local sponsor has provided $3 million in good 
faith, that the study would be completed.
    This will be a multipurpose project addressing navigation, 
hydropower, bank stabilization, recreation and environmental 
restoration. As we experience serious shortages of electric power in 
parts of our nation this project will offer the potential for 
hydropower generation at each of the proposed lock and dams. This is 
the most efficient, safest and environmental friendly source of power 
generation.
    Additionally, we believe this continuation of navigation into 
Arkansas should be analyzed and justified under the same parameters as 
was used in Louisiana and request language in the Appropriation Bill to 
direct this change.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Arkansas and North 
Louisiana. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as roads, 
electric power lines and bridges; as well as increased dredging cost in 
the navigable waterway. These bank stabilization projects are 
compatible with subsequent navigation and we urge that they be 
continued in those locations designated by the Corps of Engineers to be 
the areas of highest priority. We appreciated the Congressional funding 
in fiscal year 2002 and request you fund this project at a level of $11 
million.
    It is essential to protect the banks from caving and erosion along 
the Red River from Denison Dam, Texas to Index, Arkansas along the 
Texas/Oklahoma border. You supported a Reconnaissance Study to 
investigate the restoration of wetlands, bottomland hardwoods and 
riparian habitat in fiscal year 2002. We request that you provide 
$60,000 in fiscal year 2003 to complete this study.
    There is a new technique for bank stabilization, which should be 
tested as a demonstration project, under the existing authority ``Red 
River Waterway, Index, AR to Denison Dam''. This new technique, 
underwater Bendway Weirs, has proven to be more efficient in 
controlling the energy of the river as well as providing environmental 
benefits. Over 1,000 acres of prime farmland in Oklahoma and Texas is 
lost each year to river erosion and we must investigate all avenues to 
correct this problem. You funded the initiation of construction for 
this project in fiscal year 2002 and we want to express appreciation 
for this funding. Adequate carryover funds exist for fiscal year 2003.
    Flood Control.--You will recall that in 1990 major areas of 
northeast Texas, Southwest Arkansas and the entire length of the Red 
River in Louisiana were ravaged by the worst flooding to hit the region 
since 1945 and 1957. More than 700,000 acres were flooded with total 
damages estimated at $20.4 million. However, it could have been much 
worse. The Corps of Engineers estimates that without the flood control 
measure authorized by Congress over the past several decades an 
additional 1.3 million acres would have been flooded with an estimated 
$330 million in additional flood damage to agriculture and urban 
developments.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Four of eleven levee sections have been completed and brought 
to federal standards. Appropriations of $8.0 million will construct two 
more levee sections; completing Miller County, AR and starting on 
levees in Lafayette County, AR.
    In addition, Bowie County levee, in Texas, is crucial to the 
integrity of the Arkansas levee system. Should the Bowie County levee 
fail floodwaters will inundate behind the just completed Miller County 
levees in Arkansas. It is important to continue funding this project 
for the ``locally preferred'' option, according to cost sharing under 
the Flood Control Act of 1946, not withstanding economic justification. 
$9,400,000 is requested to complete construct this levee system.
    The levees in Louisiana have been incorporated into the Federal 
system; however, do not meet current construction standards due to 
their age. These levees do not have a gravel surface roadway, 
threatening their integrity during times of flooding. It is essential 
for personnel to traverse the levees during a flood to inspect them for 
problems. Without the gravel surface the vehicles used cause rutting 
and themselves can create conditions for the levees to fail. Gravel 
surfaces will insure inspection personnel can check the levees during 
the saturated conditions of a flood. We propose a four phase, four-year 
project to correct this Valley wide problem in Louisiana. Funding was 
appropriated in fiscal year 2002 and approximately 50 miles of levees 
in the Natchitoches Levee District will be completed this year. $2 
million will continue this important project in other parishes.
    Clean Water.--Nearly 3,500 tons of natural salts, primarily sodium 
chloride, enter the upper reaches of the Red River each day, rendering 
downstream waters unusable for most purposes. The Truscott Brine Lake 
project, which is located on the South Fork of the Wichita River in 
King and Knox Counties, Texas became operational in 1987. An 
independent panel of experts found that the project not only continues 
to perform beyond design expectations in providing cleaner water, but 
also has an exceptionally favorable cost benefit ratio. In fiscal year 
1995 $16 million dollars was appropriated by the Administration, to 
accelerate engineering design, real estate acquisition and initiate 
construction of the Crowell Brine Dam, Area VII and Area IX. Due to a 
conflict over environmental issues, raised by the U.S. Fish and 
Wildlife Service, completion of the SFEIS was delayed pending further 
study to determine the extent of possible impacts to fish and wildlife, 
their habitats and biological communities along the Red River and Lake 
Texoma. In an effort to resolve these issues and insure that no harmful 
impact to the environment or ecosystems would result, a comprehensive 
environmental and ecological monitoring program was implemented. It 
evaluates the actual impacts of reducing chloride concentrations within 
the Red River watershed.
    This base line data is crucial to understanding the ecosystem of 
the Red River basin west of Lake Texoma and funding for this must 
continue.
    The Assistant Secretary of the Army (Civil Works), in October 1998 
agreed to support a re-evaluation of the Wichita River Basin tributary 
of the project. Completion of this project will reclaim Lake Kemp as a 
usable water source for the City of Wichita Falls and the region. We 
request appropriations of $2,000,000 to continue this important 
environmental monitoring. The drought experienced in the Red River 
Valley, in past years, has highlighted the critical need for new usable 
water sources.
    Operation & Maintenance.--We appreciate the support of your 
subcommittee to support navigation to Shreveport/Bossier City, which is 
now providing a catalyst to our industrial base, creating jobs and 
providing economic growth. We request that O&M funding levels remain at 
the expressed Corps capability to maintain a safe, reliable and 
efficient transportation system. It was very disturbing to see the 
President's budget eliminate maintenance dredging for the Red River. 
This would in affect ``shut down'' the river and commerce would cease 
on the Waterway and shift to highways and rail, at a more expensive 
rate and increasing air pollution.
    It is our understanding that the criteria used to fund dredging was 
1 billion ``average ton-miles'', which is .3 billion ton-miles for the 
Red River. This is the wrong criteria and methodology to use. 
Navigation projects are justified using ``system ton-miles'', which is 
2.1 billion ton-miles for the Red River and exceeds the 1 billion ton-
mile standard. ``Average ton-miles'' is measured from point of origin 
to the mouth of the river, while ``system ton-miles'' is measured from 
point of origin to destination of cargo, which makes sense. It is not 
right to change the criteria for maintenance funding than what was used 
to justify the project. Not only do we request our maintenance funding 
be added ($3,519,000), but that the criteria used in the future be 1 
billion ``system ton-miles''.
    Full O&M capability levels are not only important for our Waterway 
project but for all our Corps projects and flood control lakes. The 
backlog of critical maintenance only becomes worse and more expensive 
with time. We urge you to appropriate funding to address this serious 
issue at the expressed full Corps capability. Presently there is a $400 
million backlog of critical maintenance at Corps projects throughout 
the nation.
    The Continuing Authorities Program (CAP) has never been fully 
funded to its authorized amount. This has been an outstanding program 
providing small, cost shared projects within our communities. We 
believe this program should be funded at its full authorized amount.
    We are sincerely grateful to you for the past support you have 
provided our various projects. We hope that we can count on you again 
to fund our needs and complete the projects started that will help us 
diversify our economy and create the jobs so badly needed by our 
citizens. We have included a summary of our requests for easy 
reference.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four state Red River Valley region. We believe that any 
federal monies spent on civil work projects are truly investments in 
our future and will return several times the original investment in 
benefits that will accrue back to the federal government.
                            grant disclosure
    The Red River Valley Association has not received any federal 
grant, sub grant or contract during the current fiscal year or either 
of the two previous fiscal years.
                  summary of fiscal year 2003 requests
           (note: projects are not in any order of priority.)
General Investigation Studies (GI)
    Red River Navigation, SW Arkansas.--This is a feasibility study 
initiated on March 24, 1999 to investigate the potential to extend 
navigation from Shreveport/Bossier, LA to Index, AR. To date $2,372,000 
has been appropriated for this study and matched by the State of 
Arkansas. An additional $583,000 is required to complete the study in 
fiscal year 2003. The study is cost shared 50 percent with the Arkansas 
Red River Commission, the local sponsor, who has their share on hand. 
Total fiscal year 2003 request--$583,000.
    Southeast Oklahoma Water Resource Study.--Conduct a reconnaissance 
study to evaluate the water resources in the study area. The study area 
includes the Kiamichi River basin and other tributaries of the Red 
River. A comprehensive plan will be developed to determine how best to 
conserve and utilize this water. In fiscal year 2002 $182,000 was 
received for this study. Total fiscal year 2003 request--$250,000.
    Bois D'Arc Creek, Bonham, TX.--This is a reconnaissance study to 
address the flooding on 16,100 acres on the lower two-thirds of the 
basin. The towns of Whitewright and Bonham are within the basin. A dam 
was determined feasible in the 1960's; however, there was no local 
sponsor. Currently there are local sponsors interested in this project. 
In fiscal year 2002 $126,000 was received to initiate this study. The 
total study cost will be $1,270,000, federal funds and $1,170,000 local 
sponsor costs. Total fiscal year 2003 request--$270,000.
    Red River Waterway, Index Arkansas to Denison Dam, TX.--Investigate 
the restoration of natural resources, such as wetlands, bottomland 
hardwoods and riparian habitat along approximately 245 river miles. 
Various types of bank stabilization would be considered to protect 
environmental zones and corridors. $63,000 was allocated in fiscal year 
2002. Total fiscal year 2003 request--$60,000.
    Southwest Arkansas Study.--Conduct a reconnaissance report in the 
four county areas of the Red River/Little River basins. Included would 
be the four Corps lakes; DeQueen, Dierks, Gillham and Millwood. The 
watershed study would evaluate; flooding, irrigation, fish and wildlife 
habitat, water quality, recreation and water releases for navigation. 
The State of Arkansas has expressed an interest in cost sharing the 
feasibility study. Total fiscal year 2003 request--$200,000.
    Washita River Basin, OK.--Under Public Law 534 NRCS, Department of 
Agriculture, constructed approximately 1,100 small Flood control 
structures in the Washita River basin above Lake Texoma. These 
structures have significantly reduced the sediment flow into Lake 
Texoma; however, they are reaching their 50-year life expectancy. This 
study will assist NRCS in determining how to extend the life of the 
structures which have had a great positive impact to the water quality, 
flood storage capacity and ecosystem of Lake Texoma. Total fiscal year 
2003 request--$100,000.
    Mountain Fork River Watershed, OK & AR, Reconnaissance Study.--The 
study area includes 754 square miles above Broken Bow Lake, OK. Broken 
Bow Lake was justified for flood control, hydropower, water supply, 
recreation and fish and wildlife purposes. In recent years the water 
quality of Broken Bow Lake have deteriorated. This study will 
investigate the impact of the up stream watershed nutrient and sediment 
loading to the lake. Total fiscal year 2003 request--$100,000.
Construction General (CG)
    Red River Waterway Project.--a. J. Bennett Johnston Waterway.--
Seven projects will be awarded in fiscal year 2002 as well as three 
recreation facilities, two visitor centers and continued mitigation. 
These ongoing projects need to be completed as well as the initiation 
of eight new projects, which include: Coushatta Port ($715,000), Pump 
Bayou Reinforcement ($976,000), Fausse/Natchitoches/Clarence 
Reinforcement ($1,308,000), Nichols/Bull Reinforcement ($4,552,000), 
ACM Pool #1 ($3,115,000), Lindy C. Boggs Barrier Upgrade ($4,908,000), 
continued mitigation ($1,302,000) and Shell Point Structure 
($1,108,000). Total fiscal year 2003 request--$29,000,000.
    b. Index, AR to Denison Dam, TX; Bendway Weir Demonstration 
Project.--This stretch of the Red River experiences tremendous bank 
caving. A demonstration project using this bendway weir technique is 
needed to determine if this method will work in the Red River. The U.S. 
Highway 271 Bridge was selected due to the river threatening this 
infrastructure and accessibility for evaluation. The project will 
include underwater weirs 6 miles upstream and 5.5 miles downstream of 
the bridge. There is great environmental enhancement potential with 
this project. $3,265,000 has been appropriated to date and there are 
adequate carryover funds available for fiscal year 2003. Total fiscal 
year 2003 request--0.
    Red River Basin Chloride Control Project.--A reevaluation for the 
Wichita River Basin features had been ongoing using reprogrammed funds. 
The office of the ASA (CW) has supported this project and funds were 
appropriated in fiscal year 2002. In addition to the re-evaluation and 
NEPA process, environmental monitoring activities will continue. Total 
fiscal year 2003 request--$2,000,000.
    Red River Below Denison Dam Levees & Bank Stabilization.--a. Levee 
Rehabilitation, AR.--Funds are required to complete construction of 
Levee Item #5 initiated in fiscal year 2001, initiate construction of 
the next Levee Item and initiate design for the follow on Levee Item. 
Funds would also be used to design and initiate construction of Dillard 
Revetment downstream extension to protect an existing levee from bank 
erosion. An Incorporation Report must be accomplished for Twelve Mile 
Bayou Levee, Caddo Parish, LA as directed by WRDA 99. Total fiscal year 
2003 request--$8,000,000.
    b. Bowie County Levee, TX.--The local sponsor wants the locally 
preferred option' authorized for construction. In fiscal year 2002 
$500,000 was appropriated to initiate this project. The local sponsor 
is willing to execute a PCA and initiate real estate activities in 
fiscal year 2002. Total fiscal year 2003 request--$9,400,000.
    c. Upgrade Levees, LA.--Approximately 220 miles of levees in 
Louisiana do not have gravel surfaces on top of the levee, therefore do 
not meet federal standard. These levees are in the federal system and 
must be upgraded. This surface is required for safe inspections of the 
levees during times of floods and to maintain the integrity of the 
levee. The total project can be completed in four phases over four 
years. $2,000,000 was appropriated in fiscal year 2002 and 
approximately 50 miles of levee will be upgraded in the Natchitoches 
Levee District, LA. Total fiscal year 2003 request--$2,000,000.
    Red River Emergency Bank Protection, Arkansas.--Funds are required 
to complete construction of Pleasant Valley Revetment ($4,500,000) 
initiated in fiscal year 2002; award contracts for Bois D'Arc 
Revetments ($4,000,000) and Dickson Revetment ($2,500,000); and 
complete the design on Finn Revetment Phase II. These are important 
projects for protection of valuable farmlands and to maintain the 
existing alignment of the river in advance of navigation. Total fiscal 
year 2003 request--$11,000,000.
    Little River County (Ogden Levee), AR.--A Reconnaissance report in 
1991 determined that flood control levees were justified along Little 
River. The project sponsor, Arkansas Soil and Water Conservation 
Commission requests that the project proceed directly to PED, without a 
cost shared feasibility study. We request language and funding to 
accomplish this. Total fiscal year 2003 request--$200,000.
    McKinney Bayou.--The Reconnaissance Report showed a favorable 
project to clear and reshape this drainage canal. Presently, the local 
sponsor is unable to cost share continuation of this project due to the 
extremely high cost of mitigation. Total fiscal year 2003 request--
$200,000.
    Big Cypress Valley Watershed (Section 1135).--The main focus of 
this study is within the City of Jefferson, Texas. Informal 
coordination with Jefferson has showed their continued support and 
intent to participate. Their total share is estimated to be $601,600 
with annual O&M costs of approximately $21,000. In fiscal year 2001 
$120,000 was appropriated to initiate this project. Total fiscal year 
2003 request--$400,000.
    Millwood Lake, Grassy Lake, AR (Section 1135).--An environmental 
restoration project of 15,000 acres of wetlands located downstream from 
Millwood Dam. The Dam interrupted the flow to these wetlands and this 
project would be a water delivery system to include restoring flow to a 
400-acre pristine wetland area. It is private land; however, there is a 
national interest for migratory birds. A potential sponsor is the 
Arkansas Soil & Water Conservation Commission. Total fiscal year 2003 
request--$200,000.
    East/West Burns Run Public Use Area, Park Modernization, Lake 
Texoma, OK.--Modernization of these facilities will bring them up to 
standards to serve the high volume of users experienced each year. The 
Lake Texoma region economy depends mostly on recreation. This facility 
will ensure continued success, but also increase the economic potential 
for the area. Total fiscal year 2003 request--$4,600,000.
                     operation & maintenance (o&m)
    Red River Waterway.--The President's budget is usually only 
sufficient to operate and perform preventive maintenance. There are 
major, unfunded backlog maintenance items that must be done. These 
items include inspection and certification of lock & dam stop logs, 
repairs to tainter gate diagonal bracing and revetment repairs. The 
President's budget included no funding for maintenance dredging which 
would be detrimental to navigation itself. $3,519,000 is required for 
annual maintenance dredging and must be added. Total fiscal year 2003 
request--$16,764,000.
    Lake Texoma (Denison Dam), TX and OK Reallocation Study and NEPA 
Documentation.--The severe drought experienced these past years has 
increased the need for additional water supply. Public Law 99-662, 
Section 838, granted authority to reallocate up to an additional 
300,000 acre-feet of hydropower storage to water supply, 150,000 acre-
feet for Texas and 150,000 acre-feet for Oklahoma. This reallocation is 
needed and we request the impact study be funded. The total study cost 
is $750,000 of which $150,000 was received in fiscal year 2002 to 
initiate the study. Total fiscal year 2003 request--$600,000.
    We support that O&M at all projects be funded at the full Corps 
capability.
                        support of mr&t projects
    MR&T Projects.--There are several MR&T projects in the southern 
reaches of the Red River in Louisiana that have a great impact to our 
citizens and the Red River. We want to express our support for the 
following projects:
    a. Lower Red River, Bayou Rapides Pump Station, CG.--Fiscal year 
2003 request--$2,375,000.
    b. Spring Bayou, LA, Feasibility Study, GI.--Fiscal year 2003 
request--$1,200,000.
    c. Tensas Basin, Red River Backwater, O&M.--Fiscal year 2003 
request--$3,595,000.
                                 ______
                                 
      Prepared Statement of the National Urban Agriculture Council
    Chairman Reid and Members of the Subcommittee: Mr. Chairman, 
Members of the Subcommittee, I am Roger Waters, President of the 
National Urban Agriculture Council (NUAC). NUAC is a national nonprofit 
organization established as a center for the promotion and 
implementation of effective water management in the urban landscape.
    NUAC's objective is to enhance the environment by increasing 
education, training, and research on the use of recycled water and 
water conservation techniques that produce healthier and more vigorous 
landscapes while conserving potable water supplies. NUAC is 
headquartered in Washington, D.C. NUAC is a service and product 
oriented council that is involved with quality research, technology 
development, training, community outreach, and program and policy 
development. Additionally, NUAC partners with our members and state and 
federal agencies to address the related issues of water availability, 
drought preparedness and water management policy.
    I would like to offer testimony on six Bureau of Reclamation 
programs: Drought Emergency Assistance, Efficiency Incentives, Water 
Management and Conservation, Technical Assistance to States, Soil and 
Moisture Conservation, and the Title XVI--Water Reclamation and Reuse.
    I would like to request that the Subcommittee support efforts to 
increase the overall budget of the Bureau of Reclamation. NUAC is part 
of the Western Water Industry's ``Invest In the West'' campaign that 
aims to substantially increase the Bureau's Water and Related Resources 
Budget to $1 billion by fiscal year 2005 to meet critical water supply 
improvements throughout the western United States. NUAC is proud to be 
a part of the important campaign on this issue that includes the 
Western Coalition of Arid States, the WateReuse Association, the Family 
Farm Alliance, the National Water Resources Association, the 
Association of California Water Agencies, the Oregon Water Resources 
Congress, the Upper Missouri Water Association and the Idaho Water 
Users Association.
                      drought emergency assistance
    NUAC was an active participant in the Interim National Drought 
Policy Commission's efforts that produced a report and plan for moving 
forward on recommendations for a national drought policy for our 
country. Part of NUAC's core mission is to serve as a center for the 
acceptance, promotion, and implementation of practical, science-based 
water resource management and conservation measures. An important 
element of our mission is making sure water users are prepared for the 
eventuality of drought. We have been supportive of the efforts of the 
Commission to produce such a vision as part of their recommendations in 
the final report.
    Federal response to drought planning has great impact on the 
economic strength of our nation. The USDA in the Global Climate Change 
Prevention Act of 1990 underscored the need to address drought related 
information and to ``coordinate research and share expertise with other 
federal agencies working on issues related to global change''. NUAC 
believes that other federal agencies require similar funding to meet 
research objectives and prepare for the challenges of drought planning. 
Droughts drastically impact the availability of water resources for all 
purposes. The Agricultural Research Service has identified the drought 
of 1988 as the most costly natural disaster in U.S. history with 
economic losses estimated at more than $39 billion.
    The Bureau of Reclamation requested $899,000 for fiscal year 2003. 
NUAC believes and would ask that Congress consider, that given the 
ongoing and likely future potential for droughts throughout our 
country, a budget of $5 million be included in this program for fiscal 
year 2003. The Bureau of Reclamation and the Department of Agriculture 
appear to be the agencies best suited to working with state and local 
governments, tribes and local water users on the issue of drought. 
Through active planning these agencies future will save the Federal 
Government from the more costly future expense of emergency bailouts to 
recuperate from the devastation of drought. Funding commensurate with 
the responsibilities of drought planning needs to be provided to the 
Bureau in order for the agency to meet its objectives.
                     efficiency incentives program
    NUAC is supportive of this program that provides a partnership 
among the Bureau of Reclamation, water users and states to implement 
water use efficiency and conservation solutions that are tailored to 
local conditions. The Bureau of Reclamation requested only $3,087,000 
for the program for fiscal year 2003. We would like to see the program 
increased up to $5,000,000 so that a greater amount of work can take 
place among water districts throughout the west for the necessary 
planning, assistance, training and development of water conservation 
plans and water efficient landscapes. The need for this training was a 
key impetus upon which NUAC was founded. Water resource managers and 
policy makers are increasingly challenged by management issues. 
Paramount to making good management decisions is the availability of 
sound scientifically based information. This information is the 
keystone to the development of practical and environmentally sound 
programs that are cost effective and socially responsible.
               water management and conservation program
    On the surface this program appears to be a duplication of other 
Bureau of Reclamation assistance programs. The Bureau of Reclamation 
requested $6,581,000 for this program for fiscal year 2003. A question 
that has arisen is whether the Bureau of Reclamation has construction 
authority for funds provided to districts under the program. This is an 
issue we would like the Committee to clear up so projects could go 
forward. We believe the funding requested is less than adequate and 
would suggest it be increased to $10 million. However, if construction 
is going to occur under this program, we would suggest a cap on the 
size of the project receiving such funding, so it does not become a 
program for the few and not the many.
                   technical assistance to the states
    NUAC is concerned with how this program has been cut by Congress 
over the past several years. We believe the data collection and 
analyses for management of water and related land resources that occurs 
with this funding is extremely important in the absence of a national 
water policy. We would ask that the request of $1,942,000 not be cut. 
We would further request that funding be increased to $3 million to 
help make up the shortfall that has occurred from previous cuts.
                     soil moisture and conservation
    The modest amount of the Bureau of Reclamation's request, $326,000 
makes this program appear unimportant. NUAC would like to see this 
increased by a modest amount to $500,000 with the caveat that this 
increase be tied to assisting in implementing the recommendations of 
the final National Drought Policy Commission Report. We believe this 
program should be examined to see if it can assist in the proper site 
management of Federally funded structures that require water for urban 
landscapes and horticultural purposes.
                 title xvi--water reclamation and reuse
    NUAC is supportive of the funding that has been provided for the 
ongoing projects authorized by the Title XVI Program. The $17,750,000 
budget request is substantially below the $36 million provided by 
Congress for fiscal year 2002 and we would request that you consider 
increasing the funding at least up to that level this year. The funding 
provided for research, new starts, and feasibility studies needs to be 
examined from the standpoint of how long it is going to take to fund 
the existing projects, instead of looking to increase the number of 
projects. We believe there is a need for a serious discussion among 
water policy leaders on the methods to fund the future of this program 
in a timely manner. With regard to research, we see this as an area for 
the private and public sector to move forward on their own. It is 
important that discussions continue on how and for what type of 
research needs to take place and the role Reclamation should play in 
that agenda. We believe the results of those discussions would be 
beneficial in terms of laying the groundwork for any future legislative 
changes to the program and NUAC looks forward to continuing to be a 
part of that effort.
    Thank you for the opportunity to provide testimony for the record 
on these programs.
                                 ______
                                 
           Prepared Statement of the San Antonio Water System
        applewhite property environmental mitigation--$2 million
    We request a targeted appropriation of $2 million in funding for 
the U.S. Army Corps of Engineers to be used for environmental 
mitigation of the Applewhite property on the Medina River, which is 
owned by the San Antonio Water System (SAWS).
    Background.--The Corps has completed a Section 905(b) analysis of 
the property and has concluded that a restoration project would improve 
the habitat quality of aquatic and terrestrial wildlife species around 
the former reservoir site. Additionally, the proposed project would 
benefit water quality, air pollution, and aesthetics. SAWS would like 
to divest itself of this property, but there must first be specific 
environmental clean-up, including the removal of two large railcar-like 
structures that were placed in the river to facilitate crossing, the 
stabilization of river walls created by the excavation of the cancelled 
dam site, and the maintenance of a sedimentation pond created to 
prevent sediment-laden runoff from entering the river. SAWS is 
currently working with several community groups who are interested in 
developing projects on the property. One is the Land Heritage Institute 
of the Americas (LHIA). The LHIA concept calls for a land-based 
educational, research, and recreational facility located on the 
Applewhite property. However, before any development, such as the LHIA, 
may move forward, the issues outlined above must be resolved.
saws/lower colorado river authority (lcra) environmental impact study--
                               $1 million
    We request a targeted appropriation of $1 million for the U.S. 
Corps of Engineers for environmental study and assessment of the 
potential impact of the proposed SAWS/LCRA water purchase agreement.
    Background.--SAWS and LCRA have entered into a contract whereby 
SAWS would purchase up to 150,000 acre feet of surface water from the 
Colorado River. This is a key element of SAWS' 50 year plan to meet the 
growing need for water in the San Antonio area. The study would be to 
determine the potential impact of this project on water levels in the 
Colorado River Basin, specifically including a determination of the 
freshwater inflow needs of the Matagora Bay and its fish, shellfish, 
and other animal and plant species.
    leon creek quarry/mitchell lake water reuse projects--$2 million
    We request a targeted appropriation of $2 million for the U.S. 
Bureau of Reclamation for final feasibility assessments and 
construction costs for the San Antonio Water Recycling Program water 
reuse projects at Leon Creek Quarry and Mitchell Lake.
    Background.--When completed, these two projects of the San Antonio 
Water Recycling Program of SAWS will be able to deliver over 35,000 
acre feet of recycled water per year for irrigation and various 
industrial (non-drinking) uses. The Leon Creek Quarry and Mitchell Lake 
would be used to store the water until it is used. The Bureau of 
Reclamation has conducted a review of SAWS' environmental assessment 
and appraisal level study, which is expected to lead soon to full 
feasibility analysis and then construction. The $2 million would be 
used for both the feasibility analysis and construction activities, 
including treatment capability upgrades, increased storage capacity at 
the two sites, branch and source interconnection, and required dam 
modifications at Mitchell Lake.
                                 ______
                                 
     Prepared Statement of the Green Brook Flood Control Commission
   the green brook flood control project (new jersey--raritan river 
                 basin--green brook sub-basin project)
    Mr. Chairman and Members of the Subcommittee: My name is Vernon A. 
Noble, and I am the Chairman of the Green Brook Flood Control 
Commission. I submit this testimony in support of the Raritan River 
Basin--Green Brook Sub-Basin project, which we request be budgeted in 
fiscal year 2003 for $10,000,000 in Construction General funds.
    As you know from our testimony last year, a tremendous flood took 
place in September of 1999. Extremely heavy rainfall occurred, 
concentrated in the upper part of Raritan River Basin. As a result, the 
Borough of Bound Brook, New Jersey, located at the confluence of the 
Green Brook with the Raritan River, suffered catastrophic flooding. 
Water levels in the Raritan River and the lower Green Brook reached 
record levels.
    There were tremendous monetary damages, and extensive and tragic 
human suffering.
    As we reported to you in our testimony last year, a thorough study 
of the water levels throughout the Bound Brook Borough area in the 
terrible flood of September, 1999 showed that although the flood water 
reached record levels, it would have been contained by the extra margin 
of safety, the ``free board'', which the Corps of Engineers has 
incorporated in the design of this Project.
    The flooding of September 1999 is not the first bad flood to have 
struck this area. Records show that major floods have occurred here as 
far back as 1903.
    Disastrous flooding took place in the Green Brook Basin in the late 
summer of 1971. That flood caused $304,000,000 in damages (April 1996 
price level) and disrupted the lives of thousands of persons.
    In the late summer of 1973, another very severe storm struck the 
area, and again, thousands of persons were displaced from their homes. 
$482,000.000 damages was done (April 1996 price level) and six persons 
lost their lives.
    As you no doubt know, actual construction of the Project began in 
late fiscal year 2001. This first construction involves the replacement 
of an old bridge over the Green Brook which connects East Main Street 
in the Borough of Bound Brook, Somerset County, New Jersey, with 
Lincoln Boulevard in the Borough of Middlesex, in Middlesex County, New 
Jersey. That work is progressing rapidly, and it is expected that this 
first construction contract will be completed in the fall of this year.
    In February of this year, the New York District of the Corps of 
Engineers awarded the second construction contract, know as Segment T.
    This Segment T contract will complete the construction of 
protection for the eastern section of the Borough of Bound Brook, New 
Jersey. The protection consists of levees and associated elements which 
will connect with the new and higher bridge which is now well along in 
construction. This new Segment T also includes a large pumping station 
to be built into the levee, for the purpose of gathering up the 
internal rain water, and pumping it safely over the levee and in to the 
Green Brook stream on the other side of the levee.
    Because of the continued support of the Congress, this second 
Segment T of the Project will be under construction as the first 
segment (the new and higher bridge), approaches completion.
    Final plans and specifications for the balance of the work to 
protect the Borough of Bound Brook are in progress. It is the 
Commission's hope that protection for all of the Borough of Bound Brook 
will proceed seamlessly during the next several years.
    Since the devastating Floyd flood of 1999, the Borough of Bound 
Brook has been in desperate financial condition. That flood destroyed 
extensive tax rateables, and the Borough is in a critical situation. 
The only hope for stabilizing the municipal tax situation is 
redevelopment projects in Bound Brook. Because of its strategic 
location, there appear to be significant redevelopment opportunities 
available for Bound Brook Borough.
    However, realization of redevelopment depends upon completion of 
flood protection on schedule.
    Slowing down this Project by the provision of only $5,000,000 for 
fiscal year 2003 as proposed in the Administration's budget would be a 
cruel blow to the efforts of the long suffering people of Bound Brook.
    Bound Brook Borough needs flood protection sooner, not later.
    To accomplish that, the Project requires $10,000,000 in Federal 
appropriation for fiscal year 2003.
    The Green Brook Flood Control Commission was established in 1971, 
pursuant to an Act of the New Jersey Legislature shortly after the very 
bad flood of 1971.
    The Green Brook Flood Control Commission is made up of appointed 
representatives from Middlesex, Somerset and Union Counties in New 
Jersey, and from the 13 municipalities within the Basin. This 
represents a combined population of about one-quarter of a million 
people.
    The Members of the Commission are all volunteers, and for 31 years 
have served, without pay, to advance the cause of flood protection for 
the Basin. Throughout this time, the Corps of Engineers, New York 
District, has kept us informed of the progress of their work, and a 
representative from the Corps has been a regular part of our monthly 
meetings.
    We believe that it is clearly essential that the Green Brook Flood 
Control Project be carried forward, and pursued vigorously, to achieve 
protection at the earliest possible date. This Project is needed to 
prevent loss of life and property, as well as the trauma caused every 
time there is a heavy rain.
    New Jersey has programmed budget money for its share of the Project 
in fiscal year 2003.
    We urgently request an appropriation for the Project in fiscal year 
2003 of $10,000,000.
    The Green Brook Flood Control Commission is dedicated to the 
proposition that Bound Brook Borough, and the other municipalities, and 
their thousands of residents, who would otherwise suffer in the next 
major flood, must be protected. We move forward with renewed 
determination to achieve the protection which the people of the flood 
area need and deserve.
    With your continued support, we are determined to see this Project 
through to completion.
    Thank you, Mr. Chairman, and Members of the Subcommittee, for your 
vitally important past support for the Green Brook Flood Control 
Project; and we thank you for the opportunity to submit this testimony.

                                                                             GREEN BROOK FLOOD CONTROL PROJECT FUNDING
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                               Cumulative Money
                                                            Federal          Congressional                           Effective Net     Transfer by Corps       Net Money       Received by Corps
                 Federal Fiscal Year                    Administration       Appropriation        Savings and      Appropriation to     to (-) from (+)   Available for Work         Since
                                                        Budget Request         (Nominal)           Slippages      Corps of Engineers    Other Projects     on Project (Work    Authorization in
                                                                                                                                                              Allowance)             1986
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
1986................................................            $445,000            $445,000            -$19,000            $426,000  ..................            $426,000            $426,000
1987................................................           1,370,000           1,370,000  ..................           1,370,000  ..................           1,370,000           1,796,000
1988................................................           1,400,000           1,400,000  ..................           1,400,000  ..................           1,400,000           3,196,000
1989................................................           1,500,000           1,500,000             -68,000           1,432,000  ..................           1,432,000           4,628,000
1990................................................           1,200,000           1,200,000            -116,000           1,084,000            +$23,000           1,107,000           5,735,000
1991................................................           2,000,000           2,000,000            -496,000           1,504,000             -98,000           1,406,000           7,141,000
1992................................................           2,600,000           3,169,000            -364,000           2,805,000  ..................           2,805,000           9,946,000
1993................................................  ..................           3,500,000  ..................           3,500,000  ..................           3,500,000          13,446,000
1994................................................  ..................           2,800,000            -594,000           2,206,000            +571,000           2,777,000          16,223,000
1995................................................           2,000,000           2,000,000  ..................           2,000,000            +135,000           2,135,000          18,358,000
1996................................................           3,600,000           3,600,000            -932,000           2,668,000            +193,000           2,861,000          21,219,000
1997................................................           2,781,000           2,781,000            -300,000           2,481,000  ..................           2,781,000          24,000,000
1998................................................  ..................           3,100,000            -189,000           2,911,000  ..................           2,911,000          26,911,000
1999................................................  ..................           9,900,000            -694,000           9,206,000          -6,500,000           2,706,000          29,617,000
2000................................................           1,000,000           1,000,000            -142,000             858,000  ..................             858,000          30,475,000
2001................................................           4,000,000           4,000,000            -640,000           3,360,000             +89,000           3,449,000          33,924,000
2002................................................          10,000,000          10,000,000          -1,598,000           8,402,000          -1,000,000           7,402,000          41,326,000
2003................................................           5,000,000      \1\ 10,000,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Recommendation of the Green Brook Flood Control Commission for fiscal year 2003 to continue construction.

Reference: This summary of funding for the Green Brook Flood Control Project has been assembled based upon publicly available information.

                                 ______
                                 
          Prepared Statement of the Port of Houston Authority
    I would like to thank you for allowing the Port of Houston 
Authority (PHA) to add comments to the record regarding the Houston-
Galveston Navigation Channels Texas Project's appropriations in the 
Energy and Water Appropriations Act. The PHA is supporting a request 
for $67 million in Federal funds for the U.S. Army Corps of Engineers--
Galveston District in the fiscal year 2003 Energy and Water 
Appropriations bill for this major Port project.
    The Houston-Galveston Navigation Channels Texas Project deepens the 
Houston Ship Channel (HSC) to 45 feet from 40 feet and widens it to 530 
feet from 400 feet. Additionally, twelve-foot deep barge lanes will be 
added to both sides of the project crossing Galveston Bay to increase 
safety and efficiency for channel users. While the dredging effort to 
make the HSC usable at the improved depth will be nearing completion in 
December 2003, the construction phase for the widening and deepening 
project will continue in future years. Following the completion of the 
initial dredging, oyster reefs will continue to be constructed to 
mitigate for the oyster beds destroyed during the construction of the 
barge lanes. The construction of saltwater marshes--an award winning 
interagency effort that will benefit the environment--will also 
continue. In order to maintain the optimal construction schedule and 
provide the greatest benefits to the PHA and the economy, the U.S. Army 
Corps of Engineers--Galveston District (the Corps) requires a total of 
$67 million in Federal funds for fiscal year 2003.
    If the project is not fully funded, project cost to the taxpayers 
will increase by $1.6 million, the project will be delayed at least 
another year, and a consequent reduction in revenue to local 
governments and a delay in the realization of the project's economic 
benefits to the public will ensue. The project, at completion, is 
expected to provide an average annual economic benefit of over $87 
million according to the Corps' limited reevaluation report. This 
sizable economic benefit will not be realized for each year the 
completion of the project is delayed. Additionally, the project has a 
remaining cost-benefit ratio of $3.60 for every $1 spent. The initial 
cost-benefit ratio (in 1996) was a substantial $1.80 to every $1 spent.
    The President's budget only includes $19.487 million for the 
continuation of the project in fiscal year 2003. This amount will not 
allow the Corps to let any new construction contracts in fiscal year 
2003 and will delay the project by at least one year. With the 
significant economic benefits from the deepened channel, the safety 
benefits from a widened channel, favorable remaining cost-benefit 
ratio, and the Carps so close to making the HSC operational at its 
authorized depth, I would urge the Committee to increase the 
appropriation for the project to fully fund it at $67 million.
    The PHA also appreciates and supports the Corps' request for 
operation and maintenance of the HSC ($8.254 million), the Barbours Cut 
Channel ($606,000) and the Bayport Channel ($2.389 million) in the 
President's budget. We request that the Committee support these funding 
levels.
    Among U.S. ports, the Port of Houston is first in foreign tonnage, 
second in overall tonnage and is the eighth largest port in the world. 
The Port also has an annual economic impact of over $7.7 billion and is 
responsible for nearly 205,000 jobs related to port activity. The Port 
of Houston generates just under $500 million in U.S. Customs receipts 
per year and over $525 million in state and local taxes per year. The 
Port is of vital importance not only to the Houston region, but also to 
Texas and the United States as it is home to one of the largest 
petrochemical complexes in the world and provides the U.S. military 
with excellent facilities to move cargo and equipment around the globe. 
With the Committee's help and support, the Port of Houston can maintain 
and increase its stature as a leading hub for international commerce.
    The Commissioners of the PHA thank you for all of the hard work you 
do for the Port and for Texas. With your leadership, the PHA will 
maintain its position as a major economic engine for Texas.
                                 ______
                                 
Prepared Statement of the Missouri River Bank Stabilization Association
    The Missouri River Bank Stabilization Association is pleased to 
thank you for the opportunity to present this 2003 budget request and a 
brief statement of the reasons underlying the request.
    This statement relates to the Missouri National Recreational River 
project which was authorized by the Congress in 1978 per Section 707 of 
Public Law 95-625. That law authorized the expenditure of some 
$21,000,000.00. According to the U.S. Army Corps of Engineers, some 
$4,000,000.00 has thus far been expended. The Association's budget 
request for fiscal year 2003 is $260,000.00. The money requested is to 
be used for the following purposes:
  --The operation, maintenance and repair of streambank protection 
        structures constructed prior to 1978 under the authority of 
        Section 32 of the Streambank Erosion Control and Demonstration 
        Act.
  --Rebuild or replace structures which were damaged or destroyed by 
        the record high flows (70,000 cubic feet per second as 
        contrasted with the normal 34,000-35,000 cubic feet per second) 
        of 1997.
  --Acquire shoreline easements from riparian owners to protect 
        existing habitat (some of which is rapidly eroding away), and 
        to restore habitat to shorelines where it has already eroded 
        away.
  --The improvement of access to the river in areas where access is 
        limited or nonexistent.
  --The acquisition or protection of the river's scenic qualities which 
        in large part prompted the legislation.
  --Such other work as may be needed to achieve the congressional 
        purposes in designating this reach of the Missouri a part of 
        the Wild and Scenic Rivers system.
    This budget request relates to a reach of the Missouri River lying 
between Ponca State Park, near Ponca, Nebraska and Gavins Point Dam, 
near Yankton, South Dakota. The river mileage at Ponca State park is 
753; at Gavins Point Dam it is 811.
    This reach of river was designated part of the Wild and Scenic 
Rivers system in 1978. Still in a relatively wild state, it is the only 
such reach of the Missouri lying downstream of the Corps of Engineers' 
``main stem'' dams. While there is a sprinkling of bank protection 
structures on this reach, the river still displays many of its storied 
characteristics. It erodes its banks, builds and removes islands, 
changes its channel at will, harbors endless snags, ranges from inches 
to fathoms in depth and bedecks itself with a myriad of sandbars. Stand 
of willow, cottonwood, ash and an array of underbrush flank the stream, 
providing habitat for a diverse population of wildlife. Deer, coyotes, 
raccoons, beaver, mink, opossums and muskrat abound. Bald eagles are 
year-round residents, and a profusion of birds call this reach of river 
home. Located on the Central Flyway, the river hosts a truly massive 
number of migrating waterfowl, spring and fall.
    Though retaining many of its traditional characteristics, this 
reach of river is not truly natural. Construction of the ``main stem'' 
dams eliminated a principle feature of the truly wild Missouri: the 
annual ``June Rise''. This deluge of the mountain snowmelt often caused 
over-bank flooding. A significant consequence of such flooding was the 
build-up of accretion land. As often as not, land lost to erosion was 
thus restored; accretion offset erosions. While the riparian owner once 
had a good chance of restoration of lost land, today he has only a 100 
percent chance of losing the land. As a result the Missouri today is 
over 60 percent wider than it was in pre-dam days. Today's erosion is 
exacerbated by the fact that the relatively clear water discharged from 
Gavins Point Dam has a greater erosive power than did the silt-laden 
waters of the wild Missouri: Thus, increased erosion, coupled with the 
absence of off-setting accretion, wreaks havoc on unprotected 
shorelines.
    The proposed ``spring rise'' (being touted by the U.S. Fish and 
Wildlife Service) can only further exacerbate the problem. While said 
Service does not phrase it in clear, precise language, a principle aim 
of the ``spring rise'' is to increase erosion so as to increase 
nutrients in the water. The Service is in fact proposing the 
intentional destruction of the riparian owners' land. This is not only 
intentional, it is criminal.
    The erosion is not only depriving riparian owners of their 
property, it is also causing grave and irreversible losses to some of 
the very attributes which led the Congress to include this reach of the 
Missouri in the Wild and Scenic Rivers system. Stands of cottonwoods 
along the river are being devoured by the river, along with a variety 
of other shoreline-enhancing trees and shrubs. Bottom degradation 
continues to lower the water table and the lost cottonwoods will not be 
replaced by young cottonwoods as these need to stand ``with their feet 
in the water'' to grow and thrive. Absent bank protection, the existing 
treelined shores will disappear and corn and bean fields will supplant 
them. Very severe erosion of a large and fine stand of cottonwoods is 
currently occurring at the North Alabama Point, circa Mile 779.8R, 
north of Maskell, Nebraska.
    The Bicentennial of the Lewis and Clark Expedition is at hand, and 
public interest in the Missouri has grown noticeably. This has 
demonstrated a need for improved access, signage and some additional 
viewing points (``overlooks''). The new overlook at the Newcastle-
Vermillion Bridge has already been discovered by those seeking a 
glimpse of the river, and a number of tour operators have already 
incorporated this site into their itineraries.
    This project has enjoyed Congressional support from its inception. 
The Missouri River Bank Stabilization Association is appreciative of 
that support and thanks the Congress for it. So, too, do a variety of 
others--fishermen, boaters, hunters, and those who simply enjoy viewing 
this reach of the historic Missouri.
                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies
                      bureau of reclamation (bor)
    The budget request by the Bureau of Reclamation for Fish and 
Wildlife Management and Development is $89.4 million, an increase of 
$3.8 million over the fiscal year 2002 request of $85.5 million, but a 
$17.3 million decrease from the fiscal year 2002 enacted level of 
$106.7 million. The Association appreciates the increase in the 
Agency's budget request for fish and wildlife management in fiscal year 
2003 and recommends additional budget increases for the BOR that allows 
them to meet their statutory water delivery requirements and, that 
allows them to mitigate for their project impacts to sport fish, 
threatened and endangered species and, provide for water based 
recreation. We urge the adoption of a budget that will pay for water 
needed for T&E species and, to re-supply sport fish that are lost to 
reservoirs, tailwaters and rivers due to the operation of their water 
delivery systems.
    Throughout its history, the BOR has played a vital role in 
harnessing and managing water resources for a young and growing Western 
United States. The fulfillment of those high national priorities has 
not always been accomplished with a long-term vision for the health of 
fish and wildlife resources within BOR project design, construction and 
operational practices. Thus, the development of high priority public 
services has sometimes proven highly detrimental to other public 
values, including certain fish and wildlife resources. The agency's 
publicly stated policy is to sustain the health and integrity of 
ecosystems and protect the environment as it goes about the important 
work of providing dependable sources of water. The Association is 
encouraged that the agency is continuing its recent efforts to better 
balance these sometimes competing uses of limited natural resources. 
The Association appreciates and strongly supports BOR's efforts to 
refocus considerable financial resources on ameliorating historical 
water development-related impacts to fish and wildlife and their 
habitats in cooperation with other federal state and tribal partners.
    Endangered Species Recovery Program.--The BOR is requesting $12.7 
million for endangered species conservation and recovery work spread 
among 17 western states. This is a reduction of over $700,000 from the 
$13.5 million enacted for fiscal year 2002. When viewed in the context 
of the geographical areas affected by prior BOR activities and the 
complex of imperiled fish, wildlife and essential habitats that need 
attention as a consequence of these earlier actions, these funds are 
very necessary and appropriate. The Association supports funding levels 
at least consistent with the level enacted for fiscal year 2002.
    The funding for efforts associated with carrying out the Adaptive 
Management Program required by the Grand Canyon Protection Act comes 
from power revenues--and hence these needs are rarely addressed by 
Congress. These cooperative efforts, led by the Department of Interior 
and staffed by the BOR and the USGS Grand Canyon Monitoring and 
Research Center, are often left wanting in the federal budget process. 
The Federal Advisory Committee charged with oversight of Adaptive 
Management has consistently recommended appropriations in the range of 
$750,000 to $1,000,000 per year to support necessary work. As evidence 
now mounts about the decline of listed fishes in Grand Canyon, we urge 
Congress to consider the financing necessary to assure these programs 
progress with regard to conservation of Threatened and Endangered 
fishes and conservation of sport fishing opportunity associated with 
the tailwater below Glen Canyon Dam.
    California Bay-Delta Ecosystem Restoration.--Authorization bills 
for California Bay-Delta Restoration have been introduced and are under 
consideration in the House and Senate. Absent authorizing legislation 
prior to fiscal year 2002, no funding was recommended by the 
Congressional Conference Committee for the California Bay-Delta 
Restoration Project. However, Congress did appropriate $30 million in 
fiscal year 2002 for previously authorized activities that support and 
further the goals of the overall California Bay-Delta restoration. The 
fiscal year 2003 budget requests $15 million for the California Bay-
Delta Ecosystem Restoration account. The Association is concerned that 
this funding level is less than the $20 million requested last year, 
and only half of the $30 million Congress provided for Bay/Delta-
related activities last year. The Association believes the requested 
funding level is insufficient to address the needs identified by 
federal and state officials in the August 2000 Record of Decision 
finalizing a long-term plan for restoring the San Francisco Bay-San 
Joaquin River Delta. In order to make progress on improving water 
supply reliability and quality for urban and agricultural water users 
concurrent with improvements to the Bay-Delta ecosystem and ensure that 
sound science is used to guide management and policy decisions in the 
Bay-Delta, a significant increase in appropriations is needed. The 
Association supports Congressional reauthorization of the California 
Bay-Delta Program and appropriation of funds necessary to implement the 
Record of Decision for the California Bay-Delta Program.
    Central Valley Project.--The BOR is seeking a Congressional 
appropriation of $48.9 million in fiscal year 2003 to manage and 
improve California's Central Valley Project (CVP) through the CVP 
Restoration Fund. With the addition of $6.3 million in state cost-share 
funds, the total amount of federal and non-federal funds supporting CVP 
restoration equals the $55 million enacted last year. The 
appropriations request is offset by discretionary receipts of 
approximately $39.6 million in the CVP Restoration Fund. The funds will 
be used to undertake important anadromous fisheries habitat work, water 
acquisition, fish screening and other works that are necessary to 
continue efforts to restore the fish and wildlife-related damages 
created by this federal project. The Association encourages the 
Congress to fully fund this work at the requested level of $48.9 
million, and to make the CVP Restoration Fund a permanent 
appropriation. Making the account permanent would help ensure that this 
important source of beneficiary funded restoration work is available.
    Upper Colorado River.--The Association fully supports the BOR 
budget request of $6.3 million for Endangered Species Recovery 
Implementation Programs for the Bureau's Upper Colorado Region. This 
budget request mirrors the needs identified by the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program. These cooperative programs involving the states 
of Colorado, New Mexico, Utah, Wyoming, Indian tribes, federal agencies 
and water, power and environmental interests are ongoing in the Upper 
Colorado River and San Juan Basins and have as their objective 
recovering endangered fish species while water development proceeds in 
compliance with the Endangered Species Act, state water law and 
interstate compacts. Substantive non-federal cost-sharing funds are 
provided by the four states, power users and water users in support of 
these recovery programs.
    Lower Colorado River.--The BOR is requesting $12.4 million for work 
in the Lower Colorado River Operations Program, which is focused on 
endangered species recovery and includes $4.4 million for the Lower 
Colorado River Multi-Species Conservation Program. The MSCP is a 50-50 
cost-shared program with non-federal partners to develop a long-term 
plan to conserve over 70 state and federal special status species along 
the Lower Colorado River from Lake Mead to Mexico. The $12.4 million 
for the Lower Colorado River Operations Program, proposed by the BOR 
for fiscal year 2003, is deemed essential by the Association and is 
strongly supported.
                      u.s. army corps of engineers
    The fiscal year 2003 budget proposal for Civil Works Appropriations 
of the U.S. Army Corps of Engineers is $4.3 billion. In addition, the 
program will include $464 million in new resources and trust fund 
receipts. The budget proposal reflects continued commitment to proper 
management of our natural resources, through dedication of $863 million 
to environmental programs. The environmental portion of the Corps 
budget represents approximately 20 percent of the overall request. The 
fiscal year 2003 proposed budget is the third year of significantly 
enhanced funding of environmental programs within the Corps of 
Engineers budget. The Association applauds the fact that many of our 
recommendations from recent fiscal years have been maintained by the 
Corps in their budget requests.
    The Corps has conducted listening sessions across the United States 
and is in the process of developing programs to improve the Nation's 
water supplies through implementation of a holistic approach to water 
resources management. We commend the Corps' efforts and look forward to 
working with them on this significant commitment.
    The Association encourages the Corps to cooperate coordinate and 
develop civil works and restoration activities with State fish and 
wildlife agencies. The State fish and wildlife agencies are generally 
aware of where Corps projects could most effectively enhance the status 
of fish and wildlife resources through improvements to habitat. We are 
pleased there continues to be funding which will result in development 
of partnerships to restore riverine ecosystems to address flood 
prevention through non-structural alternatives.
    The Association particularly appreciates the leadership of Congress 
in providing funding for mitigation projects. We are especially pleased 
that the Corps is requesting, and the Association supports, 
continuation of funding for the Columbia River Fish Mitigation in 
Washington State. The Association also strongly encourages Congress to 
appropriate necessary funding within the Corps budget to facilitate the 
mitigation feature and river restoration opportunities associated with 
the West Tennessee Tributaries Project. It is in the best interest of 
the country to restore the habitat and hydrologic components of our 
river systems that have been significantly altered.
    We recommend that the Congress explore the need for generic 
legislative direction to the Corps to ensure that the older projects 
include the authority for fish, wildlife, water quality, and sustained 
minimum flow mitigation and enhancement, and if legislation is 
necessary, to act on that need. Further, the Association recommends 
that mitigation funding for ongoing projects be listed as a separate 
line item within the Civil Works Appropriations. Further, the Corps has 
made commitments to fish and wildlife mitigation and on numerous 
occasions has received Congressional authorization for mitigation 
activities that have not been initiated or completed. The Association 
encourages Congress to direct the Corps to complete all mitigation 
activities simultaneous with project development (as opposed to 
subsequent to project development). Also, the Association suggests that 
the Corps continue to look at actually transferring some project 
mitigation lands to the individual states as efficiently and 
expeditiously as possible, without unnecessary staff time and financial 
costs. The Corps is currently in the process of transferring mitigation 
lands associated with the Richard B. Russell Project to the State of 
South Carolina, along with a trust account to manage these lands. The 
transfer process associated with this project is ongoing and has taken 
over three years, requiring specific language in two separate Water 
Resources Development Acts. The Association encourages Congress to 
support the transfer of mitigation lands to those States interested in 
receiving title to such lands, as well as direct and/or encourage the 
Corps to implement policies to complete the transfers in a timely and 
efficient manner.
    We support the request of $151 million, an increase of $24 million, 
for funding for the regulatory program to reduce the average review 
time of individual wetland permit applications. Furthermore, the 
Association supports enhanced review and enforcement of permit and 
mitigation violations.
    The Association recommends that the Corps continue to initiate 
applicable restoration, mitigation and conservation projects in 
partnership with State fish and wildlife agencies. For example, we 
request the Corps continue to participate with State agencies and non-
Federal interests in the North American Waterfowl Management Plan 
through wetlands conservation and wetlands identification. Further, the 
Association encourages the Corps to become a significant partner in the 
North American Bird Conservation Initiative (NABCI).
    The Association is excited by the potential for significant 
environmental accomplishments in restoration, conservation, and 
sustainable management of water, fish, and wildlife resources. The 
Association is especially pleased with Federal plans to partner with 
local, state and tribal agencies and with the watershed management 
emphasis. The States are interested in forging a true partnership 
through sharing ideas, plans, design, implementation structure and 
enforcement in establishing a unified, cooperative approach to 
improving water quality.
                                 ______
                                 
              Prepared Statement of the State of Illinois
    As you begin to formulate your appropriations and funding 
priorities for fiscal year 2003, I respectfully urge you to consider 
the following items for inclusion in the upcoming Energy and Water 
Appropriations bill. In addition, I am grateful for all of the 
assistance that you have been able to provide to the State of 
Illinois--your efforts are greatly appreciated and provide many 
benefits throughout the state. All of these funding requests are 
important to the State of Illinois and reflect the state's long-
standing commitment to providing sound energy and water policies.
    illinois river basin restoration program (illinois rivers 2020)
    Request: Federal appropriation of $6.5 million in the federal 
fiscal year 2003 Corps of Engineers Civil Works budget; and increase 
the 3-year, $100 million authorization in the Water Resources 
Development Act 2000 (WRDA) to a 10-year authorization.
    This multi-level, multi-billion dollar State plan for the 
restoration of the Illinois River Basin is a voluntary, incentive-based 
program that will develop new technologies and innovative approaches to 
transportation, water quality, economic development and land and 
habitat conservation issues. Funding will provide for the development 
of new sediment removal, transport, characterization, and beneficial 
use of technology along with other action for the restoration of 
Illinois River hydrology and water quality.
                chicago harbor lock major rehabilitation
    Request: Illinois supports full funding of Construction General new 
funds for the Chicago Harbor Lock Major Rehabilitation.
    Chicago Lock is located at the mouth of Chicago River in downtown 
Chicago adjacent to Navy Pier. Chicago Lock was constructed by 
Metropolitan Water Reclamation District of Greater Chicago (MWRDGC) 
between 1936 and 1938. The Corps began operating the Lock in 1984 under 
the authority of Section 107 of Public Law 97-88, and by a memorandum 
of agreement between the Chicago District Corps of Engineers and the 
MWRDGC. This is a high use lock with low commodity tonnage, but most of 
the traffic is commercial cruise and passenger vessels. The Lock is 
currently operating at 15 years beyond its design life, resulting in 
the lack of reliability in the gate operating machinery and structural 
members. Gate seals are not providing the expected level of water 
tightness. Leakages through the gates is again becoming a problem and 
impacting the Illinois' Lake Michigan diversion accounting. Corps of 
Engineers approved the major rehabilitation project in 1999. Delayed 
rehabilitation of the lock threatens the safety of millions of 
passengers yearly and result in total lake diversion in excess of the 
limitations of the 1980 U.S. Supreme Court Decree by the State of 
Illinois.
                    carlyle lake conveyance analysis
    Request: Illinois supports an appropriation of $200,000 for the 
Corps of Engineers to conduct a conveyance analysis of the Kaskaskia 
River from Vandalia, Illinois to Carlyle Lake, and the surrounding 
vicinity.
    The State of Illinois is concerned about the surface drainage flow 
levels, channel depths, and sedimentation trends and their performance 
effects in the Kaskaskia River from Vandalia, Illinois to Carlyle Lake, 
and the surrounding vicinity in addition to environmental 
opportunities. Therefore, the State is requesting $475,000 be provided 
to the Corps of Engineers for conveyance analysis which will include 
detail mapping necessary to conduct hydrology analysis to establish 
frequency discharges and profiles for the 2 to 10 year flood events.
                rare isotope accelerator facility (ria)
    Request: Seek additional $32.82 million in the Department of 
Energy, Office of Science, Nuclear Physics Budget to create the world's 
leading facility for research in nuclear structure and nuclear 
astrophysics.
    Currently, two sites are under consideration for the Rare Isotope 
Accelerator Facility: Argonne National Laboratory, Illinois, and 
Michigan State University, Michigan. With the additional $32.82 
million, the Department of Energy will begin the environmental impact 
statements on the interested sites.
    Argonne has experience in operating large scientific user 
facilities and the technical staff. It is estimated that the cost of 
the project would be much less expensive in Illinois versus Michigan. 
The estimate of reduced cost ranges between $100 million and $200 
million. Argonne is a research facility and has the necessary safe 
guards in place.
                     chicago underflow plan (tarp)
    Request: Illinois supports full funding of McCook and Thornton 
Reservoirs. McCook will require $131 million in non-federal funds and 
$393 million in federal. Thornton will require $36 million in non-
federal funds and $108 million in federal funds.
    The completion of these projects with their related improvements to 
water quality will have a significant impact on reducing the amount 
Lake Michigan diversion water required for dilution purposes. The 
reduction in dilution water will improve Illinois' ability to meet the 
limits of Lake Michigan diversion and provide for future water supply 
needs. These projects must not be delayed and design and construction 
should be accelerated. The Corps must budget for the design and 
construction of these reservoirs to their full capability. The 1988 
Water Resources Development Act authorized the Corps to proceed with 
construction of the McCook and Thornton reservoirs as components of the 
Chicago Underflow Plan (also called TARP). The McCook Reservoir will 
reduce flooding and significantly improve water quality in the 
mainstream and Des Plaines systems of TARP. The Thornton Reservoir will 
reduce flooding and improve water quality in the Calumet system of 
TARP.
    I appreciate your consideration of these priorities as you 
formulate the Energy and Water Appropriations bill and urge their 
inclusion.
                                 ______
                                 
   Prepared Statement of the American Association of Port Authorities
    As you know, the U.S. Army Corps of Engineers performs critical 
services that provide this Nation with the ability to trade 
internationally and deploy our national defense. Ports throughout the 
Nation rely on the Corps to both maintain and improve federal 
navigation channels, through which 95 percent of our overseas trade (by 
volume) flows. Grain exports from the Mid-West and oil imported to fuel 
our economy all rely on modern navigation channels. On behalf of U.S. 
public port agencies, we urge your Committee to support a strong fiscal 
2003 budget for the Corps in order to properly address the water 
resources needs of our country.
    We are gravely concerned that the Administration's budget request 
for fiscal year 2003 would not provide enough funding to keep needed 
navigation projects on schedule or allow for the start of new projects. 
In terms of deep-draft harbor construction, the budget request seeks 
only $267 million in fiscal year 2003, which is only half of what is 
needed to fund ongoing and new projects ($539 million). The attached 
testimony contains additional details of deep-draft harbor construction 
requirements.
    In addition, we are extremely concerned about the critical backlog 
that exists for maintenance of the Corps' existing navigation projects. 
In his February 27, 2002, testimony before the House Appropriations 
Subcommittee on Energy and Water Development, Chief of Engineers 
Lieutenant General Robert B. Flowers stated that funds provided for 
fiscal year 2002 left a critical maintenance backlog of $702 million, 
of which $587 million is in the navigation mission. General Flowers 
defined critical maintenance as maintenance that should be performed in 
the budget year in order to continue operation at a justified level of 
service and to attain project performance goals. The critical 
maintenance backlog for navigation consists largely of dredging and 
repairs to structures such as locks, dams, breakwaters, and jetties. We 
respectfully request your support for substantially increasing the O&M 
budget to address this critical maintenance backlog.
    The impact of inadequately funding the Corps navigation mission 
would be severe. Trade is projected to double by 2020, with container 
trade projected to triple. In order to meet these needs, we must make 
significant investments now. The fiscal year 2003 proposed budget, 
however, falls far short of meeting these needs. Port infrastructure is 
a local/federal partnership and port authorities are investing to 
update and modernize their facilities. Between 2002 and 2006, public 
ports estimate that they will spend $9.4 billion.
    The United States has always been a great maritime and trading 
nation. Foreign trade as a percentage of the U.S. Gross Domestic 
Product (GDP) has risen consistently, and currently accounts for over 
one-fourth of the GDP. Public ports also generate significant local and 
regional economic growth, including job creation. Commercial port 
activities annually provide employment for 1.4 million Americans, and 
account for Federal taxes of $14.7 billion and state and local tax 
revenues amounting to $5.5 billion. Such statistics show that Federal 
investments in navigation channels through the Corps of Engineers 
budget are an excellent choice for the Nation. We urge you to provide 
the funds necessary to allow the marine transportation system to be 
ready for the challenges of both today and tomorrow.
                                 ______
                                 
     Prepared Statement of the North Carolina State Ports Authority
Introduction
    Good morning. I am Erik Stromberg, Executive Director of the North 
Carolina State Ports Authority. I am testifying today on behalf of the 
American Association of Port Authorities. Founded in 1912, AAPA 
represents virtually every U.S. public port agency, as well as the 
major port agencies in Canada, Latin America and the Caribbean. Our 
Association members are public entities mandated by law to serve public 
purposes--primarily the facilitation of waterborne commerce and the 
generation of local and regional economic growth. My testimony today 
reflects the views of AAPA's United States delegation.
    Mr. Chairman, AAPA commends you for convening this hearing on the 
Corps of Engineers budget for fiscal year 2003. We are gravely 
concerned that the Administration's budget request for fiscal year 2003 
would not provide enough funding to keep critical navigation projects 
on schedule or allow for the stare of new projects. In addition, we are 
extremely concerned about the critical backlog that exists for 
maintenance of the Corps' existing navigation projects. We appreciate 
the strong leadership this Subcommittee has shown in supporting sound 
water resources policy and investment. We urge your continued support 
and assistance in assuring a sufficient level of funding is 
appropriated for the Corps of Engineers.
    If I leave one message with you today, it is that our entire 
nation--our ports and all who benefit from the services we provide--
depend on adequate funding of Corps of Engineers studies, construction, 
operations and maintenance, research and regulatory functions. The 
relationship between our ports and the Federal government is far from 
one sided. Besides the non-federal cost share and the substantial 
economic, national defense and environmental benefits the activities at 
our nation's ports generate, there are significant levels of investment 
in shoreside infrastructure by non-federal public and private interests 
as well. In the year 2000, the local investment in landside terminal 
facilities totaled over $1 billion. These investments of local funds in 
landside facilities fundamentally depend on the continued partnership 
with the Federal government to maintain and improve the nation's deep-
draft navigation system.
Administration Fiscal Year 2003 Budget Request for the Army Corps of 
        Engineers
    The Administration budget requested fiscal year 2003 appropriations 
of $4.175 billion for the Corps of Engineers Civil Works Program. This 
level represents a 10 percent cut from fiscal year 2002 appropriated 
levels (including fiscal year 2002 supplemental appropriations). (We 
note that the Administration has proposed a new initiative to allocate 
the cost of Federal retirees to agency programs. In order to fairly 
compare project funding levels to previous years, we have subtracted 
these retiree costs where appropriate.) AAPA and its member ports 
around the country are deeply concerned that the President's proposed 
budget for fiscal year 2003 does not provide for sufficient investment 
in or maintenance of the nation's commercial navigation system.
    Construction-General Account.--The Construction-General account, 
which provides the funding for investment in our nation's water 
resources, was subject to an 18 percent cut in the Administration's 
budget proposal compared to fiscal 2002 appropriated levels ($1.42 
million v. $1.72 billion). The Administration did not propose to 
initiate any new construction starts in fiscal year 2003 or to continue 
any new construction starts that Congress approved in fiscal year 2002.
    In terms of deep-draft harbors, which provide the gateways for more 
than 95 percent of our nation's growing import and export trade, this 
budget seeks only $267 million in fiscal year 2003. This amount is only 
half of what is needed to fund ongoing and new projects ($539 million). 
The attached table lists the fiscal year 2003 funding requirements and 
the Administration's budget request for construction projects of 
interest to the nation's deep-draft port industry.
    Without additional funding, next year a number of ongoing projects 
will not be able to maintain contractual obligations. This will force 
work to come to a halt and increase project costs by having contractors 
demobilize their equipment and add unnecessary inflation costs. Failure 
to maintain optimal schedules will increase project costs and delay the 
realization of project benefits. In addition, delays in starting 
projects or continuing projects on an optimal schedule could result in 
the loss of local sponsor funding.
    Operations and Maintenance Account.--The Administration requested 
$1.914 billion for the Operations and Maintenance (0&M) account, which 
is slightly less than fiscal year 2002. In his February 27, 2002, 
testimony before the House Appropriations Subcommittee on Energy and 
Water Development, Chief of Engineers Lieutenant General Robert B. 
Flowers stated that funds provided for fiscal year 2002 left a critical 
maintenance backlog of $702 million, of which $587 million is in the 
navigation mission. General Flowers defined critical maintenance as 
maintenance that should be performed in the budget year in order to 
continue operation at a justified level of service and to attain 
project performance goals. The critical maintenance backlog for 
navigation consists largely of dredging and repairs to structures such 
as locks, dams, breakwaters, and jetties. The Congress must 
substantially increase funding in the O&M Account to lower the 
maintenance backlog and ensure that project benefits are sustained.
    AAPA supports continued funding for two Research and Development 
programs funded from the O&M account: The Dredging Operations and 
Environmental Research (DOER) Program and the Dredging Operations 
Technical Support (DOTS) Program. DOER is essential to develop answers 
to a variety of complex technical questions that confound dredging 
projects such as assessing contaminated sediments, identifying 
innovative dredging technologies, and minimising impacts of threatened 
and endangered species. AAPA urges Congress to fund the DOER program at 
the level recommended by the Administration, $6.755 million.
    The DOTS program provides an efficient and cost effective means for 
Corps district personnel to consult with Corps researchers on complex 
dredging. This program helps keep important projects on schedule when 
new issues are raised. While the Administration's request for $1.545 
million will keep this important program operating, this level of 
funding is unlikely to meet the growing demand for consultations. We 
urge the Congress to provide $3 million for the DOTS program.
    General Investigation Account.--The Administration's proposed 
budget for the General Investigations account, which funds 
reconnaissance and feasibility studies for new water resources 
projects, was one-third lower than Congress appropriated in fiscal year 
2002 ($104 million v. $154 million). The stated Administration purpose 
for this drastic cut in study funding is to ``slow the rate at which 
studies and preconstruction engineering and design effort are carried 
out and completed and the rate at which projects with completed studies 
are added to the existing construction backlog.'' (See testimony of 
Secretary of the Army for Civil Works Mike Parker before the House 
Appropriations Subcommittee on Energy and Water Development, February 
27, 2002, page 6-7.) To this end, the Administration has included no 
new studies in its fiscal year 2003 budget request.
    This blanket policy of suspending all new studies would severely 
limit the Congress' ability to make informed decisions about Federal 
investments by stifling critical assessments of the nation's water 
resources development needs. AAPA urges Congress to reverse this policy 
of strangling the study process.
    Regulatory Program.--AAPA supports the proposed increase of $19 
million in the regulatory program. As project reviews have become more 
complex and controversial, the Corps resources for permit evaluation, 
enforcement, and administrative appeals have not kept pace. This 
increased funding will help reduce the amount of time needed to obtain 
permits from the Corps.
Importance of the Corps Deep-Draft Navigation Mission
    Our water highways are national assets that serve a broad range of 
economic and strategic interests. The United States has the most 
extensive, complex and decentralized marine transportation system in 
the world; it is an appropriate asset for the world's largest trading 
country and sole superpower. A large measure of this country's 
unprecedented economic growth and the minimization of the impact of 
economic downturns are due to the increased productivity of the 
American economy and foreign trade. To remain competitive in the global 
marketplace, U.S. businesses must have an efficient and reliable 
transportation system.
    The nation's system of ports and harbors provides the nation's 
shippers--importers and exporters--with a range of choices that show 
them to minimize transportation costs, and, thus, deliver goods to the 
consumer more cheaply and compete more effectively in international 
markets. For example, in 1997, problems with rail service in the 
Southwest United States caused cargo diversions to ports in the 
Northwest. A westward shift in manufacturing patterns in Asia has 
resulted in more consumer goods from that region being delivered to the 
United States through East Coast ports, via the Suez Canal. The 
diversity of transportation options also serves the country well during 
times of crisis when the military needs to quickly move troops and 
materiel.
    Economic Benefits.--Ports' activities link every community in our 
nation to the world marketplace--enabling us to create export 
opportunities and to deliver imported goods more inexpensively to 
consumers across the nation. The deep-draft commercial ports of the 
United States handle over 95 percent of the volume and 75 percent of 
the value of cargo moving in and out of the Nation. Port activities 
create substantial economic and trade benefits for the nation, as well 
as for the local port community and regional economies. The following 
statistics highlight how critical ports are in facilitating national 
economic activity \1\:
---------------------------------------------------------------------------
    \1\ Source: U.S. Maritime Administration.
---------------------------------------------------------------------------
  --U.S. Customs duty revenues totaling approximately $15.6 billion 
        were paid into the general treasury in fiscal year 1996 on 
        cargo moved through ports.
  --Our nation's commercial deep draft ports annually handle in excess 
        of $600 billion in international trade.
  --Foreign trade is an increasingly important part of the U.S. 
        economy, currently accounting for over 30 percent of our Gross 
        Domestic Product. U.S. exports and imports are projected to 
        increase in value from $454 billion in 1990 to $1.6 trillion in 
        2010. The volume of cargo is projected to increase from 875 
        million to 1.5 billion metric tons in 2010.
  --The overall national economic impact of port activities in 1996 
        generated: 13 million jobs; $743 billion to the Gross Domestic 
        Product; and $200 billion in taxes at all levels of government.
    National Defense Benefits.--We should also not lose sight of the 
fact that the ports continue to play a very critical role in our 
nation's defense. That role has never been more apparent than dining 
the loadouts of military cargo and personnel during Operation Desert 
Shield/Desert Storm. The huge buildup of U.S. forces in and around the 
Persian Gulf would have been impossible without the modern facilities 
and strong support provided by America's ports. According to the U.S. 
Military Traffic Management Command (MTMC), between August of 1990 and 
March of 1991, MTMC loaded 312 vessels and more than 4.2 million 
measurement tons of cargo in 18 U.S. ports for delivery to the Persian 
Gulf in support of Desert Shield/Desert Storm. More than 50 ports have 
agreements with the Federal Government to provide ready access for 
national emergency purposes.
    Environmental Benefits.--Several navigation projects that have 
substantial environmental features, including the creation of thousands 
of acres of wildlife habitat using dredged material, would not proceed 
under the proposed funding levels. For example, the Port of Oakland is 
currently building a project to expand its container handling 
capability that will redevelop a former military facility, create 120 
acres of shallow-water habitat, restore 3200 acres of wetlands, provide 
30 acres of new public parkland, and reduce vehicle emissions by 40 
tons per year. In addition, the larger, more efficient ships that will 
be able to call at the port will result in reduced discharge of ballast 
water, which will reduce the risk of introducing aquatic nuisance 
species. Similar multi-objective projects are the hallmark of local 
public port development activities.
Importance to the Corps of Engineers Navigation Mission to North 
        Carolina
    I come to you today from a port that is far more typical of the 
100-plus public port agencies in the United States than usually 
testifies before the Congress. The North Carolina State Ports Authority 
owns deepwater port facilities at Wilmington and Morehead City. Cargoes 
moving through our ports include steel, forest products, rubber, 
fertilizers, salt, liquid chemicals, petroleum products, and 
containers. Our two ports are also classified as ``national strategic 
ports.'' We primarily serve a regional market that encompasses some 
half dozen states. The Authority views its role to enhance the economy 
of North Carolina through businesslike operations and administration. 
Our $30 million budget is generated by over five million tons of cargo 
moving annually across our docks.
    The importance of our two ports is only partially revealed by our 
statistics and economic impact. Statewide, over 80,000 jobs and nearly 
$300 million in state and local tax revenues are dependent on 
operations at North Carolina's ports. In the Wilmington area alone, 
this translates to over 6,500 jobs and more than $23 million in tax 
revenues. When, not if, global economic growth resumes--and in the 
South Atlantic, it is projected at six percent annually over the next 
several years--the capacity of the ports in our region will be severely 
taxed. Already there is serious congestion in all components of the 
international transportation system--roads, rail and terminals--in key 
ports in the South Atlantic region. Given the uncertainties in 
international cargo flows, both in the short term and in the longer 
run, as well as the unpredictable national strategic considerations, 
adequate port capacity cannot be precisely defined. Port directors and 
their governing boards can at best watch carefully the marketplace, 
listen to their customers and invest in new and expanded marine 
terminal facilities and equipment with an eye to the future. Moreover, 
additional capacity lowers transportation costs and facilitates access 
to international markets.
    Finally, experts citing current vessel draft requirements and ``new 
build'' characteristics, have stated that ports of the future must have 
at least 45 feet preferably 50 feet of draft. Consequently, we believe 
the ports of Wilmington and Morehead City will maintain their national 
significance economically and strategically into the foreseeable 
future. The reality is that while much attention has been focused on 
the building of new huge new ships, some 6,000 plus TEUS and beyond, 
industry analysts acknowledge that through for the next two decades at 
least, the vast majority of oceangoing commerce will be handled by 
ships that can easily be accommodated with a 42-foot channel now under 
construction at the Port of Wilmington. The notion that our nation's 
international commerce requires only two or three ports per coast 
flies, therefore, in the face of economic and transportation reality.
    In North Carolina alone, exports have been forecast to double over 
the decade. This cargo growth cannot be accommodated by two or three 
mega ports--which means that ports like Wilmington will become 
increasingly important to handle both anticipated growth, and growth 
which may not have been foreseen in some trade lanes. In 1999, 
Wilmington handled over $3 billion in cargo--or $8.2 million a day.
    Our ports in North Carolina play a critical role in our national 
security. Materials needed to keep our military forces safe and well 
supplied during peacekeeping efforts or military conflicts move through 
our ports, in particular serving Camp Lejeune, Fort Bragg and the 
Military Ocean Terminal at Sunny Point (MOTSU). Most recently, during 
Phase I and Phase II of DESERT STORM/DESERT SHIELD, the two ports on 
the Cape Fear River--the Port of Wilmington and MOTSU--loaded out 
approximately 25 percent of the vessels required for these operations.
    At the time, Major General John R. Piatak, Commander Military 
Traffic Management Command, Falls Church, VA, said, ``During this time 
of national need, you moved 768,148 square feet of DESERT SHIELD 
equipment safely and quickly through the Port of Wilmington. The 
contribution of the Port of Wilmington was significant to the 
successful deployment of DESERT SHIELD forces.''
    As is evident, I am very proud of the role that North Carolina's 
ports have planed in our nation's vital security interests throughout 
history. We remain committed to serving our nations strategic security 
interests even in these very moments of national concern.
    As a highlight to the Corps' deepening projects, I would like to 
talk about the Wilmington Harbor Deepening Project. We are sensitive to 
multiple benefits from this project. For example, environmental 
enhancements are significant. This project front loaded environmental 
mitigation and enhancement components such that they were designed and 
underway before the first bucket of dredge material was removed from 
the Cape Fear River navigation channel. When former Governor James B. 
Hunt, Jr., inaugurated the deepening project in March 2000, 
construction was already underway for creation of a fish nursery, 
estuarine creek and marsh habitat on Island 13 in the Cape Fear River.
    The Wilmington Harbor Project also incorporates an important 
shoreline protection project with some six million cubic yards of sand 
being placed on the nearby beaches of Brunswick and New Hanover 
Counties. This is the coastline that was thrashed by six hurricanes in 
four years and which desperately needed sand to restore sea life 
habitats as well as to protect property investments--an economic 
benefit to the tourism industry that feeds North Carolina's economy.
    With our fundamental mission to grow North Carolina's economy, the 
future increasingly will depend on international trade. As the 13th 
largest exporting state in the country, nearly 286,000 North Carolina 
jobs depend on export of manufactured goods. However, there is much 
more to this than just the numbers. Many companies, much of them small-
sized operations, could not reach overseas markets if there were not 
ports with good access close by. Without the additional opportunities 
of international markets, many of these smaller companies could not 
grow as fast, or withstand the periodic downturns in our domestic 
economy. These include good small-to-medium-sized companies in North 
Carolina like Meridien Marketing, moving fine North Carolina furniture 
around the world, and American Crane, selling its equipment to global 
buyers. Their business success would not be possible without our ports. 
Our North Carolina ports are also essential to the agribusiness 
community, whether it's importing fertilizer or exporting farm 
products, all of which account for over two-thirds of the tonnage 
moving across our state port docks.
    Given the importance of our ports and international trade to North 
Carolina, the NC General Assembly and the state's elected and appointed 
leaders continue to support the Wilmington Harbor Deepening project 
with full funding of the required State match--even during these 
extremely tough fiscal times.
    The Wilmington Harbor Deepening Project also is absolutely vital to 
meet the needs of continued operations with existing customers and any 
future expansion of their business--let alone attract new business. Our 
major container shipping lines and forest product carriers have been 
forced to call on our Port of Wilmington carrying less cargo, and 
leaving North Carolina export cargo at the docks because of the lack of 
adequate draft. Three years ago, a container shipping company which 
provided service between North Carolina and Northern Europe was forced 
to discontinue its service due to the lack of draft at the Port of 
Wilmington. North Carolina companies now are absorbing hundreds of 
thousands of additional costs in getting their products to other, more 
distant ports. Our remaining container carriers continue to call at 
Wilmington, however, because of the strong regional marketplace and our 
highly efficient terminal operations. These contracts are threatened if 
the channel is not deepened to 42 feet by 2003.
    The Corps' deepening projects, like the Wilmington Harbor Deepening 
project, are important as a key component of our nation's basic 
transportation, economic and defense infrastructures. The investments 
to this point cannot begin to be returned unless the project is 
completed to the Port of Wilmington, and delays past 2003 would 
increase total project costs, seriously jeopardize the customer base of 
the Port of Wilmington, and negatively impact the economy of the State 
of North Carolina--already struggling through this latest recession.
Conclusion
    Thank you for the opportunity to testify today. We understand the 
Congress is faced with difficult budget decisions, but this country can 
not afford to make the mistake of shortchanging our nation's economic 
competitiveness and opportunity by failing to provide for continued 
improvement and maintenance of our federal navigation system. Ports and 
navigation channels are critical links in the intermodal transportation 
chain. Failure to continue to invest in all aspects of this 
transportation system will have serious long-term economic 
consequences. We ask this Committee's support in ensuring adequate 
funding for the Corps of Engineers Fiscal Year 2003 budget.

          FISCAL YEAR 2003 DEEP-DRAFT CONSTRUCTION PROJECT BUDGET FOR THE U.S. ARMY CORPS OF ENGINEERS
                                              (Dollars in millions)
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                             Project                                   2003         2003 Budget      Shortfall
                                                                    Capability        Request
----------------------------------------------------------------------------------------------------------------
New York & NJ Harbor, NY & NJ...................................          120.00          120.00            0.00
Delaware River, NJ..............................................           12.00           12.00            0.00
Baltimore Harbor, MD............................................           10.59           10.59            0.00
Polar Island, MD................................................           10.60           10.60            0.00
Norfolk Harbor, VA..............................................           12.00            0.48          -11.52
James River, VA.................................................            0.10            0.10            0.00
Wilmington Harbor, NC...........................................           76.20           24.65          -51.55
Charleston Harbor, SC...........................................            7.40            4.54           -2.86
Savannah Harbor, GA.............................................            0.69            0.43           -0.26
Brunswick Harbor, GA............................................           16.00           11.12           -4.88
Jacksonville, FL................................................            4.03            4.03            0.00
Canaveral Harbor, FL............................................            3.60            3.60            0.00
Miami Harbor Channel, FL........................................           31.00           13.10          -17.90
Manatee Harbor, FL..............................................           11.60            0.00          -11.60
Tampa Harbor Big Bend, FL.......................................            1.00            0.00           -1.00
Tampa Harbor, FL................................................            0.80            0.00           -0.80
Panama City Harbor, FL..........................................            4.10            1.65           -2.46
Mobile Harbor, AL...............................................            0.20            0.20            0.00
Gulfport Harbor, MS.............................................            1.00            0.00           -1.00
Pascagoula Harbor, MS...........................................            2.48            2.48            0.00
Mississippi River Ship Channel, Gulf to Baton Rouge, LA.........            0.20            0.20            0.00
Inner Harbor Nav. Canal Lock, LA................................           30.00            9.00          -21.00
Houston-Galveston Nav. Channels, TX.............................           67.00           19.49          -47.51
Corpus Christi, TX..............................................           21.00            0.00          -21.00
Los Angeles Harbor, CA, Main Channel Deepening..................           20.00            0.00          -20.00
Oakland Harbor, CA..............................................           50.00            5.00          -45.00
Hamilton Air Field Env. Restoration.............................            3.90            3.90            0.00
San Francisco Bay to Stockton, CA...............................            0.30            0.00           -0.30
Sacramento River Ship Channel, CA...............................            0.30            0.25           -0.05
Columbia River Deepening, WA....................................           11.50            0.00          -11.50
Grays Harbor, WA................................................            0.50            0.50            0.00
Dredged Material Disposal Facility Program......................            9.00            9.00            0.00
                                                                 -----------------------------------------------
      Total.....................................................          539.09          266.89         -272.20
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
                                summary
    This Statement is submitted in support of appropriations for the 
Colorado River Basin salinity control program of the Department of the 
Interior's Bureau of Reclamation. Congress designated the Bureau of 
Reclamation to be the lead agency for salinity control in the Colorado 
River Basin by the Colorado River Basin Salinity Control Act of 1974. 
Public Law 104-20 reconfirmed the Bureau of Reclamation's role. A total 
of $17.5 million is requested for fiscal year 2003 to implement the 
authorized salinity control program of the Bureau of Reclamation. The 
President's appropriation request of $10.1 million is inadequate 
because studies have shown that the implementation of the salinity 
control program has fallen behind the pace needed to control salinity. 
An appropriation of $17.5 million for Reclamation's salinity control 
program is necessary to protect water quality standards for salinity 
and to prevent unnecessary levels of economic damage from increased 
salinity levels in water delivered to the Lower Basin states and 
Mexico.
                               statement
    The water quality standards for salinity of the Colorado River must 
be protected while the Basin States continue to develop their compact 
apportioned waters of the river. Studies have shown that the 
implementation of the salinity control program has fallen below the 
threshold necessary to prevent future exceedence of the numeric 
criteria of the water quality standards for salinity in the Lower Basin 
of the Colorado River. The salinity standards for the Colorado River 
have been adopted by the seven Basin States and approved by EPA. While 
currently the standards have not been exceeded, salinity control 
projects must be brought on-line in a timely and cost-effective manner 
to prevent future effects that would cause the numeric criteria to be 
exceeded.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. The seven Colorado River Basin 
States, in response to the Clean Water Act of 1972, had formed the 
Colorado River Basin Salinity Control Forum, a body comprised of 
gubernatorial representatives from the seven states. The Forum was 
created to provide for interstate cooperation in response to the Clean 
Water Act, and to provide the states with information necessary to 
comply with Sections 303(a) and (b) of the Act. I am New Mexico's 
representative to the Forum. The Forum has become the primary means for 
the Basin States to coordinate with federal agencies and Congress to 
support the implementation of the salinity control program for the 
Colorado River Basin.
    Bureau of Reclamation studies show that damages from the Colorado 
River to United States water users are about $300,000,000 per year. 
Damages are estimated at $75,000,000 per year for every additional 
increase of 30 milligrams per liter in salinity of the Colorado River. 
Control of salinity is necessary for the Colorado River Basin states, 
including New Mexico, to continue to develop their compact-apportioned 
waters of the Colorado River.
    It is essential that appropriations for the funding of the salinity 
control program be timely in order to comply with the water quality 
standards for salinity to prevent unnecessary economic damages in the 
United States, and to protect the quality of the water that the United 
States is obligated to deliver to Mexico. The appropriation of $10.1 
million in the past President's budget request is inadequate to protect 
the quality of water in the Colorado River and prevent unnecessary 
salinity damages in the states of the Lower Colorado River Basin. 
Studies have shown that the implementation of the salinity control 
program has fallen behind the pace needed to control salinity. Although 
the United States has always met the water quality standard for 
salinity of water delivered to Mexico under Minute No. 242 of the 
International Boundary and Water Commission, the United States through 
the U.S. Section of IBWC is currently addressing a request by Mexico 
for better quality water.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20). The salinity control program authorized 
by Congress by the amendment has proven to be very cost-effective, and 
the Basin States are standing ready with up-front cost sharing. 
Proposals from public and private sector entities in response to the 
Bureau of Reclamation's advertisement have far exceeded available 
funding. Basin States cost sharing funds are available for the $17.5 
million appropriation request for fiscal year 2003. The Basin States 
cost sharing adds 43 cents for each federal dollar appropriated.
    Public Law 106-459 gave the Bureau of Reclamation additional 
spending authority for the salinity control program. With the 
additional authority in place and significant cost sharing by the Basin 
States, it is essential that the salinity control program be funded at 
the level requested by the Forum and Basin States to protect the water 
quality of the Colorado River.
    Maintenance and operation of the Bureau of Reclamation's salinity 
control projects and investigations to identify new cost-effective 
salinity control projects are necessary for the success of the salinity 
control program. Investigation of new opportunities for salinity 
control are critical as the Basin states continue to develop and use 
their compact-apportioned waters of the Colorado River. The water 
quality standards for salinity and the United States water quality 
requirements pursuant to treaty obligations with Mexico are dependent 
on timely implementation of salinity control projects, adequate funding 
to maintain and operate existing projects, and investigations to 
determine new cost-effective projects.
    I urge the Congress to appropriate $17.5 million to the Bureau of 
Reclamation for the Colorado River Basin salinity control program, 
adequate funding for operation and maintenance of existing projects and 
adequate funding for general investigations to identify new salinity 
control opportunities. Also, I fully support testimony by the Forum's 
Executive Director, Jack Barnett, in request of this appropriation, and 
the recommendation of an appropriation of the same amount by the 
federally chartered Colorado River Basin Salinity Control Advisory 
Council.
                                 ______
                                 
              Letter From the Stockton East Water District
                              Stockton, California, March 12, 2002.
The Honorable Harry Reid,
Committee on Appropriations, United States Senate, S-128, The Capitol, 
        Washington, DC 20510-6025.
    We are writing to request your assistance with our Farmington 
Groundwater Recharge & Seasonal Habitat Project as authorized by the 
1999 WRDA. Specifically, we request the funding of our project's line 
item in fiscal year 2003 in the amount of $3,000,000, and ``report 
language'' directing the Army Corps of Engineers to ensure that our 
project is funded annually until complete.
    Thanks to you and your staff, the Stockton East Water District 
(SEWD) received the 1999 WRDA authorization of $25,000,000 to construct 
groundwater recharge and conjunctive use projects, and the `new start' 
funding of this project in fiscal year 2002.
    SEWD, together with its neighboring districts, needs your continued 
help to implement the remedy for our critically over drafted 
groundwater basin and saline intrusion problem. The Farmington 
Groundwater Recharge & Seasonal Habitat Study was completed in August 
2001. This Study recommends a base project which is expected to provide 
an average of 35,000 acre feet of recharge water to our critically over 
drafted groundwater basin each year.
    Last year we sent you a copy of a petition signed by over 10,000 
San Joaquin County residents who joined us in supporting our project. 
We again need your continued help in securing this $3,000,000 request 
and the report language which will ensure the recovery of our 
critically over drafted groundwater basin.
    Thank you in advance for your help.
                                            Andrew Watkins,
                                                         President.
                                             Alfred Bonner,
                                                          Director.
                                            Melvin Panizza,
                                                          Director.
                                             Thomas McGurk,
                                                    Vice President.
                                          Westford Latimer,
                                                          Director.
                                                 Paul Polk,
                                                          Director.
                                          Paul Sanguinetti,
                                                          Director.
                                 ______
                                 
    Prepared Statement of the Apalachicola Bay & River Keeper, Inc.
    The Apalachicola River Restoration Coalition is a working group of 
representatives from twelve Florida organizations seeking to persuade 
Congress to modify the Apalachicola-Chattahoochee-Flint Waterway 
Project authorization by eliminating all dredging activity by the U.S. 
Army Corps of Engineers on the Apalachicola River between Jim Woodruff 
Dam and the Gulf Intracoastal Waterway. A list of member groups of the 
coalition is attached.
    As part of an effort to eliminate or reduce spending on wasteful 
U.S. Army Corps of Engineers projects and concentrate on inland 
waterways operations and maintenance projects with high traffic 
volumes, President George W. Bush in his fiscal year 2003 Budget 
provides only $1,444,000 for the Apalachicola-Chattahoochee-Flint 
Waterway.
    We appreciate and applaud the President's sensible budget 
recommendation, and we urge that you and your committee adopt it as 
proposed.
    The ACF Waterway is the most highly subsidized active waterway in 
the United States. Notwithstanding the Corps' dredging activities over 
the past 50 years, commercial navigational use of the river is so low 
and dredging costs are so high that the unit cost of maintaining this 
waterway (per ton-mile of goods shipped) is 50 times the national 
average (according to the Congressional Budget office).
    It is estimated that in recent years the channel maintenance 
project has cost the U.S. taxpayers about $30,000 for every barge tow 
that has used the river. We receive only 40 cents in benefits for every 
dollar spent.
    This fiscal insult is reason enough to support the President's 
recommendation that dredging on the Apalachicola be halted. But when we 
also consider the damage being done to the river by the Corps' dredging 
and ``within bank'' spoiling, the decision becomes imperative. In 
effect, inbanks deposit of dredged material and sedimentation from the 
slurry of sand created during dredging operations clogs the creeks and 
sloughs of the invaluable floodplain, blocking its natural filtration 
capability and destroying the flowing water habitat, critical to 
spawning and foraging of many riverine species, some endangered and 
threatened.
    The Apalachicola River is the largest of Florida's waterways in 
terms of volume, carrying 16 billion gallons of water per day to the 
Gulf. It provides some of the most important natural habitat in the 
southeast, and its bay supplies 90 percent of Florida's and 15 percent 
of the nation's harvest of oysters. The estuary ``nursery'' it feeds 
has been recognized by the state as an ``Outstanding Florida Water'', 
by the Federal government as a ``National Estuarine Reserve'', and by 
UNESO as a ``Man in the Bio-sphere Reserve''.
    The River is one of our nation's most precious treasures. Federal, 
State and local governments have spent tens of millions of dollars to 
purchase land in the River's flood plain to protect the River's water 
quality. The Nature Conservancy has identified the River and the lands 
on each side of it as one of six places in the United States which has 
particular important and threatened biological diversity.
    The American Rivers, a national river conservation organization, 
has previously listed the ACF Basin as among the ten most endangered 
river systems in America. The Corps' dredging and spoiling activities 
contribute mightily to the system's ills.
    It seems to us that continued wasteful spending that causes great 
harm to one of the great rivers of our country, is illogical, and that 
President Bush's recommendation is reasonable.
    We hope you agree with us and we urge you to support the 
President's budget recommendation.
                      participating organizations
    Apalachee Audubon
    Apalachee Ecological Conservancy, Inc.
    Apalachicola Bay and River Keeper, Inc.
    Audubon of Florida
    Chipola River Economic and Environmental Council
    Florida Fishermen's Federation
    Florida Public Interest Research Group
    Florida Wildlife Federation
    Help Save the Apalachicola River
    League of Conservation Voters Education Fund
    The Nature Conservancy
    1000 Friends of Florida
    Southeastern Clean Water Network
                                 ______
                                 
     Letter From the Lower Mississippi River Conservation Committee
                             Vicksburg, Mississippi, April 8, 2002.
Majority Clerk,
Senate Energy and Water Development Subcommittee, 156 Dirksen Building, 
        Washington, DC 20510.
    Dear Majority Clerk: We are writing to express our organizations' 
support for actions to restore the natural resources of the Lower 
Mississippi River system. The Lower Mississippi River Conservation 
Committee is a multi-state (AR, KY, LA, MO, MS, and TN), cooperative, 
nonprofit organization of state and federal interests, private 
contributors, and corporate sponsors formed in 1994 to address the 
challenges of restoring and managing the natural resources of the Lower 
Mississippi River. The Lower Mississippi River Conservation Committee 
promotes the wise use of the Lower Mississippi River's nationally 
significant resources by providing a permanent forum for cooperative 
efforts involving planning, management, information sharing, public 
education, advocacy, and research.
    With wise use of the Lower Mississippi Rivers natural resources, 
sustainable increases to the economy of the Lower Mississippi River 
States can occur without impacting existing navigation or flood control 
uses of the river. Annually, nearly 11 million people in the Lower 
Mississippi Alluvial Valley participate in fishing and other wildlife-
oriented outdoor recreation (excluding hunting). They spend 
approximately $6 billion on such things as food, fuel, lodging and 
equipment. Revenues from these natural resource related activities are 
important to the economy of our region and the well-being of our 
state's citizens.
    One important way you can assist the Lower River States in 
restoring the natural resources of the Lower Mississippi River system 
and their associated economic revenues is to appropriate funds to 
conduct the ``Lower Mississippi River Resource Assessment'' authorized 
by Section 402 of the Water Resources Development Act of 2000 (copy 
enclosed). As you will note, the Assessment was authorized at $1.75 
million. We ask that you support funding of $500,000 for fiscal year 
2003 and $1.25 million for fiscal year 2004 in the Civil Works budget 
of the U.S. Army Corps of Engineers to complete the 2-year Assessment 
and required report to Congress.
    It was the state-led Lower Mississippi River Conservation 
Committee, working with numerous hunting and fishing, conservation, 
tourism, recreational, economic development, other groups, and the 
general public which was largely responsible for securing this language 
in the Water Resources Development Act of 2000.
    The Assessment could aid greatly the U.S. Army Corps of Engineers' 
Congressionally mandated environmental mission in the Lower Mississippi 
River Alluvial Valley by consolidating individual project specific 
information, habitat restoration, and recreational needs into one 
regional assessment and report. Likewise, the Department of Interior's 
mission related to management of national wildlife refuges and parks, 
fisheries, migratory birds and endangered species could be enhanced.
    The Governors of each of our States have already expressed by 
letter to the Commander, Mississippi Valley Division of the U.S. Army 
Corps of Engineers, their strong support for immediately completing the 
Assessment and their willingness to participate (copies enclosed). The 
States, in fact, are already working together through the Lower 
Mississippi River Conservation Committee to identify and collect 
essential information needed for completion of the Assessment.
    We welcome this opportunity to work together with you on this 
important regional assessment of the resources of the Lower Mississippi 
River system. Again, we ask that you support funding specifically for 
the Lower Mississippi River Resource Assessment in the fiscal years 
2003 and 2004 Civil Works budgets for the U.S. Army Corps of Engineers.
            Respectfully,
                                              Dugan Sabins,
             Chair, Lower Mississippi River Conservation Committee.
                                 ______
                                 

 Prepared Statement of the Coosa-Alabama River Improvement Association

                                summary
    Mr. Chairman & distinguished Committee members: This statement 
includes a request to recognize and maintain the U.S. inland waterways 
system as a vital part of the national transportation infrastructure by 
providing sufficient funding (See chart) to:
  --Maintain and improve our nation's inland waterway system;
  --Reinstate necessary O&M funding for navigation projects in the 
        Coosa-Alabama Basin;
  --Complete a study to improve the navigation channel on the Alabama 
        River;
  --Renovate and upgrade a recreation site on the Alabama River;
  --Complete backlogged maintenance items designed to keep the Alabama 
        River navigation channel a viable economic asset to the State 
        of Alabama.
                           expanded statement
    Thank you for the opportunity to present my perspective on several 
topics relating to our Nation's waterways system in general, and to the 
Coosa-Alabama River Basin in particular. As President of the Coosa-
Alabama River Improvement Association, I speak for a large and diverse 
group of private citizens and political and industrial organizations 
that sees the continued development of the Coosa-Alabama Waterway as an 
opportunity for economic growth in our region as well as the Nation.
    Our association is concerned about the deteriorating waterway 
infrastructure throughout the nation. The waterways are vital to our 
export and import capability, linking our producers with consumers 
around the world. Barges annually transport 15 percent of the nation's 
commodities, one out of every eight tons. It is incumbent upon the 
Federal Government to maintain and improve this valuable national 
asset. Therefore, we ask Congress to appropriate enough funds for 
required maintenance and construction to keep the waterways the 
economic multiplier it is. To maintain the inland waterways facilities 
and to accommodate vitally needed growth will require approximately $6 
billion. The Federal government must commit to improve the waterways 
infrastructure or risk serious economic consequences and jeopardizing 
large public benefits.
    We are concerned that any budget strategy that reduces funding for 
the operations and maintenance of inland and intracoastal waterways 
will have a detrimental effect on the economic growth and development 
of the river system. We are especially concerned about the President's 
direction to direct funding away from those waterways suffering 
temporary downturns in barge transportation. We cannot allow that to 
happen. In the Alabama-Coosa River Basin, we must be able to maintain 
the existing river projects and facilities that support the commercial 
navigation, hydropower, and recreational activities so critical to our 
region's economy. The first priority must be the O&M funding 
appropriated to the Corps of Engineers to maintain those projects.
    The President's Budget for fiscal year 2003 does not provide enough 
funding to keep the Alabama River navigation channel open. Most 
conspicuous is the absence of money for dredging, a vital element of 
keeping the channel operational. We ask Congress to reinstate the 
dredging capability on the Alabama River by adding $2 million on the 
Alabama-Coosa River project. In addition, $250,000 is needed to fund a 
lock closure at Millers Ferry to inspect for deterioration and 
structural integrity.


----------------------------------------------------------------------------------------------------------------
                                                                                                    Association
                                                                    Fiscal Year      President      Fiscal Year
                             Project                                   2002        Budget Fiscal    2003 Budget
                                                                   Appropriation     Year 2003        Request
----------------------------------------------------------------------------------------------------------------
Alabama-Coosa River, AL \1\ (AL River incl Claiborne L&D).......      $6,180,000      $2,974,000      $5,974,000
Miller's Ferry L&D..............................................       7,200,000       7,094,000       8,394,000
Robert F. Henry L&D.............................................       5,600,000       5,558,000       8,108,000
Lake Allatoona, GA..............................................       6,333,000       6,642,000       6,642,000
Carters Lake, GA................................................       8,800,000       9,958,000       9,958,000
Lower Alabama River Study (South of Claiborne) feasibility study         300,000         300,000         300,000
                                                                 -----------------------------------------------
      Totals....................................................      34,413,000      32,526,000      39,376,000
----------------------------------------------------------------------------------------------------------------
\1\ Includes dredging from the mouth of the Alabama River through Claiborne L&D to Miller's Ferry. Coosa River
  not included.

    Also included in the Alabama-Coosa project request is a need to 
repair rock jetties below Claiborne Dam. Many of these jetties have 
deteriorated to the point where they are a hazard to boating in some of 
the most treacherous parts of the river. We ask that $500,000 be added 
to repair these jetties. We also request an additional $200,000 be 
added to upgrade the Geographic Information System so Mobile District 
can provide accurate navigation charts for all boating.
    We must improve the infrastructure of the river itself, 
specifically the navigational reliability below Claiborne Dam. 
Increased reliability is the only way prospective investors will 
entertain establishing an industry that uses river transportation. The 
most affordable and most environmentally friendly solution to 
increasing navigation reliability on the Lower Alabama River is to 
improve the training dikes. Mobile District is in the middle of a 
feasibility study to determine the interest of the Federal Government 
in such a project. Without this improvement in navigation reliability, 
we cannot hope to attract new river-related industry into the Basin. We 
ask Congress to appropriate $300,000 to complete the feasibility study 
already underway.
    Recreation has become a major economic factor on our waterways. 
Boating, fishing, swimming, and camping have become an indispensable 
economic tool for many of our lake and river communities, and, in that 
respect, the Alabama River has extraordinary potential. One of the most 
promising sites for development is the Corps-owned Swift Creek 
campground. Now a minimally developed site, Swift Creek needs to be 
upgraded and renovated to serve an ever-increasing demand for 
recreational facilities on the waterway. We ask that $2 million be 
added to the RF Henry project to renovate and upgrade Swift Creek.
    Another need to keep the Alabama River operational is to clean out 
the slough and creek entrances to allow the Corps access to off-channel 
areas. Clearing these entrances would provide for movement of water, 
aquatic life, and small recreational boats between the commercial 
navigation channel and backwater coves. Maintenance would enhance 
fishery habitat and reduce mosquito-breeding habitat. To meet this 
objective, $300,000 needs to be added to each of the Alabama-Coosa, RF 
Henry, and Millers Ferry projects, for a total of $900,000 designated 
to clean out slough and creek openings.
    We also need to catch up on some backlog maintenance work 
($500,000) at the Millers Ferry recreational site to prevent 
deterioration of equipment and facilities. Safety signs need to be 
installed at both RF Henry and Millers Ferry Dams to warn boaters of 
the hazards associated with operation of the locks, dams, and 
powerhouses ($250,000 at each project).
    In summary, we request your support in the following areas:
  --Sufficient O&M funding of the U.S. Army Corps of Engineers Civil 
        Works budget to maintain and enhance the U.S. inland waterways 
        system, including dredging, removing rock jetties below 
        Claiborne Dam, and closing the lock for inspection at Millers 
        Ferry;
  --Funding to renovate and upgrade Swift Creek campground on the 
        Alabama River;
  --Funding for completing the feasibility study to improve the 
        reliability of the navigation channel below Claiborne Dam on 
        the Lower Alabama River;
  --Funding to remove several backlogged maintenance items, including 
        an improved Geographic Information System and safety signs at 
        the RF Henry and Millers Ferry generating plants, to ensure the 
        Alabama River navigation channel remains a viable economic 
        asset to the State of Alabama.
    Thank you for allowing us to submit this testimony and for your 
strong support of the Nation's waterways.
                                 ______
                                 
                                         The Anniston Star,
                              Anniston, Alabama, February 27, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: I am writing to seek your support of the Coosa-
Alabama River Improvement Association's funding request for fiscal year 
2003, which should include funding for dredging on the Alabama River, 
keeping the Alabama River navigation channel open and making certain 
the shippers that transport will continue to have a safe and adequate 
route on Alabama River.
    As a member of the Board of Directors for the Association, I 
strongly endorse its mission of promoting the development of the Coosa 
and Alabama Rivers for the benefit of the state. CARIA is the only 
organization in our State that annually works for funding of federal 
projects on those rivers.
    In the water allocation negotiations between Alabama and Georgia, 
CARIA has been the primary advisor to Alabama's negotiators on 
navigation issues in the Alabama-Coosa Tallapoosa basin.
    I support the Association's request for $$38,876,000 for the 
project's budget.
    We'd also like to see support of the regional effort to improve and 
extend the waterway. We need continuous study on three points: How to 
increase the navigational reliability below Claiborne Dam, ways to 
consolidate and renovate the Swift Creek Park recreation site and how 
we can reduce deferred maintenance on projects that are even more 
costly in the long run.
    The Alabama River navigation channel should continue to be valued, 
and the waterways should stay competitive with rail and road rates to 
provide shippers alternatives. The Alabama River has public and private 
recreation potential that should be realized and developed.
    Thank you for considering these suggestions.
            Very truly yours,
                                    Phillip A. Sanguinetti.
                                 ______
                                 
                                       City of Monroeville,
                           Monroeville, Alabama, February 27, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: It has come to my attention that the 
Appropriations Subcommittee on Energy and Water will be considering 
budget requests for operations and maintenance funding for the Alabama 
River projects. The Alabama River travels through to most economically 
depressed counties in the state, most averaging double digits in 
unemployment. So it is imperative that funding be appropriated to keep 
the Alabama River navigation channel operational. Monroeville struggles 
to entice industry to our area, because we do not have the advantage of 
a four-lane highway travelling through our county. We cannot afford to 
loose barge shipping as an alternative means of transportation for 
industries considering Monroe County.
    Thank you for supporting this request.
            Sincerely,
                                            Anne H. Farish,
                                                             Mayor.
                                 ______
                                 
                                        City of Prattville,
                            Prattville, Alabama, February 22, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: I am writing to ask for your favorable 
consideration regarding the U.S. Army Corps of Engineer's request for 
funding to operate and maintain (O&M) water projects in the Alabama-
Coosa River Basin during the fiscal year 2003 budget year. As you know, 
this request is also supported by the Coosa-Alabama River Improvement 
Association.
    This request includes funding for dredging on the Alabama River 
keeping the river's navigation channel operational. This aspect affects 
my community first hand as both power generation plants now under 
construction in Autauga County use the river to transport construction 
materials to their respective sites.
    This funding request also supports the regional effort fo improve 
and extend the Coosa-Alabama waterway. Again, this has a direct impact 
on my community with the renovation of Swift Creek Park on the Alabama 
River. This renovation project will enhance the quality of river 
recreation for all of Central Alabama.
    Senator Reid, I appreciate your past support of the Coosa-Alabama 
River Improvement Association and the Corps of Engineers. I also want 
to thank you for all that you do for our Country.
    With warmest personal regards,
            Sincerely,
                                            Jim Byard, Jr.,
                                                             Mayor.
                                 ______
                                 
                                      City of Rainbow City,
                          Rainbow City, Alabama, February 27, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: I am writing to you as a member of the Board of 
Directors of Coosa-Alabama River Improvement Association. I have been 
active with this association for many years and believe it is vital to 
this area to keep these projects alive. I am asking for your support on 
the following items:
  --You support the Association's funding for fiscal year 2003.
    --Includes funding for dredging on the Alabama River.
    --Keeps the Alabama River navigation channel operational.
    --Assures prospective shippers that barge transportation will 
            continue to be an attractive and safe alternative to road 
            and rail on the Alabama River.
  --You support the regional effort to improve and extend the Coosa-
        Alabama waterway.
    --Continue study on how to increase the navigational reliability 
            below Claiborne Dam.
    --Consolidate and renovate the Swift Creek Park recreation site on 
            the Alabama River to meet an increasing demand for quality 
            river facilities.
    --Reduce deferred maintenance on projects that are more costly in 
            the long run.
  --Other Points:
    --The Alabama River navigation channel is a valuable economic asset 
            for Alabama.
    --Waterways keep competitive rail and road rates down, provide 
            shippers a viable shipping alternative, and save an 
            estimated average of $10.69 per ton over alternative modes.
    --Annual economic impact of the Corps' Alabama River rec facilities 
            is over $40 million.
    --The Alabama River has strong potential for additional public and 
            private recreation sites.
    Your support and consideration concerning this matter will be 
greatly appreciated.
            Sincerely,
                                          Sue L. Glidewell,
                                                             Mayor.
                                 ______
                                 
                                          City of Wetumpka,
                              Wetumpka, Alabama, February 27, 2002.
Hon. Harry Reid,
U.S. Senate, Washington, DC.
    Dear Senator Reid: The significance of the Coosa-Alabama River 
system predates the City of Wetumpka. We believe the earliest 
inhabitants of Alabama established a large hunting base camp along the 
river banks of the Tallapoosa/Coosa/Alabama Rivers where they converge 
just south of town. William Bartram, the famed naturalist and friend of 
Benjamin Franklin, traveled the area in 1776. He wrote: ``This is 
perhaps one of the most eligible situations for a city in the world, a 
level plain between the conflux of majestic rivers . . . ''
    The economic impact river transportation provided in early days 
continues to present day. The availability of navigable waterways to 
connect Wetumpka to the Gulf of Mexico, and therefore points worldwide, 
is an excellent commercial and industrial recruitment tool. Wetumpka's 
waterways provide excellent recreational opportunities which attract 
tourist dollars and further benefit the local economy.
    As the Appropriations Subcommittee on Energy and Water in both 
houses of Congress consider the U.S. Army Corps of Engineers funding 
for operations and maintenance of water projects along the Alabama-
Coosa River basin, we endorse and support the projects which are vital 
to local, regional, and state progress and development.
            Very Truly Yours,
                                           R. Scott Golden,
                                                             Mayor.
                                 ______
                                 
                                  Dallas County Commission,
                                                    Selma, Alabama.
Hon. Harry Reid,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate, Washington DC.
    Dear Mr. Reid: The Dallas County Commission unanimously supports 
the U.S. Army Corps of Engineers request for funding to operate and 
maintain (O&M) water projects in the Alabama-Coosa River Basin.
    The CARIA funding request for fiscal year 2003 that includes 
dredging on the Alabama River to keep the channel navigable not only 
assures prospective shippers that barge transportation will continue to 
be an attractive, viable and safe alternative to road and rail on the 
Alabama River, but is also imperative for continued economic 
development within Dallas County and the Black Belt area of the state.
    Within the last eight months Dallas County has lost at least one 
industrial prospect as a result of the river level not being at a 
navigable level.
    The Dallas County Commission supports the regional effort to extend 
the Coosa-Alabama Waterway. We encourage continued studies on how to 
increase the navigational reliability below Claiborne Dam (water levels 
have been below six feet during certain periods). Consolidation and 
renovation of the Swift Creek Park recreation site on the Alabama River 
is needed to meet an increasing demand for quality river facilities for 
Central Alabama citizens.
    The Alabama River navigation channel is a valuable economic asset 
to Dallas County as well as to the State of Alabama. As you well know 
waterways keep competitive rail and road rates down providing shippers 
a viable shipping alternative and saves an average of $10.69 per ton 
over alternative modes of transportation.
    The annual economic impact of the Corps' Alabama River recreation 
facilities is over $40 million and the Dallas County Commission 
suggests that the Alabama River has strong potential for additional 
public and private recreational sites.
    Your support of CARIA and for funding for the U.S. Corps of 
Engineers O&M water projects is appreciated.
            Sincerely,
                                        John W. Jones, Jr.,
                                                          Chairman.
                                 ______
                                 
                                  Monroe County Commission,
                           Monroeville, Alabama, February 14, 2002.
Hon. Harry Reid,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Reid: The Monroe County Commission respectfully 
request your approval of the Coosa-Alabama River Improvement 
Association Inc's funding request for fiscal year 2003, based on the 
U.S. Army Corp of Engineers estimate for funding, to operate and 
maintain water projects in the Alabama-Coosa River Basin.
    In order for the entire region to reach its economic potential it 
is necessary that funding be provided to keep the Alabama River 
Navigation Channel open, particularly South of the Claiborne Lock & Dam 
in Monroe County Alabama to the Port of Mobile. We must retain the 
funding to demonstrate to potential shippers that the channel will be a 
viable alternative to rail and road transportation. We have information 
that several prospective shippers, one with potential movement of 3 
million tons per year have made serious inquiry about the Alabama 
River.
    We appreciate your support in the past in the development and 
maintenance of this very important Waterway System and we appreciate 
your favorable consideration in making this Waterway System attractive 
to potential industries and recreation.
    Thanking you for your support and with kindest personal regards, we 
are
            Yours truly,
                                            Otha Lee Biggs,
            Judge of Probate & President, Monroe County Commission.
                                 ______
                                 
                              Montgomery County Commission,
                            Montgomery, Alabama, February 27, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: The Montgomery County Commission has a vital 
interest in the development of the Coosa-Alabama River project which 
was originally authorized by Congress in 1945. The benefits which 
accrue to the citizens of this region, and to the nation, fully justify 
the operation of this economical waterway.
    In order to attract new river-using industries into Alabama, 
dredging on the Alabama River is greatly needed so that barges can be 
operational for prospective shippers in moving cargo, thus providing a 
safe alternative to road and rail transportation. Also, use of the 
waterways keeps competitive rail and road rates down and saves an 
estimated average of $10.59 per ton over other modes of shipping.
    Improvements are needed to enhance the navigational reliability 
below Claiborne Dam. Swift Creek Park recreation site on the Alabama 
River needs to be consolidated and renovated to meet an increasing 
demand for quality recreational facilities in Central Alabama. There is 
a strong potential for additional public and private recreational sites 
along the Alabama River. The annual economic impact of the Corps' 
Alabama River recreational facilities is over $40 million.
    Adequate funding in Mobile District's fiscal year 2003, operating 
and maintenance budget is necessary to ensure that the navigation 
channel be kept open and progress is made for further development and 
extension of the Coosa-Alabama waterway and to properly operate and 
maintain the existing portion, thereby making this navigation channel a 
valuable economic asset for Alabama.
    On behalf of the Montgomery County Commission, I fully support the 
testimony provided by the Coosa-Alabama River Improvement Association 
and urge your favorable consideration of the recommended appropriations 
for fiscal year 2003.
            Sincerely,
                                         W. F. Joseph, Jr.,
                                                          Chairman.
                                 ______
                                 
                                                Prattville,
                            Prattville, Alabama, February 27, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: I am writing to gain your support of the Coosa-
Alabama River Improvement Association's funding request for fiscal year 
2003. It should include funding for dredging on the Alabama River, 
keeping the Alabama River navigation channel operational and assuring 
the shippers that transportation will continue to be a safe, alternate 
route over road and rail on the Alabama River.
    The Alabama River is extremely important to the economic growth of 
our area. In the last several months, Tenaska and Southern Company used 
barges to deliver construction materials to plant sites in our area. In 
October of this year the City of Prattville will be host to the Alabama 
Bass Federation Championship Tournament featuring four hundred of 
Alabama's best fishermen. Our leadership would very much like to 
continue to have the river navigable for commercial traffic, as well 
as, sportsman traffic.
    I strongly support the Association's mission of promoting the 
development of the Coosa and Alabama Rivers for the benefit of the 
state. CARIA is the only organization in our State that annually works 
for funding of federal projects on those rivers.
    The Autauga County leadership would also like to see support of the 
regional effort to improve and extend the waterway. Waterways help keep 
competitive rail and road rates down by providing alternatives for the 
shippers. The Alabama River navigation channel is a valuable economic 
asset for Alabama. The Alabama River has public and private recreation 
potential that should be realized and developed.
            Yours truly,
                                         Connie Bainbridge,
                       President, Director of Economic Development.
                                 ______
                                 
                               St. Clair County Commission,
                              Ashville, Alabama, February 27, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: This is to acknowledge support of continued 
funding for the Coosa-Alabama River Improvement Association, Inc. and 
their efforts to maintain the navigation channel in order to attract 
new river-using industry into the Alabama River basin.
    Your support of their efforts will be greatly appreciated.
            Yours truly,
                                        Stanley D. Batemon,
                                                          Chairman.
                                 ______
                                 
                                Selma City Council Liaison,
                                 Selma, Alabama, February 15, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: Selma and Dallas County elected officials, as 
well as the Selma Chamber of Commerce membership and the Selma/Dallas 
County Economic Development Authority, wish to convey our full support 
of the funding request of the Coosa Alabama River Improvement 
Association for fiscal year 2003. It is most important to the economy 
of Alabama that every effort is continued to improve and extend the 
Coosa Alabama Waterway. The navigation reliability of the waterway 
below the Claiborne Dam and maintenance of the trawling works and 
dredging is very vital to the economic development of the river basin 
between Mobile and Montgomery.
    With the improvements and facility expansion underway at the Port 
of Mobile Docks, requests from prospective shippers regarding channel 
maintenance, particularly during dry periods, have dramatically 
increased. Most recently a business which could supply several hundred 
jobs to the Selma/Dallas County area and which would utilize the river 
as a means of receiving certain raw materials, as well as a channel to 
ship their end products to the Mobile Port, visited our area. Use of 
the river in such a manner keeps competitive rail and road rates down, 
providing an alternate shipping means that can save many dollars per 
ton.
    Our area is known as a sportsman's paradise, and there's a growing 
demand for additional other types recreational facilities. The further 
development of the Swift Creek Park in neighboring Autauga County would 
answer this growing demand for quality facilities on the Alabama River.
    This request for the proposed funding is vitally necessary to 
support our efforts for economic expansion and survival in this river 
basin. Thank you for your attention to these matters.
            Sincerely,
                                          Carl Morgan, Jr.,
                                        Selma City Council Liaison.
                                 ______
                                 
                 Selma & Dallas County Chamber of Commerce,
                                 Selma, Alabama, February 11, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington, DC.
    Dear Senator Reid: My organization represents a region of the 
United States which encompasses some of the poorest areas in this 
nation with current unemployment over 12 percent and the poverty rate 
extremely high. Thus it is encumbent on us to strive to do everything 
within our power to lift the region economically.
    One way we have sought to do this is to provide a navigable Coosa-
Alabama River Waterway. In our section of Alabama this would make it 
possible for us to continue to seek out industries which would benefit 
from the waterway and at the same time market our area as a sportsman's 
paradise.
    We understand the demand on federal dollars at this time, but would 
ask consideration that funding be provided so as to keep us from moving 
backwards. Uppermost would be enough funds to insure the river is kept 
open to traffic. Without those funds we would lose the portion of the 
waterway that is open to traffic.
    Thank you and your committee for considering this request.
            Sincerely,
                                          Jamie D. Wallace,
                                                         President.
                                 ______
                                 
                         Warrier & Gulf Navigation Company,
                             Chickasaw, Alabama, February 27, 2002.
Hon. Harry Reid,
Subcommittee on Appropriations for Energy and Water Development, U.S. 
        Senate, Washington DC.
    Dear Mr. Reid: I am J. Craig Stepan, General Manager of Warrior & 
Gulf Navigation Company. Our company is an active member of the Coosa-
Alabama River Improvement Association. I wish to take this opportunity 
to solicit your support on behalf of the Association and the river 
system and enterprises it serves.
    Primarily, please support the Coosa-Alabama Association's funding 
request for fiscal year 2003. This funding is imperative to protect the 
Alabama River as a safe and efficient transportation waterway. Further, 
your additional continued support of a regional initiative to improve 
the waterway below Claiborne Dam and to consolidate and renovate the 
Swift Creek Park recreation site on the Alabama River will also be 
appreciated.
    As you know, the Alabama River is an important economic asset for 
our State, helping to provide a competitive transportation rate 
structure and a recreational alternative with a $40 million annual 
impact.
    Our company and its 200+ employees respectfully request your 
support for these important projects, and we pledge our best efforts to 
provide reliable cost efficient transportation services to the Alabama 
business community.
            Very truly yours,
                                           J. Craig Stepan,
                              General Manager, Southern Operations.
                                 ______
                                 

              Prepared Statement of the State of Illinois

    The State of Illinois supports the following projects in the 
Administration's fiscal year 2003 budget proposal:

Surveys:
    Alexander and Pulaski Counties......................        $147,000
    Des Plaines River (Phase II)........................         335,000
    Illinois River Basin Restoration....................       1,051,000
    Illinois River Ecosystem Restoration................         365,000
    Rock River..........................................         182,000
    Upper Mississippi & Illinois Navigation Study.......       1,000,000
    Upper Mississippi River Comprehensive Plan..........       1,814,000
    Upper Mississippi System Flow Frequency Study.......         463,000
Preconstruction Engineering & Design:
    Peoria Riverfront Development.......................         237,000
    St. Louis Harbor....................................          73,000
    Waukegan Harbor.....................................         200,000
    Wood River Levee....................................         130,000
Construction:
    Chain of Rocks Canal................................       2,037,000
    Chicago Shoreline...................................      19,000,000
    East St. Louis Rehabilitation.......................         800,000
    Loves Park..........................................       2,973,000
    McCook & Thornton Reservoirs........................      10,000,000
    Melvin Price Lock & Dam.............................       1,200,000
    Mississippi River Major Rehab:
        Lock & Dam 12...................................       5,404,000
        Lock & Dam 24...................................      10,000,000
    Olmsted Lock & Dam..................................      77,000,000
    Upper Mississippi River EMP.........................      12,200,000

    Operation and maintenance.--Illinois supports the Corps' budget for 
continued satisfactory maintenance and operation of navigation, flood 
control and multipurpose projects, as well as adequate manpower for 
public service activities related to the water resources in and 
bordering the state. Although, the administration's budget request 
contains nearly $110 million for operation and maintenance for the 
Corps Districts in Illinois, the Districts anticipate a flat level of 
funding over the next 5 years. With inflation, their operations and 
maintenance activities will be reduced by 15 percent or more. There are 
concerns that significant cuts to operations and maintenance can 
severely impact the Corps' future viability and commitment to maintain 
the inland waterway system, water supply and recreational reservoirs, 
and to perform harbor maintenance. As an example, there is a need for 
an additional $2.7 million to satisfy dredging needs and the backlog of 
maintenance for the Illinois River Waterway. Backlog of maintenance 
items for the Mississippi River in Rock Island and St. Louis Corps 
Districts is an additional $16.8 million.
    Additional funding priorities.--The State of Illinois recommends 
that additional funding be provided for the following projects in the 
fiscal year 2003 Corps of Engineers' budget:
                    illinois river basin restoration
    Section 519 of Water Resources Development Act 2000 authorized the 
Illinois River Basin Restoration. The current fiscal year 2003 budget 
proposes $1,051,000 in general investigation funds for the completion 
of a comprehensive plan. However, the State requests that this be 
increased to $5,000,000 of construction general funds. Much of the 
comprehensive plan has been developed under another WRDA authorization 
and with the work funded in fiscal year 2002, it will be almost 
complete. Projects that were pre-authorized in Section 519 as providing 
substantial restoration and environmental benefits have been identified 
through the in-progress study and will be ready to go to construction 
in fiscal year 2003.
                  illinois river ecosystem restoration
    Current fiscal year 2003 budget proposes $365,000 in general 
investigation funds. The State requests that this amount be increased 
to $900,000 in general investigation funds. This project has been on-
going since 1997 and is providing additional information and 
documentation for Section 519 efforts. This increase is needed to 
complete the feasibility portion of this project on scedule.
                     peoria riverfront development
    Currently, the fiscal year 2003 budget contains $237,000 for this 
project. The State requests that this amount be increased to $600,000 
in general investigation funds. The project will begin construction in 
fiscal year 2003 and the increase is needed to complete the feasibility 
phase and to meet the design and construction schedule.
                       chicagoland underflow plan
    McCook and Thornton Reservoirs.--The 1988 Water Resources 
Development Act authorized the construction of McCook and Thornton 
reservoirs as components of the Chicagoland Underflow Plan for flood 
control. The completion of these projects, with their related 
improvements to water quality, will have a significant impact on 
reducing the amount of Lake Michigan diversion water required for 
dilution purposes. The reduction in dilution water will improve 
Illinois' ability to meet the limits of Lake Michigan diversions and 
provide for future water supply needs. While $10.0 million is in this 
year's budget request, we are requesting an additional $20.0 million in 
the fiscal year 2003 budget to continue this work at its optimum level 
of funding.
                    carlyle lake conveyance analysis
    The State of Illinois is concerned about the surface drainage flow 
levels, channel depths, and sedimentation trends and their performance 
effects in the Kaskaskia River from Vandalia, Illinois to Carlyle Lake, 
and the surrounding vicinity. Therefore, for fiscal year 2003, Illinois 
requests an appropriation of $475,000 be provided in the Corps of 
Engineers general investigation funding to initiate the conveyance 
analyses with the total cost as a Federal responsibility. Currently, 
the fiscal year 2003 budget contains no funding for this purpose.
                 the chicago river lock rehabilitation
    There is a need for $4,400,000 to rapidly rehabilitate the Chicago 
Lock. Excessive leakage through this lock interferes with lake 
diversion measurements and accounting, giving the appearance that 
Illinois is over-diverting in violation of the U.S. Supreme Court 
Decree. This project is also needed to ensure the safe operation of the 
lock itself.
            chicago sanitary & ship canal dispersal barrier
    Section 1202 of the National Invasive Species Act of 1996 
authorized the Corps to study, design and construct a barrier in the 
Chicago Sanitary and Ship Canal to prevent the exchange of nuisance 
species between the Great Lakes and the Mississippi/Illinois River 
systems. Previous appropriations provided for the construction of the 
project, but the Chicago District needs $500,000 to cover the operation 
and monitoring the Invasive Species in fiscal year 2003.
                           chicago shoreline
    Currently, the fiscal year 2003 budget contains $19 million for 
this project. There is a need for an additional $13,000,000 of 
construction general funds to avoid a slow down or stoppage of the 
ongoing work and a delay in this crucial erosion control project.
                       chain of rocks canal levee
    The levee lying along the east bank of the Chain of Rocks Canal has 
documented design deficiencies, which must be corrected in order to 
adequately protect the thousands of residents living behind it. 
Currently, the fiscal year 2003 budget includes $2,037,000 for this 
purpose. We are requesting additional funding of $2.8 million of 
construction general funds to advance the construction of the remedial 
work.
                      des plaines river--phase one
    Section 101(b-10) of the Water Resources Development Act of 1999 
authorized Phase I of the Upper Des Plaines River Flood Control Project 
at a total cost of $49 million for the implementation of the six 
recommended projects. The Federal share is approximately $31.8 million 
(65 percent) and the estimated non-Federal cost is $17.1 million. The 
fiscal year 2002 appropriation bill provided $450,000 to continue with 
preconstruction engineering and design of Phase I of the project. 
Illinois requests $4.5 million for a Phase I construction start in 
fiscal year 2003. Currently, the fiscal year 2003 budget contains no 
funding for this purpose.
             des plaines river feasibility study--phase two
    An expansion of the Phase I Upper Des Plaines River study was 
authorized in Section 419 of the Water Resources Development Act of 
1999. The projected $18,000,000 average annual damages, which will 
remain in the tributary floodplains of the Des Plaines River after the 
completion of Phase I project construction, is the basis for the 
expanded study of Phase II. State, Lake County, Cook County, and 
Kenosha County all have appropriated funds under contract for cost 
sharing in the Phase II study effort. Currently, the fiscal year 2003 
budget contains $335,000 to continue the Phase II study effort. 
However, Illinois requests an additional $850,000 of general 
investigation funds to match the contracted study in fiscal year 2003.
    east st. louis & vicinity (ecosystem restoration & flood damage 
                              protection)
    The Corps of Engineers, St. Louis District, has completed a re-
evaluation study of the project for flood protection at East St. Louis 
and Vicinity, Illinois (East Side Levee and Sanitary District), 
authorized by Section 204 of the Flood Control Act of 27 October 1965 
(Public Law 89-298) The project is focusing on the continued problem of 
flooding within the American Bottoms area. The Water Resources 
Development Act of 2000 modified Section 204 of the Flood Control Act 
of 1965, to make ecosystem restoration a project purpose. Accordingly, 
ecosystem restoration will be included with the flood control project. 
Illinois requests an appropriation of $800,000 for the Corps of 
Engineers to initiate the Pre-Engineering and Design of the East St. 
Louis and Vicinity Project. Currently, the fiscal year 2003 budget 
contains no funding for this purpose.
                               loves park
    An additional $1,600,000 funding is required to finish the last 
stage of the Loves Park flood control project. Construction is being 
acomplished in an area that is subject to rapid urbanization through 
five major stages, four of which are complete.
                       melvin price lock and dam
    Illinois also urges that the Corps support the continuation of the 
recreational features of the Melvin Price Lock and Dam with an 
additional $2.0 million appropriation in fiscal year 2003. The 
additional funding is needed to initiate the contract award for the 
recreational facilities and to continue with the visitor center 
exhibits. Currently, the fiscal year 2003 budget contains $1,200,000 
for this purpose.
         upper mississippi river environmental management plan
    Section 509 of the Water Resources Development Act of 1999 re-
authorized the Upper Mississippi River System Environmental Management 
Program (EMP) in response to the need for restoring habitats and 
improving the scientific understanding of the river system. While $12.2 
million is in this year's budget request, we believe this level of 
funding is below the point that Corps can efficiently continue with the 
program. To pursue this program efficiently, we believe this program 
should be pursued at the re-authorized level of $33.17 million as 
described in Section 509 of the Water Resources Development Act of 
1999.
 upper mississippi, lower missouri, and illinois river flow frequency 
                                 study
    Flow frequencies for the Upper Mississippi lower Missouri, and 
Illinois River System were first developed in 1966. The flood profiles 
currently in use were developed in 1979 by an interagency task force 
and replaced profilesdeveloped in 1966. However, the accuracy of the 
1979 profiles has come into question now that there are 20 plus years 
of new data, including flow records from several high water events like 
the Great Flood of 1993 have occured. The Corps of Engineers initiated 
the efforts to reassess the methodology, update the data, and develop 
more sophisticated and accurate models in fiscal year 1997. The study 
could be finished in fiscal year 2003 if an additional $532,000 funding 
becomes available. Flow frequencies have a variety of important uses 
including determination of flood insurance; floodplain management; and 
the study, design, and construction of flood control projects. For this 
reason, Illinois requests the additional funding to finish this 
important study in fiscal year 2003.
                 illinois river dredged disposal sites
    Section 102 (g) of the Water Resources Development Act of 1992 
directed the Secretary to acquire dredged material disposal areas for 
the inland navigation project on the Illinois River, at a total Federal 
cost not to exceed $7,000,000. For fiscal year 2003, we request 
$1,100,000 of construction general funds to continue acquisition and/or 
construction of these sites.
upper mississippi and illinois rivers levees and streambanks protection 
                                 study
    Section 458 of the Water Resources Development Act of 1999 
authorized the Upper Mississippi and Illinois Rivers levees and 
streambanks protection study in response to erosion damages to levees 
and other flood control structures on these rivers. The State of 
Illinois urges full funding of this initiative in fiscal year 2003. The 
funding will expedite impact studies of navigation traffic on 
deterioration of the levees and other flood control structures. 
Currently, the fiscal year 2003 budget contains no funding for this 
purpose.
                                 ______
                                 

            Prepared Statement of the Crow Creek Sioux Tribe

                    fiscal year 2003 budget request
    The Crow Creek Sioux Tribe respectfully requests fiscal year 2003 
appropriations for the Bureau of Reclamation from your subcommittee on 
Energy and Water Development. Funds will be used to conduct value 
engineering on the Reservation-wide project and to design the urgently 
needed system from Fort Thompson to Stephan. All other planning stages 
of this project (Special Study, environmental assessment and FONSI, and 
water conservation plan) will be completed in fiscal year 2002 due to 
support by the subcommittee since fiscal year 1995.
    The amount requested for fiscal year 2003 is $476,000 as set out 
below:

Fiscal Year 2003 Budget Request

Tribal Administration and Coordination........................   $54,000
Project-Wide Value Engineering and Accountability Report......    61,000
Design Fort Thompson to Stephan...............................   301,000
Reclamation Oversight.........................................    60,000
                    --------------------------------------------------------------
                    ____________________________________________________

    Total.....................................................   476,000

                          proposed activities
    With fiscal year 2002 funds, the Crow Creek Sioux Tribe, in 
cooperation with the Bureau of Reclamation, has concluded draft 
documents: ``Special Study, Crow Creek Sioux Municipal Rural and 
Industrial Water Project'' and the environmental assessment for the 
referenced project. The Tribe is finalizing the documents based on 
review and comment by the Bureau of Reclamation. The Tribe is also 
preparing a water conservation plan as a separate document. This set of 
planning documents is the prerequisite for an authorization for 
construction of the project. Draft bills will be present to the South 
Dakota delegation by the Tribe for consideration of a project 
authorization in the second session of this Congress.
    The request for funds in fiscal year 2003 is primarily for design 
of the urgently needed system between Fort Thompson and Stephan on the 
Crow Creek Indian Reservation. For Thompson is on the Missouri River 
near Big Bend Dam and has an intake and water treatment plant capable 
of serving the entire Crow Creek Indian Reservation with high-quality 
water. Stephan is a community 30 miles north of Fort Thompson and the 
home of a regional Indian high school within inadequate and extremely 
poor water quality. The pipeline system between Fort Thompson and 
Stephan will be designed to serve the rural households that are part of 
the planning for the comprehensive system on the Reservation. Moreover, 
the pipeline system will be designed with sufficient capacity to 
continue the project in future years to the West to serve the Big Bend 
community. This is not a new project concept but one that has been in 
development for more than 7 years with the support of the Bureau of 
Reclamation and periodic line-item appropriations by Congress. The 
request for this year will finalize the planning phase of the project 
and permit the Tribe to advance to the construction phase given an 
authority through enabling legislation.
                           exigent conditions
    There is an immediate need to construct facilities to distribute 
Missouri River water and improve water quality throughout the Crow 
Creek Indian Reservation. This action will reduce health risks to the 
membership of the Crow Creek Sioux Tribe and other residents of the 
Reservation. With the exception of the community of Fort Thompson, 
water supplies and water quality are deplorable throughout the 
Reservation. There is an immediate need to extend pipelines from Fort 
Thompson to the community and day school at Stephan where water quality 
is extremely poor, and existing wells are limited in capacity.
    Inspired by efforts of the Crow Creek Sioux Tribe, including the 
planning for the Reservation municipal, rural and industrial water 
system, the water treatment facilities at Fort Thompson have been 
improved with microfilters that produce a high quality water for 
residents of the community. The new water treatment facilities are 
incorporated as a part of the Reservation-wide project and, with 
construction of necessary pipelines, will permit delivery of high-
quality water north to Stephan.
    The need for the Reservation-wide project is underscored by the 
recent population releases from the 2000 census. Our planning had 
projected population increases on the Reservation from 1990 to 2000 at 
a rate of 14.3 percent. The actual rate of growth experienced in the 
last decade was 26.7 percent, significantly greater than the seemingly 
liberal projection made from the 1990 census.
    The subcommittee is respectfully requested to carefully consider 
our needs and provide the necessary funding to complete the planning 
stage of our project.
     project construction costs and recommended project alternative
    Costs of alternatives, including construction contracts and non-
contract costs, range from $15,403,000 (Alternatives b, d and e) to 
$17,853,000 (Alternative a). After accounting for funding already 
authorized by Congress for the Mid-Dakota project that could be 
transferred to the reservation project by amended legislation 
(Alternatives a and b) or used within the reservation in general 
conformity to plans by Mid-Dakota, additional funding authorization 
from Congress ranging from $10,634,000 (Alternatives b, d and e) to 
$12,946,000 (Alternative a) is required.
    Based on the least cost scenario and self-determination, the Crow 
Creek Sioux Tribe's preferred project alternative is Alternative a 
($12,946,000 in new funding authority; see description below): source 
of water on Lake Sharpe near Fort Thompson constructed, operated, 
maintained and replaced by the Crow Creek Sioux Tribe. Environmental 
factors, such as cultural and historic resources, and identifiable 
impacts on physical and biological resources are not significantly 
different between alternatives and had least influence on the 
recommended alternative.
    Five alternatives for developing the project were:
    a. A project constructed, operated, maintained and replaced by the 
Crow Creek Sioux Tribe and meeting all needs through year 2030 within 
the Crow Creek Indian Reservation. Source of water would be the 
Missouri River with modifications to the existing intake and water 
treatment plant at Fort Thompson.
    b. A project constructed, operated, maintained and replaced by the 
Crow Creek Sioux Tribe and meeting all needs through year 2030 within 
the Crow Creek Indian Reservation. Source water would be the Missouri 
River from the intake and water treatment plant constructed by Mid-
Dakota on Lake Oahe. The reservation system would be connected to the 
Mid-Dakota system along the northern and eastern borders of the 
reservation. Mid-Dakota would sell water to the Tribe as a bulk user.
    c. A project constructed, operated, maintained and replaced by the 
Crow Creek Sioux Tribe to service the Fort Thompson and Crow Creek 
community areas, and rural areas in between, from intake and water 
treatment plant at Fort Thompson. The balance of the project would be 
constructed, operated and maintained by Mid-Dakota with water supply 
from the Mid-Dakota intake and water treatment plant.
    d. A project constructed, operated, maintained and replaced 
exclusively by Mid-Dakota to service the entire reservation with water 
supply from the Mid-Dakota intake and water treatment plant.
    e. A project constructed by Mid-Dakota throughout the reservation 
and operated, maintained and replaced by the Crow Creek Sioux Tribe 
with water supply from the Mid-Dakota intake and water treatment plant.
       future operation, maintenance and replacement (omr) costs
    Future operation, maintenance and replacement costs, including 
staff, equipment, electricity, chemicals and all other materials 
necessary for repair and replacement, have an estimated range in cost 
from $597,195 (Alternative a) to $826,185 (Alternatives b, d and e).
                       present value of net costs
    Net costs were estimated as the present value of the costs of 
construction and OMR less the off-setting value of construction and OMR 
earnings by members of the Crow Creek Sioux Tribe, an under-employed 
labor force. Present value of net costs ranges from $15,348,180 
(Alternative a) to $22,673,000 (Alternatives d and e).
                         construction schedule
    A construction schedule beginning in fiscal year 2003 and ending in 
fiscal year 2006 is proposed. Construction and non-contract employment 
would provide 131 full-time equivalent man years of employment. Annual 
levels of funding needs would range from $2,135,000 in fiscal year 2003 
to $6,736,000 in fiscal year 2005.
                         environmental factors
    Pipelines proposed for the project range from 1.5 to 12 inches in 
diameter and have lengths ranging from 269.8 miles (Alternative c) to 
276.4 miles (Alternative a). From five to seven pump stations with 
horsepower ranging from 103.0 to 164.5 are representative of the 
alternatives. From six to eight reservoirs with up to 495,000 gallons 
of capacity are proposed. Future population growth will require 
approximately five acres of new wastewater lagoons by year 2030.
    Approximately 70 wetlands will be crossed by the project on the 
basis of the current layout, which will be modified in later designs to 
avoid wetlands. As many as 31 perennial stream crossings will be made. 
Nearly 43 miles of prime farmlands will be crossed by pipelines where 
most of the farmlands are defined as ``prime'' if irrigated in the 
future. Approximately 23 miles of unstable soils will be crossed. Up to 
134 miles of trust lands (slightly less than 50 percent of the total) 
will be crossed by pipelines.
    An Environmental Assessment and a class I cultural resource 
inventory and descriptive report have been prepared.
                               population
    The statistical summary below shows that population of the Crow 
Creek Indian Reservation in 1990 was 1,756 persons: 1,532 Indian 
persons and 224 non-Indian persons. Based on the rate of growth in the 
Indian and non-Indian population over the past several decades, year 
2030 population estimates were made resulting in a future population of 
3,417. These estimates recognize a relatively high growth rate within 
the Indian population and out- migration of non-Indians.
                         income and employment
    Median household income in 1990 on the Crow Creek Indian 
Reservation averaged $12,763 as contrasted with averages for the state 
of South Dakota of $22,503. The Indian labor force on the reservation 
represented 55.7 percent of the population and 29 percent were 
unemployed. Across the state of South Dakota, 74.3 percent of the 
population was in the labor force, and 4.1 percent were unemployed. 
Income levels on the reservation are extremely low, and unemployment is 
extremely high.
                             ability to pay
    Consistent with the income levels described above, annual residual 
household income on the reservation is $8,924 after deducting the costs 
of housing and electricity from median household income. Results from 
the American Housing Survey of 1993, showed that 80 percent of those 
surveyed were paying $13.59 per month for water and sewer for 
comparable levels of residual income. Sewer costs on the reservation 
are $13 per month leaving $0.59 per month for water bill payments if 
residents of the reservation are expected to pay as much as 80 percent 
of the population with comparable income in the American Housing 
Survey.
       existing public water systems and water quality of sources
    Existing public water systems in the communities of Fort Thompson, 
Stephan, Big Bend and Crow Creek serve a population of 1,520. The 
maximum flow capacity of the systems is 530 gallons per minute, and 
reservoirs with 241,000 gallons of capacity are available.
    Fort Thompson receives water from the Missouri River, which has 
good-quality water (479 milligrams per liter total dissolved solids as 
contrasted with the suggested level for secondary contaminants of 500 
milligrams per liter). Crow Creek community receives its water from 
wells with total dissolved solids of 706 milligrams per liter. Stephan 
and Big Bend also receive water from wells with total dissolve solids 
ranging from 1,500 to 1,928 milligrams per liter. Wells serving the 
households in the rural areas have water quality ranging from an 
average 702 milligrams per liter total dissolved solids to a maximum of 
4,440.
                          future water sources
    The best available source of future water for the reservation is 
the Missouri River with water quality reflective of Fort Thompson. The 
annual flow of the Missouri River at Pierre is 15,873,000 acre-feet 
annually as contrasted with the largest stream on the reservation (Crow 
Creek) with an average annual flow of 13,749 acre feet. The Missouri 
River is dependable with minimum monthly flow of 192,000 acre-feet.
    Periods of no flow are experienced on all reservation streams. 
Groundwater sources are generally (but not universally) adequate for 
single households in the rural areas and water quality ranges from good 
to poor. Nitrates may be increasing in groundwater sources, and there 
is evidence of copper exceeding maximum contaminant levels in rural 
water, but the source of copper is unknown and can be naturally 
occurring or introduced through the plumbing. (Note: the reporting is 
from the draft Special Study, which will change in detail, but not 
substance, in the final report to be concluded.)
                                 ______
                                 

 Prepared Statement of the Central Arizona Water Conservation District

    Mr. Chairman: The Central Arizona Water Conservation District 
(CAWCD) is pleased to offer the following testimony regarding the 
fiscal year 2003 Energy and Water Development Appropriations Bill.
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. The CAP is a multi-purpose water resource development 
project consisting of a series of canals, tunnels, dams, and pumping 
plants that lift water nearly 3,000 feet over a distance of 336 miles 
from Lake Havasu on the Colorado River to the Tucson area. The project 
was designed to deliver the remainder of Arizona's entitlement of 
Colorado River water into the central and southern portions of the 
state for municipal and industrial, agricultural, and Indian uses. The 
Bureau of Reclamation (Reclamation) initiated project construction in 
1973, and the first water was delivered into the Phoenix metropolitan 
area in 1985. In 2000, CAP delivered its full normal year entitlement 
of 1.5 million acre-feet for the first time, allowing Arizona to 
utilize its full Colorado River apportionment of 2.8 million acre-feet.
    CAWCD was created in 1971 for the specific purpose of contracting 
with the United States to repay the reimbursable construction costs of 
the CAP that are properly allocable to CAWCD, primarily non-Indian 
water supply and commercial power costs. In 1983, CAWCD was also given 
authority to operate and maintain completed project features. Its 
service area is comprised of Maricopa, Pima, and Pinal counties. CAWCD 
is a tax-levying public improvement district, a political subdivision, 
and a municipal corporation, and represents roughly 80 percent of the 
water users and taxpayers of the state of Arizona. CAWCD is governed by 
a 15-member Board of Directors elected from the three counties it 
serves. CAWCD's Board members are public officers who serve without 
pay.
    Project repayment is provided for through a 1988 Master Repayment 
Contract between CAWCD and the United States. Reclamation declared the 
CAP water supply system (Stage 1) substantially complete in 1993, and 
declared the regulatory storage stage, or Plan 6 (Stage 2), complete in 
1996. No other stages are currently under construction. Project 
repayment began in 1994 for Stage 1 and in 1997 for Stage 2. To date, 
CAWCD has repaid $628 million of CAP construction costs to the United 
States.
    In 2000, CAWCD and Reclamation successfully negotiated a settlement 
of the dispute regarding the amount of CAWCD's repayment obligation for 
CAP construction costs. This dispute has been the subject of ongoing 
litigation in United States District Court in Arizona since 1995. The 
settlement provides a 3-year timeframe, ending in May 2003, in which to 
complete several other activities that are necessary for the settlement 
to become final, including a final Indian water rights settlement for 
the Gila River Indian Community.
    In its fiscal year 2003 budget request, Reclamation seeks 
$34,783,000 for the CAP. Of this amount, $23,093,000 is requested for 
the construction of Indian distribution systems. CAWCD continues to 
support appropriations necessary to ensure timely completion of all CAP 
Indian distribution systems. The CAP non-Indian distribution systems 
were completed nearly 10 years ago; however, most of the Indian systems 
remain incomplete. CAWCD supports full funding for this important 
program.
    Of the total $34,783,000 requested, $6,700,000 is earmarked to fund 
activities associated with implementation of a 1994 biological opinion 
of the U.S. Fish and Wildlife Service (FWS) pertaining to delivery of 
CAP water to the Gila River Basin and for native fish activities on the 
Santa Cruz River. Historically, CAWCD has objected to Reclamation's 
continued spending in these areas. Both environmental groups and CAWCD 
challenged the 1994 biological opinion in court. However, given its 
settlement with the United States over CAP costs, and a final judgment 
in the litigation concerning the 1994 biological opinion, CAWCD 
supports Reclamation's budget request to allow it to complete 
Endangered Species Act compliance for CAP deliveries in the Gila River 
basin.
    In its fiscal year 2003 budget request, Reclamation is requesting 
$10,971,000 under the Colorado River Basin Salinity Control Project--
Title I. This program supports the operation of the Yuma Desalting 
Plant (YDP), maintaining the U.S. Bypass Drain and the Mexico Bypass 
Drain, and ensuring that Mexican Treaty salinity requirements are met. 
Currently, Reclamation is not operating the YDP. Instead, Reclamation 
is allowing all Wellton-Mohawk drainage water (about 100,000 acre-feet 
per year) to bypass the YDP and flow to the Santa Clara Slough in 
Mexico. These flows are in excess of Mexican Treaty requirements and 
represent a significant depletion of the Colorado River water currently 
in storage. Continuing this practice will eventually reduce the amount 
of water available to the Central Arizona Project, the lowest priority 
water user in the Colorado River basin, and increase the risk of future 
shortages. The Colorado River is now in its third consecutive year of 
below normal runoff, and water levels in Lake Powell and Lake Mead are 
projected to be at their lowest levels in 30 years. At the same time, 
under interim surplus guidelines adopted for the benefit of California, 
the use of Colorado River water by the Lower Basin States exceeds their 
7.5 million acre-foot entitlement. Reclamation's operation of the YDP 
would conserve an additional 100,000 acre-feet per year of Colorado 
River water for use by the Basin States. This amount is roughly equal 
to the City of Phoenix's full annual entitlement to CAP water.
    The Senate Report accompanying the fiscal year 2000 Energy and 
Water Development Appropriations bill directed the Department of the 
Interior to provide a report to the Appropriations Committee on 
alternatives to meeting the Mexican Treaty obligation without operating 
the YDP. We understand that this report will be completed in the next 
few months and will identify alternatives that involve water supplies 
that would otherwise be available for use in the lower Colorado River 
basin. In our view, such options are not legitimate alternatives to 
operating the YDP because they reduce the amount of water available to 
the Basin States.
    The YDP has been available for use since 1992. The House of 
Representatives Report accompanying the fiscal year 1995 Energy and 
Water Development Appropriations bill directed Reclamation to maintain 
the YDP so as to be capable of operating at one-third capacity with a 
1-year notice of funding. Reclamation has requested $9,739,000 (nearly 
90 percent of its entire Title 1 salinity control budget) to maintain 
the YDP in a non-operational status, which provides no present benefit 
to the Basin States. By comparison, Reclamation states that it could 
operate the YDP at full capacity--thereby preserving 100,000 acre-feet 
of water each year for use within the United States--at a cost of only 
$22 million. We believe that operating the YPD is the only viable way 
to meet the water quantity and quality requirements of the Mexican 
Treaty, while at the same time preserving Colorado River water for use 
in the United States. Therefore, CAWCD requests that Congress direct 
Reclamation to initiate operation of the YDP in 2003 at one-third 
capacity or greater. In addition, CAWCD requests that $8 million be 
added to Reclamation's budget under the Colorado River Basin Salinity 
Control Project--Title I starting in fiscal year 2003 for this purpose.
    In its fiscal year 2003 budget request, Reclamation also seeks 
$12,421,00 for its Lower Colorado River Operations Program. This 
program is necessary for Reclamation to continue its activities as the 
``water master'' on the lower Colorado River. In addition, this program 
provides Reclamation's share of funding to complete the lower Colorado 
River Multi-Species Conservation Program (MSCP). Of the $12,421,000 
sought, $3,257,000 is for administration of the Colorado River, 
$2,271,000 is for water contract administration and decree accounting, 
and $6,893,000 is for fish and wildlife management and development. The 
fish and wildlife management and development program includes 
$4,357,000 for the MSCP.
    CAWCD supports Reclamation's budget request for the Lower Colorado 
River Operations Program. The increased funding level is necessary to 
support the MSCP effort as well as environmental measures necessary to 
fully implement the interim surplus criteria for the lower Colorado 
River. The interim surplus criteria allow the Secretary of the Interior 
to declare limited Colorado River surpluses for the next 15 years to 
assist California in gradually reducing its use of Colorado River to 
its annual apportionment of 4.4 million acre-feet. These are both 
critical programs upon which lower Colorado River water and power users 
depend.
    The MSCP is a cost-shared program among Federal and non-federal 
interests to develop a long-term plan to conserve endangered species 
and their habitat along the lower Colorado River from Lake Mead to 
Mexico. CAWCD is one of the cost-sharing partners. Development of this 
program will conserve hundreds of threatened and endangered species 
and, at the same time, allow current water and power operation to 
continue.
    Finally, CAWCD is concerned about the increase in cost of security 
at Federal dams and hydropower plants, specifically Hoover Dam and 
Powerplant. CAWCD relies upon Hoover power as one of its power 
resources for pumping water. The Bureau of Reclamation received $30 
million in the fiscal year 2002 Defense budget to cover increased costs 
to protect Reclamation dams and other facilities in the aftermath of 
the September 11, 2001 attacks on the United States. However, 
Reclamation estimates it will run a deficit of $9.5 million at Hoover 
Dam alone this fiscal year. The fiscal year 2003 budget request 
includes $28 million. Of that amount, approximately $4 million would be 
allocated to the Colorado River Storage Project (CRSP) and 
approximately $3 million would be allocated to the Hoover, Parker and 
Davis facilities. The Hoover Dam shortfall for fiscal year 2003 could 
total nearly $6 million.
    Legislative history from 1941 and 1942 indicates that the Congress 
treated increased security costs before and after Pearl Harbor as non-
reimbursable because of the obvious national security interest at 
stake. We believe that the increased costs of ensuring security of 
Reclamation dams and other facilities in the aftermath of the events of 
September 11, 2001, should be treated as non-reimbursable and payment 
of such costs should be funded through Federal appropriations. 
Additional relief for fiscal year 2002 should be considered as well as 
increased amounts for fiscal year 2003.
    CAWCD welcomes this opportunity to share its views with the 
Committee, and would be pleased to respond to any questions or 
observations occasioned by this written testimony.
                                 ______
                                 

              Prepared Statement of the City of Flagstaff

    Chairman Reid, Ranking Member Domenici, and distinguished members 
of the Subcommittee, thank you for allowing me to testify on behalf of 
the City of Flagstaff in support of $1.2 million in the Army Corps of 
Engineers budget for the Rio de Flag flood control project in fiscal 
year 2003. I believe this project is critically important to the City, 
to northern Arizona, and, ultimately, to the nation.
    As you may know, Mr. Chairman, with this subcommittee's help last 
year, Rio de Flag received $750,000. We are extremely grateful that the 
Subcommittee added $600,000 in the conference report for the project, 
and we would appreciate your continued support for this project in 
fiscal year 2003.
    Like many other projects under the Army Corps's jurisdiction, Rio 
de Flag received insufficient funding of $150,000 in the president's 
budget for fiscal year 2003, although the Corps has expressed 
capability of $1.2 million; $880,000 to complete the design, and 
$320,000 to commence construction. We are hopeful that the Subcommittee 
will fund the Rio de Flag project at $1.2 million when drafting its 
bill in order to keep the project on an optimal schedule.
    Flooding along the Rio de Flag dates back as far as 1888. The Army 
Corps has identified a Federal interest in solving this long-standing 
flooding problem through the Rio de Flag, Flagstaff, Arizona 
Feasibility Report and Environmental Impact Study (EIS). The 
recommended plan contained in this feasibility report was developed 
based on the following opportunities: (1) flood control and flood 
damage reduction; (2) environmental mitigation and enhancement; (3) 
water resource management; (4) public recreation; and (5) redevelopment 
opportunities. This plan will result in benefits to not only the local 
community, but to the region and the nation.
    The feasibility study by the Corps of Engineers has revealed that a 
500-year flood could cause serious economic hardship to the City. In 
fact, a devastating 500-year flood could damage or destroy 
approximately 1,500 structures valued at more than $395 million.
    Similarly, a 100-year flood would cause an estimated $95 million in 
damages. In the event of a catastrophic flood, over half of Flagstaff's 
population of 57,000 would be directly impacted or affected.
    In addition, a wide range of residential, commercial, downtown 
business and tourism, and industrial properties are at risk. Damages 
could also occur to numerous historic structures and historic Route 66. 
The Burlington Northern & Santa Fe Railway (BNSF), one of the primary 
east-west corridors for rail freight, could be destroyed, as well as 
U.S. Highway 40, one of the country's most important east-west highway 
links. Additionally, a significant portion of Northern Arizona 
University (NAU) could incur catastrophic physical damages, 
disruptions, and closings. Public infrastructure (e.g., streets, 
bridges, water, and sewer facilities), and franchised utilities (e.g., 
power and telecommunications) could be affected or destroyed. 
Transportation disruptions could make large areas of the City 
inaccessible for days.
    In short, a large flood could cripple Flagstaff for years and even 
decades. That is why the City believes it is so important to ensure 
that this project remains on schedule and that the Corps is able to 
maximize its capability of $1.2 million in fiscal year 2003 for Rio de 
Flag.
    In the City's discussions with the Corps, both the central office 
in Washington and its Los Angeles District Office also believe that the 
Rio de Flag project is of the utmost importance and both offices 
believe the project should be placed high on the Subcommittee's 
priority list. We are hopeful that the Subcommittee will heed this 
advice and also place the project high on its priority list and fully 
fund the project at $1.2 million for fiscal year 2003.
    As you may know, project construction and implementation of Rio de 
Flag was authorized in the Water Resources Development Act (WRDA) of 
2000. The total project is estimated to cost $24,072,000 (October 1999 
price levels). The non-Federal share is currently $8,496,000 and the 
Federal share is currently $15,576,000. Final project costs must be 
adjusted based on Value Engineering and final design features. It is 
important to note that the City of Flagstaff has already committed more 
than $10 million to this project, which is well in excess of its cost 
share agreement and shows the City's commitment to completing this 
important project. Through this investment in the project, the City is 
prepared to enter into the Project Cooperation Agreement (PCA) with the 
Department of the Army.
    The City of Flagstaff, as the non-Federal sponsor, is responsible 
for all costs related to required Lands, Easements, Rights-of-Way, 
Relocations, and Disposals (LERRD's). The City has already secured the 
necessary property rights to begin construction in 2003. Implementation 
of the City's Downtown and Southside Redevelopment Initiatives 
($100,000,000 in private funds) are entirely dependent on the success 
of the Rio de Flag project. The Rio de Flag project will also provide a 
critical missing bike/pedestrian connection under Route 66 and the BNSF 
Railroad to replace the existing hazardous at grade crossings.
    Both design and construction are divided into two phases. Phase I 
is currently scheduled to commence construction in July of 2003. Phase 
II of the project is scheduled to commence in April of 2004.
    Mr. Chairman, the Rio de Flag project is exactly the kind of 
project that was envisioned when the Corps was created because it will 
avert catastrophic floods, it will save lives and property, and it will 
promote economic growth. In short, this project is a win-win for the 
Federal Government, the City, and the surrounding communities.
    Furthermore, the amount of money invested in this project by the 
Federal Government approximately $15 million will be saved 
exponentially in costs to the Federal Government in the case of a large 
and catastrophic flood, which could be more than $395 million. It will 
also promote economic growth and redevelopment along areas that are 
currently uninhabitable because of the flood potential.
    In conclusion, the Rio de Flag project should be considered a high 
priority for this Subcommittee, and I encourage you to support full 
funding of $1.2 million for this project in the fiscal year 2003 Energy 
and Water Development Appropriations bill. Thank you in advance for 
your consideration.
                                 ______
                                 

           Prepared Statement of the State of South Carolina

    Mr. Chairman and distinguished Members of the Committee, on behalf 
of the citizens of the Palmetto State, thank you for this opportunity 
to submit for the record comments regarding the fiscal year 2003 Water 
and Energy Appropriations Bill.
    I can not emphasize too strongly the social and economic benefits 
of the capital investments of the Federal Government in a wide variety 
of projects throughout South Carolina. Whether making our ports more 
accessible for global trade or enhancing the interior waterways and 
beaches of South Carolina, your interest and commitment to my state has 
had a long lasting and positive impact. It is my hope that proven 
cooperation and collaboration between state and Federal agencies 
regarding ongoing and future projects will continue to enhance the 
quality of life for all South Carolinians. Thank you for your 
committee's interest and investments in the Palmetto State.
    My comments reflect input from my staff and also from principal 
state agencies that work most closely with the USACE Charleston and 
Savannah District Offices. These agencies include the State Ports 
Authority, the S.C. Department of Natural Resources, the S.C. 
Department of Health and Environmental Control, S.C. Energy Office and 
the S.C. Department of Commerce. Attached to my testimony, as 
``Supporting Documents'' are all letters received from state agency 
directors as well as individual descriptions of the on-going and 
planned, USACE projects throughout South Carolina (Attachments to 
Committee Staff). All of the projects listed and described in the 
``Supporting Documents'' are critical for South Carolina. All of the 
projects recommended for full financing in the President's budget have 
my full support. I also request, however, that your committee finance 
as many additional projects not recommended in the President's budget 
as possible. My comments below are not intended to emphasize one 
project more than another but to highlight comments made by state 
agency directors regarding the importance of several of these projects 
to the state. Please review the letters from S.C. agency directors for 
their input on projects of importance to them.
    South Carolina has made great strides in expanding economic 
opportunities for its citizens both in terms of expansion of the 
capital base and creation of jobs. We are, however, a small state and 
our relative prosperity is reliant to a significant degree upon 
financing such as that available through your Appropriations Committee. 
I want to emphasize to you and your colleagues the importance I place 
on the value of the partnership between the State and Federal 
Governments in making life more fulfilling for all of my fellow 
citizens.
    Again, thank you for this opportunity for input into the 
challenging decision making process you face in apportioning limited 
funds among many needs across the United Stated. I do want to re-
emphasize that all of the projects listed in the ``Supporting 
Documents'' are of importance to South Carolina.
                         general investigations
    A total of $625,000 is needed for fiscal year 2003 to keep the 
Atlantic Intracoastal Waterway Feasibility Analysis proceeding in a 
phased approach. This study will investigate existing and future 
commercial shallow draft navigation needs and will review ways to 
improve safety and navigation efficiency and reduce operations and 
maintenance costs. Additional financing of $150,000 is needed for this 
critical analysis. I request that your committee add this amount so the 
study can proceed.
    The Port of Charleston is rapidly expanding and continues to 
fulfill its role as a major port for the eastern United States. The 
S.C. Ports Authority is believes that to keep the port fully 
competitive in global movement of goods it may be necessary to deepen 
the ship channel more than its current 45 feet. The Authority requests 
an additional $320,000 for the Charleston Harbor (Reconnaissance 
Deepening Analysis) to be undertaken. I concur that it is necessary 
before any further investment is made to deepen the channel and enlarge 
the Wando River Turning Basin.
    Also of concern to the State is the Savannah River Basin 
Comprehensive Study. This study being conducted in cooperation with the 
State of Georgia examines reallocation of water storage among Corps of 
Engineer Projects and to develop a better management structure to 
address basin water resource needs. This project has considerable 
economic and social benefits to South Carolina as it addresses flood 
control, water supply, power generation and wildlife habitat 
restoration. An additional $280,000 is needed for this general 
investigation.
                              construction
    The President's recommended funding level for the Charleston Harbor 
(Deepening & Widening) of $4,539,000 is appreciated as this national 
economic asset can continue to function competitively for world 
markets. However, given the growing concerns of terrorism and military 
readiness to meet this threat, an additional $2.841 million is 
requested. The military's transportation and logistics assets in 
Charleston are key elements in the war on terrorism. The need to 
accommodate military traffic is essential to our ability in 
successfully overcoming this threat. Continued funding for this project 
has considerable benefits not only for the state but also for the 
nation's overall defense.
    The Aquatic Plant Control project is strongly recommended for 
funding in the amount of $250,000. This program has been operating for 
a number of years and provides important economic and environmental 
benefits. Noxious plants aquatic plants severely threaten the integrity 
of the State's waterways and has a direct impact on public drinking 
water, electric power generation, navigation, flood control and 
industrial water usage. I strongly support continued funding for this 
program.
    The President's recommended budget indicates no funding for the 
Richard B. Russell Dam and Lake, Wildlife Mitigation Lands project. We 
support the inclusion of additional funds for this effort in the amount 
of $4,850,000. These lands are an important wildlife resource area to 
the State. The provision for the transfer of these lands and funds from 
the U.S. Army Corps of Engineers to the State is a significant element 
of the State's strategy to protect critical areas and promote 
conservation of fragile lands. Similarly, South Carolina also supports 
Federal financial assistance for the Continued Authorities Program at 
current levels.
    The J. Strom Thurmond Dam & Lake Construction shows potential for 
increased efficiency and a reduction in operation and maintenance 
costs. The President has recommended $3.5 million in his budget but a 
further $4.5 million is needed. Moreover, the project will increase 
dissolved oxygen in tail water and improve water quality in the 
Savannah River downstream to Augusta, Georgia and beyond. The need for 
heightened hydroelectric output at this station as well as the projects 
at the Hartwell Dam and Lake are critical in this time of high 
electricity demand.
                     operation & maintenance (o&m)
    The Operations and Maintenance Program as it relates to Harbor 
Maintenance at Charleston, Georgetown, and Port Royal is critical for 
the continued full functioning of these facilities. Charleston Harbor 
needs an additional $2.444 million for dredging the lower end of the 
channel and harbor entrance. A further $1.540 million is needed for 
dredging of the Lower Winyah Bay at Georgetown. At Port Royal a further 
$2.222 million is required for dredging of the length of the channel. 
These additional funds are necessary for optimal operations of 
important S.C. ports.
    The Cooper River, Charleston Harbor project is also an important 
element to the State's water transportation and natural resource needs. 
While the President's budget recommends partial funding, I support an 
additional $4.10 million in funding for the operational needs of the 
harbor and related powerhouse structures.
    Dredging of the Atlantic Intracoastal Waterway from Charleston to 
Port Royal, Dike Maintenance, and Bank Stabilization will require a 
further $3.334 million for this important project to be completed. 
Funding in the President's budget is for only condition surveys and 
vector control. This project should be fully funded for the AIWW to 
operate at peak design capacity.
    Operation and Maintenance of Facilities at Dams along the Savannah 
River North of Augusta, Georgia. Specifically, at the Hartwell Dam and 
Lake, an additional $2.114 million is needed to repair and modernize 
the powerhouse and equipment. Moreover, full Federal financing relating 
to all three facilities along the Savannah River ensures their 
continuing vital participation in the economic life of the two affected 
states, guarantee that water quality is at highest levels, and offer 
improved recreational opportunities for the citizens of S.C. and 
Georgia.
    Mr. Chairman, in closing, we in South Carolina are mindful of the 
impact that the economic downturn is having on the ability of the 
Federal Government to continue sizable budget surpluses. Moreover, we 
are aware that resources are not unlimited and priorities must be 
established. However, South Carolina contributes uniquely to the 
national welfare. Healthy military installations, coastal geography, 
interstate trade routes and key ports are all contributors to a growing 
economy and individual prosperity within South Carolina and the 
Southeast. We have made giant strides forward in South Carolina in part 
because of your investment of Federal dollars in a wide variety of 
projects. I look forward to continuing cooperation with you and your 
committee.
    Please let me know if you need further information and, again, 
thank you for this opportunity to give input into your decision making 
process.
                                 ______
                                 

          Prepared Statement of the County of Volusia, Florida

    On behalf of our citizens and fishermen, Volusia County, Florida 
requests that the Energy & Water Development Subcommittee appropriate:
  --$1,000,000 in fiscal year 2003 to the U.S. Army Corps of Engineers 
        (COE) Construction account to fund an 1000 foot oceanward 
        extension of the South Jetty of the Ponce DeLeon Inlet. The 
        total authorized cost of this project is $5,454,000; the 
        Federal share is $2,988,000 and the local share is $2,466,000. 
        This requested $1 million of the $2.988 million Federal share 
        of the construction funds for the South Jetty oceanward 
        extension is essential to protect the Inlet, along with the 
        existing North Jetty and its landward extension funded in 
        fiscal years 1999, 2000, and 2002.
  --$100,000 in fiscal year 2003 to the COE's General Investigations 
        account to fund the reconnaissance study authorized by a 
        resolution adopted by the Transportation and Infrastructure 
        Committee on February 16, 2000. The reconnaissance study would 
        address the critical erosion along the County's 49.5 miles of 
        ocean shoreline, which was heavily damaged during the 1999 
        hurricane season and continues to suffer from continuous storm-
        induced erosion.
    A more detailed case history and description of the situation and 
projects follow below.
    The Ponce DeLeon Inlet is located on the east coast of Florida, 
about 10 miles south of the City of Daytona Beach in Volusia County. 
The Inlet is a natural harbor connecting the Atlantic Ocean with the 
Halifax River and the Indian River North. The Ponce DeLeon Inlet 
provides the sole ocean access to all of Volusia County. Fishing 
parties and shrimp and commercial fisherman bound for New Smyrna Beach 
or Daytona Beach use the Inlet, as well as others entering for 
anchorage. Nearby fisheries enhanced by the County's artificial reef 
program attract both commercial and sport fisherman. Head boat 
operators also provide trips to view marine life and space shuttle 
launches from Cape Canaveral. In addition, there is a U.S. Coast Guard 
Lifeboat Station on the east shore of the Indian River less than a mile 
south of the Inlet.
    Unfortunately, the Inlet is highly unstable and, despite numerous 
navigation projects, continues to threaten safe passage for the charter 
boat operators and commercial fisherman who rely on the access it 
provides for their livelihood. Recreational boaters and Coast Guard 
operators are also at risk passing through this unstable inlet. The 
shoaling of the channels in the Inlet so restricts dependable 
navigation that the Coast Guard no longer marks the north channel in 
order to discourage its use. The Coast Guard continues to move the 
south and entrance channel markers and provides warnings that local 
knowledge and extreme caution must be used in navigating the inlet. 
More seriously, the Coast Guard search and rescue data for fiscal years 
1981-1995 show that 20 deaths have resulted from vessels capsizing in 
the Inlet, the direct result of the Inlet's instability. 147 vessels 
capsized and 496 vessels ran aground in the Inlet during the same 
period.
    The Federal interest in navigation through the Ponce DeLeon Inlet 
dates back to 1884 and continues to the present. The existing 
navigation project was authorized by the Rivers and Harbors Act of 
1965. The construction authorized by that Act, including ocean jetties 
on the north and south sides of the Inlet, was completed in July 1972. 
It became evident soon after completion of the authorized project that 
the project did not bring stability to the Inlet. A strong northeaster 
in February 1973 created a breach between the western end of the North 
Jetty and the sand spit the Jetty was connected to inside the Inlet. 
The breach allowed schoaling to occur that was serious enough to close 
boat yards and require almost $2 million worth of repairs, including 
extending the western end of the North Jetty.
    Under the existing maintenance agreement entered into upon 
completion of the construction, the COE periodically performs 
maintenance on the Inlet. Maintenance projects have included several 
dredging efforts, adding stone sections to the south side of the north 
jetty, extending the westward end of the North Jetty for the second 
time, and closing the North Jetty weir. Prior to the North Jetty 
project discussed below, the COE's last maintenance was dredging, 
completed on the entrance channel in January 1990.
    In fiscal year 1998, the COE received a $3,500,000 appropriation 
for emergency maintenance on the North Jetty. Migration of the entrance 
channel undermined the North Jetty, seriously threatening its 
structural integrity. The fiscal year 1998 funds were used to construct 
a granite rock scour apron for the 500 to 600 feet of where the Jetty 
was undermined.
    In fiscal year 1999, the COE received $4,034,000 from the 
Operations and Maintenance account to extend the North Jetty of the 
Inlet landward by 800 feet. This maintenance project is underway and 
intended to be completed as soon as possible to prevent the erosion 
that will cause outflanking of the North Jetty. Continued outflanking 
of the west end of the North Jetty could create a new inlet for the 
Halifax and Indian Rivers resulting in major changes to the Ponce 
DeLeon Inlet. The resultant shoaling of both the north and south 
channels, as well as changes to the entrance channel, would make 
passage through the inlet extremely dangerous and unpredictable.
    In fiscal year 2000, the COE received $7,696,000 in their 
Operations and Maintenance account for use in the Ponce DeLeon Inlet. 
This appropriation provided funding to continue the North Jetty 
project, funding for surveys designed to determine the scope of a new 
maintenance contract for the Ponce De Leon Inlet, and funding for a 
dredging project to address a minor maintenance issue under the 
existing maintenance contract.
    In fiscal year 2001, the COE received $46,000 in their Operations 
and Maintenance account for standard maintenance of the Ponce DeLeon 
Inlet.
    For the next fiscal year, Volusia County requests that the COE 
receive $1 million of the $2.988 million Federal share of the 
construction funds for the South Jetty oceanward extension. The COE 
anticipates that the construction of the jetty extensions will help 
stabilize the Inlet and reduce future maintenance costs. In addition to 
creating a safer navigation environment, completion of the North and 
South Jetty will save future federal maintenance costs.
    The Ponce DeLeon Inlet presents a serious engineering challenge, 
the success of which is measured in terms of human life and vessel 
damage. The existing project has failed to stabilize the Inlet. 
Extending the North Jetty was the first step toward correcting the 
failure and meeting the challenge. Funding the beginning phase of the 
1,000 foot oceanward extension of the South Jetty in fiscal year 2003 
is the next critical step toward providing safe passage for the 
commercial and recreational boaters in Volusia County. State entities, 
including the Florida Inland Navigation District and the Florida Bureau 
of Beaches and Coastal Systems, agree and have committed to assisting 
the County in meeting the local cost share. In addition, providing 
these funds at this time is likely to prevent the need for a much more 
substantial maintenance project in the near future.
    In addition to the jetty projects to protect the Ponce DeLeon 
Inlet, the County also requests funding for the COE to complete in 
fiscal year 2003, a reconnaissance study to address the critical 
erosion along the County's 49.5 miles of ocean shoreline. In August 
1991, the COE completed a favorable reconnaissance report for the shore 
protection study authorized by the House Transportation and 
Infrastructure Committee in September 1988. The County declined to act 
as the non-federal sponsor for the feasibility study at that time. The 
COE modified the 1991 reconnaissance study in 1994. As a result of 
heavy damage to the County's shoreline sustained during the 1999 
hurricane season, the County recognizes the critical need to address 
the growing impact of the storm-induced erosion. The COE will need to 
modify the earlier studies. The COE advises the County that the shore 
protection reconnaissance study can be completed in fiscal year 2003 
for $100,000.
    Thank you for your consideration of this request.
                                 ______
                                 

          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2003 budget for the Army Corps of Engineers 
(COE). The Tribe asks that Congress provide $19,526,000 in the COE's 
construction budget for critical projects in the South Florida 
Ecosystem, as authorized in section 208 of the Water Resources 
Development Act (WRDA) of 1999. On January 7, 2000, the Tribe and the 
COE signed a Project Coordination Agreement for the Big Cypress 
Reservation's critical project. The Tribe's critical project includes a 
complex water conservation plan and a canal that transverses the 
Reservation. In signing this Agreement, the Tribe, as the local 
sponsor, committed to funding half of the cost of this approximately 
$50 million project. Design and planning efforts continue, and the 
first phase of construction is about to commence.
    The Tribe's critical project is a part of the Tribe's Everglades 
Restoration Initiative, which includes the design and construction of a 
comprehensive water conservation system. This project is designed to 
improve the water quality and natural hydropatterns in the Big Cypress 
Basin. This project will contribute to the overall success of both the 
Federal and the State Governments' multi-agency effort to preserve and 
restore the delicate ecosystem of the Florida Everglades. In 
recognition of this contribution, the Seminole Tribe's Restoration 
Initiative has been endorsed by the South Florida Ecosystem Restoration 
Task Force.
                     the seminole tribe of florida
    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Our traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, our Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, we learned how to use 
the natural system for support without harm to the environment that 
sustained us. For example, our native dwelling, the chickee, is made of 
cypress logs and palmetto fronds and protects its inhabitants from the 
sun and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, we looked to our 
Tribal elders for guidance. Our elders taught us to look to the land, 
for when the land was ill, the Tribe would soon be ill as well. When we 
looked at the land, we saw the Everglades in decline and recognized 
that we had to help mitigate the impacts of man on this natural system. 
At the same time, we acknowledged that this land must sustain our 
people, and thereby our culture. The clear message we heard from our 
elders and the land was that we must design a way of life to preserve 
the land and the Tribe. Tribal members must be able to work and sustain 
themselves. We need to protect the land and the animals, but we must 
also protect our Tribal farmers and ranchers.
    Recognizing the needs of our land and our people, the Tribe, along 
with our consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of Federal flood control construction 
and polluted urban and other agricultural runoff. The interrupted sheet 
flow and hydroperiod have stressed native species and encouraged the 
spread of exotic species. Nutrient-laden runoff has supported the rapid 
spread of cattails, which choke out the periphyton algae mat and 
sawgrass necessary for the success of the wet/dry cycle that supports 
the wildlife of the Everglades.
    The Seminole Tribe designed an Everglades Restoration project to 
allow the Tribe to sustain ourselves while reducing or eliminating 
impacts on the Everglades. The Seminole Tribe is committed to improving 
the water quality and flows on the Big Cypress Reservation. We have 
already committed significant resources to the design of this project 
and to our water quality data collection and monitoring system. We are 
willing to continue our efforts and to commit more resources, for our 
cultural survival is at stake.
             seminole tribe's big cypress critical project
    The Tribe has developed a water conservation plan that will enable 
us to meet new water quality standards essential to the cleanup of our 
part of the Everglades ecosystem and to plan for the storage and 
conveyance of our water rights. The Tribe's Everglades Restoration 
Initiative is designed to mitigate the degradation the ecosystem has 
suffered through decades of flood control projects and urban and 
agricultural use and ultimately to restore the nation's largest 
wetlands to a healthy state.
    The Seminole Tribe's critical project, a part of the water 
conservation plan, provides for the design and construction of flood 
control, storage, and treatment facilities on the western half of the 
Big Cypress reservation with other conveyance facilities on the eastern 
side. The project elements include canal and pump conveyance systems, 
including major canal bypass structures, irrigation storage cells, and 
water qualilty polishing areas. This project will enable the Tribe to 
meet proposed numeric target for low phosphorus concentrations that is 
being used for design purposes by State and Federal authorities, as 
well as to convey and store irrigation water and improve flood control. 
It will also provide an important public benefit: a new system to 
convey excess water from the western basins to the Big Cypress National 
Preserve, where water is vitally needed for rehydration and restoration 
of natural systems within the Preserve.
                               conclusion
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. Congress has 
acknowledged this need through the passage of the last three Water 
Resource Development Acts. This Committee has consistently shown its 
support through appropriating requested amounts over the last 5 fiscal 
years. By continuing to grant this appropriation request for critical 
project funding, the Federal Government will take another substantive 
step towards improving the quality of the surface water that flows over 
the Big Cypress Reservation and on into the delicate Everglades 
ecosystem. Such responsible action with regard to the Big Cypress 
Reservation, which is Federal land held in trust for the Tribe, will 
send a clear message that the Federal Government is committed to 
Everglades restoration and the Tribe's stewardship of its land.
    Completion of the critical project requires a substantial 
commitment from the Tribe, including the dedication of over 2,400 acres 
of land for water management improvements and meeting a 50/50 cost 
share. The Tribe has initiated the first phase of construction with the 
main conveyance canal. As the Tribe moves forward with its contribution 
to the restoration of the South Florida ecosystem, increasing Federal 
financial assistance will be needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
Government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 

         Prepared Statement of the National Mining Association

    The National Mining Association (NMA) membership includes companies 
engaged in the production of coal, metallic ores, nonmetallic minerals, 
and in manufacturing mining machinery and equipment. The transportation 
of coal and minerals to domestic and international markets utilizes our 
nation's inland waterways system, Great Lakes, coastal shipping lanes 
and harbors and shipping channels at deep draft inland and coastal 
ports.
    NMA believes that a strong transportation network comprised of our 
highways, rails, inland waterways and ports is critical to the economic 
growth, security and competitiveness of the United States. NMA supports 
appropriations needed for timely operation and maintenance activities 
as well as, investments in system improvements to meet current and 
projected demand for marine transportation services.
    According to the U.S. Army Corps of Engineers Waterborne Commerce 
Statistics of 1999, approximately 2.3 billion tons of commerce moved in 
the U.S. marine system (inland waterways, Great Lakes, coastal and 
deep-draft ports). Of that total, approximately 1.1 billion tons were 
domestic movements with coal comprising approximately 219 million tons 
or 20 percent of all commodities. Of the 219 million tons of coal, 
166.6 million tons were carried on the inland and intracoastal 
waterways, 20.5 million tons on the Great Lakes and the remainder moved 
in coastwise and intraport shipments. On the Ohio River system and its 
tributaries, coal movements totaled 151 million tons or 54 percent of 
all the traffic. Coal moved to power plants along the system and to 
power plants in 8 States outside of the basin. In addition, 58.5 
million tons of coal was exported to more than 40 countries in 1999.
    Iron ore, phosphate rock, and other minerals also utilize the 
inland waterways system. In 1999, slightly more than 58 million tons of 
iron ore moved on the system. Of that 54.2 million tons moved on the 
Great Lakes and 3.5 million tons on the inland system. More than 5.4 
million tons of phosphate rock moved on the waterways system through 
coastwise movements.
    NMA is very concerned that the proposed fiscal year 2003 Budget for 
the Corps of Engineers does not provide sufficient funding to keep 
critical navigation projects on schedule, allow for the start of new 
projects, nor address the maintenance backlog for existing navigation 
projects. The unique partnership for sharing construction and 
rehabilitation costs between the public and private sectors has built a 
marine transportation system that is world class and considered by many 
to be the best system in the world. As the system is asked to do more, 
it is critical that all parties are committed and a critical 
demonstration of the commitment is through appropriations levels that 
address the current challenges facing the system and plan for future 
demands.
General Recommendations for Fiscal Year 2003 Appropriations for the 
        Army Corps of Engineers Civil Works Program
    NMA reviewed the proposed fiscal year 2003 Appropriations for the 
Army Corps of Engineers and the Civil Works Program and has the 
following general recommendations.
    A minimum of $5 billion should be appropriated in fiscal year 2003 
for the Civil Works Program. This level balances the need to address 
the significant $44 billion project backlog and the capability of the 
Corps with our nation's need at this time for homeland security and 
national defense.
    A level of $150 million should be withdrawn from the Inland 
Waterways Trust Fund to be matched by an equal appropriations from the 
general fund for the construction and major rehabilitation of locks and 
dams on the inland waterway system. By maintaining this level of 
appropriations for the next 10 years, the surplus in the Trust Fund can 
be reduced to more appropriate levels. Timely completion of these 
required navigation projects are critical to a viable and reliable 
national waterways system.
    The fiscal year 2003 appropriation for the Corps' General 
Investigations account should be increased to $154.4 million, the same 
level as appropriated in fiscal year 2002. The $51 million proposed 
reduction will not permit the Corps to undertake any new studies. These 
studies are critical to ascertaining and developing future projects 
that will be needed to maintain and improve our system.
    The fiscal year 2003 proposed funding in the amount of $1.979 
billion for the Corps' Operations and Maintenance functions should be 
increased. The Corps' testimony on February 27 before the Subcommittee 
on Energy and Water Development stated that the critical maintenance 
backlog is estimated to be $884 million. This is $182 million, or a 26 
percent increase, above the fiscal year 2002 critical maintenance 
backlog of $702 million. The critical maintenance backlog for 
navigation is $587 million. While the fiscal year 2003 budget request 
is $40 million more than the amount appropriated for fiscal year 2002, 
sufficient funds should be appropriated to reduce the backlog to the 
fiscal year 2002 level. By not properly maintaining the system, one in 
which approximately 45 percent of the locks and dams are more than 50 
years old, the need for major rehabilitation work and replacement 
projects is accelerated and possibly at higher costs than were 
necessary. Additional funds should be appropriated in the coming years 
to reduce the large maintenance backlog.
Inland Waterways System B Surplus in the Inland Waterways Trust Fund
    For many years, the funding level for the Corps' Civil Works budget 
has been inadequate and led to additional costs and delays for projects 
underway. One-half of the of lock and dam construction and major 
rehabilitation funds comes from the Inland Waterways Trust Fund (IWTF), 
which receives 20 cents from a 24.3 cents per gallon tax on the fuel 
used for inland waterways barge operations. The General Treasury 
receives the remaining 4.3 cents. Commercial users are the only 
beneficiaries of the inland waterways system who pay a fuel tax. 
Beneficiaries who receive flood control, water supply, recreational and 
other benefits do not contribute to the construction or maintenance of 
the system providing these benefits.
    For the last 10 years, the Federal Government has not allocated 
sufficient funds to these projects to keep up with the revenues flowing 
into the IWTF. The result as of September 30, 2001 is a Fund surplus of 
$411 million according to The Bureau of Public Debt, U.S. Department of 
the Treasury. The constraint on the construction and rehabilitation 
projects has not been the revenue collected from the fuel tax but the 
limited level of funding appropriated from the IWTF. It is time to 
address the backlog and to appropriate funds to finish the projects 
underway and for the country to begin to receive the economic, safety 
and security benefits from a modernized system.
    The Inland Waterways Users Board in its 15th Annual Report to the 
Secretary of the Army and the United States Congress (August 2001) 
stated its concerns. ``The Board firmly believes the future balanced 
budgets and our future economic competitiveness will be built upon a 
solid national infrastructure, of which the inland waterways are a 
significant, key component. Thus, the Board strongly endorses an 
appropriations and allocation process that will allow optimum use of 
the Inland Waterways Trust Fund and allow construction projects to 
proceed at full capability funding levels.''
    The fiscal year 2003 budget proposes that the IWTF contribute $85 
million to the Construction General program funds. While this is an 
increase compared to the comparable fiscal year 2002 budget request of 
$61 million, it is still far below the level that is necessary to 
reduce the surplus in the IWFT, which would address the delayed 
completion dates and the resulting delays in transportation savings. 
Beginning in fiscal year 1993 and continuing through fiscal year 2001, 
the balance in the IWTR grew from approximately $187 million to $411 
million. NMA hopes the proposed increase in funds allocated from the 
IWTF in the fiscal year 2003 indicates that the Administration 
understands the importance of these projects and will pursue a policy 
of reducing the surplus in the Fund.
Budget Proposals Supported by NMA
    NMA strongly supports the Administration's fiscal year 2003 budget 
proposal to increase funding for two priority projects: the 
construction of the new Olmsted Locks and Dam on the Ohio River 
(between Illinois and Kentucky) and the major rehabilitation of the 
London Locks and Dam on the Kanawha River in West Virginia. The 
proposed fiscal year 2003 funding level of $77 million for the Olmsted 
project and $11.9 million for the London project illustrate the 
approach that should be taken for other priority projects as well. Both 
of the proposed funding levels put the projects on efficient funding 
schedules. In the case of the Olmsted project, maintaining this level 
will ensure that the project is operational by 2010 rather than further 
aggravating a 4-year delay in the project.
    Attached to the testimony is a list of projects that NMA supports 
for additional appropriations to permit efficient funding schedules. By 
appropriating funds at the level to permit efficient funding schedules, 
the backlogs will end and the nation will be able to realize the 
economic benefits that were projected when these projects were 
authorized.
    Regarding studies, NMA also supports the Administration's proposal 
to fund the Ohio Mainstem Study, a navigation system analysis, at a $3 
million level. The feasibility phase will address the economic, social 
and environmental impacts of large-scale investments and small-scale 
improvements for additional lock capacity on the system. Navigation 
facilities under review are Newburgh and Cannelton Locks and Dams on 
the lower Ohio and Elmsworth, Dashields and Montgomery Locks and Dams 
on the Upper Ohio River.
Ports
    Our nation's ports and harbors provide the critical link in our 
marine transportation system that provide U.S. shippers, both importers 
and exporters, with options that maximize their ability to compete and 
remain competitive in a global marketplace. U.S. deep-draft commercial 
ports handle over 95 percent of the volume and 75 percent of the value 
of cargo moving in and out of the United States. For the U.S. mining 
industry, coal, iron ore, phosphate, and other minerals move to export 
out of U.S. ports. In addition, minerals critical to the United States 
are imported through our ports. Unfortunately, many of these minerals 
could be produced in the United States but current policies are making 
it increasingly difficult for U.S. mineral companies to remain in the 
country. By providing the United States with much needed minerals from 
domestic sources, our reliance on imports would be reduced and equally 
important new jobs would be created contributing to the country's 
economic strength.
    The proposed fiscal year 2003 budget proposes only $267 million, 
which represents half of the $534 million necessary to fund ongoing and 
new projects for deep-draft harbors. As with inland waterways projects, 
failure to maintain optimal schedules increase costs and delay project 
benefits. NMA was pleased to see funding requested for the Baltimore 
Harbor and Norfolk Harbor projects.
Conclusion
    NMA understands that our country is faced with difficult budget 
decisions. However, as a country we cannot afford to neglect the 
continued improvement and maintenance of our Federal navigation system. 
Failure to continue our investment and commitment to all aspects of our 
marine system will have serious long-term consequences for our nation's 
economic health, safety and security.
NMA's Fiscal Year 2003 Appropriations Request for Inland Waterways 
        Projects

        FISCAL YEAR 2003--APPROPRIATIONS LEVELS SUPPORTED BY NMA
                              [In millions]
------------------------------------------------------------------------
                                          Fiscal Year       Efficient
                                          2003 Request    Funding Level
------------------------------------------------------------------------
Olmsted Lock and Dam..................            $77              $77
London Lock and Dam...................             11.9             11.9
Ohio River Mainstem Study.............              3                3
------------------------------------------------------------------------

Fiscal Year 2003--Project Appropriation Levels Needing Additional Funds

                     CONSTRUCTION AND REHABILITATION
                              [In millions]
------------------------------------------------------------------------
                                            Fiscal Year      Efficient
                                           2003 Request    Funding Level
------------------------------------------------------------------------
McAlpine Locks Replacement Project......            $6.2             $30
------------------------------------------------------------------------

    Located in downtown Louisville, Kentucky and near Jefferson, 
Indiana, the project provides for a new 1200-foot lock that will 
replace an inactive 56-foot by 360-foot lock and a 110-foot by 600-foot 
auxiliary lock. According to the U.S. Army Corps of Engineers 
Waterborne Commerce Statistics for 1999, almost 55 million tons of 
commodities valued at $11.9 billion were shipped through the locks. 
Coal, the leading commodity comprised 38 percent of the shipments. 
Louisiana shipped the most tonnage with 16 million tons worth $4.3 
billion. Ohio received the most tonnage with 10.3 million tons valued 
at 2.3 billion. Iron and steel was the number one commodity shipped for 
both States. The total project cost is $278 million with $218 needed to 
complete the project. The project is 5 years behind schedule with a 
current loss of $173 million in benefits. Since April 2001, one 
remaining 1200-foot lock remains operational. If something happens to 
that lock, severe disruption of commerce would occur while repairs are 
made (45-60 days).

                              [In millions]
------------------------------------------------------------------------
                                            Fiscal Year      Efficient
                                           2003 Request    Funding Level
------------------------------------------------------------------------
Locks and Dams 2, 3, and 4..............             $36             $63
------------------------------------------------------------------------

    Located on the Monongahela River near Pittsburgh, Pennsylvania this 
project replaces some of the oldest structures (some parts are more 
than 100 years old) operating in the inland system. The extreme 
structural deterioration of Dam 2 and Locks 3 and Dam 3 are of major 
concern. The Corps has determined that major repairs and rehabilitation 
will not prevent structural failure, which would cost the economy 
hundreds of millions of dollars. According to the U.S. Army Corps of 
Engineers Waterborne Commerce Statistics for 1999, 24.5 billion tons of 
commodities valued at $1.7 billion where shipped through any or all of 
the locks. Coal comprised 88 percent of the tonnage moving through the 
locks. Pennsylvania received and shipped the most tonnage through the 
locks with coal the number one commodity. Construction began on the 
$705 million project in 1995 with a benefit-to-cost-ratio of 3.5 and 
average annual benefits estimated at $30 million. Approximately $500 
million is needed to finish the project. The project is 6 years behind 
schedule.

                              [In millions]
------------------------------------------------------------------------
                                            Fiscal Year      Efficient
                                           2003 Request    Funding Level
------------------------------------------------------------------------
Marmet Locks and Dams...................          $10.97             $58
------------------------------------------------------------------------

    Located on the Kanawha River near Belle, West Virginia this project 
includes the construction of an additional 110-foot by 800-foot lock 
landward of the existing smaller dams, which would be converted to 
auxiliary status. According to the U.S. Army Corps of Engineers 
Waterborne Commerce Statistic for 1999, 15 million tons of commodities 
valued at $711 million were shipped through the locks. West Virginia 
shipped the most tonnage with 14.4 million tons valued at $595 million. 
Ohio received the most tonnage with 5.7 million tons valued at $231 
million. For both States, coal was the number one commodity shipped. 
The project cost is $313 million with a remaining benefit-to-cost ratio 
of 4 and average annual benefits estimated at $236 million. 
Approximately $236 million is needed to finish the project.

                              [In millions]
------------------------------------------------------------------------
                                            Fiscal Year      Efficient
                                           2003 Request    Funding Level
------------------------------------------------------------------------
Kentucky Lock...........................           $27.4             $45
------------------------------------------------------------------------

    Located on the Tennessee River near Grand Rivers, Tennessee this 
project includes the addition of a 110-foot by 1,200-foot lock and the 
relocation of an existing railroad, highway and powerhouse access road. 
Construction began on this project in 1998 and the total cost of $533 
million and average annual benefits estimated at $55 million. 
Approximately, $464 million is needed to finish the project. If the 
project is funded at the efficient funding level of $45 million, it 
will be completed in the 2008 timeframe. If the project is annually 
funded at the fiscal year 2003 request of $27.4 million, the completion 
time could increase by up to 17 years.
                 preconstruction engineering and design

                              [In millions]
------------------------------------------------------------------------
                                            Fiscal Year      Efficient
                                           2003 Request    Funding Level
------------------------------------------------------------------------
J. T. Myers Locks and Dam...............            $1.3            $2.1
Greenup and Locks and Dam...............             1.3             2.1
------------------------------------------------------------------------

    The John T. Myers and Greenup Locks Improvements Interim 
Feasibility Report, which was a product of the Ohio River Mainstem 
Study, recommends a 600-foot extension of the auxiliary chambers at 
both locations along the Ohio River. Both projects were authorized in 
the Water Resources Development Act of 2000. The Greenup project is 
expected to cost $175 with a benefit/cost ratio of 2.6 to 1. John T. 
Myers is expected to cost $182 million with a benefit/cost ratio of 2 
to 1.
                                 ______
                                 

      Prepared Statement of the City of Santa Barbara, California

                  operations and maintenance dredging
    As your distinguished Subcommittee writes the fiscal year 2003 
Energy and Water Resources Appropriations Bill, I would like to bring a 
very important Corps of Engineers project to your attention.
    Every winter, approximately 400,000 cubic yards of sand piles up at 
Santa Barbara Harbor, and in years of severe storms, the accumulated 
sand can close the channel, bringing local fishing and other businesses 
in the Harbor to a standstill.
    There is an important Federal interest in maintaining dredging at 
the Harbor. It provides slips and moorings for over 1,150 commercial, 
emergency and recreational boats. It is also an important part of Coast 
Guard operations on California's central coast. The Harbor is homeport 
to the USCG cutter Blackfin, an 82 ft. emergency response vessel.
    The President's fiscal year 2003 Budget recommendation includes 
$1,800,000 for operations and maintenance dredging for Santa Barbara 
Harbor. I respectfully request that the U.S. Senate, through your 
Subcommittee, maintain that level of funding included in the 
President's Budget Request.
              new construction project--dredge acquisition
    The President's fiscal year 2003 Budget recommendation also 
includes project funding for a potential new construction project in 
Santa Barbara. The City of Santa Barbara and the Corps of Engineers 
have pursued a proposal to design and construct a dredge for annual 
operation and maintenance dredging of our harbor.
    Federal funding for this project has been previously appropriated. 
However, the City of Santa Barbara at this time is unable to contribute 
the required 20 percent of local sponsor funding. The City remains 
interested in the dredge acquisition project and, together with the 
Corps of Engineers, requests an additional $100,000 in order to prepare 
the necessary plans and specifications for the project. The President's 
fiscal year 2003 Budget Request includes $100,000 for the dredge 
acquisition project for the Santa Barbara Harbor. I respectfully 
request that the U.S. Senate, through your Subcommittee, maintain that 
level of funding included in the President's Budget Request. Thank you 
for the opportunity to submit this statement.
                                 ______
                                 

               Prepared Statement of the State of Arizona

    Dear Chairman Reid: As the representative of the people of Arizona, 
I would like to thank you for the opportunity to enter testimony into 
the record concerning our support of items in the fiscal year 2003 
budget for the U.S. Bureau of Reclamation.
    I also would like to thank the committee, the Senate and the 
Congress for its continuing support for our issues, since the Bureau's 
activities assist us in providing the essential lifeline in the arid 
Southwest.
    We would like to present testimony in two sections: the statement 
of the Central Arizona Project and the statement of the City of 
Phoenix.
                        central arizona project
Background
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. The CAP is a multi-purpose water resource development 
project consisting of a series of canals, tunnels, dams, and pumping 
plants that lift water nearly 3,000 feet over a distance of 336 miles 
from Lake Havasu on the Colorado River to the Tucson area. The project 
was designed to deliver the remainder of Arizona's entitlement of 
Colorado River water into the central and southern portions of the 
state for municipal and industrial, agricultural, and Indian uses.
    The Bureau of Reclamation (Reclamation) initiated project 
construction in 1973, and the first water was delivered into the 
Phoenix metropolitan area in 1985. In 2000, CAP delivered its full 
normal year entitlement of 1.5 million acre-feet for the first time, 
allowing Arizona to utilize its full Colorado River apportionment of 
2.8 million acre-feet.
    The Central Arizona Water Conservation District (CAWCD) was created 
in 1971 for the specific purpose of contracting with the United States 
to repay the reimbursable construction costs of the CAP that are 
properly allocable to CAWCD, primarily non-Indian water supply and 
commercial power costs. In 1983, CAWCD also was given authority to 
operate and maintain completed project features. Its service area is 
comprised of Maricopa, Pima, and Pinal counties. CAWCD is a tax-levying 
public improvement district, a political subdivision, and a municipal 
corporation, and represents roughly 80 percent of the water users and 
taxpayers of the state of Arizona. CAWCD is governed by a 15-member 
Board of Directors elected from the three counties it serves. CAWCD's 
Board members are public officers who serve without pay. Project 
repayment is provided for through a 1988 Master Repayment Contract 
between CAWCD and the United States. Reclamation declared the CAP water 
supply system (Stage 1) substantially complete in 1993, and declared 
the regulatory storage stage, or Plan 6 (Stage 2), complete in 1996. No 
other stages currently are under construction. Project repayment began 
in 1994 for Stage 1 and in 1997 for Stage 2. To date, CAWCD has repaid 
$628 million of CAP construction costs to the United States.
    In 2000, CAWCD and Reclamation successfully negotiated a settlement 
of the dispute regarding the amount of CAWCD's repayment obligation for 
CAP construction costs. This dispute has been the subject of ongoing 
litigation in United States District Court in Arizona since 1995. The 
settlement provides a 3-year timeframe, ending in May 2003, in which to 
complete several other activities that are necessary for the settlement 
to become final, including a final Indian water rights settlement for 
the Gila River Indian Community.
CAP Budget Request/Indian Distribution Systems
    In its fiscal year 2003 budget request, Reclamation seeks 
$34,783,000 for the CAP. Of this amount, $23,093,000 is requested for 
the construction of Indian distribution systems.
    We continue to support appropriations necessary to ensure timely 
completion of all CAP Indian distribution systems. The CAP non-Indian 
distribution systems were completed nearly 10 years ago; however, most 
of the Indian systems remain incomplete. CAWCD supports full funding 
for this important program.
    Of the total $34,783,000 requested, $6,700,000 is earmarked to fund 
activities associated with implementation of a 1994 biological opinion 
of the U.S. Fish and Wildlife Service (FWS) pertaining to delivery of 
CAP water to the Gila River Basin and for native fish activities on the 
Santa Cruz River.
    Historically, CAWCD has objected to Reclamation's continued 
spending in these areas. Both environmental groups and CAWCD challenged 
the 1994 biological opinion in court. However, given CAWCD's settlement 
with the United States over CAP costs, and a final judgment in the 
litigation concerning the 1994 biological opinion, we support 
Reclamation's budget request to allow it to complete Endangered Species 
Act compliance for CAP deliveries in the Gila River basin.
    We also support the continuation of funding for the Tucson 
Reliability Division. The requested $754,000 will allow planning work 
to continue and will assist Tucson in developing and implementing a 
plan to ensure adequate reliability for delivery of its CAP water 
allocation.
Yuma Desalting Plant
    In its fiscal year 2003 budget request, Reclamation is requesting 
$10,971,000 under the Colorado River Basin Salinity Control Project--
Title I. This program supports the operation of the Yuma Desalting 
Plant (YDP), maintaining the U.S. Bypass Drain and the Mexico Bypass 
Drain, and ensuring that Mexican Treaty salinity requirements are met.
    Currently, Reclamation is not operating the YDP. Instead, 
Reclamation is allowing all Wellton-Mohawk drainage water (about 
100,000 acre-feet per year) to bypass the YDP and flow to the Santa 
Clara Slough in Mexico. These flows are in excess of Mexican Treaty 
requirements and represent a significant depletion of the Colorado 
River water currently in storage. Continuing this practice eventually 
will reduce the amount of water available to the Central Arizona 
Project, the lowest priority water user in the Colorado River basin, 
and increase the risk of future shortages.
    The Colorado River is now in its third consecutive year of below 
normal runoff, and water levels in Lake Powell and Lake Mead are 
projected to be at their lowest levels in 30 years. At the same time, 
under interim surplus guidelines adopted for the benefit of California, 
the use of Colorado River water by the Lower Basin States exceeds their 
7.5 million acre foot entitlement. Reclamation's operation of the YDP 
would conserve an additional 100,000 acre-feet per year of Colorado 
River water for use by the Basin States. This amount is roughly equal 
to the City of Phoenix's full annual entitlement to CAP water.
    The Senate Report accompanying the fiscal year 2000 Energy and 
Water Development Appropriations bill directed the Department of the 
Interior to provide a report to the Appropriations Committee on 
alternatives to meeting the Mexican Treaty obligation without operating 
the YDP. We understand that this report will be completed in the next 
few months and will identify alternatives that involve water supplies 
that would otherwise be available for use in the lower Colorado River 
basin. In our view, such options are not legitimate alternatives to 
operating the YDP because they reduce the amount of water available to 
the Basin States.
    The YDP has been available for use since 1992. The House of 
Representatives Report accompanying the fiscal year 1995 Energy and 
Water Development Appropriations bill directed Reclamation to maintain 
the YDP so as to be capable of operating at one-third capacity with a 
1-year notice of funding. Reclamation has requested $9,739,000 (nearly 
90 percent of its entire Title I salinity control budget) to maintain 
the YDP in a non-operational status, which provides no present benefit 
to the Basin States.
    By comparison, Reclamation states that it could operate the YDP at 
full capacity-thereby preserving 100,000 acre-feet of water each year 
for use within the United States-at a cost of only $22 million. We 
believe that operating the YPD is the only viable way to meet the water 
quantity and quality requirements of the Mexican Treaty, while at the 
same time preserving Colorado River water for use in the United States.
    Therefore, CAWCD requests that Congress direct Reclamation to 
initiate operation of the YDP in 2003 at one-third capacity or greater. 
In addition, CAWCD requests that $8 million be added to Reclamation's 
budget under the Colorado River Basin Salinity Control Project--Title I 
starting in fiscal year 2003 for this purpose.
Lower Colorado Operations Program
    In its fiscal year 2003 budget request, Reclamation also seeks 
$12,421,00 for its Lower Colorado River Operations Program. This 
program is necessary for Reclamation to continue its activities as the 
``water master'' on the lower Colorado River. In addition, this program 
provides Reclamation's share of funding to complete the lower Colorado 
River Multi-Species Conservation Program (MSCP). Of the $12,421,000 
sought, $3,257,000 is for administration of the Colorado River, 
$2,271,000 is for water contract administration and decree accounting, 
and $6,893,000 is for fish and wildlife management and development. The 
fish and wildlife management and development program includes 
$4,357,000 for the MSCP. The State supports Reclamation's budget 
request for the Lower Colorado River Operations Program.
Interim Surplus Criteria
    The increased funding level is necessary to support the MSCP effort 
as well as environmental measures necessary to fully implement the 
interim surplus criteria for the lower Colorado River. The interim 
surplus criteria allow the Secretary of the Interior to declare limited 
Colorado River surpluses for the next 15 years to assist California in 
gradually reducing its use of Colorado River to its annual 
apportionment of 4.4 million acre-feet. These are both critical 
programs upon which lower Colorado River water and power users depend.
    The MSCP is a cost-shared program among Federal and non-Federal 
interests to develop a long-term plan to conserve endangered species 
and their habitat along the lower Colorado River from Lake Mead to 
Mexico. CAWCD is one of the cost-sharing partners. Development of this 
program will conserve hundreds of threatened and endangered species 
and, at the same time, allow current water and power operation to 
continue.
Security at Hoover Dam and Powerplant
    Finally, the State of Arizona is concerned about the increase in 
cost of security at Federal dams and hydropower plants, specifically 
Hoover Dam and Powerplant. CAWCD relies upon Hoover power as one of its 
power resources for pumping water. The Bureau of Reclamation received 
$30 million in the fiscal year 2002 Defense budget to cover increased 
costs to protect Reclamation dams and other facilities in the aftermath 
of the September 11, 2001 attacks on the United States.
    However, Reclamation estimates it will run a deficit of $9.5 
million at Hoover Dam alone this fiscal year. The fiscal year 2003 
budget request includes $28 million. Of that amount, approximately $4 
million would be allocated to the Colorado River Storage Project (CRSP) 
and approximately $3 million would be allocated to the Hoover, Parker 
and Davis facilities. The Hoover Dam shortfall for fiscal year 2003 
could total nearly $6 million.
    Legislative history from 1941 and 1942 indicates that the Congress 
treated increased security costs before and after Pearl Harbor as non-
reimbursable because of the obvious national security interest at 
stake. We believe that the increased costs of ensuring security of 
Reclamation dams and other facilities in the aftermath of the events of 
September 11, 2001, should be treated as non-reimbursable and payment 
of such costs should be funded through Federal appropriations. 
Additional relief for fiscal year 2002 should be considered as well as 
increased amounts for fiscal year 2003.
    I welcome this opportunity to share our views with the Committee, 
and would be pleased to respond to any questions or observations 
occasioned by this written testimony.
                                 ______
                                 
               Prepared Statement of the City of Phoenix
    I am pleased to offer testimony on behalf of the City of Phoenix 
and I respectfully request continued support of its programs.
Rio Salado
            Request
    Funding of $22 million in the 2003 Energy and Water Appropriations 
Act to keep the project on schedule, an increase of $7.7 million above 
the President's request for fiscal year 2003.
            Background
    The Salt River is the major watercourse through the Phoenix 
metropolitan area but has been dry since the diversion of its waters in 
the early 1900s. While the upstream dams provided a reliable water 
supply for the Valley, they created a dry, barren river filled with 
sand and cobbles. The land along the riverbed has become lined with 
landfills, dump sites, and vacant and underutilized lots.
    In 1993, the Army Corps of Engineers prepared a reconnaissance-
level report recommending a Federal interest in the river.
    The project was authorized in the 1999 Water Resources Development 
Act.
    The project received a $2 million ``new start'' designation in the 
2001 Energy and Water Development Appropriations bill and $18 million 
in fiscal year 2002.
            Opportunity
    The project enjoys widespread support among state and local 
governments, the business community and local residents. The local 
community already has committed the 35 percent in local funding needed 
for the project.
    This is an opportunity for the Federal Government to honor its 65 
percent cost-sharing agreement and keep the project on a 3-year 
construction period.
    The project is an important step toward correcting years of 
ecosystem damage to the riverbed, and it will encourage private 
investment to revitalize the economically depressed communities 
adjacent to the river.
Rio Salado Oeste (Salt River West)
            Request
    Funding of $1.2 million to the Army Corps of Engineers for the 
Feasibility Study for Rio Salado Oeste to keep the study on schedule, 
an increase of $1.05 million above the President's request for fiscal 
year 2003.
            Background
    The Rio Salado Oeste portion of the Salt River was included in the 
Corps of Engineers Reconnaissance Study in 1996.
    The city of Phoenix and the Corps of Engineers have an agreement to 
pursue the Feasibility Phase Study.
    To date, the city of Phoenix has matched the $542,000 the Corps of 
Engineers has received for this study.
            Opportunity
    This is an opportunity to continue the Feasibility Study for the 
Rio Salado Oeste portion of the project, which eventually will connect 
the Rio Salado Project that is under construction with the most western 
Salt River Project near the 91st Avenue Treatment Plant at Tres Rios.
    The project will provide environmental benefits of ecosystem 
restoration and stimulate private sector investments in the surrounding 
area.
Tres Rios Project
            Request
    $2.7 million in new start construction funding in the Water and 
Energy Appropriation Bill. This will allow the Army Corps of Engineers 
to complete the plans and specifications for the 100-year protection 
Flood Control Levee and start the design of the 300 million-gallon per 
day pump station. This request matches the Corps of Engineers' 
capability for fiscal year 2003 and is $2.35 million over the 
President's budget.
    If Congress prohibits new start construction funding in fiscal year 
2003, we request $2.2 million to complete the Pre-Construction 
Engineering and Design Phase of the project. This will allow the Corps 
of Engineers to complete the plans and specifications for the Flood 
Control Levee and position Tres Rios to obtain new start construction 
funding in fiscal year 2004.
            Background
    Tres Rios River Restoration Project is an environmental habitat 
restoration project with incidental flood control and recreation 
opportunities along the Salt, Gila and Agua Fria rivers west of 
Phoenix. It is located along the Salt and Gila Rivers between 83rd 
Avenue and the confluence of the Agua Fria River, is approximately 8 
river miles long and encompasses approximately 1,500 acres of land. The 
91st Avenue Wastewater Treatment Plant supplies water.
            Project Components
    300-million-gallon per day effluent pump station.
    184 acres of regulating wetlands to equalize discharges from the 
wastewater treatment plant and provide improved habitat.
    128 acres of overbank wetlands to provide improved habitat.
    100-year protection flood control levee.
    Open water marshes and riparian corridors to improve habitat.
Tres Rios Demonstration Constructed Wetlands
            Request
    $500,000 in the Water and Energy Appropriation Bill for fiscal year 
2003 to be used by the Bureau of Reclamation. This is $300,000 over the 
President's budget but is needed to sustain the program.
            Background
    The Bureau of Reclamation and the Subregional Operating Group (made 
up of Glendale, Mesa, Phoenix, Scottsdale and Tempe) have been jointly 
operating the Demonstration Wetlands since 1994. The research performed 
at the Demonstration Wetlands furthers the study of nitrate and metal 
removal, vector (mosquito) control and habitat restoration.
            Key Points
    Further expands knowledge in the field of constructed wetlands.
    Studies vegetation sustainability in an arid environment.
    Studies non-lethal control measure of beavers to protect habitat 
proposed for the full-scale project.
    Provides funding for the operation and maintenance of the project.
Agua Fria Linear Recharge Project
            Request
    $250,000 in the Water and Energy Appropriation Bill for fiscal year 
2003 to be used by the Bureau of Reclamation under their Title 16 
authorization. This is in the President's budget for fiscal year 2003.
            Background
    The Bureau of Reclamation and the Subregional Operating Group is 
cooperatively investigating the feasibility of linear recharge of 
reclaimed water in the Agua Fria River. This funding will allow the 
public involvement phase of the project to continue.
Water Salinity Research
            Request
    $3 million per year for 5 years to be used to fund research 
programs through the Bureau of Reclamation Desalination Program in 
salinity management with an emphasis on brine concentration. The Bureau 
will work with water industry research organizations, such as the 
American Water Works Association Research Foundation, Water Environment 
Research Foundation and Water Reuse Foundation to perform the work.
            Background
    Water availability and quality is one of the world's most important 
environmental issues. Demand for water is increasing at an alarming 
rate and so are people's water quality expectations. Increasing 
salinity concentrations in rivers, lakes, groundwater and soil have 
created a problem with the removal of total dissolved solids from water 
systems and the disposal of the unwanted salt. Brine concentration and 
disposal is especially important to arid states like Arizona, which 
needs to use every bit of its water resources effectively.
    The Tri-State Salinity Coalition is made up of water utilities in 
Arizona, California, and Nevada and plans to add members in Texas and 
New Mexico. The mission of the Coalition is, with the assistance of 
their congressional delegations, to obtain funding to further research 
efforts in salinity management with an emphasis on brine concentration.
            Objectives
    Develop brine concentration technologies that minimize water loss.
    Develop technologies that minimize brine production, especially 
membrane systems which are used to meet many Safe Drinking Water Act 
regulations.
                                 ______
                                 

     Prepared Statement of the Santa Cruz Port District Commission

For continuation of the Corps of Engineers Reconnaissance study of the 
        1986 memorandum of agreement on dredging between Santa Cruz 
        Port District and Corps of Engineers as authorized by 1998 
        Water Resources Development Act, Section 526--$100,000
    The fiscal year 2002 federal budget funded $100,000 for the study 
of the Arana Gulch watershed. That study is underway. The Santa Cruz 
Port District requests an additional $100,000 in the fiscal year 2003 
budget to continue this study. Background data on the Arana Gulch 
project is included in this package.
For continuation of the Corps of Engineers Reconnaissance study of the 
        Arana Gulch Watershed which adversely affects the navigation of 
        Santa Cruz Harbor--$100,000
    This study will reconstitute the very successful 1986 joint-venture 
between the U.S. Army Corps of Engineers and the Port District. Over 
the course of a new Memorandum of Agreement (MOA) with the Port 
District, the federal government will save well over $20 million in 
dredging costs for maintenance of the Santa Cruz Harbor federal 
channel.
    The MOA study has federal funding in fiscal year 2002. There is 
$50,000 in the President's proposed fiscal year 2003 budget. We ask the 
committee to support the President's budget.
    Background information on the MOA is attached.
                         background information
For Corps of Engineers Reconnaissance study of the Arana Gulch 
        Watershed which adversely affects the navigation of Santa Cruz 
        Harbor
    Santa Cruz Harbor is an active small craft harbor at the north 
section of Monterey Bay, California. It was authorized as a federal 
navigation project in 1958, constructed in 1964, and expanded in 1972. 
A 1986 joint-venture between the U.S. Army Corps of Engineers and the 
Santa Cruz Port District provided for a permanent sand bypass system to 
solve the ocean-driven shoaling problem at its entrance. The Port 
District has successfully operated that system for the past fifteen 
winters. However, the Port District has been unable to solve the 
siltation problem emanating from the three-square mile watershed which 
terminates at the north end of Santa Cruz Harbor.
    Silt from Arana Gulch fills berths, fairways, and channels in the 
harbor, making them hazardous and unusable. At this time, the siltation 
is not solvable by the existing sand bypass system. The soil 
characteristics of the watershed make beach disposal impractical at 
this time. Arana Gulch sediment must either be taken upland or 
delivered by barge offshore--both of these disposal options are quite 
wasteful. They are also extremely expensive and cost the Port District 
hundreds of thousands of dollars each year. Additionally, the 1998 El 
Nino storms brought 15,000 cubic yards of material into the north 
harbor alone from Arana Gulch. The event was declared a federal 
disaster, and FEMA and the State of California are spending in excess 
of $500,000 to return the harbor to charted depths.
    On June 25, 1998, the House Committee on Transportation and 
Infrastructure passed Resolution Docket 2565 authorizing the Secretary 
of the Army to review the Arana Gulch watershed siltation problem
For Corps of Engineers Reconnaissance study of memorandum of agreement 
        on dredging between Santa Cruz Port District and Corps of 
        engineers as authorized by 1998 Water Resources Development 
        Act, Section 526
    In 1986, the United States Congress and the Santa Cruz Port 
District signed a Memorandum of Agreement (joint-venture L.C.A.) on the 
acquisition of a sand bypass system for Santa Cruz Small Craft Harbor. 
This $2.7 million agreement, authorized under WRDA 1984, provided that, 
once in place, the system would be operated and maintained by the Port 
District.
    The bypass project has been extraordinarily successful. The harbor, 
once the scene of long closures and countless accidents because of 
shoals and breaking surf, is now 100 percent open to navigation all 
year round. The federal government no longer has to appropriate yearly 
O&M funds as it did from 1964 to 1986. The savings over the past 10 
years is estimated at $9+ million. The savings over the life of the 
project (2014) is estimated to be well in excess of $28 million in 1986 
dollars.
    The Port District is quite satisfied with the operational project 
and will carry out its responsibilities through 2014. However, an 
inequity exists in the original cost-share formula, which the Port 
District asked Congress to redress. Congress responded by including 
Section 526 in the Water Resources Development Act of 1998:

``SECTION 526. SANTA CRUZ HARBOR, CALIFORNIA.

  The Secretary may--
          --modify the cooperative agreement with the Santa Cruz Port 
        District, California, to reflect unanticipated additional 
        dredging effort; and
          --extend the agreement for 10 years.''

    The San Francisco District of the U.S. Army Corps of Engineers has 
advised that in order to study the equities the 1986 Memorandum of 
Agreement. A reconnaissance study should be performed.
    The benefit to the federal government in this redress of past 
inequities is that the Port District is willing to extend the 
successful joint-venture from its current termination date of 2014, to 
2024.
                                 ______
                                 

     Prepared Statement of the Mid-Dakota Rural Water System, Inc.

                    fiscal year 2003 funding request
    First let me thank the Subcommittee for the opportunity to testify 
in support of the fiscal year 2003 appropriations for the Mid-Dakota 
Rural Water Project and for the Subcommittee's support both past and 
present.
    The Mid-Dakota Project is requesting $29.360 million in Federal 
appropriations for fiscal year 2003. As with our past submissions to 
this subcommittee, Mid-Dakota's fiscal year 2003 request is based on a 
detailed analysis of our ability to proceed with construction during 
the fiscal year. In all previous years, Mid-Dakota has fully obligated 
its appropriated funds, including Federal, State, and local, and could 
have obligated significantly more were they available.
                       history of project funding
The Project was authorized by Congress and signed into law by President 
George H.W. Bush in October 1992. The Federal authorization for the 
project totaled $100 million (1989s) in a combination of Federal grant 
and loan funds (grant funds may not exceed 85 percent of Federal 
contribution). The State authorization was for $8.4 million (1989 $s). 
A breakdown of Project cost ceilings are as follows:

Project Cost Ceilings

                              [In dollars]

Federal Ceiling.........................................     139,769,000
State Ceiling...........................................       9,670,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal Rural Water System.......................     149,439,000
                    ========================================================
                    ____________________________________________________
Wetland Enhancement Component...........................       2,756,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Project Cost Ceiling........................     152,195,000

    The total authorized indexed cost of the project is approximately 
$152.195 million (fiscal year 2003). All Federal funding considered, 
the Government has provided 67 percent of its commitment ($95.410 
million of $142.530 million) to provide construction funding for the 
Project. When considering the Federal and State combined awards, the 
project is approximately 69 percent complete, in terms of financial 
commitments.
    Mid-Dakota wishes to thank this committee for its support over the 
past 9 years. Within the limited monetary parameters of current Federal 
awards and funds appropriated by the State of South Dakota, we have 
been able to put those scarce resources to good work, making 
exceptional progress on project construction.

                                                                                SUMMARIZATION OF FEDERAL FUNDING
                                                                                    [In millions of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Mid-Dakota                                                     Conf. Enacted   Bureau Award     Additional      Total Fed.
                        Fed. Fiscal Year                              Request      Pres. Budget        House          Senate          Levels          Levels           Funds      Funds Provided
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
1994............................................................           7.991               0               0           2.000           2.000           1.500               0           1.500
1995............................................................          22.367               0               0           8.000           4.000           3.600               0           3.600
1996............................................................          23.394           2.500          12.500          10.500          11.500          10.902           2.323          13.225
1997............................................................          29.686           2.500          11.500          12.500          10.000           9.400           1.500          10.900
1998............................................................          29.836          10.000          12.000          13.000          13.000          12.221           1.000          13.221
1999............................................................          32.150          10.000          10.000          20.000          15.000          14.100           2.000          16.100
2000............................................................          28.800           5.000          15.000           7.000          14.000          12.859           1.000          13.859
2001............................................................          24.000           6.040          11.040           6.040          10.040           9.398               0           9.398
2002............................................................          30.684          10.040          15.040          15.540          15.040          13.611               0          13.611
2003............................................................          29.360  ..............  ..............  ..............  ..............  ..............  ..............  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Totals....................................................  ..............          46.080          87.080          94.580          94.580          87.590           7.823          95.410
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Additionally, the State of South Dakota has contributed $9.67 
million in grants to the Mid-Dakota Project, in previous years. The 
State of South Dakota completed its initial authorized financial 
obligation to the Mid-Dakota Project in the 1998 Legislative Session.
    The $15.040 million funding provided by the Subcommittee in fiscal 
year 2002 provided Mid-Dakota with the opportunity to achieve 
significant accomplishments for the fiscal year. These are later 
summarized in the section titled ``Construction in Progress.'' Mid-
Dakota will continue to deliver quality drinking water to 16 community 
systems and approximately 2,400 rural customers (farms and ranches). 
Mid-Dakota estimates that an additional 300 rural farm and ranch 
accounts along with three more community systems will be receiving 
project water at the close of contracts awarded in fiscal year 2001/
2002. The generosity of the subcommittee has already had a deep and 
favorable effect on the lives of over 15,000 South Dakotans.
                   impacts of fiscal year 2003 award
    The most obvious impact of any significant reduction from Mid-
Dakota's request will be the delay of construction of one or more 
Project components. The $29.360 million request will allow the Project 
to proceed with construction of multiple contracts summarized later in 
this testimony. An award of less than our request will result in the 
deletion or reconfiguration of one or more of these contracts from the 
fiscal year 2003 construction schedule. Further, reduced appropriations 
have the effect of adding more cost to the amount needed for completion 
of the Project.
    Mid-Dakota has consistently informed members of Congress and 
appropriate Federal agencies, about the detrimental effects 
insufficient funding has on the Project and ultimately the people whom 
are to receive the water. In previous years Mid-Dakota and the public, 
which we will serve, have been able to make the most of the resources 
provided the Project. However, failure to provide full funding has had 
profound consequences.
                        construction in progress
    Mid-Dakota began construction in September of 1994, with the 
construction of its Water Intake and Pump Station. Since that eventful 
day of first construction start, we have bid, awarded, and completed 22 
project components and are into construction on six other major Project 
components. The following table provides a synopsis of each major 
construction contract:

                                          SUMMARIZATION OF CONSTRUCTION
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                        Percent
                                                               Cont.      Cont.     Final      Over       Over
  Cont. No.                    Description                  Budget \1\     Bid      Cont.    (Under)    (Under)
                                                                          Award     Price     Budget     Budget
----------------------------------------------------------------------------------------------------------------
         1-1 Oahe Water Intake and Pump Station               4.662      3.959     3.945    (0.717)       (15)
         2-1 Oahe Water Treatment Plant                      13.361      9.920    10.278    (3.083)       (23)
        3-1A Raw Water Pipeline                               1.352      1.738     1.719     0.367         27
        3-1B Main Pipeline--Blunt                             7.823      6.916     7.024    (0.799)       (10)
        3-1C Main Pipeline--Highmore                          5.439      4.791     4.798    (0.641)       (12)
        3-1D Main Pipeline--CP 1st Phase                       .220       .215      .215     0.010       (0.5)
        3-2A Main Pipeline--Ree Hights                        3.261      3.155     3.149    (0.112)        (3)
        3-2B Main Pipeline--St. Lawrence, SD                  3.691      3.349     3.352    (0.339)        (9)
        3-3A Main Pipeline--Wessington, SD                    2.700      2.406   ( \3\ )       n/a        n/a
4-1A/B (1-5) Distribution System--West                        9.345      9.983    10.731  \2\ 1.386        15
  4-1A/B (6) Distribution System--North West                  8.333      8.329     9.028  \2\ 0.695         8
     4-2 (1) Distribution System--Central                     4.727      4.717     4.700    (0.027)       (.5)
     4-2 (2) Distribution System--South Central               2.763      2.835     3.000  \2\ 0.237         9
   4-2 (4-5) Distribution System--Central                     5.753      4.952     5.135    (0.620)       (11)
    4-2A (4) Distribution System--Central                     1.042       .991     1.186  \2\ 0.140        13
 4-2AP (2-3) Distribution System--Central                    10.340      9.824   ( \3\ )       n/a        n/a
4-2 AV (2-3) Distribution System Vaults--Central               .668       .557   ( \3\ )       n/a        n/a
         5-1 Water Storage Tank--Highmore                     1.545      1.434     1.433    (0.108)        (7)
    5-1A (1) Water Storage Tank--Onida                        0.471      0.395     0.400    (0.075)       (16)
    5-1A (2) Water Storage Tank--Okobojo                      0.381      0.338     0.333    (0.048)       (13)
    5-1A (3) Water Storage Tank--Agar                         0.422      0.391     0.385    (0.037)        (9)
    5-1A (4) Water Storage Tank--Gettysburg                   0.952      0.814     0.808    (0.144)       (15)
     5-2 (1) Water Storage Tank--Mac's Corner                  .460       .573      .561     0.101         22
     5-2 (2) Water Storage Tank--Rezac Lake                    .438       .493      .499     0.060         14
     5-2 (3) Water Storage Tank--Collin's Slough               .254       .393      .410     0.160         63
    5-2A (1) Water Storage Tank--Ames                          .300       .378   ( \3\ )       n/a        n/a
    5-2A (2) Water Storage Tank--Cottonwood Lake               .800       .696   ( \3\ )       n/a        n/a
    5-2A (3) Water Storage Tank--Wessington Springs            .515       .491   ( \3\ )       n/a        n/a
                                                         -------------------------------------------------------
                   Totals                                    92.020     85.030    73.090    (3.610)        (4)
----------------------------------------------------------------------------------------------------------------
             \1\ Contract budget is determined by Mid-Dakota's estimate for the contract at the time of bidding.
             \2\ A significant portion of cost increases are attributable to the placement of additional users
               as construction proceeds.
             \3\ In Prog.

    As is evident by the foregoing table, Mid-Dakota has been very 
successful in containing Project costs. Currently the construction of 
major Project components are approximately 4 percent under budget, 
providing an estimated saving of over $3.61 million. The savings are an 
example of sound engineering, good management and advantageous bid 
lettings. While we can't guarantee future contract bid lettings will 
continue to provide the level of savings currently experienced, we do 
think it speaks well of the Mid-Dakota Project and how we've managed 
Project funding to date.
                 response to related crisis situations
    Mid-Dakota also provided the solution to a number of crisis 
situations in the past. The following are some of the most notable 
examples:
  --Mid-Dakota was the catalyst in the ``rescue'' effort to the City of 
        Gettysburg, SD to provide the town with a dependable, quality 
        water supply (Mid-Dakota) just as they were about to lose their 
        existing water intake, due to sluffing of the hillside at that 
        location.
  --Mid-Dakota constructed an advance project feature in Virgil, South 
        Dakota. The town of Virgil, SD now has a new distribution 
        system, replacing the old one that was in disrepair and 
        draining the town coffers to keep it running and supply 
        drinking water to Virgil residents.
  --Mid-Dakota has agreed to take-over the operations of the Southern 
        Spink and Northern Beadle Rural Water System (SSNB). SSNB is a 
        small community water supply system that lacks the necessary 
        capacity to properly operate a potable water supply system.
  --Mid-Dakota replaced approximately eight miles of pipeline along 
        U.S. Highway 212. An existing water pipeline located in the 
        Highway right-of-way would have to be relocated increasing the 
        cost of the Highway improvement. Mid-Dakota instead placed its 
        pipeline (that would have been constructed in the future) out 
        of the way of the Highway improvement. This lessened the cost 
        of the Highway project and provided for an uninterrupted supply 
        of water to people along the pipeline route.
  --Mid-Dakota recently (January 2001) took over operational 
        responsibility for the City of St. Lawrence South Dakota's 
        water system. The community (pop. <300) was having trouble 
        maintaining a qualified operator to maintain their systems as 
        is mandated by EPA. An Administrative agreement between Mid-
        Dakota and the City provided a viable solution to their 
        dilemma.
    Additionally, Mid-Dakota is keeping in close contact with the City 
of Huron, SD (population 12,400) regarding potentially serious EPA 
water quality violations anticipated with the implementation of the 
Safe Drinking Water Act (SDWA) enhanced surface water rules due in 
2003. Engineers who have analyzed the current drinking water source for 
Huron (James River) have concluded that the City will not be able to 
treat the current James River source without very significant and 
costly upgrades to their existing treatment facilities. Further the 
engineers have concluded that without these upgrades or switching to a 
new source i.e., Mid-Dakota, the City will be out of compliance with 
the Disinfection and Disinfection by-products rule D/DBP to be 
implemented in 2003. Huron is located at the East end of the Mid-Dakota 
Project (Mid-Dakota is being built in a general West to East manner) 
and is currently Mid-Dakota's largest contracted user. It is 
anticipated that with sufficient funding, Mid-Dakota can be in a 
position to connect to Huron in time to remedy the potential EPA non-
compliance issue faced by Huron.
         tentative fiscal year 2003 construction schedule \1\ 
---------------------------------------------------------------------------
    \1\ Projects features listed in table are subject to rescheduling 
based upon funding provided and readiness to proceed and other factors. 
Actual construction activities, therefore, may not coincide exactly 
with schedule presented here.
---------------------------------------------------------------------------
    Mid-Dakota has developed an aggressive construction schedule for 
fiscal year 2003, with plans to install over 800 miles of rural 
pipeline and 30 miles of main transmission pipeline. The proposed 
construction would provide service to an estimated 17,000 more people 
than are currently receiving or scheduled to receive Project drinking 
water (estimate includes the City of Huron, SD). Our construction 
schedule will also provide the necessary main pipeline infrastructure 
to move forward with many more rural and community connections in the 
future. Federal funding allocated in any given fiscal year is always 
the limiting factor that drives Mid-Dakota's construction schedule.

MID-DAKOTA RURAL WATER SYSTEM--STATEMENT OF CAPABILITIES--FISCAL YEAR 2003 (OCTOBER 2002 THROUGH SEPTEMBER 2003)
----------------------------------------------------------------------------------------------------------------
                                                                    Inspection
                                                   Construction     Percent of      Engineering      Subtotals
                                                                   Construction      and Legal
----------------------------------------------------------------------------------------------------------------
100--Source and Intake (12.00 percent):
    None........................................  ..............  ..............  ..............  ..............
    None........................................  ..............  ..............  ..............  ..............
                                                 ---------------------------------------------------------------
      Subtotals.................................  ..............  ..............  ..............  ..............
                                                 ===============================================================
200--Water Treatment (12.00 percent):
    None........................................  ..............  ..............  ..............  ..............
    None........................................  ..............  ..............  ..............  ..............
                                                 ---------------------------------------------------------------
      Subtotals.................................  ..............  ..............  ..............  ..............
                                                 ===============================================================
300--Main Transmission Pipeline (7.00 percent):
    Pipeline Wess. To Wolsey....................   $2,000,000.00     $140,000.00  ..............   $2,140,000.00
    Pipeline Wolsey to Huron....................    4,960,000.00      347,200.00  ..............    5,307,200.00
    Stations and Vaults.........................      950,000.00       66,500.00     $100,000.00    1,116,500.00
                                                 ---------------------------------------------------------------
      Subtotals.................................    7,910,000.00      553,700.00      100,000.00    8,563,700.00
                                                 ===============================================================
400--Distribution Pipeline (5.00 percent):
    Cottonwood Lake (Phase II)..................    2,300,000.00      115,000.00  ..............    2,415,000.00
    Wessington Springs..........................    2,850,000.00      142,500.00  ..............    2,992,500.00
    Highmore East...............................    1,500,000.00       75,000.00      200,000.00    1,775,000.00
    Wolsey......................................    5,500,000.00      275,000.00      550,000.00    6,325,000.00
    Staum Dam...................................  ..............  ..............      100,000.00      100,000.00
    Bancroft....................................  ..............  ..............      110,000.00      110,000.00
    Stations and Vaults.........................      300,000.00       15,000.00       25,000.00      340,000.00
                                                 ---------------------------------------------------------------
      Subtotals.................................   12,450,000.00      622,500.00      985,000.00   14,057,500.00
                                                 ===============================================================
500--Water Storage (12.00 percent):
    Wessington Springs..........................      325,000.00       39,000.00  ..............      364,000.00
    Wolsey......................................    2,000,000.00      240,000.00       25,000.00    2,265,000.00
    Staum Dam...................................  ..............  ..............       10,000.00       10,000.00
    Bancroft....................................  ..............  ..............       10,000.00       10,000.00
    Redfield....................................      300,000.00       36,000.00       10,000.00      346,000.00
    None........................................  ..............  ..............  ..............  ..............
    None........................................  ..............  ..............  ..............  ..............
                                                 ---------------------------------------------------------------
      Subtotals.................................    2,625,000.00      315,000.00       55,000.00    2,995,000.00
                                                 ===============================================================
600--SCADA and Controls (12.00 percent):
     Main Pipeline Controls.....................      200,000.00       24,000.00       10,000.00      234,000.00
    Distribution Controls.......................      150,000.00       18,000.00        7,500.00      175,500.00
    None........................................  ..............  ..............  ..............  ..............
    None........................................  ..............  ..............  ..............  ..............
    None........................................  ..............  ..............  ..............  ..............
                                                 ---------------------------------------------------------------
      Subtotals.................................      350,000.00       42,000.00       17,500.00      409,500.00
                                                 ===============================================================
      Total.....................................   23,335,000.00    1,533,200.00    1,157,500.00   26,025,700.00
                                                 ===============================================================
Administration and General as a percent of        ..............            2.00  ..............      466,700.00
 Construction (percent).........................
Bureau of Reclamation Oversight as a percent of   ..............            3.00  ..............      700,050.00
 Construction (percent).........................
Contingencies as a percent of Construction (per-  ..............            5.00  ..............    1,166,750.00
  cent).........................................
                                                 ---------------------------------------------------------------
      Total Rural Water System capabilities       ..............  ..............  ..............   28,359,200.00
       fiscal year 2003.........................
Wetland Enhancement Component request fiscal      ..............  ..............  ..............    1,000,000.00
 year 2003......................................
                                                 ---------------------------------------------------------------
      Total Rural Water and Wetland capabilities  ..............  ..............  ..............   29,359,200.00
       fiscal year 2003.........................
----------------------------------------------------------------------------------------------------------------

                                closing
    Mid-Dakota is intensely aware of the difficult funding decisions 
that face the Energy and Water Appropriations Subcommittee and we do 
not envy the difficult job that lies ahead. We strongly urge, the 
Subcommittee to look closely at the Mid-Dakota Project and recognize 
the dire need that exists. Consider the exceptionally high level of 
local and State support. And lastly our readiness, our credibility and 
our ability, to proceed.
    Again, we thank the Subcommittee for its strong support, both past 
and present.
                                 ______
                                 

    Prepared Statement of the Humboldt Bay Harbor, Recreation, and 
               Conservation District, Eureka, California

    Mr. Chairman and Members of the Subcommittee, thank you once again 
for the opportunity for me, Charles Ollivier, as president, on behalf 
of the board of commissioners of the Humboldt Bay Harbor, Recreation, 
and Conservation District in Eureka, California to submit prepared 
remarks to you for the record in support of the Fiscal Year 2003 Energy 
and Water regular appropriations measure to fund the U.S. Army Corps of 
Engineers Water Resources Development Program.
    We appreciate these are trying times for the fiscal budget of the 
U.S. Army Corps of Engineers through no fault of their own. Those of us 
across the length and breadth of this nation who are dependent upon a 
strong, qualified and diversified water resources program must stand 
shoulder to shoulder with the Corps and their supporters in Congress to 
ensure adequate funding of Corps projects and a revitalized Corps 
program.
    Through the efforts of this Subcommittee and our own Representative 
Mike Thompson of the First Congressional District of California and 
Senators Boxer and Feinstein, the long-awaited Humboldt Harbor and Bay 
Deepening Project was completed in April 2000. We have already seen 
improvements in navigation safety and increased commerce since 
completion of construction.
    This project is of critical importance to the future development of 
Humboldt Bay and County, and the entire northcoast region of the state 
of California. With the increased volume of imports and exports--still 
principally forest products--we remain California's fifth ranked 
commercial port in tonnage. The prospect of year round predictable 
navigable port access is the premise upon which we intend to attract a 
new diversified mix of commercial enterprise attracted to the area as a 
northwest distribution hub for imported goods. So supportive of these 
efforts are the local populace, we are the only major commercial port 
in the United States in which our local shippers contribute through a 
local harbor maintenance fee to share in the cost of construction of 
the Federal project over the life of the project.
    However, independent of construction project completion, we remain 
an annual maintenance port year in and year out using both Corps and 
contractor dredge assets to maintain project depths and safe navigation 
for both large commercial vessels and the largest commercial fishing 
fleet between San Francisco Bay and the Columbia River. Shoaling in our 
channel is not a mere inconvenience and commercially costly in lost 
time but often historically results in loss of life and property 
damage. Our geographic location, hydrodynamic, and adverse winter 
weather conditions in the North Pacific combine to require annual 
maintenance of our Federal channel or lives are put in jeopardy for 
those unfamiliar with the geography, Humboldt Bay is the only deep-
draft natural harbor strategically situated along four hundred miles of 
Pacific coastline between San Francisco and Coos Bay, Oregon. 
Prevailing winter wave conditions at the Humboldt bar and entrance have 
posed extreme navigation safety hazards, resulting in loss of life and 
significant property damage over the years. In 2000, 1.4 million tons 
of forest products, fuel and other commodities crossed the Humboldt 
bar. It has been projected that, with the deepening project complete, 5 
million tons per year is possible. this growth can only be realized 
with continued annual maintenance dredging.
    We are grateful to the subcommittee--and the committee conferees--
for including $3.516 million in the operations and maintenance general 
account for fiscal year 2002. We support the President's budget request 
for $3.426 in the operations and maintenance general account for fiscal 
year 2003 even though this represents only 56 percent of the funds 
needed to adequately maintain the Federal channels through maintenance 
and advanced maintenance dredging. Therefore, we request the 
Subcommittee increase this amount to $6.219 million.
    With 2 years of post construction maintenance experience, it is 
apparent that the source of continual shoaling at the channel entrance 
requiring continual and occasional emergency maintenance dredging is 
traceable to sources contiguous but outside project boundaries.
    The increased budget request from fiscal year 2003 is necessary to 
perform advanced maintenance work on the channel boundaries in the 
paramount interests of navigation safety and environmental protection. 
In addition, expanded survey work to monitor the new hydrodynamics of 
the channel after completion of project construction is essential for 
safety and future maintenance planning. Our additional request above 
the President's budget is based upon a recent Corps survey south of the 
navigation channel of how the sand accumulation is impacting the main 
channel and requires advanced maintenance dredging of this area with 
the intended result of saving additional money, lives, property, and 
the bay environment over the long term.
    Should the problem persist an alternative remedy may be a necessary 
project boundary adjustment or modification. For these reasons we may 
be the appropriate subject of a 20 year dredged material management 
plan not so much to deal with issues associated with dredged material 
disposal--our material is largely clean sand--but rather to determine 
ways in which Corps minimum fleet assets drawn largely from the North 
Pacific Division and private contract dredging capacity may be most 
efficiently utilized over the long term as the paramount need for 
maintenance dredging will always remain. We are extremely grateful for 
the commendable efforts by the San Francisco District to modify the 
annual maintenance dredging schedule to optimize dredging efficiency 
and protect year-round navigation. In particular, we recognize the 
efforts of the Corps of Engineers in scheduling the Essayance and 
Yaquina from the Corps fleet for emergency dredging when no commercial 
dredge vessels are available.
    The completion of the deepening project coupled with effective 
annual maintenance dredging, will provide unique economic development 
opportunities for the North Coast region. These capitalize upon our 
natural resources base enabling us to ship our commodities to world 
markets at competitive freight rates, and ship more of our imports and 
exports by water rather than transship them long distances by road or 
rail to market. At the same time it will permit us to diversify our 
economic base by improving our transportation infrastructure and 
attracting new industrial activity to an area historically dependent 
upon the economic well-being of the cyclical forest products industry. 
We are currently suffering from closure of major facilities and 
continuing uncertainty surrounding the forest products industry's 
future as a major contributor to our long term economic base.
    Our navigation project has a unique history. With the support of 
then Congressman Riggs, Congress authorized the Humboldt Harbor and Bay 
38 Foot Deep Draft Navigation Project in Section 101 of the Water 
Resources Development Act of 1996 (WRDA 1996) (Public Law 104-303) at 
an estimated total construction cost of $15,178,000 with a required 
local contribution of $5,180,000, and a first Federal cost of 
$10,000,000. The project has a 1.9 to 1 favorable benefit cost ratio. 
It has no significant environmental impacts and enjoys the consensus 
support of Federal, State, regional, and local agencies.
    In June 1998, with the support of the California Maritime 
Infrastructure Authority in the first of its kind issuance of revenue 
bonds to finance a Federal navigation project, we were able to raise 
$3.9 million matched by an additional $1.0 million in local 
redevelopment agency funds from the City of Eureka to meet our required 
local contribution to project construction cost.
    In order to provide an additional revenue stream from which to 
service the debt incurred in meeting its financial obligations, the 
district has implemented the first of its kind harbor user fee under 
section 208 of WRDA 1986 so that vessels and cargo benefitting from the 
navigation improvements will share in the cost of providing them. Our 
experience will now assist Congress in revising provisions of WRDA 1986 
that have prevented the U.S. Customs Service from assisting us in the 
efficient collection of those local fees and ports across the country 
from recovering additional costs of port safety and security following 
the events of 9/11 of last year.
    On behalf of the members of the commission and harbor district, we 
appreciate those prior occasions in which we have had the opportunity 
to appear before the Subcommittee. We look forward to appearing before 
this Subcommittee on future occasions to provide updated reports on the 
economic benefits and progress we expect will follow the successful 
completion of this project. We are prepared to supplement our prepared 
remarks for the record in response to any questons that the Chair, 
Subcommittee Members, or staff may wish to have us answer.
    Thank you Mr. Chairman and Members of the Subcommittee.
                                 ______
                                 
 Prepared Statement of the Moss Landing Harbor District, Monterey Bay, 
                               California
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
Chairman and Members of the Board of Harbor Commissioners, thank you 
for the opportunity for me, Jack Compton, as President of the Board of 
Harbor Commissioners of Moss Landing Harbor District in California to 
submit prepared remarks to you for the record in support of the fiscal 
year 2003 energy and water regular appropriations measure.
    The Commission recognizes and expresses its gratitude to our two 
Senators, the Honorable Dianne Feinstein, a valuable member of this 
Committee, and the Honorable Barbara Boxer for their continued 
assistance and support on our behalf.
    We express our profound appreciation to the Subcommittee and full 
Committee for its inclusion of $2,500,000 in Operations and Maintenance 
funds in the fiscal year 2002 budget for badly needed maintenance 
dredging of the Federal entrance channel and the initiation of a first 
ever dredged material management plan for the Harbor District in order 
to plan for orderly maintenance dredging of the Federal channel and 
local berths over the next twenty or more years.
    The coming year fiscal year marks the first time in a decade that 
we have returned to a normal three year maintenance cycle of the 
Federal channel. To this end we request the Subcommittee's approval of 
a $2.750 million in appropriations from the Operations and Maintenance 
general account in order to complete the dredged material management 
plan and dredge the Inner Harbor segment of the Federal channel 
including disposal of sediments at a recommended disposal site under 
the long term plan.
    At long last as part of our planning effort, we have initiated a 
ground breaking marine Ecological Risk Assessment (ERA) under Corps of 
Engineers and EPA guidance with the assistance of USACE Waterways 
Experiment Station (WES) personnel and USACESFD staff. This effort is 
supported by a working group organized under national dredging team 
local planning guidance, including representatives of the Federal, 
state and local agencies, and other stakeholder and public interest 
groups with an interest in dredging activites.
    We hope this effort will: (1) produce both a useful and practical 
multidisciplinary decision document for those agencies exercising 
regulatory or oversight jurisdiction over dredging; and (2) serve as a 
model for collaborative effort in dredged material disposal consensus 
decision making in unique situations such as for other Corps districts 
and local sponsors seeking to balance required maintenance dredging to 
support navigation with the corresponding need to protect 
environmentally sensitive areas, in this instance the unique Monterey 
Submarine Canyon located at the heart of the Monterey Bay Marine 
Sanctuary.
    As part of the effort we are compelled to benchmark suitable upland 
disposal sites for both ecological risk assessment and maintenance 
dredging purposes. We are bounded by the Elkhorn Slough National 
Estuarine Sanctuary and the Monterey Bay Marine Sanctuary severely 
limiting available disposal options. The Harbor District lies within 
the watershed of two rivers draining some of the richest agricultural 
land in the nation but which also serves as the upstream source of 
agricultural pesticides posing a permanent dilemma as to alternative 
disposal options. Compounding this is the high cost of acquisition of 
available upland disposal sites, approximately $35 million for the one 
remaining suitable long term disposal site.
    We plan to document this process and our experience for 
incorporation in Corps planning guidance for national use and 
Congressional oversight as a valuable tool for environmental regulatory 
process streamlining.
    The working group in support of this effort is comprised of every 
state, Federal and local agency with responsibility for the conduct and 
statutory oversight of dredging activities act the site located within 
the boundaries of the Monterey Bay National Marine Sanctuary (MBNMS), 
including the Sanctuary, U.S. Army Corps of Engineers, San Francisco 
District (USACESFD), USEPA region IX, U.S. Fish and Wildlife Service 
(USFWS), California Coastal Commission, California Department of Fish 
and Game, the Central Coast Regional Water Quality Control Board, along 
with representatives of related local agencies, the commercial fishing 
industry, public interest groups and marine research community, 
including the Moss Landing Marine Laboratory of California State 
University and the Monterey Bay Aquarium Research Institute (MBARI) 
home ported in the Harbor District.
    For those of you who are more familiar with the world renowned 
Monterey Peninsula and Bay and our acclaimed aquarium, our harbor is 
home to the largest commercial fishing fleet on the Central Coast of 
California and the largest concentration of Federal, state and private 
marine research and millions of dollars in capital investment in 
vessels and facilities on the West Coast. Both nationally significant 
research and commercial fishing activities would be threatened without 
ongoing maintenance dredging.
    As part of voluntary local cost sharing contribution to our dredged 
material management plan, as local sponsor we have expended over 
$120,000 to date for sedimentary transport studies of both mud and sand 
and associated contaminants from various sources in the SF-12 area 
including the unique Monterey Bay Marine Canyon, $16,000 for the 
collection of sediment samples (some of which need critical testing and 
evaluation before their expiration), $12,000 for an extensive 
literature search, and $25,000 in coordinating with, and sponsoring 
meetings of the working group. USEPA Region IX has also contributed 
financially to this important endeavor providing funds for the peer 
review process.
    The first stage ecological risk assessment (``ERA'') underway 
consists of three main phases: (1) problem formulation; (2) analysis; 
and (3) risk characterization, including comparative risk assessment as 
data permits.
    The first phase consists of a screening ERA to identify those 
chemicals, ecological receptors, and exposure pathways requiring 
further evaluation in subsequent phases and to identify additional data 
needs. This phase will address elements of problem formulation, and 
utilizes mostly existing data.
    The problem formulation phase includes the following components: 
(1) data evaluation and chemical of potential concern selection--an 
evaluation of dredged material characteristics to select chemicals of 
potential concern for further evaluation; (2) ecosystem 
characterization--identification of the habitats and aquatic, wildlife, 
and human receptors of potential concern; (3) conceptual ecological 
quantitative model development--an evaluation of complete and 
potentially complete exposure pathways (disposal characteristics), 
selection of indicator species (sensitive species representative of 
different levels of the food chain), and identification of assessment 
and measurement endpoints; and (4) data gap analysis--identification of 
data needs and studies required to complete the assessment.
    Because of the nature of the Moss Landing dredged material disposal 
(hydraulic dredging to a highly dispersive site) and the similarities 
of the disposal process to the ongoing sediment deposition to Monterey 
Bay from the local watershed, the initial evaluation will focus on 
these ongoing processes. The ongoing sediment deposition and its 
effects on the Monterey Bay ecosystem can provide a real-time 
indication of the stressor-response relationship. Existing data will be 
reviewed and additional data collected as deemed necessary in the data 
gap analysis described above.
    The second phase analysis will include the following elements: (1) 
watershed characterization--an evaluation of the sediment and chemical 
loading to Monterey Bay from the surrounding watershed; (2) 
hydrodynamic evaluation--an evaluation of the dispersional/depositional 
patterns/zones; (3) sediment characterization--an evaluation of 
sediment chemical concentrations in depositional zones); (4) biota 
characterization--an evaluation of resulting biota concentrations 
(benthos and fish)--some benthic community analysis may be conducted as 
well; (5) toxicity identification evaluation (TIE)--an evaluation of 
toxic effects and identification of toxicants; (6) exposure and effects 
assessments--an evaluation of food chain effects and an evaluation of 
human health effects; (7) risk characterization--integration of the 
above elements to estimate risks; (8) uncertainty analysis.
    The first phase of this evaluation will include a screening level 
assessment using conservative assumptions. As necessary, additional 
data will be collected to refine these assumptions and provide more 
realistic estimates of exposure and effects.
    The third phase of risk evaluation will determine if no significant 
risks are predicted in the above evaluation. Subsequent phases of the 
ERA will estimate the level of additional deposition (i.e., dredged 
material disposal) that could occur before resulting in unacceptable 
risks. If significant risks are predicted in the ambient level 
assessment, the subsequent phases will include predicting the 
incremental risk from disposal of dredged material.
    The working group will convene to review and comment upon the 
detailed work plan and then once again to comment upon the draft report 
and to assist in planning the second stage effort for the next fiscal 
year.
    Project deliverables will include: (1) a detailed work plan, 
quantitative model, sampling and analysis plan, and quality assurance 
program plan; (2) draft, draft final, and final reports; and (3) a 
monitoring plan.
    The draft report is anticipated to be released before the end of 
this fiscal year and subject to working group and peer review upon 
release.
    The second stage of the risk assessment will be funded out of 
fiscal year 2003 appropriations and will commence immediately following 
the release of the first stage report. This effort will include a field 
evaluation involving a test disposal of sediments at the SF-12 site and 
monitoring efforts with the assistance of laboratory personnel and 
fixed assets to coincide with the completion of the Inner Harbor 
dredging episode by USACESFD.
    The final second stage report will complete DMMP/ERA and serve as 
the basis for long term dredged material management planning and 
regulatory decision making by the USACE and other Federal, state and 
local agencies exercising good judgment replacing a high level of 
uncertainty with a confidence level based upon sound risk management 
methodology and supported by site specific data.
    This effort is intended to save current and future expenditures by 
providing a proven analytical and scientific framework with which to 
balance the costs and risks of upland and unconfined aquatic disposal 
of dredged material, a problem affecting ports and harbors across the 
Nation and threatening to have an adverse impact on future Corps 
maintenance budgets.
    I am prepared to supplement my prepared remarks for the record in 
response to any questions that the Chair, Subcommittee members, or 
staff may wish to have me answer. Thank you Mr. Chairman and members of 
the Subcommittee. This concludes my prepared remarks.
                                 ______
                                 

              Prepared Statement of the City of Morro Bay

    During World War II the Army Corps of Engineers (ACOE) designed and 
constructed a new harbor entrance at Morro Bay with two rock 
breakwaters. Since the initial construction, over 50 years ago, the 
Federal government has maintained the harbor entrance, breakwaters and 
navigational channels.
    In fiscal year 1995 the ACOE completed the Morro Bay Harbor 
entrance improvement project to improve safety for commercial fishing 
and coastal navigation. The City of Morro Bay was the local sponsor and 
contributed over $900,000 in cash and in-kind services. Morro Bay is a 
small city of 10,000 with very limited resources but made this project 
one of its highest priorities for almost 10 years because of the 
regional importance of the harbor. Without continued Federal 
maintenance, all of the past local and Federal investment will be lost.
    Morro Bay Harbor is the only all-weather harbor of refuge between 
Santa Barbara and Monterey on the West Coast. Our Harbor directly 
supports almost 250 home-ported fishing vessels and marine dependent 
businesses. We provide irreplaceable maritime facilities for both 
recreational and commercial interests. Businesses that depend on the 
harbor generate $53,500,000 annually and employ over 700 people. The 
United States Coast Guard (USCG) maintains a 27 person search and 
rescue station at Morro Bay Harbor to provide the Coast Guard services 
for the entire Central California Coast. In 2000 the California 
legislature designated Morro Bay and several other small ports along 
the California coast as ``Harbors of Safe Refuge''. This legislation 
recognizes the critical role many small harbors play in affording a 
safety zone for commercial and recreational vessels transiting the 
California coast.
    Exposure to the open ocean and strong winter currents carrying 
sediment into the harbor create the need for a routine maintenance 
schedule to insure that the harbor entrance and federally designated 
navigation channels remain safe and navigable. It is imperative that 
the federally constructed navigation channels and protective jetties be 
maintained to insure safe commerce and navigation on a 300 mile stretch 
of the California Coast.
    Last year the budget included $3.8 million for dredging of the 
navigational channels including the Entrance Channel, the Navy Channel 
and the Morro Channel. This year the President recommends $1.28 million 
for maintenance dredging of the Federal navigation improvements in the 
fiscal year 2003 budget focusing on the Entrance Improvement Area. This 
area fills in the most rapidly and creates the most hazardous 
conditions. We respectfully request that your distinguished 
subcommittee include $1.28 million in dredging funds for Morro Bay 
Harbor to keep our harbor open and safe in all conditions.
    In addition to being home port to over 250 commercial fishing 
vessels, Morro Bay Harbor is part of the federally designated National 
Estuary Program. The Morro Bay Estuary was the subject of an ACOE 
reconnaissance study (funded by Congress in 1998) of potential projects 
to restore sensitive habitat through improving tidal circulation and 
decreasing sedimentation. The County of San Luis Obispo and the Bay 
Foundation are acting as local sponsors for the Feasibility Phase. We 
support the President's recommendation for $200,000 to continue work on 
the feasibility study for the Morro Bay Habitat Restoration project in 
fiscal year 2003. We feel an additional appropriation of $100,000 would 
help expedite the Feasibility Study.
    Our thanks again for your actions and continued support. I am 
grateful for the opportunity to present these requests to your 
subcommittee on behalf of the citizens of the City of Morro Bay.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

                        [In millions of dollars]
------------------------------------------------------------------------
                                             President         UMRBA
                                              Request     Recommendation
------------------------------------------------------------------------
Construction General:
    Upper Miss. River System                      12.200          33.520
     Environmental Mgt. Program.........
    Major Rehabilitation of Locks and             19.770          31.084
     Dams...............................
Operation and Maintenance: O&M of the            143.383         167.192
 UMR Navigation System..................
General Investigations:
    Upper Mississippi and Illinois                 1.000           3.685
     Waterway Navigation Study..........
    Upper Mississippi River System Flow             .463            .995
     Frequency Study....................
    Upper Mississippi River                        1.814           1.814
     Comprehensive Plan.................
    Stream Gaging (U.S. Geological                  .500            .500
     Survey)............................
------------------------------------------------------------------------

                              introduction
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
river-related state programs and policies and for collaborating with 
Federal agencies on regional issues. As such, the UMRBA works closely 
with the Corps of Engineers on a variety of programs for which the 
Corps has responsibility. Of particular interest to the basin states 
are the following:
Environmental Management Program
    For the past 15 years, the Upper Mississippi River System 
Environmental Management Program (EMP) has been the premier program for 
restoring the river's habitat and monitoring the river's ecological 
health. As such, the EMP is key to achieving Congress' vision of the 
Upper Mississippi as a ``nationally significant ecosystem and a 
nationally significant commercial navigation system.'' Congress 
reaffirmed its support for this program in the 1999 Water Resources 
Development Act by reauthorizing the EMP as a continuing authority and 
increasing the annual authorized appropriation to $33.520 million. 
Despite this clear indication that the EMP is an important program, 
despite its track record of success, and despite the fact that there is 
capability to expend the full authorized appropriation, the President's 
fiscal year 2003 budget includes only $12.2 million for the EMP. This 
funding level reflects an extraordinary reduction of 40 percent from 
fiscal year 2002. Furthermore, it represents a mere one-third of the 
authorized annual funding level. Such a dramatic cut will have 
devastating effects on the program and must be reversed.
    Roughly two-thirds of EMP funding is devoted to habitat restoration 
activities such as island creation, side channel closures and openings, 
water level control, and selective backwater dredging. The severely 
reduced fiscal year 2003 budget will dramatically affect these on-going 
habitat restoration efforts. In particular, planning work will be 
reduced on at least 8 projects. Design work will be cut back on another 
6 projects and abandoned entirely on 6 projects. In addition, 
construction work on 7 projects will be entirely dropped and 
significantly reduced on another 2 projects. In short, there will be 
sufficient funds to proceed with construction of only 5 projects.
    The EMP long-term resource monitoring program (LTRMP) faces equally 
devastating cuts. The LTRMP currently supports six field stations 
throughout the river system that routinely collect standardized data on 
water quality, sediment, fish, invertebrates, and vegetation at over 
150 sites. In addition, the LTRMP conducts focused studies to evaluate 
restoration options and develops computerized data analysis and 
integration tools. This monitoring and research is critically 
important, not only in support of the EMP habitat projects, but also to 
a vast array of other Federal and State river management 
responsibilities. If EMP funding is cut back to $12.2 million in fiscal 
year 2003, the LTRMP will need to be significantly restructured. Either 
the spatial extent of the program will need to be reduced, by 
eliminating field stations, or sampling intensity and rigor will need 
to be reduced. Neither alternative is sustainable and ultimately the 
ability of the program to fulfill its Congressionally mandated mission 
will be jeopardized.
    Funding cutbacks for the EMP could not have come at a worse time. 
The Corps of Engineers has recently restarted its Navigation Study on 
the Upper Mississippi River and Illinois Waterway System with the 
expectation that the study will set the future course for improving 
both the river navigation infrastructure and ecosystem. Yet without a 
strong EMP program as one of the tools to meet river environmental 
needs, that future is indeed bleak. The UMRBA thus strongly urges that 
EMP funding be increased from $12.2 million to the full authorized 
annual appropriation of $33.17 million in fiscal year 2003.
Major Rehabilitation of Locks and Dams
    Given that most of the locks and dams on the Upper Mississippi 
River System are over 60 years old, they are in serious need of repair 
and rehabilitation. For the past 16 years, the Corps has been 
undertaking major rehabilitation of individual facilities throughout 
the navigation system in an effort to extend their useful life. This 
work is critical to ensuring the system's reliability and safety.
    The UMRBA supports the Corps' fiscal year 2003 budget request of 
$19.77 million for major rehabilitation work at four locks and dams on 
the Upper Mississippi River. Half of this amount is to be provided by 
the Inland Waterways Trust Fund. Funding for Lock and Dam 12 ($5.404 
million) and Lock and Dam 24 ($10.0 million) will support continuing 
work, including rehabilitation of lock machinery and concrete 
resurfacing. Funding for Lock and Dam 3 ($3.0 million) will support 
corrections to hazardous outdraft conditions and reconstruction of the 
embankments, which are structurally unsound. Funding for Lock and Dam 
11 ($1.366 million) will support excavation and placement of rock fill 
and derrick stone upstream and downstream of the dam. The funds that 
the Corps has requested are expected to be sufficient to accomplish the 
work scheduled at these four sites. However, an additional $11.314 
million could be used to accelerate work on Lock and Dam 11 ($3.134 
million), including completion of the scour protection work and award 
of the Stage II lock rehabilitation contract; complete plans and 
specifications and award contract for Stage I of the lock 
rehabilitation work at Lock and Dam 19 ($3.680 million); and advance 
completion of the lock wall contract by six months for Lock and Dam 24 
($4.500 million).
Operation and Maintenance (O&M) of the Upper Mississippi River 
        Navigation System
    The Corps of Engineers is responsible for operating and maintaining 
the Upper Mississippi River System for navigation. This includes 
channel maintenance dredging, placement and repair of channel training 
structures, water level regulation, and the routine operation of 29 
locks and dams on the Mississippi River and 7 locks and dams on the 
Illinois River. The fiscal year 2003 budget includes approximately $143 
million for O&M of this river system, including $102.668 million for 
the Mississippi River between Minneapolis and the Missouri River, 
$13.878 million for the Mississippi River between the Missouri River 
and Ohio River, and $26.837 million for the Illinois Waterway.
    These funds are critical to the Corps' ability to maintain a safe 
and reliable commercial navigation system. In addition, these funds 
support a variety of activities that ensure the navigation system is 
maintained while protecting and enhancing the river's environmental 
values. For example, O&M funds support innovative environmental 
engineering techniques in the open river reaches such as bendway weirs, 
chevrons, and notched dikes that maintain the navigation channel in an 
environmentally sensitive manner. In addition, water level management 
options for a number of pools in the impounded portion of the river are 
being evaluated under the O&M program. Pool level management, such as 
that being tested in Pool 8, is a promising new approach for enhancing 
aquatic plant growth and overwintering conditions for fish without 
adversely affecting navigation.
    While the funds that the Corps has requested for fiscal year 2003 
are expected to be adequate to meet basic O&M requirements, the UMRBA 
supports additional funding of $23.809 million, which could be 
effectively utilized in fiscal year 2003 for critical needs such as 
electrical repairs, bulkhead repairs, repairs to cracks and spalls on 
lockwalls, concrete repairs, repairs to liftgates, revetment and dike 
repairs, and replacement of roller gate chains at various lock 
locations on the upper river. Additional funds are also needed to 
support work related to fish passage at dams.
Navigation Study
    In August 2001, Director of Civil Works Major General Robert 
Griffin, issued guidance for restructuring the Upper Mississippi River 
and Illinois Waterway Navigation Study. This study was initiated in 
1993 and later ``put on hold'' in 2001 to allow mid-course adjustments 
in response to recommendations from the National Research Council and a 
new National Federal Senior Principals Task Force.
    The study is now on a new course that has the potential for 
developing a collaborative integrated strategy to meet both the 
navigation and environmental needs of this great river. The UMRBA 
welcomes this new approach to the study and its committed to working 
with the Corps of Engineers to ensure that it is brought to a 
successful and timely conclusion. However, to do so will require more 
funding than that originally anticipated for fiscal year 2003. UMRBA 
thus supports funding of $3.685 million for the UMR-ILWW Navigation 
Study in fiscal year 2003.
Upper Mississippi River System Flow Frequency Study
    Flow frequencies for the Upper Mississippi River System badly need 
revision. The flood profiles currently in use were developed in 1979 by 
an interagency task force and replaced profiles previously adopted in 
1966. However, the accuracy of the 1979 profiles has come into question 
now that there are over 20 years of new data, including flow records 
from several high water events such as the Great Flood of 1993.
    Flood elevation profiles have a variety of important uses including 
flood insurance; floodplain management; and the study, design, and 
construction of flood control projects. Thus, the five states of the 
Upper Mississippi River Basin have been strong supporters of the Corps' 
efforts to reassess the methodology, update the data, and develop more 
sophisticated and accurate models. The Administration's fiscal year 
2003 budget includes $463,000 for the Upper Mississippi River Flow 
Frequency Study. However, an additional $532,000 is needed in fiscal 
year 2003 to prevent a 2-year delay in completion of this important 
cutting edge study. In fiscal year 2002, the study received only 
$630,000 of the $1.2 million appropriated by Congress. It is imperative 
that the Flow Frequency Study be completed in a timely fashion because 
the results of the study will provide the foundation for development of 
a systemic flood damage reduction plan, authorized in the 1999 Water 
Resources Development Act as the ``Upper Mississippi River 
Comprehensive Plan.'' The UMRBA thus supports $995,000 for the Flow 
Frequency Study in fiscal year 2003 to help bring this critical study 
to a successful conclusion.
Upper Mississippi River Comprehensive Plan (Flood Damage Reduction)
    Section 459 of the Water Resources Development Act of 1999 
authorized the Corps to develop what is termed an ``Upper Mississippi 
River Comprehensive Plan,'' the primary focus of which is systemic 
flood damage reduction and flood protection. Such a study is an 
important complement to the on-going, newly restructured Navigation 
Study for the Upper Mississippi River and Illinois Waterway. It is 
imperative that the flood damage reduction comprehensive plan proceed 
immediately, in tandem with the Navigation Study, to ensure that all 
major needs of the river system are addressed in an integrated fashion.
    In fiscal year 2002, $1 million was appropriated to initiate the 
Comprehensive Plan for flood damage reduction. However, only $630,000 
has been allocated to date. In light of this, the UMRBA supports the 
fiscal year 2003 funding request of $1.814 million to advance the UMR 
Comprehensive Plan. In particular, funds are needed to complete the 
Project Management Plan (PMP) and the inventory of existing floodplain 
data, and to initiate development of systemic floodplain digital data 
coverage.
Stream Gaging
    The Corps of Engineers in cooperation with the USGS operates 
approximately 150 stream gages in the Upper Mississippi River Basin. In 
fiscal year 2002, the estimated Corps share of the cost of these gages 
is $1.805 million. Most stream gages are funded as part of the cost of 
the project to which they are related. However, there are a number of 
gages that are not associated with a particular project. Thus, UMRBA 
supports the $500,000 requested under General Investigations to support 
the Corps' share of non-project USGS stream gages, many of which are 
located in the five states of the Upper Mississippi River Basin.
                                 ______
                                 

 Prepared Statement of the Clark County Regional Flood Control District

    Presented herewith is testimony in support of $40,000,000 for the 
construction appropriation necessary for the U.S. Army Corps of 
Engineers to continue the Tropicana and Flamingo Washes flood control 
project in Clark County, Nevada. Also, testimony in support of 
$5,000,000 appropriation to reimburse the non-Federal sponsors, Clark 
County and the Clark County Regional Flood Control District, for work 
performed in advance of the Federal project pursuant to Section 211 of 
the Water Resources Development Act (WRDA) of 1996. This project is 
located in the rapidly growing Las Vegas Valley in Southern Nevada.
    The Las Vegas Valley continues to experience unprecedented growth 
in the past 20 plus years. People have moved into the area from all 
parts of the nation to seek employment, provide necessary services, 
retire in the Sunbelt, and become part of this dynamic community. It is 
estimated that 6,000 people relocate to the Las Vegas Valley every 
month of the year. Currently the population exceeds 1.4 million. The 
latest statistics show that more than 30,000 residential units are 
built annually. Once all of these factors are combined, the result is 
that the Las Vegas Valley continues to be one of the fastest-growing 
areas in the nation.
    The Federal project being constructed by the Corps of Engineers 
(Corps) is designed to collect flood flows from a 160-square mile 
contributing drainage area. The Corps' project includes three debris 
basins, five detention basins, 28 miles of primary channels, and a 
network of lateral collector channels. The debris basins are designed 
to collect flood flows from undeveloped Federal lands at the headwaters 
of the alluvial fans and trap large bedload debris before it enters the 
channels and causes erosion damage. The detention basins function to 
greatly reduce the magnitude of the flood flows so that the flows can 
be safely released and conveyed through the developed urbanized area at 
non-damaging rates. The outflow from the debris basins and the reduced 
flows from the detention basins will be contained in the primary 
channel system that will also serve as outfalls for the lateral 
collector channels. While this latter element (lateral collector 
channels) is considered a non-Federal element of the entire plan, it is 
being funded locally because it is a necessary element for the system 
to function properly and afford flood protection for the community. 
Since flood flow over the alluvial fans, which ring the Las Vegas 
Valley, is so unpredictable in terms of the direction it will take 
during any given flood, all of the components of the Corps' plan are 
critical.
    Torrential rains deluged the Las Vegas Valley the morning of July 
8, 1999, causing widespread drainage problems and major damages to 
public and private properties. Some of the largest rainfall depths 
occurred over the southwest portions of the Las Vegas Valley resulting 
in significant flows in the Tropicana and Flamingo Washes. The runoff 
that resulted from this intense rainfall caused widespread street 
flooding and record high flows in normally dry washes and flood control 
facilities. The news media reported two deaths resulting from this 
flood event, one of which was a drowning in the Flamingo Wash. Damages 
to public property resulting from this storm are estimated at 
$20,500,000. The President declared Clark County a Federal disaster 
area on July 19, 1999, recognizing the severity of damages to public 
and private properties. Significant damages could have been avoided if 
the Corps' Tropicana and Flamingo Washes Project had been fully 
implemented. However, those features of the Corps' project that were 
completed did help to mitigate damages. The storm of July 8, 1999, 
further reemphasizes the need to expeditiously implement all flood 
control projects in the Las Vegas Valley.
    The Feasibility Report for this project was completed in October 
1991, and Congressional authorization was included in the WRDA of 1992. 
The first Federal appropriation to initiate construction of the project 
became available through the Energy and Water Resources Development 
Appropriations Bill signed into law by the President in October 1993. 
The Project Cooperation Agreement (PCA) was fully executed in February 
1995. Federal appropriations to date have totaled $159,545,000, 
allowing the project to continue to be implemented. The total cost of 
the project is currently estimated at $291,000,000, higher than 
originally anticipated primarily due to the delay in Federal 
appropriations.
    The local community had already constructed certain elements of the 
Corps' plan prior to the execution of the PCA. These project elements 
required modifications in order to fit into the Corps' plan and fulfill 
the need for a ``total fan approach'' to the flooding problems of the 
Las Vegas Valley. The work performed by the non-Federal sponsors, 
construction of Red Rock Detention Basin and Flamingo Detention Basin, 
has been accounted for in Section 104 credits and total $9,906,000.
    Some of the benefits already realized from construction of flood 
control features on the federal project include the removal of 12.3 
square miles of flood zones from Federal Emergency Management Agency's 
(FEMA) Flood Insurance Rate Maps. This was accomplished through the 
completion of the Red Rock Detention Basin Modifications and the Blue 
Diamond Detention Basin. Additional benefits are forthcoming when 
revised flood zone maps will be submitted to FEMA to show the effects 
of flood zones removed along the Tropicana Wash and its tributaries due 
to the completion of the Tropicana Detention Basin, Las Vegas Beltway 
Channels (7A, 7B, 8 & 9), Tropicana Outlet Channel, Lower Blue Diamond 
Channel, and Lower Flamingo Diversion Channel.
    As non-Federal sponsors for this important flood control project, 
both the Clark County Regional Flood Control District and Clark County 
are looking forward to the construction start of each feature of this 
project and the project's ultimate completion.
    The non-Federal sponsors are requesting $40,000,000 for the 
continued construction of this project. Funding at this level will 
allow the Corps of Engineers to:
    Complete/continue construction on the following.--R-4 Debris Basin 
and Channel; Upper Flamingo Diversion Channel; F-1 Debris Basin and 
Channel; F-2 Debris Basin and Channel.
    Start construction of the following.--Upper Blue Diamond Channel; 
F-4 Debris Basin and Channel; Flamingo Detention Basin Expansion.
    In 1996, the local sponsors were notified that Federal funding 
would be reduced for the Corps' flood control project in Las Vegas due 
to reductions in the Corps' overall Federal budget. Our community has 
already suffered a 5-year delay in project completion due to past 
reductions in Federal funding. Any further delays in Federal funding, 
in the fastest growing community in the nation, will mean increased 
project costs due to lost opportunities compounded by inflation. It 
might also mean further loss of life.
    In order to provide the required flood protection in a timely 
fashion, the non-Federal sponsors are implementing certain features in 
advance of the Federal Government pursuant to Section 211 of WRDA 1996. 
An amendment to the PCA was fully executed on December 17, 1999, that 
formalizes the provisions of Section 211 of WRDA 1996. Section 211(f) 
of WRDA 1996 identifies the Tropicana and Flamingo Washes Project as 
one of eight projects in the nation to demonstrate the potential 
advantages and effectiveness of non-Federal implementation of Federal 
flood control projects. The work funded by the non-Federal sponsors and 
completed to date pursuant to Section 211 of WRDA 1996 totals 
approximately $24,742,125 and includes features that were designed by 
the non-Federal sponsors and constructed by either the Federal 
Government or the non-Federal sponsors. These features are summarized 
in the following table:

----------------------------------------------------------------------------------------------------------------
                                                                                                     Sponsor's
               Project Element                                   Nature of Work                        Costs
----------------------------------------------------------------------------------------------------------------
Tropicana Detention Basin Outfall--Russell     Design, Construction & Construction Management...        $239,777
 Road Box Culvert.
Tropicana Detention Basin Outfall--Valley      Design, Construction & Construction Management...         170,659
 View Boulevard Box Culvert.
Blue Diamond Channel--Las Vegas Beltway        Design (Project element constructed by Corps)....         419,531
 (Segment 7A).
Blue Diamond & Red Rock Channels--Las Vegas    Design, Construction & Construction Management...      23,552,950
 Beltway (Segment 7B, 8 & 9).
Red Rock Channel--Las Vegas Beltway (Segment   Design (Project element constructed by Corps)....         359,157
 10A).
Total Sponsors' Costs........................  .................................................      24,742,125
Estimated Federal Share......................  .................................................      18,556,594
Appropriations to Date.......................  .................................................       9,600,000
Remaining Federal Share......................  .................................................       8,956,594
----------------------------------------------------------------------------------------------------------------

    The local community appreciates the $9,600,000 in the last two 
Energy and Water Development Appropriation Bills to reimburse the local 
community for work done in advance. For fiscal year 2003, we are asking 
the committee to appropriate funding of $5,000,000 of the remaining 
$8,956,594 to reimburse the non-Federal sponsors the Federal 
proportionate share (75 percent) of the completed work pursuant to 
Section 211 of WRDA of 1996 and the PCA amendment. This amount is 
requested in light of the language contained in the fiscal year 2000 
Energy and Water Development Bill, Senate Report 106-58, which states 
in part, ``The Committee expects a every effort to even out 
reimbursement payments to lessen future budgetary impacts.'' The non-
Federal sponsors' contributions to the project are for the primary 
purpose of providing flood protection as quickly as possible.
    In summary, the Tropicana and Flamingo Washes project is an 
important public safety project designed to provide flood protection 
for one of the fastest growing urban areas in the nation. We ask that 
the committee provide the Secretary of the Army with $40,000,000, in 
fiscal year 2003, in order to facilitate continued design and 
construction of additional phases of this critical flood control 
project. We are also asking that the committee provide the Secretary of 
the Army with $5,000,000 to reimburse the non-Federal sponsors the 
Federal proportionate share of the work completed by the sponsors in 
advance of the Federal Government.
    The committee is aware that flood control measures are a necessary 
investment required to prevent loss of life and damages to people's 
homes and businesses. Flood control is a wise investment that will pay 
for itself by preserving life and property and reducing the probability 
of repeatedly asking the Federal Government for disaster assistance. 
Therefore, when balancing the Federal budget, a thorough analysis would 
prove that there is substantial future Federal savings in disaster 
assistance that supports sufficient appropriations through the Civil 
Works Budget.
                                 ______
                                 

              Prepared Statement of the Port of Garibaldi

    Mr. Chairman and members of the Subcommittee: My name is Carol 
Brown. I am one of three elected Commissioners of the Port of 
Garibaldi, Oregon, located on Tillamook Bay on the Oregon Coast. We 
appreciate the opportunity to present our views on appropriations 
issues to the Committee.
                         appropriations request
    The Port of Garibaldi requests a $315,000 appropriation for 
operations and maintenance (O & M) of Tillamook Bay and Bar, Oregon. 
The budget request is $15,000. The increased funding will allow the 
U.S. Army Corps of Engineers' (Corps) Portland District to prepare 
Plans and Specifications for the Tillamook Bay North and South Jetties.
                report on the tillamook bay jetty system
    There are serious problems with both jetties. The U.S. Coast Guard 
has determined that deterioration of the South Jetty has created a 
dangerous threat to navigation safety. The Corps' recent engineering 
analysis demonstrates that erosion on the north side of the North Jetty 
continues at a highly accelerated rate. Should the North Jetty breach, 
shellfish beds, a county park and a state highway would sustain severe 
damage.
    Restoration and repair of the Tillamook Bay Jetty System is key to 
maintaining navigation safety, protecting both public and private 
property and the environment, and preserving the economic vitality of 
the Oregon Coast.
    In December 2000, The Board of Commissioners of the Port of 
Garibaldi and Tillamook County prepared a report on the Tillamook Bay 
jetty system and bar to inform legislators and other concerned parties 
of the need to restore the jetties and their bar to safe, acceptable 
engineering standards. Excerpts of that report are included below.
    There are three major issues currently associated with the 
deterioration of the system.
  --There is a clearly documented increasing hazard to navigation from 
        erosion around the ocean ends of both jetties and resultant 
        damage to the bar which is causing an escalating loss of life 
        in boating accidents every year.
  --There is a potentially significant loss of land mass containing 
        recreational facilities and permanent structures in one area 
        where the north jetty has already breached near its root.
  --There is data currently being collected (but incomplete at this 
        time) which suggests a possible relationship between the 
        deteriorated condition of the jetties and bar and the degree of 
        flooding in some land areas surrounding Tillamook Bay.
    The report contains a history of construction and repair of the 
jetties by the Corps, an overview of construction and repair results, a 
summary of an independent engineering report solicited by the Port and 
the Corps' own evaluations of the jetties' present condition, reasons 
for restoration of the jetties and bar, and the Commissioners' 
endorsement of repair of the jetty system and bar as both an urgent 
public safety measure and possible contribution to mitigation of 
flooding in the estuary. We will provide a copy of the report to the 
Committee upon request.
                               background
    Since settlement in the 1800s, Tillamook County's primary 
industries have been dairy, water and timber oriented. Tillamook Bay 
and the five rivers which feed it have historically furnished an 
abundance of shellfish, salmon and other species of fresh-water and 
ocean food fish. Over the past century the area has become renowned as 
one of the West's premier sport fishing locations.
    Tillamook County's economy has always depended on prime conditions 
in Tillamook Bay, its estuary and watershed for cultivation and use of 
these natural resources. However, human activities including forestry, 
agriculture and urban development have adversely impacted the entire 
Bay area by increasing erosion rates and landslide potential in the 
forest slopes and significantly reducing wetland and riparian habitat. 
All five rivers entering Tillamook Bay now exceed temperature and/or 
bacteria standards established by the Oregon Department of 
Environmental Quality. The installation of a north jetty on Tillamook 
Bay begun in 1912 caused increased erosion of the Bay's westerly land 
border, Bayocean Spit, on the ocean side. The Spit breached in 1950. 
This allowed the Bay to fill with ocean sands on its southern and 
western perimeters and caused a major reduction in shellfish habitat, 
sport-fishing area, and an increase in the cross-section of the bar. A 
south jetty begun in 1969 helped stabilize the Spit and created the 
navigation channel presently in use.
    Increasingly poor water quality in the Bay's feeder rivers and a 
substantial loss of marine life over the past 25 years enabled 
Tillamook Bay to become part of the National Estuary Program in 1992. 
The Project's scope of study included the estuary and watershed. One of 
the stated goals in the Project's final Comprehensive Conservation and 
Management Plan is ``the reduction of magnitude, frequency and impact 
of flood events.'' This goal was found to be consistent with the scope 
of study of the Corps' Feasibility Study for Water Resources in 
Tillamook County now being conducted, and was incorporated into this 
new project.
    Previous Corps' evaluations of jetty systems clearly state the 
adverse effects of jetty deterioration and infilling of channels and 
bars on tidal prism (the rate at which water flows into and out of the 
Bay) and indicate that they may influence flooding in a bay's estuary. 
During the past thirty-six months measurements have been taken of 
differential water levels in Tillamook Bay and its estuary and speeds 
of tidal flows during normal and high water events. This data suggests 
an increase in the cross-section of the Tillamook Bay bar and some 
channel infilling which may be affecting esturine flooding. These 
measurements are of stated interest to the Corps. The Port of 
Garibaldi, many Tillamook County businesses which have been victims of 
flooding, and some governmental agencies concerned with various aspects 
of the flooding issue are supporting continuing gathering of these 
measurements of water levels and tidal flow speeds.
    While the conditions of jetties and their resultant bars invariably 
and continually affect the bay on which they are constructed, their 
basic function is the creation of a safe channel between ocean and 
harbor for the transit of maritime traffic. As originally designed and 
constructed, the Tillamook Bay jetties accomplished this. Due to their 
present state of deterioration, that initial effectiveness has been 
substantially reduced.
                            results in brief
    Tillamook County has suffered a series of devastating floods since 
the winter of 1996. The storms caused by El Nino/La Nina events have 
increased the rate of deterioration of Tillamook Bay's jetties and bar. 
Their present condition is raising increasing navigational safety 
issues. The north jetty is now breached in an especially sensitive 
location near its root where the wall protects inhabited land, and the 
eroded area is increasing in size. A significant quantity of water 
flowing through this area would result in loss of the existing land 
mass adjacent to it and the structures on it. A second area of 
deterioration on the north jetty at the beach line is threatening to 
breach. But in either location, an infill of the channel with sands 
would reduce the navigability of the channel, further slow the rate of 
tidal flow and impact the cross-section of the bar. An even greater 
degree of danger to boaters than that which presently exists would 
surely be created.
    The Bayocean Spit breach in 1950 buried one-third the Bay's 
shellfish habitat under ocean sands and did extensive damage to 
esturine lands. The lost shellfish habitat has never been recovered. 
The direction of tidal flow in the Bay is such that a breach in the 
north jetty would cause additional buildup of ocean sands to the inside 
edge of the Spit. This infill would eventually deposit toward the south 
end of the Bay and demolish even more shellfish habitat and sport 
fishing area, adversely impacting Tillamook County's already reduced 
economy. The harbor area would certainly suffer some degree of damage, 
resulting in increased commercial hardship.
    But the most serious impact of jetty and bar deterioration has been 
on navigational safety. The United States Coast Guard Tillamook Bay 
Station has publicly commented on the transit danger to sport, 
commercial and their own vessels due to erosion effects which now 
constitute a maritime hazard. Many local sport and most commercial 
fishermen have abandoned Garibaldi as a permanent berth and sought 
harbor facilities where channel navigation is easier and transit of the 
bar less treacherous. The Coast Guard has formally requested that the 
Corps ``restore the north and south jetties to their original 
dimensions, and remove materials from the original construction that 
may now pose a maritime hazard.''
                           principal findings
    Since the last repair to the south jetty, approximately 302 feet 
have been lost to erosion, 215 feet of that amount since 1998. The 
north jetty was designed and authorized by the USACOE to be 5,700 feet 
in length. As of December, 2000, approximately 275 feet of the ocean 
end of the north jetty is eroded and remains below mean lower low water 
level--submerged, in other words. In 1990 the USACOE capped the head of 
the north jetty from its above-water point going landward for a 
distance of 161 feet in an unsuccessful attempt at erosion control. The 
north jetty remains at least 300 feet short of its engineering-approved 
and authorized length.
    Because of the increased magnitude of storms since 1996, both 
jetties have suffered far more damage than that normally expected to 
occur to such structures. Erosion and displacement of large support 
stones at the ocean ends of both jetties is particularly severe, and 
the submerged ends of both structures are being pushed southward. These 
two areas, adjacent to popular sport fishing locations, are now 
identified by the Coast Guard as extremely dangerous locations. Water 
swirls around the displaced boulders causing eddies sometimes strong 
enough to suck small boats into them. Even in calm, flat seas, water 
breaks over these boulders into waves powerful enough to throw smaller 
vessels onto the jetties. (This was the case on September 22, 2000, 
when a sport fishing boat inadvertently drifted inside the 200 foot 
exclusion zone and was dashed onto the end of the south jetty. Two 
people were killed and a third injured, this incident being the most 
recent loss of life this year in the accident record of the Tillamook 
Bay jetties and bar.)
                               conclusion
    On behalf of the Port of Garibaldi and Tillamook County, I thank 
the Committee for giving me this opportunity to provide testimony on 
the Tillamook Bay Jetty System.
                                 ______
                                 

              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal 2003 appropriations. We understand and appreciate that the 
Subcommittee's ability to fund programs within its jurisdiction is 
limited by our current national emergency.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has more than 1,000,000 individual 
members and 1,900 corporate associates. We have programs in all 50 
states and in 27 foreign countries. We have protected more than 12.6 
million acres in the United States and more than 80 million acres with 
local partner organization worldwide. The Conservancy owns and manages 
1,400 preserves throughout the United States--the largest private 
system of nature sanctuaries in the world. Sound science and strong 
partnerships with public and private landowners to achieve tangible and 
lasting results characterize our conservation programs.
    The Nature Conservancy urges the Committee to support the following 
appropriation levels in the fiscal 2003 Energy and Water Development 
Appropriation bill:
  --White River Basin Comprehensive Study in Arkansas.--The White River 
        Basin Comprehensive Study will enable the Corps to pull 
        together the needs of myriad issues in the White River basin 
        and permit a sensible long term plan for the region. The Nature 
        Conservancy strongly supports $1.1 million in fiscal 2003 for 
        the Army Corps of Engineers (Corps) to begin a Comprehensive 
        Study in the White River basin, an increase over the 
        Administration's $400,000 request.
  --Sacramento and San Joaquin Comprehensive Basin Study.--The 
        Sacramento and San Joaquin Comprehensive Basin Study is 
        examining how to reduce the risk of flood while restoring the 
        watersheds diverse ecosystem. The Nature Conservancy supports 
        $6.0 million in fiscal 2003, an increase over the 
        Administration's $3.0 million.
  --San Joaquin River Basin Feasibility Study, Consumnes and Mokelumne 
        Rivers.--The San Joaquin River Basin Feasibility Study is 
        studying several alternatives to rehabilitate and restore 
        riparian floodplain habitat. The Nature Conservancy supports 
        $500,000 in fiscal 2003, an increase over the Administration's 
        $100,000 request.
  --Section 1135: Project Modification for the Improvement of the 
        Environment.--The Section 1135 Program authorizes the Army 
        Corps of Engineers (Corps) to restore areas damaged by existing 
        Corps projects. This program permits modification of existing 
        dams and flood control projects to increase habitat for fish 
        and wildlife without interrupting a project's original purpose. 
        The Nature Conservancy is the non-Federal cost share partner on 
        a project at Spunky Bottoms on the Illinois River that needs 
        $388,000 in fiscal 2003. The Conservancy supports full funding 
        of $25.0 million for the Section 1135 program in fiscal 2003.
  --Section 206: Aquatic Ecosystem Restoration.--Section 206 is a newer 
        Corps program that authorizes the Corps to restore aquatic 
        habitat regardless of past activities. The Conservancy has 
        several projects that put Section 206 to work restoring 
        important habitat, including a $5 million project at Kankakee 
        Sands in Indiana, and a restoration project at the headwaters 
        of the Big Darby River in Ohio that will need $1.0 million for 
        the construction phase in fiscal 2003. The Conservancy supports 
        full funding of $25.0 million for this valuable program in 
        fiscal 2003.
  --Missouri River Fish and Wildlife Mitigation.--Created in WRDA 1986, 
        the Missouri River Fish and Wildlife Mitigation Project is 
        designed to reverse the negative environmental impacts of lower 
        river channelization and bank stabilization through land 
        acquisition from willing sellers. The Mitigation Project allows 
        the Corps to restore chutes, side channels, and other off-
        channel floodplain habitat for river wildlife. The Conservancy 
        supports a funding level of $20.0 million for fiscal 2003, an 
        increase over the Administration's $17.5 million request.
  --Recovery Implementation Program for Colorado Endangered Fish 
        Species.--The Recovery Program is in its 13 year of working for 
        the recovery of endangered fish species in the Upper Colorado 
        River Basin. The Recovery Program serves as a model of 
        successful cooperation between three states (Colorado, Utah, 
        and Wyoming), Federal agencies, water development interests, 
        power users and the environmental community in the recovery of 
        four endangered fish species. The Conservancy supports $6.3 
        million in fiscal 2003 for the Bureau of Reclamation.
  --Challenge 21: Riverine Ecosystem Restoration and Flood Hazard 
        Mitigation Program.--The Water Resources Development Act (WRDA) 
        1999 authorized the Challenge 21 program as a 5-year, $200 
        million effort to enhance riverine ecosystems and encourage 
        non-structural flood control projects. Challenge 21 directs 
        non-structural flood control, in part through relocation of 
        frequently flooded homes and businesses in smaller communities; 
        and habitat restoration, including floodplain wetland 
        restoration. The Nature Conservancy supports a $25.0 million 
        initial appropriation in fiscal 2003.
  --Upper Mississippi River System Environmental Management Program.--
        The Environmental Management Program (EMP) is an important 
        Corps program that constructs habitat restoration projects as 
        well as conducts long-term resource monitoring of the Upper 
        Mississippi and Illinois Rivers. The EMP operates as a unique 
        Federal-State partnership affecting five states (Illinois, 
        Iowa, Minnesota, Missouri, and Wisconsin). The EMP was 
        reauthorized in WRDA 1999 with an increased authorization in 
        the amount of $33.1 million. The Conservancy supports a funding 
        level of $33.1 million for fiscal 2003 and will permit a 
        controlled increase into the newly authorized funding levels.
  --Yakima River Basin Enhancement Project.--The Yakima River Basin 
        Enhancement Project is a Bureau of Reclamation project that 
        funds water conservation through improvements to Bureau of 
        Reclamation and on-farm irrigation works, water rights and land 
        acquisition. The Nature Conservancy supports $20.0 million in 
        fiscal 2003.
  --Estuary Habitat Restoration Program.--The Estuary Habitat 
        Restoration Program was established with the intent to restore 
        one million acres of estuary habitat by 2010. This multi-agency 
        program will promote projects that result in healthy ecosystems 
        that support wildlife, fish and shellfish, improve surface and 
        groundwater quality, quantity, and flood control; and provide 
        outdoor recreation. The Nature Conservancy supports $10 million 
        in fiscal 2003.
  --Everglades and South Florida Ecosystem Restoration.--The Everglades 
        and South Florida Ecosystem Restoration program is designed to 
        save and restore a critical natural treasure by acquiring high 
        priority natural lands for protection, capturing runoff lost to 
        tide, restoring natural hydropatterns essential for the overall 
        heath of the system and for protecting water supplies for human 
        use. The Nature Conservancy supports the President's budget 
        request for $19.5 million in fiscal 2003.
    Thank you for the opportunity to present The Nature Conservancy's 
comments on the Energy and Water Appropriations bill. We recognize that 
you receive many worthy requests for funding each year and appreciate 
your consideration of these requests and the generous support you have 
shown for these and other conservation programs in the past.
                                 ______
                                 
     Prepared Statement of the Los Osos Community Services District
    The Los Osos Community Services District (LOCSD) respectfully 
submits this testimony in support of Representative Lois Capps' Energy 
and Water Development Act request to appropriate $7.8 million in 
federal fiscal year 2002-03 to pay for design of the Los Osos 
Wastewater Project, Los Osos, California. WRDA Design funding for the 
Los Osos Wastewater Project was authorized in Section 219(a)27 of H.R. 
4577 of 2000.
    The Los Osos Community Services District serves a population of 
14,600 people within a 3,500 acre territory adjacent to the Morro Bay 
National Estuary in San Luis Obispo County. The regulatory agency 
responsible for protecting the groundwater quality for Los Osos, the 
Central Coast Regional Water Quality Control Board (RWQCB), has 
determined that discharge from private septic systems is the principle 
source of nitrate contamination of the shallow portion of the Los Osos 
Groundwater Basin. The RWQCB has issued twenty-four separate Cease and 
Desist Orders and a Time Schedule Order requiring LOCSD to replace the 
septic systems in a 2,500 acre ``Zone of Prohibition'' with a community 
sewer. The RWQCB has also ordered a moratorium on new construction and 
intensification of existing uses within the Zone of Prohibition.
    In addition to the outstanding RWQCB orders, The Morro Bay National 
Estuary Program (MBNEP) has determined that construction of a Los Osos 
Community Sewer is a high priority for protecting the Morro Bay 
National Estuary. In EPA's approved plan for protecting Morro Bay, 
``Turning the Tide for Morro Bay'', the MBNEP states that, ``Another 
important source of nutrients to Morro Bay is generated from leaking 
and failing septic tanks in Los Osos. The Community of Los Osos/Baywood 
Park, with a population of 14,600 is located directly on the edge of 
Morro Bay and is still served by onsite septic systems. It is possible 
that some of the degraded groundwater is entering the bay . . . A 
wastewater system needs to be developed, funds need to be obtained, 
incentives need to be developed, and education activities need to be 
undertaken to resolve this long term problem.''
    The Health Officer for the County of San Luis Obispo has issued 
health warnings regarding the high level of bacteria and pathogens in 
surface water. According to Dr. Richard Lichtenfels of County Health, 
``the Department agrees that the standing pools do represent a health 
threat.'' Until a public sewer and comprehensive surface water drainage 
system is built, this office will continue to monitor the standing 
pools and appraise the community of the potential for disease 
transmission.
    Finally, nitrate contamination of the shallow groundwater basin 
from septic discharge has forced three Los Osos water purveyors to 
abandon production from the unconfined layer and to substitute 
groundwater from the lower confined aquifer. As a result the community 
has started to experience salt-water intrusion in portions of the deep 
groundwater layer.
    To address these problems, LOCSD has selected a community 
wastewater system that the RWQCB has described as viable and 
technically sound. Following is a summary of the collection, treatment, 
and disposal components of the proposed system:
    Collection System.--A gravity collection system would be designed 
to transport raw wastewater from approximately 4,750 sites to the 
treatment facility in 204,000 linear feet of PVC pipe with ten lift 
stations in low spots around the perimeter of the collected area.
    Treatment Facility.--A treatment facility at the TriW site would be 
designed to produce tertiary treated wastewater with a quality suitable 
for public contact (Ca. Health Code Title 22) using the extended 
aeration process followed by filtration and ultra violet light 
disinfection. Since the proposed site is downtown, the proposed 
treatment facility would be covered and odor-scrubbed to avoid use 
conflicts. As a side benefit, the surface of the covered portion of the 
facility would be used for an off-leash dig park, sports fields and 
trails.
    Disposal System.--The disposal system would be designed to recharge 
the groundwater basin with the low nitrate tertiary treated wastewater 
using subsurface leach fields in areas with adequate separation to 
groundwater on both sides of the Los Osos fault trace. This disposed 
tertiary water is recharged into the groundwater table so that the 
District can harvest additional well water down gradient to augment the 
community's sustainable water supply.
    LOCSD has performed the environmental review required by the State 
of California and has certified a Final Environmental Impact Report on 
this proposed project. In the environmental review process, LOCSD has 
coordinated with both the United States Fish and Wildlife Service 
(USF&WS) and the United States Environmental Protection Agency (USPEA). 
LOCSD has submitted formal consultation requests with USF&WS and USEPA 
for mitigation of Rare and Endangered Species Habitat Mitigation and 
for preparation of a watershed wide all species Habitat Conservation 
Plan. LOCSD expects the USF&WS to issue a positive biological opinion 
on LOCSD's proposed project this fall.
    LOCSD has also prepared a preliminary design engineering report to 
evaluate alternative solutions and to provide cost estimates for the 
proposed solution. LOCSD adopted the Los Osos Wastewater Facilities 
Project Report on March 15, 2001. The Project Report estimates that the 
proposed project will cost $84.6 Million for the project described 
above including all design, construction, land acquisition and habitat 
mitigation. Without grant funding, the project would cost the average 
single family property owner approximately $107 per month including 
approximately $80 per month in debt service charges and $27 per month 
in operating user fees. This monthly cost is over five times the cost 
paid by the average wastewater customer in California according to the 
State Water Resources Control Board.
    According to the 1990 U.S. Census, over a third of Los Osos 
residents are classified as low to very low income. LOCSD is concerned 
that construction of the project without significant grant funding 
would displace these residents and dramatically change the social 
fabric of our community. If federal funding is available to pay 75 
percent of the project capital cost ($64,000,000), the average monthly 
cost per residence drops from $107 per month to approximately $45 per 
month per residence. Although $45 per month is still twice the average 
cost paid by residences in other parts of California, it would likely 
displace fewer residents and cause less hardship.
    LOCSD believes that its proposed project warrants federal 
participation because it addresses a federal problem in regards to 
preservation of the Morro Bay National Estuary. As documented earlier, 
the EPA approved recovery plan for Morro Bay identifies LOCSD's project 
as a ``priority action'' for preserving the National Estuary. In 
addition, the District believes that this project should be viewed as a 
federal demonstration project for how other communities can address 
water supply concerns at the same time they respond to federal water 
quality mandates and how communities can locate a treatment facility in 
a downtown area by taking advantage of innovative technology such as 
odor-scrubbing. Additionally, the downtown location results in energy 
savings as compared to pumping the raw waste to and from a site at the 
perimeter of town.
    LOCSD respectfully requests that the Subcommittee approves the 
funding request submitted by Representative Lois Capps for this 
project.
                                 ______
                                 
                 Prepared Statement of American Rivers
    This year, American Rivers was joined by over 600 local, regional 
and national conservation organizations \1\ from all 50 states in 
calling for significantly increased funding for several programs in the 
Energy and Water Development Appropriations bill, including programs 
run by the U.S. Army Corps of Engineers, the Department of Energy, and 
Department of Interior agencies. I urge that these requests be 
incorporated in the Energy and Water Development Appropriations bill 
for fiscal year 2003.
---------------------------------------------------------------------------
    \1\ These groups have endorsed ``The River Budget 2003'', a report 
of national funding priorities for local river conservation. A list of 
groups endorsing the River Budget can be viewed at http://
www.americanrivers.org/riverbudget/default.htm.
---------------------------------------------------------------------------
                 u.s. army corps of engineers programs
    Although projects planned and constructed by the U.S. Army Corps of 
Engineers have produced benefits, including flood protection and cost-
effective transportation, Corps projects have also altered natural 
hydrologic regimes, disturbed river ecosystems, destroyed wetlands, and 
encouraged development in high hazard floodplains. These activities 
have had severe and adverse impacts on the nation's environmental and 
economic health.
    Increasingly, the Corps is being called upon to undo some of the 
damage of the past, and environmental restoration has joined navigation 
and flood control as a new, but equally important, Corps mission. To 
this end, American Rivers encourages funding of the following U.S. Army 
Corps of Engineers programs:
    Section 1135.--The Section 1135 program, Project Modification for 
Improvement of the Environment, allows the Corps to restore river 
systems degraded by existing Corps projects. Under Section 1135, the 
Corps can modify existing dams and flood control projects to increase 
habitat for fish and wildlife, and restore areas affected by Corps 
projects. Non-federal interests must provide for 35 percent of project 
costs, and modifications must not interfere with a project's original 
purpose.
    Despite the significant adverse impacts of Corps projects 
throughout the nation, the Section 1135 program has never been fully 
funded. As a consequence, even though this program has been authorized 
since 1986, only 45 Section 1135 projects had been completed or were 
under construction as of 1999. It is clear that the interest in this 
program is greater than these project numbers indicate. In fiscal year 
2001, 355 Section 1135 projects had to compete for funding totaling 
only $21 million.
    Congress should fully fund Section 1135 with a $25 million 
appropriation.
    Section 206.--A more recent addition to the Corps environmental 
restoration arsenal is Section 206, the Aquatic Ecosystem Restoration 
program. Section 206 allows the Corps to undertake small-scale projects 
to restore aquatic habitat, even in areas not directly harmed by past 
Corps projects. Projects carried out under this program must improve 
the quality of the environment, be in the public interest, and be cost-
effective. Individual projects may not exceed $5 million, and as with 
section 1135 programs, non-federal interests must contribute 35 percent 
of project costs.
    Unfortunately, many communities are unable to participate in this 
program due to inadequate funding. In fiscal year 2001, 185 different 
Section 206 projects had to compete for funding totaling $19 million.
    Congress should fully fund Section 206 with a $25 million 
appropriation.
    Challenge 21.--Escalating flood losses are a national concern. Over 
the past 25 years, the federal government has spent more than $140 
billion for traditional structural flood control projects and flood 
damage recovery. Yet despite these expenditures, billions of public and 
private dollars are spent each year on costly repairs and 
reconstruction of floodplain property and associated infrastructure 
damaged by floods.
    Flooded communities are increasingly seeking and implementing non-
structural solutions to reduce flooding. These solutions include moving 
frequently flooded homes and business out of floodplains and working to 
return the floodplains of rivers and creeks to a condition where they 
can naturally moderate floods. In addition to reducing flood losses, 
non-structural projects help meet many other goals of riverside 
communities, including improving water quality, increasing 
opportunities for recreation, and improving and restoring wildlife 
habitat. Unfortunately, however, most federal spending does little to 
support non-structural solutions to flood damage reduction.
    Challenge 21, a flood damage reduction program authorized in 1999, 
is designed to help support non-structural flood control solutions. 
Also known as the Flood Hazard Mitigation and Riverine Restoration 
Program, Challenge 21 allows the Corps to relocate vulnerable homes and 
businesses in smaller communities, restore floodplain wetlands, 
increase opportunities for riverside recreation, and improve quality of 
life in riverside communities. Challenge 21 also authorizes the Corps 
to work with other federal agencies to help local governments both 
reduce flood damages and conserve, restore, and manage riverine and 
floodplain resources. Individual Challenge 21 projects cannot exceed 
$25 million, and local communities must provide 35 percent of project 
costs.
    Challenge 21 is currently authorized for only five years. In April 
2003, the Corps must report to Congress on the efficacy of the program 
in achieving the dual goals of flood hazard mitigation and riverine 
restoration, and make recommendations concerning continuing the 
program. But before the Corps can make a meaningful assessment, it must 
have the funding to implement the program. Unfortunately, although $50 
million was authorized to be appropriated for fiscal years 2001 and 
2002, Challenge 21 has received no funding to date.
    Congress should appropriate $50 million for the Flood Hazard 
Mitigation and Riverine Restoration Program for fiscal year 2003 
through fiscal year 2005.
    Environmental Management Program.--More than half of the fish and 
wildlife habitat created by the Mississippi River's backwaters and side 
channels could be lost by 2035. This would lead to a catastrophic 
collapse of the nation's most productive and diverse inland fishery. 
Loss of river habitat also threatens a $1.2 billion river-recreation 
industry, which supports 18,000 jobs. One way Congress can help reverse 
this degradation and restore the Upper Mississippi River is to increase 
funding for the Environmental Management Program (EMP).
    EMP, the primary habitat restoration and monitoring program on the 
Upper Mississippi, has restored or created 28,000 acres of habitat to 
date. When the projects currently under construction are completed, it 
will have protected more than 97,000 acres of habitat.
    Congress should appropriate $33.17 million for the Environmental 
Management Program.
    Lower Columbia River Estuary Program.--In its 2000 Biological 
Opinion for the Federal Columbia River Power System, the National 
Marine Fisheries Service identified improvements in the estuary as a 
key piece of a larger plan to recover the twelve threatened and 
endangered Columbia Basin salmon stocks. The decline of salmon in the 
Columbia and Snake River basin is an indicator of declining health in 
the basin generally, and salmon declines also have had negative 
economic effects. An Oregon State University Extension Service report 
concludes that the commercial salmon fishing industry provided $41 
million in personal income annually from 1976-1980; in 1998, it 
provided just $4 million.
    Section 536 of the 2000 Water Resources Development Act (WRDA) 
authorizes $30 million for the Corps to implement the Lower Columbia 
River Estuary Partnership and Tillamook Estuary Comprehensive 
Conservation and Management Plans. So far these programs have received 
no appropriations. This year we are requesting an initial $2 million 
appropriation under this authorization. This initial request also would 
help federal agencies begin to meet the estuary restoration 
requirements called for in the Biological Opinion for the Columbia and 
Snake rivers.
    The WRDA authorization enjoyed strong regional support from a 
bipartisan group of elected officials including 12 House members from 
Oregon, Idaho, and Washington. The initial appropriation we are 
requesting is supported by the Bush administration and a diverse 
regional group including ports, river industry groups, recreational 
groups, regional Native American tribes and conservationists.
    Congress should appropriate at least $2 million for restoration of 
habitat in the lower Columbia River under section 536 of the 2000 Water 
Resources Development Act (WRDA).
    Individual River Restoration Projects.--Over the past 100 years, 
the United States has led the world in dam building for a variety of 
uses, including hydropower, irrigation, flood control and water 
storage. While they can provide benefits to society, numerous dams have 
outlived their intended purpose and no longer make sense. Many are old, 
unsafe, and represent a threat to their river ecosystems. Several 
individual dam removal projects initiated by the Corps need federal 
appropriations to move forward. These projects will all restore natural 
river functions and restore access to migratory fish habitat, and are 
likely to provide economic benefits to neighboring communities. Each of 
these projects has been endorsed by a wide range of stakeholders and 
approved for federal action. Congress should appropriate to the Corps 
the following for individual river restoration projects: (i) $1.6 
million to continue a feasibility study to assess how best to remove 
the Matilija Dam and restore the Ventura River in southern California; 
(ii) $500,000 to continue a feasibility study to determine how to 
remove Rindge Dam and restore Malibu Creek in southern California; 
(iii) $7 million to notch Elk Creek Dam on Elk Creek in Oregon for the 
purpose of providing fish passage to species on the Endangered Species 
list; and (iv) $6.9 million to restore the Rappahannock River in 
Virginia through the removal of Embrey Dam.
                     department of energy programs
    Federal Energy Regulatory Commission in Hydropower Licensing.--The 
Federal Energy Regulatory Commission is responsible for issuing 
licenses and permits that govern the operation and construction of non-
federal hydropower dams. Solid funding levels for the Federal Energy 
Regulatory Commission's hydropower program help ensure that the agency 
can make timely decisions about environmental requirements that protect 
river health. Congress authorizes the amount of money FERC may spend in 
a given year, but that money is collected entirely from licensees 
through annual fees and not from tax dollars. Thus, an increase in 
FERC's authorized hydropower budget will be passed onto the dam owners 
and will not impact taxpayers or the deficit.
    Congress should appropriate $46 million for FERC hydropower 
relicensing.
    Energy Efficiency and Renewable Energy Programs.--Many different 
types of energy production, including fossil fuel development, affect 
our rivers, which are a public resource. As we advance in energy 
efficient technology and the use of renewable energy sources, we can 
reduce demand and soften the impacts of energy production on rivers. 
However, the Department of Energy (DOE) presently spends twice as much 
money on research and development for fossil fuels as for renewable 
energy programs. Congress should take steps to eliminate our dependency 
on fossil fuels by supporting enhanced appropriations for the DOE's 
energy supply and energy conservation programs. Renewable energy 
options and energy efficiency are a win-win option for consumers and 
the environment.
    Congress should boost appropriations for DOE energy conservation 
(efficiency) and energy supply (renewable energy) programs to $1 
billion and $700 million, respectively.
                    department of interior programs
    Yakima River Basin Enhancement Project.--The Yakima River Basin is 
the largest river basin wholly within the state of Washington. It is 
home to Washington's largest Native American tribe and contains one of 
the largest Bureau of Reclamation (BOR) projects in the West. The 
Yakima once produced between a half million and 800,000 salmon and 
steelhead per year. Today these species exist at only one percent of 
their historic abundance. The BOR project has depleted and polluted 
river flows, and water rights conflicts in this basin are legendary. 
Partly as a result, Yakima River bull trout and steelhead are now 
listed under the Endangered Species Act.
    Phase II of The Yakima River Basin Water Enhancement Project, 
authorized by Congress in 1994, was designed to ameliorate these 
conditions for both fish and farmers. It aims to restore the river and 
make better use of the existing water supplies. This legislation was a 
compromise formed by the basin's disparate stakeholders, and the 
program it created is a model for water conservation and acquisition.
    Congress should appropriate $20,000,000 for the Yakima River 
Enhancement Project.
    Water Conservation Field Services Program.--This program, begun in 
1997 as a response to the Bureau of Reclamation's obligation to fulfill 
the water conservation mandate of the Reclamation Reform Act of 1982, 
has been vastly underfunded. The types of projects carried out by WCFSP 
are critical to sound water management at BOR projects because they 
address basic infrastructure needs, including: the technology needed to 
create water budgets; innovative conservation demonstration projects; 
and education programs on the proper use of these technologies and 
techniques by irrigators to simultaneously improve crop production and 
water efficiency. The grant funding mechanisms for this program are the 
Efficiency Incentives Program (EIP) and the Water Management and 
Conservation Program (WMC).
    Congress should appropriate at least $3.7 million for the Water 
Conservation Field Services program.
                                 ______
                                 
               Prepared Statement of the State of Wyoming
  support for fiscal year 2003 upper colorado region endangered fish 
                       recovery programs funding
    I request your support for an appropriation in fiscal year 2003 of 
$6,297,000, to the Bureau of Reclamation within the line item labeled 
``Endangered Species Recovery Programs and Activities for the Upper 
Colorado River Region.'' Of that line-item amount, it is requested that 
$4,464,000 be designated for expenditure on construction activities 
associated with the Recovery Implementation Program for Endangered Fish 
Species in the Upper Colorado River Basin (Upper Basin Program), 
$1,328,000 be designated for construction activities associated with 
the San Juan River Basin Recovery Implementation Program (San Juan 
Program), $455,000 be designated for fish and wildlife management 
development, and $50,000 be designated for water and energy management 
and development. The President has requested these amounts in his 
recommended budget for fiscal year 2003.
    These ongoing, highly successful, cooperative programs involving 
the States of Colorado, New Mexico, Utah and Wyoming, Indian tribes, 
federal agencies and water, power and environmental interests reflect 
the proper approach to providing endangered species conservation and 
recovery within the framework of the existing federal Endangered 
Species Act, while concurrently resolving critical conflicts between 
endangered species recovery and the development and use of Compact-
apportioned water resources in the Upper Colorado River Basin region of 
the Intermountain West. As you know from letters sent in prior years, 
these Programs have as their objective recovering four species of 
endangered fish while water development proceeds in compliance with the 
Endangered Species Act of 1973.
    Substantial non-federal cost sharing funds are provided by the four 
states, power users, and water users in support of these recovery 
programs. During the 106th Congress, Public Law 106-392 was enacted 
authorizing the federal government to provide these funds. That law 
recognized the significant non-federal cost share that is being 
contributed by the non-federal participants and was passed in both the 
House and the Senate with strong bipartisan support.
    The support of your Subcommittee in past years is gratefully 
acknowledged and genuinely appreciated, and has been a major factor in 
the success of these multi-state, multi-agency programs in progressing 
towards endangered fish species recovery in the Upper Colorado and San 
Juan River Basins while necessary water use and development activities 
are occurring. I again request the Subcommittee's assistance to ensure 
that the Bureau of Reclamation is provided with adequate funding for 
these vitally important programs.
 support for $17,500,000 of fiscal year 2003 funding for the bureau of 
      reclamation's colorado river basin salinity control program
    This statement is sent in support of fiscal year 2003 funding for 
the Bureau of Reclamation's Colorado River Basin salinity control 
program. I request and thank you in advance for inclusion of this 
statement in the formal hearing record concerning fiscal year 2003 
appropriations.
    The Colorado River provides municipal and industrial water for 27 
million people and irrigation water to nearly four million acres of 
land in the United States. The River also serves about 2.3 million 
people and 500,000 acres in Mexico. The threat of salinity is a major 
concern in both the United States and Mexico. Salinity affects 
agricultural, municipal, and industrial water users. Damages in Mexico 
are unquantified, but damages in the United States are presently 
estimated to amount to about $330 million per year. The salinity of the 
River is high, in almost equal part because of naturally occurring 
geologic features including underlying salt formations and saline 
springs; and effects associated with man's storage, use and reuse of 
the waters of the River system. Over-application of irrigation water by 
agriculture is a large contributor of salt to the river, as irrigation 
water seeps through saline soils and returns to the River.
    The 1944 Mexico Treaty obligates the United States to provide 1.5 
million acre-feet of water to Mexico, but does not address quality. 
Mexico filed a formal protest in the 1960's when the salinity levels of 
water being delivered pursuant to the Treaty increased sharply. Several 
minutes to the Treaty were negotiated, including Minute 242, to address 
the water quality concerns voiced by Mexico. That minute requires that 
the average annual salinity of the Colorado delivered upstream from 
Morelos Dam (Mexico's principal diversion dam) does not exceed the 
average salinity of the water arriving at Imperial Dam by 115 parts per 
million (PPM), plus or minus 30 PPM.
    The Environmental Protection Agency's interpretation of the 1972 
amendments to the Clean Water Act required the seven Basin states to 
adopt water quality standards for salinity levels in the Colorado 
River. The Colorado River Basin Salinity Control Forum was created as 
an interstate coordination mechanism in 1973. Its members are 
gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming.
    To address salinity problems in this country, and ensure the United 
States could meet its obligation to Mexico, the Congress passed the 
Colorado River Basin Salinity Control Act of 1974. Title I addressed 
the United States' obligations to Mexico to control the River's 
salinity so that our water deliveries to Mexico are within the 
specified salinity concentration range. Title II of the Act authorized 
measures upstream of Imperial Dam and directed the Secretary of the 
Interior to construct several salinity control projects, most of which 
are located in Colorado, Utah, and Wyoming. Title II of the Act was 
again amended in 1995 and 2000 to direct the Bureau of Reclamation to 
conduct a basin-wide salinity control program. This program's approach 
involves awarding grants to non-federal entities, on a competitive-bid 
basis, which initiate and carry out salinity control projects. The 
basin-wide program has demonstrated significantly improved cost-
effectiveness, computed on a dollars per ton of salt loading reduction 
basis, as compared to Reclamation-initiated projects specifically 
authorized in the 1974 Act and its 1984 amendment. The Forum was 
heavily involved in the development of the 1974 Act and its subsequent 
amendments, and has continued to actively oversee the federal agencies' 
salinity control program efforts.
    For the past 29 years, the seven-state Colorado River Basin 
Salinity Control Forum has actively assisted the federal agencies, 
including the Bureau of Reclamation, in implementing this unique, 
collaborative and important program. At its October 2001 meeting, the 
Forum recommended that the Bureau of Reclamation should expend 
$17,500,000 in fiscal year 2003. We strongly believe these efforts 
constitute one of the most successful Federal/State cooperative non-
point source pollution control programs in the United States.
    The State of Wyoming greatly appreciates the Subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
respectfully suggest this important basin-wide water quality program 
merits continued funding and support by your Subcommittee.
                                 ______
                                 
        Letter From the Perkins County Rural Water Systems, Inc.
                                                     March 8, 2002.
Subcommittee on Energy and Water Development,
Committee on Appropriations, United States Senate, SD-127, Washington, 
        DC 20510.
    Subcommittee of Energy and Water Development: The Perkins County 
Rural Water System, respectfully requests, an opportunity to testify as 
outside witnesses at the fiscal year 2003 appropriation hearings being 
held by this Subcommittee and that said testimony be placed in the 
official record of the Subcommittee. Perkins County Rural Water 
System's written testimony will be in favor of a $4.3 million fiscal 
year write-in appropriation.
    The Perkins County Rural Water System was authorized pursuant to 
Public Law 106-136. The Perkins County Rural Water project is in the 
process of completing all preconstruction requisites and desires to 
begin work on the construction elements of the Project. Perkins County 
Rural Water System was the recipient of a $3.4 million appropriation 
for fiscal year 2002. That money is being used to finish pre-
construction requisites and construction.
    Thank you for your attention to this request.
            Respectfully yours,
                                             Terry Haggart,
                 President, Perkins County Rural Water System, Inc.
 perkins county rural water system, inc. in northwestern south dakota--
                            project overview
Project Location and Description
    Perkins County Rural Water System, Inc. (PCRWS) would provide 
potable water to approximately 200 farms and ranches and two towns, 
Lemmon and Bison, in Perkins County, South Dakota. The system would 
serve rural users and provide bulk water to Lemmon and Bison. Currently 
the only two existing water systems in the project area are the 
municipal supply systems for the towns of Lemmon and Bison.
    When constructed, PCRWS would be the first rural water system in 
Perkins County.
    The purpose of PCRWS is to create a water distribution network to 
deliver treated water to rural subscribers, who currently rely upon 
well water of variable quality and quantity. Both Bison's and Lemmon's 
water currently has high concentrations of sodium and sulfates of which 
recommended limits are consistently exceeded. The implementation of 
this project would ensure a reliable supply of water to rural residents 
that meet the water quality standards of the Safe Drinking Water Act.
    The proposed primary water source will be buying bulk water from 
Southwest Water Authority of southwestern North Dakota. They obtain 
their water from an intake on the Missouri River and move it to a 
treatment plant at Dickinson, North Dakota. It is then piped to the 
border for PCRWS. The proposed system will include approximately 520 
miles of distribution pipe, 4-5 booster pumps, and 2-4 supply tanks.
Sponsors
    The Perkins County Rural Water System, Inc., a non-profit 
corporation consisting of nine (9) directors from three districts, 
sponsors the project. The money for the project is available at a 75 
percent federal grant, 10 percent state grant, and 15 percent local 
match. The 75 percent federal grant will be from the Bureau of 
Reclamation, the lead federal agency for the project. The state funds 
will be administrated through the South Dakota Department of 
Environment and Natural Resources. The consumers of PCRWS plus a loan 
from either the State of South Dakota or U.S. Department of 
Agriculture, Rural Development, will provide the 15 percent local 
money. KBM, Inc. of Grand Forks, North Dakota, and The Alliance of 
Rapid City, South Dakota is under contract to perform the engineering 
services for the project.
Water Source Alternatives
    The proposed water source is a bulk supply of water treated and 
delivered by Southwest Water Authority. Line capacity for delivery has 
been or will be paid by PCRWS to deliver 400 gallons per minute to the 
border of South Dakota.
    Other alternatives that were considered are water from deep-water 
wells and water from Shadehill Reservoir, a Bureau of Reclamation 
project. Since both of these sources were very high in sodium and total 
dissolved solids (TDS), treatment would be accomplished by reverse 
osmosis. Raw water would have been blended with treated water to obtain 
the quantity needed. A third alternative would have been a combination 
of Southwest water and a treatment plant. All alternatives were 
rejected because of the added expense to operation and maintenance of 
the system.
Water Treatment Facilities
    Water will be treated at the Dickinson water treatment plant in 
Dickinson, ND. The water treatment plant has expanded from six (6) 
million gallons per day to twelve (12) million gallons per day and has 
also turned management over to Southwest Water Authority within the 
last two years. The current plant uses a conventional lime softening 
process to treat the water. Chloramines are added at the Dodge pumping 
station and the rest of the treatment takes place in the Dickinson 
treatment plant.
Benefits of the Project
    PCRWS will provide a clean, safe domestic water supply to users in 
Perkins County. Currently, rural residents obtain water from shallow 
water wells whereas the towns obtain their water from deep-water wells 
in the Fox Hills aquifer. Water quality in the shallow wells is high in 
sodium and TDS. Water from the deep-water wells is high in sodium, 
fluoride, and sulfates. These chemicals are either at or above 
recommended levels set by the EPA.
Permits and Environmental Requirements
    Final report of Class I Cultural Resources Research and Survey 
Design Plan has been completed and has been sent to the Bureau of 
Reclamation for their consideration. Scoping letters have been mailed 
and comments returned to the Bureau of Reclamation. The Bureau is also 
working with KBM, Inc. on Environmental Assessments and Tribal issues.
    Utility permits to occupy state and county rights of way are being 
worked on by the local sponsor. Permits and easements from private 
landowners are also being obtained. Special use permits will be 
required for any part of the line that crossed U.S. Department of 
Agriculture, U.S. Forest Service.
Proposed Construction Schedule
    Construction of the PCRWS will begin late summer of 2002 after 
reports and assessments have been approved by the Bureau of 
Reclamation. Work on the Lodgepole project is ongoing and construction 
hopefully will be started and finished this year. Construction of the 
entire project is dependent on federal funding levels per year, but the 
project could be completed in 4-5 years.
Tables
    The following tables show the construction budget, the O&M budget 
and the budget request for fiscal year 2003:

                               TABLE 1.--PIPELINE CONSTRUCTION--SOUTHWEST PIPELINE
----------------------------------------------------------------------------------------------------------------
                    ITEM                     NO. UNITS          UNITS            UNIT PRICE      EXTENDED PRICE
----------------------------------------------------------------------------------------------------------------
Mobilization...............................          1  LS..................        $50,000.00        $50,000.00
Water Main:
    1.5" PVC Class 200.....................    615,261  If..................             $1.80     $1,107,469.80
    2.0" PVC Class 200.....................     33,977  If..................             $1.91        $64,896.07
    2.0" PVC Class 160.....................    812,852  If..................             $1.87     $1,520,033.24
    3.0" PVC Class 200.....................     35,037  If..................             $2.12        $74,278.44
    3.0" PVC Class 160.....................    344,871  If..................             $2.10       $724,229.10
    4.0" PVC Class 200.....................     32,228  If..................             $3.02        $97,328.56
    4.0" PVC Class 160.....................    400,231  If..................             $2.86     $1,144,660.66
    6.0" PVC Class 200.....................     44,792  If..................             $6.07       $271,887.44
    6.0" PVC Class 160.....................    237,145  If..................             $5.70     $1,351,726.50
    8.0" PVC Class 200.....................     43,595  If..................             $7.92       $345,272.40
    8.0" PVC Class 160.....................    121,835  If..................             $7.30       $889,395.50
    1.0" Poly..............................        300  If..................             $4.50         $1,350.00
    4.0" Poly..............................      4,500  If..................            $12.25        $55,125.00
1.0" Curb Stop.............................          6  ea..................           $175.00         $1,050.00
1.5" Curb Stop.............................         50  ea..................           $275.00        $13,750.00
Water Meters:
    Residential Meters.....................        320  ea..................         $1,000.00       $320,000.00
    1.5" Water Meters......................         14  ea..................         $2,000.00        $28,000.00
4" Meter Station...........................          1  ea..................        $30,000.00        $30,000.00
8" Meter Station...........................          1  ea..................        $40,000.00        $40,000.00
Frost Proof Water Meter....................         27  ea..................           $950.00        $25,650.00
Water Service Installation.................        184  ea..................           $100.00        $18,400.00
River Crossings............................         13  ea..................         $5,000.00        $65,000.00
Non-cased Bore.............................         94  ea..................           $600.00        $56,400.00
Cased Bore.................................      8,600  If..................            $50.00       $430,000.00
Gate Valves:
    2".....................................         85  ea..................           $300.00        $25,500.00
    3".....................................         15  ea..................           $375.00         $5,625.00
    4".....................................         30  ea..................           $400.00        $12,000.00
    6".....................................         25  ea..................           $475.00        $11,875.00
    8".....................................          6  ea..................           $620.00         $3,720.00
Pressure Reducing Valves...................         33  ea..................         $8,000.00       $264,000.00
ARV Station................................      2,056  ea..................         $1,500.00     $3,084,000.00
Reservoir Pumping Station..................          4  ea..................       $175,000.00       $700,000.00
Booster Stations...........................          8  ea..................       $140,000.00     $1,120,000.00
Signs......................................        418  ea..................            $21.00         $8,778.00
Seeding....................................      1,000  Ac..................           $300.00       $300,000.00
Gravel.....................................     18,000  Ton.................            $10.00       $180,000.00
Municipal Improvements.....................          1  LS..................     $1,750,000.00     $1,750,000.00
Reservoir (2,000,000 Gal)..................          1  LS..................       $800,000.00       $800,000.00
Reservoir (100,000 Gal)....................          3  LS..................       $100,000.00       $300,000.00
Connection to SW Pipeline..................          1  LS..................     $5,500,000.00     $5,500,000.00
                                            --------------------------------------------------------------------
      Subtotal--Construction...............  .........  ....................  ................    $22,791,400.71
                                            ====================================================================
U.S. Bureau of Rec. Admin..................         3%  ....................    $22,791,400.71       $683,742.02
Engineering:
    Initial consultation, FER, EA..........  .........  ....................  ................       $255,000.00
    Basic Services.........................  .........  ....................  ................       $935,000.00
    Construction Observation...............  .........  ....................  ................       $685,000.00
    Miscellaneous..........................  .........  ....................  ................          $165,000
Legal & Administration.....................  .........  ....................  ................       $100,000.00
Contingencies & Construction Int...........  .........  ....................  ................       $750,000.00
                                            --------------------------------------------------------------------
      TOTAL PROJECT COSTS..................  .........  ....................  ................    $26,365,142.73
----------------------------------------------------------------------------------------------------------------
The 1993 Feasibility Report indicated a total project cost of $20,000,000 and the above total project cost of
  $26,365,142 approaches the allowable BOR Cost indices.


                                                TABLE 2.--REVENUE
----------------------------------------------------------------------------------------------------------------
                                                    $/1,000 Gal      Gal/1,000        Income           Cost
----------------------------------------------------------------------------------------------------------------
WATER SALES:
    Rural Water.................................           $3.50         123,000     $430,500.00  ..............
    Lemmon......................................           $3.00          71,000     $213,000.00  ..............
    Bison.......................................           $3.00          16,000      $48.000.00  ..............
                                                 ---------------------------------------------------------------
      Total Water Sold..........................  ..............     \1\ 210,000     $691,500.00     $691,500.00
                                                 ===============================================================
                                                             # of Taps
                                                             $/Tap/yr
                                                 ---------------------------------------------------------------
MINIMUMS:
    Headquarters................................             202         $480.00      $96,960.00  ..............
    Potential HQ................................              20         $480.00       $9,600.00  ..............
    Livestock...................................              69         $175.00      $12,075.00  ..............
    Potential Livestock.........................              20         $175.00       $3,500.00  ..............
    Seasonal HQ/Cabins..........................              10         $175.00       $1,750.00  ..............
    Grazing Association.........................              14         $175.00       $2,450.00  ..............
    Potential Grazing Assc......................               3         $175.00         $525.00  ..............
                                                 ---------------------------------------------------------------
      Total Minimums............................             338  ..............     $126,860.00     $126,860.00
                                                 ===============================================================
      TOTAL.....................................  ..............  ..............  ..............     $818,360.00
----------------------------------------------------------------------------------------------------------------



                                                    $/1,000 Gal      Gal/1,000        Income           Cost
----------------------------------------------------------------------------------------------------------------

EXPENSES:                                        ---------------------------------------------------------------
    Water Purchase..............................           $2.10      210,000.00  ..............     $441,000.00
    O&M:
        Electricity (Remote Reservoir and         ..............  ..............      $30,000.00  ..............
         Boosters)..............................
        Telephone...............................  ..............  ..............       $3,000.00  ..............
        Office (supplies).......................  ..............  ..............       $3,000.00  ..............
        Field Supplies, Inventory...............  ..............  ..............       $5,000.00  ..............
        Legal & Audit...........................  ..............  ..............       $4,000.00  ..............
        Dues & Subs.............................  ..............  ..............       $4,000.00  ..............
        Advertising.............................  ..............  ..............       $1,000.00  ..............
        Maintenance.............................  ..............  ..............      $10,000.00  ..............
        Director's Fees.........................  ..............  ..............       $6,000.00  ..............
        Mileage.................................  ..............  ..............       $4,000.00  ..............
        Wages and Taxes.........................  ..............  ..............      $80,000.00  ..............
        Vehicle Expense.........................  ..............  ..............       $5,000.00  ..............
        Outside Services........................  ..............  ..............       $5,000.00  ..............
        Miscellaneous...........................  ..............  ..............       $2,000.00  ..............
                                                 ---------------------------------------------------------------
          TOTAL.................................  ..............  ..............     $162,000.00     $162,000.00
                                                 ===============================================================
    DEBT RETIREMENT:
        Principal \2\...........................  ..............  ..............  ..............   $3,954,771.30
        Percent Interest........................  ..............  ..............            .035  ..............
        No. of Years............................  ..............  ..............  ..............              30
        Cap. Rec. Factor........................  ..............  ..............  ..............          .05437
                                                 ---------------------------------------------------------------
          Total.................................  ..............  ..............  ..............     $215,360.00
                                                 ===============================================================
          TOTAL EXPENSE.........................  ..............  ..............  ..............     $818,360.00
\1\ 400 gal/min.
\2\ Principal = 15 percent of the total project cost ($26,365,142.00, $20,000,000 of total project cost times
  BOR cost indices).

Table 3.--Perkins County Rural Water System, Inc. Budget--Fiscal Year 
2003

        Item                                                     Request

Finish mainline to Lemmon...............................        $550,000
Finish mainline to Bison................................       1,000,000
Finish Lemmon infrastructure............................         720,000
North Dakota State Water Commission partial payment 
    (based on 145 GPM)..................................       1,620,000
Bureau of Reclamation (5 percent).......................         210,000
PCRWS Admin.............................................         100,000
Contingency.............................................         100,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................       4,300,000

It will take this amount of money every year to finish the project in 
five to six years. Perkins County Rural Water System, Inc. will be able 
to complete construction in that timeframe with this amount 
appropriated.
---------------------------------------------------------------------------
                                 ______
                                 
  Prepared Statement of the Tennessee-Tombigbee Waterway Development 
                               Authority
    We are pleased to once again submit our recommendations to you and 
your subcommittee concerning next year's appropriations for the 
Tennessee-Tombigbee Waterway and the Kentucky and Chickamauga Locks on 
the Tennessee River. This is the 42nd consecutive year the Authority 
has had the opportunity to provide its recommendations to the Congress.
    As you know, the Tennessee-Tombigbee Waterway Development Authority 
is a federal interstate compact ratified by the Congress in 1958 to 
promote the development of the Tenn-Tom Waterway and its economic and 
trade potential. It is comprised of the States of Alabama, Kentucky, 
Mississippi, and Tennessee. Governor Ronnie Musgrove of Mississippi 
currently serves as the compact's chairman.
    An adequately funded and well-maintained water transportation 
system is critical to our national security and economic well being. 
The Administration's proposed budget for next fiscal year falls far 
short of these critical needs. Its requests for the Tennessee-Tombigbee 
and other waterway projects are woefully inadequate.

                                          TENNESSEE-TOMBIGBEE WATERWAY
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal Year--
                                                                 -----------------------------------------------
                                                                       2002         2003 Budget        2003
                                                                   Appropriation      Request       Recommended
----------------------------------------------------------------------------------------------------------------
Operations and Maintenance......................................            24.5            23.1            24.8
Wildlife Mitigation Payments....................................             2.0         ( \1\ )             2.0
                                                                 -----------------------------------------------
      Total.....................................................            26.5            23.1            26.8
----------------------------------------------------------------------------------------------------------------
\1\ $1.5 million included in O&M request.

    We greatly appreciate the $28.5 million the Congress provided for 
the Tenn-Tom during this fiscal year. This is the first year that 
adequate funds were appropriated since the Balanced Budget Act of 1997. 
Restricted funding in prior years has resulted in a backlog of deferred 
repairs that had exceeded $10 million. This year's appropriation begins 
to address this maintenance backlog for the first time.
    We are also grateful that the Congress provided $2 million to 
reimburse the conservation agencies of Alabama and Mississippi for 
their costs in managing over 135,000 acres of federal lands that are 
part of the Tenn-Tom Wildlife Mitigation Project. The states agreed to 
assume the federal responsibilities for managing these lands if 
properly reimbursed which until this year had not been the case. The 
Authority strongly recommends that you again provide $2 million as a 
separate line item for payments to the two states for administering 
this federal project.
    The $24.8 million requested for the operation and maintenance of 
the Tenn-Tom will ensure the waterway is adequately maintained. The 
Administration's request, if approved, will further increase the 
maintenance backlog and will harm commercial navigation. The 
recommended increase of $1.7 million above the President's budget will 
ensure a reliable water transportation system for those commercial 
shippers and producers that depend upon the waterway.
    The Tenn-Tom could efficiently use more than the $3.7 million of 
additional funds requested for wildlife mitigation and commercial 
navigation. If available, more funds are needed to address a backlog of 
$9.8 million of indefinitely deferred repairs that have accumulated 
since 1997. Some examples of this serious maintenance backlog that 
unless corrected will affect the structural integrity of the waterway 
and its ability to generate expected benefits are:

                                                                 Million

Re-pave access roads..............................................  $1.2
Correct nav. conditions at Bevill L/D.............................   3.0
Additional dredging needs.........................................   1.8
Upgrade elect. systems project wide...............................   1.6
Replace roof at Whitten Center....................................   0.2

                                                  KENTUCKY LOCK
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal Year--
                                                                 -----------------------------------------------
                                                                       2002         2003 Budget        2003
                                                                   Appropriation      Request       Recommended
----------------------------------------------------------------------------------------------------------------
Lock Construction...............................................            22.0            27.4            45.0
----------------------------------------------------------------------------------------------------------------

    Early completion of a 1,200-foot lock at Kentucky Dam is imperative 
to eliminate one of the worst bottlenecks on the entire 16,000 miles of 
waterways that serve the nation. Unless the new lock is completed and 
placed in service in a timely manner, shippers will sustain over $250 
million in additional transportation costs when the nearly 60-year old 
existing facility is closed for extensive repairs later this decade. 
Over 35,000 barges, transporting nearly 29 million tons of commerce, 
now transit this antiquated lock each year after waiting an average of 
8 hours or more to negotiate this choke point. The $45 million 
recommended by the Authority will enable the Corps of Engineers to 
maintain an optimal and efficient construction for this very important 
project.

                                                CHICKAMAUGA LOCK
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal Year--
                                                                 -----------------------------------------------
                                                                       2002         2003 Budget        2003
                                                                   Appropriation      Request       Recommended
----------------------------------------------------------------------------------------------------------------
Lock O&M........................................................             2.2           1.025           1.025
Preconstruction Eng. & Design...................................             0.5           0.250           4.000
----------------------------------------------------------------------------------------------------------------

    The Authority strongly recommends the Congress continue to provide 
funds to the Corps of Engineers to aggressively maintain the old, 
structurally deteriorating lock at Chickamauga Dam until a newer one 
can be built. The $1,025,000 requested by the President will meet these 
needs.
    The Nashville District of the Corps has recently completed a 
feasibility study of a new lock to replace the existing one. That study 
found that a 75 by 400-foot lock and one with an 110 by 600 foot 
chamber are both economically feasible and environmentally sound. The 
Authority strongly recommends the 110 by 600-foot lock be authorized 
and constructed since it will be compatible with other locks on the 
Tennessee, the Tenn-Tom and adjoining waterways. The larger lock also 
generates more environmental benefits. The proposed new lock will be 
eligible for consideration by the Congress for authorization in this 
year's Water Resources Development Act. We, therefore, recommend that 
$4 Million be appropriated to continue preconstruction engineering and 
design work on this important project.
    The funds we have requested for these three projects as well other 
investments your subcommittee will make in water resources development 
will return monetary benefits of many fold and improve quality of life 
for this and future generations. We know you recognize the importance 
of keeping our waterway infrastructure functioning to meet current and 
future needs and trust that your subcommittee will be able to provide 
these funds.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American:
    Association of Port Authorities, prepared statement..........   355
    Chemical Society, prepared statement.........................   221
    Ohio Valley, prepared statement..............................   309
    Rivers, prepared statement...................................   419
    Society for Microbiology, prepared statement.................   229
    Wind Energy Association, prepared statement..................   226
Apalachicola Bay & River Keeper, Inc., prepared statement........   362
Arkansas River Basin Interstate Committee, prepared statement....   296
Associated Branch Pilots, prepared statement.....................   264
Association for the Development of Inland Navigation in Audubon, 
  prepared statement.............................................   268

Barrett, Lake, Acting Director, Office of Civilian, Radioactive 
  Waste Management, Department of Energy.........................    49
    Prepared statement...........................................    77
    Statement of.................................................    76
Beckner, Dr. Everet, Deputy Administrator for Defense Programs, 
  Department of Energy...........................................   103
    Prepared statement...........................................   127
    Statement of.................................................   124
Bennett, Senator Robert F., U.S. Senator from Utah:
    Questions submitted by.......................................    48
    Statement of.................................................   177
Board of Levee Commissioners for the Yazoo-Mississippi Delta, 
  prepared statements..........................................290, 335
Bowman, Admiral Frank L., U.S. Navy, Director, Naval Nuclear 
  Propulsion Program and Deputy Administrator for Naval Reactors, 
  Department of Energy...........................................   103
    Prepared statement...........................................   118
    Statement of.................................................   116
Brazos River Harbor Navigation District, prepared statement......   305
Brooks, Linton, Deputy Administrator for Defense Nuclear 
  Nonproliferation, Department of Energy.........................   103
    Statement of.................................................   129
Burns, Senator Conrad, U.S. Senator from Montana, statement of...    17
Business Council for Sustainable Energy, prepared statement......   231

Cameron County, prepared statement...............................   306
Carnahan, Senator Jean, U.S. Senator from Missouri, questions 
  submitted by...................................................   200
Central Arizona Water Conservation District, prepared statement..   378
Chambers County-Cedar Bayou Navigation District, prepared 
  statement......................................................   308
City of:
    Crookston, Minnesota, prepared statement.....................   327
    Flagstaff, prepared statement................................   380
    Los Angeles Board of Harbor Commissioners, Port of Los 
      Angeles, prepared statement................................   276
    Morro Bay, prepared statement................................   407
    Phoenix, prepared statement..................................   394
    Santa Barbara, California, prepared statement................   391
    Stillwater, Minnesota, prepared statement....................   323
Clark County Regional Flood Control District, prepared statement.   411
Cochran, Senator Thad, U.S. Senator from Mississippi:
    Questions submitted by.......................................   207
    Statement of.................................................   173
Colorado River Basin Salinity Control Forum, prepared statement..   271
Coosa-Alabama River Improvement Association, prepared statement..   364
County of Volusia, Florida, prepared statement...................   384
Craig, Senator Larry, U.S. Senator from Idaho:
    Questions submitted by.......................................    99
    Statement of.................................................   154
Crescent River Port Pilots' Association, prepared statement......   265
Crow Creek Sioux Tribe, prepared statement.......................   375

Department of the Army, prepared statement.......................    27
Domenici, Senator Pete V., U.S. Senator from New Mexico:
    Prepared statements.......................................... 1, 52
    Questions submitted by......................................91, 137
    Statements of............................................1, 51, 173
Dorgan, Senator Byron L., U.S. Senator from North Dakota, 
  questions submitted by........................................46, 195
Dry Prairie Rural Water, prepared statement......................   273

Eastern Municipal Water District, prepared statement.............   256

Fifth Louisiana Levee District, prepared statement...............   287
Flowers, Lieutenant General Robert B., prepared statement........    32
Fort Peck Assiniboine Tribe, prepared statement..................   273

Garman, David, Assistant Secretary, Office of Energy Efficiency 
  and Renewable Energy, Department of Energy.....................   153
    Prepared statement...........................................   167
    Statement of.................................................   165
Garrison Diversion Conservancy District, prepared statement......   313
Gordon, John A., Under Secretary for Nuclear Security and 
  Administrator, National Nuclear Security Administration, 
  Department of Energy...........................................   103
    Prepared statement...........................................   108
    Statement of.................................................   104
Green Brook Flood Control Commission, prepared statement.........   345

Haze, Pam, Deputy Director of Budget, Department of the Interior.     1
Humboldt Bay Harbor, Recreation, and Conservation District, 
  Eureka, California, prepared statement.........................   403

Inouye, Senator Daniel K., U.S. Senator from Hawaii, questions 
  submitted by...................................................   204
International:
    Association of Fish and Wildlife Agencies, prepared statement   351
    Society for Optical Engineering, prepared statement..........   214

Johnston, J. Ronald, Program Director, Central Utah Project 
  Completion Act, Department of the Interior.....................     1
    Prepared statement...........................................    16
    Statement of.................................................    15

Keys, John W., III, Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     1
    Prepared statement...........................................    10
    Statement of.................................................     8

Lake Charles Harbor & Terminal District, prepared statement......   265
Little River Drainage District, prepared statement...............   292
Los Osos Community Services District, prepared statement.........   417
Louisiana:
     Department of Transportation and Development, prepared 
      statement..................................................   281
    Governor's Task Force on Maritime Industry, prepared 
      statement..................................................   257
Lower Mississippi River Conservation Committee, letter from......   363

Maywood, William D., IV, Director, Office of Nuclear Energy, 
  Science and Technology, Department of Energy...................    49
    Prepared statement...........................................    71
    Statement of.................................................    69
Metropolitan Water:
    District of Southern California, prepared statement..........   266
    Reclamation District of Greater Chicago, prepared statement..   252
Mid-Dakota Rural Water System, Inc., prepared statement..........   398
Missouri River Bank Stabilization Association, prepared statement   349
Moss Landing Harbor District, Monterey Bay, California, prepared 
  state- ment....................................................   405
Murray, Senator Patty, U.S. Senator from Washington:
    Questions submitted by.......................................   190
    Opening statement............................................   153

NAPA County Flood Control and Water Conservation District, 
  prepared statement.............................................   244
National:
    Congress of American Indians, prepared statement.............   278
    Mining Association, prepared statement.......................   387
    Urban Agriculture Council, prepared statement................   343
New Jersey Maritime Resources, State of New Jersey, Department of 
  Transportation, prepared statement.............................   321
New Mexico Interstate Stream Commission, prepared statement......   360
New York City Economic Development Corporation Transportation and 
  Infrastructure, State of New York, Empire State Development 
  Corporation, prepared statement................................   321
North Carolina State Ports Authority, prepared statement.........   355
Nuclear Waste Strategy Coalition, prepared statement.............   211

Oglala Sioux Tribe Rural Water Supply System, prepared statement.   330
Orbach, Dr. Raymond L., Ph.D., Acting Director, Office of 
  Science, Department of Energy..................................    49
    Prepared statement...........................................    53
    Statement of.................................................    53

Perkins County Rural Water Systems, Inc., letter from............   423
Plug Power, Inc., prepared statement.............................   219
Pontchartrain Levee District, prepared statement.................   295
Port Commerce Department, the Port Authority of New York & New 
  Jersey, prepared statement.....................................   321
Port of:
    Garibaldi, prepared statement................................   413
    Greater Baton Rouge, prepared statement......................   263
    Houston Authority, prepared statement........................   349
    New Orleans, prepared statement..............................   260
    South Louisiana, prepared statement..........................   262
Raley, Bennett W., Assistant Secretary for Water and Science, 
  Department of the Interior.....................................     1
    Opening remarks..............................................     3
    Prepared statement...........................................     5
Red River Valley Association, prepared statement.................   337
Reid, Senator Harry, U.S. Senator from Nevada:
    Prepared statement...........................................    43
    Questions submitted by.......................................45, 89
    Statements of...........................................26, 49, 103
Riverside County Flood Control and Water Conservation District, 
  prepared statement.............................................   250
Roberson, Hon. Jessie Hill, Assistant Secretary, Office of 
  Environmental Management, Department of Energy.................   153
    Prepared statement...........................................   157
    Statement of.................................................   156

San Antonio Water System, prepared statement.....................   345
Santa Clara Valley Water District, San Jose, California, prepared 
  statement......................................................   237
Santa Cruz Port District Commission, prepared statement..........   396
Seminole Tribe of Florida, prepared statement....................   385
Sioux Tribe, prepared statement..................................   273
Solar Energy Industries Association, prepared statement..........   212
Southeastern Federal Power Customers, Inc., prepared statement...   223
Southern States Energy Board, prepared statement.................   215
St. Francis Levee District of Arkansas, prepared statement.......   288
State of:
    Arizona, prepared statements...............................267, 392
    Illinois, prepared statements..............................353, 372
    South Carolina, prepared statement...........................   382
    Wyoming, prepared statement..................................   421
Steamship Association of Louisiana, prepared statement...........   260
Stockton East Water District, letter from........................   362

Tennessee-Tombigbee Waterway Development Authority, prepared 
  state- ment....................................................   427
The Nature Conservancy, prepared statement.......................   415
Tumalo Irrigation District, prepared statement...................   320

University Corporation for Atmospheric Research, prepared 
  statement......................................................   234
University of Rochester, prepared statement......................   224
Upper Mississippi River Basin Association, prepared statement....   408

Ventura Port District, prepared statement........................   280

West Tennessee Tributaries Association, prepared statement.......   254
Wolf, Robert, Director, Program and Budget, Bureau of 
  Reclamation, Department of the Interior........................     1


                             SUBJECT INDEX

                              ----------                              

                          DEPARTMENT OF ENERGY

Accelerated:
    Cleanup efforts..............................................   177
    Schedule progress reporting..................................   180
Additional committee questions.............................89, 137, 190
Administrator, Office of the.....................................   114
Advanced:
    Accelerator applications program (AAA).......................    97
    Hydrodynamic test facilities.................................   142
    Nuclear medicine initiative (ANMI)...........................    96
    Scientific computing research................................    65
    Vitrification system (AVS).................................207, 209
        Deployment of the........................................   179
Base budget request..............................................   162
Biological and environmental research............................    63
Biomass..........................................................   199
Biotechnology....................................................    89
Budget:
    Plan, five year..............................................   138
    Request, the fiscal year 2003................................   161
    Summary......................................................   109
Carlsbad community concern.......................................   182
CERCLA closeout document matrix..................................   202
Challenge before us..............................................   158
Cleanup reform:
    Appropriation................................................   161
    Initiative...................................................   185
Closure date documents, predicted 2002...........................   204
Colorado River pollution.........................................   178
Compete mound contract, decision to..............................   195
Contract:
    Competition..................................................   196
    Termination for convenience..................................   196
Core science.....................................................    81
Cost savings from expedited filling of WIPP repository...........   182
Department of Energy budget request, fiscal year 2003............   120
Design and engineering...........................................    81
Dismantled weapons stockpile, storage of.........................   131
Disposition of 2 tons of our plutonium...........................   147
DOE:
    And USACE, March 1999 FUSRAP MOU between.....................   204
    Commitment to Office of River Protection.....................   184
    Goals for our Nation's energy future.........................   196
EERE:
    International efforts, expanding.............................   197
    Reorganization...............................................   197
Electric energy systems and storage..............................   171
Electrometallurgical treatment...................................   100
EM science and technology program elements.......................   100
Energy:
    And assurance................................................   206
    And water development budget request, fiscal year 2003.......   168
    Biosciences..................................................    90
    Research analyses............................................    67
    Sciences, basic..............................................    64
    Security.....................................................    59
    Supply R&D programs technical information management.........    68
Enhanced test readiness..........................................   128
Environment......................................................    59
Environmental:
    Management accelerated cleanup reform account....182, 179, 184, 185
    Managements fiscal year 2003 budget request..................   156
    Science......................................................    99
Equitable contractor requirements................................   175
Facilities and infrastructure:
    Initiative...................................................   141
    Recapitalization.............................................   114
Fast track, making changes on a..................................   160
Federal use of renewable energy, development of..................   200
Fiscal year:
    2002, objectives and accomplishments for.....................    79
    2003:
        Appropriation request, summary of the....................    78
        Budget request, detailed discussion of the...............    80
        Performance measures for.................................    79
FreedomCAR University research programs..........................   205
Fuel cell testing standards......................................   205
Fundamental:
    Change, laying the groundwork for............................   158
    Knowledge, advances in.......................................    60
Funding:
    Allocation, $800 million.....................................   209
    For environmental science, allocation criteria for...........   100
Fusion...........................................................    84
    Energy sciences..............................................    66
Future funding challenges........................................    83
General reduction from the current year..........................   138
Generation IV initiative.........................................    70
Genome identification............................................    84
Geothermal.......................................................   169
Global climate change research...................................88, 93
Grand Junction site..............................................   201
Green tag program................................................   199
Hammer training facility reduction...............................   188
Hanford community dissent........................................   175
High:
    Energy physics...............................................    61
    Level waste..................................................   176
    Temperature superconductivity................................   187
Hydrogen.........................................................   169
    And fuel cell demonstration activities.......................   204
    As an alternate energy source, priority of...................   205
Hydropower.......................................................   170
Idaho National Engineering and Environmental Laboratory 
  accelerated cleanup............................................   176
Innovative technologies..........................................   192
Integrated biomass R&D...........................................   168
International partnerships in nuclear development................    73
Licensing and performance assessment.............................    80
Life extensions..................................................   127
Life-cycle costs of disposal.....................................   192
Litigation.......................................................    83
Long-term safety and security, committed to......................    73
Los Alamos:
    Administration building (A/k/a ``Sm-43'')....................   143
    Construction items...........................................   143
    Fuel cell research at........................................   187
    Land transfers...............................................   186
    National Laboratory foundation...............................   143
Low dose radiation research......................................    92
Low-level waste..................................................   191
Major scientific awards..........................................    61
Manufacturing/certification, W-88 pit............................   128
Materials protection:
    Control and accounting program issues around the world.......   145
    In Russia..................................................144, 145
Medical isotopes for research and health care....................    75
MOAB tailings, moving............................................   178
Modernizing cleanup contracts....................................   180
Mound closure savings and costs..................................   195
Nanotechnology initiative........................................    84
NASA's nuclear system initiative.................................    95
National Center for Combating Terrorism..........................   129
National:
    Ignition facility............................................   128
    Infrastructure Simulation and Analysis Center (NISAC)......149, 150
    Renewable Energy Laboratory (NREL)...........................   173
    Security strategy, transforming the..........................   108
Naval reactors...................................................   114
    Fiscal year 2003 Department of Energy budget detail..........   122
    Funding and technology.......................................   136
Near-term progress, emphasis on..................................    72
Nevada:
    Test site, other national security activities at.............   128
    Transportation...............................................    81
New Mexico delegation, secretarial meeting with..................   183
NNSA:
    Labs in counter-terrorism/homeland security, role on..147, 148, 149
    Organization standup.........................................   115
    Nuclear systems initiative...................................   150
Nonproliferation:
    Activities...................................................   112
    Budget--general..............................................   144
Nuclear energy:
    Key to energy security, climate strategy.....................    71
    Plant optimization (NEPO)....................................    98
    Research initiative..........................................70, 98
Nuclear:
    Fleet issue..................................................   119
    Physics......................................................    62
    Posture review.............................................139, 140
    Power 2010...............................................69, 87, 94
    Science and technology infrastructure........................    74
    Weapons, legislation to modify...............................   132
Office of Science role in national security Mission..............    83
Operations and construction......................................    81
Pension plan, Sandia national laboratory.........................   134
Performance measurements, goals, and accomplishments.............   123
Pit:
    Facility...................................................131, 135
        Modern...................................................   128
    Production...................................................   141
Program:
    Budget requirements..........................................   121
    Direction....................................................   173
    Infrastructure and administrative requirements...............   123
    Management and integration...................................    82
    Organization.................................................    79
Radiological dispersal devices...................................   132
Refocusing science and technology................................   164
Renewable:
    Energy production incentive (REPI).........................193, 194
    Support and implementation...................................   172
River:
    Corridor closure project.....................................   190
    Protection Management, Office of.............................   174
Russian:
    Plutonium disposition program................................   146
    Program funding..............................................   134
    Transition initiatives.......................................   147
Safeguards and security..........................................    67
Science:
    Accomplishments..............................................    59
    At national labs, problems attracting........................    85
    At the proposed Yucca Mountain repository....................    99
    Funding......................................................    91
    Laboratories infrastructure..................................    68
    Priorities, fiscal year 2003.................................    55
    Program direction............................................61, 67
Security:
    And combating terrorism......................................   113
    Costs........................................................   150
Site:
    Closure dates................................................   204
    Managers, listing of.........................................   190
Solar............................................................   170
Space power systems..............................................    88
Spent fuel:
    Fuel treatment...............................................    86
    Pyroprocessing and transmutation.............................    71
Stockpile, stewardship...........................................   111
    Overall budget for.........................................137, 138
Tailings at the Atlas MOAB site..................................   177
Tank waste at Hanford............................................   189
Top-to-bottom review, conclusions of the.........................   159
Transmission.....................................................   198
Transportation...................................................    82
    Security.....................................................    99
Tribal energy programs...........................................   200
Tritium........................................................129, 139
U.S. technological competitiveness...............................    60
    Customs assistance on export control.........................   133
Underground laboratory, science in an............................    92
University reactor fuel assistance and support...................    93
Uranium-233......................................................    94
Washington State concerns about accelerated cleanup..............   183
Waste:
    Acceptance...................................................    82
    Isolation pilot plant........................................   181
    Storage & transportation.....................................79, 82
Weldon Spring site.............................................200, 201
Wind.............................................................   171
    Resource data and mapping....................................   199
Workforce reductions at the Office of River Protection...........   183
Yucca Mountain...............................................76, 79, 80

                       DEPARTMENT OF THE INTERIOR

Accomplishments highlights, fiscal year 2001-2002................    14
Additional committee questions...................................    45
Animas-Laplata...................................................    23
Appropriation accounts, discussion of............................    29
Army civil works:
    Planning and review process..................................    31
    Program for fiscal year 2003.................................    27
Army Corps of Engineers--Civil Works Program.....................     2
Budget:
    Overview.....................................................     5
    Request, fiscal year 2003.................................... 4, 11
Bureau of Reclamation............................................  2, 7
California Bay-Delta restoration.................................13, 37
Carlsbad project.................................................    25
Central Utah project.............................................    15
Central Utah Project Completion Act..............................     8
Central Valley project restoration fund..........................    13
Civil Works program:
    Budget, highlights of the....................................    33
    Provides support to the Nation's economic security, how the..    34
Cobell v. Norton litigation......................................     4
Construction, general............................................29, 34
Corps post-attack actions, summary of............................    32
Critical infrastructure..........................................    39
CUP and Diamond Fork.............................................    42
Cyber and physical security challenge............................    42
Desalinization...................................................23, 38
Funding for Title XVI program, amount needed to complete.........    21
Garrison diversion unit..........................................    46
Government Performance and Results Act...........................    31
Homeland security................................................     6
Middle Rio Grande:
    Conservation District........................................    26
    Payment......................................................    26
    Project......................................................    21
Mission..........................................................    10
Montana, State of................................................    19
National drought summary.........................................    17
Native Americans, water rights settlements for...................    20
Natural resources, harnessing our................................     7
Offstream storage................................................    18
Operation:
    And maintenance, general backlog.............................    34
    Eligible receiver............................................    41
Pecos River basin................................................    25
Program highlights...............................................    27
Reclamation's fiscal year 2003 request...........................     8
Recreational opportunities at Corps constructed lakes............    35
Regulatory program...............................................    30
Rio Grande.......................................................    22
Significance of navigation to the Nation's economic activity.....    35
Silvery minnow...................................................    22
Title XVI........................................................    21
Trust programs...................................................     6
Water:
    And related resources........................................    11
    In the West..................................................    36

                                   - 

</pre></body></html>
